<html>
<title> - Department of the Interior, Environment, and Related Agencies Appropriations for Fiscal Year 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
                   DEPARTMENT OF THE INTERIOR, ENVIRON-
                    MENT, AND RELATED AGENCIES APPRO-
                    PRIATIONS FOR FISCAL YEAR 2016

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
            Prepared Statement of the 1854 Treaty Authority
                         1854 treaty authority
    The 1854 Treaty Authority (Authority) is a tribal organization 
funded by a Public Law 93-638 contract with the Bureau of Indian 
Affairs (BIA) under its Trust-Natural Resources Management-Rights 
Protection Implementation (RPI) budget.
  --The Authority supports the administration's proposal for an 
        increase of $4.5 million for BIA Rights Protection 
        Implementation and a corresponding increased allocation for the 
        Authority.
  --The Authority supports the full finding of contract support for its 
        Public Law 93-638, Self-Determination contract. The Authority 
        believes that at least the amount requested by the 
        administration should be appropriated, but it does not support 
        the administration's proposal to institute statutory caps on 
        contract support. Not only have those caps been proposed 
        without the consultation required for significant policy 
        changes, but the Authority has no source of funding to make up 
        for contract support shortfalls.
  --The Authority supports maintaining funding for the EPA Great Lakes 
        Restoration budget at least at its current level.
    The Authority is a tribal organization responsible for protecting, 
preserving, and regulating the treaty-reserved hunting, fishing and 
gathering rights in the territory ceded to the United States by the 
Chippewa in the treaty of September 30, 1854, 10 Stat. 1109. The Bois 
Forte Band and the Grand Portage Band created the Authority following 
Federal court affirmation of the rights in 1988. As part of a court-
approved agreement with the State of Minnesota, the Bands have 
obligations to preserve the natural resources in the 5 million acre 
ceded territory and to regulate the activities of Band members through 
a conservation code, enforcement officers, and a court. The Authority 
has also been involved with a variety of inter-agency efforts to study 
the effect of invasive species, climate change, and activities that 
impact treaty resources.
    Although it has significant responsibilities in a geographic area 
the size of Massachusetts, the Authority has only 11 full-time 
employees. With those limited resources, the Authority has been able to 
collaborate with State, tribal and Federal agencies to become a 
prominent presence in the conservation of resources critical to the 
subsistence hunting, fishing and gathering activities of the Chippewa.
    However, the successes of the Authority are overshadowed by the 
challenges facing the trust resources that are at the heart of the 
treaty rights. The Minnesota moose population has declined 
precipitously in just a few years and for reasons unknown. Invasive 
species threaten the treaty fishing and wild rice production areas 
across the ceded territory, and human activities continue to deplete or 
displace wildlife populations.
    The Authority urges the subcommittee and the Congress to 
acknowledge that the resources we seek to protect are trust resources, 
reserved in treaties that the United States has a legal obligation to 
protect and preserve.
                                 ______
                                 
  Prepared Statement of the Advisory Council on Historic Preservation
    The Advisory Council on Historic Preservation (ACHP) welcomes the 
opportunity to share its views with the subcommittee regarding fiscal 
year 2016 funding from the Historic Preservation Fund (HPF) for 
National Park Service (NPS) activities. The ACHP is an independent 
Federal agency that promotes the preservation, enhancement, and 
sustainable use of our Nation's historic resources. Created by the 
National Historic Preservation Act in 1966, the ACHP is charged with 
advising the President and Congress on national historic preservation 
policy. The ACHP membership, the majority of which is appointed by the 
President, is made up of Federal agencies, preservation experts, 
concerned citizens, a mayor, a governor, and major preservation non-
profit organizations.
    Traditionally, the HPF is the source of NPS grants-in-aid to State 
Historic Preservation Offices (SHPOs) and Tribal Historic Preservation 
Offices (THPOs), which perform critical functions in administering the 
Federal preservation program established by the National Historic 
Preservation Act (NHPA). The fiscal year 2016 budget proposal would 
continue this funding while also appropriating monies from the HPF for 
NPS grants to support the preservation of sites associated with the 
African American Civil Rights Movement and the identification of 
historic properties associated with communities currently 
underrepresented in the National Register of Historic Places. The ACHP 
supports the fiscal year 2016 budget proposal for the HPF as a minimum 
funding level and applauds the addition of funding for the Civil Rights 
initiative, but asks that the subcommittee also consider increasing 
funding to SHPOs and THPOs given chronic underfunding of their 
activities.
    SHPO/THPO Funding.--In 1976, Congress established the HPF to 
support the delivery of programs mandated by the NHPA. Annually, the 
HPF funds a variety of activities carried out by SHPOs and THPOs, 
forming the backbone of preservation activity in the Nation. These 
include conducting surveys of historic properties; preparing 
nominations to the National Register of Historic Places; reviewing the 
impact of Federal projects on historic properties; assisting in Federal 
Historic Tax Credit project reviews; implementing disaster recovery 
grants; and conducting preservation education and planning.
    In 1980, Congress authorized up to $150 million in annual Outer 
Continental Shelf revenue from oil and gas leases to be deposited into 
the HPF. However, annual appropriations have never approached this 
figure and, in recent years, have been less than $60 million. This 
level of funding has seriously impacted the overall capacity of both 
SHPOs and THPOs to efficiently fulfill their obligations in the Federal 
preservation program. This has constrained their effectiveness when 
participating in Federal agency planning processes and when providing 
expert advice on historic properties affected by Federal actions.
    Although funding levels for SHPOs have increased slowly since 1981, 
they have never approached full funding nor have they kept pace with 
inflation. Since 2010, funding essentially has been flat lined; the 
$46.925 million proposed in the fiscal year 2016 budget is level with 
last year's appropriation. When inflation is factored in, the current 
buying power of HPF funding for SHPOs is virtually the same as it was 
in 1987. Meanwhile, the demands placed on SHPOs have continued to 
increase as State budgets have declined.
    While SHPOs have been challenged by recent HPF funding levels, the 
picture has been even bleaker for THPOs. The average allocation of 
funds to individual THPOs has decreased so significantly over recent 
years that some programs have had to close for several months at the 
end of each year because of lack of funds. As the number of Indian 
tribes operating approved THPO programs increases, the amount of HPF 
funds appropriated for THPOs has not kept pace. In fiscal year 1996, 12 
tribes received an average of $80,000. In 2014, there were 151 THPOs 
certified by NPS to receive funds. The resulting average allocation of 
about $58,000 translated to a decrease of approximately $22,000 per 
THPO compared to 1996 even before adjusting for inflation. While the 
ACHP fully supports the proposed increase of $1 million for THPOs in 
the fiscal year 2016 budget, we believe that this increase is only a 
partial step toward meeting the need.
    The ACHP supports the proposed fiscal year 2016 funding level for 
SHPOs and THPOs as preferable to a lower figure. However, we urge the 
subcommittee to give serious consideration to increasing such funding. 
The ACHP strongly supports full and permanent funding for the HPF at 
its authorized level of $150 million for fiscal year 2016 and beyond. 
Adequate funding is critically important to ensure the effective 
participation of SHPOs and THPOs in consultation with Federal agencies 
on projects involving national priorities such as energy development 
and infrastructure permitting, disaster planning and resilience, 
climate change adaptation, military readiness and national security 
needs, and public lands management. SHPOs and THPOs also need 
predictable funding to continue to identify properties worthy of 
preservation and manage such information with modern digital 
technology. October 15, 2016, marks the 50th anniversary of the NHPA. 
Full and permanent funding for the HPF in the fiscal year 2016 budget 
would be a fitting recognition of this milestone and signify the 
Federal Government's continued commitment to assisting States and 
Indian tribes in preserving the rich heritage of our Nation for future 
generations.
    Civil Rights Initiative.--To mark the 50th anniversary of the 
Voting Rights Act, the fiscal year 2016 NPS budget proposes $50 million 
to restore and highlight key sites across the country that tell the 
story of the struggle for civil rights. Of that amount, $32.5 million 
would come from the Historic Preservation Fund, including $30.0 million 
in competitive grants to document, interpret, and preserve the stories 
and sites associated with the Civil Rights Movement and the African-
American experience, and $2.5 million for grants to Historically Black 
Colleges and Universities.
    The struggle to end legal racial discrimination and segregation had 
a profound influence on the course of American history and continues to 
shape our society today. The physical places associated with the people 
and events of the civil rights movement help us both to understand and 
to celebrate what took place 50 years ago. There are sites throughout 
the country associated with the African American civil rights struggle 
of the 1950s and 1960s, some of which are being preserved and 
interpreted, and some of which are threatened either directly by 
development or through deterioration. The proposed competitive grants 
from the HPF to help preserve such properties are much needed, and the 
ACHP fully supports this proposed funding.
    Historic structures on the campuses of historically black colleges 
and universities (HBCUs) also face threats, including lack of resources 
for repairs. Since the mid-1990s, Congress periodically has funded 
preservation grants for HBCUs, but the last funding was in 2009 with an 
infusion of funds from the American Recovery and Reinvestment Act. The 
proposed fiscal year 2016 HBCU grant funding would build upon the past 
benefits of this grant program and would be an important component of 
the overall NPS Civil Rights Initiative. The ACHP supports this 
proposed HPF funding.
    Grants for Underrepresented Communities.--The fiscal year 2016 NPS 
budget would continue an existing grant program that addresses the 
issue of underrepresentation of certain communities and groups in the 
range of properties included in the National Register of Historic 
Places. The goal of the program is to make strides toward ensuring that 
the makeup of the National Register fully reflects the diversity of the 
American story. In fiscal year 2014, funded projects included 
inventories of African American heritage sites in Montana, Pueblo 
Nations in New Mexico, LGBT sites in New York City, Latino properties 
in Washington's Yakima Valley, and Asian American sites in Utah. fiscal 
year 2014 grants also are supporting the preparation of National 
Register nominations for LGBT sites in Kentucky, African American Civil 
Rights resources in Baltimore, and sites associated with Chinese 
immigrants and Chinese Americans in Boston.
    The changing demographics of America pose opportunities as well as 
challenges for the national historic preservation program. The 
diversity of cultures in the United States shapes and enriches the 
American experience, and the Federal Government can encourage wider 
involvement and representation in determining what historic sites are 
worthy of recognition and preservation; how history and cultural 
heritage should be valued, interpreted, and preserved; and how the 
American public as a whole can take advantage of the programs and tools 
created under the NHPA. The HPF-funded underrepresented community grant 
program is an important tool in building a more inclusive preservation 
program, and the ACHP fully supports its continued funding in fiscal 
year 2016.
    Thank you for this opportunity to advise the subcommittee on fiscal 
year 2016 appropriations for the National Park Service from the 
Historic Preservation Fund. If the ACHP can provide any additional 
information, please contact our Executive Director, John M. Fowler, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5dfd3dac2d9d0c7f5d4d6ddc59bd2dac39b">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the Aleutian Pribilof Islands Association, Inc.
    The requests of the Aleutian Pribilof Islands Association (APIA) 
for the fiscal year 2016 Indian Health Service (IHS) budget are as 
follows:
  --Require IHS to provide an additional $1.1 million in recurring 
        funds to our Compact which has been reduced by $4.9 million due 
        to St. Paul's transfer.
  --Amend the Aleutian and Pribilof Islands Restitution Act to 
        appropriate $100.4 million for reconstruction of the Unalaska 
        Hospital and the Atka Island clinic, both of which were 
        destroyed during World War II.
  --Provide or require the IHS to allocate an additional $15 million to 
        fully fund Village Built Clinic Leases and make it a line item 
        in the budget.
  --Place Contract Support Costs on a mandatory funded basis.
  --Place IHS funding on an advance appropriations basis.
    The Aleutian Pribilof Islands Association (APIA) is a regional non-
profit tribal organization with members consisting of the 13 federally 
recognized tribes of the Aleutian Chain and Pribilof Islands region. 
APIA provides healthcare services to the Alaska Natives in four of the 
tribal communities of this region through funding received from IHS 
under Title V of the Indian Self-Determination and Education Assistance 
Act (ISDEAA). We also provide health-related services through various 
non-IHS grants and agreements.
    Our Regional Health Delivery System Imperiled.--The Alaska Tribal 
Health System depends on strong regional care organizations 
coordinating limited resources to produce economies of scale enabling 
them to provide quality healthcare services to Alaska Natives in their 
regions. For a region like the Aleutian Pribilof Islands, achieving 
economy of scale is a fragile undertaking. Last May the Aleut Community 
of St. Paul Island, the largest community in our region, notified us 
that they intended to withdraw from our Self-Governance agreement and 
transfer the responsibility of their healthcare services and associated 
funding from APIA to the Southcentral Foundation's Self-Governance 
agreement. This action became effective January 1, 2015, and it has 
resulted in the loss of 46 percent ($4.9 million) of our health budget. 
This will cause catastrophic disruption and reduction of services for 
the remaining communities in the APIA regional health system. It has 
greatly diminished economy of scale in providing the collaborative 
health arrangements throughout our area that we have worked so hard to 
establish. These collaborative arrangements also include funding 
outside of IHS such as Health Resources and Services Administration and 
Substance Abuse and Mental Health Services Administration grants which 
now must be untangled because of St. Paul's departure.
    As you know, there has been in effect since 1998 a statutory 
provision which is designed to promote efficient use of IHS funds by 
maintaining a regionalized system of healthcare delivery in Alaska by 
prohibiting disbursal of funds to tribes that withdraw from regional 
health entities. St. Paul may have the right to switch from one Self-
Governance agreement to another but it certainly is a blow to the 
carefully constructed regional health delivery system in Alaska.
    IHS Self-Governance has an underlying principle to do no harm to 
other tribes. The program from its beginning in 1992 as a demonstration 
project is replete with congressional report language and IHS Budget 
Justification statements of support for the program and simultaneously 
noting that Self-Governance agreements are to do no harm to other 
tribes. The huge loss of funds as the result of St. Paul transferring 
its healthcare service is doing severe harm to the remaining members of 
the communities serviced by our Self-Governance agreement.
    Hence, we are asking Congress to direct the IHS to provide an 
additional $1.1 million to APIA and that such funds be recurring to 
help us take the necessary steps and at least partially mitigate the 
loss of economy caused by the transfer of St. Paul.
    Funding For Reconstruction of Two Health Care Facilities Destroyed 
During WWII.--During World War II, communities within the APIA region 
suffered historic losses, not only to their populations due to deaths 
arising from inadequate healthcare and poor living conditions during 
removal by the U.S. Government to camps in Southeast Alaska, but also 
to two healthcare facilities that were destroyed and never rebuilt or 
accounted for in prior restitution made to the Aleutian and Pribilof 
tribal communities.
    On June 4, 1942, the Japanese bombed the 24-bed hospital operated 
at that time by the Bureau of Indian Affairs in Unalaska, Alaska. Since 
that time, the closest hospital is located in Anchorage, Alaska--800 
air miles away, and not accessible by roads. Ten days later and 350 
miles to the east, on June 14, 1942, the residents of Atka Island were 
forcibly evacuated from the Island by the U.S. for their ``safety,'' 
and the U.S. Navy burned all of the structures on the Island to the 
ground, including the Island's health clinic, to prevent their use by 
the Japanese.
    Congress passed the ``Aleutian and Pribilof Islands Restitution 
Act'' in 1988 (Public Law 100-383), which led to creation of the 
Aleutian and Pribilof Islands Restitution Trust to administer funds 
appropriated under the Restitution Act on behalf of the St. Paul, St. 
George, Unalaska, Atka, Akutan, Nikolski, Biorka, Kashega and Makushin 
communities. The Restitution Act provided very limited appropriations 
to partially address losses suffered by these communities during 
evacuations from 1942 to 1945. During that time, the treatment of the 
Aleut people in the evacuation camps lacked even the most basic 
attention to health and human safety matters, in extremely crowded, 
unheated, abandoned buildings with very poor sanitation conditions. Ten 
percent of the Aleuts who were evacuated died in the camps. For those 
who returned to their communities, many found their homes and community 
facilities destroyed, possessions taken, and churches stripped of 
religious icons by the U.S. military.
    The time is now to replace the Unalaska hospital and the Atka 
Island Clinic. The Aleutian and Pribilof tribal communities are the 
most remote within Alaska. The next level of referred specialty and 
inpatient care is 800 air miles away in Anchorage. To say that our 
patients suffer from a lack of access to basic healthcare services is 
an understatement. Patients have died en route to Anchorage for 
emergency care; patients have died due to inability to receive timely 
screening of cancer; patients often must leave their families for 
months at a time when receiving care; and mothers must leave their 
families for 4 months to deliver their babies. This is unacceptable 
care, by any standard. The replacement hospital facility would directly 
serve the 5,000 year-round residents of Atka, Dutch Harbor, Nikolski 
and Unalaska, in addition to the typically hundreds of seasonal fishery 
workers requiring immediate emergency or primary care. Having a 
hospital would eliminate the need to send referrals to Anchorage at an 
average airfare cost of $1,400, not to mention the cost of lodging, 
meals and the personal hardship of having to leave the community for 
days at a time. Atka lies 350 miles away from Unalaska, so until its 
clinic has sufficient capacity to meet local need, that population is 
at severe risk due to its isolated, weather-challenged, location.
    Based upon APIA budget estimates derived from the IHS Facility 
Budget Estimating System, the Unalaska hospital facility project cost 
for design, construction and equipping the total facility is 
$96,900,000. Based upon a 2003 Health Clinic Design Report funded by 
the Denali Commission, construction of a health clinic sufficient to 
meet the needs in Atka, and adjusting from 2003 for current inflation, 
will cost $3,500,000. APIA thus requests $100.4 million in funding for 
reconstruction of these facilities.
    APIA is ranked near the top in the IHS's joint venture program, 
however we are unable to move forward without identified construction 
resources. For facilities subject to the IHS joint venture program, 
construction must be accomplished with non-IHS money. The Restitution 
Act offers the best legislative framework for an appropriation from 
Congress. We recommend that the Restitution Act be amended to add a new 
Section 1989C-4(b)(1)(D) to 50 U.S.C, to state as follows: ``(D) One 
account for the construction, operation, and maintenance of an 
inpatient hospital facility in Unalaska and health clinic in Atka with 
a direct appropriation of $100,400,000 for those purposes.'' We ask for 
the Committees' support of such an amendment and the related 
appropriation of funds.
    If we are to successfully receive this non-IHS construction project 
funding, the joint venture program would allow APIA to enter into a no-
cost lease with the IHS for a period of 20 years; the IHS would in turn 
provide staff, equipment and supplies for the operations and 
maintenance of the facilities. The joint venture program is competitive 
and funding is limited. This year the IHS announced the results of its 
2014 Joint Venture solicitation--of 37 pre-applications, 13 were 
selected to submit final applications and six of those will be chosen 
to move forward. Yet, the IHS has indicated it does not have adequate 
resources to fund even those programs, with the next Joint Venture 
solicitation taking place in 3-5 years. Tribes in Alaska support the 
IHS joint venture program as one of the best solutions to immediately 
address critical healthcare needs in our communities.
    Funding for Village Built Clinics in Alaska.--For the last several 
years, APIA has submitted testimony on the need to address chronic 
underfunding of Village Built Clinics (VBCs) in Alaska. VBCs, which are 
clinic facilities leased by the IHS from other entities, are a vital 
component of the provision of basic healthcare services in rural 
Alaska, as they serve as the clinic space for the Community Health Aide 
Program (CHAP) under the Indian Health Care Improvement Act. The CHAP 
utilizes a network of community health aides and practitioners to 
provide primary healthcare services in otherwise unserved rural and 
isolated areas.
    In 1989, Congress specifically authorized the operation of 170 VBCs 
in Alaska and provided approximately $3 million in funding. Since then, 
Congress has not provided amounts specifically for VBCs in the IHS 
appropriation, and IHS has had discretion to fund VBCs from its lump 
sum appropriation. IHS has needlessly treated the $3 million level as a 
cap, and has refused to increase funding for VBC leases. Funding 
therefore has not kept pace the rising costs of healthcare in rural and 
isolated areas. In fact, the chronic underfunding over decades has 
resulted in deterioration and in some cases closure of VBC facilities, 
threatening the Community Health Aid Program that hinges on the 
continued availability of properly maintained VBC space. Our facilities 
in Atka and Nikolski have been cited for numerous patient HIPPA and 
safety issues including no patient privacy and holes in the floor. In 
any other community, these clinics would be condemned; yet the IHS 
expects us to continue to provide care with no remedy at hand. It is no 
wonder that we have a difficult time recruiting and retaining providers 
to serve our communities. Unfortunately, we are not alone in our 
predicament.
    A recent estimate is that $15 million additional dollars are needed 
to fully fund the VBC program. We urge you to provide or to direct the 
IHS to add $15 million to the current amount (about $4 million) 
provided for the VBCs and that this be made a line item in the budget.
    Mandatory Contract Support Costs/IHS Advance Appropriations.--We 
join with many others in Indian Country in supporting the 
administration's proposal to place Contract Support Costs (CSC) on a 
mandatory basis, although we and other tribes/tribal organizations urge 
that it be implemented beginning in fiscal year 2016. It is heartening 
to see that the hard work of tribes on this issue has brought them 
around on the matter of the Federal Government honoring its contracts. 
We thank this subcommittee for its support for full funding for CSC and 
urge that you take it to its logical conclusion which is that the 
funding be converted to a mandatory basis.
    We also support placing the IHS budget on an advance appropriations 
basis, as Congress has done with the Veterans Administration health 
accounts. The fiscal year 2016 budget justification for the VA said 
advance appropriation is necessary to ``fulfill the administration's 
commitment to provide reliable and timely resources to support the 
delivery of accessible and high-quality medical services for veterans. 
This funding enables timely and predictable funding for VA's medical 
care to prevent our Nation's veterans from being adversely affected by 
budget delays, and provides opportunities to more effectively use 
resources in a constrained fiscal environment.'' The same can be said 
about healthcare for Indians and Alaska Natives.
    We appreciate your consideration of our request outlined in this 
testimony. On behalf of APIA and the people we serve, I am happy to 
provide any other additional information desired by the committees.
                                 ______
                                 
         Prepared Statement of the American Alliance of Museums
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, thank you for inviting me to submit this testimony. My 
name is Ford Bell and I serve as President of the American Alliance of 
Museums (AAM). We urge your support for at least $155 million each in 
fiscal year 2016 for the National Endowment for the Arts (NEA) and the 
National Endowment for the Humanities (NEH), as well as $935.8 million 
for the Smithsonian Institution. We also request your support for the 
Historic Preservation Fund (HPF), including at least $50 million for 
State Historic Preservation Offices, $15 million for Tribal Historic 
Preservation Offices, $32.5 million to preserve the sites and stories 
of the Civil Rights Movement, and restored funding for the Save 
America's Treasures and Preserve America programs.
    Before detailing these funding priorities for the museum field, I 
want to express my deepest appreciation for the difficult position in 
which the subcommittee finds itself, given inadequate 302(b) 
allocations in recent years. Like many museums, the subcommittee will 
need to make many difficult decisions, each of which comes with a 
unique set of consequences. In this context, however, we would posit 
that each of our priorities outlined below is a vital investment that 
will both protect our Nation's cultural treasures and provide a 
tremendous benefit to the overall economy.
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, natural history museums, planetariums, 
presidential libraries, science and technology centers, and zoos, among 
others--along with the professional staff and volunteers who work for 
and with museums. AAM is proud to work on behalf of the Nation's 
museums, which employ 400,000 people, invest more than $2 billion 
annually on educational programs, receive more than 55 million visits 
each year from primary and secondary school students, and directly 
contribute $21 billion to their local economies.
    Museums are essential in our communities for many reasons:
  --Museums are key education providers.--Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography, and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, STEM education, youth 
        training, job preparedness, and a range of programs geared 
        toward homeschooling families. They reach beyond the scope of 
        instructional programming for schoolchildren by also providing 
        critical teacher training. There is a growing consensus that 
        whatever the new educational era looks like, it will focus on 
        the development of a core set of skills: critical thinking, the 
        ability to synthesize information, creativity, and 
        collaboration. We believe museums are uniquely situated to help 
        learners develop these core skills, and this is borne out by 
        evidence. According to a recent University of Arkansas study, 
        students who attended just a half-day field trip to an art 
        museum experienced an increase in critical thinking skills, 
        historical empathy and tolerance. For students from rural or 
        high-poverty regions, the increase was even more significant.
  --Museums create jobs and support local economies.--Museums serve as 
        economic engines, bolster local infrastructure, and spur 
        tourism. Both the U.S. Conference of Mayors and the National 
        Governors Association agree that cultural assets such as 
        museums are essential to attracting businesses, a skilled 
        workforce, and local and international tourism.
  --Museums address community challenges.--Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities, and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum while others 
        are addressing veterans' post-war trauma or providing youth job 
        training opportunities.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations.--Teachers, students, and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need more help in 
        digitizing collections.
    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions--including museums, colleges, universities, 
archives, and libraries--for educational programming and the care of 
collections. NEH supports museums as institutions of learning and 
exploration, and as keepers of our cultural, historical, and scientific 
heritages.
    In 2014, through Preservation & Access, one of NEH's national 
program divisions, 67 peer-reviewed, competitive grants totaling over 
$4.8 million dollars were awarded to museums, historical societies and 
historic sites for a variety of projects to preserve and provide access 
to our Nation's rich cultural heritage. Across all NEH divisions 
(including Preservation and Access, Research, Education, Public 
Programs, Challenge Grants and Digital Humanities), these institutions 
received 128 awards totaling over $13.5 million. Demand for humanities 
project support, as demonstrated by NEH grant application rates, far 
exceeds available funding. In fiscal year 2014, NEH received 4,281 
competitive grant applications representing more than $431 million in 
requested funds, but was only able to fund 15.2 percent of these peer-
reviewed project proposals.
    NEH also provides annual grants to State humanities councils 
located in every State and U.S. territory. In 2014, 55 State councils 
supported 2,402 events in museums, reaching a total audience of more 
than 5.8 million people.
    Here are just two examples of how NEH funding supports museums' 
work in your communities:
  --In 2013, the Mississippi Department of Archives and History 
        received $274,390 to select, digitize, and make available 
        100,000 pages of Mississippi newspapers published between 1836 
        and 1922. These primary sources offer vital insight into State 
        and national heritage.
  --Historic London Town in Edgewater, Maryland received $177,814 in 
        2013 to support two 1-week workshops for 80 school teachers on 
        the development of slavery in the Chesapeake Bay region, with 
        lessons from local museums on teaching this difficult issue.
    The National Endowment for the Arts makes art accessible to all and 
provides leadership in arts education. Established in 1965, NEA 
supports great art in every congressional district. Its grants to 
museums help them exhibit, preserve, and interpret visual material 
through exhibitions, residencies, publications, commissions, public art 
works, conservation, documentation, services to the field, and public 
programs.
    In 2014, more than 2,200 museums participated as Blue Star 
Museums--a partnership between NEA, Blue Star Families, and the 
Department of Defense--to offer free admission to all active duty and 
reserve personnel and their families from Memorial Day through Labor 
Day. This particular effort served over 700,000 people, while many 
other museums offer military discounts or free admission throughout the 
year.
    In 2014, NEA made more than 140 direct awards to museums, totaling 
over $5.4 million. Forty percent of NEA's grant funds are distributed 
to State arts agencies for re-granting, and many museums participate at 
this level as well.
    Receiving a grant from the NEA confers prestige on supported 
projects, strengthening museums' ability to attract matching funds from 
other public and private funders. On average, each dollar awarded by 
the NEA leverages $9 dollars from other sources.
    Here are two examples of how NEA funding is used to support 
museums' work in your communities:
  --Alaska's Chilkat Indian Village received a $50,000 grant to work 
        with museum professionals to create an exhibit that will convey 
        the ancestral, cultural, and artistic history of the Chilkat 
        people. The exhibition will help foster community identity, 
        serving the village, the neighboring community of Haines, and 
        national and international visitors.
  --The International Folk Art Foundation in Santa Fe, New Mexico 
        received $50,000 to support its Imagining Home Project. 
        Traditional artists from local immigrant communities and abroad 
        display work in the museum's Gallery of Conscience on the 
        themes of leaving home, and the challenges and opportunities 
        presented by life in a new country.
    In addition to these direct grants, NEA's Arts and Artifacts 
Indemnity program also allows museums to apply for Federal indemnity on 
major exhibitions, saving them roughly $30 million in insurance costs 
every year and making many more exhibitions available to the public--
all at virtually no cost to the taxpayer. We were glad last year to 
work with the Association of Art Museum Directors and with the 
subcommittee to increase the indemnity limits as part of Public Law 
113-235, and we remain extremely grateful for the subcommittee's work 
on this matter.
    The Smithsonian Institution comprises some of the most visited 
museums in the world, including the National Museum of American 
History, the National Air and Space Museum, and the National Museum of 
Natural History. The Smithsonian reaches visitors and learners of all 
ages, in the Nation's capital and across the country, with innovative 
exhibits and programs. Its 20 museums--including the National Zoo--
attract 30 million visits every year, and their content and curricula 
are used by teachers all over the country.
    The President's fiscal year 2016 budget request of $935.8 million 
includes critical funding for the National Museum of African American 
History and Culture, which will tell an essential part of American 
history. Additional funding for collections care, ground-breaking 
research, facilities maintenance, and technology upgrades will allow 
the Smithsonian to care for the Nation's treasures and increase access 
for all. We enthusiastically support this robust funding proposal for 
the Smithsonian Institution. However, we have serious concerns about 
the President's proposed STEM consolidation plan, which would eliminate 
or cut important programs that support museums at the National 
Institutes of Health, the National Oceanic and Atmospheric 
Administration, and the National Aeronautics and Space Administration.
    The Historic Preservation Fund (HPF) is the funding source of 
preservation awards to States, tribes, local governments, and 
nonprofits. State and Tribal Historic Preservation Offices (SHPOs and 
THPOs) carry out the historic preservation work of the Federal 
Government on State and tribal lands. These duties include making 
nominations to the National Register of Historic Places, reviewing 
impacts of Federal projects, providing assistance to developers seeking 
a rehabilitation tax credit, working with local preservation 
commissions, and conducting preservation education and planning. This 
Federal-State-local foundation of America's historic preservation 
program was established by the National Historic Preservation Act. We 
urge you to provide $50 million for SHPOs and $15 million for THPOs 
through the Historic Preservation Fund. We also urge you to restore 
funding of $25 million for Save America's Treasures and $4.6 million 
for Preserve America, which have not been funded in recent years.
    Also in the context of the Historic Preservation Fund, we support 
the proposed Civil Rights Initiative, including $30 million for 
competitive historic preservation grants to preserve the stories and 
sites associated with the Civil Rights Movement as well as $2.5 million 
to help Historically Black Colleges and Universities conduct similar 
documentation and interpretation.
    The 2005 Heritage Health Index of archives, libraries, historical 
societies, and museums concluded that action is needed to prevent the 
loss of 190 million artifacts that require conservation treatment: 59 
percent have collections damaged by light; 56 percent have insufficient 
security to protect their collections; 80 percent do not have an 
emergency plan that includes collections; 71 percent need additional 
training and expertise for staff caring for collections; and only 13 
percent have access to endowment funds for preservation.
    Historic preservation programs matter now more than ever--not only 
because they are essential to protecting our national heritage, but 
because they serve as economic development engines and job creators. 
Funds invested in building rehabilitation have been shown to create 
more jobs and retail activity than those spent on new construction.
    I want to once more acknowledge the difficult choices that the 
subcommittee faces. I hope that my testimony has made it clear why 
these priorities are of critical importance to the Nation and will 
provide a worthwhile return on investment to the American taxpayer. 
Thank you again for the opportunity to submit this testimony.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists
    To the Chair and members of the subcommittee:
    Thank you for this opportunity to provide testimony on behalf of 
the American Association of Petroleum Geologists (AAPG) about the 
importance of the geological programs conducted by the U.S. Geological 
Survey (USGS).
    AAPG is the world's largest scientific and professional geological 
association. The purpose of the association is to advance the science 
of geology, foster scientific research, and promote technology. AAPG 
has over 40,000 members around the world, with roughly two-thirds 
living and working in the United States. These are the professional 
geoscientists in industry, government, and academia who practice, 
regulate, and teach the science and process of finding and producing 
energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
the geosciences, and particularly petroleum geology, play in our 
society. The USGS is crucial to meeting these societal needs, and 
several of its programs deserve special attention by the subcommittee.
                  unconventional oil and gas research
Multiple Programs
    As part of the effort to improve America's energy security, protect 
the environment, save consumers money, and maintain United States 
leadership in emerging energy technologies, the USGS, the U.S. 
Department of Energy (DOE), and the Environmental Protection Agency 
(EPA) have created an interagency program that aims to understand the 
potential environmental, health, and safety impacts of hydraulically 
fractured oil and gas resources.
    AAPG would like to emphasize that while hydraulic fracturing 
technology continues to evolve, it is not a new technology and we have 
substantial knowledge about its impacts as well as evidence of its 
long-term safety. This should form the basis for any new research.

    --AAPG supports the USGS budget increase in the fiscal year 2016 
President's request that will support this research effort including: 
resource assessments and characterization; water quality; and water 
availability--areas of USGS scientific leadership. AAPG does not 
support proposed funding for Contaminants Biology. Collection of human 
health data is the responsibility of the EPA, as outlined in the 
Interagency Unconventional oil and gas strategy.
                     geologic resource assessments
Energy Resources Program
    The USGS Energy Resources Program (ERP) conducts both basic and 
applied geoscience research focused on geologic energy resources (both 
domestic and international), including oil, natural gas, coal, coalbed 
methane, gas hydrates, geothermal, oil shale, and bitumen and heavy 
oil.

    --AAPG supports the President's fiscal year 2016 request for the 
Energy Resources Program.

    An urgent problem addressed through the ERP is the preservation of 
geological and geophysical data, engineering data, maps, well logs, and 
samples. This effort has never been funded at the authorized level, $30 
million/year. This financial neglect is compounded by the difficult 
financial situations facing State geological surveys that are 
responsible for preserving most of the country's subsurface data.
    Responsible management and efficient development of natural 
resources requires access to the best available scientific information. 
Over many years industry, such as petroleum and mining companies, has 
invested billions of dollars to acquire geological and geophysical 
data. Because of changing company focus and economic conditions this 
data may no longer have value to the company that acquired it, and is 
in jeopardy of being discarded.
    But this data still has value to society. The data is valuable for 
further natural resources exploration and development, and can be 
applied to basic and applied earth systems research, environmental 
remediation, and natural-hazard mitigation. It is the type of data that 
will enable future generations of scientists and policy makers to 
address the Nation's energy, environmental, and natural hazard 
challenges of the 21st century.
    For example, this data has been essential to the development of oil 
and gas from shales. Geoscientists require previously acquired 
subsurface cores and samples to identify prospective natural gas 
deposits that were bypassed before new technology made shale resources 
economically producible.
    The NGGDPP was authorized at $30 million annually in EPACT 2005. 
Historical allocations for this program have ranged from $750,000 to 
$1,332,345 per year. These funding levels are inadequate to achieve the 
program's objectives. Furthermore, with the precipitous decline in oil 
prices some companies may go out of business or cease operations in a 
particular region. This could lead to additional obligations on public, 
primarily State, repositories.

    --AAPG supports the reauthorization of the Preservation of the 
Geological and Geophysical Data Program and recommends that the 
subcommittee appropriate an additional $5 million in fiscal year 2016 
for the preservation of geological and geophysical data.
Mineral Resources Program
    The United States is the world's largest consumer of mineral 
commodities. They form the building blocks of our economy.
    It is therefore essential to the Nation's economic and national 
security that the Federal Government understands both the domestic and 
international supply and demand for minerals and mineral materials. 
This data is used throughout government (Departments of Commerce, 
Interior, Defense, and State; the Central Intelligence Agency; the 
Federal Reserve) and the private sector.
    The USGS Mineral Resources Program (MRP) is the only Federal and 
publicly-available source for comprehensive information and analysis of 
mineral commodities and mineral materials.

    --AAPG supports the President's fiscal year 2016 request for the 
Mineral Resources Program.
National Cooperative Geologic Mapping Program
    AAPG supports the National Cooperative Geologic Mapping Program 
(NCGMP). This unique partnership between the Federal and State 
governments and the university community demonstrates the importance of 
geoscience to society. The geologic maps produced by this program are 
used for natural resource management, natural hazard mitigation, water 
resource management, environmental conservation and remediation, and 
land-use planning.
    NCGMP deserves special commendation for its EDMAP initiative. This 
university partnership enables students, working in a close mentoring 
relationship with faculty, to produce maps while learning essential 
mapping skills. As such, the program delivers an immediate return on 
the Federal investment in terms of beneficial maps, as well as a future 
return in the form of a trained and competent next generation 
workforce.

    --AAPG supports the President's funding request of $25.3 million 
for the National Cooperative Geologic Mapping Program, including 
increases for Coastal Resilience and Landscapes and Sinkhole Hazards.

    Thank you for the opportunity to present this testimony to the 
subcommittee. AAPG also appreciates your leadership and support for the 
geosciences. As you deliberate appropriate funding levels for these 
USGS programs, please consider the important public policy implications 
these choices entail.
    If you have any questions about AAPG or this testimony, please 
contact Edith Allison, the director of our policy office in Alexandria 
at e-mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b5b1bcbcb9a3bfbe90b1b1a0b7febfa2b7fe">[email&#160;protected]</a>
                                 ______
                                 
          Prepared Statement of the American Bird Conservancy
                                                     April 8, 2015.

 
 
 
Hon. Lisa Murkowski                   Hon. Tom Udall
Chairwoman                            Ranking Member
Interior Appropriations Subcommittee  Interior Appropriations
                                       Subcommittee
United States Senate                  United States Senate
131 Dirksen Senate                    125 Hart
Washington, DC 20510                  Washington, DC 20510
 

    Dear Chairwoman Murkowski and Ranking Member Udall:

    American Bird Conservancy (ABC) is a 501(c)(3) national non-profit 
organization dedicated to the conservation of wild native birds and 
their habitats throughout the Americas. Founded in 1994, ABC is the 
only U.S. based group dedicated solely to overcoming the greatest 
threats facing native birds in the Western Hemisphere. ABC supports the 
highest level of funding possible for the Neotropical Migratory Bird 
Conservation Act Grants and Migratory Bird Joint Ventures for fiscal 
year 2016.
    Each spring, more than 4 billion birds make their spectacular 
migration from their winter habitats in Mexico, Central and South 
America, and the Caribbean to their breeding grounds throughout North 
America. Many species of birds that we see in our back yards are 
affected by habitat conditions in their wintering grounds located 
outside of the U.S. Birds like the Wilson's warbler and the Mountain 
plover are currently in decline and may become endangered or threatened 
resulting in the need for even more resources to be allocated making it 
more important than ever now to support funding for the Neotropical 
Migratory Bird Conservation Act.
    Since 2002, the Neotropical Migratory Bird Conservation Act (NMBCA) 
has functioned as a matching grant program to fund projects that 
conserve neotropical migratory birds--those that breed in or migrate 
through the United States and Canada and spend the non-breeding season 
in Latin America and the Caribbean. Migratory birds make a significant 
contribution to the U.S. economy. Recreation associated with migratory 
birds is big business in this country. The 2011 National Survey of 
Fishing, Hunting, and Wildlife-Associated Recreation, conducted by the 
U.S. Fish and Wildlife Service reports that nearly 47 million Americans 
enjoy watching and feeding birds, spending $107 billion on birdwatching 
equipment and travel within the United States that year alone creating 
660,000 jobs and $13 billion annually in local, State, and Federal tax 
revenue.
    NMBCA has a proven track record of success over more than a decade. 
Since its inception, the program has received more than $50.1 million 
to positively affect 3.7 million acres and partners have leveraged 
Federal funds with more than $190.6 million in non-Federal 
contributions--a more than 4-to-1 match ratio.
    As an organization that works with migratory birds, which by 
definition cross international borders during their migration patterns, 
we know that protection and restoration of habitat must occur across 
the continent if the goal is to protect the species. As a result, ABC 
respectfully requests that NMBCA be funded at the highest level 
possible. In fiscal year 2015 the program was funded at approximately 
$3.66 million and the President's budget fiscal year 2016 request is 
$4.16M.
    Migratory Bird Joint Ventures (JVs) also exemplify a highly 
successful, cost-effective approach to conservation. By applying 
science and bringing diverse constituents together, JVs across the 
United States have created a model for solving wildlife management 
problems and restoring habitats critical to conserving declining 
species. Nationally, JVs have protected, restored, or enhanced more 
than 24 million acres of important habitat for migratory bird species. 
There are currently 21 JVs in the United States that provide 
coordination for conservation planning and implementation of projects 
that benefit all migratory bird populations and other species. Since 
the program's inception in 1986, Joint Ventures have worked with 5,700 
partners to help enhance, conserve, restore, and protect nearly 24 
million acres of essential habitat across North America.
    Joint Ventures have a long history of success in implementing bird 
conservation initiatives mandated by Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies. For every dollar appropriated for Joint 
Ventures leveraged more than $33 in non-Federal partner funds. ABC 
respectfully requests that JVs be funded at the highest level possible. 
Joint Ventures have been funded at approximately $13.1 million in 
fiscal year 2015. The administration's fiscal year 2016 request for 
Joint Ventures is $18.591 million with an additional $5 million to help 
JVs increase species resilience.
    America faces a serious challenge to reverse the decline of many of 
our bird species, but it is possible. Since birds are sensitive 
indicators of how we are protecting our environment as a whole, this 
decline signals a crisis that Congress must act now in order to reverse 
it. ABC strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and the economy.
                                 ______
                                 
   Prepared Statement of the American Cultural Resources Association
Our Request: $89.91 million for the Historic Preservation Fund as 
follows:

  --$46.925 million for State Historic Preservation Offices (SHPOs)
  --$9.985 million for the Tribal Historic Preservation Offices (THPOs)
  --$500,000 in grants for underrepresented populations
  --$30 million for the Civil Rights competitive grants initiative
  --$2.5 million for competitive grants for Historically Black Colleges 
        and Universities (HBCUs)

    These programs are funded through withdrawals from the U.S. 
Department of the Interior's National Park Service Historic 
Preservation Fund (16 U.S.C. Sec. 470h) (HPF).
  acra members deliver responsible heritage management solutions that 
         balance economic development and heritage preservation
    ACRA is the national trade association representing the interests 
of heritage management firms of all sizes, types and specialties. 
ACRA's member firms undertake much of the legally mandated heritage 
management studies and investigations in the United States.
    There are approximately 1,300 heritage management firms nationwide 
that employ over 10,000 heritage management professionals, including 
archaeologists, preservation architects, architectural historians, 
historians, and an increasingly diverse group of other specialists. 
These firms generate over $1 billion in revenue annually. ACRA firms 
create and support jobs, providing employment for American-educated and 
trained professionals, and serve an important role in delivering 
responsible heritage management solutions for our communities that 
appropriately balance economic development and heritage preservation.
              funding shpos and thpos supports development
    In 1966, Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (16 U.S.C. 
Sec. Sec. 470, et seq.) (NHPA), which established historic preservation 
as a Federal Government priority. Historic preservation recognizes that 
what was common and ordinary in the past is often rare and precious 
today, and what is common and ordinary today may be extraordinary in 
the future.
    Instead of using Federal employees to carry out the Act, the 
Department of Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs and THPOs 
to, among other tasks, review all Federal projects for their impact on 
historic properties. Heritage management firms work closely with 
Federal, State and local government agencies, private industry and non-
profit groups to conduct the reviews required by the NHPA.
    In order for the review process to work smoothly, SHPOs and THPOs 
must have adequate funding. Proper financial support for their work 
allows SHPOs and THPOs to review and approve projects in a timely 
basis, facilitating development, moving projects forward in a timely 
and efficient manner, and ensuring that heritage management firms can 
get the job done. ACRA appreciates the administration's efforts to 
support preservation and the HPF, and applauds the addition of funding 
for the Civil Rights initiative; however, we ask that the subcommittee 
also consider increasing funding to SHPOs and THPOs given chronic 
underfunding of their activities.
    The budget request does include a $1 million increase for THPOs. 
THPOs are chronically underfunded; the additional $1 million is a start 
to solving that challenge for tribes working to preserve and protect 
their culture and history. The request also includes $30 million for 
Civil Rights initiatives and $2.5 for HBCUs in recognition of the 
anniversary of the Civil Rights movement. ACRA supports these funding 
pieces, as well, and hopes that such funds will help diversify the 
sites preserved under the HPF.
                               conclusion
    On behalf of its 150 member firms, ACRA would like to thank the 
subcommittee for the opportunity to submit testimony. ACRA also thanks 
the subcommittee for its commitment to historic preservation and 
heritage management.
                                 ______
                                 
          Prepared Statement of the American Forest Foundation
    Investments in the U.S. Forest Service Forest Stewardship Program 
and the U.S. Forest Service Forest Health Protection Program will help 
family forest owners get ahead of increasing threats from invasive 
pests and pathogens, wildfire, and development pressures. Complementing 
these efforts, the Landscape Scale Restoration Program provides an 
innovative approach to target resources for maximum impact, meaning 
support for this program will ensure measurable outcomes on the ground. 
It is also critical that funding for U.S. Forest Service Forest 
Inventory and Analysis and overall Forest Service Research and 
Development programs are improved and maintained, so these programs 
continue to provide the information and technical resources for 
landowners to make informed decisions about America's forests.
  --Support the U.S. Forest Service Forest Health Protection (Federal 
        and Cooperative) at the fiscal year 2012 funding level of $111 
        million;
  --Support the U.S. Forest Service Forest Stewardship Program fiscal 
        year 2012 budget level of $29 million;
  --Support the President's funding request of $23.513 million for the 
        Landscape Restoration Program;
  --Support the Presidents funding request of $83 million for the 
        Forest Inventory and Analysis research;
  --Support the U.S. Forest Service Research and Development Program at 
        the fiscal year 2012 funding level of $231 million;
  --Support the U.S. State Fire Assistance Program at the fiscal year 
        2012 funding level of $86 million; and
  --Support the Wildfire Disaster Funding Act that will provide $86 
        million in funding for fire suppression activities.
    Investments in forestry programs will help strengthen rural 
communities, support rural jobs, and ensure that communities that rely 
on the clean water and air, wildlife habitat, and forest products from 
family-owned forests, don't face additional costs for these goods and 
services.
    Unfortunately, new data suggests that by 2020, more than 18 million 
acres of family forests are threatened by housing development. 
Furthermore, almost 14 million acres are at risk of mortality due to 
insects and disease, while 29 million are at high or very high risk of 
destruction from wildfire.\1\ At the same time, less than 15 percent of 
family forest owners have sought professional advice for the 
stewardship of their forests. Many are under the impression that 
leaving their woods alone is the best option. It is therefore essential 
we ensure these families have tools, technical information, and policy 
support to keep their forests as forests, for current and future 
generations.
---------------------------------------------------------------------------
    \1\ Family Forest Research Center, 2014 Preliminary Data.
---------------------------------------------------------------------------
    The American Forest Foundation is a nonprofit conservation 
organization that works on the ground with more than 22 million family 
woodland owners through a variety of programs, including the American 
Tree Farm System, to protect the values and benefits of America's 
family forests, with clear ecological and economic impact.
                       forest health investments
    Threats from invasive species and pests continue to pervade onto 
American tree-farmer's land, posing economic and environmental 
hardships. Close to 500 species of tree-damaging pests from other 
countries have become established in the country, and a new one is 
introduced, on average, every 2 to 3 years. The USFS Forest Health 
Protection (FHP) Program is a critical resource supporting efforts to 
prevent, contain, and eradicate dangerous pests and pathogens affecting 
trees and forests. The program provides critical assistance to other 
Federal agencies, State agencies, local agencies and private 
landowners.
    There was a 2.2 percent reduction in State and Private Forestry 
(S&PF) land that was reached from fiscal year 2012 to fiscal year 2013 
for support for invasive species infestations.\2\ Approximately 423,000 
acres of Cooperative lands were reached in fiscal year 2013, but a 
reduction in funding from fiscal year 2011 to fiscal year 2013 resulted 
in 321,000 fewer acres receiving treatment. Any further cuts to this 
program will necessitate deeper reductions in support for communities 
already facing outbreaks and expose more of the Nation's family-owned 
forests to the devastating and costly effects of the Asian Longhorned 
Beetle, Emerald Ash Borer, Hemlock Wooly Adelgid, Thousand Cankers 
Disease, Western Bark Beetle and other pests.
---------------------------------------------------------------------------
    \2\ USFS Forest Health, January 2015, Forest Health Monitoring: 
National Status, Trends, and Analysis 2014.
---------------------------------------------------------------------------
                       forest stewardship program
    The Forest Stewardship Program provides the guidance necessary to 
ensure our Nation's family-owned forests can continue to provide 
benefits (clean air and water, etc.), while leaving them less 
susceptible to forest health threats and conservation to non-forest 
users. Approximately 14 billion tons of carbon are stored on family 
forests and close to 400,000 acres of family forests are critical for 
the health of headwater streams. Active family forest-owners that 
provide many environmentally sustainable benefits are in need of the 
Forest Stewardship Program (FSP) to help them perform forest management 
plans on their property. The FSP is also critical in engaging the 95 
percent of woodland owners who are not actively managing their land, 
and therefore have forests that are more susceptible to the 
environmental and economic threats such as invasive species and pests.
    Families and individuals are the largest group of forest owners in 
the U.S., therefore responsible for the stewardship of 35 percent of 
America's forest legacy.\3\ Many of these families and individuals 
receive key advice and technical assistance from State service 
foresters. The Forest Stewardship Program can increase its 
effectiveness by focusing on high-priority areas and new landowners. 
This can be accomplished if the U.S. Forest Service Forest Stewardship 
Program fiscal year 2012 budget level of $29 million is supported. In 
addition, the AFF has partnered with State forest agencies to implement 
outreach tools and micro-targeting strategies to engage ``unengaged'' 
woodland owners; to date, the AFF has seen a 12 percent response rate. 
These outreach tools combined with a highly focused, appropriately 
funded Forest Stewardship Program has the potential to have an even 
greater impact.
---------------------------------------------------------------------------
    \3\ USDA, May 2008, Who Owns America's Forest?
---------------------------------------------------------------------------
            support the landscape scale restoration program
    The Landscape Scale Restoration Program helps to concentrate 
resources to accomplish outcomes on-the-ground where they are needed 
the most. This program complements the ongoing work of the FSP and 
further targets measureable outcome in high-priority areas. AFF 
strongly urges the subcommittee to support the President's funding 
request of $23.513 million for the Landscape Restoration Program.
    Along with the FSP and AFF, the Landscape Scale Restoration Program 
would help family and individual woodland owners that are working to 
improve, maintain, and sustain high ecological standards and preserve 
the biodiversity of their land. In addition, with this program, the 
USFS is well-positioned to address the most pressing threats, protect 
the many public benefits we all enjoy from forests, and leverage 
Federal efforts for meaningful, measurable impact.
forest inventory and analysis and forest service research & development 
                                program
    Both the Forest Inventory and Analysis and Forest Service Research 
and Development Programs provide extensive science and forest 
information. This essential data provides forest landowners with 
critical updates on forest health and market trends to help them know 
how to mitigate growing threats.
    In particular, the USFS Research and Development Program provides 
the science to help manage invasive species in urban and rural forests. 
The R&D function also provides new information about the use of wood 
products, which can help create new markets for products from family-
owned woodlands. This information helps position wood in growing 
markets, like green building markets, where understanding the 
environmental impacts of building materials is key.
    During fiscal year 2014 FIA maintained annualized inventory 
activity in all 50 States, total area currently sampled represents 
about 90 percent of all U.S. forestland. Due to late budget 
allocations, FIA was not able to maintain annual plot production at 
efficient level in fiscal year 2014. Total funding from all sources for 
the FIA program in fiscal year 2014 was $77.7million; total funding 
from all sources was 14 percent below the amount needed for full 
program implementation.\4\ AFF is urging support for the Presidents 
funding request of $83 million for the Forest Inventory and Analysis 
and fiscal year 2012 funding level of $231 million for Research and 
Development in order to gain a stronger understanding of our woodlands 
in order to protect them from the increasing threats mentioned 
previously and to allocate woodland resources appropriately.
---------------------------------------------------------------------------
    \4\ Forest Inventory and Analysis, February 2015, Fiscal Year 2014 
Business Report.
---------------------------------------------------------------------------
                         state fire assistance
    Forest fires pose a large threat to family and individual 
landowners as these fires continue to increase in frequency and 
intensity. The State Fire Assistance helps the 22 million family 
woodland owners protect their land from devastating forest fires 
through technical fire program assistance and enhances State, local, 
and rural organizations including: community-based wildfire hazard 
mitigation efforts, fire plan development, and fire adapted ecosystem 
restoration.
    The funds from the State Fire Assistance also provides coordinated 
fire protection and mobilization for fire suppression on both Federal 
and non-Federal lands. It also supports State coordinated hazard 
mitigation activities in the wildland-urban interface, focused on 
reducing property loss, decreasing fuels hazards, increasing public 
awareness, developing fire plans and citizen-driven solutions in rural 
communities.\5\ These threatening factors continue to increase and 
require proper funding, therefore we are requesting support for the 
U.S. State Fire Assistance Program at the fiscal year 2012 funding 
level of $86 million.
---------------------------------------------------------------------------
    \5\ USFS, Fire & Aviation Management: State Fire Assistance (SFA).
---------------------------------------------------------------------------
                       wildfire disaster funding
    Over the last decade, wildfire expenses have significantly 
increased, and the Federal wildfire budgets often are not sufficient to 
cover the costs, leading the Federal agencies to transfer funds from 
non-fire accounts to cover fire-fighting expenses. In fiscal year 2012, 
the USFS transferred $440 million and in fiscal year 2013 the transfer 
cost was upped to $600 million. Understandably, this has caused 
significant disruptions in forest programs, including programs like the 
Forest Stewardship and Forest Health Protection Programs that aide 
family woodland owners in their stewardship.
    In order to have programs that do all of this work--(1) reduce the 
threat of invasive species, (2) provide technical assistance to 
woodland owner's for good stewardship, and (3) provide restoration 
activities and active management work to reduce future fire risks--we 
need a permanent solution to the wildfire funding problem. The American 
Forest Foundation is asking that Congress pass the Wildfire Disaster 
Funding Act (S. 235/H.R. 167) as it would end disrupting, monetary 
transfers from the USDA Forest Service and Department of Interior to 
fund fighting wildfires. During fiscal year 2014 there were several 
fire funding shortfalls, which resulted in funding offsets from other 
programs, negatively impacting the Forest Legacy Program, Forest 
Landscape Restoration Program, and Urban Forestry.
    American Forest Foundation would like to acknowledge that the 
subcommittee must find areas to reduce spending, but we hope that the 
subcommittee will consider the impact these reductions have on millions 
of family forest owners, along with all other Americans who are 
effected by all the benefits well-managed, working forests provide. We 
thank the subcommittee for the opportunity to provide some insight on 
these programs and appreciate consideration of my testimony.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2016 
appropriations recommendations for the 30 colleges funded under various 
titles of the Tribally Controlled Colleges and Universities Assistance 
Act (Tribal College Act); the Bureau of Indian Education postsecondary 
institutions; and the Institute of American Indian Arts. The Bureau of 
Indian Education administers these programs, save for the Institute of 
American Indian Arts, which is congressionally chartered and funded 
directly through the Department of the Interior.
    In fiscal year 2016, TCUs seek $89.220 million for institutional 
operations, an endowment building program, and technical assistance 
under the Tribally Controlled Colleges and Universities Assistance Act 
of 1978 or Tribal College Act; of which, $88.5 million is for Titles I 
& II operating grants (28 TCUs); $109,000 for Title III (endowment 
grants); and $601,000 for increasingly needed technical assistance. 
TCUs are founded and chartered by their respective American Indian 
tribes, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than one 
billion acres of land to the Federal Government. Despite the trust 
responsibility and treaty obligations, the TCUs' primary source of 
basic operating funds has never been adequately funded. Further, our 
member institutions--already operating on shoestring budgets--have 
suffered the ramifications of sequestration. Should sequestration 
resume in fiscal year 2016, along with added across the board cuts that 
have become part of the regular order, the TCUs will suffer even 
greater annual reductions to this already underfunded program. 
Regrettably, the long-term Federal investment in this program, which 
has proven to be cost-effective, efficient, and transformative, may be 
lost as some of tribal colleges could be forced to close their doors. 
They simply cannot continue to operate on the inadequate funding they 
receive. After 35 years since this essential grants program was first 
funded, our fiscal year 2016 request seeks to finally achieve the 
authorized funding level for institutional operating grants, which is 
based on a per Indian student allocation; and to retain $601,000 to 
provide critically needed, ever changing and expanding technical 
assistance.
    AIHEC's membership also includes two tribally controlled 
postsecondary career and technical institutions, a portion of whose 
institutional operations funding is authorized under Title V of the 
Tribal College Act. AIHEC requests $9,300,000 for this program. For the 
Institute of American Indian Arts, AIHEC supports the President's 
budget request of $11,619,000. Haskell Indian Nations University and 
Southwestern Indian Polytechnic Institute are the Bureau of Indian 
Education's two postsecondary institutions. AIHEC supports a minimum of 
$19,990,000, included in the President's fiscal year 2016 budget, for 
these important institutions.
    Lastly, but very important, AIHEC is seeking a one-time $20 million 
appropriation necessary to transition the institutional operating 
grants of the five TCUs that are still funded on the Federal fiscal 
calendar to an academic funding schedule. These institutions are the 
ONLY schools, funded through the Department of the Interior, that still 
receive their institutional funding on the Federal fiscal year (October 
1) or more likely, later in the year when the annual Interior 
appropriation bill is passed, rather than the first week of July in 
preparation for the upcoming school year. Once forward funded these 
TCUs, like all other BIE/Interior schools, will be able to plan 
multiyear budgets and to start (and end) each school year with 
dependable funding. Forward funding does not increase the Federal 
budget in the long-term. It simply allows vital education programs to 
receive basic operating funds before each school year begins, which is 
critically important when the Federal Government is funded under 
continuing resolutions. We recognize the severe budgetary constraints 
that Congress is currently working under and suggest that the funds 
needed to transition these five colleges to a forward funded schedule 
could be accomplished over 2 or 3 years. Affected colleges would 
receive a second appropriation for one-half or one-third the amount 
needed to establish forward funding the grant program. After the second 
or third year, depending on the transition timeframe chosen, the 
Department of the Interior would begin distributing the colleges' 
annual institutional operating grants in July of each year, going 
forward.
        tcu shoestring budgets: ``doing so much with so little''
    Tribal Colleges and Universities are an essential component of 
American Indian/Alaska Native (AI/AN) education. Currently, 37 TCUs 
operate more than 75 campuses and sites in 16 States, within whose 
geographic boundaries 80 percent of all American Indian reservations 
and Federal Indian trust land lie. They serve students from well over 
250 federally recognized tribes, more than 70 percent of whom receive 
Federal financial aid. In total, the TCUs annually serve about 89,000 
AIs/ANs through a wide variety of academic and community-based 
programs. TCUs are public institutions accredited by independent, 
regional accreditation agencies, and like all U.S. institutions of 
higher education, must periodically undergo stringent performance 
reviews to retain their accreditation status. Each TCU is committed to 
improving the lives of its students through higher education and to 
moving AI/ANs toward self-sufficiency. To do this, TCUs must fulfill 
additional roles within their respective reservation communities 
functioning as community centers, libraries, tribal archives, career 
and business centers, economic development centers, public meeting 
places, and child and elder care centers.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded the TCUs' 
institutional operating budgets, authorized under the Tribally 
Controlled Colleges and Universities Assistance Act of 1978. In fact, 
TCU operating support is well below the level received by other 
institutions of higher education. The administration requests and 
Congress appropriates approximately $200 million annually towards the 
institutional operations of Howard University (exclusive of its medical 
school), the only other Minority Serving Institution (MSI) that 
receives institutional operations funding from the Federal Government. 
Howard University's current Federal operating support exceeds $20,000/
student, because this is the level of need as determined by the U.S. 
Government. In contrast, most TCUs receive $6,355/Indian Student (ISC) 
under the Tribal College Act, less than 80 percent of the authorized 
level. TCUs have proven that they need and have earned an investment 
equal to--at the very least--the congressionally authorized level of 
$8,000/Indian student. It is important to understand that we are by no 
means suggesting that our sister MSI, Howard University does not need 
or deserve the funding it receives; it does. We are only pointing out 
that the TCUs also need and deserve adequate institutional operations 
funding; however, TCU operating budgets are chronically underfunded.
    TCU budgets are at a further disadvantage because the colleges 
receive funding for only about 76 percent of their enrolled students. 
Almost every other U.S. institution of higher education receives 
institutional operations funding based on its entire student body. 
However, it is important to note that although approximately 24 percent 
of the TCUs' collective enrollments are non-Indian students living in 
the local community, TCUs receive Federal funding based only on Indian 
students, defined as members of a federally recognized tribe or the 
biological children of an enrolled tribal member. While many TCUs do 
seek funding from their respective State legislatures for their non-
Indian, State-resident students (oftentimes referred to as ``non-
beneficiary'' students) successes have been, at best, inconsistent. 
Yet, if a TCU's non-beneficiary students attended any other public 
institution in the State, the State would provide the college with 
ongoing funding toward its day-to-day operations. Given their 
locations, often hundreds of miles from another postsecondary 
institution, TCUs are open to all students, Indian and non-Indian, 
believing that education in general, and postsecondary education in 
particular is a catalyst to a better economic future for their areas.
                     further justifications & facts
    (a)  TCUs provide access to valuable postsecondary education 
opportunities. Tribal Colleges and Universities provide access to 
higher education for American Indians and others living in some of the 
Nation's most rural and economically depressed areas. In fact, seven of 
the Nation's 10 poorest counties are home to a TCU. The American 
Community Survey/U.S. Census Bureau reported the annual per capita 
income of the U.S. population as $28,184. However, the annual per 
capita income of AI/ANs is reported to be $16,777, or 40 percent lower 
than that of the general population. TCUs offer their students a high 
level of support and guidance to bolster their chances of achieving 
academic success. In addition to serving their student populations, 
these tribal institutions offer a variety of much-needed community 
outreach programs.
    (b)  TCUs are producing a Native workforce that includes highly 
trained AI/AN teachers, tribal government leaders, nurses, engineers, 
computer programmers, and other much-needed professionals. By teaching 
the job skills most in demand on their reservations, TCUs are laying a 
solid foundation for tribal economic growth, with benefits for 
surrounding communities and the Nation as a whole. In contrast to the 
high rates of unemployment on many reservations, graduates of TCUs are 
employed in ``high demand'' occupations such as Head Start teachers, 
elementary and secondary school teachers, agriculture and land 
management specialists, and nurses/healthcare providers. Just as 
important, the vast majority of TCU graduates remains in their tribal 
communities, applying their newly acquired skills and knowledge where 
they are most needed.
    (c)  Growing number of TCUs--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since they were first 
funded in 1981, appropriations have increased at a disproportionately 
low rate. Since 1981, the number of tribal colleges has happily more 
than quadrupled and continues to grow; the number of Indian students 
enrolled has risen over 355 percent. In the past 10 years, six 
additional TCUs have become accredited and eligible for funding under 
Title I of the Tribal College Act, and there are several more colleges 
currently in the pipeline. TCUs are in many ways victims of their own 
successes. The growing number of tribally chartered colleges and 
universities and increasing enrollments have forced TCUs to slice an 
already inadequate annual funding pie into even smaller pieces.
    (d)  Local Tax and Revenue Bases--TCUs cannot rely on a local tax 
base for revenue. Although tribes have the sovereign authority to tax, 
high reservation poverty rates, the trust status of reservation lands, 
and the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 70 percent. By 
contrast, the national unemployment rate is currently 5.5 percent.
    (e)  Gaming and the TCUs--Although several of the reservations 
served by TCUs do have gaming operations, these are not the mega-
casinos located in proximity to urban outlets and featured in the 
broad-based media. Only a handful of TCUs receive regular income from 
the chartering tribe's gaming revenue, and the amounts received can 
vary greatly from year to year. Most reservation casinos are small 
businesses that use their gaming revenue to improve the local standard 
of living and potentially diversify into other, more sustainable areas 
of economic development. In the interim, where relevant, local TCUs 
offer courses in casino management and hospitality services to formally 
train tribal members to work in their local tribally run casinos.

        Some form of gaming is legalized in 48 States, but the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to other public colleges or 
universities. Some have suggested that those tribes that operate the 
few extremely successful and widely publicized casinos should be 
financing higher education for all American Indians. And yet, no State 
is expected to share its gaming revenue with a less successful or non-
gaming State.
              appropriations request for fiscal year 2016
    As noted earlier, it has been 35 years since the Tribal College Act 
was first funded, and the TCUs have yet to receive the congressionally 
authorized per Indian student funding level. Full funding for the TCUs' 
institutional operating grants ($8,000 per Indian student) for fiscal 
year 2016 would require an increase of approximately $19.4 million over 
the fiscal year 2015 appropriated level. Details of the request are 
outlined in the Request Summary above.
                               conclusion
    AIHEC Member institutions/Tribal Colleges and Universities provide 
quality higher education to many thousands of American Indians and 
other reservation residents, as well as essential community programs 
and services to those who might otherwise not have access to such 
opportunities. The modest Federal investment that has been made in TCUs 
has paid great dividends in terms of employment, education, and 
economic development. Continuation of this investment makes sound moral 
and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your thoughtful 
consideration of our fiscal year 2016 appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), United States Forest 
Service (USFS), and Environmental Protection Agency (EPA) for fiscal 
year 2016. AIBS encourages Congress to provide the USGS with $1.2 
billion in fiscal year 2016 and $176.3 million for the Ecosystems 
activity. We further request that Congress provide the USFS Forest and 
Rangeland Research program with at least $296.0 million, and EPA 
Science and Technology with at least $769.1 million.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has more than 140 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
                         u.s. geological survey
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector decision-
makers. Data generated by the USGS save taxpayers money by reducing 
economic losses from natural disasters, allowing more effective 
management of water and natural resources, and providing essential 
geospatial information that is needed for commercial activity and 
natural resource management. The data collected by the USGS are not 
available from other sources and our Nation cannot afford to sacrifice 
this information.
    The Ecosystems activity within USGS underpins the agency's other 
science mission areas by providing information needed for understanding 
the impacts of water use, energy exploration and production, and 
natural hazards on natural systems. The USGS conducts research on and 
monitoring of fish, wildlife, and vegetation--data that informs 
management decisions by other Interior bureaus regarding protected 
species and land use.
    Biological science programs within the USGS gather long-term data 
not available from other sources. The knowledge generated by USGS 
programs is used by Federal and State natural resource managers to 
maintain healthy and diverse ecosystems while balancing the needs of 
public use.
    Examples of successful USGS Ecosystem initiatives include:
  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan fuel reduction projects.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species that 
        cause billions of dollars in economic losses.
  --New insights on the spread of avian flu, chronic wasting disease, 
        and other wildlife diseases in North America.
    The requested fiscal year 2016 budget would support several 
important ecosystem science priorities at USGS. Science in support of 
critical landscapes, such as the Arctic and sage steppe, would be 
boosted. The budget would also focus research efforts on emerging 
invasive species and the declining status of native pollinators. USGS 
would support efforts to further the science and integration of 
ecosystems services frameworks into decision-making and implement 
efforts to assess and sustain the Nation's environmental capital.
    New funding is proposed for the Cooperative Research Units to 
increase undergraduate involvement in research. These efforts would 
complement the existing focus on graduate education. Roughly 500 
graduate students each year receive training at Cooperative Research 
Units. Through the units, the USGS and their partners address pressing 
issues facing natural resource managers at the local, State, and 
Federal levels. Examples of recent research initiatives include 
studying the effects of the Gulf of Mexico oil spill on wildlife and 
fisheries, and studying the impacts of wildfires on forest ecology. The 
program is an efficient use of resources: each Federal dollar invested 
in the program is leveraged more than five-fold.
    In summary, the USGS is uniquely positioned to provide a scientific 
context for many of the Nation's biological and environmental 
challenges, including water quality and use, energy independence, and 
conservation of biological diversity. This array of research expertise 
not only serves the core missions of the Department of the Interior, 
but also contributes to management decisions made by other agencies and 
private sector organizations. An investment of $1.2 billion in the USGS 
and at least $176.3 million in the Ecosystems activity will yield 
dividends.
                          u.s. forest service
    United States Forest Service research provides scientific 
information and new technologies to support sustainable management of 
the Nation's forests and rangelands. These products and services 
increase the basic biological and physical knowledge of the 
composition, structure, and function of forest, rangeland, and aquatic 
ecosystems.
    The fiscal year 2016 budget request would cut funding for Forest 
Service research by $4.0 million. Nearly all Forest Service research 
program areas are targeted for budget cuts. Six of seven research areas 
would be cut by 7 to 8 percent. Research on wildfires, invasive 
species, and resource management would be impacted.
    Scaling back research efforts is a lost opportunity for USFS in 
fulfilling their mission to sustain the health, diversity, and 
productivity of the Nation's forests and grasslands. Scientific 
information is needed to best manage public lands for economic 
development, recreational uses, and preservation of the natural 
environment.
    We ask Congress to restore the proposed cuts and to fund the Forest 
and Rangeland Research program at $296.0 million, the same amount as in 
fiscal year 2015.
                    environmental protection agency
    The EPA Office of Research and Development (ORD) supports valuable 
extramural and intramural research that is used to identify and 
mitigate environmental problems facing our Nation. ORD research informs 
decisions made by public health and safety managers, natural resource 
managers, businesses, and other stakeholders concerned about air and 
water pollution, human health, and land management and restoration. In 
short, ORD provides the scientific basis upon which EPA monitoring and 
enforcement programs are built.
    Despite the important role played by ORD, its funding has declined 
by approximately 20 percent in nominal dollars since fiscal year 2004, 
when it peaked at $646.5 million. ``This long-term decline has limited 
and will continue to limit the research that can be conducted to 
support the agency's effort to protect human health and the 
environment,'' according to the EPA's Science Advisory Board. ``These 
limitations pose a vulnerability for EPA at a time when the agency 
faces significant science questions with long-term implications for 
protecting the environment and public health.''
    The Ecosystem Services Research program within ORD is responsible 
for enhancing, protecting, and restoring ecosystem services, such as 
clean air and water, rich soil for crop production, pollination by bees 
and other species, and flood control. The program has been long 
underfunded, according to the EPA Science Advisory Board. The fiscal 
year 2016 request would continue the declining funding trend with a $3 
million cut. We ask that Congress address the chronic underfunding of 
the program.
    Two valuable training opportunities for the next generation of 
scientists will be eliminated as part of a proposed government-wide 
reorganization of science, technology, engineering, and mathematics 
education programs. Funding would be zeroed out for EPA Science to 
Achieve Results (STAR) graduate fellowships and Greater Research 
Opportunities undergraduate fellowships. The Science Advisory Board 
``considers it a priority to increase STAR fellowships, if possible, 
because support for environmental scientists at an early stage in their 
careers is a cost-effective way to advance ORD's strategic goals.'' The 
National Academy of Sciences called the fellowship ``a valuable 
mechanism for enabling a continuing supply of graduate students in 
environmental sciences and engineering.'' We are concerned that the 
elimination of these programs will be detrimental to preparation of the 
next generation of environmental scientists and engineers. We ask for 
the program to remain at EPA and to be supported at an adequate funding 
level.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
                       white-nose syndrome (wns)
    U.S. Fish and Wildlife Service.--$4.5 million (President's budget 
request) total. $2 million in Endangered Species Recovery; $2.5 million 
in Service Science.

    U.S. Geological Survey.--$1.424 million (President's budget 
request) in Ecosystems/Wildlife.

    National Park Service.--$3.155 million (President's budget request) 
in Operations/Park Management/Natural Resource Stewardship.

    Bureau of Land Management.--$500,000.

    U.S. Forest Service.--$2.5 million ($1.8 million increase over 
$700,000 available in fiscal year 2015) in Research and Development; 
$500,000 in Forest Systems.

    Nine years after the first known observation of white-nose 
syndrome, WNS remains at the root of North America's most precipitous 
wildlife die-off of the past century. WNS has killed at least 5.7 
million bats and has spread to 26 States and 5 Canadian provinces. The 
disease is caused by an invasive species of fungus, Pseudogymnoascus 
destructans (Pd), that thrives in caves and abandoned mines and infects 
bats hibernating there, disrupting their physiological processes. WNS 
has struck seven species, including the federally endangered Indiana 
and gray bats, and has the potential to affect 25 of our 47 bat 
species. Declines are so severe that the U.S. Fish and Wildlife Service 
(FWS) has designated the northern long-eared bat as threatened due to 
WNS.
    Bats are integral to our economy and environment. They are primary 
predators of night-flying insects, including agricultural pests that 
attack corn, soybeans, cotton, and other crops. By eating these pests, 
bats reduce the need for pesticides, lower food production costs, and 
save U.S. farmers an average of $22.9 billion per year. Bats also 
perform ecological services for 66 plant species that produce timber.
    The Federal Government and its partners have responded admirably to 
the WNS crisis. Thanks to steady Government funding, their research has 
unlocked much of the disease's basic biology and informed initial 
management decisions. More remains to be done, however.
    The U.S. Fish and Wildlife Service (FWS) is the lead agency for WNS 
response. The agency serves as an umbrella organization for nationwide 
WNS action, steering, facilitating, and managing information flow for 
the efforts of the more than 100 Federal, State, local, tribal, 
academic, nonprofit, and other entities that contribute to the WNS 
fight. In this role, FWS creates dialogue among the partners that sets 
the direction for WNS work, advancing WNS science and identifying how 
best to spend WNS funds. FWS also catalyzes scientific research on WNS 
by distributing millions of dollars in research grants every year. The 
grants fund work that likely would not occur otherwise and increases 
our knowledge of the disease, such as a paper published last year on 
research suggesting that Pd can persist in caves and abandoned mines 
for long periods in the absence of bats. FWS is the largest source of 
funding for State agencies to monitor, manage, and research WNS. We 
support the President's request for FWS WNS activities.
    The U.S. Geological Survey (USGS) plays a critical role in WNS 
research. When WNS was first observed in 2006, both it and Pd were 
unknown to science. Since then, USGS's research has laid much of the 
foundation of our understanding of them. The agency continues to expand 
this knowledge and has begun exploring ways to treat WNS. In recent 
years, USGS developed a more accurate WNS test for bats that, unlike 
previous methods, doesn't require euthanizing the animals; the agency 
now is collaborating with State agencies at the WNS border to deploy 
this test to monitor the disease. With a view to possible treatments, 
USGS also is studying Pd's cave environment to identify conditions 
conducive to and hostile to the fungus, as well as whether other 
microbes found on bats' skin could mitigate the effects of Pd. We 
support the President's request for $1.424 million for USGS in the 
Wildlife account to continue this work.
    The natural resources of the National Park Service (NPS) provide 
opportunities and challenges related to WNS management and information-
sharing. NPS conducts bat and disease monitoring in its many caves and 
abandoned mines, and plays an important role in educating the public 
about WNS. The many visitors that NPS hosts also heighten the need for 
the agency to prevent the human spread of Pd. Conducting chemical 
disinfection with visitors and staff when entering and exiting caves 
and abandoned mines has enabled NPS to research and advance knowledge 
of the efficacy of various decontamination methods used by natural 
resource-management personnel and recreational cavers across the 
country. Finally, NPS is integrating WNS into all staff bat-resource 
activities; for example, conducting wing swabs for WNS is becoming 
standard procedure whenever NPS staff handle bats. We support the 
President's budget request of $3.155 million in Natural Resource 
Stewardship for NPS to continue these activities.
    With at least 3,000 caves and an estimated 31,000 abandoned mines 
on its lands, the Bureau of Land Management (BLM) has much work to do 
on WNS but has never been allocated the funds for it. Most of BLM's 
lands, concentrated in the western U.S., have not yet suffered from 
WNS, but addressing the disease is necessary, and BLM has begun the 
task, thanks in part to directive language from Congress starting in 
fiscal year 2012. To address a paucity of information about bats and 
their habitat on BLM lands, staff are conducting bat inventories. To 
minimize the risk of Pd spread, the agency has integrated 
decontamination into protocols for personnel who enter caves or 
abandoned mines and is producing educational programming on 
decontamination for visitors. BLM also aims to prevent Pd spread by 
closing abandoned mines, installing gates on other mines and caves to 
keep out people, and selectively closing caves to visitors. One way BLM 
has been carrying out these measures is through an internal small-grant 
program; field offices apply for up to $2500, which must be matched by 
other funds, often from State agencies or local NGOs. In the face of 
continued WNS spread these efforts must be increased. We request 
$500,000 for the BLM to implement on-the-ground WNS measures.
    The U.S. Forest Service (USFS) has an important role to play in WNS 
response. Drawing on resources such as the Center for Forest Mycology 
Research--specialized in the study of fungi--USFS scientists have 
contributed greatly to the understanding of WNS and Pd. In 2013, agency 
researchers taxonomically reclassified the WNS-causing fungus, laying 
the foundation for a better understanding of Pd. USFS is currently 
working to pinpoint Pd's harmful genes, in the hope of silencing them. 
USFS also is exploring the use of a native soil bacterium to inhibit Pd 
and improve survival of WNS-infected bats. In response to directive 
language from Congress in fiscal year 2012, USFS wrote a WNS science 
strategy. With the goals of that strategy accomplished, USFS is about 
to issue an updated strategy. Although implementing it will cost $2.5 
million in the first year, USFS's Research and Development branch is 
able to allocate only $700,000; we request that the subcommittee 
provide the $2.5 million needed to implement its strategy. (The 
President's budget allocates $83 million to USFS Research and 
Development's Forest Inventory and Analysis (FIA) budget; according to 
agency officials, only $75 million can be spent efficiently in fiscal 
year 2016. We request that the subcommittee use the extra $8 million 
for non-FIA Research and Development needs, including WNS.) We also ask 
for $500,000 for USFS's Forest Systems branch for WNS management, 
monitoring, and field research on USFS lands. Finally, we respectfully 
ask the subcommittee not to tie WNS funds to, or otherwise encumber the 
threatened listing of the northern long-eared bat.
  fish and wildlife service--office of law enforcement--$75.4 million
    The FWS Office of Law Enforcement (OLE) is one of the most 
important lines of defense for America's wildlife. OLE enforces over a 
dozen Federal wildlife and conservation laws that frequently impact 
both domestic and global security. Year after year, OLE protects the 
public against the illegal trade in wildlife and wildlife products--
which ranks third only to the illicit trade in narcotics and weapons in 
terms of global revenue--and the U.S. remains a source of, or 
destination for, much of this contraband. Even those who may not 
concern themselves with wildlife are reaping benefits as OLE protects 
against smuggling illegal substances and helps to thwart potentially 
devastating human health threats. We support FWS's proposed 
appropriation of $75.4 million for OLE, an increase of $8.7 million 
over the fiscal year 2015 enacted budget, and the addition of 45 full-
time employees (FTE) over the fiscal year 2015 enacted budget. These 
increases will provide for expanded forensics capability at the 
National Fish and Wildlife Forensics Laboratory, support the work of 
Special Agents and Wildlife Inspectors, and enhance FWS's ability to 
combat wildlife trafficking.
National Fish and Wildlife Forensics Laboratory--$750,000 increase
    The successful outcomes of enforcement cases would not be possible 
without the essential work of the National Fish and Wildlife Forensics 
Laboratory (NFWFL), used by FWS agents and inspectors to gather hard 
evidence in wildlife crime cases. Proposed funding will aid in the 
advancement of research involving genetic markers and isotope analysis, 
which will ultimately improve investigators' ability to determine the 
geographic origin of animals and animal parts.
Wildlife Trafficking--$4,000,000 increase +25 FTE
    Combatting increased wildlife trafficking has become a high 
priority for the administration, Congress, and numerous governmental 
agencies. Wildlife trafficking threatens not only species conservation, 
but also global peace given its close association with terrorism and 
criminal syndicates. High-speed electronic communication has expanded 
the rapidity, ease, and range by which criminal elements conduct 
business, and funds derived from this illegal activity are often used 
for other crimes and terrorist activities. With poaching reaching 
unprecedented levels worldwide, domestic and international governmental 
and private entities have been turning to FWS for leadership in 
coordinating, guiding, and implementing a workable response. This 
funding increase supports the Executive Order on combating wildlife 
trafficking; with it, FWS will hire 25 new personnel. Specifically, the 
new positions will focus on information analysis in order to forge 
permanent liaisons with the U.S. intelligence community and other 
Federal law enforcement agencies. Currently, OLE does not have the 
staff to mount a focused, concerted, and effective effort to address 
high speed or electronic illegal activities. These new analysts will 
allow OLE to better combat and pursue traffickers of natural resources 
on the Internet and in high speed transport. Other special agents will 
be assigned to FWS regions, headquarters, and selected overseas 
embassies as attachs to focus on investigating illegal electronic 
commerce.
Law Enforcement Activities--$4,000,000 increase +20 FTE
    OLE's ability to enforce critical wildlife laws, such as the Lacey 
Act, and safeguard species has been increasingly limited by shortfalls 
in Special Agent staffing. Currently, a majority of the staff are 
thinly spread in single-agent duty stations across the country. Often, 
only one or two agents cover an entire State, forcing agents to 
frequently work alone, which raises concerns about officer safety and 
efficiency as they can only focus on a limited number of cases at a 
time. With the increase, FWS will hire 20 new Special Agents to address 
staffing shortfalls that affect OLE's ability to perform ongoing 
investigations. The new agents will be deployed to the field for direct 
interdiction of illegal commercial activities.
                wild free-roaming horses and burros act
    The Bureau of Land Management (BLM) continues to round up wild 
horses and warehouse them on private lands at great public expense. 
This is not a humane or responsible solution, and for the last few 
years this subcommittee has called on the BLM to implement humane on-
the-range solutions. It appears this message is being heard by the 
Agency. We appreciate the subcommittee's continued commitment to 
finding humane and responsible long-term solutions and encourage you to 
maintain this path. We support the BLM's proposed increase of $2.9 
million for wild horse and burro management. These funds are to be used 
for humane population control research, including ongoing research into 
developing more effective and longer lasting fertility control agents. 
We support these efforts and request that any increase in 
appropriations under the Wild Free-Roaming Horses and Burros Act be 
used solely to implement humane, on-the-range management methods such 
as immunocontraception, and not unnecessary roundup. Finally, we 
strongly support the continued inclusion of this ``no-kill'' language 
to ensure that BLM does not kill healthy wild horses and burros: 
Provided, that appropriations herein made shall not be available for 
the sale or destruction of healthy, unadopted wild horses and burros in 
the care of the Bureau or its contractors.
   national wildlife refuge system--pilot program and data collection
    We support the administration's $508.2 million request to operate 
and maintain the National Wildlife Refuge System (NWRS), which 
generates $2.5 billion in economic impacts and $342.9 million in tax 
revenues. To enhance the NWRS's stated purpose of conserving fish and 
wildlife, including species threatened with extinction, we request that 
FWS implement the following two programs geared towards minimizing the 
damage and threats posed by indiscriminate and injurious body-gripping 
traps to humans, wildlife, and other animals on refuge land:
    Pilot Program: The subcommittee should direct FWS to develop and 
implement a pilot program of no fewer than 5 years banning body-
gripping traps (snares, Conibear traps, and leg-hold traps) from 
National Wildlife Refuges within Region 5 (Northeast Region). FWS will 
collect data on the program's effects on wildlife populations, other 
approved recreational uses, and FWS facilities, and report back to 
Congress within 90 days of the program's conclusion.
    Data Collection Program: The subcommittee should direct FWS to 
compile data regarding the use of animal traps within the NWRS. 
Specifically, FWS should provide Congress information regarding the 
number and species of animals trapped, number of target versus non-
target animals, the primary purposes for trapping on refuge land, the 
humaneness of body-gripping traps, the impacts of trapping on 
endangered and threatened species and domestic animals, and the extent 
to which trapping impacts other recreational uses allowed within the 
NWRS. Additionally, FWS should allow interested and qualified outside 
parties to submit data relevant to the request above through a public 
comment period of no less than 30 days. FWS should present a report to 
Congress containing this and any other relevant information within 120 
days of this bill's enactment.
                                 ______
                                 
  Prepared Statement of the American Society of Mechanical Engineers 
  (ASME) Environmental Protection Agency (EPA) Task Force of the ASME 
                   Environmental Engineering Division
    Mr. Chairman, ranking members, and members of the Subcommittee:

    The ASME Environmental Protection Agency Task Force (Task Force) is 
pleased to provide this testimony on the fiscal year 2016 budget 
request for the EPA Science and Technology (S&T) programs.
                              introduction
    ASME is a nonprofit, worldwide mechanical engineering professional 
society with more than 130,000 members. It conducts one of the world's 
largest technical publishing operations, holds more than 30 technical 
conferences and 200 professional development courses each year, and has 
authored over 600 industrial and manufacturing standards.
                               background
    U.S. scientists and engineers have a long-standing professional 
interest in applying Science & Technology (S&T) to improve the 
environment and human health. Mechanical engineers increasingly 
collaborate with other professionals to develop innovative and cost-
effective environmental technologies and systems.
    The EPA's Office of Research and Development (ORD) is an essential 
part of the Nation's efforts to protect human health and safeguard the 
environment in a scientifically sound and sustainable manner. ORD's 
efforts improve environmental health, provide innovative environmental 
monitoring techniques, and support environmental technology development 
and implementation.
               overview of the asme epa task force review
    The fiscal year 2016 budget request for EPA is $8.5 billion, a $452 
million or 5.5 percent increase from the $8.1 billion enacted in fiscal 
year 2015. The EPA's ORD Science and Technology (S&T) accounts would 
increase by $34.4 million to $769 million, a 4.6 percent increase.
    Key research areas for mechanical engineering within the S&T 
portfolio include the Air, Climate, and Energy area, the Safe and 
Sustainable Water Resources research program area, and research at the 
National Risk Management Research Laboratory. Air, Climate, and Energy 
would increase by $8.4 million (9.1 percent) to $100.3 million, and 
Safe and Sustainable Water Resources would increase by 3.4 million (3.3 
percent) to $111 million. Chemical Safety and Sustainability would see 
the largest increase at 13.8 million (10.8 percent) to $140.7 million. 
Funding for the National Risk Management Research Laboratory would be 
reduced slightly from $71 million to $70.6 million.
    EPA has seen declining budget figures for the last several budget 
cycles. Funding proposed for fiscal year 2016 is actually below that 
provided to the agency in fiscal year 1995. The reduced funding has 
resulted in a 10 percent contraction in the S&T workforce over the past 
20 years, which places extraordinary pressure on the agency to provide 
the S&T support required by EPA and other Federal and State 
organizations. The Task Force feels that the President's budget 
allocation for fiscal year 2016 is warranted given the Nation's 
environmental challenges. Additional R&D funds are needed in order to 
enhance study responses to resolve hydraulic fracturing and oil shale 
waste issues, to better understand the impacts of climate change, to 
support the development of terrestrial carbon sequestration and 
management, to help guide the proper development of biofuels, to 
improve our understanding of chemical safety and toxicology, to measure 
the environmental impacts of nanotechnology, to promote sustainable 
waste management, and to better understand water resources utilization 
and development.
    The Task Force's comments on the fiscal year 2016 budget focus on 
the mechanical engineering-intensive activities of the S&T portfolio 
within the EPA's Office of Research and Development (ORD). The change 
in funding levels supporting these core objectives in the last two 
budget cycles along with the proposed fiscal year 2016 budget figures 
are as follows:

------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2014         2015         2016
                                    (million)    (million)    (million)
------------------------------------------------------------------------
Indoor Air and Radiation.........         $7.2         $5.9         $6.6
Homeland Security................         38.5         37.1         38.1
Clean Air and Climate............        110.3        116.5        124.8
Safe and Sustainable Water               120.0        107.4        111.0
 Resources.......................
Human Health Protection..........          3.7          3.5          3.7
Air, Climate, and Energy Research         99.4         91.9        100.3
------------------------------------------------------------------------

              epa office of research and development (ord)
    Through research and technical assistance, ORD provides the 
scientific foundation for EPA by performing research and development to 
identify and solve present and future environmental issues and provide 
responsive technical support to its scientific partners. The ORD 
administers programs addressing both basic research and the development 
of the scientific tools used to understand and evaluate environmental 
health. ORD also conducts problem-driven research designed to provide 
scientific solutions to high-priority environmental problems. It is an 
invaluable national resource.
    We note that the ORD workforce has declined in each of the last 5 
fiscal years--a loss of more than 200 environmental science 
professionals--a staffing level that makes it difficult to permit 
efficient action on a number of topics of national importance, 
particularly toxicology, nanotechnology, sustainable waste management 
and water resources. Effort should be made to bring ORD staff to 
approximately pre-sequestration levels so that EPA can continue to 
support R&D on current and future environmental problems.
    The Task Force supports the increases requested for the EPA's S&T 
directorate, which partially reverses several years of funding 
decreases. An evaluation of EPA's resources is needed to ensure that it 
can balance between existing priorities and new challenges. Program 
specifics are outlined below:

                                            INDOOR AIR AND RADIATION
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                  2014 (million)  2015 (million)  2016 (million)
----------------------------------------------------------------------------------------------------------------
Indoor Air: Radon Program.......................................           $0.21           $0.19           $0.0
Reduce Risks from Indoor Air....................................            0.36            0.31            0.41
Radiation Protection............................................            2.5             1.9             2.1
Radiation Preparedness Response.................................            4.1             3.5             4.0
----------------------------------------------------------------------------------------------------------------

    The Task Force supports the EPA's replacement of the Radon Program 
with the Federal Radon Action Plan, which will leverage industry and 
nonprofit efforts to amplify existing Federal efforts to reduce radon 
risk.

                                                HOMELAND SECURITY
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                  2014 (million)  2015 (million)  2016 (million)
----------------------------------------------------------------------------------------------------------------
Critical Infrastructure Protection..............................          $10.2           $10.3           $11.8
Preparedness, Response and Recovery.............................           27.8            26.2            25.6
Protection of EPA Personnel and Infrastructure..................            0.54            0.54            0.60
----------------------------------------------------------------------------------------------------------------

    Homeland security activities are a significant component of the 
EPA's S&T activities, focusing on critical infrastructure protection 
and disaster preparedness and response. The Task Force supports the 
additional funding allocated to the Critical Infrastructure Protection 
program.

                                              CLEAN AIR AND CLIMATE
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                  2014 (million)  2015 (million)  2016 (million)
----------------------------------------------------------------------------------------------------------------
Climate Protection..............................................          $11.7            $8.0            $7.8
----------------------------------------------------------------------------------------------------------------

    The EPA Task Force views Climate Protection Research as an 
important issue and is somewhat surprised by the funding trajectory for 
this program given funding levels supported in previous fiscal years. 
The Task Force supports this request given the constrained budget 
environment.

                    RESEARCH: AIR, CLIMATE AND ENERGY
------------------------------------------------------------------------
                                  Fiscal year  Fiscal year   Fiscal year
                                      2013         2014         2015
                                   (million)    (million)     (million)
------------------------------------------------------------------------
S&T Activities..................        $99.4        $91.9        $100.3
------------------------------------------------------------------------

    The EPA Task Force supports the full fiscal year 2016 increased 
request for Air, Climate and Energy Research, particularly the 
additional proposed funding for hydraulic fracturing programs and 
carbon sequestration.

                  SAFE AND SUSTAINABLE WATER RESOURCES
------------------------------------------------------------------------
                                 Fiscal year   Fiscal year   Fiscal year
                                    2013          2014          2015
                                  (million)     (million)     (million)
------------------------------------------------------------------------
Research......................        $120.0        $107.4        $111.0
------------------------------------------------------------------------

    Safe and Sustainable Water Resources funding supports a variety of 
activities related to the challenges facing U.S. water resources, 
including drinking water and wastewater from industrial activities. The 
Task Force is pleased that sustainability funding has been increased, 
just over $3.5 million, and supports the fiscal year 2016 request.

                         HUMAN HEALTH PROTECTION
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
                                    (million)    (million)    (million)
------------------------------------------------------------------------
Drinking Water Programs..........         $3.7         $3.5         $3.7
------------------------------------------------------------------------

    Overall, the fiscal year 2016 budget request calls for a slight 
increase from the fiscal year 2015 appropriated amount. The Task Force 
considers water quality issues as a high priority of the EPA and 
supports this request given the constrained budget environment.
               water quality research and support grants
    The EPA Task Force urges Congress to again support funding for the 
Water Quality Research and Support Grants program. Last year, Congress 
provided $4.1 million for this nationally competitive grant program to 
fund water quality and availability research. Given the severe droughts 
and water resource challenges facing many parts of the country, the 
Task Force supports funding at the fiscal year 2015 appropriated level 
for this program.
                        environmental education
    The fiscal year 2016 budget includes $10.9 million in funding to 
support Environmental Education, which was funded at $8.7 million in 
fiscal year 2015. Such investments are critical to providing 
fellowships for U.S. citizens who are scientists and engineers, 
ensuring top quality research and development of our Nation's S&T 
workforce.
    Many of EPA's environmental education activities have been 
transferred to the National Science Foundation (NSF) over the last 2 
years, and we urge improved interagency coordination to ensure that the 
goals of EPA's programs are met under NSF's administration. The Task 
Force urges continued support ($15 million) for EPA's Science to 
Achieve Results (STAR) and Greater Research Opportunities (GRO) 
fellowship programs (program started in 1995) and urges the 
subcommittee to support strong funding for the National Center for 
Environmental Research.
                               conclusion
    The administration's fiscal year 2016 request reflects of a 
difficult fiscal climate where tough choices have to be made to support 
important national priorities. This is particularly true for basic 
environmental research. As noted above, the Task Force requests 
additional funding be allocated for the toxicology, nanotechnology, 
sustainable waste management, and water resources (quality and quantity 
challenges) programs at EPA to ensure continued progress in our 
understanding of environmental and health impacts in these areas. 
Further, the Task Force proposes strong funding of EPA's National 
Center for Environmental Research and National Risk Management Research 
Laboratory programs, urges the subcommittee to support funding for 
EPA's graduate fellowships, and urges additional funding to ensure that 
full-time S&T staffing needs at EPA ORD are met.
    This statement represents the views of the ASME EPA Task Force and 
is not necessarily a position of ASME as a whole.
                                 ______
                                 
   Prepared Statement of the Association of American State Geologists
    Dear Chairman Murkowski and Ranking Member Udall:

    The Association of American State Geologists urges Congress to fund 
USGS 3DEP to at least the level recommended by the President; enhanced 
elevation data will stimulate economic growth, while improving our 
health and security; Federal leadership will increase the efficiency 
and effectiveness of the activity as a whole.
    State Geologists direct State geological surveys and work to ensure 
that their States are supported by optimal information. From time to 
time, a technology matures in a way that offers an opportunity to 
revolutionize everything that we do on the land--resulting in cost 
savings and improved benefits for a broad range of activities in the 
economy. LiDAR and associated technologies offer that opportunity.
    The Association of American State Geologists (AASG) is confident 
that appropriate and desirable Federal leadership through the US 
Geological Survey (USGS) 3D Elevation Program (3DEP) will result in 
significantly improved protection and management of water, better 
recognition of hazards, improved management and discovery of energy and 
mineral resources, more efficient efforts in agriculture, landscape 
restoration, transportation, and construction, as well as tremendous 
improvement in the insights we all can have into our natural heritage.
    We therefore urge Congress to fund 3DEP to at least the level 
recommended by the President. We are confident that doing so will be a 
wise investment that will bring returns far exceeding the expenditure.

    [This statement was submitted by Jonathan D. Arthur, Ph.D., P.G., 
President, AASG.]
                                 ______
                                 
 Prepared Statement of the Association of Navajo Community Controlled 
                           School Board, Inc.
    The Association of Navajo Community Controlled School Board 
(ANCCSB), Inc. is an organization of 11 member school boards who 
operate federally funded schools on the Navajo Reservation in Arizona 
and New Mexico under contracts or grants from the Bureau of Indian 
Education (BIE).
    We urge that the BIE school system be exempted from any further 
reductions in Federal spending, we highlight below four of the most 
pressing areas of need that directly impact our schools' educational 
programs, facilities, student transportation, and administrative 
management.
                       tribal grant support costs
    Since the 1988 Elementary and Secondary Education Act 
reauthorization, tribally operated elementary and secondary schools 
have received funding for the administrative expenses incurred for the 
operation of BIE-funded schools through an Administrative Cost Grant, 
now called Tribal Grant Support Costs (TGSC). These funds are used for 
costs of essential services such as contract/grant administration; 
program planning and development; human resources; insurance; fiscal, 
procurement, and property management; required annual audits; 
recordkeeping; and legal, security and other overhead services.
    Impact.--Since TGSC appropriations have historically been 
insufficient to meet the level of need without other sources of 
revenue, we must re-direct more and more funds from our education 
program budgets to cover essential administrative costs. Our schools 
must make difficult decisions--such as delaying purchase of new 
textbooks and other materials, paying non-competitive teacher salaries, 
reducing the number school days--to fit within these reduced budgets. 
Even with these cost-saving measures, some schools are still struggling 
with further reductions in management and business-office personnel at 
the risk of prudent internal controls and meeting the federally 
mandated requirements for fiscal processes and operation of education 
grants/programs. TGSC is forward-funded, so the fiscal year 2016 
appropriation would provide TGSC funds for school year 2016-2017.
    We are gratified that this year the administration proposes to 
follow through on commitments to pay full TGSC funding for all BIE-
funded schools, and to include in its request sufficient funding for 
schools that are deciding to transition to grant or contact school 
status. Up until last year, schools had only received, at most, two-
thirds of the TGSC needed to cover overhead costs. ANCCSB applauds this 
subcommittee's and the administration's decision to treat schools' 
support costs the same as contractors with the Bureau of Indian Affairs 
and the Indian Health Service.
    Request.--We fully support the administration's proposal that TGSC 
and startup costs be funded at $75.34 million, and request that this 
subcommittee provide this level of funding for TGSC.
                 facilities operations and maintenance
    Facilities Maintenance funds are intended to provide for the 
preventative, routine, and unscheduled maintenance for all school 
buildings, equipment, utility systems, and ground structures. The 
fiscal year 2016 Facilities Maintenance request contains a $10 million 
proposed increase, which is a marked improvement from its current 
level, but will not meet the needs of our schools or others. We are 
faced with rising costs of maintaining school buildings--particularly 
for the older facilities that make up much of the BIE schools.
    There are numerous studies which attest to the fact that there is a 
close correlation between poor or inadequate facility conditions and 
poor student and staff performance. According to the administration's 
fiscal year 2016 request, 42 of the 183 BIE-funded schools and 
dormitories (one-third) are still rated in ``poor'' condition in the 
Bureau's Education Facility Condition Index (FCI). Further, the 
administration's fiscal year 2016 request elaborates that there is 
$377.1 million in deferred maintenance backlogs! It is clear that there 
is a long way to go with regard to upkeep of our schools. Part of the 
maintenance problem will be solved by replacing school wholesale, but 
Federal resources for this crucial need must increase so our schools 
buildings can make it to their replacement date.
    Facilities Operations funding is for the ongoing operational 
expenses such as electricity, heating fuels, custodial services, 
communications, refuse collection, water and sewer service, grounds 
maintenance, etc. This budget category is also underfunded, with the 
latest estimates indicating that Federal funds provide only an 
estimated 46 percent of need. This is the first year the administration 
requests funds that will be over the recent high-water mark of $59.4 
million from fiscal year 2010, as the proposed budget contains $66.1 
million for Facilities Operations. However, this level is still only 60 
percent of the need.
    Impact.--Our schools are making every effort to make do with the 
meager facilities funding. Since we cannot delay paying our utilities 
or avoid taking actions that would impact student safety, we often have 
to resort to using our other education or academic program monies. We 
caution that insufficient funding to for facilities maintenance and 
operations will mean delaying routine, as well as unscheduled, 
maintenance of buildings, equipment, utility systems and grounds--
thereby jeopardizing student and staff safety. Attempts to moderate 
electrical and/or heating costs, or reduce custodial and refuse 
services and similar costs cutting measures would only make our already 
compromised learning conditions more uncomfortable and unhealthy for 
students and staff. If we cannot provide a decent learning environment, 
how can we expect our students to focus on achieving academic success?
    Request.--To fully fund Facilities Maintenance would require $76 
million, and $109.8 million would be needed to fully fund Facilities 
Operations.
                         student transportation
    The Student Transportation account is intended to cover: (1) the 
costs of the daily bus services for children attending the BIE-funded 
elementary and secondary schools; and (2) air travel for children who 
attend distant boarding schools. School transportation costs include 
vehicle rental (buses, vans), maintenance and repair, fuel, and 
qualified bus driver salaries. The BIE budget justification states that 
students at BIE-funded schools travel 16 percent of their miles on 
unimproved roads, and that the BIE-funded schools have transportation 
routes where the mileage covered is ``significantly higher than in 
metropolitan areas.''
    For the schools located on the Navajo Reservation, the percentage 
of unimproved roads traveled by our buses is much higher and in some 
cases it can be as much as 90 percent. Further, these unpaved roads are 
often subject to becoming ``washboards'' due to adverse weather impacts 
such as mud and snow. At times these roads become impassable so we must 
resort to using 4-wheel drive vehicles to ferry the students to a 
waiting bus. There have been times, however, when even the 4-wheel 
vehicles cannot reach the students so they are prevented from making it 
to class through no fault of their own. These conditions take a 
tremendous toll on vehicles, resulting in greater maintenance and 
repair costs, and greatly increase student travel time as well as the 
drivers' work day.
    The administration must be aware of the enormous increases in costs 
over the past several years. Nonetheless, the administration seeks a 
paltry increase of $197,000 in the proposed fiscal year 2016 budget. 
The administration's proposal will prevent our schools from making any 
forward progress on safely and reliably getting our children to school.
    From our experience, the 66 BIE-funded schools on the Navajo 
Reservation must supplement our Student Transportation allocated 
amounts by at least $70,000 to $100,000 each year. The best estimates 
show that there is a $21 million shortfall in funding for Student 
Transportation as the BIE has allowed funding to fall far behind need, 
and has been willing to allow schools to poach other school funds for 
transportation purposes. This, in the face of multiple challenges for 
schools at Navajo, including transporting students to/from evaluations 
to determine eligibility for Special Education services (when 
evaluators will not drive to our remote areas to conduct assessments), 
additional bus runs related to after-school academic services (many 
parents lack transportation or are not employed close-by to pick up 
children), and extra miles traveled around washouts or road hazards.
    Impact.--As with the other program shortages, varied cost cutting 
measures have been instituted--from reducing the number of bus routes 
(resulting in longer rides for our students) to delaying vehicle 
replacements as long as possible. Nonetheless, underfunding Student 
Transportation will continue to adversely impact classroom programs 
since each year schools have no choice but to use scarce education 
program dollars to subsidize transportation costs.
    Request.--We request that the subcommittee provide at least $73 
million for Student Transportation in the BIE system.
               indian school equalization formula (isef)
    The Indian School Equalization Formula (ISEF) is the core budget 
account for Educational and Residential programs of the BIE elementary 
and secondary schools and dormitories. These funds are used for 
instructional programs at BIE-funded schools and residential programs 
at dormitories, and include salaries of teachers, educational 
technicians, principals, and other school-level program administration, 
kitchen, and dormitory staff. The ISEF amount due to each school is 
determined by a statutorily mandated formula established by regulation 
(24 C.F.R. Sec. Sec. 39.12(g)(1)-(2), 39.13, & 39.14).
    During the eight-year period of fiscal year 2003 to fiscal year 
2010, the ISEF account increased by almost $45.5 million; but in only 
two (2) of those years--fiscal year 2009 and fiscal year 2010--the 
increase was actually an increase in program funding. For the other 
years, the requested increases were limited to amounts needed for fixed 
costs and related changes, as opposed to actual program increases. 
Funding for ISEF began to fall in fiscal year 2011, and the fiscal year 
2015 level was actually $5 million less than in fiscal year 2010.
    Impact.--For most BIE-funded schools, the chronic shortfall in the 
other key school accounts has a negative impact on ISEF funding, 
because ISEF funds are often diverted to make up the shortfalls in 
other accounts such as Student Transportation, Facilities, and Tribal 
Grant Support Costs when a tribe or tribal school board has no other 
source of revenue to satisfy those shortfalls. This means fewer dollars 
are available for the education and residential programs.
    Request.--The administration's proposal of $391.8 million for ISEF 
restores the funding to fiscal year 2010 levels, but does not 
acknowledge the shortfalls that have been building for years. ANCCSB 
Members Schools respectfully request funding of ISEF at least $431 
million.
                               conclusion
    Thank you Chairman Calvert, Ranking Member McCollum, and members of 
this subcommittee for the opportunity to relay our needs to you.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
          Universities (APLU) Board on Natural Resources (BNR)
    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the United 
States Geological Survey (USGS). We appreciate the opportunity to 
provide recommendations for the following programs within USGS: $8.8 
million for the Water Resources Research Institutes and $18.6 million 
for the Cooperative Fish and Wildlife Research Units.
    APLU BNR requests $8.8 million for the Water Resources Research 
Institutes (WRRI). The APLU BNR request is based on the following: 
$7,000,000 in base grants for the WRRI as authorized by section 104(b) 
of the Water Resources Research Act, including State-based competitive 
grants; $1,500,000 to support activities authorized by section 104(g) 
of the Act, which is a competitive matching grants program that 
addresses national and regional water issues and $300,000 to support 
USGS administrative costs. Federal funding for the WRRI program is the 
catalyst that moves States and cities to invest in university-based 
research to address their own water management issues. State WRRIs take 
the relatively modest amount of Federal funding appropriated, match it 
2:1 with State, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $16 in other funds for every dollar funded 
through this program. The added benefit is that often research to 
address State and local problems helps solve problems that are of 
regional and national importance. Many of the projects funded through 
this program provide the knowledge for State or local managers to 
implement new Federal laws and regulations. Perhaps most important, the 
Federal funding provides the driving force of collaboration in water 
research and education among local, State, Federal and university water 
professionals. This program is essential to solving State, regional and 
inter-jurisdictional water resources problems. As USGS itself has 
stated: ``The Water Institutes have developed a constituency and a 
program that far exceeds that supported by their direct Federal 
appropriations.''
    The institutes also train the next generation of water resource 
managers and scientists. Last year, these institutes provided research 
support for more than 1,400 undergraduate and graduate students at more 
than 150 universities studying water-related issues in the fields of 
agriculture, biology, chemistry, earth sciences, engineering and public 
policy. Institute-sponsored students receive training in both the 
classroom and the field, often working shoulder-to-shoulder with the 
top research scientists in their field on vanguard projects of 
significant regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
Webinars, and offers other means of education in an effort to transfer 
their research findings to as many users as possible. Outreach that 
succeeds in changing a farmer's approach to nitrogen application or 
reducing a homeowner's misuse of lawn treatments can reduce the need 
for restrictive regulation.
    Below are some examples of work being done in various States:
  --The current drought in California is creating serious economic 
        hardship for agricultural producers and local communities. The 
        University of California's (UC) California Institute for Water 
        Resources (CIWR) has responded by creating an information hub 
        that is being accessed by agricultural and urban interests to 
        gain vital information on how to adapt during the drought. This 
        hub contains valuable information from multiple units within 
        the UC system. It also brings together information on workshops 
        and seminars (many of which are and will be provided in video 
        form on the Web). In 2014, UC promoted and hosted over 150 
        workshops and has more than 25 planned (ciwr.ucanr.edu). The 
        CIWR has also produced a Webinar series of short (15-minute) 
        talks with useful information on irrigation practices, salinity 
        management, landscape management and more.
  --The Minnesota Water Resources Center has funded a number of 
        research projects that address important, nationally relevant 
        water resources issues with USGS/WRRA funding over the last 4 
        years. This funding has been highly leveraged with university 
        funds and the Minnesota Environmental Trust Fund. Researchers 
        have addressed critical issues, including determining the 
        biogeochemical variables that can be used to predict how much 
        arsenic will get into groundwater used for drinking water, and 
        determining the degree of antibiotic resistance in wastewater 
        treatment plant effluent.
  --Researchers with the Idaho Water Resources Research Institute have 
        collaborated with Idaho Department of Water Resources 
        scientists to develop technology for assessing crop-water usage 
        over large areas using satellite based remote-sensing 
        information. This technology is now used routinely within the 
        Idaho Department of Water Resources for investigating and 
        resolving water rights conflicts, for aquifer depletion 
        modeling and for stream flow management. This technology is 
        also being adopted by 10 western States and parts of Africa, 
        Europe and Australia.
    APLU BNR requests at least $18.6 million for the Cooperative Fish 
and Wildlife Research Units (CRU). This program: (1) trains the next 
generation of fisheries and wildlife managers; (2) conducts research 
designed to meet the needs of unit cooperators; and (3) provides 
technical assistance to State, Federal and other natural resource 
managers. Originally established in the 1930s to provide training for 
students in fisheries and wildlife biology, the units were formally 
recognized by the Cooperative Units Act of 1960 (Public Law 86-686). 
The CRUs provide experience and training for approximately 600 graduate 
students per year, a critical need as State and Federal workforces face 
unprecedented retirements over the next 5 to 10 years. The CRUs also 
provide valuable mission-oriented research for their biggest clients, 
the U.S. Fish and Wildlife Service and cooperating State agencies. 
Today, there are 40 Cooperative Research Units in 38 States.
    Each unit is a true Federal-State-university-private sector 
collaboration in that it is a partnership between the U. S. Geological 
Survey, a State natural resources management agency, a host university, 
and the Wildlife Management Institute. For every $1 the Federal 
Government puts into the program, $3 more are leveraged through the 
other partners. The U.S. economy has long relied on the bountiful 
natural resources bestowed upon this land. Federal investment in the 
CRUs will be returned many times over though the training of future 
natural resource managers who will guide the Nation in sustainable use 
of our natural resources. The research conducted by CRU scientists 
directly supports the difficult management challenges faced by natural 
resources managers. The examples below demonstrate the value of the 
CRUs to wildlife issues with local and national importance.
  --Minnesota: The Minnesota CRU is currently researching the olfactory 
        sensitivity of Asian carps to putative sex pheromones. This 
        work has recently received national attention, because Asian 
        carps are an invasive species that threatens many of the 
        Nation's freshwater native fishes through competition for food. 
        The Minnesota CRU hopes to use the sex pheromones to attract 
        and trap Asian carp, removing them permanently from the 
        Nation's freshwater lakes and rivers. Minnesota CRU researchers 
        are also studying human behavior, working to understand the 
        motivations of agricultural producers enrolling in USDA water 
        quality and wildlife habitat programs. They hope to gain 
        insight into designing and developing programs, practices and 
        messages that encourage broader participation in those 
        programs.
  --Tennessee: In 2011, an estimated 826,293 anglers fished in 
        Tennessee, creating an economic impact of nearly $1.3 billion 
        for the State. The Tennessee CRU supports this economic driver 
        by assessing fish stocks, working on recovery efforts for 
        threatened and endangered species, providing research and 
        technical assistance to support State decisions related to 
        fishing. For example, research on sauger in the Tennessee River 
        showed that minimum size requirements by the State were not 
        leading to increased mortality of released fish below the 
        minimum size. Their research also kept ``stinger'' hooks 
        available for fishermen by showing they also did not contribute 
        to increased mortality.
  --Oklahoma: The Oklahoma CRU is celebrating its seventh decade of 
        activity. Since opening in 1948, the graduate students that 
        conducted research at the CRU have completed over 400 theses 
        and dissertations. One on-going research project is to gather 
        an accurate count of the black bear population expansion out of 
        Arkansas and into eastern Oklahoma. Wildlife managers need this 
        information for appropriate management of the bear population 
        now that black bear hunting has been reintroduced in Oklahoma.
    Based on the examples provided above, we urge you to support the 
Wildlife Cooperative Research Units and the Water Resources Research 
Institutes.
             about aplu and the board on natural resources
    APLU's membership consists of 238 State universities, land-grant 
universities, State-university systems and related organizations. APLU 
institutions enroll more than 4.8 million undergraduate students and 
1.3 million graduate students, award 1.2 million degrees, and conduct 
$41 billion annually in university-based research annually. The Board's 
mission is to promote university-based programs dealing with natural 
resources, fisheries, wildlife, ecology, energy, and the environment. 
BNR representatives are chosen by their president's office to serve and 
currently number over 500 scientists and educators, who are some of the 
Nation's leading research and educational expertise in environmental 
and natural-resource disciplines.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    The Association of State Drinking Water Administrators (ASDWA) 
respectfully submits the following recommendations for fiscal year 2016 
appropriations on behalf of the drinking water programs in the fifty 
States, territories, District of Columbia, and Navajo Nation.
    Summary of Request: ASDWA respectfully requests that, for fiscal 
year 2016, the subcommittee appropriate funding for three programs at 
levels commensurate with Federal expectations for performance; that 
ensure appropriate public health protection; and that will result in 
enhancing economic stability and prosperity in American cities and 
towns. ASDWA requests $200 million for the Public Water System 
Supervision (PWSS) program; $1.186 billion for the Drinking Water State 
Revolving Loan Fund (DWSRF) program; and $10 million for State drinking 
water program security initiatives. A more complete explanation of the 
needs represented by these requested amounts and their justification 
follows.
overview: the importance of safe drinking water for our communities and 
        the economy & the role of state drinking water programs
    States need increased Federal support to maintain public health 
protection and to support the needs of the water systems they oversee. 
State drinking water programs strive to meet the Nation's public health 
protection goals through two principal funding programs: the Public 
Water System Supervision Program (PWSS) and the Drinking Water State 
Revolving Loan Fund (DWSRF) Program. These two programs, with their 
attendant State match requirements, provide the means for States to 
work with drinking water utilities to ensure that American citizens can 
turn on their taps with confidence that the water is both safe to drink 
and the supply is adequate. In recent years, State drinking water 
programs have accepted additional responsibilities in the area of water 
system security that include working with all public water systems to 
ensure that critical drinking water infrastructure is protected; that 
plans are in place to respond to both natural and manmade disasters; 
and that communities are better positioned to support both physical and 
economic resilience in times of crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have reliable water supplies. Over 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system--overseen by State drinking water program personnel. Even 
people who have their own private wells will visit other homes, 
businesses, and institutions served by a public water system. As 
important as public water systems are to the quality of the water we 
drink and our health, the majority of water produced by public water 
systems is used by businesses for a variety of purposes, including 
processing, cooling, and product manufacturing. The availability of 
adequate supplies of safe water is often a critical factor in 
attracting new businesses to communities. Public water systems--as well 
as the cities, villages, schools, and businesses they support--rely on 
State drinking water programs to ensure they are in compliance with all 
applicable Federal requirements and the water is safe to drink. Several 
recent incidents in the U.S. have led to illnesses, death, or 
prohibitions against use, due to unsafe drinking water. These have 
included deaths in several States due to microbiological contaminants; 
unsafe drinking water in Charleston, West Virginia for over a week due 
to an upstream chemical spill; and unsafe drinking water in Toledo, 
Ohio for over a day due to algal toxins. These incidents serve as stark 
reminders of the critical nature of the work that State drinking water 
programs do--every day--and the reason why State drinking water 
programs must be adequately funded.
state drinking water programs: how they operate, why support is needed, 
                and justifications for requested amounts
The Public Water System Supervision (PWSS) Program
    How the PWSS Program Operates.--To meet the requirements of the 
Safe Drinking Water Act (SDWA), States have accepted primary 
enforcement responsibility for oversight of regulatory compliance and 
technical assistance efforts for over 155,000 public water systems to 
ensure that potential health-based violations do not occur or are 
remedied in a timely manner. Over 90 contaminants are regulated in 
Federal drinking water regulations and the pace of regulatory activity 
has accelerated in recent years. Beyond the contaminants covered by 
Federal drinking water regulations, States are also implementing an 
array of proactive initiatives to protect public health from ``source 
to tap.'' These include source water assessments and protections for 
communities and watersheds; technical assistance for water treatment 
and distribution for challenged utilities; and enhancement of overall 
water system performance. In recent years, States have also taken on an 
increasingly prominent role in working with Federal and local partners 
to help ensure sufficient water quantity. In short, State activities go 
well beyond simply ensuring compliance at the tap--and, States perform 
all of these tasks more efficiently and cheaply than would be the case 
if the program were federally implemented. Well supported State 
drinking water programs are a good deal for America.
    Why Adequate Support is Needed.--Simply put, State drinking water 
programs are extremely hard pressed financially and the funding gap 
continues to grow. States must accomplish all of the above-described 
activities--and take on new responsibilities--in the context of a 
challenging economic climate. State funding has historically 
compensated for inadequate Federal funding, but State budgets have been 
less able to bridge this funding gap in recent years. State drinking 
water programs have often been expected to do more with less and States 
have always responded with commitment and integrity but they are 
currently stretched to the breaking point. Insufficient Federal support 
for this critical program increases the likelihood of contamination 
events that puts the public's health at risk. $101.9 million was 
appropriated for the PWSS program in fiscal year 2015 and the 
administration requested only $109.7 million in fiscal year 2016 (or, 
on average, a paltry $2 million per State per year). These amounts are 
woefully inadequate for the enormity of the task faced by State 
drinking water programs. We believe, based on our rigorous assessment 
of every State's need (in a report we released in January 2014), that 
at least twice that amount is needed. Inadequate Federal funding for 
State drinking water programs has a number of negative consequences. 
Many States are simply unable to implement major provisions of the 
newer regulations, leaving the work undone or ceding the responsibility 
back to EPA, which is also challenged by the Agency's own resource 
constraints and lack of ``on the ground'' expertise. States also want 
to offer the flexibilities allowed under existing rules to local water 
systems. However, fewer State resources mean less opportunity to work 
one-on-one with water systems to meet their individual needs. This 
situation has created a significant implementation crisis in several 
regions of the country and is ultimately delaying or hampering 
implementation of critically needed public health protections.
    For the PWSS Program in fiscal year 2016, ASDWA Respectfully 
Requests $200 million.--The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
essentially ``flat-lined.'' Inflation has further eroded these 
inadequate funding levels. The recommended amount is based on ASDWA's 
aforementioned January 2014 resource needs report and begins to fill 
the above-described resource gap. These funds are urgently needed for 
implementing new drinking water rules, taking on a number of other new 
initiatives, and to account for the eroding effects of inflation. We 
further recommend that Congress not allow any Federal funds already 
appropriated to State drinking water programs to be rescinded.
      the drinking water state revolving loan fund (dwsrf) program
    How the DWSRF Program Operates.--Drinking water in the U.S. is 
among the safest and most reliable in the world, but it is threatened 
by aging infrastructure. Through loans provided by the DWSRF, States 
help water utilities overcome this threat. The historical payback to 
the DWSRF on this investment has been exceptional. In the core DWSRF 
program, $17.7 billion in cumulative Federal capitalization grants 
since 1997 have been leveraged by States into over $28 billion in 
infrastructure loans to small and large communities across the country. 
Such investments pay tremendous dividends--both in supporting our 
economy and in protecting our citizens' health. States have very 
effectively and efficiently leveraged Federal dollars with State 
contributions to provide assistance to more than 10,000 projects, 
improving health protection for millions of Americans. The U.S. 
Conference of Mayors estimates that each public dollar invested in 
water infrastructure increases private long-term Gross Domestic Product 
output by $6.35. An important feature of the DWSRF program is States 
``set-aside'' funds and another key reason for adequately funding this 
critical program. States can reserve up to 31 percent of these funds 
for a variety of critical tasks, such as shoring up the technical, 
managerial, and financial capacity of public water systems. Set-asides 
are thus an essential source of funding for States' core public health 
protection programs and these efforts work in tandem with 
infrastructure loans.
    Drinking Water Infrastructure Investment is Well below the 
Documented Need.--The American Society of Civil Engineers gave the 
Nation's drinking water infrastructure a D+ grade and EPA's most recent 
National Drinking Water Infrastructure Needs Survey (2011) indicated 
that drinking water system infrastructure needs total $384 billion over 
the next 20 years. The American Water Works Association recently 
estimated that 20 year need at $1 trillion (which more fully accounted 
for more of the water distribution system replacement costs). 
Investment is needed for aging treatment plants, storage tanks, pumps, 
and distribution lines that carry water to our Nation's homes, 
businesses and schools. The DWSRF must continue to be a key part of the 
solution to the Nation's infrastructure crisis.
    For the DWSRF Program in fiscal year 16, ASDWA respectfully 
requests $1.186 billion.--States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 but have been 
disappointed by the subsequent downward trend--$963 million in fiscal 
year 2011, $919 million in fiscal year 2012, $854 million for fiscal 
year 2013 (a figure not seen since 2006), and, a somewhat better $907 
million in fiscal year 2014 and fiscal year 2015. The primary purpose 
of the DWSRF is to improve public health protection by facilitating 
water system compliance with national primary drinking water 
regulations through the provision of loans to improve drinking water 
infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy, as explained above. In 
light of these indicators of success and documented needs, we believe 
funding at the $1.186 billion level--the level requested in the 
President's fiscal year 2016 budget--will better enable the DWSRF to 
meet the SDWA compliance and public health protection goals for which 
it was designed.
                 state drinking water security programs
    State Drinking Water Security Responsibilities.--State drinking 
water programs are critical partners in emergency planning, response, 
and resiliency at all levels of government. In fact, States are 
typically the critical nexus between Federal and local levels officials 
in emergency situations. State primacy agencies provide key resources 
and critical support--regardless of whether the emergency is rooted in 
terrorism, natural disasters, or cyber intrusions. States continually 
work toward integrating security considerations throughout all aspects 
of their drinking water programs.
    State Drinking Water Security Funds Are Urgently Needed.--After 7 
years of Congressional support for State security programs through a 
small grant of approximately $5 million in EPA's appropriations (from 
fiscal year 2002 through fiscal year 2008), no funds have been provided 
for this purpose since fiscal year 2009 and none are requested by the 
administration for fiscal year 2015. It is very difficult to understand 
why this small, but essential grant to States has been zeroed out of 
EPA's proposed budget and why Congress has not supported State drinking 
water security programs. State drinking water programs urgently need 
funds to continue to maintain and expand their security activities, 
particularly in partnership with small and medium public water systems.
    For State Drinking Water Security Programs in fiscal year 16, ASDWA 
Respectfully Requests $10 million.--Given the realities and the lessons 
learned from recent catastrophic events such as Hurricane Sandy in New 
York and New Jersey; tornados in central Oklahoma; wildfires and floods 
in Colorado; and continuing drought in California and Texas--to name 
but a few--State drinking water programs are working more closely than 
ever with their water utilities to evaluate, assist, and support 
drinking water systems' preparedness, response, and resiliency 
capabilities. States continue to expand their efforts to reflect a 
resilient, ``all hazards'' approach to water security and to assist 
public water systems of all sizes--with a particular focus on smaller 
water systems that most need help.
    Conclusion.--ASDWA respectfully recommends that the Federal fiscal 
year 2016 budget needs for States' role in the provision of safe 
drinking water be adequately funded by Congress. A strong State 
drinking water program supported by the Federal-State partnership will 
ensure that the quality of drinking water in this country will not 
deteriorate and, in fact, will continue to improve--so that the public 
can be assured that a glass of water is safe to drink no matter where 
they travel or live. States are willing and committed partners. 
However, additional Federal financial assistance is needed to meet 
ongoing and ever growing regulatory, infrastructure, and security 
needs. In 1996, Congress provided the authority to ensure that the 
burden would not go unsupported. For fiscal year 2016, ASDWA asks that 
the promise of that support be realized.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you Chairwoman Murkowski and Ranking Member Udall for 
allowing me to submit written testimony on behalf of the Nation's 215 
AZA-accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of $11,100,000 for the Multinational Species 
Conservation Funds (MSCF) operated by the U.S. Fish and Wildlife 
Service and $11,000,000 for National Environmental Education Act 
programs at the Environmental Protection Agency (EPA) in the fiscal 
year 2016 Interior, Environment, and Related Agencies appropriations 
bill.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
180 million visitors, collectively generate more than $17 billion in 
annual economic activity, and support more than 165,000 jobs across the 
country. Annually, AZA-accredited institutions spend $160,000,000 on 
more than 2,650 field conservation projects in 130 countries.
    MSCF programs support public-private partnerships that conserve 
wild tigers, elephants, rhinos, great apes, and marine turtles in their 
native habitats. Through the MSCF programs, the United States 
supplements the efforts of developing countries that are struggling to 
balance the needs of their human populations and endemic wildlife. MSCF 
programs help to sustain wildlife populations, address threats such as 
illegal poaching, reduce human-wildlife conflict, and protect essential 
habitat. By working with local communities, they also improve people's 
livelihoods, contribute to local and regional stability, and support 
U.S. security interests in impoverished regions. This Federal program 
benefits AZA-accredited zoos and aquariums in their field conservation 
efforts and partnerships with the U.S. Fish and Wildlife Service.
    I also encourage you to continue to support the valuable 
environmental education initiatives at the EPA. Education programs at 
AZA-accredited institutions provide essential learning opportunities, 
particularly about science, for schoolchildren in formal and informal 
settings. Studies have shown that American schoolchildren are lagging 
behind their international peers in certain subjects including science 
and math. In the last 10 years, accredited zoos and aquariums formally 
trained more than 400,000 teachers, supporting science curricula with 
effective teaching materials and hands-on opportunities. School field 
trips annually connect more than 12,000,000 students with the natural 
world. Increasing access to formal and informal science education 
opportunities has never been more important.
    Finally, much of the important conservation work at accredited zoos 
and aquariums depends on a robust and fully staffed U.S. Fish and 
Wildlife Service. While I am aware of the budget challenges facing 
Congress and the agencies, I encourage you to ensure that the U.S. Fish 
and Wildlife Service has sufficient resources to employ qualified 
professionals, particularly for the programs handling permits, which 
support the science-based conservation breeding and wildlife education 
programs that require animals to be moved in an efficient, timely 
manner: International Affairs (Management Authority), Endangered 
Species, Law Enforcement, and Migratory Birds.
    AZA-accredited zoos and aquariums are essential conservation and 
education partners at the Federal, State, and local levels domestically 
as well as internationally. To ensure that AZA-accredited zoos and 
aquariums can continue to serve in these important roles, I urge you to 
include $11,100,000 for the Multinational Species Conservation Funds 
operated by the U.S. Fish and Wildlife Service and $11,000,000 for 
National Environmental Education Act programs at the Environmental 
Protection Agency in the fiscal year 2016 Interior, Environment, and 
Related Agencies appropriations bill.
    Thank you.

    [This statement was submitted by Jim Maddy, President and CEO.]
                                 ______
                                 
         Prepared Statement of the Black Mesa Community School
    My name is Lorraine Yazzie, and I serve on the Board of the Black 
Mesa Community School, located in a remote mountainous area, 26 miles 
North of Pinon, Arizona. We are a community grant school, and have an 
enrollment of nearly 60 students in grades K-8th. Our community is 
small, but the Black Mesa Community School lies at the center of it, 
providing a space not only for children to learn, but for parents to 
participate alongside them.
    I testify during a time of both upheaval and promise in education 
for both Navajo and other Indian students. This subcommittee has shown 
an admirable commitment to Native schools with your recognition of 
needs in both program funding and facilities. The administration has 
paid more attention to the issue of Indian education in the last 2 
years than ever before, and has recognized the need to finish work on 
the now 11-year-old school replacement list. However, we recognize that 
with increased attention come new priorities and strategies, which 
could enhance our students' educational opportunities and safety or 
which could adversely impact our small community school depending on 
how these priorities are implemented. We submit this testimony with 
strong hope that our concerns will be considered and that through a 
partnership between the Congress, administration, tribes and schools we 
will succeed in improving Indian education policy by better addressing 
the needs of Native students.
    Our recommendations can be summarized as follows:
  --Increase ISEP funding to $431 million in fiscal year 2016.
  --Fund Student Transportation at $73 million, and BIA road 
        maintenance at $40 million.
  --Fully fund Tribal Grant Support Costs and Fund Technology 
        Improvements as proposed by the administration.
  --Provide $109 million for facilities operation and $76 million for 
        facilities maintenance.
  --Embark on a comprehensive 60-year plan for school replacement and 
        upkeep.
  --Protect school funding from the proposed Federal bureaucratic 
        expansion.
1. Increase Funding for Indian School Equalization Programs
    The most critical stream of funding for community grant schools 
like ours is increased funding in the Indian School Equalization 
Program (ISEP). The ISEP funds are those that schools use for their day 
to day operation, whether that is paying teachers and staff, purchasing 
curriculum and supplies, or running student programs.
    For years our ISEP funds have had to cover shortfalls due to the 
significant underfunding of grant support costs, facilities operations 
and maintenance, and school transportation. Thus, our need to use ISEP 
funds to paying utilities to ensure our students have heat or to repair 
one of our school buses has meant that we cannot provide retirement 
benefits to teachers and we must rely on part-time workers to perform 
vital staff services. The need for increases in our available ISEP 
funding is essential to attract and retain teachers for our school, 
since we are remote and some teachers find a small school environment 
challenging. We do not want to be in the situation where we are left 
only with those teachers who cannot find a job elsewhere.
    We also need teachers with the capacity to provide culturally 
appropriate bilingual education consistent with requirements of the 
Navajo Department of Education. We have seen important student 
performance successes thanks to bilingual and cultural education 
programs, but have no additional funding sources for training, 
curriculum development, teacher certification and professional 
development. ISEP funding increases are vital to enhancing learning 
opportunities for all of our students through the training, development 
and retention of excellent teachers.
    The subcommittee should be aware that due to funding limitations, 
year-after-year we have also been forced to go without a school nurse 
or any security personnel. Because ambulance service and law 
enforcement is more than 3 hours away, our school staff members are the 
first responders in our community. Additional ISEP funding is necessary 
so that we can employ a school nurse and security personnel. Inadequate 
funding for these positions must be corrected so that our small size 
and remote location does not make our students vulnerable.
    This year, we are gratified to see the administration has requested 
$391.8 million for ISEP funding, an increase of $5 million to the 
program. This will be an important improvement that we fully support. 
We also stress that ISEP is our schools' lifeblood, and we are still 
struggling to make up for losses in past years. We encourage the 
subcommittee to consider the National Congress of American Indians' 
(NCAI) recommendation of $431 million for ISEP funding.
2. Increase Funding for Student Transportation
    One of our school's largest challenges is getting our children to 
school and back home. Our community is at high altitude, and our 
weather takes a toll on our roads. In turn, our roads take a toll on 
our school buses, particularly the computer sensors and electrical 
systems that are not designed for the punishing road conditions our 
buses face. Maintenance costs for our vehicles are higher than average 
for this reason and because maintaining our buses requires long 
transport trips to garages in Flagstaff and Gallup which are 150 and 
170 miles away, respectively. Furthermore, although we have the ability 
to perform many bus maintenance activities on site, we do not have the 
funding resources to meet the numerous Federal environmental 
requirements applicable to those maintenance activities. With funds 
stretched so thin, we struggle to get our students to extracurricular 
activities such as sports or field trips that students at non-Indian 
schools enjoy as an everyday convenience. The administration has 
requested $53.14 million for student transportation, but that is simply 
not enough given the challenges of our roads and equipment. We request 
at least $73 million for student transportation in the BIE system.
    We also request that this subcommittee fund BIA road maintenance at 
a sustainable level. For example, we had to cancel school on February 
25-27 and March 2, March 3, March 5, and March 6 because our roads were 
impassable--and we only had a half day on March 4. The condition of our 
roads is directly affecting our students' ability to learn. The 
administration has only requested an increase of $232,000 to the meager 
$26.5 million budget for road maintenance. We echo NCAI's 
recommendation that the subcommittee appropriate $40 million for road 
maintenance in fiscal year 2016.

3.  We support the President's proposal to fully fund Tribal Grant 
Support Costs and Increase Technology Resources.

    Tribal Grant Support Costs (TGSC) (formerly known as Administrative 
Cost Grants) are the BIE analogue to Contract Support Costs, and are 
necessary for community grant schools like Black Mesa to operate their 
schools. Not only do the TGSC funds pay for the administration of the 
school, but also fund all indirect costs like payroll, accounting, 
insurance, background checks and other legal, reporting, and 
recordkeeping requirements. TGSC is also critical in order for schools 
to comply with the increasingly burdensome reporting requirements 
imposed by BIE and to comply with grant funding assurances, such as the 
extensive and costly measures required by the Environmental Protection 
Agency (EPA).
    Black Mesa School wishes to underscore the importance of TGSC for 
small schools like ours. Although our student population and staffing 
numbers may be smaller than others, the administrative responsibilities 
that we must meet are the same as those of large schools. As a result, 
these administrative duties disproportionately affect us. This year, 
the administration has proposed to fully fund TGSC. Black Mesa 
Community School welcomes this important change, and applauds this 
subcommittee's and the administration's decision to treat schools' 
support costs the same as contractors with the BIA and the Indian 
Health Service. We support the administration's proposal that TGSC and 
startup costs be funded at $75.34 million.
    Additionally, our limited Internet connectivity and no qualified 
computer technician requires members of our staff to travel 4 hours 
roundtrip on a weekly basis to obtain suitable Internet service to 
submit our school's required progress reports (Native STAR school 
improvement planning) and facilities management information system 
(FMIS). Our schools technology needs, only a daily basis, financial 
transaction/data (MIP Accounting software program), student information 
system (NASIS), transportation program, environmental compliance 
through the environmental management system (EMS), food service 
compliance through State Department of Education and related electronic 
sharing/reporting (i.e. fund drawdowns from ASAP/SAM, Clearinghouse to 
report our audits, etc.). Given our dependence on inadequate satellite 
Internet access and the increasing importance of Internet-based 
technologies in the classrooms and administration, we also fully 
support the President's call to expand access to broadband and other 
communications infrastructure and technology with a computer technician 
in every school.
4. Our schools need full funding for Facilities Operation and 
        Maintenance.
    The condition of BIE-funded schools has been the subject of 
national news attention for years. Some schools in the country are 
forced to teach their students in converted bus barns or go without hot 
water. We do the best we can with our facilities at Black Mesa School, 
but constantly struggle with the fact that we do not have enough 
funding for maintenance of our buildings, utilities, and every day 
repairs.
    The effective operation of our facilities is vital not only for the 
learning readiness and comfort of our students, but also to protect 
their health and safety. It is hard to learn and progress if you're too 
cold, or if the lights are dim or flickering. In the last year it was 
reviewed, the BIA listed our school condition as ``poor'' with a 
deferred maintenance backlog of over three-quarters of a million 
dollars. Our backlog has only grown in the intervening 4 years, and our 
students are the ones who suffer as a result. Our facilities face 
significant budgetary challenges, especially as EPA compliance 
requirements must be given priority attention to avoid citations. 
Meanwhile, because Facilities Operation and Maintenance funding for BIE 
schools is allocated based upon square footage, our small school 
receives insufficient funds to meet Federal environmental compliance 
requirements while also covering immediate health, safety and 
maintenance needs.
    We appreciate that the administration has finally moved to complete 
the replacement of schools on a list dated from 2004, but we need to 
stress that these needs are ongoing. Further, it is critical for our 
schools to have the funds to maintain and thus lengthen the useful life 
of our facilities. We support the BIE's request for school 
construction, but request that funding for facilities operation and 
maintenance be increased to $109 million for operations and $76 million 
for maintenance. This will help us meet our ongoing needs, and will set 
us on the path to catching up with deferred maintenance from past 
years.
    We also note that the completion of the 2004 school replacement 
list means that a new round of replacements will begin. We encourage 
this subcommittee and BIE to work together with schools and tribes to 
establish a comprehensive, long-term plan for school construction and 
maintenance. We call on the subcommittee to embark on a 60-year schools 
replacement plan with adequate funding to maintain buildings throughout 
their life. Recent testimony from the Government Accountability Office 
reported that even new construction is starting to fail due to 
inappropriate maintenance or poor construction oversight. Our school 
wants to protect the Federal investment in our students' education, and 
we ask the subcommittee to empower local communities to do so by 
removing and streamlining the bureaucratic hurdles in the facilities 
management system.
5. Protecting School Funding and Programs from Federal Expansion
    You have heard over the last year from us and other schools about 
our concerns with the BIE's ``Blueprint for Reform'' and its ``One-
Grant Initiative.'' We do not doubt the administration's commitment to 
Native students or improving the education outcomes at Indian schools--
even the President himself has commented on the issue. We have a 
different perspective on what will be the best strategies to use to 
achieve that goal and we fear that our views are not being heard.
    Without delving into the detail of the Blueprint for Reform and the 
Secretarial Order that accompanied it in June of last year, we urge the 
limited amounts of new funding proposed by the President be directed to 
the community school level, not the BIE bureaucracy. Accordingly, we 
request that the subcommittee reprogram funds the administration has 
proposed for bureaucratic reforms (like those contained in the 
``Enhancement'' line item of the budget) to ISEP and Facilities. Any 
funding for the BIE's internal reforms must come from outside the 
Indian budget realm--our funds are scarce as is, and must not be 
diverted away from students.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
   Prepared Statement of John Bradley and Rebecca Bradley of Newark, 
                               California
    Dear Senators Feinstein and Boxer and Members of the Senate 
Appropriations Subcommittee on Interior, Environment and Related 
Agencies:

    We urge you to support the President's 2016 budget request for 
$508.2 million for the National Wildlife Refuge System's Operations and 
Maintenance account. For too many years now our National Wildlife 
Refuge System has been operating on a shoe-string budget, trying 
diligently to respond to infrastructure maintenance needs, and working 
heroically with insufficient number of staff to provide us and our 
children with quality interpretation, environmental education, habitat 
protection and restoration, and access to wildlife.
    We urge you to reauthorize and fully fund the Land and Water 
Conservation Fund at $900 million per year, and provide $173.8 million 
of such funding in fiscal year 2016 for procurement of conservation 
easements and refuge in-holdings. We believe that we should be able to 
maintain existing infrastructure and run quality operations, and at the 
same time increase the number of acres that are protected for wildlife 
habitat by investing in conservation easements and purchasing land from 
willing sellers at fair market value.
    We ask you along with our local and county governments to 
appropriate $60 million for the National Wildlife Refuge Fund in fiscal 
year 2016, which offsets losses in tax revenue because lands owned by 
the Federal Government are exempt from property taxes. At the same time 
we are encouraged by the annual reporting that confirms the value which 
refuges provide to communities in economic terms, based on the spending 
patterns of citizens and others who visit refuges. Refuges are not only 
great for wildlife, they're often an asset to local economies. This is 
another reason why we think it is important to maintain infrastructure 
and services.
    Finally, we will plead with you and all your Senate colleagues, to 
pass a ``clean'' Appropriation bill, free from policy riders such as 
removing the Service's authority to establish new refuges 
administratively. This authority has been used by the executive 
department in a non-partisan way to establish 90 percent of all 
existing National Wildlife Refuges. It seems to us that appropriations 
bills are intended to address the annual monetary needs of our 
executive department, and are not meant to formulate or revise policy 
issues or prior legislation. We think such riders can be very 
distracting, counter-productive, and detrimental to responsible, 
efficient legislation and governance.
    We appreciate the opportunity to provide input into the 
appropriations process and try to make a difference for the natural 
heritage we all hold dear.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation
    The requests of the Bristol Bay Area Health Corporation for the 
fiscal year 2016 Indian Health Service (IHS) budget and our comments on 
BIA Recognition are as follows:
  --Allocate at least an additional $12.5 million to the IHS to fully 
        fund Village Built Clinic (VBC) leases and make it a line item 
        in the budget.
  --Active support of the subcommittee to change Contract Support Costs 
        funding to a mandatory funded basis.
  --Increased IHS behavioral healthcare funding.
  --Funding for built-in costs.
  --Department of Interior recognition of Knugank.
    The Bristol Bay Area Health Corporation (BBAHC) was created in 1973 
to provide healthcare services to Alaska Natives of Southwest Alaska. 
BBAHC began operating and managing the Kanakanak Hospital and the 
Bristol Bay Service Unit for the IHS in 1980, and was the first tribal 
organization to do so under the Indian Self-Determination and Education 
Assistance Act (ISDEAA). BBAHC is a co-signer to the Alaska Tribal 
Health Compact with the IHS under the ISDEAA and is now responsible for 
providing and promoting healthcare to the people of 34 Alaska Native 
Villages.
                         village built clinics
    In our Bristol Bay region, our Village Built Clinic (VBC) 
facilities continue to face a significant funding crisis. The VBCs are 
essential for maintaining our Community Health Aide/Practitioner (CHAP) 
programs in our villages. The CHAP program provides the only local 
source of healthcare for our Alaska Native people.
    Because the CHAPs could not operate in most of rural Alaska without 
clinic facilities in the Alaska Native villages, the IHS established 
the VBC leasing program in the 1970s, but the leases have been 
chronically underfunded. Moreover, IHS has taken the position that 
VBCs--unlike comparable facilities in the lower 48--are not eligible 
for maintenance and improvement funding, for which Congress 
appropriated over $53.6 million in fiscal year 2015. Current funding 
for the VBCs is not sufficient to cover the cost of repair and 
renovation as necessary to maintain the facilities in a safe condition. 
Many have been closed due to the hazards to the health service 
employees and patients, leaving villages without a clinic or access to 
CHAP services. Lease rental amounts for VBCs have failed to keep pace 
with costs; the majority of leases have not increased since 1989.
    A very recent estimate is that $12.5 million more per year, in 
addition to the current VBC allocation from IHS of about $4 million, 
would be needed to maintain and operate Alaska VBCs on a par with 
similar tribal health facilities elsewhere. Congress typically has not 
appropriated VBC funding as a separate line item. Instead, IHS 
allocates VBC lease funds from the Hospitals and Clinics line in its 
multi-billion-dollar lump-sum appropriation. This leaves IHS the 
discretion, in its view, to allocate however much--or little--it wishes 
to VBCs. Congress, of course, can override this discretion. We 
respectfully request that you direct IHS to (1) identify the amount 
needed to fully fund all Alaska VBCs, (2) request that amount in a 
separate line in the IHS budget, and (3) allocate that amount to the 
VBC lease program.
                contract support costs mandatory funding
    We support the administration's proposal to fund Contract Support 
Costs (CSC) on a mandatory basis, although we urge, along with many 
other tribes and tribal organizations, that Congress enable it to 
become effective with fiscal year 2016. The administration's proposal 
differs from our and others in Indian Country proposal that CSC be 
funded indefinitely and not capped, but we gratefully acknowledge this 
proposal as a huge step for the administration. We are hopeful that the 
$718 million proposed for CSC funds for IHS will be sufficient for full 
funding for fiscal year 2016--a lot of work has gone into the estimated 
calculation and that should bode well for future estimates as well.
    We so appreciate your support for full funding of CSC and your 
blunt statement accompanying the fiscal year 2014 appropriations act 
that the legal obligation to fully fund CSC had put the House and 
Senate Committees in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.''
    We ask for your active help in working with the Budget Committee 
and others in Congress who may want to weigh in on this proposal for 
mandatory CSC funding. You have had a great deal of experience in 
talking with Indian and Alaska Native leaders over the years about the 
frustrations and the inequity of tribes and tribal organizations who 
contract to assume administration of Federal programs not being paid 
for the costs to administer them. We know that member to member 
communications are of the utmost importance and you have much to offer 
others in Congress who will impact this proposal.
               behavioral health/social services funding
    Alaska faces particular hardships in providing for our communities' 
behavioral and mental health needs. BBAHC has only one social service 
employee. There is a dire need for more prevention funding for suicide 
intervention as well as alcohol and substance abuse prevention, 
particularly for our youth. Alaska has twice the national rate of 
suicide, and ranks second in the Nation in suicide attempts requiring 
hospitalization. Alaska Native teens commit suicide at a rate nearly 
six times that of non-Native teenagers. Compounding and complicating 
the suicide epidemic is alcohol and substance abuse, a mental health 
disorder. The overwhelming majority of the people we lose to suicide 
suffer from diagnosable, treatable mental health or substance abuse 
problems. However, the waiting list for treatment averages nearly 9 
months, and due to lack of funding there is often no place to refer 
people, particularly young people.
    Thus we urge you to support the administration's Generations 
Indigeneous (or ``Gen-I'') proposal for increased resources for tribes 
to address youth behavioral, mental health and substance abuse and 
auxiliary issues. For the IHS, the Gen-I proposal would include a $25 
million increase in Substance Abuse Prevention account for additional 
behavioral health staff and for youth-focused programs. For the BIA the 
proposal is an increase of $15 million to expand the Tiwahe Initiative 
designed to address the inter-related problems of poverty, violence and 
substance abuse faced by Native communities. Of note, but not under 
this subcommittee's jurisdiction, is the request for a $25 million 
increase for SAMHSA as part of Gen-I--$10 million from the Mental 
Health account and $15 million from the Substance Abuse Prevention 
account.
                             built-in costs
    We appreciate the administration's fiscal year 2016 request of 
$147.3 million for built-in costs consisting of $71.2 million for 
medical inflation at a 3.8 percent rate; $19.4 million for a 1.3 
percent pay raise; and $56.7 million to partially fund population 
growth ($70.3 million needed for full funding according to IHS) and 
urge Congress to fund this request.
    Built-in costs are often sacrificed in the budget negotiation 
process, but lack of them impacts all programs. Inflation--medical and 
non-medical; required pay raises, and population growth are real facts 
of life and affect our ability to provide sufficient healthcare 
services.
    While for fiscal year 2015 the administration requested $63 million 
for medical inflation and $2.6 million to partially fund pay raises, 
the final bill provided only $2.6 million for pay raises (estimated 
cost is $20 million) but no other built-in costs. For fiscal year 2014 
the only IHS built-in costs included in the appropriations act was $35 
million for medical inflation for the Purchased/Referred Care program. 
In fiscal year 2013 the only built-in costs provided was $1.7 million 
for a pay raise the Commissioned Corps program, and fiscal years 2011 
and 2012 appropriations acts were similarly bleak in terms of built-in 
costs funding. The cumulative effect of underfunding of built-in costs 
takes a toll.
                          knugank recognition
    We bring to your attention the efforts to get the Department of 
Interior to correct the omission of Knugank (which is in the Bristol 
Bay region) from the list of federally recognized tribes. We are 
supporting Knugank in this effort and are hopeful this this situation 
will be corrected soon although there has been a series of delays in 
issuing a decision.
    In a January 2012 letter to Senator Murkowski, the Assistant 
Secretary of Indian Affairs explained that Knugank could be added to 
the list of recognized tribes if it meets the standards established by 
Congress in Section 1 of the Alaska Amendment to the Indian 
Reorganization Act (25 U.S.C. Sec. 473a). Several months later, the 
office of the Assistant Secretary agreed to evaluate Knugank's 
extensive documentation, and based on the statutory standards, issue a 
decision regarding Knugank's eligibility to be included on the list of 
recognized tribes. Several times we have been told that a decision 
(which we believe will be favorable to Knugank) is imminent and that 
all needed information has been provided. It appears that, despite the 
significant investments made over the course of many years by BBAHC, 
Knugank, Members of Congress and the Agency to resolve this matter, the 
Offices of the Solicitor and Assistant Secretary now seem unable to 
find the time to take the final steps to finalize a decision. We and 
our attorneys are in frequent communication with the Offices of the 
Solicitor and Assistant Secretary and can tell you that delays at this 
point are not about serious questions, but are due to an unwillingness 
to give the issue the attention it deserves.
    Knugank should be immediately added to the list of federally 
recognized tribes, affirming their eligibility to organize as a tribe 
under the standards and precedent established by the Alaska Amendment 
to the Indian Reorganization Act, thus allowing them their rightful 
government-to-government status and access to an array of Federal 
resources.
                                 other
    There is no room within the page limits to comment on every major 
issue of importance to us but want you to know that we join others in 
full support of extending the Special Diabetes Program for Indians, for 
establishment of Medicare-like Rates for non-hospital services thus 
stretching our Purchased/Referred Care dollars, and, as Congress has 
done for the Veterans Administration medical accounts, providing 
funding to IHS on an advance appropriations basis so that may have 
better lead time for our planning, budgeting, and purchasing processes 
and for our recruitment of personnel.
    Thank you for your consideration of our concerns and needs.

    [This statement was submitted by Robert J. Clark, President/CEO.]
                                 ______
                                 
           Prepared Statement of the Central Arizona Project
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $1.5 million for salinity specific 
projects in the Bureau of Land Management's (BLM) Soil, Water and Air 
Program in fiscal year 2016. This funding will help protect the water 
quality of the Colorado River that is used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States.
    CAWCD manages the Central Arizona Project, a multi-purpose water 
resource development and management project that delivers Colorado 
River water into central and southern Arizona. The largest supplier of 
renewable water in Arizona, CAP diverts an average of over 1.6 million 
acre-foot of Arizona's 2.8 million acre-foot Colorado River entitlement 
each year to municipal and industrial users, agricultural irrigation 
districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $382 million per year to U.S. 
users with projections that damages would increase to more than $600 
million by 2035 if the program were not to continue. These damages 
include:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the Act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with Title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. With a 
significant portion of the salt load of the Colorado River coming from 
BLM administered lands, the BLM portion of the overall program is 
essential to the success of the effort. Inadequate BLM salinity control 
efforts will result in significant additional economic damages to water 
users downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a 5-year agreement, known as 
Minute 319, was signed between the U.S. and Mexico to guide future 
management of the Colorado River. Among the key issues addressed in 
Minute 319 included an agreement to maintain current salinity 
management and existing salinity standards. The CAWCD and other key 
water providers are committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through BLM program 
has proven to be a very cost effective method of controlling the 
salinity of the Colorado River. In fact, the salt load of the Colorado 
River has now been reduced by roughly 1.2 million tons annually, 
reducing salinity in the Lower Basin by more than 100 ppm. However, 
shortfalls in funding levels have led to inefficiencies in the 
implementation of the overall program. Therefore, additional funding is 
required in 2014 to meet this goal and prevent further degradation of 
the quality of the Colorado River with a commensurate increase in 
downstream economic damages.
    The current drought that has significantly impacted the West 
affects the amount of and quality of available water, which in turn has 
the potential to exacerbate the salinity concentration levels. In 
addition to initiatives such as the Drought Response program and 
WaterSMART Grants, adequate funding for salinity control will prevent 
water quality of the Colorado River from further degradation and ensure 
the availability of supplies for future generations.
    CAWCD urges the subcommittee to include $1.5 million for salinity 
specific projects in the BLM's Soil, Water and Air Program. If adequate 
funds are not appropriated, significant damages from the higher salt 
concentrations in the water will be more widespread in the United 
States and Mexico.
                                 ______
                                 
      Prepared Statement of the Chippewa Ottawa Resource Authority
                               i. summary
    The Chippewa Ottawa Resource Authority (CORA), on behalf of its 
five member Indian tribes, requests $54,463,464 in recurring base 
funding from the Department of Interior's fiscal year 2016 
appropriation bill, to support tribal natural resource management 
programs pursuant to two recently enacted Consent Decrees and support 
for all intertribal resource management organizations under 
``Evaluation and Research Activities--Climate Change''.
    CORA is a coalition of five federally recognized Michigan tribes 
including, the Bay Mills Indian Community, the Grand Traverse Band of 
Ottawa and Chippewa Indians, the Little River Band of Ottawa Indians, 
the Little Traverse Bay Bands of Odawa Indians, and the Sault Ste Marie 
Tribe of Chippewa Indians.
    The tribes are parties to the historic United States v. Michigan, a 
court case concerning the exercise of treaty-reserved fishing, hunting, 
and gathering rights as they pertain to Article 13 of the 1836 Treaty 
of Washington. Article 13 states that the tribes ``stipulate for the 
right of hunting on the lands ceded, with the other usual privileges of 
occupancy, until the land is required for settlement.''
                 ii. great lakes consent decree (2000)
    In 1979, following nearly a decade of litigation in State and 
Federal courts (United States v. Michigan), the Federal district court 
affirmed the existence of treaty-reserved fishing rights in the upper 
Great Lakes of Michigan. These court rulings also determined that the 
tribes could regulate and manage their respective members' fishing 
activities. Accordingly, the tribes have developed the biological, 
enforcement, and judicial programs necessary to properly protect and 
manage the Gieat Lakes fishery resource while continuing to exercise 
commercial and subsistence fishing activities.
    While these court decisions recognized that the tribes' right to 
utilize the Great Lakes fishery resource was in fact reserved in the 
1836 Treaty of Washington, the allocation of fishing opportunities 
among competing user groups, and the inter-jurisdictional management 
authority was not addressed. Subsequently, the seven parties to U S. v. 
Michigan, which included the five CORA tribes, the State of Michigan, 
and the United States initiated negotiations in the early 1980's that 
culminated in a 15-year court-ordered settlement in 1985. In 2000, the 
parties successfully renegotiated a comprehensive agreement that will 
govern allocation and management of the Great Lakes fishery resource 
through the year 2020. This agreement was entered into Federal court as 
a Consent Decree on August 8, 2000.
    The Great Lakes Consent Decree was a complex agreement that imposed 
many new management obligations on the parties, particularly the 
tribes. Recurring base funding levels for each tribe were established 
prior to adoption of the 2000 Great Lakes Consent Decree; however, 
since 2001, CORA has been annually requesting a modest increase in base 
funding to help the tribes accomplish the extensive mandates imposed by 
the Great Lakes Decree, and to offset over a decade of inflation.
                   iii. inland consent decree (2007)
    In the early 2000's, the parties to U.S. v Michigan, strongly 
desired to settle the Inland portion of the case through a joint 
agreement, rather than contentious and costly litigation, such as 
occurred during the Great Lakes phase. After some 2 years of complex 
negotiations, the parties were successful in negotiating an agreement 
that resolved the question of Inland treaty rights. This agreement was 
also entered into Federal law as a Consent Decree on November 2, 2007 
and has no expiration date. Similar to the Great Lakes Consent Decree, 
it describes the allocation, management, and enforcement processes that 
will govern the tribes' Inland (i.e. non-Great Lakes) treaty-reserved 
hunting, gathering, and fishing rights throughout nearly 14 million 
acres in northern Michigan. As with the Great Lakes Decree the Federal 
Government is a signatory party.
    The 2007 Inland Consent Decree is a comprehensive and complex 
document that resolves the final phase of U.S. v. Michigan. In order to 
achieve an agreement of this scope and magnitude, the CORA tribes made 
many concessions, assumptions, sub-agreements, and politically 
difficult changes in their natural resource harvesting activities and 
associated management structures, including the forfeiture of 
commercial opportunities. The Inland Consent Decree also establishes 
many new obligations and responsibilities for all parties. For the 
tribes, these responsibilities are heavily weighted toward development 
of regulations, biological monitoring and assessment, enforcement of 
the newly enacted regulations, and numerous inter-governmental 
processes; all of which impose a substantial and permanent financial 
burden for the tribes and of which Congress has provided initial 
dollars for the implementation of tribal programs.
    In order to meet the obligations mandated by the Inland Consent 
Decree, while providing for long-term sustainable use of the resources 
for the next seven generations, each of the tribes will need to 
establish a management capability in several core areas, including 
Conservation Enforcement, Biological Monitoring and Assessment, Tribal 
Court, and Administration. These dollars will assist with establishing 
management programs for each tribe under the 2007 Consent Decree to 
ensure that the tribes can meet their obligations.
                   iv. funding request justification
    Clearly, both the Great Lakes and Inland Consent Decrees represent 
landmark accomplishments in resolving disputes related to rights 
reserved in treaties between the United States and Indian tribes. These 
two Decrees cover the geographic majority of the State of Michigan and 
its Great Lakes waters; however, the viability and success of both the 
Great Lakes Decree and the new Inland Consent Decree hinges on the 
ability of all the parties (tribal, State, and Federal) to deliver 
effective resource management programs--and the onus is on the tribes.
    In order to properly meet the responsibilities and mandates 
associated with both the Great Lakes and Inland Consent Decrees, CORA 
requests funding for the following activities:
  --Maintain and provide the current recurring base funding for 
        continued operation under the Great Lakes Consent Decree.
  --Maintain newly enacted recurring base funding level to support 
        programs necessary for implementation of the 2007 Consent 
        Decree.
    After making such landmark, long-term commitments, it is imperative 
that the tribes not be placed in a position where inadequate funding 
prohibits them from meeting their obligations, responsibilities, and 
opportunities under either the Inland or Great Lakes Consent Decrees. 
Adequate funding is absolutely critical to achieving the objectives and 
responsibilities described in both Consent Decrees; agreements that 
were designed to resolve complicated and culturally significant Treaty 
Rights issues. Moreover, failure to meet mandated obligations risks a 
``re-opening'' of these negotiated agreements or, at a minimum, 
modifying certain terms of either Decree in a manner that would 
adversely affect the tribes' ability to exercise their treaty-reserved 
rights, or upset the delicate balance of allocation and management 
strategies among the parties, which of course, includes the Federal 
Government as a party. The CORA member tribes appreciate the initial 
dollars received which will assist with implementation of the 2007 
Inland Consent Decree.
 v. distribution of fiscal year 2016 funding request among cora tribes
    On behalf of CORA and its five member tribes, I would like to thank 
you for your past financial support, and request your continued support 
in fiscal year 2016 in maintaining CORA's current base funding for 
Great Lakes activities, and maintaining the newly enacted recurring 
base funding for implementing CORA's responsibilities under the Inland 
Consent Decree.
         vi. evaluation and research activities--climate change
    The CORA tribes respectfully request your support for fiscal year 
2016 RPI funding for all intertribal resource management organizations 
for the Climate Change line item and to provide to CORA its 
proportionate share of those funds. That amount is $398,464.00.

                                         2000 GREAT LAKES CONSENT DECREE
----------------------------------------------------------------------------------------------------------------
                                                                               Great Lakes
                                                                                 Increase
                                                                                ($14,000)        Total Request
                   CORA Member Tribe                      2014 Great Lakes      Requested         (Fiscal Year
                                                                             Increase (Fiscal        2016)
                                                                                Year 2015)
----------------------------------------------------------------------------------------------------------------
Bay Mills..............................................           $845,430             $2,800           $848,230
Little Traverse........................................            650,900              2,800            653,700
Little River...........................................            650,900              2,800            653,700
Sault Ste. Marie (OSG Base)............................            151,885              2,800            154,685
Grand Traverse (OSG Base)..............................            151,885              2,800            154,685
                                                        --------------------------------------------------------
      Totals...........................................          2,451,000             14,000          2,465,000
----------------------------------------------------------------------------------------------------------------


                       2007 INLAND CONSENT DECREE
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Bay Mills............................................           $320,000
Little Traverse......................................            320,000
Little River.........................................            320,000
Sault Ste. Marie.....................................            320,000
Grand Traverse.......................................            320,000
                                                      ------------------
      Total..........................................          1,600,000
------------------------------------------------------------------------


     OSG CUMULATIVE BASE, WHICH IS NOT PART OF THE RIGHTS PROTECTION
                              DISTRIBUTIONS
------------------------------------------------------------------------
                                                Chippewa/Ottawa Treaty
            Self-Governance Tribe                   Voight Non-TPA
------------------------------------------------------------------------
Sault Ste. Marie (OSG Base).................                    $633,607
Grand Traverse (05G Base)...................                     616,832
                                             ---------------------------
      Subtotal..............................                   1,250,439
------------------------------------------------------------------------

    Evaluation and Research Activities--Climate Change--CORA Tribes--
$398,464
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    Good morning to distinguished members of this subcommittee and a 
special congratulation to new members, Messrs. Derek Kilmer and Steve 
Israel. Thank you for inviting the Choctaw Nation of Oklahoma to 
present oral testimony on the fiscal year 2016 President's proposed 
budgets for the Indian Health Service (IHS) and the Bureau of Indian 
Affairs (BIA). I submit this testimony which identifies the funding 
priorities and budget issues important to the Choctaw Nation and its 
citizens.
    This is a very important subcommittee for American Indians and 
Alaska Natives because you determine just how much funding will be 
appropriated for the Bureau of Indian Affairs and the Indian Health 
Service to support basic essential services for Indian people to 
fulfill the United States' trust responsibility. While there have been 
increases in both agencies over the past decade, tribal programs remain 
underfunded and tribes are expected to do more with less. We incurred 
the wrath of cuts from the 2013 sequester and we were hit with 
additional cuts in 2014 and 2015 to fully pay Contract Support Costs 
(CSC). We remain resilient and are optimistic that the fiscal year 2016 
President's budget proposal will address the long-term fix for CSC and 
bring attention to the forefront regarding the lack of budget equity 
for tribal program funding that has persisted for far too long. We want 
to rebuild our faith in the government-to-government relationship that 
we have invested in for many generations--but partnerships involve more 
than one party to make it happen!

    We recommend the following:
INDIAN HEALTH SERVICE
    1.  Joint Venture Program--Increase President's request to $100 
million.
    2.  Special Diabetes Program for Indians--Reauthorize for 5 years 
at $200 million/year for 5 years.
INDIAN HEALTH SERVICE AND BUREAU OF INDIAN AFFAIRS
    1.  Contract Support Costs--Fully fund in 2016 and shift into 
mandatory funding beginning in 2017 with 3-Year Spending Authority.
    2.  Exempt tribal government services and program funding from 
sequestrations, unilateral rescissions and budget cuts.
    3.  Provide funding increases--Office of Tribal Self-Governance 
(IHS) and the Office of Self-Governance (DOI) to fully staff to support 
the number of tribes entering Self-Governance.

    The Choctaw Nation of Oklahoma is the third largest Native American 
tribal government in the United States, with over 208,000 members. The 
Choctaw Nation territory consists of all or part of 10 counties in 
southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving over 33,000 patients 
with a hospital in Talihina, Oklahoma, nine (9) outpatient clinics, 
referred specialty care and sanitation facilities construction; higher 
education; Johnson O'Malley program; housing improvement; child welfare 
and social services; law enforcement; and, many others. The Choctaw 
Nation has operated under the Self-Governance authority in the 
Department of the Interior (DOI) since 1994 and in the Department of 
Health and Human Services' IHS since 1995. As a Self-Governance tribe, 
the Nation is able to re-design programs to meet tribally specific 
needs without diminishing the United States' trust responsibility. 
Self-Governance is now a permanent reality for many tribes.
    In 2014 the Choctaw Nation of Oklahoma was designated one of the 
five, and the only tribal, Promise Zones in the United States. The 
initiative will enhance cooperation between Federal agencies, local 
government branches, community advocates and the Choctaw Nation to 
focus on key areas that will contribute to economic growth and 
revitalize opportunities for a better quality of life in southeastern 
Oklahoma.
  joint venture construction program--increase president's request to 
                              $100 million
    The Joint Venture Construction Program (JVCP) is a unique 
opportunity for the Indian Health Service to partner with tribes and 
make scarce Federal dollars stretch much farther than in the 
traditional Federal construction programs. The President's proposed 
level of $18 million will not support the intent of the JVCP and should 
be increased to $100 million at a minimum. Tribes have taken on great 
risks in financing the construction of new or replacement facilities. 
These risks are taken with a commitment from the IHS to fund necessary 
staffing and operating costs upon completion of facility construction. 
Failure to fund staffing and operating costs in a sufficient and timely 
manner leaves tribes without the means to safely operate these 
facilities, compromising their ability to service loan agreements while 
jeopardizing the health and safety of our entire communities.
    In 2014 the Choctaw Nation applied for and was awarded a JVCP for a 
new Regional Health Care Facility in Durant, Oklahoma. There are no IHS 
facilities in the County and the 2014 estimated user population is 
6,939 with projected primary provider visits of almost 29,000 which 
speak volumes to the need. The Nation will design, construct, and equip 
the new facility consisting of 123,780 sq. ft. (11,500 sq. m) in size 
and it will be operated under the Nation's Self-Governance Agreement.
    Upon projected completion of construction the IHS agrees to request 
congressional appropriations for additional staffing and operations 
based on the tribes' projected dates of completion, beneficial 
occupancy and opening. Another key element to a successful JVCP 
partnership is full payment of Contract Support Costs (CSC). Without 
reimbursement of Contract Support Cost, offsetting program reductions 
must be made and services reduced. Upon entering into an agreement the 
IHS should include staffing and Contract Support Costs in the IHS 
annual appropriations requests to ensure that the facility can open and 
begin operations as planned.
special diabetes program for indians--support 5-year reauthorization at 
                           $200 million/year
    The Special Diabetes Program for Indians (SDPI) has been a top 
priority for the Choctaw Nation since it was initially authorized in 
1997. SDPI is currently reauthorized through March 31, 2015 at a flat-
line rate of $150 million/year (since 2004). Continuing support of the 
SDPI will maintain critical momentum in diabetes research and care to 
help bring diabetes-related costs under control. The permanency of SDPI 
would be a great asset to promoting stability for this important health 
program and for reversing the trend of Type 2 diabetes in Indian 
Country. In addition it will provide for staff retention, programmatic 
long-term planning which increases and improves patient care, and more 
stable outside contracts with vendors and suppliers.
    Congressional funding remains the critical factor in the battle 
against diabetes and we request that as we continue to work for 
permanent authorization and mandatory program status, that you urge 
your colleagues to extend the reauthorization to 5 years and increase 
funding to $200 million/year for the SDPI program.
  contract support costs--full funding for bia and ihs in 2017 with 3-
                         year re-authorization
    Full funding of contract support costs in the fiscal year 2014 and 
fiscal year 2015 budgets was timely and appreciated, however it was at 
a price that severely impacted tribal program funding in both the 
Bureau of Indian Affairs (BIA) and the IHS. The Choctaw Nation supports 
the President's fiscal year 2016 budget proposal which bears the likes 
of a two-prong conundrum: (1) obtaining fair compensation for past CSC 
shortfalls; and (2) ensuring full CSC funding for all contracts or 
Self-Governance compacts to manage programs previously administered by 
the Department of the Interior and Department of Health and Human 
Services. The law is very specific, ``Tribes contracting and compacting 
under the Indian Self-Determination and Education Assistance Act 
(ISDEAA) are entitled to full Contact Support Costs.''
    Today, we find ourselves at a place that many thought was not in 
the foreseeable future. However, a long-term proposed fix to fully fund 
CSC is underway. Over the years, both the BIA and IHS established CSC 
workgroups, consisting of tribal and Federal representatives, to work 
on resolving the CSC shortfall and to develop strategies to fully fund 
CSC. While many tribes have settled their CSC claims in IHS, it was an 
onerous and costly exercise for most of us.
    The Choctaw Nation engaged in negotiations with the IHS and because 
of the recalcitrance of the agency representatives, we had to engage 
legal counsel. The CSC shortfall due Choctaw was reduced to 75 percent 
after we incurred the legal cost, 25 percent, to get through the 
negotiations. The unfortunate part for the tribe is that the total 
amount paid by IHS was the ``original'' full CSC shortfall amount due 
to the Nation. However because of the haranguing and lack of 
facilitating in good-faith on behalf of the United States, the Nation 
did not receive the full 100%--simply put because we had to pay legal 
fees which should have been spent on services for tribal citizens.
    The BIA has been just as asinine. The Choctaw Nation cannot settle 
our claim because ``not all tribes [17]'' have negotiated their 
settlement and the agency is withholding ALL of the payments to avoid 
incurring overpayments to tribes. So rather than settle and close 
claims with tribes at the table, BIA has put a hold on payments unless 
settlements for all tribes have been negotiated. There is nothing in 
the law that allows the agency to withhold funds. Tribes continue to 
bear the brunt of their ineptness at math and their unwillingness to 
follow the intent of Congress and fully implement the law to pay ALL 
CSC claims.
    The Choctaw Nation asks that Congress directs the BIA and IHS to 
enter into these negotiations with the honor and respect intended by 
Congress and not to invoke its own judgement during these proceedings. 
Lawyers should not be factored into the government-to-government 
relationship that is between tribal governments and the United States.
      exempt tribal government services and program funding from 
                             sequestrations
    The Choctaw Nation requests that Congress exempts ALL tribal 
programs from future sequestrations, unilateral rescissions and budget 
cuts. American Indian and Alaska Natives are the most at risk 
population in the United States and we do not rebound from extreme 
cuts, such as the 2013 sequestration, in a few years because our 
programs are disproportionately underfunded. Traditionally, tribes have 
borne an unfair share of the budget deficits to our healthcare systems, 
law enforcement, education and essential governmental services, just to 
name a few. Sequestration reneges on the United States contract with 
tribal governments and cripples services and benefits to our citizens.
    We are continually subjected to the broken and empty promises by 
our Federal trustees. We ask the United States to step up and honor the 
agreements and treaties between our great Nations and protect the 
funding of Native American programs.
    The Choctaw Nation supports the budget requests of the National 
Congress of American Indians and the National Indian Health Board. 
Thank you.
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
                                                      March 4, 2015
Hon. Lisa Murkowski, Chair,
Subcommittee on Interior, Environment and Related Agencies,
S-128 Capitol,
U.S. Senate,
Washington, DC.

Hon. Tom Udall, Ranking Minority Member,
Subcommittee on Interior, Environment and Related Agencies,
S-146A Capitol,
U.S. Senate,
Washington, DC.

    Dear Chair Murkowski and Ranking Member Udall:

    As members of the Choose Clean Water Coalition, we are requesting 
continued support for programs that are essential to maintaining and 
restoring clean water to the rivers and streams throughout the 
Chesapeake Bay region, and to the Bay itself. More than 11 million 
people in this region get their drinking water directly from the rivers 
and streams that flow through the cities, towns and farms throughout 
our region. The quality of this water is critical to both human health 
and to the regional economy.
    The efforts to clean the Chesapeake began under President Reagan in 
1983. In his 1984 State of the Union speech President Reagan said, 
``Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    To follow a common sense path to maintain healthy local water and 
restore Chesapeake Bay, which is critical for our regional economy, we 
request funding for the following programs in fiscal year 2016:
                  u.s. environmental protection agency
Chesapeake Bay Program--$73.0 million
    We support level funding of $73.0 million for the base budget of 
the Chesapeake Bay Program, which coordinates Chesapeake Bay watershed 
restoration and protection efforts. The majority of the program's funds 
are passed through to the States and local communities for on-the-
ground restoration work through programs such as the Small Watershed 
Grants, Innovative Nutrient and Sediment Reduction Grants, State 
Implementation Grants, and the Chesapeake Bay Regulatory and 
Accountability Program grants.
    We strongly oppose the $6 million cuts to the Chesapeake Small 
Watershed Grants and the Innovative Nutrient and Sediment Reduction 
Grants that are in the President's 2016 budget request. Much of this 
money is proposed to be reallocated from on-the-ground restoration at 
the local level to personnel costs; contract support for permit 
reviews, rule implementation and enforcement; and the revision of 25 
management strategies.
    We urge you to retain the critical funding for both the Chesapeake 
Small Watershed Grants Program and the Innovative Nutrient and Sediment 
Reduction Grants--$6 million each. These are two well-run, competitive 
grant programs that have contributed significantly to water quality 
improvements throughout the Chesapeake Bay watershed. These are the Bay 
Program's only grants that go to restoration efforts by local 
governments and communities. The President's budget offers no 
justification for the cuts and acknowledges that cutting these two 
grant programs ``. . . will reduce the number of restoration projects 
that watershed groups and local governments will be able to implement 
to reduce nutrient and sediment pollutant loadings to the Bay and its 
tributaries.'' This is not the time to stop local implementation of 
restoration work.
    We strongly support the language in last year's 2015 Consolidated 
and Further Continuing Appropriations Act, where Congress protected 
these critical local grant programs: ``The bill provides $73,000,000. 
From within the amount, the Committees direct $6,000,000 for nutrient 
and sediment removal grants and $6,000,000 for small watershed grants 
to control polluted runoff from urban, suburban and agricultural lands, 
and include no further directives.'' We urge you to retain the same 
language in the fiscal year 2016 Interior, Environment and Related 
Agencies Appropriations Bill.
Clean Water State Revolving Fund (SRF) --$1.448887 billion
    This program is critical to the 1,779 local governments throughout 
the Chesapeake region. The funding level has eroded over the years as 
the clean water needs of local communities have increased dramatically, 
but Congress has stabilized this important program for the past few 
years and we urge you to do so again in fiscal year 2016. These low 
interest loans are critical for clean water and for ratepayers in the 
Chesapeake region and nationwide. We urge you to support the same 
funding level as fiscal year 2015 that provided $312 million in low 
interest loans to local governments in Delaware, Maryland, New York, 
Pennsylvania, Virginia, West Virginia and the District of Columbia. The 
President's 2016 budget request would cut $73.748 million from those 
six Chesapeake watershed States and the District of Columbia--a drastic 
23.6 percent cut. The SRF allocates money to the States based on a set 
formula, which is then used for low interest loans to local governments 
for critical capital construction improvement projects to reduce 
nutrient and sediment pollution from wastewater treatment and 
stormwater facilities; nonpoint sources of pollution, such as farms and 
development; and other sources. The SRF enables local governments in 
the Chesapeake watershed to take actions to protect their local waters 
to meet Clean Water Act requirements. As the list of clean water 
infrastructure needs in the Chesapeake region continues to expand we 
request that the Clean Water SRF not be cut in 2016.
                       department of the interior
U.S. Geological Survey (USGS)--Chesapeake Bay Studies--$11.689 million
    We support the President's 2016 budget request of $11.689 million 
for the USGS to provide the critical science necessary for restoration 
and protection efforts in the Chesapeake Bay region, and to implement 
the 2014 Chesapeake Watershed Agreement. This includes $500,000 to 
collect land-elevation data needed for water-quality and sea-level rise 
investigations. This would allow the USGS to systematically collect and 
manage high-quality elevation data for the eastern shore of the 
Chesapeake Bay--in Delaware, Maryland and Virginia. The results will 
help the Chesapeake Bay Program to develop high-resolution, land-cover 
information to more effectively place conservation practices to improve 
water quality and help conserve healthy watersheds.
    The USGS will focus on: (1) understanding the factors affecting 
freshwater fisheries and streams, including the effects of shale-gas 
drilling; (2) identifying sources and effects of endocrine-disrupting 
compounds and other contaminants that threaten fisheries and wildlife; 
(3) modeling the effects of sea-level rise on coastal wetlands near 
wildlife refuges important for waterfowl; (4) forecasting the effects 
of land and climate change to inform land conservation; and (5) 
monitoring and explaining water-quality response to reduce nutrient and 
sediment reduction practices.
National Park Service--Chesapeake Regional Programs--$3.036 million
    The National Park Service Chesapeake Bay Office runs a number of 
small, but very important programs that focus on increasing public 
access and the use of ecological, cultural and historic resources of 
the Chesapeake region. Expanding access and public awareness fosters 
stewardship and protection efforts.
    The key programs in the President's fiscal year 2016 budget request 
that we support are: Chesapeake Bay Gateways and Trails ($2,014,000); 
Captain John Smith Chesapeake National Historic Trail ($387,000); Star 
Spangled Banner National Historic Trail ($151,000); and, support for 
coordinating these programs through the National Park Service 
Chesapeake Bay Office ($484,000).
       department of the interior/u.s. department of agriculture
National Park Service/U.S. Fish and Wildlife Service/Bureau of Land 
        Management/U.S. Forest Service--Rivers of the Chesapeake 
        Collaborative Landscape Planning Projects--Land and Water 
        Conservation Fund--$33.326 million
    We support the President's 2016 budget that calls for the strategic 
use of funds for the Land and Water Conservation Fund, and for the 
first time, requests funding for the Rivers of the Chesapeake 
Collaborative Landscape Planning initiative. This new effort targets 
conservation funds for priority landscapes throughout the country--and 
the Rivers of the Chesapeake is one of eight such priority areas. These 
projects will enhance public access and education, preserve key 
historic and heritage sites, conserve forests, and protect important 
freshwater and tidal habitat areas critical to migratory birds and 
economically important fish and shellfish.

                       Bureau of Land Management

    Nanjemoy National Resource Management Area (MD)--$191,000*
    Nanjemoy National Resource Management Area (MD)--$465,000
    Meadowood Special Recreation Management Area (VA)--$2.4 million*

                     U.S. Fish and Wildlife Service

    Blackwater National Wildlife Refuge (MD)--$1.511 million*
    Blackwater National Wildlife Refuge (MD)--$1.9 million
    Rappahannock River National Wildlife Refuge (VA)--$1.6 million*
    Rappahannock River National Wildlife Refuge (VA)--$3.89 million
    James River National Wildlife Refuge (VA)--$950,000

                          U.S. Forest Service

    George Washington/Jefferson National Forests (VA)--$1.99 million*
    George Washington/Jefferson National Forests (VA)--$2.7 million
    George Washington/Jefferson National Forests (WV)--$3.0 million

                         National Park Service

    Captain John Smith Chesapeake National Historic Trail (DC/DE/MD/
            VA)--$2.237 million*
    Captain John Smith Chesapeake National Historic Trail (DC/DE/MD/
            VA)--$5.178 million
    Appalachian National Scenic Trail (VA)--$3.0 million
    Cedar Creek and Belle Grove National Historic Park (VA)--$500,000
    Fredericksburg and Spotsylvania National Military Park (VA)--$1.814 
            million

* Indicates projects with Current/Discretionary Authority.

National Park Service --Land Protection in Maryland and Pennsylvania 
        through the Land and Water Conservation Fund--$856,000
    We support the President's 2016 budget that calls for the strategic 
use of funds from the Land and Water Conservation Fund to protect and 
preserve key assets in the National Park System at Gettysburg National 
Military Park ($285,000) in Pennsylvania and Piscataway Park ($571,000) 
in Maryland. These projects will enhance public access and education, 
preserve key historic and heritage sites and protect key habitat areas 
critical to an array of fish and wildlife species. Both of these 
projects have Current/Discretionary Authority.
    Thank you for your consideration of these very important requests 
to maintain funding for these programs which are critical to clean 
water throughout the mid-Atlantic region.

            Sincerely,

1000 Friends of Maryland
American Rivers
Anacostia Watershed Society
Audubon Naturalist Society
Blue Heron Environmental Network, Inc.
Blue Water Baltimore
Blue Ridge Watershed Coalition
Cacapon Institute
Cecil Land Use Association
Center for the Celebration of Creation
Chapman Forest Foundation
Chesapeake Bay Foundation
Chesapeake Legal Alliance
Chesapeake Wildlife Heritage
Clean Water Action
Delaware Nature Society
Earth Forum of Howard County
Eastern Pennsylvania Coalition for Abandoned Mine Reclamation
Environment America
Environment Maryland
Environment New York
Environment Virginia
Float Fishermen of Virginia
Friends of Lower Beaverdam Creek
Friends of the Rappahannock
Friends of the Rivers of Virginia
Interfaith Partners for the Chesapeake
Izaak Walton League of America
James River Association
Lackawanna River Corridor Association
Lancaster Farmland Trust
Little Falls Watershed Alliance
Loudoun Wildlife Conservancy
Maryland Academy of Science at the Maryland Science Center
Maryland Conservation Council
Maryland League of Conservation Voters
Mattawoman Watershed Society
Midshore Riverkeeper Conservancy
National Parks Conservation Association
National Aquarium
National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
PennEnvironment
PennFuture
Pennsylvania Council of Churches
Pennsylvania Council of Trout Unlimited
Piedmont Environmental Council
Port Tobacco River Conservancy
Potomac Conservancy
Potomac Riverkeeper
Prince William Conservation Alliance
Queen Anne's Conservation Association
Richmond Audubon Society
Rivanna Conservation Society
Riverkeepers Chesapeake
Rock Creek Conservancy
St. Mary's River Watershed Association
Savage River Watershed Association
Severn River Association
Shenandoah Riverkeeper
Shenandoah Valley Network
Sidney Center Improvement Group
Sierra Club, Maryland Chapter
Sleepy Creek Watershed Association
South River Federation
Susquehanna Gateway Heritage Area
Trash Free Maryland Alliance
Trout Unlimited
Upper Susquehanna Coalition
Virginia Conservation Network
West/Rhode Riverkeeper
West Virginia Highlands Conservancy
West Virginia Rivers Coalition
Wicomico Environmental Trust
Wild Virginia
      
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    My name is Patty Brown-Schwalenberg. As Executive Director of the 
Chugach Regional Resources Commission (``CRRC''), located in Alaska, I 
am pleased to submit this testimony reflecting the needs, concerns and 
requests of CRRC regarding the proposed fiscal year 2016 budget. Like 
everyone, we are aware of the ongoing economic problems in the United 
States, and the growing concern over the Federal deficit. While the 
Government is trimming its spending, the Federal Government must still 
fulfill its legal and contractual spending obligations. The Bureau of 
Indian Affairs not only has a legal and contractual obligation to 
provide funding for the CRRC, but the CRRC is able to translate this 
funding into real economic opportunity for those living in the small 
Alaska Native villages located in Prince William Sound and Lower Cook 
Inlet.
    We describe first, our specific requests and recommendations on the 
budget, and then why these are so important to us and the Alaska Native 
Villages and their members who we serve.
                  budget requests and recommendations
    CRRC funding.--We are once again very pleased that the BIA has 
recognized the importance of natural resource funding for CRRC and has 
requested at least $410,000 for CRRC in fiscal year 2016 as part of the 
Trust-Natural Resources program, Tribal Management/Development 
subactivity. In its fiscal year 2016 Budget Justification, the BIA 
recognized CRRC's role in developing the capabilities of its member 
Alaska Native Villages to better facilitate their active participation 
in resource use and allocation issues in Alaska. We urge the 
subcommittee to include CRRC funding as proposed by the BIA.
    BIA Trust-Natural Resources Management.--We support the President's 
overall proposal to increase the BIA's Trust--Natural Resources 
Management programs, particularly the increases to Fish, Wildlife and 
Parks, and funding for projects that engage youth in the natural 
sciences and climate resiliency initiatives. We urge the subcommittee 
to support this funding and include it in the final bill.
    Contract Support Costs.--In regards to Contract Support Costs, we 
fully support the administration's proposal to fully fund Contract 
Support Costs.
                justification for crrc's budget requests
    The importance of adequate funding for these programs is based on 
the following.

    Chugach Regional Resource Commission History and Purpose.--CRRC is 
a non-profit coalition of Alaska Native Villages, organized in 1987 by 
the seven Native Villages located in Prince William Sound and Lower 
Cook Inlet in south-central Alaska: Tatitlek Village IRA Council, 
Chenega IRA Council, Port Graham Village Council, Nanwalek IRA Council, 
Native Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe. 
CRRC was created to address environmental and natural resources issues 
and to develop culturally sensitive economic projects at the community 
level to support the sustainable development of the region's natural 
resources. The Native Villages' action to create a separate entity 
demonstrates the level of concern and importance they hold for 
environmental and natural resource management and protection--the 
creation of CRRC ensured that natural resource and environmental issues 
received sufficient attention and focused funding. The BIA, in its 
Budget Justification, summarizes CRRC's work, stating

        Initially, the emphasis of the CRRC natural resource program 
        was on the development of fisheries projects that would provide 
        either an economic base for a village or create economic 
        opportunities for tribal members. In fiscal year 1996, CRRC 
        initiated a natural resource management program with the 
        objective of establishing natural resource management 
        capabilities in the villages to facilitate their active 
        participation in resource use and allocation issues that affect 
        the tribes and their members. The success of these programs 
        from both an economic and a social standpoint have made them an 
        integral part of overall tribal development.

    Through its many important programs, CRRC has provided employment 
for up to 35 Native people in the Chugach Region annually--an area that 
faces high levels of unemployment--through programs that conserve and 
restore our natural resources.
    An investment in CRRC has been translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
to support their families, thereby removing them from the rolls of 
people needing State and Federal support. In turn, they are able to 
reinvest in the community, supporting the employment of and 
opportunities for other families. Our programs also support future 
economic and commercial opportunities for the region--protecting and 
developing our shellfish and other natural resources.

    Programs.--CRRC has leveraged its BIA funding into almost $2 
million annually to support its several community-based programs. 
Specifically, the base funding provided through BIA appropriation has 
allowed CRRC to maintain core administrative operations, and seek 
specific projects funding from other sources such as the Administration 
for Native Americans, the State of Alaska, Bureau of Indian Affairs, 
U.S. Forest Service, U.S. Fish & Wildlife Service, the U.S. Department 
of Education, the Exxon Valdez Oil Spill Trustee Council, the North 
Pacific Research Board and various foundations. This diverse funding 
pool has enabled CRRC to develop and operate several important programs 
that provide vital services, valuable products, and necessary 
employment and commercial opportunities. These programs include:
    Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. The 
20,000 square foot shellfish hatchery is located in Seward, Alaska, and 
houses shellfish seed, brood stock and algae production facilities. 
Alutiiq Pride is undertaking a hatchery nursery operation, as well as 
grow-out operation research to adapt mariculture techniques for the 
Alaskan Shellfish industry. The Hatchery is also conducting scientific 
research on blue and red king crab as part of a larger federally 
sponsored program. Alutiiq Pride has already been successful in 
culturing geoduck, oyster, littleneck clam, and razor clam species and 
is currently working on sea cucumbers. This research has the potential 
to dramatically increase commercial opportunities for the region in the 
future. The activities of Alutiiq Pride are especially important for 
this region considering it is the only shellfish hatchery in the State, 
and therefore the only organization in Alaska that can carry out this 
research and production.
    Natural resource curriculum development.--Partnering with the 
University of Alaska, Fairbanks, and the National Oceanic and 
Atmospheric Administration, CRRC has developed and implemented a model 
curriculum in natural resource management for Alaska Native students. 
This curriculum integrates traditional knowledge with Western science. 
The goal of the program is to encourage more Native students to pursue 
careers in the sciences. In addition, we are working with the Native 
American Fish & Wildlife Society and tribes across the country 
(including Alaska) to develop a university level textbook to accompany 
these courses.
    In addition, we have completed a K-12 Science Curriculum for Alaska 
students that integrates Indigenous knowledge with western science. 
This curriculum is being piloted in various villages in Alaska and a 
thorough evaluation process will ensure its success and mobility to 
other schools in Alaska.
    Alaska Migratory Bird Co-Management Council.--CRRC is a member of 
the Council responsible for setting regulations governing the spring 
harvest of migratory birds for Alaska Natives, as well as conducting 
harvest surveys and various research projects on migratory birds of 
conservation concern. Our participation in this statewide body ensures 
the legal harvest of migratory birds by Indigenous subsistence hunters 
in the Chugach Region.
    Statewide Subsistence Halibut Working Group.--CRRC participates in 
this working group, ensuring the halibut resources are secured for 
subsistence purposes, and to conduct harvest surveys in the Chugach 
Region.
                               conclusion
    At the very least, we urge Congress to sustain the current level of 
funding of $410,000 included in the BIA's fiscal year 2016 budget for 
CRRC, but a modest increase in our funding will permit us to leverage 
those dollars to do more for the Alaska Native villages located in 
Prince William Sound and Lower Cook Inlet. With a five-to-one return on 
every Federal dollar invested in CRRC, we believe this to be a terrific 
return for the Federal Government and our communities.
    We appreciate the opportunity to submit this important testimony.
                                 ______
                                 
             Prepared Statement of the City Parks Alliance
    Dear Chairman Cochran and Ranking Member Mikulski:

    City Parks Alliance, the only independent national organization 
solely dedicated to urban parks, representing hundreds of park agencies 
and supporting nonprofit organizations, has great interest in the Land 
and Water Conservation Fund (LWCF) and its equitable distribution to 
Federal, State, and urban parks. We are writing to you today to bring 
your attention to the lack of LWCF funds that reach urban communities.
    While 98 percent of our counties in the Nation have a park project 
funded by LWCF, what is often overlooked is that over the past 50 years 
urban parks have received less than 3 percent of the overall funds 
distributed through LWCF.
    Eighty percent of Americans live in cities and cities generate 85 
percent of our GDP. More than any other time in our history, cities are 
the engines generating our Nation's wealth. Strong cities are the key 
to keeping America competitive in the rapidly changing global economy. 
One of the most important but least recognized essentials to an 
attractive and healthy urban environment is a well-designed and well-
maintained network of city parks--a vital component of any city's 
infrastructure. Parks support public health, workforce development, 
local economies, the environment, education, and community cohesion. 
They are critical to creating resilient, livable, and vibrant cities. 
LWCF funding is an essential resource for cities as they seek to 
develop new or revitalize existing urban parks, green spaces, and 
recreation opportunities.
    However, many cities continue to have deteriorated parks and 
recreation facilities and greatly need the additional funding to 
achieve demonstrated benefits. We support the recent grants to cities 
for park improvements provided by the National Park Service through the 
``competitive grants'' component of the fiscal year 2014 
Appropriations. In the first year of this new program, approved by your 
subcommittee, $3 million was awarded to eight cities, including: 
Mobile, Alabama; Denver, Colorado; Bridgeport, Connecticut; Atlanta, 
Georgia; Detroit, Michigan; Minneapolis, Minnesota; Portland, Oregon; 
and Madison, Wisconsin. However, much more funding is needed.
    City Parks Alliance asks the subcommittee for a more equitable and 
robust distribution of LWCF to urban communities. When cities receive 
LWCF grants, those grants are matched and often leverage millions more 
in public and private investments. For example, LWCF's $1.2 million in 
grants for the South Platte River in Denver galvanized more than $2.5 
billion in local public and private funding, an investment that has 
revitalized Denver's downtown and continues to drive economic 
development and job creation. Greenville, South Carolina transformed 
its downtown by restoring Reedy River Falls Park, which was originally 
protected by a $16,000 LWCF grant. This park has now generated about 
$100 million in private investment in the adjacent area. There are many 
other examples across the country in cities large and small that show 
the true economic and health benefits that LWCF grants can have on 
communities.
    Indeed, the bipartisan Mayors for Parks Coalition, managed by City 
Parks Alliance, brings together mayors from around the country who have 
seen the success of LWCF-funded projects in their cities and are urging 
Congress to reauthorize and fully fund LWCF. Co-chairs of the 43-member 
coalition are Mayor Michael B. Hancock (D) of Denver, Colorado, and 
Mayor Betsy Price (R) of Fort Worth, Texas.
    In addition to urban parks, LWCF improves access to America's vast 
network of public lands, providing city dwellers greater opportunities 
to enjoy the mountains, deserts, and streams that are a day trip or 
less away. Proximity to public lands has shown to be an economic asset 
for cities across the country. The LWCF bolsters this asset for 
businesses and residents alike.
    City Parks Alliance praises the President's fiscal year 2016 
request of $5 million for the Outdoor Recreation Legacy Partnership 
Program (ORLPP) and recognizes the transformative impact it will have 
in the few cities selected to benefit from this competitive pilot 
program. However, much more is needed to strengthen the health and 
future growth of our urban communities.
    We also praise the President's request of $25 million from LWCF by 
reestablishing the Urban Parks Recreation and Recovery (UPARR) program 
within the National Park Service.
    City Parks Alliance is conscious and respectful of the Federal 
budget challenges. But LWCF has been proven as a smart investment where 
funds can be leveraged effectively through public private partnerships. 
We look forward to working with you to provide more funding to urban 
communities where this public investment is critically needed.
    Thank you for your consideration.

    [This statement was submitted by Catherine Nagel, Executive 
Director.]
                                 ______
                                 
               Prepared Statement of the Civil War Trust
                              introduction
    Madam Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the president of the Civil War Trust. I respectfully request 
that the Senate Appropriations Subcommittee for Interior, Environment, 
and Related Agencies fund the National Park Service's American 
Battlefield Protection Program at its authorized amount of $10 million.
    The Civil War Trust is a national nonprofit organization dedicated 
to preserving America's remaining Civil War, Revolutionary War and War 
of 1812 battlefields. Thanks to the generosity of our 200,000 members 
and supporters, the Civil War Trust has protected more than 41,000 
acres of critically important battlefield land in 20 States.
    The American Battlefield Protection Program's land acquisition 
grants program is an authorized competitive matching grants program 
that requires a 1-to-1 Federal/non-Federal match, although on most 
occasions the Federal dollars are leveraged much more than 1-to-1. The 
program promotes cooperative partnerships between State and local 
governments and the private sector to protect high priority 
battlegrounds outside National Park Service boundaries.
           battlefield lands are our shared american heritage
    America's battlefields are an irreplaceable part of our shared 
national heritage. When preserved, these battlefields serve as outdoor 
classrooms to educate current and future generations about the defining 
moments in our country's history. They are living monuments, not just 
to the men who fought and sacrificed there, but to all who have proudly 
worn our Nation's uniform. Preserved battlefields are also economic 
drivers for communities, bringing in tourism dollars that are extremely 
important to State and local economies. When these hallowed grounds are 
lost, they are lost forever.
                         origins of the program
    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians and 
preservationists, to examine the status of America's Civil War 
battlefields. Three years later, the Commission released a report 
identifying the most important Civil War battlegrounds, prioritizing 
them according to preservation status and historic significance. In 
addition, the Commission also recommended that Congress establish a 
Federal matching grant program to encourage the private sector to 
invest in battlefield preservation. The Commission's proposal for 
Federal matching grants was the genesis of today's American Battlefield 
Protection Program land acquisition grants program.
    The National Defense Authorization Act for fiscal year 2015 (Public 
Law 113-291) reauthorized the battlefield acquisition grants program 
and expanded its eligibility to include Revolutionary War and War of 
1812 battlefields, in addition to Civil War battlefields. Similar to 
the Civil War grants, which are awarded for priority battlefield land 
identified in the CWSAC report, funding for Revolutionary War and War 
of 1812 battlefields will target sites listed in a 2007 study by the 
National Park Service. Among the battlefields that could potentially 
benefit from the expanded program are: Bennington, New York and 
Vermont; Brandywine, Pennsylvania; Cowpens, South Carolina; Caulk's 
Field, Maryland; Guilford Courthouse, North Carolina; Princeton, New 
Jersey; River Raisin, Michigan; Saratoga, New York; and Yorktown, 
Virginia.
    Since the program was first funded in fiscal year 1999, grants have 
been used to protect 24,000 acres of hallowed ground in 17 States. 
Among the many battlefields that have benefited from this program are: 
Antietam, Maryland; Bentonville, North Carolina; Champion Hill, 
Mississippi; Chancellorsville, Virginia; Chattanooga, Tennessee; 
Gettysburg, Pennsylvania; Harpers Ferry, West Virginia; Mill Springs, 
Kentucky; Prairie Grove, Arkansas; and Wilson's Creek, Missouri. It is 
important to note that grants are awarded for acquisition of lands from 
willing sellers only; there is not--and never has been--any eminent 
domain authority.
                        urgent need for funding
    The Civil War Trust wishes to thank the subcommittee for its 
previous support for this valuable program. We recognize that these are 
challenging economic times and appreciate the constraints on this 
subcommittee. However, we must point out that the clock is ticking on 
the remaining battlefields of the Revolutionary War, War of 1812 and 
Civil War. The Civil War Trust estimates that, in the next decade, most 
unprotected battlefield land will be either developed or preserved. 
Full funding for the American Battlefield Protection Program at its 
authorized level of $10 million a year will enable nonprofit groups 
like the Trust to protect as many key battlefield lands as possible in 
the limited time remaining.
                               conclusion
    The Revolutionary War, the War of 1812 and the Civil War were 
defining moments in our country's history. Our forebears secured our 
independence from Great Britain and forged our democratic ideals during 
the Revolutionary War and War of 1812. During the Civil War, the great 
armies of the North and South clashed in hundreds of battles that 
reunited the Union and sounded the death knell for slavery. Preserved 
battlefields help ensure that the sacrifices of these turbulent periods 
in our Nation's history are never forgotten.
    Chairman Murkowski and Ranking Member Udall, I sincerely hope that 
you and the subcommittee will consider our request to provide funding 
of the American Battlefield Protection Program's land acquisition 
grants program at its authorized level of $10 million. We look forward 
to working closely with you as we continue our important work to 
preserve America's sacred battlefield lands. Thank you for the 
opportunity to address the subcommittee.
                                 ______
                                 
        Prepared Statement of the Coalition Against Forest Pests
    Our organizations write to express strong support for the Forest 
Health Management programs--both Federal and cooperative lands--and the 
Forest and Rangeland Research programs at the USDA Forest Service 
(USFS). We respectfully request your support in funding the Forest 
Health Management programs at $111 million--$63 million Federal Lands 
and $48 million Cooperative Lands--and the Forest and Rangeland 
Research program at $303 million in fiscal year 2016.
    Our Nation's forests and trees provide numerous benefits in both 
rural and urban areas. They sustain the health of our environment and 
our economy by providing clean air and water, wildlife habitat, 
enhanced property values, renewable energy sources, and carbon 
sequestration. Healthy forests also support jobs; for example, the U.S. 
forest products industry employs nearly 900,000 people in all 50 
States. Visitors to National Forest System lands generate more than $13 
billion of recreation and other related economic activity. One million 
tourists view fall foliage displays, generating $1 billion in revenue 
in New England annually.
    The myriad benefits our forests produce are at risk. The ability of 
forests to continue providing benefits is threatened by damaging 
invasive species that are arriving and spreading at an increasing rate. 
At least 28 new tree-killing pests have been detected over the last 
decade. Some cause enormous damage. For instance, thousand cankers 
disease threatens black walnut trees; walnut growing stock is valued at 
$539 billion. Already, municipal governments across the country are 
spending more than $2 billion each year to remove trees on city 
property killed by non-native pests. Homeowners are spending an 
additional $1 billion to remove and replace trees on their properties 
and are absorbing an additional $1.5 billion in reduced property 
values.
    The USFS Forest Health Management Program is a critical resource 
supporting efforts to prevent, contain, and eradicate these costly and 
dangerous pests and pathogens affecting trees and forests. In fiscal 
year 2014, the Program helped combat native and invasive pests on over 
327,000 acres of Federal lands and over 486,000 acres of Cooperative 
lands.\1\ While these numbers represent a vital component of our 
efforts to protect the Nation's forests and trees, they also represent 
the real consequences of reductions in funding over the past 5 years, 
which have resulted in fewer acres treated. Any further cuts to this 
program will necessitate deeper reductions in support for communities 
already facing outbreaks and expose more of the Nation's forests and 
trees to the devastating and costly effects of the forest pests. With 
this in mind, we are concerned with the President's budget proposal to 
reduce funding for the Cooperative Lands program and corresponding 
reductions for work to address Sudden Oak Death, Asian Longhorned 
Beetle, goldspotted oak borer, and other serious threats to our 
forests.
---------------------------------------------------------------------------
    \1\ USDA Forest Service fiscal year 2016 President's Budget 
Justification.
---------------------------------------------------------------------------
    The USFS Forest and Rangeland Research program provides the 
scientific foundation for developing effective tools to detect and 
manage forest pests and the pathways by which they are introduced and 
spread. As forests face increasing pressure from the growing number of 
non-native pests support for research programs is critical. New 
pathways of introduction and spread have required analysis, e.g., wood 
packaging and firewood. We are concerned that the President's budget 
request for Forest and Rangeland Research would further limit our 
ability to prevent, contain, and eradicate damaging forest pests. We 
respectfully request your support in funding the USFS Forest and 
Rangeland Research program at $303 million in fiscal year 2016.
    In a time when America's forests and trees faces significant 
threats to their current and long-term health, the USFS needs adequate 
funding for the Forest Health Management and Forest and Rangeland 
Research programs to address current and emerging pests and keep their 
already staggering costs to a minimum. Accordingly, we urge the 
subcommittee to restore funding for these critical programs in fiscal 
year 2016. We request that you support the Forest Health Management 
programs at a total funding level of $111 million--with $63 million for 
Federal Lands and $48 million for Cooperative Lands--and the Forest and 
Rangeland Research program at $303 million.
    We would be pleased to answer any questions you may have. Thank you 
for your time and consideration of this request.

            Sincerely,

                    American Forest Foundation, American Forests, 
                            American Public Gardens Association, 
                            California Forest Pest Council, Center for 
                            Invasive Species Prevention, National 
                            Alliance of Forest Owners, National 
                            Association of Conservation Districts, 
                            National Association of State Foresters, 
                            National Network of Forest Practitioners, 
                            National Wild Turkey Federation, National 
                            Woodland Owners Association, Society of 
                            American Foresters, The Nature Conservancy, 
                            Tree Care Industry Association, and Vermont 
                            Woodlands Association.
                                 ______
                                 
       Prepared Statement of the Coalition for Healthier Schools
    Dear Senator/Representative:

    On behalf of more than 150 participating parent, public health, 
environment, and education groups in the Coalition, we urge you to make 
healthy children and healthy indoor environments a priority in the 
final fiscal year 2016 appropriations for U.S. Environmental Protection 
Agency (EPA). EPA has more than a 15 year history in working with Prek-
12 schools, child care centers, and communities to advance healthier 
indoor environments with voluntary grants and annual symposiums.
    Specifically, we request $21.1 million for EPA's Indoor 
Environments Division/Indoor Air-Reducing the Risks to educate non-
governmental organizations (NGOs), local schools and communities on how 
to prevent risks and promote healthy indoor environments in PreK-12 
schools and child care centers. The $21.1 million is the average of its 
enacted budget from 2004-2009 in the Bush Administration. In that 
period, it educated thousands of school personnel and hosted annual 
symposiums that highlighted best practices by schools. We support and 
ask that you ensure that EPA's Office of Children's Health Protection 
has $8 million as in the President's fiscal year 2016 budget request, 
allowing it to offer grants to encourage work by State agencies to 
address children's health at school.
    Some 55 million children attend public and private schools every 
day, yet our Nation's schools--places where 20 percent of Americans (95 
percent of whom are women and children) learn and work every day--are 
woefully unaware or under-prepared to manage their facilities, as 
numerous facility studies have shown. Research also shows that 
environmentally healthy learning places that are clean, dry and quiet, 
and have good indoor air, have better attendance and higher test 
scores. Poor indoor environments in schools decrease test scores, and 
increase absenteeism, asthma, and healthcare costs.
    The Centers for Disease Control and Prevention's (CDC's) 2012 
School Health Policy Survey found far too few States and districts 
adopting environmental management policies that promote attendance and 
achievement. CDC found for example:
  --only 42.9 percent of States helping districts with Indoor Air 
        Quality; and
  --36.3 percent of districts having a policy to purchase low-emitting 
        products which can help reduce contaminants of indoor air.
    Thank you for your attention and we look forward to working with 
you on this critical public health and education issue.

            Sincerely,

Alaska Community Action on Toxics
American Public Health Association
Asthma and Allergy Foundation of America
Association of School Business Officials International
Center for Cities + Schools (California)
Clean and Healthy New York
Coalition for Environmentally Safe Schools (Washington)
Connecticut Foundation for Environmentally Safe Schools
Earth Day Network
Empire State Consumer Project (New York)
Green & Healthy Homes Initiative
Green Schools Initiative (California)
Green Schools National Network
Health Promotion Consultants (Virginia)
Health Resources in Action (Massachusetts)
Healthy Schools Network
IPM Institute of North America
Learning Disability Association of New York State
Maine PTA
Maryland Children's Environmental Health Coalition
Massachusetts Coalition for Occupational Safety and Health
Massachusetts Healthy Schools Network
National Center for Environmental Health Strategies
National Education Association--Healthy Schools Caucus
NEA Healthy Futures
New York State PTA
Northwest Clean Air Agency (Washington)
OHIAS--Our Health Is At Stake (California)
PCBsInSchools
Pediatric Environmental Health Specialty Units--West
Physicians for Social Responsibility--Florida
Sheet Metal Occupational Health Institute Trust (SMOHIT)
Southwest Environmental Health Sciences Center (Arizona)
Take Care of Your Classroom Air (Texas)
Toxics Information Project (Rhode Island)
U.S. Green Building Council
Washington Asthma Initiative
West Harlem Environmental Action (WEACT)
Women for a Healthy Environment/Healthy Schools PA
Zinner Consultants (California)
      
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $382 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $614 million by the year 2035 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM funds these efforts through its 
Soil, Water and Air Program. BLM's efforts are an essential part of the 
overall effort. A funding level of $1.5 million for salinity specific 
projects in 2016 is requested to prevent further degradation of the 
quality of the Colorado River and increased downstream economic 
damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts. In 
1984, Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress and will be seeking a 
line-item appropriation in its 2017 budget request. With a significant 
portion of the salt load of the Colorado River coming from BLM 
administered lands, the BLM portion of the overall program is essential 
to the success of the effort. Inadequate BLM salinity control efforts 
will result in significant additional economic damages to water users 
downstream.
    Concentration of salt in the Colorado River causes approximately 
$382 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salinity 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM is a cost effective method of controlling the salinity of the 
Colorado River and is an essential component to the overall Colorado 
River Basin Salinity Control Program. Continuation of adequate funding 
levels for salinity within the Soil, Water and Air Program will assist 
in preventing the water quality of the Colorado River from further 
degradation and significant increases in economic damages to municipal, 
industrial and irrigation users. A modest investment in source control 
pays huge dividends in improved drinking water quality to nearly 40 
million Americans.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2016 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
with the sub-activity that assists Title II of the Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). This long-standing 
successful and cost-effective salinity control program in the Colorado 
River Basin is being carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500). 
Congress has directed the Secretary of the Interior to implement a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by the Bureau of Land Management (BLM). 
BLM funds these efforts through its Soil, Water and Air Program. BLM's 
efforts are an essential part of the overall effort. A funding level of 
$1.5 million for salinity specific projects in 2016 is requested to 
prevent further degradation of the quality of the Colorado River and 
increased downstream economic damages.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U. S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River water quality standards every 3 
years. The Forum adopts a Plan of Implementation consistent with these 
water quality standards. The level of appropriation being supported in 
this testimony is consistent with the Forum's 2014 Plan of 
Implementation. The Forum's 2014 Plan of Implementation can be found on 
this Web site: http://coloradoriversalinity.org/docs/
2014%20Final%20REVIEW%20-%20complete.pdf. If adequate funds are not 
appropriated, significant damages associated with increasing salinity 
concentrations of Colorado River water will become more widespread in 
the United States and Mexico.
    The EPA has determined that more than 60 percent of the salt load 
of the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. Through passage of the Colorado River Basin 
Salinity Control Act in 1974, Congress recognized that much of the 
salts in the Colorado River originate on federally owned lands. Title I 
of the Salinity Control Act deals with the U.S. commitment to efforts 
related to maintaining the quality of waters being delivered to Mexico 
pursuant to the 1944 Water Treaty. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. In 1984, 
Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
coordinate BLM efforts in the Colorado River Basin States to pursue 
salinity control studies and to implement specific salinity control 
practices. BLM is now working on creating a comprehensive Colorado 
River Basin salinity control program as directed by Congress and will 
be seeking a line-item appropriation in its 2017 budget request. With a 
significant portion of the salt load of the Colorado River coming from 
BLM-administered lands, the BLM portion of the overall program is 
essential to the success of the entire effort. Inadequate BLM salinity 
control efforts will result in significant additional economic damages 
to water users downstream.
    Over the 31 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $382 million in quantifiable damages 
in the United States annually. Economic and hydrologic modeling by 
Reclamation indicates that the quantifiable damages could rise to more 
than $614 million by the year 2035 without the continuation of the 
Salinity Control Program. For example, damages can be incurred related 
to the following activities:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --an increase in the amount of imported water,
  --an increased cost of desalination and brine disposal for recycling 
        water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through an effective salinity control program will 
avoid the additional economic damages to users in California and the 
other States that rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of Interior, Bureau of Indian Affairs' (BIA) fiscal year 
2016 budget. We have specifically identified the following funding 
needs and one request for review:

    (1)  $8.95 million for Columbia River Fisheries Management under 
Rights Protection Implementation, ($4.4 million above fiscal year 
2015), to meet the base program funding needs of the Commission and the 
fisheries programs of our member tribes;
    (2)  $4.8 million for U.S./Canada Pacific Salmon Treaty, ($520,000 
above fiscal year 2015) to implement obligations under the recent 
agreements adopted by the U.S. and Canada;
    (3)  $4.5 million in Rights Protection Implementation to assist 
tribes in climate change adaptation and planning; and
    (4)  $352.5 million for Public Safety and Justice, of which $716,00 
supports enforcement of Federal laws at In-Lieu and Treaty Fishing 
Access Sites on the Columbia River.
                         history and background
    CRITFC was founded in 1977 by the four Columbia River treaty 
tribes: Confederated Tribes of the Umatilla Indian Reservation, 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
Confederated Tribes and Bands of the Yakama Nation, and the Nez Perce 
Tribe. CRITFC provides coordination and technical assistance to these 
tribes in regional, national and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. Our collective ancestral homeland covers nearly one-third of 
the entire Columbia River Basin in the United States, an area the size 
of the State of Georgia.
    In 1855, the U.S. entered into treaties with the four tribes \1\ 
whereupon we ceded millions of acres of our homelands to the U.S. In 
return, the U.S. pledged to honor our ancestral rights, including the 
right to fish in all Usual and Accustomed locations. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The CRITFC tribes have arrived as globally-recognized leaders in 
fisheries restoration and management working in collaboration with 
State, Federal and private entities. We are principals in the region's 
efforts to halt the decline of salmon, lamprey and sturgeon populations 
and rebuild them to levels that support ceremonial, subsistence and 
commercial harvests. To achieve these objectives, our actions emphasize 
``gravel-to-gravel'' management including supplementation of natural 
stocks, healthy watersheds and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated as much as possible with State and Federal salmon management 
and restoration efforts.
     columbia river fisheries management within rights protection 
                             implementation
    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management increases in complexity, 
requiring greater data collection and enforcement. Funding shortfalls 
prohibit the achievement of tribal self-determination goals for 
fisheries management, ESA recovery effort, protecting non-listed 
species, conservation enforcement and treaty fishing access site 
maintenance. We request an increase of $4.4 million over fiscal year 
2015 for a new program base of $8.95 million for Columbia River 
Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes, 
namely enforcement and harvest monitoring.
    In 2008, CRITFC and its member tribes struck three landmark 
agreements: (1) the Columbia Basin Fish Accords with Federal action 
agencies overseeing the Federal hydro system in the Columbia Basin,\2\ 
(2) a 10-Year Fisheries Management Plan with Federal, tribal and State 
parties under U.S. v Oregon, and (3) a new Chinook Chapter of the 
Pacific Salmon Treaty.\3\ These agreements establish regional and 
international commitments on harvest and fish production efforts, 
commitments to critical investments in habitat restoration, and 
resolving contentious issues by seeking balance of the many demands 
within the Columbia River basin. While through these agreements the 
Tribes have committed to substantial on-the-ground projects with some 
additional resources from the Bonneville Power Administration, the 
overall management responsibilities of the tribal programs have grown 
exponentially without commensurate increases in BIA base funding 
capacity. For example, the tribes' leadership in addressing Pacific 
Lamprey declines is this species' best hope for survival and recovery. 
The tribes' are also addressing unmet mitigation obligations, such as 
fish losses associated with the John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ ``See Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_109.pdf.
---------------------------------------------------------------------------
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
legal, public and private forums. Rights Protection Implementation 
funding takes on even greater importance as funding for State co-
management agencies has become inconsistent or decreased. Below are 
priority need areas for CRITFC and our member tribes.
                       youth program initiatives
    The Columbia River Treaty Tribes place an emphasis on preparing our 
youth for careers in Natural Resources Management. However, our tribes, 
like tribes nationwide, struggle to overcome barriers to Science, 
Technology, Engineering, and Mathematics achievement, high drop-out 
rates, and low percentages of students pursuing natural resources 
majors. Our Place-Based Workforce Development Initiative seeks to 
address these barriers through a blend of technical assistance, intern 
and externship opportunities and a summer Salmon Camp.
                  columbia river treaty modernization
    The Columbia River Inter-Tribal Fish Commission's member tribes are 
part of a coalition of 15 Columbia Basin tribes whose rights, as well 
as management authorities and responsibilities, are substantially 
affected by the implementation of the Columbia River Treaty. In order 
for Treaty modernization to succeed, the Columbia Basin tribes need to 
continue to coordinate internally and with other regional and national 
entities, as well as continue their analytical evaluation of the Treaty 
including the impacts of climate change, while the State Department 
evaluates the Regional Recommendation and completes their national 
interests review.
                       tribal climate resilience
    The Treaty Right is feeling the effects of Climate Change. Shifts 
are occurring in salmon run timing, and berry and root ripening cycles. 
We support the President's request of $4.7 million to implement Tribal 
Climate Resilience. Specifically, these funds support the BIA Tribal 
Climate Change Program which will integrate climate change adaptation 
strategies into its policies and planning for support for the tribes, 
Alaska Natives and Native Hawaiians. The BIA need these resources to 
support active engagement of tribes, Alaska Natives and Native 
Hawaiians in the Landscape Conservation Cooperatives and the Climate 
Science Centers and to ensure adequate Government-to-Government 
consultation on all issues with climate effects.
       u.s./canada pacific salmon treaty under rights protection 
                             implementation
    The U.S. and Canada entered into the Pacific Salmon Treaty in 1985 
to conserve and rebuild salmon stocks, provide for optimum production, 
and control salmon interceptions. The treaty established the Pacific 
Salmon Commission (PSC) as a forum to collaborate on intermingled 
salmon stocks. The U.S. Section of the PSC annually develops a 
coordinated budget for tribal, State and Federal programs to ensure 
cost and program efficiencies. Congress increased funding in 2000 in 
order to implement the 1999 Agreement, but funding has significantly 
eroded since then. In 2008, the U.S. and Canada adopted a new long term 
Treaty agreement after nearly 3 years of negotiations. Both parties 
agreed to significant new management research and monitoring activities 
to ensure the conservation and rebuilding of the shared salmon 
resource.
    For tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4,800,000 for participating 
tribes. These funds provide for direct tribal participation with the 
Commission, panels and technical committees. The funding enables the 
tribes to assist in Treaty implementation and facilitates management 
protecting trust resources. This funding maintains tribal resource 
assessment and research programs structured to fulfill required Treaty 
implementation activities. The fiscal year 2016 recommended level for 
this program is an increase of $520,000 above the fiscal year 2015 
enacted level. Our request correlates to the U.S. Section's 
recommendation.
 public safety and justice, criminal investigations and police services
    Public safety continues to be a high priority for CRITFC and our 
tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers have obtained BIA Special Law Enforcement 
Commissions to aid our efforts protecting and serving tribal members 
and Federal trust properties along the Columbia River. We are also very 
pleased that the BIA has created the Office of Justice Services (OJS) 
District 8 and housed it in Portland. CRITFC entered into a Public Law 
93-638 contract with BIA in February 2011 for enforcement services 
along the Columbia River. That contract currently provides funding for 
two enforcement positions.
    It's important that CRITFC build its enforcement capacity above the 
level of the two officers currently funded by the BIA Office of Justice 
Services. Our immediate priority is to add two officers. Funding for 
two additional officers would cost $313,560 plus indirect. Full funding 
for this project would be a total budget of $716,053 plus indirect 
which would support four officers, a sergeant and a dispatcher.
          a request for review of salmon mass-marking programs
    CRITFC endeavors to secure a unified hatchery strategy among 
tribal, Federal and State co-managers. To that end, we seek to build 
hatchery programs using the best available science, regional expertise 
and supported by adequate, efficient budgets. A congressional 
requirement, delivered through prior appropriations language, to 
visibly mark all salmon produced in federally funded hatcheries 
circumvents local decisionmaking and should be reconsidered. We have 
requested that Federal mass-marking requirements, and correlated 
funding, be reviewed for compatibility with our overall objective of 
ESA delisting and with prevailing laws and agreements: U.S. v Oregon, 
Pacific Salmon Treaty and the Columbia Basin Fish Accords.\4\ Salmon 
managers should be provided the latitude to make case-by-case decisions 
whether to mark fish and, if so, in the appropriate percentages.
---------------------------------------------------------------------------
    \4\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of Interior's BIA budget.
                                 ______
                                 
   Prepared Statement of the Congressional Fire Services Institute, 
 International Association of Fire Chiefs, and National Volunteer Fire 
                                Council
    Dear Senators Cochran, Mikuiski, Murkowski and Udall:

    Our organizations request that you include a minimum of $16 million 
in funding for the Volunteer Fire Assistance (VFA) grant program in 
fiscal year 2016 appropriations. VFA provides matching funds to 
volunteer fire departments protecting communities with 10,000 or fewer 
residents to purchase equipment and training for use in wildland fire 
suppression.
    Volunteer fire departments provide nearly 80 percent of initial 
attack on wildland fires in the U.S. Unfortunately, these departments 
frequently lack the financial resources to adequately equip and train 
their firefighters to engage in wildland fire suppression. For example, 
the Third Needs Assessment of the U.S. Fire Service report published in 
2011 by the National Fire Protection Association found that 68 percent 
of all fire departments that are responsible for wildland firefighting 
have not formally trained ail their personnel to the recommended 
national standard.
    When local fire departments are unable to suppress wildland fires 
during the initial phase, the fires spread and State and Federal 
firefighters are deployed. This is an extremely expensive process that 
can cost the Federal Government anywhere from hundreds of millions to 
more than one billion dollars in fire suppression costs alone in a 
single year depending on the severity of the fire season.
    The costs of wildland fire suppression have been increasing 
steadily as commercial and residential development pushes further into 
the wildland/urban interface (WUI). Unfortunately, in recent years, 
Federal funding for volunteer fire departments to prepare for wildland 
fire suppression has dwindled. VFA has seen funding reduced from $16 
million in fiscal year 2010 to $15.662 million in fiscal year 2011 and 
approximately $13 million in fiscal year 2012-2015. Additionally, the 
Rural Fire Assistance program, which had historically been funded at 
$7-10 million per year and provided matching grants to fire departments 
that agreed to assist in responding to wildland fires on Federal lands, 
hasn't been funded since fiscal year 2010.
    Federal support is critical to ensure volunteer fire departments 
are able to safely and effectively respond to wildland fires. Our 
organizations recognize the challenges that Congress faces in trying to 
adequately fund a range of important programs in today's difficult 
budget environment. At the same time, we believe that reducing the 
funding for programs like RFA and VFA from a combined $23 million in 
fiscal year 2010 to $13 million in fiscal year 2015, leaves volunteer 
fire departments with fewer resources to prepare to respond to wildland 
fires and will lead to higher Federal spending on fire suppression in 
the long run. We urge you to provide a minimum of $16 million for VFA 
in fiscal year 2016.
                                 ______
                                 
              Prepared Statement of The Conservation Fund
    Chairman Murkowski, Ranking Member Udall, and Members of the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit outside witness 
testimony on behalf of The Conservation Fund (TCF). TCF supports full 
funding of the President's budget request of $900 million in fiscal 
year 2016 for the Land and Water Conservation Fund (LWCF) discretionary 
and mandatory proposals, which includes the Federal land acquisition 
programs of the Bureau of Land Management ($93.397 million), National 
Park Service ($171.037 million), U.S. Fish and Wildlife Service 
($164.772 million), U.S. Forest Service ($127.673 million), as well as 
three State grant programs: the U.S. Fish and Wildlife Service's 
Cooperative Endangered Species Conservation Fund ($100 million); 
National Park Service's State Conservation Grants ($100.2 million); and 
the U.S. Forest Service's Forest Legacy Program ($100 million). TCF 
also supports full funding of the President's request for the U.S. Fish 
and Wildlife Service--North American Wetlands Conservation Fund 
($34.145 million); the U.S. Forest Service--Community Forest and Open 
Space Conservation Program ($1.683 million); and the Department of 
Interior (DOI)--Natural Resource Damage Assessment and Restoration 
Program ($9.2 million). TCF requests funding for the Environmental 
Protection Agency (EPA)--Great Lakes Restoration Initiative ($300 
million); EPA--Clean Water State Revolving Funds ($1.449 million) and 
EPA--Drinking Water State Revolving Funds ($1.186 million). 
Additionally, TCF supports the proposals for the Federal Land 
Transaction Facilitation Act reauthorization, the National Park Service 
Centennial Initiative, and the U.S. Forest Service proposal for a 
fiscally responsible funding strategy that considers catastrophic 
wildland fires as disasters (i.e. in line with the Wildland Disaster 
Fund Act).
    TCF is a national, non-profit conservation organization dedicated 
to conserving America's land and water legacy for future generations. 
Established in 1985, TCF works with landowners; Federal, State and 
local agencies; and other partners to conserve our Nation's important 
lands for people, wildlife and communities. To date, TCF has helped our 
partners to conserve over 7.5 million acres. These accomplishments are 
due, in large measure, to the leadership of this subcommittee over many 
years to appropriate funds to acquire lands for future generations, 
working forests, recreational opportunities, wildlife habitat, and many 
other benefits.
    Below are highlights of some benefits of the LWCF and land 
acquisition programs. While these projects show the tremendous 
diversity of benefits of land acquisition for the public, they have one 
thing in common--each of these projects is driven by landowners. Many 
farmers, ranchers and forestland owners have significant financial 
equity in their land. By enabling a landowner to sell a conservation 
easement or fee title, the LWCF program provides landowners with funds 
to stay in business, reinvest in businesses, or meet other financial 
goals.
    As the subcommittee crafts its Interior, Environment and Related 
Agencies Appropriations bill, there are several key points we 
respectfully request you to consider, listed below.
1. Land and Water Conservation Fund (LWCF) at $900 million
    Funding at the recommended $900 million is critical for the 
Nation's premier conservation program, a bipartisan agreement from 
almost 50 years ago. As the lists of ready LWCF projects below show, 
there are many opportunities that will be lost without this funding. 
LWCF represents a promise to the Nation that proceeds from offshore oil 
and gas development will help protect the public trust, and these 
projects will fulfill that mission.
    The LWCF Budget includes Collaborative Landscape Planning (CLP) 
areas that we ask you to support: Island Forests at Risk, Upper Rio 
Grande, High Divide, Rivers of the Chesapeake, National Trails System, 
Florida-Georgia Long Leaf Pine, Pathways to the Pacific, and Northern 
California Coastal. In each CLP, several Federal land agencies are 
partnering with States, local groups, non-profits and private interests 
to support conservation and make a lasting impact.
    Bureau of Land Management (BLM) Land Acquisition at $93.397 
million.--The BLM and its National Conservation Lands provide some of 
our Nation's best recreation and historic areas. From fishing at the 
North Platte River in Wyoming to exploring ancient petroglyphs in the 
canyon at Agua Fria National Monument in Arizona, we request full 
funding of the agency's discretionary and mandatory project lists.
    National Park Service (NPS) Federal Land Acquisition at $171.037 
million.--Hosting more than 292 million visitors every year, the over 
400 National Park units provide an economic boost to their local 
communities and those employed directly and indirectly. Funding for NPS 
LWCF will help protect key access points for recreation, historic 
areas, trails and more, including at Little River Canyon National 
Preserve in Alabama and Olympic National Park in Washington. We 
respectfully request full funding of the agency's discretionary and 
mandatory project lists.
    U.S. Fish and Wildlife Service (FWS) Land Acquisition at $164.772 
million.--National Wildlife Refuges (NWR) are our Nation's protectors 
of clean water, clean air, abundant wildlife and world-class 
recreation. Funding for fiscal year 2016 FWS LWCF will help protect 
water quality in the Chesapeake Bay area, critical wildlife habitat at 
Bear River Watershed Conservation Area in Utah, Idaho and Wyoming, and 
many other important places. We respectfully request full funding of 
the agency's discretionary and mandatory project lists.
    U.S. Forest Service (USFS) Land Acquisition at $127.673 million.--
USFS LWCF funds help with forest management by protecting key 
inholdings and reducing fire threats. From the North Carolina 
Threatened Treasures to the Missouri Ozarks, we are working with 
willing landowners at priority project areas and respectfully request 
full funding of the agency's discretionary and mandatory project lists.
    LWCF State Grant Programs: FWS-Section 6 Cooperative Endangered 
Species Fund, NPS-State Conservation Grants, and USFS-Forest Legacy: We 
encourage the subcommittee to fully fund fiscal year 2016 President's 
budget request for:
  --FWS.--Section 6 Cooperative Endangered Species Conservation Fund: 
        $100 million.
  --NPS.--State Conservation Grants: $100.2 million.
  --USFS.--Forest Legacy Program: $100 million.
2. DOI and USFS Land Acquisition Programs
    TCF encourages the subcommittee to fund:
  --FWS.--North American Wetlands Conservation Fund: $34.145 million.
  --USFS.--Community Forest and Open Space Conservation Program: $5 
        million.
3. Department of Interior--Natural Resource Damage Assessment and 
        Restoration Program at $9.2 million
    The Restoration Program leads the national response for recovery of 
natural resources that have been injured or destroyed as a result of 
oil spills or releases of other hazardous substances. Recoveries from 
responsible parties can only be spent to implement restoration plans 
developed by the Trustee Council for each incident. These funds are one 
hundred percent private and represent the amount needed to restore 
environmental resources or compensate for lost public use since the 
damage in question. The fiscal year 2016 funds would allow the Program 
to add carefully targeted staff allocated to Interior bureaus and 
offices through its Restoration Support Unit in order to accelerate 
restoration activities.
4. Environmental Protection Agency--Great Lakes Restoration Initiative 
        (GRLI) at $300 million
    TCF urges funding of GLRI at $300 million. The Initiative provides 
critical support for on-the-ground restoration programs and projects 
targeted at the most significant environmental problems in the Great 
Lakes ecosystem. Over the past 5 years, the Initiative has opened up 
fish access to more than 3,400 miles of rivers, expanding recreational 
opportunities. It has also accelerated the cleanup of toxic hotspots, 
resulting in the delisting of three formerly contaminated sites.
5. Environmental Protection Agency--State Revolving Funds
    TCF encourages the subcommittee to fund:
  --Clean Water State Revolving Fund: $1.449 million.
  --Drinking Water State Revolving Fund: $1.186 million.
6. Reauthorization of the Federal Land Transaction Facilitation Act
    We support the fiscal year 2016 President's budget request to 
reauthorize the Federal Land Transaction Facilitation Act (FLTFA). 
FLTFA is a western Federal lands program that facilitates strategic 
Federal land sales by the BLM in order to provide funding for high-
priority land conservation within or adjacent to Federal lands in the 
11 contiguous western States and Alaska. Over 150 groups are working 
together to support Congress' efforts to reauthorize FLTFA. FLTFA 
expired in 2011, and reauthorization will enhance the lands and economy 
by facilitating Federal land sales and conservation transactions, at no 
cost to the taxpayer.
7. Wildlife Disaster Funding Act (S. 235 and H.R. 167) and Avoiding 
        Transfers to Wildland Fire Suppression
    We support the proposal in the President's budget that would avoid 
transferring funds Congress appropriates to other priority programs to 
fund wildland fire suppression. We support language mirroring the 
bipartisan Wildfire Disaster Funding Act (S. 235 and H.R. 167), which 
is needed to prevent future transfers and ensure that the USFS and DOI 
can achieve their land management objectives by implementing activities 
needed to address the growing buildup of hazardous fuels on Federal 
lands. This language provides the structure to fund a portion of the 
USFS and DOI wildfire suppression costs through a budget cap adjustment 
under the Balanced Budget and Emergency Deficit Control Act of 1985, as 
amended. The funding structure is similar to that used by other 
agencies who respond to natural disaster emergencies. We additionally 
request that the subcommittee appropriate the modeled levels of 
suppression through the Interior bill and the wildfire budget cap 
adjustment to meet suppression needs in fiscal year 2016.
    The Conservation Fund stands ready to work with you to secure full 
and consistent funding for the LWCF, Forest Legacy, and the other 
critically important programs that help protect the environment, 
economies, forests, and community values across our Nation. Thank you 
for the opportunity to provide this testimony and your consideration of 
our request.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chair Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    Thank you for the opportunity to submit comments on the fiscal year 
2016 Interior Appropriations bill. The National Wildlife Refuge System 
stands alone as the only land and water conservation system with a 
mission that prioritizes wildlife and habitat conservation alongside 
human, wildlife-dependent recreation. Since 1995, the Cooperative 
Alliance for Refuge Enhancement (CARE) has worked to showcase the value 
of the Refuge System and to secure a strong congressional commitment 
for conserving these special landscapes. Found in every U.S. State and 
territory, national wildlife refuges conserve a diversity of America's 
environmentally sensitive and economically vital ecosystems, including 
oceans, coasts, wetlands, deserts, tundra, prairie, and forests.
    We thank you for the desperately needed funding increase for fiscal 
year 2015 and respectfully request a funding level of $508.2 million 
for the Operations and Maintenance accounts of the National Wildlife 
Refuge System for fiscal year 2016.
    This testimony is submitted on behalf of CARE's 23 member 
organizations, which represent over 16 million American hunters, 
anglers, bird and wildlife watchers, scientists and concerned citizens 
passionate about wildlife conservation and related recreational 
opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    The National Wildlife Refuge System, established by President 
Theodore Roosevelt in 1903, protects approximately 150 million acres on 
562 national wildlife refuges and 38 wetland management districts 
across the U.S. From the Virgin Islands to Guam and the Pacific marine 
national monuments, the Refuge System spans 12 time zones and protects 
America's natural heritage in habitats ranging from arctic tundra to 
arid desert, boreal forest to sagebrush grassland, and prairie wetlands 
to coral reefs. With a refuge within an hour's drive from most 
metropolitan areas, the Refuge System attracts a growing number of 
visitors each year (46.5 million in fiscal year 2013) with 
opportunities for hunting, fishing, wildlife observation, photography, 
kayaking, and outdoor education. In fact, from 2006--2011, during our 
Nation's greatest economic recession since the Great Depression, 
visitation to our national wildlife refuges increased by 30 percent.
    Increased visitors and pressures on these lands from nearby 
development, a changing climate, and other impacts, combined with 
declining budgets have caused a steep decline in staffing levels within 
the Refuge System. The Refuge System is now $72 million below what it 
needs to keep pace with inflation, relative to the fiscal year 2010 
budget of $503.2 million. Workforce has declined in that time by over 
500 employees, who provided services such as administration, 
maintenance, fire management, and science support. That is a loss of 
\1/7\ of the workforce, and the refuges simply cannot be maintained or 
provide the adequate visitor services, environmental education, access 
for hunting, and law enforcement that will ensure these lands are used 
as intended.
    According to a report issued by the U.S. Fish and Wildlife Service 
in late 2013, Banking On Nature, these visitors generated $2.4 billion 
annually to local and regional economies--on average returning $4.87 in 
economic activity for every $1 appropriated--and support 35,000 U.S. 
jobs. In addition, refuges provide major environmental and health 
benefits: filtering storm water before it is carried downstream to 
municipal aquifers, reducing flooding by capturing excess rainwater, 
and minimizing the damage to coastal communities from storm surges. 
According to a 2011 report by Southwick Associates, refuges generate 
more than $32.3 billion in these ecosystem services each year, a return 
of over $65 for every $1 appropriated by Congress.
    Budget cuts are impacting rural communities in Alaska--this year, 
the U.S. Fish and Wildlife Service (USFWS) office in McGrath was closed 
and management of Innoko National Wildlife Refuge (NWR) was complexed 
with Nowitna and Koyukuk NWRs in Galena. At its height in 2010, the 
McGrath office had 12 staff; now, only one outreach staffer is being 
maintained in the village. The office had direct connections with the 
rural villages in the area, and the Refuge System is now struggling to 
maintain those connections with one staffer. And perhaps more 
importantly, the economic impact and loss of the $1 million to the 
village it took to run the office could have dire impacts to 
communities that surrounded it.
    In New Mexico, Bosque NWR brings in hundreds of thousands of 
visitors every year to see the abundant bird populations that migrate 
through the refuge--particularly sandhill cranes. This summer, the 
visitor's center will close 2 days a week due to budget shortfalls. And 
over the last two decades, refuge staff has battled the invasive and 
water-hungry salt cedar. Staff no longer has the funding to continue to 
fight this fast-spreading tree at the levels they were, and it starting 
to spread again--at times in areas where the invasive plant had 
previously been completely removed. With the current drought conditions 
in the southwest, it is critical that refuge staff are provided the 
resources necessary to remove this species from the landscape and 
taxpayer dollars already spent on removal is not wasted.
    At minimum, CARE estimates that the Refuge System needs at least 
$900 million in annual operations and maintenance funding to meet 
conservation targets, including wildlife management and habitat 
restoration and opportunities for the public to recreate. 
Unfortunately, inadequate funding threatens the System's ability to 
carry out its mission, mandated by the National Wildlife Refuge System 
Improvement Act of 1997. Between fiscal year 2010 and fiscal year 2013, 
Refuge System funding was reduced by $50 million--a 10 percent cut. As 
a result, System performance levels dropped substantially.
    The fiscal year 2013 Refuge Annual Performance Plan (RAPP) reports 
revealed falling performance rates in several important System 
categories, including habitat condition, habitat restoration, 
recreation opportunities, volunteerism, and scientific research. The 
following data shows the systemic impact of budget cuts from fiscal 
year 2010 to fiscal year 2014.

    Measures for which performance declined from fiscal year 2010 to 
fiscal year 2014:
  --Open water acres restored (-89 percent)
  --Wetland acres restored (-69 percent)
  --Acres of non-native, invasive plants controlled (-63 percent)
  --Number of invasive animal populations controlled during the year 
        (-59 percent)
  --Acres of forest/shrubland improvement (-56 percent)
  --Acres treated for non-native, invasive plants (-41 percent)
  --Riparian miles restored (-37 percent)
  --Acres of farming (-22 percent)
  --Number of Inventory and Monitoring surveys accomplished (-20 
        percent)
  --Total refuge acres receiving needed management (-9 percent)
  --Number of volunteers (-15 percent)
  --Volunteer hours (down 6 percent from fiscal year 2011 to fiscal 
        year 2014)
  --Fishing visits (-7 percent)
  --Hunting visits (-5 percent from fiscal year 2011 to fiscal year 
        2014)
  --Waterfowl hunt visits (-1 percent from fiscal year 2011 to fiscal 
        year 2014)
  --Big game hunt visits (-9 percent from fiscal year 2011 to fiscal 
        year 2014)
  --Total ``other'' recreational participants (-13 percent)

    However, many measures increase for the Refuge System over this 
same timeframe:
  --Photography participants (+45%)
  --Number of boat trail visits (+21 percent)
  --Acres of prescribed grazing (+11 percent)
  --Number of auto tour visits (+11 percent)
  --Wildlife observation visits (+8 percent)
  --Number of visitors (+2.6 percent)

    As habitat management declines, the System's fragile ecosystems are 
subject to opportunistic invasive species. And the foothold they gain 
in refuge lands can quickly transfer to adjacent private and State 
lands; an issue of great concern in places like southeastern Idaho 
where the CARE group visited in 2012. Between fiscal year 2010 and 
fiscal year 2014, the System treated 41 percent less acreage for 
invasive plants and, sadly, saw a 63 percent drop in acreage where 
invasive plants were successfully controlled. One step forward and 
several steps back is an inefficient way to manage the Refuge System 
and threatens years of cooperative efforts with partners and 
landowners.
    CARE thanks the subcommittee and Congress for the much needed 
increase in funding for fiscal year 2015. It was hoped that the budget 
increase could reverse the systemic declines in performance but because 
the System needs at least $15 million annually to maintain management 
capabilities, there is in reality, the increase of $4 million was in 
actuality a decrease. And unfortunately, emergencies nationwide such as 
natural disasters and looming endangered species listing could force 
the System to deal with these crises instead, further exacerbating the 
issues.
    Understanding the constraints of the budget process, CARE is 
supporting the President's request of $508.2 million for fiscal year 
2016, although it is substantially less than what the System needs. 
Albeit roughly half the optimal funding amount, $508.2 million is a $34 
million increase, and we hope it may help the System maintain its 
ability to manage refuge lands as intended in their purpose. If the 
requested funding level is satisfied, the Refuge System can better 
address the following tasks:
  --Conduct management and restoration activities to provide healthy 
        habitats that attract wildlife and, in turn, draw visitors and 
        increase economic return to communities;
  --Keep refuges open and staffed so that quality recreational 
        opportunities continue to be offered to the public;
  --Maintain facilities and equipment used to serve the public and 
        manage habitat;
  --Provide law enforcement officers needed to keep refuge resources 
        and the people who come to appreciate them safe.
    Refuge visitation is growing and is expected to continue. In fact, 
from fiscal year 2010 to fiscal year 2014, the Refuge System welcomed 
2.7 percent more visitors. However, refuges are losing valuable staff 
committed to visitors and volunteers. The number of volunteers dropped 
by 6 percent, particularly troubling considering this work force is a 
20 percent boost to existing Refuge System staff. Refuges rely on 
volunteers for welcoming and greeting visitors, staffing refuge nature 
stores, maintenance, interpretation, and much more. Volunteer service, 
however, is only possible if the System is reasonably staffed and thus 
able to extend requisite volunteer training and oversight. Arguably, 
the System's mission cannot be fully achieved without refuge volunteers 
and Friends groups.
    If the Refuge System is forced to sustain further reductions, 
future RAPP reports will likely show continued decline in the System's 
conservation work and public use opportunities. Funding cuts are 
already impacting America's refuges. If annual operations and 
maintenance funding does not rise, CARE anticipates further impacts 
both within and outside of refuge boundaries, including:
  --A decrease in the use of prescribed fire, which is used on refuges 
        both to improve habitat for wildlife and to reduce hazardous 
        fuels that pose a wildfire risk to nearby communities;
  --A decline in the number and quality of visitor programs, with 
        visitor centers operating at reduced hours, and plans to add or 
        expand hunting programs at refuges being postponed;
  --Lost revenue for local communities as visitor numbers drop; 
        according to the U.S. Fish and Wildlife Service (FWS) fiscal 
        year 2013 budget justification, ``Each 1 percent increase or 
        decrease in visitation impacts $16.9 million in total economic 
        activity, 268 jobs, $5.4 million in job-related income, and 
        $608,000 in tax revenue.''
  --Elimination of ancillary functions like FWS's operation of 
        Henderson Field at Midway Atoll National Wildlife Refuge, which 
        serves as a critical emergency landing site for trans-pacific 
        flights, as well as the public's main window to the vast marine 
        national monuments.
    We urge Congress to fund the Refuge System at $508.2 m in fiscal 
year 2016--to bridge the growing gap between what the System needs and 
what it receives, enabling refuges to continue moving America forward. 
On behalf of our more than 16 million members and supporters, CARE 
thanks the subcommittee for the opportunity to submit comments on the 
fiscal year 2016 Interior Appropriations bill, and we look forward to 
meeting with you to discuss our request.
                                 ______
                                 
              Prepared Statement of the The Corps Network
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    My name is Mary Ellen Sprenkel and I am the President and CEO of 
The Corps Network; the national association of Service and Conservation 
Corps. The Corps Network has over 100 member organizations that operate 
in all 50 States and enroll over 23,000 young people between the ages 
of 16 and 25 each year. It is The Corps Network's mission to provide 
critical leadership to the Corps movement and to our Nation's Service 
and Conservation Corps as they harness the power of youth and young 
adults to tackle some of America's greatest challenges and transform 
their own lives.

    The Corps Network respectfully requests that in fiscal year 2016 
the subcommittee fund the following accounts:
  --$2,515,131,000 for ``Operation of the National Parks.''
  --$50,000,000 for the ``Centennial Challenge'' for the National Park 
        Service.
  --$107,200,000 for youth programming across the DOI Bureaus.
    --$37,500,000 for the National Park Service
    --$28,200,000 for the U.S. Geological Survey
    --$18,500,000 for the Fish and Wildlife Service
    --$12,600,000 for the Bureau of Indian Affairs
    --$6,000,000 for the Bureau of Land Management
    --$3,500,000 for the Bureau of Reclamation
    --$1,000,000 for the Office of Surface Mining Reclamation and 
            Enforcement
  --Increased funding for operational accounts of DOI Bureaus and USFS.

    These programs will allow public land and water management agencies 
to engage young adults and veterans in meeting our Nation's backlogged 
maintenance needs; address record youth unemployment levels; prepare a 
diverse group of youth to be the next generation of natural resource 
employees and stewards.
    Corps are comprehensive youth development programs that engage 
diverse young people in service projects that address important 
community and environmental needs. Through their service, Corpsmembers 
develop job and leadership skills. Corps also provide members with 
access to academic programming, counseling and additional support. 
Corps are a direct descendant of the Depression-era Civilian 
Conservation Corps, which mobilized about three million young men to 
dramatically improve the Nation's public lands in exchange for food, 
shelter, education, and a precious $30-a-month stipend.
                         the impact in numbers
    In 2015 alone, the Corpsmembers of the 100-plus member 
organizations of The Corps Network collectively:
  --Restored and improved 125,000 acres of ecological habitat
  --Maintained and improved 4,700 parks, gardens, and urban greenspaces
  --Built and maintained 8,700 miles of trails
  --Removed over 450,000 acres of invasive and exotic plant species
  --Planted 2.3 million trees
      corps enroll participants reflective of america's diversity
    At present, our member Corps enroll over 23,000 Corpsmembers a 
year, the majority of whom come from diverse and disadvantaged 
backgrounds and are looking for a second chance to succeed in life. 
Many Corpsmembers are ``opportunity youth,'' meaning that they have 
either dropped out of school or are unemployed at the time that they 
enter a Corps program.
    Corpsmembers receive a wide range of personal and professional 
development opportunities and services including, but not limited to: 
guidance from adult leaders who serve as mentors and role models; 
academic programming designed to lead to a high school diploma or GED; 
opportunities to pursue certificates and credentials with demonstrated 
value; and a modest stipend--all to prepare them for postsecondary 
education and labor market success.
    In 2012, 65 percent of all Corpsmembers were unemployed when they 
entered the Corps 31 percent were not in school and did not have a GED, 
61 percent came from families below the poverty line, and 20 percent 
were formerly incarcerated or court-involved. After completing their 
programs, 54 percent of alumni said that they were employed or enrolled 
in further service. 68 percent reported that they were in college or a 
high school diploma/GED program.
                              quality work
    Each year, Corps complete hundreds of high-quality and often 
technical projects on public lands and waters. Project sponsors 
consistently express a high degree of satisfaction with the quality of 
work and productivity of Corps. Virtually all Federal project partners 
(99.6 percent) say they would work with Corps again.

    Types of Corps projects include, but are not limited to:
  --Protecting wildlife and improving access to public lands and waters
  --Preparing communities for disasters and responding to disasters 
        when needed
  --Enhancing recreation on public lands
  --Protecting communities and public lands from the devastating 
        effects of wildfire
  --Preserving historic structures
  --Enhancing neighborhoods and community public spaces
                              cost savings
    By partnering with Conservation Corps, Federal land and water 
management agencies achieve more with their operating budgets. Research 
conducted by the National Park Service's Park Facility Management 
Division indicates that hiring Conservation Corps to complete 
maintenance and trail projects resulted in significant savings
    The analysis considered 15 diverse trail and maintenance projects 
throughout the country in places including Mesa Verde National Park, 
Glacier National Park, Point Reyes National Seashore, and Voyageurs 
National Park. The research found that using Conservation Corps to 
complete maintenance and trail projects provided a cost savings of over 
50 percent.
                 fiscal year 2016 request justification
    The Corps Network requests the committee's support for fiscal year 
2016 programs that will allow public land and water management agencies 
to engage young adults and veterans to meet our Nation's backlogged 
maintenance needs, address record youth unemployment, and prepare a 
diverse group of youth to become the next generation of natural 
resource employees.
    The first two accounts that we request funding for fall under 
National Park Service and the third account is under the Department of 
the Interior. National Park ``Operations'' is a preexisting account 
governing operation of our national parks. The ``Centennial Challenge'' 
is an effective program launched during the George W. Bush 
Administration that would leverage private funds with matching Federal 
dollars for park projects throughout the country to restore facilities 
and improve the visitor experience. These funds will allow thousands of 
veterans, youth, and others to work on upgrading the National Park 
System for its 100th anniversary in 2016.
    As the National Park Service prepares for its 100th Anniversary, 
Congress has an opportunity to invest in the popular and economically 
important National Park Service. An investment this year will help 
parks recover from years of underfunding and restore parks for the 
Centennial. Every dollar invested in the National Park Service 
generates $10 in economic activity. The operations investment would 
provide for park rangers to maintain facilities and provide services to 
park visitors. The Centennial Challenge investment would allow for the 
park service to leverage private matching funds through a 1:1 match for 
specific projects.
    The Department's funding for youth programming would also provide 
work and training opportunities for young people and veterans during 
2015 and 2016. The goal of these programs is to build the next 
generation of conservation and community leaders by supporting youth 
engagement and employment on public lands. A key component of the 
Department's efforts will be partnering with youth organizations 
through the 21st Century Conservation Corps. The Department proposes 
that these programs provide work and training opportunities to 100,000 
individuals ages 15 to 35 through 2017. We also support increased 
funding for the operational accounts at the U.S. Forest Service that 
could fund partnerships with Conservation Corps.
    In addition, we appreciate the subcommittee's support of the 
bipartisan Wildfire Disaster Funding Act (WDFA--H.R. 167; S. 235) and 
respectfully request the language be highlighted in the fiscal year 
2016 Interior, Environment, and Related Agencies appropriations bill. 
This language provides the structure to fund a portion of the USDA 
Forest Service (USFS) and Department of the Interior (DOI) wildfire 
suppression costs through a budget cap adjustment under the Balanced 
Budget and Emergency Deficit Control Act of 1985, as amended. This 
would provide the USFS and DOI with a funding structure similar to that 
used by other agencies who respond to natural disaster emergencies. We 
additionally request that the subcommittee appropriate the modeled 
levels of suppression through the Interior bill and the wildfire budget 
cap adjustment to meet fire suppression needs in fiscal year 2016. The 
current wildfire suppression funding model and cycle of transfers and 
repayments has negatively impacted the ability to implement forest 
management activities. The Wildfire Disaster Funding bill would provide 
the USFS and DOI flexibility to reinvest in core land and water 
management activities which have been reduced in recent years due to a 
continued shift of limited resources to fund wildfire suppression.
        engaging the next generation in service to public lands
    Beginning with the creation of the Civilian Conservation Corps 
during the Great Depression, and continuing to the recent launch of the 
21st Century Conservation Service Corps Initiative, organizations like 
Anchorage Park Foundation's Youth Employment in Parks program, Rocky 
Mountain Youth Corps in Taos, and Southeast Conservation in 
Chattanooga, have helped millions of young Americans gain job training, 
further their education, and contribute to America's communities 
through service and the conservation of national and State parks, 
forests, and other treasured places.
    The future of our Nation's public lands depends upon the next 
generation becoming active resource stewards. I hope that you will 
provide the funding to put thousands of youth and returning veterans to 
work restoring some of America's greatest historical, cultural, and 
natural treasures. With the approaching National Park Service 
centennial, billions in backlogged maintenance across all of the land 
management agencies, record youth unemployment, and the cost savings 
nature of public private partnerships, this funding is an absolute win-
win for our country.
                                 ______
                                 
          Prepared Statement of the Council of Lake Committees
    Dear Senator Murkowski and Senator Udall:

    I write on behalf of the Council of Lake Committees (CLC), 
comprised of senior-level fishery resource managers from State, tribal, 
and provincial agencies surrounding the Great Lakes. The CLC 
appreciates the subcommittees' ongoing support for programs that 
sustain and restore the Great Lakes. I am writing to request $17.5 
million in fiscal 2016 appropriations for the U.S. Geological Survey's 
Great Lakes Science Center (GLSC). The GLSC conducts critical science 
activities essential to Federal, State, tribal, and provincial 
management programs throughout all five Great Lakes and in all eight 
Great Lakes States.
    The Great Lakes are a vast natural resource, larger in area than 
the U.S. States of New York, New Jersey, Connecticut, Rhode Island, 
Massachusetts, Vermont, and New Hampshire combined. They are an 
international resource representing a massive economic engine. Nearly 
$35 billion/year and 75,000 jobs are generated in fishing, tourism and 
related industries. Several independent sources estimate $7.0 billion/
year is directly attributable to Great Lakes fisheries. The highest 
quality science possible is required to inform wise fisheries, 
ecosystem and water resources management decisions in the Great Lakes.
    Currently, the GLSC receives approximately $8.5 million in 
appropriated funding to support science programs critical to management 
of these incredibly valuable resources. This funding level represents 
approximately 1.2 percent of the annual fisheries related revenue and 
less than 0.03 percent of the revenue attributable to closely related 
industries. Our request for $17.5 million in fiscal 2016 appropriations 
represents an $8.75 million increase above the President's fiscal year 
2016 request, and reflects long-standing, well recognized needs for 
this chronically under-funded science program.
    The CLC has a long history of support for the GLSC program. We 
strongly support the GLSC because the science they produce is essential 
to the day-to-day and long-term management of Great Lakes fisheries and 
ecosystems. Great Lakes management jurisdictions depend on the GLSC 
Deepwater and Invasive species programs to provide key data about long-
term condition of fish communities, and for the development of tools 
and technologies needed to combat invasive species that threaten 
valuable sport and commercial fisheries. Despite our strong, ongoing 
support, we are frustrated that the funding deficiency for this program 
has only widened, and sequestration made a very tough budget situation 
considerably worse for GLSC programs. The GLSC's research capabilities, 
critical to Great Lakes management agencies, have been devastated by 
years of budget erosion, and worsened by a 6 percent cut from 
sequestration in 2013. None of the budget erosion or impacts of 
sequestration have been restored.
    Now, for the first time since the President was elected, his 2016 
budget highlights two areas where the USGS GLSC programs would 
experience relatively small budget increases. The President proposes: 
(1) a $250,000 increase for the Great Lakes Deepwater Assessments; and 
(2) a $2.0 million increase for Invasive Species (Bureau-wide). The 
language for the proposed add in the Fisheries Program for Great Lakes 
Fisheries Assessments (+$250,000) is found on Page C-52 of the fiscal 
year 2016 USGS Budget Justification. Also important is a proposed 
initiative on New and Emerging Invasive Species (+$2.0 million) in the 
Invasive Species Program found on Page C-26 of the fiscal year 2016 
USGS Budget Justification.
    The CLC believes that, in the current budget climate, it is 
important to carefully prioritize essential programs. The CLC believes 
strongly that the USGS GLSC plays a central role in supporting near and 
long-term initiatives of importance to the Federal Government, its 
State, tribal, and Canadian partners, and in maintaining the 
significant economic benefits derived from Great Lakes fisheries and 
associated industries. We request that you join the CLC and support at 
least $17.5 million in fiscal year 2016 for the USGS GLSC activities 
which represents an $8.75 million increase above the President's 
request.

    [This statement was submitted by Steven R. LaPan, New York State 
Department of Environmental Conservation, Chair.]
                                 ______
                                 
            Prepared Statement of the The Creative Coalition
    Chairwoman Murkowski, Ranking Member Udall and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
regarding the fiscal year 2016 funding level for the National Endowment 
for the Arts (NEA). I am writing on behalf of The Creative Coalition, 
the 501(c)3, non-profit, non-partisan public advocacy organization of 
the arts and entertainment community, to urge Congress to provide $155 
million for NEA in the fiscal year 2016 Interior, Environment, and 
Related Agencies Appropriations bill.
    In 1989, actors Ron Silver, Christopher Reeve, Susan Sarandon, Alec 
Baldwin and others established The Creative Coalition to galvanize 
support for the arts and arts education. The Creative Coalition's 
membership includes actors, directors, producers, writers, 
entertainment industry executives, and others who make their living in 
theater, film, arts, letters and television. We take our roles as 
citizens very seriously and appreciate the opportunity to express our 
views on the importance of sufficient funding for the arts.
    For the last 4 years, Congress has funded NEA at $146 million, 
which, in real dollars, is less than the $162 million provided for the 
Agency 20 years ago. Adjusted for inflation, NEA's funding is more than 
$100 million lower each year than it was two decades ago, providing 
less than 50 cents per capita currently versus 70 cents per capita in 
1992. While we recognize the fiscal year 2016 request of $155 million 
for NEA is a slight increase over President Obama's proposed level of 
funding of $148 million, $155 million is a level that has been 
supported in recent fiscal years by both the President and at the 
Committee level. The requested level of funding would better leverage 
growing State, local and private arts funding and help to restore 
critical Federal arts programming--which supports creativity and 
innovation, and provides measured cultural, educational and economic 
benefits.
    Federal funding of the arts is a wise investment and should be 
viewed as a genuine public-private partnership due to the significant 
private philanthropic support that Federal funds are leveraged against. 
Without Federal support, we would struggle to share the richness of our 
culture, our history and our legacy, which is a national treasure and 
should be buoyed with Federal resources so that all may enjoy it. The 
$155 million request for NEA is a small investment when compared to the 
enormous impact it will have on the programs it supports and in the 
communities where it makes the arts come to life.
    I speak from the heart and from my own experience. I grew up in a 
small, rural town in South Carolina. The arts were the lifeblood of the 
community both economically, culturally and spiritually. I grew up in a 
town where the prom was in the high school gym; folks bought their 
clothes in a general store; and the newspaper came out once a week. I 
also grew up in a town that invested in and revered the arts; world 
history came alive in high school plays and in community theatre 
productions; learning discipline, team work and strategic planning were 
the offshoot lessons of the school band; and mathematical skills were 
honed in design classes.
    Speak to anyone of note in the areas of politics, business, media, 
community leadership and the entertainment industry, and you will find 
individuals who were drawn into the arts as young people. They were 
acting in community theater productions and school plays, playing in 
bands, spending their afternoons and weekends at local dance companies. 
The non-profit arts ecosystem nurtured them into the thought and idea 
leaders we know today.
         i. the positive impact of arts on the american economy
    Entertainment is a national commodity with international reach and 
revenue. Our Nation's entertainment industry and non-profit arts 
pipeline are American success stories in productivity and innovation. 
To maintain the Nation's leadership, we must sustain strong support for 
the arts as an industry, and as an educational investment.
    According to statistics compiled by the Motion Picture Association 
of America, in 2013, the motion picture and television industry 
supported 1.9 million jobs and $113 billion in total wages. In 2013, we 
had $15.8 billion in film and television exports, with a trade surplus 
of $13.4 billion, equal to 6 percent of the total U.S. private-sector 
trade surplus in services. This trade surplus for the industry is 
greater than the surpluses in the advertising, mining, 
telecommunications, management consulting, legal, computer, health 
related and insurance services sectors.
    The economic impact of the entertainment industry extends far 
beyond those who appear in front of the camera. A single television 
series or a movie is a vast and profitable enterprise. A series can 
employ hundreds of people in high quality, high paying jobs. In 
addition, filming provides huge support to local businesses (i.e. 
caterers, dry cleaners, hotels, florists, hardware, lumberyards, 
software, and digital equipment suppliers) as well as jobs in other 
companies doing business with consumers, such as DVD and Blu-ray 
retailers, theme parks and tourist attractions. And, this economic 
activity takes place all across the country, not just in Hollywood or 
New York. Those who make their livings from the entertainment industry 
can just as likely be found shooting in New Mexico, North Carolina, or 
Michigan.
    Statistics show that non-profit arts and culture organizations 
generate $135 billion in annual economic activity, support more than 
four million full-time jobs and return nearly $10 billion in Federal 
taxes.\1\
---------------------------------------------------------------------------
    \1\ Americans for the Arts, AEP IV study.
---------------------------------------------------------------------------
    According to the U.S. Bureau of Economic Analysis, arts and 
cultural production contributed $699 billion, or 4.3 percent, to the 
Nation's economy in 2012. This percentage represents a larger share of 
the economy than transportation, tourism and agriculture, and is larger 
than 45 States' individual contributions to the GDP. While the economy 
grew at a rate of 2.3 percent per year from 2007-2012, the category 
identified as Independent Artists, Writers and Performers' contribution 
to the economy was almost double at 4.4 percent.
    With this rate of return, it should be clear that increasing 
Federal funding for non-profit arts organizations and events like those 
the National Endowment for the Arts supports, is a sound, positive 
investment. Community theaters, children's theaters, symphonies, arts 
centers, dance troupes, etc. are the R&D of America's vibrant arts 
economy. In 2014, the Sundance Film Festival, which started with the 
support of an NEA grant, generated over $86 million for the State of 
Utah over an 11 day period. The NEA historically supports significant 
artistic outlets such as the Vietnam Veterans Memorial design 
competition, Spoleto Festival USA and PBS' ``Great Performances.'' 
These are just a few examples which demonstrate how the arts empower 
our veterans and support our military, and establish the U.S. as an 
incubator for globally acclaimed performing artists. In the case of 
``Great Performances'', a television program originally initiated with 
Federal funding, it is now sustained by private funding and continues 
to expose the American television audience to the finest in performing 
arts to which they may otherwise lack access.
    The National Endowment for the Arts also provides desperately 
needed funding to smaller community arts efforts in cities and towns 
across America. NEA grants are intrinsic to communities building strong 
enterprise zones. Communities that are fortunate enough to receive a 
grant award from the NEA often see increased business activity as 
companies are able to offer employees and clients creative climates and 
more vibrant opportunities, which attracts and--most importantly--
retains talent. Arts is indisputably revitalizing both rural and urban 
areas.
              ii. fostering americans' access to the arts
    Every American, young and old, deserves to have access to the arts. 
It is the Federal investment in the National Endowment for the Arts 
that brings the arts into so many of our communities. According to its 
most recent annual report, the NEA awarded 2,276 grants in nearly 
16,000 communities across the country. More than 38 million Americans, 
including seven million children and youth, attended a live arts event 
supported by the NEA. These events included approximately 70,000 
concerts, readings, and performances and 1,600 exhibitions. As a 
recipient of a grant from the National Endowment for the Arts, 
organizations are able to leverage these dollars from a wide variety of 
private sources. For every grant dollar awarded, the recipient 
leverages at least $9 dollars from other sources greatly multiplying 
the impact of the Federal Government's investment.
    In addition to these live arts events, NEA grants support school-
based arts programs that illustrate how arts education and arts in 
schools benefits students and prepares them for future success. Data 
shows that students with 4 years of arts education score roughly 100 
points higher on their SATs. Despite the academic benefits of exposure 
to the arts, we are seeing a rising trend of eliminating arts programs 
when local school districts are forced to make cuts.
    Bottom line: Without the support of NEA grants for arts education, 
fewer students would have the opportunity to participate in the arts 
and develop the creative skills that often lead to future success.
    As a strong supporter of military families, The Creative Coalition 
is proud to be a partner with Blue Star Families to bring awareness to 
challenges facing our active-duty military families. Through our 
partnership with this outstanding organization, we have learned that 
military families often struggle to establish roots and make 
connections in their community as they move from base to base. As a 
result of a grant from the National Endowment for the Arts, our 
Nation's active-duty military personnel and their families, including 
National Guard and Reserve, are able to access more than 2,000 museums 
across America for free. Not only are these families able to access 
some of America's great cultural institutions, this program often 
allows them to better connect with their new communities by learning 
about local history, local artists and local traditions.
    Federal funding for the NEA is critical to sustain many of the 
programs providing access to the arts for so many Americans. When 
public dollars for the arts are cut, we often see reductions in private 
funding as well. During the most recent economic downturn, we saw 
significant cuts in funding from philanthropic, corporate and private 
sources of funding for the arts. Sadly, when we reduce funding for the 
arts, the programs hardest hit are often ones for lower-income 
populations, rural communities and at-risk populations. Sufficient 
funding for the National Endowment for the Arts is the best way to 
ensure that all Americans will continue to have access to the arts in 
their communities.
                               conclusion
    The evidence is strong that the arts play an important role in our 
economy, our schools and our overall quality of life. The contributions 
of painters, musicians, poets and actors have greatly enriched our 
American culture and American artists have been a driving force in the 
world's largest economy. If we are to maintain our vital arts economy 
and ensure continued American competitiveness in a global market that 
increasingly values creativity, today, we must adequately invest in the 
arts and in the development of future American artists. As a result, 
The Creative Coalition urges the subcommittee to increase the funding 
level for the National Endowment of the Arts to $155 million in fiscal 
year 2016.
    Thank you for your consideration.

    [This statement was submitted by Robin Bronk, CEO.]
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Ms. Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of Dance/
USA, its Board of Directors and its 500 members. We strongly urge the 
Subcommittee on Interior, Environment, and Related Agencies in the 
Committee on Appropriations to designate a total of $155 million to the 
National Endowment for the Arts (NEA) for fiscal year 2016. This 
testimony and the funding examples described below are intended to 
highlight the importance of Federal investment in the arts, so critical 
to sustaining a vibrant cultural community throughout the country.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The NEA has helped to 
strengthen regional dance, opera, theater and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographic limitations. The Endowment embodies the ideal that no one 
should be deprived of the opportunity to have art in their lives. The 
Arts Endowment has helped the arts become accessible to more Americans, 
which in turn has increased public participation in the arts.
    The NEA is a great investment in the economic growth of every 
community. Despite diminished resources, including a budget that has 
decreased by over $20 million since 2010, the NEA awarded more than 
2,100 grants in 2014, totaling more than $100 million in appropriated 
funds. These grants nurture the growth and artistic excellence of 
thousands of arts organizations and artists in every corner of the 
country. NEA grants also preserve and enhance our Nation's diverse 
cultural heritage. The modest public investment in the Nation's 
cultural life results in both new and classic works of art, reaching 
the residents of all 50 States and in every congressional district.
    The return of the Federal Government's small investment in the arts 
is striking. In 2013, the American creative sector was measured by the 
Federal Bureau of Economic Analysis (BEA). The BEA and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 4.3 percent (or $699 billion) of current-
dollar GDP in 2012. Additionally, the nonprofit performing arts 
industry generates $135.2 billion annually in economic activity, 
supports more than 4.13 million full-time equivalent jobs in the arts, 
and returns $9.59 billion in Federal taxes.
    On average each NEA grant leverages at least $9 from other State, 
local, and private sources. Few other Federal investments realize such 
economic benefits, not to mention the intangible benefits that only the 
arts make possible. Even in the face of cutbacks in the recent years, 
the NEA continues to be a beacon for arts organizations across the 
country.
    The return on investments is not only found in dollars. In 2012, 
2.2 million people volunteered 210 million hours with arts and cultural 
organizations, totaling an estimated value of $5.2 billion--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2015, the NEA awarded 88 grants to 
the dance field through the first round of Art Works, totaling 
$2,525,000.
Ballet Memphis
$10,000
Memphis, Tennessee
    To support the presentation of a new work titled, ``I Am.'' The 
work will include four original pieces titled ``I Am Woman,'' ``I Am 
Man,'' ``I Am Child,'' and ``I Am.'' ``I AM will explore themes of 
self-definition, equality, and human value that have roots in the Civil 
Rights Movement and are still relevant today. ``I AM Woman'' will be 
choreographed by Gabrielle Lamb; ``I Am Man'' will be choreographed by 
Reggie Wilson; ``I Am Child'' will be choreographed by Julia Adam; and 
``I Am'' will be choreographed by Ballet Memphis dancer Steven McMahon.
Dance St. Louis
$30,000
St. Louis, Missouri
    To support dance presentation and related activities. Companies to 
be presented include Tango Buenos Aires, Aspen Santa Fe Ballet, 
Compagnie Kafig, Nashville Ballet, as well as local companies. The 
project will include New Dance Horizons IV, a program where national 
choreographers create new works on St. Louis dance companies and the 
Spring Dance Festival, a presentation of Midwest dance companies. The 
project is also includes the Dance Education Residency Program, which 
will offer local dance students and companies master classed taught by 
professional dance company members as well as the expansion of the 
Dance Career Award program, which prepares high school dance students 
for college and careers in dance.
New Orleans Ballet Association
$40,000
New Orleans, Louisiana
    To support the presentation of dance companies and related 
educational and outreach programs. Presentations include Black Grace 
(New Zealand) and Union Tanguera (France). U.S. Companies include Limon 
Dance Company and Ballet West. Through dance activities that reflect 
the diversity of the community and the diversity of the art form, NOBA 
strives to infuse the arts of dance into the cultural fabric of New 
Orleans and the surrounding communities. Dance is presented on the 
concert stage and in community settings in large, intermediate, and 
small venues, with activities in theaters, art centers, university 
halls, recreation centers, and schools.
AXIS Dance Company
$20,000
Oakland, California
    To support Dance Access and Dance/Access Kids! educational and 
outreach programs in the Bay Area and on a national tour. These 
activities will offer a variety of events for youth and adults with and 
without disabilities who are based locally and nationally. Project 
activities may include dance classes, school assemblies, a dance camp 
for youth, teacher training, a dance apprentice program, workshops for 
emerging choreographers and professional dancers, community workshops, 
lecture demonstrations, and presentations.
White Bird
$40,000
Portland, OR
    To support the presentation of dance companies in the White Bird 
Uncaged series. New Israeli Voices in Dance: Hillel Kogan and Danielle 
Agami, Urban Bush Women, and other companies will be presented at 
Portland State University's Lincoln Performance Hall or at the Newark 
Theatre/Portland Center for the Performing Arts. Each visiting company 
will hold community activities that will include master classes for 
local students and dancers, mini-performances or workshops at a 
community center or school, and post-show discussions.
              the non-profit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And yet, America can boast some of the greatest dance companies 
of the world and can take credit for birthing two indigenous dance 
styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
almost 300 nonprofit dance companies from across the United States, 
Dance/USA estimates that dance companies:
  --Employed over 14,800 people in a mix of full-time and part-time 
        positions;
  --Paid approximately $345.7 million, or 53 percent of expenses, in 
        wages and benefits;
  --Earned $200 million, or 29 percent of their income, from 
        performances;
  --Received $326.6 million, or 48 percent of their income in 
        contributions (including public support, corporate 
        contributions, foundation support, and individual donations);
  --Generated more than $661.5 million in economic activity across the 
        United States.
    Dance/USA, the national service organization for the professional 
dance field, believes that dance is essential to a healthy society, 
demonstrating the infinite possibilities for human expression and 
potential, and facilitating communication within and across cultures. 
Dance/USA sustains and advances professional dance by addressing the 
needs, concerns, and interests of artists, administrators, and 
organizations. Dance/USA's membership currently consists of nearly 500 
aerial, ballet, modern, culturally specific, jazz, and tap companies, 
dance service and presenting organizations, individuals, and related 
organizations. Dance/USA's member companies range in size from 
operating budgets of under $100,000 to over $50 million.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by almost $22 million since 2010, leaving its 
programs seriously underfunded. We urge you to continue toward 
restoration and increase the NEA funding allocation to $155 million for 
fiscal year 2016.
    On behalf of Dance/USA, thank you for considering this request.

    [This statement was submitted by Amy Fitterer, Executive Director.]
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Mister Chairman, ranking member and members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than one million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    North America is fortunate to have some of the most abundant and 
diverse wildlife on Earth, more than 200,000 known species in the U.S. 
alone. This unique and irreplaceable heritage is treasured by all 
Americans both for its aesthetic value as well as for the very tangible 
benefits it brings as a resource. For example, a third of our food is 
pollinated by birds, bats, and insects; wildlife associated recreation 
generated $145 billion in economic benefits in 2011; \1\ bats provide 
at least $3.7 billion to the agricultural industry in pest control 
services each year; \2\ and the value of ecosystem services from 
habitat in the contiguous 48 States is estimated at $1.6 trillion 
annually.\3\ Budget cuts since fiscal year 2010 to Federal programs 
that conserve wildlife and habitat have severely undermined sound 
management. Continued cuts will likely lead to irreversible harm to 
vulnerable species and habitat. Our Nation's wildlife is a treasure and 
well worth the investment to properly care for it.
---------------------------------------------------------------------------
    \1\ The 2011 National Survey of Fishing, Hunting, and Wildlife 
Associated Recreation, USFWS, 12/12.
    \2\ http://www.sciencemag.org/content/332/6025/
41.summary?sid=853248fd-6760-4341-93d0-2aeeab9ea450.
    \3\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States, 
Southwick Associates, 9/29/11.
---------------------------------------------------------------------------
    Defenders also strongly opposed the inclusion of the sage-grouse 
rider in the final fiscal year 2015 appropriations bill. We ask that 
the subcommittee keep the fiscal year 2016 bill free of this rider and 
any others that would undermine science-based decisionmaking under the 
Endangered Species Act.
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency. FWS needs adequate funding, not cuts, if 
it is to recover threatened and endangered species and protect 
migratory birds and fish, species of global conservation concern and 
other trust species, and stop or prevent wildlife crimes. After 
adjusting for inflation, appropriations for Ecological Services have 
steadily declined after 2010, despite the addition of almost 280 listed 
species since then.
    Cooperative Recovery.--Defenders supports the President's requested 
increases of $2.5 million in Conservation and Restoration under 
Ecological Services, $2 million in National Wildlife Refuge System 
Operations and Maintenance, and $300,000 under Migratory Bird 
Management. This initiative is supporting more efficient and strategic 
efforts across landscapes to recover threatened and endangered species 
on National Wildlife Refuges and surrounding lands.
    Renewable Energy.--Defenders supports the President's requested 
increases of $1.2 million in Planning and Consultation under Ecological 
Services to support approvals of renewable energy projects while 
ensuring they comply with relevant environmental laws, and $1.4 million 
under Service Science to assess potential impacts of energy 
transmission corridors on sensitive lands and wildlife in the West and 
to identify mitigation strategies.
    Endangered Species.--The President's request again proposes a major 
restructuring of the Ecological Services Activity, which includes the 
Endangered Species program. Defenders continues to be concerned about 
whether the new structure will allow for adequate transparency and 
accountability, particularly in the large ``General Program 
Activities'' program elements. Before any such restructuring is 
permitted, the agency must show that it has adequate controls in place 
to ensure the strategic use of this funding and a transparent process 
for developing priorities and reporting how funds are allocated. Absent 
this information, Defenders supports maintaining the current budget 
structure and supports the requested increases for the endangered 
species portion of Ecological Services, $23.2 million, which includes:
  --A $4 million increase to support the unprecedented effort to 
        conserve the greater sage-grouse and its sagebrush habitat, 
        part of a new sagebrush steppe initiative for fiscal year 2016.
  --A $2.5 million increase for listing that will support progress in 
        listing decisions for approximately 145 candidate species, many 
        of which have awaited Endangered Species Act (ESA) protection 
        for years.
  --An $11 million increase to support the recovery of the more than 
        1,500 listed U.S. species so that ESA protection is no longer 
        necessary.
  --A $5.5 million increase for consultation so that development 
        projects can move forward in compliance with section 7 of the 
        ESA.
  --Defenders opposes a $1 million reduction for the Wolf Livestock 
        Loss Demonstration Program that assists livestock owners co-
        existing with wolves, and we urge its restoration.

    National Wildlife Refuge System (NWRS).--Our National Wildlife 
Refuge System is the largest land and water system in the world 
dedicated to wildlife conservation. Refuges provide enormous benefits 
to the American people, generating $2.4 billion each year for local 
economies. Defenders supports the $34 million increase in the request 
which includes funding for inventory and monitoring and for Challenge 
Cost Share projects to build resiliency in the face of climate change.
    We also support legislative language proposed by the administration 
that would provide authority to recover compensation from responsible 
parties who injure or destroy Refuge System or Hatchery System 
resources similar to that of the National Park Service and the National 
Oceanic and Atmospheric Administration and allows compensation to be 
applied directly to repair the injury without further appropriation by 
Congress.
    Science Support.--The requested $14.7 million increase will help to 
answer pressing questions about climate adaptation and other landscape 
level ecological changes as well as about energy development impacts 
and mitigation for sensitive species, White-Nose Syndrome that is 
devastating bat populations, and other agency management challenges.
    Migratory Bird Management.--U.S. bird populations have experienced 
precipitous declines in recent years. Defenders supports the $7.1 
million requested increase which includes funding for building 
resilience of bird species and their habitats through the Joint Venture 
partnerships.
    Environmental Contaminants.--Under Ecological Services, a requested 
$1.2 million increase in Planning and Consultation will help to support 
the process for national consultations related to pesticide 
registrations and a requested $2 million increase in Conservation and 
Restoration will help increase capacity to respond to impacts of 
contaminant releases.
    Office of Law Enforcement.--An $8.7 million increase requested by 
the President will support needed wildlife science forensics experts, 
intelligence agents, and special agents to combat the unprecedented 
level of illegal trade in wildlife.
    Other key grant programs.--Defenders supports the requested funding 
amounts for the Multinational Species Conservation Fund, the 
Neotropical Migratory Bird Fund, and the Cooperative Endangered Species 
Fund (CESF) and for State and Tribal Wildlife Grants. In addition, we 
are opposed to the request to fund non-land acquisition planning and 
conservation grants from the Land and Water Conservation Fund under the 
CESF.
              forest service and bureau of land management
    The Bureau of Land Management (BLM) and the U.S. Forest Service 
(FS) are essential to the conservation of wildlife and their habitat in 
the United States, yet their allocated funding is inadequate to address 
significant challenges to sustain these resources. A top priority for 
Defenders is ensuring that development on these lands proceeds in a 
sustainable way that maintains the ecological integrity of our public 
lands and waters, conserves wildlife habitat and populations, and 
contributes to agency efforts to successfully recover our most 
imperiled wildlife. We urge strong oversight to ensure that any energy 
development is done in an environmentally sensitive fashion and in low 
conflict areas. Given their large land ownerships it is imperative that 
both participate fully in landscape level conservation and management 
efforts. We are encouraged by BLM's innovative efforts in the Western 
Solar Program and consider it an example of how land management 
agencies can improve landscape level decisionmaking for energy 
development.
    FS Integrated Resource Restoration (IRR)/Wildlife and Fisheries 
Habitat Management.--The administration has again proposed merging a 
number of accounts, including Wildlife and Fisheries Habitat 
Management, into an integrated budget. Instead, Defenders supports 
maintaining funding for Wildlife and Fisheries Habitat Management at no 
less than the fiscal year 2015 level of $140.5 million and continuing 
IRR as a pilot until the agency demonstrates its ability to adequately 
protect habitat for fish and wildlife under the consolidated program. 
Defenders continues to be concerned that wildlife program activities 
may be marginalized under IRR and that hard timber targets may detract 
from integrated restoration.
    FS Land Management Planning/Inventory and Monitoring.--The request 
again proposes merging these two programs into a single line item. As 
with IRR, Defenders is concerned about consolidating these functions 
unless and until the agency can demonstrate its ability to carry out 
its responsibilities under each program independently. We urge 
continued discrete funding as separate programs at no less than the 
fiscal year 2015 level.
    FS Collaborative Forest Landscape Restoration Program.--We support 
the requested increase of $20 million for this proven cost-effective 
program established specifically to stabilize employment, offer a 
reliable wood supply, restore forest and watershed health, improve 
wildlife habitat, and reduce both the costs of fire suppression in 
overgrown forests and the risk of uncharacteristic wildfires.
    FS Forest and Rangeland Research (FS R&D).--We are opposed to the 
$4 million cut in the request for FS R&D, which includes a cut of $2 
million for Wildlife and Fish R&D. We urge funding at no less than the 
fiscal year 2015 level of $296 million which included $27.1 million for 
Wildlife and Fish R&D. Adequate funding for this program is crucial in 
providing relevant tools and information to support sustainable 
management of National Forest System lands as well as non-Federal 
forest lands. Generally, we are concerned that the Forest Service may 
lack adequate applied scientific capacity both in R&D and the National 
Forest System to implement critical planning and management actions, 
including the 2012 Planning Rule.
    BLM Wildlife and Fisheries Management.--Defenders supports the 
requested $37 million increase for the new sagebrush steppe initiative 
as long as it is paired with strong science-based conservation measures 
to protect and restore the sage-grouse and 350 sagebrush-dependent 
species of conservation concern. We continue to be concerned that 
Federal plans being developed under the National Greater Sage-Grouse 
Planning Strategy will be inadequate to conserve the species as we 
reported in our analysis of the draft plans in In the Red: How Proposed 
Conservation Plans Fail to Protect Greater Sage-Grouse. We urge the 
subcommittee to work with the agency to ensure that the plans are 
improved so that the final plans will be adequate to conserve and 
restore this iconic species.
    BLM Threatened and Endangered Species Management.--According to 
agency reports, the BLM has funding to implement only about 10 percent 
of the work it is required to do in recovery plans for ESA listed 
species on BLM lands, but the administration's request includes just a 
$109,000 increase fiscal year 2015. Defenders supports an increase of 
$1 million over the request which simply restores the budget to the 
fiscal year 2010 level and will better help move listed species to 
recovery.
    BLM Renewable Energy.--Full funding of the $29.4 million request 
will help BLM to move forward with renewable energy development on 
public lands while avoiding areas with natural resource conflicts, 
including conflicts with sensitive wildlife species.
    BLM Resource Management Planning, Assessment and Monitoring.--The 
$21.2 million increase in the President's request will support the 
sagebrush steppe initiative, data collection and monitoring and the 
development of a new geospatial initiative to better monitor ecological 
conditions and trends on the landscape.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science necessary for 
conservation of fish, wildlife and habitat. We urge support for the 
following increases:

    National Climate Change and Wildlife Science Center/Climate Science 
Centers.--A $10.6 million increase in the request will support 
scientific needs in planning for climate change adaptation and building 
resiliency of ecosystems.
    Ecosystems.--A $19.3 million increase in the request will help to 
support development of crucial scientific information for sound 
management of our Nation's biological resources including research into 
declines of native pollinators and measures needed to avoid harming 
sensitive wildlife, especially bats and birds, from renewable energy 
development.
                land and water conservation fund (lwcf)
    Defenders supports the proposal in the request for full and 
permanent funding of LWCF that will help to save some of the 6,000 
acres of open space, including wildlife habitat, that are lost each day 
in the U.S.\4\ Thank you for the opportunity to testify.
---------------------------------------------------------------------------
    \4\ http://www.fs.fed.us/openspace/coop_across_boudaries.html.
---------------------------------------------------------------------------
                                 ______
                                 
      Prepared Statement of the ``Ding'' Darling Wildlife Society
    In recent years the annual operations and maintenance budget for 
the National Wildlife Refuge System has significantly failed to keep 
track with its needs. At the J. N. ``Ding'' Darling National Wildlife 
Refuge on Sanibel Island, Florida, the result has been a decline in 
staff levels, unfilled job openings, delayed maintenance, postponed 
research, and deferred projects. The refuge simply cannot fulfill its 
commitment to our visitors and to the American public in general 
without a remedy to this situation. On behalf of the ``Ding'' Darling 
Wildlife Society, I earnestly request your support for the 
recommendations of the National Wildlife Refuge Association, which asks 
that the Federal budget for the National Wildlife Refuge System be 
fully funded at $900 million, with appropriation of $508.2 million for 
fiscal 2016.
    The ``Ding'' Darling Wildlife Society is a non-profit friends 
organization that supports environmental education, research, land 
acquisition, special projects and services at the refuge. The refuge is 
the second most popular attraction for visitors to Southwest Florida 
(after our beaches) with over eight hundred thousand annual visits. 
Many visitors identify the refuge as their primary reason for visiting 
this part of Florida. As a result, the refuge has a dramatic positive 
impact on the local economy returning some $34 to the local economy for 
every Federal dollar appropriated to the refuge, an impact directly 
threatened by inadequate Federal refuge funding.
    We also request your support for the remaining legislative 
priorities of the National Wildlife Refuge Association. We particularly 
emphasize the need to appropriate funding in fiscal year 2016 from the 
Land and Water Conservation Fund which will permit the acquisition of 
key land areas to enhance the ecological integrity of the National 
Wildlife Refuge System. Additionally, we view the funding of proactive 
public-private partnerships as a vital and cost-effective way to secure 
those species at risk from listing under the Endangered Species Act.
    Thank you for your consideration.

    [This statement was submitted by Doris Hardy, President.]
                                 ______
                                 
Prepared Statement of the ``Ding'' Darling Wildlife Society--Friends of 
                               the Refuge
    Madame Chair and members of the subcommittee:

    With 563 Refuges in our country encompassing more than half a 
billion acres of land and water our National Wildlife Refuges need 
increased financial support. This is imperative if we are to continue 
to protect and conserve our wildlife while at the same time providing 
opportunities for all Americans to enjoy the benefits of conservation 
and wildlife protection. It is now more important than ever that we all 
come together and become stewards of habitat protection and protectors 
of our wildlife.
    I am starting my 11th year as a volunteer at the J.N. ``Ding'' 
Darling National Wildlife Refuge on Sanibel Island, Florida. As such I 
have witnessed the recreational and educational activities for visitors 
and the conservation and wildlife protection that is provided for the 
variety of refuge inhabitants.
    Recently the ``Ding'' Darling Wildlife Society--Friends of the 
Refuge produced an informational rack card entitled: ``Banking on 
Nature''. Here are a few of the facts that were included:
  --Our ecotourism includes a variety of activities such as wildlife 
        observation and birding, biking, boating, fishing, paddling, 
        hiking, education, and others, many of which are free to the 
        public.
  --Florida ranks second behind California in the number of people 
        participating in wildlife viewing recreation.
  --816,000 annual visitors come to our Refuge.
  --$30. Is the amount generated in the local economy for every Federal 
        dollar invested in our Refuge.

    There can be no doubt that wildlife refuges have a tremendous 
impact on the economy as well as on the well being of both wildlife and 
our citizens. Therefore I respectfully request for fiscal year 16 
$508.2 million for the National Wildlife System, ask that $73.8 million 
for the Land and Water Conservation Fund be provided and that all 2015 
Conservation Funding Priorities as set forth by the National Wildlife 
Refuge Association be supported.
    We need your help to continue to provide the opportunity to educate 
and inspire visitors and to offer a safe home for refuge inhabitants 
whether it is for a season, a week or a lifetime.
    Thank you.

    [This statement was submitted by Doris D. Hardy, Ed.D, President.]
                                 ______
                                 
            Prepared Statement of David M. ``Lefty'' Durando
    As a rancher and a member of the Northern Everglades Alliance, I 
thank you for your past support of the Everglades Headwaters National 
Wildlife Refuge (EHNWR). The Everglades Headwaters National Wildlife 
Refuge and Conservation Area was established in 2012 as a result of 
unprecedented cooperation among Federal agencies, State agencies, 
cattle ranchers, sportsmen, and conservation groups. We respectfully 
request that you fully fund the Land and Water Conservation Fund and to 
specifically sustain funding for the refuge at the level of $10 million 
for fiscal year 2016. The monies from the LWCF fund are needed to 
purchase 100,000 acres of conservation easements over working ranch 
lands and to purchase 50,000 acres of fee simple lands within the 
headwaters of the Everglades.
    The Northern Everglades Alliance has 25 ranchers, farmers and 
landowners that own one million acres in the area. The NEA will 
continue to work with the administration and Congress to secure the 
necessary funding to maintain Florida's ranches and farms, water supply 
and wildlife. The request for $10 million for fiscal year 2016 is 
needed for the Everglades Headwaters in the U.S. Fish and Wildlife 
Service (FWS) land acquisition program because land values are rising 
fast and development pressure has returned to Florida. Individual 
landowners are working closely with the FWS to complete easements on 
ranches and farmers in the Everglades Headwaters.
    There are additional Federal and State funding sources that will be 
used for the Everglades Headwaters project. The State of Florida has 
provided funding for easements and land acquisition programs. The 
Florida Forever program, operated by the Florida Department of 
Environmental Protection, provides conservation easement monies for 
lands and the Rural and Family Lands program, operated by the Florida 
Department of Agriculture, provides easement funds for working 
agricultural lands. Both programs are partnering with FWS to protect 
high priority lands within the EHNWR. The State and Federal partnership 
is critical to the success. The Water and Land Legacy amendment (ballot 
initiative) was approved last November; this amendment will provide for 
dedicated revenue for land conservation annually for the next 20 years.
    The EHNWR leverages existing efforts by the Natural Resource 
Conservation Service and the Department of Defense. Over the past 4 
years, NRCS has provided over $300 million through the Wetlands Reserve 
Easement Program for Florida projects. The Department of Defense, 
through the Readiness and Environmental Protection Initiative buffer 
program, has spent $2 million to create buffers and easements 
surrounding the Avon Park Air Force Range. NRCS and DOD have signaled 
their interest in prioritizing additional funding for the Everglades 
Headwaters and are important partners.
    By protecting agricultural lands in the Kissimmee River basin and 
their ability to store and filter water, we are protecting the future 
of the State. Cattle ranching is one of Florida's most important 
agricultural industries and with drought conditions in the west, 
Florida ranchers are making a significant contribution to American beef 
production at a crucial time.
    Agriculture is second only to tourism as an economic driver in 
Florida. Through this plan, agricultural communities are able to 
preserve the way of life that makes these landscapes so special, while 
achieving conservation goals, watershed protection, military readiness 
and increasing opportunities for recreation, such as hunting and 
fishing, proven economic drivers to local communities. Existing Florida 
refuges return huge rates of economic output in relation to what is 
appropriated to run them; A.R.M Loxahatchee NWR returns $6.81 annually 
for every $1 appropriated; Hobe Sound NWR returns $9.88; Merritt Island 
NWR returns $17.61; Santee NWR returns $14.54; and St. Marks returns 
$10.62.
    The Everglades Headwaters National Wildlife Refuge and Conservation 
Area will help maintain open land north of Lake Okeechobee, which is 
the most efficient and cost effective method of enhancing water quality 
and increasing water storage to help satisfy Florida's water needs. It 
will also help preserve agriculture in this region, safeguarding a 
vital industry that employs thousands and helps secure our Nation's 
food supply. Sportsmen, birdwatchers, and wildlife tourism participants 
generate enormous economic return for every one-dollar invested. An 
investment in the Everglades NWR and Conservation Area makes good 
conservation sense, good national security sense for both military 
preparedness and food production and good economic sense.
    We appreciate your leadership and ongoing support for the 
Everglades Headwaters. We look forward to working with you and your 
staff in the coming year. Thank you for your consideration of this 
request.

    [This statement was submitted by David M. ``Lefty'' Durando, 
Durando Ranches, Member, Northern Everglades Alliance.]
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School 
                                 (DCGS)
    Thank you for the opportunity to submit testimony on behalf of the 
Dzilth-Na-O-Dith-Hle Community School (DCGS) on the Navajo Reservation 
in Bloomfield, New Mexico. Our school, which has been in continuous 
service since 1968, operates a K-8 educational program and a dormitory 
program for students in grades 1-12, serving around 250 students in 
both programs. DCGS is a tribally controlled grant school is located 
approximately 170 miles northwest of Albuquerque. DCGS is primarily 
funded through appropriations received from the BIE, and pass-through 
funding from the Department of Education.
    Our all-Navajo Board operates the DCGS through a Grant issued by 
the BIE under the Tribally Controlled Schools Act. The DCGS goal is to 
make a difference in the educational progress of our students and we 
believe that all of our students are capable of achieving academic 
success. However, we struggle with underfunding of practically every 
one of our educational and related programs that impacts our ability to 
fully meet our school goals and our ability to successfully operate our 
programs under the Indian Self-Determination policy.

    Our recommendations can be summarized as follows:

  --Protect school funding from the proposed Federal bureaucratic 
        expansion.
  --Increase ISEP funding to $431 million in fiscal year 2016.
  --Fund Student Transportation at $73 million, and BIA road 
        maintenance at $40 million.
  --Fully fund Tribal Grant Support Costs in line with the 
        administration's proposal.
  --Provide $109 million for facilities operation and $76 for 
        facilities maintenance.
  --Embark on a comprehensive 60-year plan for school replacement and 
        upkeep.
    1. protecting school funding and programs from federal expansion
    You have heard over the last year from us and other schools about 
our concerns with the BIE's ``Blueprint for Reform'' and its ``One-
Grant Initiative.'' We do not doubt the administration's commitment--
even the President himself has commented on the issue. This new level 
of visibility and attention, along with the strong commitment of this 
subcommittee signal we have entered a new era for Indian education. 
However, coming from the local reservation community, we have a 
different perspective on what will be the best strategies to use to 
reach the goals of improvement. We fear that our perspectives are not 
being heard.
    Without delving into the detail of the Blueprint for Reform and the 
Secretarial Order that accompanied it in June of last year, we want to 
express our concern that the efforts will serve to centralize authority 
and decisionmaking in BIE headquarters, instead of at the local level 
as Congress intended and required by enacting the Tribally Controlled 
Schools Act. Proposed reforms in the Blueprint and Order that would 
direct the limited amounts of new funding to the Federal bureaucracy 
rather than to the schools are missteps. Successful reform must be 
carried out from the ground up, not the top down--something BIE has 
ignored given the poor outreach when drafting the Blueprint and 
practically no opportunity for consultation on its proposals. 
Additionally, the expansion of funding ``incentives'' is less of an 
attempt to encourage best practices, and more of a stick with which to 
prod schools that resist bureaucrats seeking to dictate how their 
schools function.
    The Navajo Nation was the recipient of one of the ``Sovereignty in 
Indian Education'' grants from the BIE last year, funding from which 
was used to produce a ``feasibility study'' by the Nation's education 
department on whether it could consolidate all education funding due to 
the Nation into a single grant under the BIE's ``One-Grant 
Initiative.'' Through this process it has become clear that the BIE is 
pushing the Nation to sign on to the initiative before the Nation and 
its communities have had a chance to adequately evaluate the issue. The 
feasibility study suffered from the same defects as the Blueprint did: 
it was put together without local or school input, and was pushed 
forward without consultation with those it affects. Fortunately, the 
schools and Navajo Nation leaders have begun to more carefully examine 
the One-Grant process, and have engaged our schools in the process. 
Despite this, the BIE is still pressuring adoption before the Navajo 
Nation's internal process is completed.
    The one-grant prospect may work for a tribe with a few schools, but 
the Navajo Nation has 64 schools spread over an area bigger than many 
States. Partly because of this, our communities make local decisions 
for our schools. Yet the BIE wants to add another layer of bureaucracy 
between it and schools like ours, and have used its grant funding as a 
way to pressure tribes to agree. Not only is this contrary to the idea 
of self-determination, it is contrary to the tenets of local control 
under the Tribally Controlled Schools Act (TCSA).
    BIE officials have said that none of the proposed reforms in the 
Blueprint are mandatory, and that it is up to the tribe to choose to 
participate. The choice to participate might be meaningful if we were 
in a situation of full-funding and with abundant alternative funding 
sources. However, the programs in the Blueprint are tied to funding 
resources--no BIE funded school has the luxury of bypassing funding 
opportunities. Accordingly, we request that the subcommittee reprogram 
funds intended for the reforms (like some of those contained in the 
``Enhancement'' line item of the budget) to ISEP and Facilities 
Operations. Any funding for the BIE's reforms or experiments must come 
from outside the Indian education budget--our funds are scarce as is, 
and must not be diverted away from students.
      2. increase funding for indian school equalization programs
    The most critical stream of funding for community grant schools 
like ours is increased funding in the Indian School Equalization 
Program (ISEP). The ISEP funds are those that schools use for the day 
to day operation, whether that is paying teachers and staff, purchasing 
curriculum and supplies, or running student programs. Today, our ISEP 
funds are often put under pressure by unfunded needs elsewhere in our 
schools, which could be paying utilities or repairing one of our school 
buses. We also need increases in this funding to attract teachers to 
our school, since we are remote and some teachers find a small school 
environment challenging. We do not want to be in the situation where we 
are left only with those teachers that cannot find a job elsewhere. 
This hardship also makes the job of administrators, counselors, and 
support staff more challenging, meaning it is increasingly difficult to 
hire the all-star teachers our students deserve. Our wages and benefits 
must be sufficient to make up for the competitive disadvantage.
    This year, we are gratified to see the administration has requested 
$391.8 million for ISEP funding, an increase of $5 million to the 
program. However, the need in our schools is much greater. The National 
Congress of American Indians has recommended that Congress appropriate 
$431 million for ISEP funding, which we think should be this 
subcommittee's baseline for funding this budget year. ISEP is our 
schools' lifeblood, and we are still struggling to make up for losses 
in past years.
             3. increase funding for student transportation
    One of our school's largest challenges is getting our children to 
school and back home. Maintenance costs for our vehicles are higher 
than normal for several reasons, including the fact that they travel 
more miles per day than the average school bus, those miles are often 
very rough, and the cost of maintaining our buses includes long 
transport time to garages or parts stores. This is not to mention the 
cost of fuel to cover those extra miles! Our funds are stretched so 
much that we struggle to get our students to extracurricular activities 
like sports or field trips that students at non-Indian schools enjoy as 
an everyday convenience.
    The administration has requested $53.14 million for student 
transportation, but that is simply not enough given the challenges of 
our roads and equipment. We request at least $73 million for student 
transportation in the BIE system. Such funding will enable us to 
maintain our six school buses, and will protect other funds that would 
otherwise be used for this purpose.
    We request that this subcommittee fund BIA road maintenance at a 
sustainable level. The condition of our roads is directly affecting our 
students' ability to learn. The administration has only requested an 
increase of $232,000 to the already meager $26.5 million budget for 
road maintenance. We echo NCAI's recommendation that the subommittee 
appropriate at least $40 million for road maintenance in fiscal year 
2016.
   4. we support the president's proposal to fully fund tribal grant 
                             support costs.
    Tribal Grant Support Costs (TGSC) (formerly known as Administrative 
Cost Grants) are the BIE analogue to Contract Support Costs, and are 
necessary for schools like DCGS to operate our schools. Not only do the 
TGSC funds pay for the administration of the school, but also fund all 
indirect costs like payroll, accounting, insurance, background checks 
and other legal, reporting, and recordkeeping requirements. TGSC also 
enables schools to comply with the increasingly burdensome reporting 
requirements imposed by BIE or to comply with grant funding.
    This year, the administration has proposed to fully fund TGSC, and 
to include in the budget funding for schools transitioning from BIE-
operated status to local control and grant funding. Up to last year, 
schools had only received, at most, two-thirds of the TGSC needed to 
cover overhead costs. DCGS welcomes this long overdue change, and 
applauds this subcommittee's and the administration's decision to treat 
schools' support costs the same as contractors with the BIA and the 
Indian Health Service. We support the administration's proposal that 
TGSC and startup costs be funded at $75.34 million.
     5. our schools need full funding for facilities operation and 
                              maintenance.
    The condition of BIE-funded schools is a national disgrace, and has 
been the subject of national news attention for years. Some schools in 
the country are forced to teach their students in converted bus barns 
or go without hot water. We do the best we can with our facilities at 
Dzilth-Na-O-Dith-Hle, but constantly struggle with the fact that we do 
not have enough funding for maintenance of our buildings, utilities, 
and everyday repairs.
    The operation of our facilities is an important one, not only for 
the comfort of our students, but one that affects their health and 
safety. It is hard to learn and progress if you're too cold, or if 
you're too hot due to radiator problems. Additionally, our cafeteria 
can only serve sack lunches because of water line leaks that make our 
kitchen inoperable. In the last year it was reviewed, the BIA listed 
our school condition as ``poor'' with a deferred maintenance backlog of 
over $7.7 million dollars. Our backlog has only grown in the 
intervening 4 years, and our students are the ones who suffer as a 
result.
    We appreciate that the administration has finally moved to complete 
the replacement of schools on a list dated from 2004, but we need to 
stress that these needs are ongoing. Further, it is critical for our 
schools to have the funds to maintain and thus lengthen the useful life 
of our facilities. We support the BIE's request for school 
construction, but request that funding for facilities operation and 
maintenance be increased to $109 million for operations and $76 million 
for maintenance. This will help us meet our ongoing needs, and will set 
us on the path to catching up with deferred maintenance from past 
years.
    We also note that the completion of the 2004 school replacement 
list means that a new round of replacements will begin. We want to 
stress that this subcommittee and BIE must work together, with schools 
and tribes, to put together a comprehensive, long-term plan for school 
construction and maintenance. We call on the subcommittee to embark on 
a 60-year schools replacement plan with adequate funding to maintain 
buildings throughout their life. Recent testimony from the Governmental 
Accountability Office reported that even new construction is starting 
to fail because of inappropriate maintenance or poor construction 
oversight. Our schools want to protect the Federal investment in our 
students' education, and we ask the subcommittee to empower local 
communities to do so by removing bureaucratic hurdles inherent in the 
BIE facilities system. As school boards, we are the best decision 
makers.
    Thank you for the opportunity to submit testimony.

    [This statement was submitted by Ervin Chavez, School Board 
President and Faye BlueEyes, Assistant Executive Director.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    Chairman Murkowski and Ranking Member Udall:

    On behalf the Ecological Society of America, the world's largest 
society of professional ecologists, we urge you to support $1.6 billion 
for the U.S. Fish and Wildlife Service (FWS) in fiscal year 2016, a 9 
percent increase over fiscal year 2015.
    The Service's provides important work in habitat conservation and 
endangered species protection through its 551 National Wildlife 
Refuges, 70 National Fish Hatcheries, 65 fishery resource offices and 
86 ecological services field stations. A study from the FWS Division of 
Economics found that recreational visits to the agency's wildlife 
refuges generated $2.4 billion in sales to regional economies.
    The Service also plays a vital role in interagency efforts monitor 
and control the spread of invasive plant and animal species. The agency 
reports that invasive species cost the United States over $120 billion 
in damages every year. The Burmese python, Asian carp, Asian tiger 
mosquito, emerald ash borer, cheat grass, quagga mussel and the brown 
marmorated stink bug are among the most notorious of the 6,500 invasive 
species established in the United States.
    In addition to hindering efforts to protect threatened and 
endangered wildlife, these invasive species pose a costly threat to 
agriculture, recreational activities and human health. It is important 
that the Service's Wildlife and Habitat Management program has 
sufficient funding to provide national wildlife refuges the early 
detection and rapid response necessary to pinpoint nonnative species 
before have an opportunity to disrupt habitats and neighboring 
communities.
    The agency's Fish and Aquatic Conservation program is among key 
agency programs that work to prevent new aquatic invasions, which are 
uniquely difficult to detect, track and eradicate. Within this program, 
FWS is proposing an increase of $669,000 over fiscal year 2015 for 
Aquatic Invasive Species Prevention, which the Society supports.
    The Society is also supportive of the Service's efforts to connect 
Americans to the great outdoors as well as its youth and education 
programs that provide education and job training for careers and 
opportunities that promote greater understanding of the environment.
    We hope that Congress can continue to sufficiently invest in the 
agency's efforts to preserve and protect our Nation's diverse 
ecosystems while furthering our understanding and appreciation of the 
natural world.

    [This statement was submitted by Dr. David W. Inouye, President.]
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for the record to the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies. We 
appreciate this opportunity to share our views on two major fiscal year 
2016 activities that are underway at the Environmental Protection 
Agency (EPA): the Waters of the U.S. proposed rule published April 24, 
2014, and the proposed guidelines to regulate greenhouse gas emissions 
under Section 111(d) of the Clean Air Act. We also would like to 
briefly review the recently finalized Section 316(b) cooling water 
intake structures rule and coal ash regulation, both of which pose 
implementation issues for States and our industry and warrant continued 
attention by the subcommittee.
                      waters of the united states
    Last April, EPA and the U.S. Army Corps of Engineers (the Corps) 
released a proposed rule to revise the definition of ``Waters of the 
United States'' (WOTUS) under the Clean Water Act (CWA). The proposed 
WOTUS rule would broadly expand Federal control over both land and 
water resources, triggering substantial new regulatory requirements for 
electric utility facilities and projects. Critical utility operations--
including generation, transmission, and distribution--as well as the 
siting and construction of renewable energy resources would be 
adversely impacted if the rule were to be finalized as proposed.
    The proposed WOTUS rule fails to achieve EPA's stated goals of 
providing greater certainty, predictability, and clarity, and it would 
violate recent Supreme Court decisions limiting Federal jurisdiction. 
Despite claims to the contrary, the rule--if adopted substantially as 
proposed--would significantly expand CWA jurisdiction and, therefore, 
require more CWA permits, resulting in greater costs, more delays, and 
greater uncertainty around all facets of power generation and supply.
    In November, EEI submitted comments urging that the proposed rule 
be withdrawn. Additionally, we recommended that EPA and the Corps 
should engage in a dialogue with the regulated community and the States 
and localities that are responsible for managing water quality 
nationwide to develop more precise changes to the existing regulations.
    Overall, more than 1 million comments were submitted to EPA and the 
Corps on the WOTUS proposal. More than 30 States weighed in, as did 
numerous congressional and local officials, opposing the rule because 
it would intrusively extend Federal jurisdiction to many land and water 
features never previously regulated under the CWA. Still, EPA and the 
Corps are moving aggressively to finalize a rule by this summer. 
Therefore, as a vital step toward a more reasonable outcome, EEI urges 
the subcommittee to adopt a legislative amendment in its fiscal year 
2016 legislation that would ban EPA from implementing a final WOTUS 
rule and instead, direct EPA and the Corps to issue a revised proposed 
rule for further input by States and the regulated community.
proposed guidelines to regulate greenhouse gas emissions under section 
                      111(d) of the clean air act
    Last June, EPA issued its proposed 111(d) guidelines, which contain 
State-specific emission reduction goals for carbon. For each State, an 
interim and final emission reduction goal is proposed. The final goal 
must be reached by 2030. The Agency determined the goals by using four 
sets of measures--or ``building blocks''--to help all States achieve 
their goals.
    EPA is expected to finalize the 111(d) guidelines this summer, and 
States then will be required to submit compliance plans for Agency 
approval that demonstrate how they will achieve these goals. EPA is 
expected to complete approvals of State implementation plans by mid-
2018.
    The proposed 111(d) guidelines would require dramatic changes in 
how electricity is produced, transmitted and consumed. As such, EEI 
worked closely with our members to thoroughly review EPA's guidelines 
and to assess the impacts of the proposal on the electric power sector. 
On December 1, we delivered more than 300 pages of comments to EPA; 3 
million comments were submitted in total. EEI's comments provide EPA 
with suggestions for improvements based on many of the concerns that 
our companies have with the proposed guidelines.
    Of greatest concern is the fact that EPA has not taken into account 
the amount of infrastructure development, time and planning that the 
transition to a cleaner generating fleet will require. In fact, by 
setting stringent interim goals, EPA effectively has turned the 
proposed rule's 2030 goal into a 2020 goal. Eighty percent of the 
States would have to achieve 50 percent or more of their final 2030 
goals by 2020. Eleven of those States would be required to achieve 75 
percent or more of their 2030 goals by 2020.
    Achieving the goals envisioned in EPA's proposed 111(d) guidelines 
will require major changes to the electric system. New natural gas 
pipelines and electric transmission lines will be needed. Given the 
stringency of the interim goals, there is simply not enough time 
between now and 2020 for utilities and States to develop, plan, design, 
and complete the infrastructure needed to meet them as proposed, 
particularly since State implementation plans will not be finalized and 
approved until 2017-2018.
    A number of stakeholders--including State public utility 
commissions, State environmental agencies and reliability 
organizations--also have raised serious concerns with the 2020 interim 
goals. In fact, the North American Electric Reliability Corporation has 
cautioned, ``The proposed timeline does not provide enough time to 
develop sufficient resources to ensure continued reliable operation of 
the electric grid by 2020.''
    The 2020 interim goals must be substantially revised, if not 
eliminated entirely. This will give States flexibility to determine the 
most cost-effective actions and measures they need to take to achieve 
the 2030 goals. It also will allow States to establish a reasonable 
schedule for implementing such measures in a way that protects electric 
sources.
    Also of concern, the guidelines do not recognize the value of 
nuclear and hydro power generation as zero-emissions resources. Nuclear 
and hydropower are critical baseload generating sources that do not 
emit carbon, and EPA should incentivize the continued development of 
nuclear and hydropower sources.
    The Nation cannot achieve its carbon-reduction goals without the 
building of new nuclear plants and the continued operation of the 
existing nuclear fleet. The States and operators that are making the 
investments necessary to bring these zero-emissions resources online 
should be allowed to count their clean output, once operational, toward 
compliance. The final rules must also find a better way to incent 
keeping existing nuclear units online. Doing so will send a positive 
signal to States to build new nuclear plants and maintain existing 
plants.
    Similarly, the proposed 111(d) guidelines do not recognize the 
value of new and imported hydropower, particularly hydropower imported 
from Canada, in helping to provide affordable zero-emissions power in 
certain regions of the country. EPA should allow States to include 
generation from new hydro plants, increased generation at existing 
hydro plants, and hydro facilities that are relicensed in complying 
with the goals.
    EPA also failed to consider the electric system as a whole when 
setting standards and compliance goals. In fact, the four building 
blocks that EPA has proposed for achieving compliance create serious 
concerns and raise questions about whether the State emission rate 
goals are achievable. For example, increasing the use of variable wind 
and solar power reduces the efficiency of generation units that back up 
these systems when weather conditions change.
    EPA's four sets of measures do not take into account the 
interconnected nature of the integrated power system. Electric 
utilities and States engage in complex planning to maintain the 
reliability of this interconnected power system. Actions and measures 
to achieve gains under one building block may result in unintended 
consequences under the other building blocks when implemented 
simultaneously.
    EPA should modify the 2030 State-specific emission rate goals in 
the final guidelines to recognize that the building blocks affect each 
other in the context of the interconnected power system and to ensure 
that accurate data are used to determine a particular State's goal.
    EPA's proposed 111(d) guidelines must be improved before they are 
finalized. The Agency must provide States the compliance flexibility to 
choose the most cost-effective reductions in order to ensure the 
overall reliability of the electric system and to minimize costs for 
electricity customers.
          section 316(b) cooling water intake structures rule
    Last May, EPA finalized its cooling water intake structures rule 
under Section 316(b) of the Clean Water Act. This rule was in 
development for years, and EEI worked throughout the rulemaking process 
to educate policymakers of the potential impacts of this regulation on 
electric generation facilities and our customers, and on the need for a 
flexible and cost-effective final rule.
    Importantly, EPA's final 316(b) rule does not impose a categorical 
one-size-fits-all cooling tower mandate. The Agency acknowledged the 
importance of weighing costs with environmental protection and also 
included a significant degree of compliance flexibility in the final 
rule.
    Still, the final rule will present significant operational and 
compliance challenges, and EEI is focused now on helping our members 
with implementation, including individual permits. Just before the 
final rule was issued, important new requirements related to endangered 
and threatened species listed under the Endangered Species Act were 
included. These requirements are likely to significantly complicate 
implementation of the rule, giving the U.S. Fish and Wildlife Service a 
new and influential role in Clean Water Act permitting. Consequently, 
implementation of the rule remains an area that may warrant the 
subcommittee's attention, especially when considered together with 
current or pending air, water, and waste rules EPA may promulgate.
                          coal ash regulation
    In December, EPA finalized another long-awaited rule on coal ash 
regulation. The Agency's final rule made the proper determination that 
coal ash should be regulated as a non-hazardous waste in a way that 
will protect human health and the environment. EEI has long advocated 
for a final rule that establishes a non-hazardous regulatory framework 
with a workable timetable for implementation.
    Despite the non-hazardous waste determination, we still have 
concerns with the self-implementing nature of the final rule, the legal 
authority of EPA to regulate inactive coal ash impoundments, and the 
way in which EPA has left the door open to one day regulate coal ash as 
a hazardous waste, creating additional uncertainty for electric 
utilities.
    While we are working closely with States, member companies and 
other stakeholders during the rule's implementation phase, EEI also 
continues to advocate for legislation that will establish State-
enforced Federal requirements for the disposal of coal ash. Legislation 
offers a more effective way to address the safe management of coal ash 
sites that are no longer receiving coal ash, and would help to preserve 
jobs in industries that recycle coal ash, while safeguarding the 
environment and protecting the reliability and affordability of 
electricity for all consumers.
                               conclusion
    Thank you, Mr. Chairman, for this opportunity to discuss these 
environmental activities which are, without a doubt, the most 
significant EPA actions ever to impact our industry. EEI truly values 
the partnership that we share with your subcommittee, and we look 
forward to continuing our dialogue with you on these and other issues 
that have the potential to impact electric generation, siting, 
permitting and construction efforts.
                                 ______
                                 
Prepared Statement of the Testimony of Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for 
entomology-related activities at the U.S. Department of Agriculture 
Forest Service and the U.S. Environmental Protection Agency (EPA). ESA 
requests a fiscal year 2016 appropriation of $6.489 billion for the 
Forest Service and requests that the Forest and Rangeland Research 
budget is maintained at a level at least equal to the fiscal year 2015 
enacted amount of $296 million to preserve valuable invasive species 
research and development. The Society also supports continued 
investment in Forest Health Management programs across the Forest 
Service in fiscal year 2016. In addition, ESA recommends an fiscal year 
2016 funding level of $8.6 billion for EPA, including support for 
Pesticides Licensing Program Area activities within its Science & 
Technology and Environmental Program & Management budgets, and 
continued support for State & Tribal Assistance Grants for Pesticide 
Program Implementation. Finally, ESA strongly supports EPA's commitment 
to work with other Federal agencies to develop a strategy to improve 
pollinator health, including involvement by EPA to examine the 
potential impact of pesticides on pollinator health.
    Advances in forestry and environmental sciences, including the 
field of entomology, help to protect our ecosystems and communities 
from threats impacting our Nation's economy, public health, and 
agricultural productivity and safety. Through improved understanding of 
invasive insect pests and the development of biological approaches to 
pest management, entomology plays a critical role in reducing and 
preventing the spread of infestation and diseases harmful to national 
forests and grasslands. The study of entomology also contributes to the 
development of Integrated Pest Management (IPM) techniques, which use 
science-based, environmentally friendly, comprehensive methods to take 
preventative action against pests, often resulting in lower costs and a 
more targeted use of pesticides. In addition, entomology improves our 
knowledge of pollinator biology and the factors affecting pollinator 
health and populations, helping to ensure safe, reliable crop 
production that meets the needs of a growing world population.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of 193 million acres of public lands in national forests 
and grasslands across 44 States and territories. Serving as the largest 
supporter of forestry research in the world, the agency employs 
approximately 35,000 scientists, administrators, and land managers. In 
addition to activities at the Federal level, the Forest Service 
provides technical expertise and financial assistance to State and 
private forestry agency partners.
    The Forest Service's Forest and Rangeland Research budget supports 
the development and delivery of scientific data and innovative 
technological tools to improve the health, use, and management of the 
Nation's forests and rangelands. Within Forest and Rangeland Research, 
the Invasive Species Strategic Program Area provides scientifically 
based approaches to reduce and prevent the introduction, spread, and 
impact of non-native invasive species, including destructive insects, 
plants, and diseases that can have serious economic and environmental 
consequences for our Nation. For example, Forest Service scientists are 
working to prevent the devastation of ash trees across North America by 
the emerald ash borer, an invasive beetle that was accidentally 
introduced from Asia. Emerald ash borer was first detected in 2002 and, 
since then, has killed countless millions of ash trees. This biological 
invasion threatens to eliminate all ash trees from North America, and 
is the most costly invasion from a forest insect to date. To attempt to 
address the problem, researchers have developed a series of artificial 
traps for these pests. These traps will help the Forest Service detect 
the early presence of emerald ash borer and be able to implement a 
rapid response to lessen damage.\1\ Emerald ash borer is just one of 
the exponentially growing list of invasive insects and diseases that 
cause harm to our Nation's forests and to our Nation's economy. Forest 
health is also affected by invasive weeds, and those weeds are often 
best controlled by beneficial insects used as biological control 
agents, resulting in permanent and often spectacular control. ESA 
strongly opposes the proposed cuts to Forest and Rangeland Research 
included in the President's fiscal year 2016 budget request, especially 
the 8.0 percent reduction directed at invasive species research and 
development.
---------------------------------------------------------------------------
    \1\ Forest Service fiscal year 2016 Budget Justification: http://
www.fs.fed.us/sites/default/files/media/2015/06/2015-fy2016-
budgetjustification-update-three.pdf.
---------------------------------------------------------------------------
    Also under the purview of the Forest Service is the Forest Health 
Management program, which conducts mapping and surveys on public and 
private lands to monitor and assess risks from potentially harmful 
insects, diseases, and invasive plants. The program also provides 
assistance to State and local partners to help prevent and control 
outbreaks that endanger forest health. According to a 2011 study, 
invasive forest insects cost local governments alone an average of over 
$2 billion per year; direct costs to homeowners from property loss, 
tree removal, and treatment averages $1.5 billion per year.\2\ The 
program's ``Slow the Spread'' activities, for example, have led to a 60 
percent reduction in the rate of the spread of an invasive species 
known as gypsy moth, resulting in an estimated benefit-to-cost ratio of 
3:1. Without the program, it is estimated that 50 million additional 
acres would have been infested by the moth.\3\
---------------------------------------------------------------------------
    \2\ Aukema, J.E.; Leung, B.; Kovacs, K.; [et al.]. 2011. Economic 
impacts of non-native forest insects in the continental United States. 
PLoS ONE 6(9): e24587.
    \3\ Forest Service fiscal year 2016 Budget Overview: http://
www.fs.fed.us/sites/default/files/media/2015/06/2015-fy2016-
budgetjustification-update-three.pdf.
---------------------------------------------------------------------------
    To support these important functions, ESA requests that the 
subcommittee oppose proposed cuts to the Forest Health Management 
Program in fiscal year 2016.
    EPA carries out its mission of protecting human health and the 
environment by developing and enforcing regulations, awarding grants 
for research and other projects, conducting studies on environmental 
issues, facilitating partnerships, and providing information through 
public outreach. Through these efforts, EPA strives to ensure that our 
Nation enjoys clean water, clean air, a safe food supply, and 
communities free from pollution and harmful chemicals.
    EPA's Pesticides Licensing Program Area, supported by EPA's Science 
& Technology and Environmental Program & Management budgets, serves to 
evaluate and regulate new pesticides to ensure safe and proper usage by 
consumers. Through the mandate of the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA), EPA utilizes scientific expertise and 
data, including knowledge gained from entomological sciences, to set 
maximum tolerated residue levels and to register pesticide products as 
effective and safe. By controlling insects that act as vectors of 
diseases of humans and domesticated animals, and invasive insect 
species that endanger our environment, pesticides registered by EPA 
help protect public health and the Nation's food supply. EPA's 
activities in this area also include the development of educational 
information and outreach to encourage the use of IPM and other reduced-
risk methods of controlling pests. For example, EPA continues to 
support work to protect children from pesticide exposure used in and 
around schools, helping to promote cost-effective strategies that 
reduce student exposure to pesticides and pests. Due to previous work 
in this area, 18 Indiana schools have reduced pest control costs by 90 
percent by employing new IPM techniques.\4\ IPM strategies used in 
schools reduce student exposure to pesticides as well as allergens from 
pests themselves. Therefore, ESA supports continuing the modest funding 
that EPA has invested in school IPM.
---------------------------------------------------------------------------
    \4\ March 12, 2014 EPA press release: http://yosemite.epa.gov/opa/
admpress.nsf/596e17d7cac720848525781f0043629e/
ebef2aed5d69e01585257c99006af60d!OpenDocument.
---------------------------------------------------------------------------
    Among EPA's State & Tribal Assistance Grants, categorical grants in 
the area of Pesticides Program Implementation help to facilitate the 
translation of national pesticide regulatory information into real-
world approaches that work for local communities. For example, these 
grants fund efforts to reduce health and environmental risks associated 
with pesticide use by promoting, facilitating, and evaluating IPM 
techniques and other potentially safer alternatives to conventional 
pest control methods. ESA requests that the subcommittee support the 
proposed modest increase for Pesticides Program Implementation grants.
    ESA is in favor of increased funding for scientifically based 
studies of pollinator populations and health. Pollinators play a vital 
role in our Nation's agriculture industry; for example, bees pollinate 
more than 90 crops in the United States and are essential for the 
production of an estimated 70 percent of all the food we eat or export. 
To ensure a healthy bee population, more research is needed to fully 
understand the complexities of Colony Collapse Disorder (CCD) and to 
examine the diverse factors that endanger bee health. Pesticides 
represent just one potential risk to bees, but both the risks and 
benefits must be balanced, and those risks and benefits will vary among 
different crops and different crop-producing regions of the United 
States. EPA is well-positioned to help identify methods for protecting 
bee health; the agency has previously awarded agricultural grants to 
three universities to aid in the development of IPM practices that 
lower pesticide risks to bees while protecting valuable crops from 
pests. For this reason, ESA supports EPA's participation in multi-
agency efforts to investigate pollinator health and develop 
implementation plans to prevent pollinator population decline.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for Forest Service and EPA programs. For more 
information about the Entomological Society of America, please see 
http://www.entsoc.org/.

    [This statement was submitted by Phil Mulder, Ph.D., President.]
                                 ______
                                 
Prepared Statement of the Florida Sportsman's Conservation Association, 
 Sportsman's Trust Group, and Everglades Headwater's National Wildlife 
                                 Refuge
    My name is Bishop Wright Jr.; I am the Secretary of the Florida 
Sportsman's Conservation Association and Chairman of the Sportsman's 
Trust Group. These groups respectfully request that Congress to fund 
the Land and Water Conservation Fund at $900 million per year. We 
specifically request that the United States Fish and Wildlife Service 
be provided with 10 million to fund conservation easements and fee-
simple acquisitions within the Everglades Headwaters National Wildlife 
Refuge. The monies from the LWCF fund are needed to purchase 100,000 
acres of conservation easements over working ranch lands and to 
purchase 50,000 acres of fee simple lands within the headwaters of the 
Everglades.
    The Everglades Headwaters National Wildlife Refuge and Conservation 
Area is very important to all Floridians and wildlife in the State. It 
will also conserve one of the last remaining grassland and longleaf 
pine savanna landscapes in eastern North America. It will provide 
cattle ranchers a way to preserve their lands and their way of life for 
future generations. And importantly, it will provide access to hunters, 
fishermen, hikers, and bird watchers and a beautiful outdoors for 
anyone wanting to use and enjoy this refuge for whatever appropriate 
type of recreation they choose. It will also provide a landscape to 
hold and clean water before it travels south down to Lake Okeechobee.
    Today the South Florida Water Management Board spends millions and 
millions of dollars building storm water treatment areas to clean water 
before it is dispersed to the Everglades. Why not use this Everglades 
Headwaters project to do the same in a natural way and still help the 
ranchers, hunters, and recreationalists and provide opportunity for 
generations to enjoy what we have to share now?
    The sportsmen of Florida have not always been supportive of this 
project because of the way the Federal Government (USFWS, NPS) has 
treated sportsmen in the past. USFWS has had very limited hunting on 
refuges in Florida. When this project was shown at 4 scoping meetings 
throughout the State, sportsmen showed up to voice their opinions. With 
the room filled at all 4 meetings by about 95 percent of sportsmen, at 
the time not one wanted to give one more acre of land to the Federal 
Government. That was 5 years ago.
    The Sportsmen Trust Group has worked hard with USFWS to have our 
issues addressed and we feel like our voice is being heard.. We 
understand that no individual USFWS employee can fulfill these 
promises, but they are working hard to do consider hunting and fishing 
opportunities when management plans are up for review. The Sportsmen's 
Trust Group and the Northern Everglades Alliance (ranchers) are now 
partners in the campaign and fight to make this Everglades Headwaters 
project a success.
    The Sportsmen's Trust Group and others are still working to resolve 
issues with the National Park Service, specifically in the Big Cypress 
Preserve. An additional 147,000 acres were added to the Preserve in 
1988 known as the ``Addition Lands''. The Addition Lands legislation 
called for these lands to be opened to the public for ``traditional 
cultural activities'' within 3 years of the 1988 acquisition. 
Unfortunately, 23 years later, the National Park Service produced a 
``Final Alternative'' which would turn 80 percent of the Addition Lands 
into Wilderness and/or Back Country Primitive, both of which would not 
allow future off-road vehicle trails, something sportsmen felt they 
were promised.
    During the creation of the Preserve in 1974, it was clearly stated 
by Senator Lawton Chiles and others that no part of the Preserve was 
intended then or now to be Wilderness or Back Country Primitive areas. 
The Park Service allowed the Addition Lands to sit idle for 20+ years 
allowing the area to somewhat grow over. When the facts are exposed 
regarding the activities over the past 60+ years in the Addition Lands 
it will become clear that none of the Addition Lands qualify for 
Wilderness consideration. We have people prepared to verify ongoing 
activities in the Addition Lands over the past 60+ years including 
farming, ranching, timber removal, oil exploration, air strips, tram 
roads, private homes, private hunting cabins, existing off-road vehicle 
trails etc. etc. etc. to say nothing of the area being divided by I-75, 
a four lane interstate divided highway.
    In closing I would like to say, you can see why, at the start of 
the Everglades Headwaters Project the sportsmen of Florida had a lot of 
trouble buying into this. We did not trust the Federal Government and 
met the initiative to create a new national wildlife refuge with 
skepticism. However, with hard work and good communication between The 
Sportsmen Trust Group, USFWS, FWC, NEA and the National Wildlife Refuge 
Association, our hesitance and anger turned to commitment and trust. We 
are all committed to this project; now all we need is your commitment 
to fund the LWCF and this project can come true and help Florida be 
saved for generations to come.
                                 ______
                                 
  Prepared Statement of the Fond Du Lac Band of Lake Superior Chippewa
    I would like to thank this subcommittee for the opportunity to 
submit testimony on fiscal year 2016 Appropriations for Indian programs 
funded through the Interior Department, Indian Health Service and 
Environmental Protection Agency. I am Karen R. Diver, Chairwoman of the 
Fond du Lac Band of Lake Superior Chippewa. The Band occupies a small 
reservation in northeastern Minnesota. We have approximately 4,200 
members, and provide health, education, social services, public safety 
and other governmental services to more than 6,700 Indian people who 
live on or near our Reservation. We strive to find solutions that will 
break the cycle of poverty that has long-plagued our community. We have 
looked for and implemented innovative measures, including partnerships 
with the public and private sectors, to improve the lives of our 
members. But while we are beginning to make some inroads on the 
problems, considerable work remains to address the extensive unmet 
need. Adequate Federal funding continues to be essential to our ability 
to educate our children, care for our elderly and infirm, prevent 
crime, and protect and manage natural resources.
    Bureau of Indian Education.--We rely on BIE funding to operate the 
Fond du Lac Ojibwe School. This school serves approximately 340 
students in pre-K through grade 12. Most of our students come from very 
low income households; more than 90 percent of our students qualify for 
free or reduced rate lunches. We are making progress in improving the 
educational attainment of our students. But our progress is slow and 
very much handicapped by limited resources. There continues to be an 
urgent need for the Federal Government to help improve educational 
opportunities for America Indian students. In Minnesota alone, we 
continue to see a significant disparity between American Indians and 
the population statewide on education --one that directly correlates 
with poverty levels. Data compiled for Minnesota in 2013 illustrates 
this:

----------------------------------------------------------------------------------------------------------------
                                                                 High School      High School
                                                Living below        Grads            Grads         High School
                                                Poverty  \1\    Proficient in    Proficient in   Grads Enrolling
                                                 (percent)       Reading  \2\      Math  \2\     in College  \2\
                                                                  (percent)        (percent)        (percent)
----------------------------------------------------------------------------------------------------------------
Statewide...................................            11.50               67               55               69
MN Indian...................................            39.70               56               40               49
----------------------------------------------------------------------------------------------------------------
From: \1\ Minnesota Compass, http://www.mncompass.org/disparities/.
     \2\ Minnesota SLEDS, Statewide Longitudinal Education Data Systems, http://sleds.mn.gov.

    Despite the well-documented and longstanding need, funding for 
Indian schools has been stagnant for many years. We support the 
President's proposed budget which would increase overall education 
funding by $93.9 million over the fiscal year 2015 enacted level, 
including increases in funding for: Johnson O'Malley, which allows us 
to assist Indian children in public schools, as well as Early Childhood 
Development funds (FACE), which is critical to providing preschoolers 
with skills to be school-ready. As to other elements of the budget for 
education funding, we urge the following:
  --ISEP.--Increase ISEP to $565.5 million as requested in the 
        President's budget. ISEP is the primary source of school 
        funding, covering salaries for teachers, teacher aides, and 
        administrative personnel. ISEP is critical to our ability to 
        recruit and retain qualified teachers and to cover shortfalls 
        in other budget areas, such as transportation, facilities and 
        maintenance.
  --Tribal Grant Support Costs (TGSC).--The President's proposed budget 
        seeks $75 million for TGSC. While we very much support this 
        increase (+$12.9 million) from fiscal year 2015 levels, we urge 
        Congress to appropriate more, $76.2 million for TGSC, as these 
        funds are critical to our ability to cover the costs of 
        accounting, insurance, background checks, legal and record-
        keeping requirements. Inadequate funding for TGSC forces us to 
        use ISEP to meet these needs.
  --School Facility Operations and School Facility Maintenance.--
        Increase School Facility Operations to $66,098,000 (as 
        requested in the President's budget), and School Facility 
        Maintenance to $79,137,000 (above that requested in the 
        President's budget). Such funds keep our building in safe 
        condition, pay for preventative and unscheduled maintenance, 
        and cover insurance and increasing utility costs.
  --Student Transportation.--Increase Student Transportation to 
        $56,212,000. While the President's budget includes a modest 
        increase in Student Transportation funding, more is needed if 
        we are to cover the costs to maintain, repair, and replace 
        buses. Otherwise we are compelled to pay those costs from 
        education program funds which are already over-obligated.
  --School Construction and Repair.--We fully support the President's 
        request for $133 million for School Construction and Repair. 
        Such an increase is long overdue and essential if any progress 
        is to be made on the deterioration of these facilities. Not 
        addressing these critical infrastructure needs will only 
        jeopardize student and staff safety.
  --Tribal Education Departments (TEDs).--We support the President's 
        request for funding for the development and operation of Tribal 
        Departments of Education in order to strengthen the management 
        and oversight of the education programs serving Indian 
        children. But we urge Congress, in appropriating these funds, 
        not to limit their use to only those tribes having more than 
        one school on the tribe's reservation (as proposed in the 
        budget). Many tribes, like Fond du Lac, operate a single school 
        on-reservation but would greatly benefit from TEDs.

    BIA: Public Safety and Justice.--We support the President's 
proposal to increase BIA funding for law enforcement. Although we are a 
small community in rural Minnesota, we are combating major crimes. 
Methamphetamine, alcohol, illegal prescription drug use, and gang-
related activity create huge demands on our law enforcement. In 
addition, we are now facing a significant increase in heroin use. For 
example, in a recent drug bust, our officers seized heroin that had a 
street value of over $60,000. Many of our elders and others are the 
victims of assaults and robberies that are drug-related. Our officers 
must respond to a large number of drug overdoses and deaths, as well as 
juvenile offenses involving drugs, alcohol, thefts, assaults and 
burglaries. They also respond to a wide range of other matters, 
including domestic disputes, disturbances, disorderly conduct, property 
damage, theft, medical emergencies, fire, neglected children, runaways, 
suicide threats, as well as numerous traffic-related matters. In 2014 
alone, our Law Enforcement Department responded to more than 6,000 
incidents and requests for assistance. This is a substantial increase 
from past years, where incidents and requests for assistance from our 
Department were: 5,342 in 2013; 5,100 in 2012; and 4,900 in 2011.
    We rely on a combination of tribal and available Federal funds and 
cooperative agreements with local law enforcement agencies to meet law 
enforcement needs. To ensure effective law enforcement coverage 24/7, 
we need to have sufficient law enforcement staff, as well as sufficient 
equipment for that staff. We are very fortunate that as a result of a 
COPS grant, we are now able to employ 20 sworn officers--the number we 
need to effectively patrol the Reservation. But our officers still need 
equipment to do this work. We do not yet have a sufficient number of 
patrol cars. We also need to replace our outdated analog radios with 
new digital radio equipment--both in-squad radios and portable radios 
that officers carry. The equipment is very expensive but necessary to 
meet FCC requirements. And we regularly need to acquire and replace 
other basic law enforcement equipment, like binoculars, video cameras 
and other surveillance tools. Federal funding is essential to meet 
those needs.
    BIA Construction.--We urge Congress to increase funding for BIA 
Construction. Fond du Lac needs a new facility for our law enforcement 
department. The Department is still housed in a 6-room building, which 
it shares with the Band's housing program. We have no room for 
investigative interviews. The evidence room and reception area are 
inadequate for law enforcement purposes. A new building with a garage, 
large evidence room, records storage room, and a training room for 
officers, is essential.
    BIA: Trust-Natural Resources Management.--We support the 
President's budget proposal, to fund BIA Natural Resources Management 
at $232.79 million in fiscal year 2016, including funding for Tribal 
Climate Resilience. I was privileged to serve on the President's State, 
Local, and Tribal Leaders Task Force on Climate Preparedness and 
Resilience, and, based on the extensive work done by that Task Force, 
understand the serious threat that climate change poses, especially in 
Indian country, where the basic subsistence needs of Indian people 
often depend on natural resources. This is certainly true at Fond du 
Lac. Our treaties with the United States reserved our right to access 
natural resources within and outside our Reservation. Many of our 
members hunt, fish and gather wild rice and other natural resources to 
put food on the table. The stewardship of those natural resources--
through scientific study and resource management, and enforcement of 
Band conservation laws that regulate tribal members who hunt, fish and 
gather those resources--are an important source of employment for many 
of our members. And those natural resources serve as the foundation for 
our culture.
    U.S. Fish and Wildlife Service.--The U.S. Fish and Wildlife Service 
is a valued partner of the Fond du Lac Band in wildlife and fisheries 
research and restoration programs. We request that the overall budget 
of the Fish and Wildlife Service be increased, with a particular 
increase to the Native American Liaison program. We support the 
President's requested increase to the Tribal Wildlife Grant Program, 
but urge that this program be funded at 5 times its current level, 
since current funding levels allow few grants to be awarded.
    Environmental Protection Agency (EPA).--The drastic funding cuts to 
EPA in past years threaten long-term damage to the Nation. We support, 
at a minimum, the $8.6 billion in funding recommended in the 
President's budget, as well the President's recommended increase in 
State and Tribal Assistance Grants, but urge that more be appropriated 
for these important programs.
  --Great Lakes Restoration Initiative.--The Band fully supports this 
        initiative, and asks that it be funded at $500 million, two 
        times what is requested in the President's budget. This 
        initiative has broad-reaching benefits to resources of 
        importance for all stakeholders (State, tribal and private) in 
        the Great Lakes region.
  --Water Quality.--The Fond du Lac Band has a federally approved water 
        quality standards program which has seen annual funding 
        declines while the Band's responsibilities have increased. 
        Given the current threats to water resources in our region from 
        the expansion of iron and copper mining, we urge that tribal 
        section 106 funding be doubled.
  --Air.--In conjunction with our water quality monitoring 
        responsibilities, the Band has a long-standing air monitoring 
        program that has also faced a steady decline in Federal 
        funding. We request that air quality program funding for tribes 
        be increased.
  --Wetlands.--One half of our reservation is made up of wetlands. 
        Proper management and restoration of this valuable resource is 
        impossible without adequate Federal funding.
    Indian Health Service.--We fully support the President's proposed 
increase in funding for IHS and appreciate the commitment that the 
administration and Congress have made to address the funding needs for 
healthcare in Indian country. The President's proposed increase is 
essential to address the high rates of medical inflation and the 
substantial unmet need for healthcare among Indian people. Indians at 
Fond du Lac, like Indians throughout the Nation, continue to face 
disproportionately higher rates of diabetes and its associated 
complications, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency and mental health problems are also 
prevalent among our people. All Indian tribes should receive 100 
percent of the Level of Need Formula, which is absolutely critical for 
tribes to address the serious and persistent health issues that 
confront our communities. The Band serves over 7,000 Indian people at 
our clinics, but the current funding level meets only 42 percent of our 
healthcare funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. We are especially disappointed with the Pharma-
driven position SAMHSA has followed for the past several years 
regarding Methadone Assisted Therapy (MAT). Many poorly administered 
MAT programs are pouring unprecedented amounts of cheap, liquid 
Methadone into Indian communities with very destructive results. In 
2012, nearly 40 percent of the babies delivered by Fond du Lac Nurse-
midwives were born to Methadone dependent mothers. Although those 
numbers improved in 2013, nearly 35 percent of all pregnant women seen 
by Fond du Lac primary care providers use illicit drugs, mainly 
opiates. Research shows that methadone users are cognitively impaired, 
and more recent research has shown that children born to methadone 
users are more likely to have low birth weight, neural tube defects, 
spina bifida, congenital heart defects and gastroschisis . Meanwhile, 
thousands of American Indians are falling victim to the chemical 
slavery now sponsored by SAMHSA. Additional funding for the 
Methamphetamine, Suicide Prevention Initiative should be made available 
to tribes and the IHS so that this ``new sickness'' can be addressed. 
Best practices in pharmacy inventory and prescription monitoring need 
to be modeled and replicated throughout Indian Country. The need is 
compounded by the fact that more government agencies expect local units 
of government, including tribes, to address these problems and the 
increasing number of individuals who become homeless as a result of 
them, through the operation of supportive housing. But Fond du Lac's 
ability to establish new program initiatives, like supportive housing, 
depends on assistance from the Federal Government. We urge Congress to 
support programs that would fund supportive housing for tribes in every 
area of the country. Miigwech. Thank you.
                                 ______
                                 
   Prepared Statement of the Friends of Bon Secour National Wildlife 
                                 Refuge
    Mr. Chairman and members of the subcommittee:

    Thank you for this opportunity to submit comments on the proposed 
fiscal year 2016 Interior Appropriations bill. The Friends of Bon 
Secour National Wildlife Refuge (FBSNWR) support the funding of the 
U.S. Fish and Wildlife Service, the agency that administers the 
National Wildlife Refuge System. We concur with the priorities 
documented by the National Wildlife Refuge Association (NWRA) that are 
listed as follows:

    1.  Request $508.2 million for the National Wildlife Refuge 
System's operations and maintenance account for fiscal year 2016.
    2.  Reauthorize and fully fund the Land and Water Conservation Fund 
(LWCF) at $900 million per year and provide $173.9 million in fiscal 
year 2016 LWCF funding for conservation easements and refuge in-
holdings.
    3.  Appropriate $60 million for the National Wildlife Refuge Fund 
in fiscal year 2016, which offsets losses in local government tax 
revenue because lands owned by the Refuge System are exempt from 
taxation.
    4.  Pass a clean appropriation bill that is free from policy riders 
such as removing the Service's authority to establish new refuges 
administratively even though 90 percent of all refuges were created 
this way.

    The Bon Secour NWR provides vital habitat for neotropical migratory 
birds and nesting habitat for endangered sea turtles. In addition, the 
refuge is a component of a thriving nature-based tourism along coastal 
Alabama. The coastal economy is dependent upon sound stewardship of 
natural resources of the Gulf of Mexico, so we believe the development 
and sustainment of a strong Bon Secour NWR and National Wildlife Refuge 
System is critical to creating a resilient economy in southern Alabama 
and the Gulf Coast.
    We will briefly elaborate how the NWRA priorities support our 
efforts to maintain viable refuges that play key roles in sustaining 
coastal wildlife resources and our economy.

1. Request $508.2 million for the National Wildlife Refuge System's 
        operations and maintenance account for fiscal year 2016.
    Inadequate operational funding for our coastal refuges could result 
in lost opportunities to leverage funds generated by criminal and civil 
penalties associated with the 2010 oil spill to improve refuge 
infrastructure. Our refuges already depend on volunteers just to keep 
the doors open to our visitors, and the maintenance backlog for 
equipment and facilities continues to grow.
    Bon Secour NWR needs a functional visitor and education center. The 
Act that established the refuge in 1980 directed that the refuge 
``serve as a living laboratory for scientists and students''. Bon 
Secour is a natural wonder that contains all aspects of the marine 
environment, so the refuge could demonstrate the importance of the 
marine environment to coastal culture and economy as well as the very 
survival of the planet.
2. Reauthorize and fully fund the Land and Water Conservation Fund 
        (LWCF) at $900 million per year and provide $173.9 million in 
        fiscal year 2016 LWCF funding for conservation easements and 
        refuge in-holdings.
    Again, Gulf Coast wildlife refuges may lose opportunities to 
leverage oil spill funds into acquisition of in-holdings and sensitive 
habitats if LWCF funds are not available. Coastal properties are 
expensive, so it will be difficult to rely solely on spill funds to 
acquire land. However, combining LWCF funds with other sources would 
likely enhance our chances to acquire key properties.
3. Appropriate $60 million for the National Wildlife Refuge Fund in 
        fiscal year 2016, which offsets losses in local government tax 
        revenue because lands owned by the Refuge System are exempt 
        from taxation.
    Lands within the Refuge System are removed from local tax rolls 
because the U.S. Government, like any other local or State government, 
is exempt from taxation. The Refuge Revenue Sharing Act allows a 
National Wildlife Refuge to offset these tax losses by annually paying 
the local unit of government an amount that could equal or exceed that 
which would have been collected from taxes if the lands were in private 
ownership. These revenues are derived from activities including timber 
sales and grazing leases that occur on refuges when these uses are 
compatible with refuge purposes.
    According to the NWRA, declining revenues and appropriations have 
resulted in the refuge system unable to pay even 50 percent of its tax-
offset obligations. Our local governments need the funds to operate 
fundamental infrastructure that include roads and schools, and our 
refuges need to be viewed by our neighbors as contributors to their 
communities.
    We strongly concur with the NWRA that a policy adjustment is 
ultimately needed to link the Refuge Fund to Payment in Lieu of Taxes 
consistent with other land management agencies.
4. Pass a clean appropriation bill that is free from policy riders such 
        as removing the Service's authority to establish new refuges 
        administratively.
    The Bon Secour NWR is one of three refuges within the Gulf Coast 
National Wildlife Refuge Complex that also includes the Mississippi 
Sandhill Crane NWR (Jackson County, Mississippi) and the Grand Bay NWR 
(Jackson County, Mississippi and Mobile County, Alabama). The Grand Bay 
NWR was established in 1992 under the authority of the Emergency 
Wetlands Resources Act of 1986, so this refuge would likely not exist 
if legislation interfered with the agency's ability to utilize legal 
existing authorities. Moreover, we believe the U.S. Fish and Wildlife 
Service has developed a good record of careful consultation with local 
and State governments when exercising these authorities.
    I will conclude with a reminder that our National Wildlife Refuges 
are a vital component for the stewardship of coastal natural resources 
and represent decades of public investment. They directly support the 
environment and economy through the science-based management of the 
lands and waters for the benefit of wildlife, and they connect citizens 
to these resources through opportunities to enjoy the fish and 
wildlife.
    We need to support these refuges so that they can be engaged 
partners in the coastal natural resource stewardship and resilience. 
Our culture and economy depend on these natural resources, and the Gulf 
Coast is a major component of the national economy.
    Thank you for your consideration. Please do not hesitate to call 
upon the Friends of Bon Secour National Wildlife Refuge if we can be of 
any assistance.
                                 ______
                                 
 Prepared Statement of the Friends of Hagerman National Wildlife Refuge
    Madam Chair and members of the subcommittee:

    On behalf of the Friends of Hagerman NWR, thank you for your 
support for the National Wildlife Refuge System (NWRS), particularly 
for the funding increase for fiscal year 2015. We appreciate the 
opportunity to offer comments on the fiscal year 2016 Interior 
Appropriations bill.
    Our Friends organization supports Hagerman National Wildlife Refuge 
in Sherman, Texas. The Refuge, located on the southern tip of Lake 
Texoma, provides wildlife dependent recreation to residents of both 
southern Oklahoma and north Texas, including those from the Dallas/Fort 
Worth Metroplex. Visitors are constantly amazed and awed by the 
opportunity to see and learn about wildlife at the Refuge in its 
natural habitat, so close-by to urban and suburban development. In 
conjunction with Refuge staff the Friends provide educational 
experiences for both children and adults and the opportunity to connect 
with the great outdoors. Such experiences are essential to 
understanding and appreciation for our world and our place in it. The 
Refuge System cannot fulfill its obligation to the American public, our 
wildlife, and visitors without increases in maintenance and operation 
funds.
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish. We look forward to working with 
Congress in 2015 to accomplish this goal.

    [This statement was submitted by Sue Malnory, President.]
                                 ______
                                 
 Prepared Statement of the Friends of Rachel Carson National Wildlife 
                                 Refuge
    Mr. Chairman and honorable members of the subcommittee: I am Bill 
Durkin, President of the Friends of Rachel Carson National Wildlife 
Refuge in Biddeford, Maine.
    First off, Happy Earth Day, we have come a long way since 1970, the 
first Earth Day. I have been a member of the Friends of Rachel Carson 
National Wildlife Refuge (NWR) for the past 26 years. The group was 
founded in 1987; we are a small group of about 200 members. This time 
of the year all of the letters go out to Congress asking for support of 
the refuge. I have given numerous written statements over the years and 
we really appreciate your support in the past. This year, our refuge is 
not requesting any appropriations directly for Rachel Carson National 
Wildlife Refuge; this is a request for general funding of the National 
Wildlife Refuge System of $508.2 million. This year we ask to 
appropriate $60 million in the National Wildlife Refuge Fund. I also 
urge the subcommittee to fund the Land, Water and Conservation Fund at 
full funding at $900 million with a $178.8 million of that request for 
the National Wildlife Refuge Systems purchase of easements and in 
holdings. I thank you all for your consideration.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best-seller ``The Sea 
Around Us''. This landmark study, in combination with her other 
writings, ``The Edge of the Sea'' and ``Silent Spring'', led Rachel 
Carson to become an advocate on behalf of this Nation's vast coastal 
habitat and the wildlife that depends on it. With the recent 50th 
anniversary of the publication of ``Silent Spring'', her legacy lives 
on today at the refuge that bears her name and is dedicated to the 
permanent protection of the salt marshes and estuaries of the southern 
Maine coast. The refuge was established in 1966 to preserve migratory 
bird habitat and waterfowl migration along southern Maine's coastal 
estuaries. It consists of 11 refuge divisions in 12 municipalities 
protecting approximately 5,600 acres within a 14,800 acre acquisition 
zone.
    Consisting of meandering tidal creeks, coastal upland, sandy dunes, 
salt ponds, marsh, and productive wetlands, the Rachel Carson NWR 
provides critical nesting and feeding habitat for the threatened piping 
plover and a variety of migratory waterfowl, and serves as a nursery 
for many shellfish and finfish. The salt marsh habitat found at Rachel 
Carson NWR is relatively rare in Maine, which is better known for its 
dramatic, rocky coastline. Upland portions of the landscape in and 
around the refuge host a unique, unusually dense concentration of 
vernal pools that provide habitat for several rare plant and animal 
species. Located along the Atlantic flyway, the refuge serves as an 
important stopover point for migratory birds, highlighted by shorebird 
migration in the spring and summer, waterfowl concentrations in the 
winter and early spring, and raptor migrations in the early fall. In 
fact, southern Maine contains a greater diversity of terrestrial 
vertebrates, threatened and endangered species, and woody plants than 
any other part of the State.
    Previous years' appropriations have allowed the United States Fish 
and Wildlife Service (USFWS) to conserve several properties within the 
refuge at Biddeford Pool, Parson's Beach, the newly created York River 
Division and most recently at Timber Point. All of these purchases 
provide an important buffer between the intense development pressure 
along the southern Maine coast and its fragile coastal estuaries. With 
towns in the area growing rapidly--at rates ranging between 11 percent 
and 32 percent over the next 10 years--development pressures continue 
to spiral upwards and additional coastal properties are under threat. 
It is said that Rachel Carson NWR has the most neighbors/abutters than 
any other refuge in the system, thus demand for available land is high 
and the market value expensive.
    In fiscal year 2010, Rachel Carson NWR was appropriated $3 million 
from the LWCF toward the acquisition of a majestic 157 acres of coastal 
land: Timber Point. Located in the Little River Division of the refuge 
on the Biddeford/Kennebunkport town line, Timber Point is comprised of 
a large peninsula and a small island that is effectively connected to 
the peninsula at low tide. All told, the property includes over 2.25 
miles of undeveloped coastline, an enormous amount for southern Maine. 
The Timber Point parcel enhances the refuge's ability to protect water 
quality in the estuary and important wildlife habitat by linking it to 
already conserved refuge lands in the Little River Division of the 
refuge. This is a Success story. Your subcommittee supported this 
project in 2009 and we acquired the land in December, 2011. The total 
purchase price was $5.2 million. We privately fundraised $2.2 million 
with the help of collaborative working partners. A classic story of 
using Federal funds and local private donations toward the purchase of 
an iconic parcel of land. Since then, we have built a National 
Recreational Trail (NRT) for public use and recently completed an 
Environmental Assessment for future use of the property. Protecting 
Timber Point was a priority for the refuge for decades, and we thank 
you. The process does work and I support all Refuges requests for 
fiscal year 2016. You can make it happen.
    1. We are requesting an overall funding level of $508.2 million in 
fiscal year 2016 for the Operations and Maintenance Budget of the 
National Wildlife Refuge System, managed by the U.S. Fish and Wildlife 
Service. All of the refuges are in dire need of staffing and upkeep. 
The National Wildlife Refuge System is responsible for 568 million 
acres of lands and waters, but currently receives less than a $1 per 
acre for management costs. The refuges cannot fulfill its obligation to 
the American public, our wildlife and 47 million annual visitors 
without adequate funding. In the Northeast, Region 5, needs an 
additional $1.5 million for fiscal year 2016 to keep even in their 
operating budget. Refuges provide unparalleled opportunities to hunt, 
fish, watch wildlife and educate children about the environment. An 
investment in the Nation's Refuge System is an excellent investment in 
the American economy, generating $2.4 billion and creating about 35,000 
jobs in local economies. Without increased funding for refuges, 
wildlife conservation and public recreation opportunities will be 
jeopardized. We fully supported the U.S. Fish and Wildlife's request of 
$508.2 million for Operation and Management for the National Wildlife 
Refuge System.
    2. Appropriate $60 million in the National Wildlife Refuge Fund in 
fiscal year 2016 which offsets losses in local government tax revenue 
because lands owned by the Refuge System are exempt from taxation.
    3. We are requesting $173.8 million in LWCF funding for Refuge land 
acquisitions/conservation easements and we call for full funding of 
LWCF at $900 million. The Land and Water Conservation Fund is our 
Nation's premier Federal program to acquire and protect lands at 
national parks, forests, refuges, and public lands and at State parks, 
trails, and recreational facilities. These sites across the country 
provide the public with substantial social and economic benefits 
including promoting healthier lifestyles through active recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. The quality of place is greatly enhanced. As you know, 
LWCF uses no tax payer dollars. Instead, LWCF funds are primarily 
derived from oil and gas receipts paid to the Federal Government by oil 
companies that extract publicly owned resources from the Outer 
Continental Shelf. Congress created LWCF as a bi-partisan promise to 
return precious resources back to the American public by using these 
funds specifically for conservation and recreational purposes. 
Unfortunately over the 50 year history of LWCF, over $18 billion has 
been diverted from the original conservation fund purpose. For all 
these reasons, LWCF needs to be funded at the $900 million level in 
fiscal year 2016. Created by Congress in 1964 and authorized at $900 
million per year (more than $3 billion in today's dollars), the LWCF is 
our most important land and easement acquisition tool. In the 
President's budget, he has included full funding for LWCF programs at 
the $900 million level, and I support the administration's commitment 
to fully funding the program. I urge a minimal commitment of $173.8 
million to the National Wildlife Refuge System. This wise investment in 
the Land and Water Conservation Fund is one that will permanently pay 
dividends to the American people and to our great natural and 
historical heritage. The Land and Water Conservation Fund should be 
fully funded at $900 million annually--the congressionally authorized 
level. LWCF is good for the economy, it is good for America's 
communities and their recreational access; it is critical for our 
public lands and wildlife habitat.
    The Land, Water and Conservation Fund has provided incredible 
benefit to the State of Maine. We have six National Wildlife Refuges 
and our only National Park, Acadia, attracts a huge amount of tourist 
each year and offers great recreational activities to the local 
citizens of the State. LWCF and the Forest Legacy program have 
conserved tens of thousands of acres in our interior forestlands and 
ensures that forestry and recreational access for all will be a huge 
part of our economy for generations to come. As a Mainer, I also wanted 
to highlight the importance of LWCF funding to other parts of the State 
beyond Rachel Carson NWR. We have a Crown Jewel of the national park 
system at Acadia National Park, which will celebrate its centennial in 
2016 and has continuing LWCF acquisition needs. Millions visit Acadia 
every year. And we have incredibly valuable private forests whose 
permanent protection through Forest Legacy Program funding means that 
our tourist and timber industries--our two largest--can thrive 
together. I just visited the rural town of Phillips, Maine where I 
enjoyed cross country skiing on a trail on a just-completed Forest 
Legacy project, and I spent my money locally on lodging, food and 
equipment. So, LWCF funding for conservation in Maine is critical to 
the rural economy and National Wildlife Refuges. And it is matched by 
other funding, and enjoys broad support from forest landowners, 
snowmobilers hikers and birdwatchers alike. I cannot emphasize enough 
how important LWCF funding is to Maine and the remaining 49 United 
States.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior, Environment and Related Agencies Appropriations 
Subcommittee allocate $508.2 million for the Refuge System's fiscal 
year 2016 Operations & Maintenance Budget, $60 million in the National 
Wildlife Refuge Fund and $178.8 million in Refuge LWCF monies. We need 
Congress to standby their commitment that was made in 1964: stabilize 
the LWCF at $900 million.
    Thank you again, Ms. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and it's habitat. Enjoy 
your next walk out on a National Wildlife Refuge.
                                 ______
                                 
Prepared Statement of the Friends of the Arthur R. Marshall Loxahatchee 
                        National Wildlife Refuge
    Our Friends organization would like to submit testimony in support 
of the budget requests made by the National Wildlife Refuge Association 
(NWRA) on behalf of the National Wildlife Refuge System and Refuges 
such as ours. In particular, we would like to emphasize the importance 
of their requests for:
  --$508.2 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $173.8 million allocated for the Fish and Wildlife Service 
        (FWS)
  --$60 million for the Refuge Fund
  --$75 million for the FWS Partners for Fish and Wildlife Program
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction
  --$50 million for the North American Wetlands Conservation Fund
  --$5 million for the Neotropical Migratory Bird Fund

    In addition to echoing these requests made by NWRA, I would like to 
make to make one additional request for our Refuge:
  --$5 million for removal and treatment of invasive exotics

    At 143,874 acres, our Refuge is the largest remaining remnant of 
the once vast northern Everglades. While restoration of the hydrology 
of the greater Everglades system has gotten a lot of attention and 
deservedly so, the problem of invasive exotics such as Melaleuca, 
Brazilian Pepper and the most insidious of all, Lygodium (Old World 
Climbing Fern), has been under-reported.
    As a member of our Friends board of directors for the past 9 years 
and president for the last 2 years, I have watched an ever-diminishing 
number of Refuge staff members struggle to maintain visitor access and 
keep our small public use program going, while trying to protect and 
restore the resource, but I see it becoming a losing battle. We are 
actually lucky when the fires out West and in other parts of the 
country call our fire crew away, so they can be paid out of someone 
else's budget. When Refuge staff have to make tradeoffs as they do now 
between treating more areas for invasives, or re-treating areas that 
are now under maintenance control, we see from aerial maps that we are 
losing ground. Restoring water to the Everglades will save our water 
supply, but when Lygodium envelops and smothers tree island after tree 
island, the iconic wildlife of the Everglades may be no better off.
    As someone who cares about the Everglades and our Refuge and their 
importance to the people and wildlife of south Florida, I hope you will 
appreciate the need and take these requests seriously. Our organization 
represents approximately 300 concerned citizens who are just a small 
portion of the 300,000 visitors our Refuge receives annually. Whether 
they appreciate our Refuge for its wildlife or its recreational 
opportunities or its importance to our water supply, I think every one 
of them would tell you that this is a special place that deserves our 
attention.
    Thank you for your consideration of these budget requests.

    [This statement was submitted by Elinor R. Williams, President.]
                                 ______
                                 
 Prepared Statement of the Friends of the Little Pend Oreille National 
                            Wildlife Refuge
    Madam Chair and members of the subcommittee:

    The Friends of the Little Pend Oreille National Wildlife Refuge 
(FLPONWR) and its members would like to thank you for this opportunity 
to testify before the subcommittee concerning the funding of National 
Wildlife Refuge system for fiscal year 2016. We ask you to support the 
Presidents funding proposal of $508.2 million for the refuge system. We 
feel that any less funding could have negative impacts on the refuges 
ability to protect and enhance the environment and wildlife within the 
refuge system. Less funding would also impact local economies, jobs, 
recreation and environmental education. The Little Pend Oreille NWR 
(LPONWR) is a unique refuge that needs your support.
    A budget item that is critical to the Little Pend Oreille and to 
indeed critical to all the forests in the west is funding for Hazardous 
Fuels Reduction. So we would ask for your support to appropriate $60 
million dedicated to the support the refuge system's fire program 
through the Department of Interior's Hazardous Fuels Reduction program. 
Not only does this program help to elevate catastrophic fires it is 
also a vital tool in wildlife management. I will have more details of 
how this program directly effects the Little Pend Oreille NWR later.
    We are also asking for you support to provide 173.8 million from 
the land and Water Conservation fund for the purchasing of in-holdings 
that are of vital ecological importance and also the purchase of in-
holding leads to better wildlife connectivity and allows for more 
cohesive management of the ecosystem.
                the little pend oreille wildlife refuge
    The LPONWR is located in the northeast part of Washington State 
near the small city of Colville. The LPONWR is just over 40,000 acres 
and is the only mountainous mixed conifer refuge in the lower 48.
    It also has several small lakes, ponds, streams, marshes and the 
Little Pend Oreille river that support a wide variety of wildlife from 
songbirds, every woodpecker native to the Rockies, and waterfowl to 
bears, bobcats, cougars, elk, moose and white-tailed deer. 
Interestingly the protection of the white-tailed deer and song birds 
were the main reasons for the establishment of the refuge. The refuge 
is considered critical winter habitat for the deer. Small amphibians, 
small reptiles, butterflies, dragonflies are also important parts of 
the refuges ecosystem.
    The refuge also comprises large stands of ponderosa pine which have 
very little protection outside of the refuge. The protection of the 
pine habitat is of critical importance to the future of the white 
tailed deer, elk and the other species, such as the threatened Columbia 
ground squire that are connected to this habitat.
                        visitation and economics
    The LPONWR has about 60,000 visitors per year who enjoy activities 
such as bird watching, hiking, camping, mountain biking, hunting, 
horseback riding and hunting. Not only do people enjoy these activities 
but they are also a positive contribution to the local economies. 
According to the 2004 ``Banking on Nature'' economic study the refuge 
visitors had a ``final economic demand,'' to the local economy, of 
almost $3.7 million and helped to generated 42 jobs (a significant 
number in this rural community). If you compare this to the refuge 
budget there was ``$3.82 of recreational benefits for every $1 of 
refuge expenditures.'' All in all a very good investment.
    If we compare this to the 2011 Banking on nature study the final 
demand totaled $3.9 million with associated employment of 30 jobs. The 
big number here is the loss of 12 jobs. With a loss a staff projects 
such as mechanical and hand thinning cannot be set up and managed thus 
leading to a loss in private sector jobs in an area that is already 
economically depressed.
                   habitat protection and enhancemet
    Over the past 20 years the refuge has been hard at work restoring a 
healthy forest and habitat at the refuge after about 30 years of 
management by the State. While always a federally owned wildlife refuge 
there was a management agreement between the State and the National 
Fish and Wildlife Service starting in the 1960's and ended in the early 
1990's after the Government Accountability Office (GAO) found it to not 
be in the best interest of the refuges in question (the LPONWR).
    Many illegal roads have been closed, lakes rehabilitated, and the 
health of the forest has also been greatly improved providing a much 
better habitat for the native wildlife. But the is still much work left 
to be done.
    One of the most important roles the refuge staff has been forest 
rehabilitation through prescribed burns and thinning operations (which 
provide jobs to local loggers and bring wood to local mills) which have 
helped to open up overcrowded forests, reduce the chance of 
catastrophic fires. These operations also help neighboring property 
owners from the chance of fire spreading to there property. These burns 
and thinning operations also help to keep meadows open and productive 
providing a food source for deer, elk, moose and other wildlife.
    It is important to know that the Little Pend Oreille NWR, along 
with a large percentage of western forests, are in a fire ecology. 
Meaning that these forest rely on fires to keep them health and 
productive. We know that because of past management policies and our 
lack of understanding of the importance of fire to these ecosystems our 
forest have become overcrowded which is contributing to large 
catastrophic fires and the reduction of habitat for animals such as elk 
and deer whom rely on open forests and meadows. To keep up the pace of 
keeping our forest health I respectfully ask for your support in 
appropriating $60 million in dedicated funding to the refuge system.
    What does this mean for the Little Pend Oreille NWR. The refuge has 
about 10,000 acres that are open pine and mixed forests that are 
reliant on fire. The goal was and is to keep these acres on a 10 year 
fire rotation. The years from 2000-2010 the refuge was able to complete 
about 1000 acres of prescribed burns per year to keep on target. The 
last 4 years, because of reduction of staff, the refuge is down to 
around 100 acres per year. The reduction in staff also leads to less 
commercial thinning project, as part of fuels reduction, as the refuge 
is lacking the staff to lay out and manage the thinning. This leads to 
a loss of private sector logging jobs as well as less logs going to the 
local mills.
    If the refuge does not have the resources for Fire and Fuels 
Reduction to keep up pace we risk the loss of habitat and we increase 
the chance of a large catastrophic fire. Interestingly the refuge as a 
good example of the importance of fuels Reduction. A few years ago a 
fire (Slide Creek) was started by a lighting strike off the refuge in 
private timber land. This land had not gone through and fuels reduction 
or thinning. The fire ``crowned'' a took off toward the refuge in an 
area that the refuge had recently had a thinning project to reduce 
fuels. When the fire hit the refuge land instead of staying a 
``crowning'' fire going through the trees it sat down and became a 
ground fire which is much easier to control and is what mother nature 
would have done in the past. By this fire sitting down the refuge 
showed that it is a good neighbor and the Fuels Reduction possibly 
saved many acres of not only refuge but also private, State and other 
Federal lands.
    The staff has also worked to rehabilitate the lakes, ponds, 
marshes, streams and the river. One examples is the removal of tench 
and Eurasian milfoil from Lake McDowell which is still may always be an 
ongoing battle. This year another invasive was introduced to the lake 
(Sun Fish). This fall the refuge and the State worked together to 
hopefully rid the lake of these invasive species. But as the past shows 
it will be a continuing battle.
                        revenue sharing program
    Being in a rural area with a high poverty rate the Revenue Sharing 
Program is of vital importance to our communities. It help to pay for 
schools, libraries, fire protection, roads, law enforcement and the 
list goes on. However the currant system and it formula for calculating 
these payments is out of date and insufficient. Along these lines we 
are asking for your support in moving the Refuge Revenue Sharing 
Program to the PILT program as it is a more adequate system. In the 
mean time we ask for you to appropriate $60 million to the Refuge Fund 
to insure that local communities receive proper compensation. It is 
also just part of being a good neighbor and part of the community.
                         friends and the refuge
    Our organization (FLPONWR) was established in 2001 and has work 
tirelessly with the refuge to make many improvements at the refuge and 
help to reach out to the public about the importance of the refuge. Our 
public outreach also points out to people all of the recreational 
opportunities that the refuge offers.
    One of our concerns is if budget cuts lead to cut in staff this 
could harm our collaborative efforts. Being a small organization (80-90 
members) and in an area with a small population there is no dedicated 
staff member to coordinate volunteers. The staff has done an 
outstanding job working with us and we feel that any staff cut could 
make collaboration with staff more difficult as individual staff 
members would have more work and less time to help the volunteers. You 
must know that the volunteers in the refuge system as a whole play a 
vital role in helping out and improving the refuge system. But 
volunteers can only do so much.
                      final appropriatins requests
    I respectively request your support for the full funding of the 
National Wildlife Refuge Systems at $508.2 million for fiscal year 
2016, provide 173.8 million to the Land and Water Conservation Fund, 
appropriate $60 million to the Refuge Fund to ensure compliance with 
the Refuge Revenue Sharing Program to help compensate local communities 
who this funding is critical for, fully fund the Partners for Fish and 
Wildlife Program at $75 million, increase the Coastal Grant Program to 
$14 million in fiscal year 16, appropriate $70 million for State 
Wildlife Grants, appropriate $11 million for the Multinational Species 
Conservation Fund, $5 million for the Neotropical Migratory Bird 
Conservation Fund, allocate $50 million for the North American Wetlands 
Conservation Fund and lastly the appropriate $60 million in funding to 
the refuge systems fire program through the Department of Interior's 
Hazardous Fuels Reduction Program.
    In closing I cannot stress enough how important it is to fully fund 
the refuge system. Further cuts will hurt the environment and wildlife. 
Local economies will also be hurt by less employment and tax revenues. 
By fully funding the refuge system we help to ensure that we protect 
these special places for future generations.
    On behalf of the Friends of the Little Pend Oreille, thanks for 
listening.
                                 ______
                                 
Prepared Statement of the Friends of the Lower Suwannee and Cedar Keys 
                       National Wildlife Refuges
    On behalf of over 200 Friends members, we strongly urge the 
increased funding for the National Refuge System. Since 2006, the 
National system has grown from 500 to 560+ refuges. The funding support 
has not kept pace with the increase. During this time, the Lower 
Suwannee and Cedar Keys NWR has dropped from 14 to 9 staff members. By 
June of this year, we will be down to 7 members unless funding is 
available to replace two positions being vacated. As if that is not 
enough to worry about, our manager also has a title of Deputy Complex 
Manager of the North Florida Complex with responsibilities extending 
from Tampa Bay to St. Vincent in the Big Bend area of Florida. He 
spends most of his time dealing with manatee issues in Crystal River. 
It appears that, this ``complex'' title is just another way of not 
fully supporting the refuge system.
    We would also urge you to reauthorize the Land and Water 
Conservation Fund (LWCF) to the $900 million per year originally 
proposed funding. In our area, there have been excellent opportunities 
for both land acquisition, as well as, conservation easements.
    We would also urge you to provide special funding to be used to 
help compensate local governments for their lose of property tax 
revenue.
    While the primary mission of the refuge system is focused on 
wildlife conservation, it is also important to recognize that the 
system is an economic engine. The report, Banking on Nature, points out 
that in 2011 for every dollar invested in the refuge system, there had 
been a $4.87 return to the local communities. Over 70 percent of this 
revenue came from non-local visitors who were attracted to non-
consumptive activities like wildlife viewing, photography and hiking in 
the refuges. The fact that the Friends of the Lower Suwannee and Cedar 
Keys NWR are having 3-4 thousand folks visit on our Web page each 
month, verifies the fact that we are reaching a large non-local crowd 
(please check us out at friendsofrefuges.org). Funding of the refuge 
system should be considered an investment with a great rate of return.
    The Lower Suwannee NWR comprises over 52,000 acres that is split by 
the historic Suwannee River for the last 20-25 miles where the river 
empties into the Gulf of Mexico. The Cedar Keys NWR is composed of some 
727 acres on 13 islands in the Gulf of Mexico. Because of their non 
contiguous nature, both refuges face challenging management issues.

    The Lower Suwannee NWR is special and unique in the following ways:

  --The pristine natural condition of the refuge helps protect the 
        environmental health of the Suwannee River and the surrounding 
        area.
  --The Suwannee River is home to a wide variety of plant and animal 
        life. The river is the most important spawning ground for the 
        protected Gulf sturgeon. The river is also an important habitat 
        for the endangered manatee.
  --The refuge contains a unique combination of upland hardwood, 
        wetland/swamp, and saltwater marsh habitats. Uniquely, one can 
        find both temperate and tropical types of vegetation in the 
        refuge.
  --The refuge provides habitat for a wide variety of birds including 
        15 endangered or threatened species like the Bald Eagle. The 
        refuge is an important nesting site for the short-tailed hawks 
        of which there are only an estimated 200 mating pairs in the 
        wild. The swallowtail kite once widespread, now is restricted 
        to just the Southeastern portion of the United States with the 
        refuge being a very important nesting site.
  --Combined with surrounding State Parks, the refuge will become an 
        even more important conservation area as Florida's population 
        increases.
  --With constructed bat houses, the refuge has successfully 
        established a viable bat population that serves as a model for 
        future bat projects.
  --Many important cultural heritage sites are also to be found in the 
        refuge.

    The Cedar Keys NWR is special and unique in the following ways:

  --The 727 acre refuge composed of 13 islands is a major rookery for 
        pelicans and a wide variety of shore birds.
  --As studied by the University of Florida's Florida Marine Center, of 
        particular interest is the symbiotic relationship of 
        cottonmouth moccasins and nesting birds on Seahorse Key. The 
        moccasins provide protection from predators like raccoons and 
        rats for the nesting birds. In return, the birds provide a 
        steady diet of fish for the moccasins. This is the only place 
        on Earth that such a relationship between snakes and birds 
        exists.
  --Lower Suwannee Archaeological Survey of the University of Florida 
        has uncovered prehistorical sites dating back over 4,000 years.
  --Historically, the refuge contains important historical structures 
        including the Seahorse Key Lighthouse designed in the 1850s by 
        Lieutenant George Meade, later to become General Meade of 
        Gettysburg fame. It is also of interest that the lighthouse 
        sits on a natural dune that is some 50+ feet above sea level. 
        This makes it one of the highest points in the Big Bend area of 
        Florida.
  --This refuge also provides a vital barrier island system.

    Presently, the most critical problem we face involves staffing. 
With adequate staffing, and with operational funding, the refuge staff, 
with the help of the Friends of the Lower Suwannee and Cedar Keys NWR, 
would be able to:

  --Provide better monitoring of the health of the refuges' habitat,
  --Consistently police the proper utilization of the resources of the 
        refuges to protect the habitat and its wildlife,
  --Conduct more programs for school children to learn about 
        conservation,
  --Expand the conservation efforts across other public agencies, as 
        well as private stakeholders, to deal with common problems like 
        invasive species eradication and the protection of endangered 
        species,
  --Upgrade and maintain public facilities like roads, docks, 
        boardwalks, observation stations and signage,
  --Expand public access and use of the refuges, and
  --Monitor, manage, and protect the floral and fauna in the refuges.

    Thank you for considering these requests.

    [This statement was submitted by Dr. Jay Bushnell, Advocacy Chair.]
                                 ______
                                 
  Prepared Statement of the Friends of the Savannah Coastal Wildlife 
                                Refuges
    Madam Chair and members of the subcommittee:

    On behalf of Friends of the Savannah Coastal Wildlife Refuges and 
its membership of concerned citizens of coastal Georgia and South 
Carolina, thank you for your support for the National Wildlife Refuge 
System (NWRS), particularly for the funding increase for fiscal year 
2015. We appreciate the opportunity to offer comments on the fiscal 
year 2016 Interior Appropriations bill and join with the National 
Wildlife Refuge Association (NWRA) in respectfully requesting:
  --$508.2 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $5 million for the Pacific Marine 
        Monuments;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $173.8 million allocated for the FWS, including $10 million for 
        Everglades Headwaters NWR and Conservation Area (Florida); $3 
        million for Silvio O. Conte NFWR (Connecticut, New Hampshire, 
        Vermont, Massachusetts); $3 million for Cache River NWR 
        (Arizona); $3 million for Flint Hills Legacy Conservation Area 
        (Kansas); $2 million for Bear River Watershed Conservation Area 
        (Wyoming, Idaho, Utah); $3.4 million for Blackwater NWR 
        (Maryland); and $1 million for the Clarks River NWR (Kentucky);
  --$60 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$14 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under the Department of the Interior (DOI));
  --$70 million for the State and Tribal Wildlife Grants Program;
  --$50 million for the North American Wetlands Conservation Fund;
  --$5 million for the Neotropical Migratory Bird Fund;
  --$11 million for the Multinational Species Conservation Fund.

    We understand our Nation's challenging fiscal constraints but 
cutting funding to programs that are economic drivers and job creators 
in local communities only exacerbates an already difficult situation. 
For example, the NWRS averages almost $5 in economic return for every 
$1 appropriated and the Partners for Fish and Wildlife program returns 
nearly $16 for every $1 spent on projects. Unfortunately, just when 
these public lands and programs could return economic output to 
communities and help them through the recession, funding fell 
dramatically. The refuge system is approximately $72 million below what 
would be needed to keep pace with inflation relative to the fiscal year 
2010 level ($545.8 million inflation-adjusted).
    To begin bridging that gap, we join with NWRS in urging that 
Congress fund these critical programs that leverage Federal dollars and 
serve as economic drivers.
      national wildlife refuge system--operations and maintenance
    The Cooperative Alliance for Refuge Enhancement (CARE) is a diverse 
coalition of 23 sporting, conservation, and scientific organizations 
representing more than 16 million Americans that supports increased 
funding for the refuge system. CARE estimates the NWRS needs at least 
$900 million annually to manage its 150 million acres of land and over 
400 million acres of national marine monuments, yet it is currently 
funded at roughly half that amount--at less than $1 per acre. The 
refuge system cannot fulfill its obligation to the American public, our 
wildlife, wildlife habitat, and 47 million annual visitors without 
increases in maintenance and operation funds.
    Funding for the refuge system has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current $474.2 
million--$72 million below what it needs to keep pace with inflation. 
This has forced the Service to cut back on programs and create 
efficiencies whenever possible. Because of these hard decisions, the 
Service has cut their maintenance backlog in half from $2.7 billion to 
$1.3 billion. But budget cuts also led to the loss of 430 positions 
since fiscal year 2011 and thus an increase in the operations backlog, 
now at $735 million. Because most refuge lands and waters are highly 
managed, this deterioration in staffing has had a dramatic impact 
resulting in significant declines in habitat preservation and 
management, hunting, fishing, volunteerism and scientific research. We 
have seen first-hand what staff reductions have done to the ability of 
the staff of the Savannah Coastal Refuges Complex to carry out their 
mission on the seven Refuges in our area, at a time when they are 
receiving increasing requests for educational programs and increased 
visitation.
    For instance, visitor services staff has declined by 15 percent, 
forcing a reduction in public programs and hours of operation. Hunting 
visits are down by 5 percent since fiscal year 2011 and fishing visits 
are down 7 percent. Overall, there are fewer opportunities for the 
public to recreate, yet the desire for such programs is still high and 
visitation to all refuges since fiscal year 2011 has actually increased 
by 2.6 percent.
    Reductions in visitor services can be extremely troubling to 
constituencies who want to visit. Take the Midway Atoll NWR in the 
Hawaiian Islands. In November of 2013, due to sequestration cuts, the 
Service suspended the visitor services program at Midway. Although in 
the 5 years prior to this suspension, the refuge saw only about 300 
annual visitors, those visitors were passionate about their reasons for 
visiting. Whatever their reasons, they wanted to have one of the most 
unique refuge experiences in the entire System. Congress has asked for 
a Government Accountability Office (GAO) investigation on why the 
Service suspended its program; yet it's clear that when you cut the 
budget and loose several positions including a permanent Wildlife 
Biologist, Park Ranger, and Law Enforcement Officer, there will be 
ramifications.
    Equally troubling is the 15 percent drop in the number of 
volunteers since fiscal year 2011. At a time when record numbers of 
Americans are retiring and have the capability to give back, the 
Service's ability to oversee their efforts has been curtailed. 
Volunteers provide up to 20 percent of work done on our national 
wildlife refuges, yet they are being turned away when the System needs 
them the most.
    During these years of challenging budgets, the refuge system's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the U.S. Fish and 
Wildlife Service (FWS) in 2013, shows that even during the worst 
recession since the Great Depression, the refuge system saw sales and 
economic output increase 20 percent to $2.4 billion, visitation 
increase 30 percent to 46.5 million, average return on investment 
increase 22 percent to $4.87 for every $1 appropriated, and supported 
jobs increase 23 percent to 35,000.
                            strategic growth
    The Land and Water Conservation Fund (LWCF) is an essential tool 
for protecting the integrity of the refuge system and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies.
    Increasingly, LWCF is being used to conserve working lands through 
the acquisition of easements that secure conservation protection while 
leaving the land in private ownership and on the tax rolls. 
Conservation easements are powerful tools that foster public-private 
partnerships with ranchers, farmers and foresters to conserve wildlife, 
habitat and a uniquely American way of life. Innovative landscape-scale 
initiatives using easements as a primary conservation tool have broad 
community and State support in New England's Connecticut River 
Watershed, the Flint Hills of Kansas, the Everglades Headwaters, 
Montana's Crown of the Continent, and the Dakota Grasslands. These 
iconic landscapes remain privately managed, generating tax income for 
local communities, securing our Nation's food, and balancing resource 
use and resource protection for wildlife.
    By acquiring critical habitat areas and linking conserved lands, 
the refuge system enhances the overall integrity of the system and 
strengthens our network of habitat to give wildlife space and time to 
respond to changes, whether from climate or changing land use patterns.
    The Friends call on Congress to fund LWCF at $900 million per year, 
with $173.8 million provided in fiscal year 2016 to the FWS for 
conservation easements and refuge in-holdings, including the following 
projects and those advocated by other refuge Friends groups:
  --Everglades Headwaters NWR and Conservation Area (Florida)--$10 
        million;
  --Cache River NWR (Arizona)--$3 million;
  --Silvio O. Conte NFWR (New Hampshire, Vermont, Massachusetts, 
        Connecticut)--$3 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$3 million;
  --Bear River Watershed Conservation Area (Wyoming, Idaho, Utah)--$2 
        million;
  --Blackwater NWR (Maryland)--$3.4 million;
  --Clarks River NWR (Kentucky)--$1 million.
             commitment to refuge communities--refuge fund
    The refuge system uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally acquired lands are removed from local 
tax rolls, and relies on congressional appropriations to the Refuge 
Fund to compensate for the shortfall between revenues and tax 
replacement obligations. Unfortunately, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. The negative impact on local 
communities is felt even more starkly in difficult economic times and 
severely strains relations between the Federal units and their local 
community, threatening the goodwill and partnerships that are keystones 
of successful conservation. The Friends request $60 million for the 
Refuge Fund and thanks Chairman Calvert for his leadership in fiscal 
year 2015 to pursue a much-needed increase. We also call for a review 
of the Refuge Revenue Sharing Act of 1935 as amended, and consideration 
of conversion to a Payment-in-Lieu of Taxes (PILT) program to be 
consistent with other Federal land management agencies and to provide 
Refuge communities with more equitable payments.
                              partnerships
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners for Fish and Wildlife 
program (Partners Program) is one of the most powerful tools for 
protecting wildlife where it lives. By building effective partnerships 
between public agencies and private landowners to conserve America's 
expansive working landscapes, the Partners Program has implemented 
nearly 29,000 restoration projects in the past 25 years, restoring over 
one million acres of wetlands, three million acres of uplands, and 
11,000 miles of streams. The program has been instrumental in the 
success of such iconic landscape conservation projects as the Rocky 
Mountain Front and Blackfoot Challenge in Montana and the Flint Hills 
in Kansas, and is playing a key role in conserving greater sage-grouse 
habitat in the intermountain west.
    The Partners program consistently leverages Federal dollars for 
conservation, generating nearly $16 in economic return for every $1 
appropriated for projects. The Friends join with the landowner-led 
Partners for Conservation in requesting $75 million for fiscal year 
2016. Such a funding level would result in an additional $400 million 
worth of conservation across the Nation.
    The Partners Program provides a bridge between private and public 
conservation efforts that has been instrumental in the success of large 
landscape partnerships from Montana to Florida, and is playing a key 
role in conserving greater sage-grouse habitat in the intermountain 
west. To this end, we request an additional $78 million for the 
Interior agencies to implement sagebrush steppe habitat conservation 
and monitoring efforts that will leverage $300 million in Department of 
Agriculture investments across the west.
             sharing lessons and protecting global species
    Wildlife species know no international boundaries, therefore 
conservation must happen globally to ensure populations survive. Many 
international wildlife agencies look to the refuge system as the world 
leader in wildlife and fish conservation. The Service's Wildlife 
Without Borders Program and Multinational Species Conservation Funds 
together support global partnerships to protect marine turtles, tigers 
and rhinos, great apes and elephants and other iconic species. These 
programs are particularly important as wildlife face a poaching crisis 
that is leading species such as rhinos to the brink of extinction. The 
Friends join the student-led Tigers 4 Tigers Coalition in requesting 
$11 million for the Multinational Species Conservation Fund in fiscal 
year 2016.
                             in conclusion
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the refuge 
system can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish. Friends of the Savannah Coastal 
Wildlife Refuges Complex urges you to build on your past support for 
the refuge system by allocating the funds detailed above for fiscal 
year 2016.
    Thank you for your consideration.

    [This statement was submitted by Richard O. Shields, Jr., MD, 
President.]
                                 ______
                                 
 Prepared Statement of the Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.
    Mr. Chairman and members of the subcommittee,

    On behalf of the 225 members of the Friends of the Tampa Bay 
National Wildlife Refuges (FTBNWR), (Egmont Key National Wildlife 
Refuge (NWR), Passage Key NWR, and Pinellas NWR), I would like to thank 
you for your commitment to the National Wildlife Refuge System (NWRS) 
and the funding increase that you passed for fiscal year 2015. We 
realize that in this time of tight budgets, it may be difficult to 
justify increasing the NWRS funding, but once the refuges start to 
decline it will cost many times more than these small increases to 
return them to a condition that will fulfill their mandates. We 
respectfully request that you consider the following in your 
appropriations for fiscal year 2016:
  --Fund $508.2 million for the National Wildlife Refuge System 
        including $5 million for the Pacific Marine Monuments.
  --Fund $900 million for the Land and Water Conservation Fund (LWCF), 
        including a minimal commitment of $173.8 million for the NWRS, 
        including $10 million for Everglades Headwaters NWR and 
        Conservation Area in Florida, $3 million for Silvio O. Conte 
        NWR, $3 million for Cache River NWR, $3 million for Flint Hills 
        Legacy Conservation Area, $2 million for Bear River Watershed 
        Conservation Area, $3.4 million for Blackwater NWR, and $1 
        million for Clarks River NWR.
  --Fund $50 million for the North American Wetlands Conservation Act 
        (NAWCA).
  --Fund $70 million for State and Tribal Wildlife Grants.
  --Fund $5 million for the Neotropical Migratory Bird Conservation 
        Fund (NMBCF).
  --Fund $14 million for FWS Coastal Grants.
  --Fund $60 million for the Department of Interior's Fire Management 
        Program.
  --Fund $11 million for the Multinational Species Conservation Fund
  --Fund $75 million for the FWS Partners for Fish and Wildlife 
        Program.
  --Fund $60 million for the Refuge Fund.

    The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
that the NWRS needs a budget of at least $900 million annually in 
operation and maintenance funding in order to properly administer its 
150 million acres and over 400 million acres of national marine 
monuments. The refuge system cannot fulfill its obligation to the 
Refuge Improvement Act, American public, our wildlife, and 
approximately 47 million annual visitors without increases in 
maintenance and operation funds. The current budget is far short of the 
amount actually required to effectively operate and maintain the 
refuges. The refuge system is currently funded at $474 million. Taking 
inflationary needs into account, they are about $72 million below where 
they were in fiscal year 2010. Fiscal year 2010's appropriation of 
$503.3 million was cut significantly in the following years and by 
fiscal year 2013 was down to $452.6 million. These cuts were 
devastating to refuge operations and staffing. We respectfully request 
that you increase the NWRS budget to $508.2 million so that the refuges 
do not backslide even further in protecting these valuable lands and 
ecosystems. The investment yields an impressive return, generating 
approximately 35,000 jobs and $2.4 billion in economic output each 
year. Every dollar appropriated to the refuge system returns an average 
of $5 to local economies as well as providing $33 billion dollars' 
worth of clean water and other environmental benefits such as clean air 
and water and a cool climate.
    The Land and Water Conservation Fund was created in 1965 and 
authorized at $900 million. We ask that you reauthorize the LWCF at 
$900 million for fiscal year 2016 with a minimal commitment of $173.8 
million to the National Wildlife Refuge System. These funds are used 
for land acquisition as well as less expensive easements or leases to 
protect wildlife and their habitats. With the effects of a changing 
climate, it is more important now than ever to establish key wildlife 
corridors between protected areas so wildlife can migrate to more 
suitable habitat as their historic ones change. These landscape level 
conservation efforts through conservation easements and land purchases 
are the best way to protect the diversity of flora and fauna. The price 
of real estate is still recovering at this time and the $900 million 
can go much further in protecting habitats than it can in a higher 
market. When we start to lose species due to lack of food, water, 
shelter, or space, we are changing the balance of nature. We urge you 
to fund the LWCF at $900 million for fiscal year 2016 with $173.8 
million to acquire conservation easements on working lands and to 
purchase in-holdings and vital habitat for the NWRS. The LWCF is not 
funded by taxpayer money.
    We ask that you appropriate $50 million in fiscal year 2016 for the 
North American Wetlands Conservation Act (NAWCA). NAWCA supports 
habitat restoration, water quality improvements, and carbon 
sequestration. These projects developed by individuals and at the 
community level benefit our declining migratory bird species as well as 
ducks and waterfowl.
    Essential conservation programs to protect habitat and wildlife 
will cut expenses in the future by protecting and improving what we 
have today.
  --We request that you fund the State and Tribal Wildlife Grants 
        Program at $70 million to fulfill the shared Federal-State 
        responsibility for keeping our Nation's wildlife from becoming 
        endangered.
  --The Neotropical Migratory Bird Conservation Fund grants conserve 
        habitats for Neotropical birds as they migrate. It covers areas 
        outside of refuges and often outside the U.S. that many of our 
        birds utilize during critical periods of their life. We request 
        you fund the NMBCF at $5 million for fiscal year 2016.
  --The Coastal Grants Program provides technical and financial 
        assistance for voluntary efforts to protect and restore coastal 
        habitats for wildlife. We ask that you fund this program at $14 
        million for fiscal year 2016.
  --Prescribed burns keep our refuges from becoming overgrown or having 
        catastrophic fires due to high fuel loads due to fire 
        suppression. It is an important tool for managing wildlife 
        habitat. We urge you to provide $60 million in dedicated 
        funding to the refuge system's fire program through the 
        Department of the Interior's Hazardous Fuel Reduction program.
  --Lastly we ask that you fund the Multinational Species Conservation 
        Fund at $11 million.

    Funding for the Refuge Fund (Refuge Revenue Sharing Program) 
ensures that local communities receive proper compensation for having 
Federal lands that are not on the tax rolls. Federal lands are exempt 
from real estate taxes. These taxes are the major revenue source for 
most local governments across the country, funding services such as 
schools, libraries, sanitation, law enforcement and fire protection. In 
1935 Congress acknowledged the relationship between local communities 
and the refuge system and enabled the refuges to give back to their 
local communities. The Refuge Revenue Sharing Program offsets lost 
local tax revenue by providing payments to local governments from net 
income derived from permits and wildlife refuge activities. The U.S. 
Fish and Wildlife Service (USFWS) pays localities using a formula 
created by Congress. However, declining revenues and appropriation 
short-falls have resulted in the Service paying less than 50 percent of 
its tax-offset obligations since 2001. It's important that the National 
Wildlife Refuge System is a good neighbor and makes good on its 
obligations. Please fund the Refuge Fund at $60 million in fiscal year 
2016.
    The Tampa Bay Refuges are located at the mouth of Tampa Bay on the 
west central Gulf coast of Florida. The budget increases prior to 2011 
meant increased management, protection, and restoration of the refuges 
and the ability to better meet the Comprehensive Conservation Plan 
(CCP) goals. The wildlife on the refuges did well with the extra help. 
Due to those past increases in budget and personnel the TBRs were able 
to plan for big picture issues such as erosion and increased public 
use. Unfortunately, due to the budget decreases, much of that planning 
will not be implemented. The budget decreases and the sequestration 
have hurt our refuges.
  --The Tampa Bay Refuges have not had a full time manager for the past 
        1.5 years.
  --We are coming into the summer nesting season on the Egmont Key NWR. 
        Without a manager and with the heavy visitation in the warmer 
        months, this is a big problem. The refuge law enforcement (LE) 
        officers are not able to patrol Egmont Key as often during the 
        key summer nesting season due to restrictions. This leaves the 
        nesting birds open to more intrusions by refuge visitors and 
        nesting failures. Pinellas and Passage Key NWR's are not open 
        to the public but the refuges do not have the budget necessary 
        to patrol these islands to prevent the public from causing 
        unintentional harm as the birds nest.
  --If a staff member leaves, he/she may not be replaced so the refuge 
        can stay afloat financially for the rest of this fiscal year 
        because of the budget shortfalls.
  --The refuge was able to begin to eradicate exotic plants and 
        predators on the refuges, but with the budget, there is little 
        or no money to monitor and keep up with the work that has 
        already been done. The result will be degraded habitat for 
        refuges and their wildlife, including nesting failures. Birds 
        have returned to nest on 2 more of the Pinellas Refuge islands 
        because of these efforts. Without continued maintenance the 
        birds may fail.
  --Fire management budgets have been cut and prescribed fires have not 
        been conducted Egmont Key as needed. This opens the island, its 
        historic buildings, and visitor center up to a much higher 
        catastrophic wildfire risk.
  --The Ft. Dade Guardhouse on Egmont Key NWR has been restored and is 
        now the visitor center. The refuge had grant money and 
        installed the first phase of the displays, but with the budgets 
        the way they are the refuge staff does not have time to keep 
        this important environmental education center open to the 
        public.
  --Egmont Key NWR has a huge erosion problem and can possibly be lost. 
        Because it is in an urban setting, the approximately 32,000 
        pairs of birds who nest there yearly don't have another 
        location to go to. Passage Key NWR is starting to come back 
        above water. Last year the colonial nesting birds including 
        endangered Least Terns began to nest on the island. There is 
        not enough funding to have law enforcement attending to that 
        refuge to protect the birds from human intrusion and the 
        nesting failed. Increased funding would go a long way in 
        providing these birds the protection they need during the 
        nesting season.

    These are just a few of the things impacting the Tampa Bay Refuges. 
Bottom line, funding cuts hurt the wildlife that the NWRS is mandated 
to protect. The refuge system has a very small budget compared to the 
whole Federal budget. It is not a big impact to the Federal budget to 
give the refuges a little more funding whereas the impact of reduced 
funding is devastating.
    Please consider funding $508.2 million for the fiscal year 2016 
Operations and Management budget.
    Friends of the Tampa Bay National Wildlife Refuges (FTBNWR) was 
incorporated as a 501c3 in 2008 to better assist the Tampa Bay Refuges 
with volunteers and fundraising. In 2014 FTBNWR was able to provide 
over 2300 volunteer hours to assist the refuge staff with exotic 
invasive control, refuge cleanups, and education. Volunteers donated 
time as bird stewards and visitor center docents on Egmont Key NWR as 
well as running youth education programs for grades K-5. Our refuges do 
not have enough staff to provide these education programs so Friends 
volunteers have filled that gap. FTBNWR has been able to raise money to 
fund further removal of invasive plants on the Pinellas Refuges that 
degrade the habitat for the wildlife and contributed funding for the 
local storage of the FWS boat. Our volunteers are passionate about the 
refuge system and donate their time, money, and expertise to protect 
them.
    We again extend our appreciation to the subcommittee for its 
ongoing commitment to our NWRS.

    [This statement was submitted by Barbara Howard, President.]
                                 ______
                                 
Prepared Statement of the Friends of the White River National Wildlife 
                              Refuge Inc.
    Mr. Chairman and members of the subcommittee:

    On behalf of the Friends of White River National Wildlife Refuge 
Inc., (St. Charles, Arkansas) its members, our 15,000 plus Facebook 
fans and refuge users let me say thanks for the opportunity to provide 
input into the appropriations process.
    Adequately funding our Nation's wildlife refuges isn't just about 
protecting natural areas and wildlife habitat. It is about protecting 
the economy, the communities and people whose livelihood depends on 
them. As a native of southeast Arkansas I grew up hunting and fishing 
on White River National Wildlife Refuge (NWR). I have witnessed first 
hand the direct benefits to our rural communities from the large influx 
of hunters, fisherman and other outdoor tourist the refuge brings in 
each season.
    Our refuge has the proud distinction of protecting one of the 
largest remaining contiguous tracts of bottomland forest in the 
Mississippi River Valley. Each year 450,000 resident and nonresident 
hunters, fisherman, wildlife watchers, nature photographers and 
tourists visit and pump more than $11.2 million in expenditures into 
our economically distressed Delta communities.
    A 2013 report from Southwick Associates shows us that economic 
activity from outdoor recreation generates $788.0 billion in revenue 
and generates $197.4 billion in Federal, State and local tax revenue. 
That's a larger part of our U.S. economy than pharmaceutical, or motor 
vehicles.\1\ Solid evidence that supporting our Nation's parks, refuges 
and increasing outdoor recreation opportunities is not just good for 
the environment, and a health boon to people, but is also a critical 
piece of the American economy. Twelve million Americans have jobs 
thanks to outdoor recreational opportunities like hunting and fishing 
within our National wildlife refuges.\2\
---------------------------------------------------------------------------
    \1\ Burke, Monte. Forbes Magazine: Why We Need More Not Less 
Conservation Funding in the Federal Budget.
    \2\ The Economic Contributions of Outdoor Recreation: Technical 
Report on Methods and Findings/For: Outdoor Industry Association/By: 
Southwick Associates August 30, 2012 (Rev. January 3, 2013).
---------------------------------------------------------------------------
    While the outdoor recreational industry has demonstrated its 
ability to pay its own way . . . budgets supporting conservation 
continue to shrink. Conservation funding has shrunk from 2.75 percent 
in 1977 to less than 1 percent of the Federal budget today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The benefits of funding our refuge system are well documented and 
we should support them accordingly. Therefore we fully support the 
budget recommendations put forth by the National Wildlife Refuge 
Association:
  --$508.2 million for operations and maintenance in fiscal year 2016.
  --Appropriate $173.8 million in fiscal year 2016 from the Land and 
        Water Conservation Fund (LWCF) to acquire conservation 
        easements and to purchase in-holdings and vital habitat for the 
        National Wildlife Refuge System and reauthorize LWCF at $900 
        million annually.
    Thank you for the opportunity to present this testimony to the 
subcommittee. And thank you for your leadership and support for 
conservation. As you deliberate appropriate funding levels for our 
refuge system, please consider the important implications these choices 
entail to not only the wildlife and the environment, but also the joy 
of use by its citizens as well as the economic benefits the refuges 
bring to mostly rural communities.

    [This statement was submitted by Jim L. Taylor.]
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges Congress to support 
the fiscal year 2016 request for the U.S. Geological Survey (USGS). As 
one of our Nation's key science agencies, the USGS plays a vital role 
in understanding and documenting mineral and energy resources that 
underpin economic growth; researching and monitoring potential natural 
hazards that threaten U.S. and international security; and determining 
and assessing water quality and availability. Approximately two-thirds 
of the USGS budget is allocated for research and development. In 
addition to underpinning the science activities and decisions of the 
Department of the Interior, this research is used by communities across 
the Nation to make informed decisions in land use planning, emergency 
response, natural resource management, engineering, and education. 
Despite the critical role played by the USGS, funding for the Survey 
has stagnated in real dollars for more than a decade. The requested 
level would permit the USGS to add to its functions in these important 
areas. Given the importance of the many activities of the Survey that 
protect lives and property, stimulate innovations that fuel the 
economy, provide national security, and enhance the quality of life, 
GSA believes that growth in Federal funding for the Survey is necessary 
for the future of our Nation.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies. 
Approximately two-thirds of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities across the Nation to make informed decisions in land use 
planning, emergency response, natural resource management, engineering, 
and education. USGS research addresses many of society's greatest 
challenges for national security, health, and welfare. Several are 
highlighted below.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters, 
        including destructive landslides in Washington, Colorado, and 
        Kentucky; earthquakes in California; and lava flows in Hawaii, 
        provide unmistakable evidence that the United States remains 
        vulnerable to staggering losses. Landslides alone, which occur 
        in every State, cause more than $1 billion in damage each year. 
        An improved scientific understanding of geologic hazards will 
        reduce future losses through better forecasts of their 
        occurrence, which allows for effective planning and mitigation 
        in these areas. GSA urges Congress to support efforts for USGS 
        to modernize and upgrade its natural hazards monitoring and 
        warning systems to protect communities from the devastating 
        personal and economic effects of natural disasters, including 
        additional 3-D elevation mapping and earthquake early warning 
        systems.
  --A 2013 report by the National Research Council, Emerging Workforce 
        Trends in the Energy and Mining Industries: A Call to Action, 
        found, ``Energy and mineral resources are essential for the 
        Nation's fundamental functions, its economy, and its 
        security.'' In addition, many emerging energy technologies--
        such as wind turbines and solar cells--depend upon rare earth 
        elements and critical minerals that currently lack diversified 
        sources of supply. China accounts for 95 percent of world 
        production of rare earth elements (USGS, 2010). Nevertheless, 
        Federal programs in minerals science, research, information, 
        data collection and analysis have been severely weakened. 
        Funding for the USGS Mineral Resources Program, the only 
        primary source for minerals science and information, has been 
        cut by 30 percent in constant dollar terms over the last 
        decade, reducing its ability to provide critical information on 
        mineral potential, production, and consumption that is used for 
        decisionmaking across the Federal Government and by a range of 
        businesses and industries. We support the increase proposed for 
        these important programs that will allow for more economic and 
        environmental management and utilization of minerals. In 
        addition, GSA supports increases in research to better 
        understand domestic sources of energy, including conventional 
        and unconventional oil and gas and renewables.
  --The ongoing drought in the western United States is a testament to 
        our dependence on water. The availability and quality of 
        surface water and groundwater are vital to the well being of 
        both society and ecosystems. Greater scientific understanding 
        of these resources through monitoring and research by the USGS 
        is necessary to ensure adequate and safe water resources for 
        the health and welfare of society.
  --USGS research on climate impacts is used by the Department of the 
        Interior and local policymakers and resource managers to make 
        sound decisions based on the best possible science. The Climate 
        Science Centers, for example, provide scientific information 
        necessary to anticipate, monitor, and adapt to climate change's 
        effects at regional and local levels, allowing communities to 
        make smart, cost-effective decisions.
  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. GSA supports 
        interagency efforts for future support of Landsat.

    The Core System Sciences, Facilities, and Science Support programs 
support many activities in these important areas. These programs and 
services, such as geologic mapping and data preservation, provide 
critical information, data, and infrastructure that make possible the 
research that will stimulate innovations that fuel the economy, provide 
security, and enhance the quality of life.
    Research in Earth science is fundamental to training and educating 
the next generation of Earth science professionals. The United States 
faces a looming shortage of qualified workers in these areas that are 
critical for national security. We are very concerned that cuts in 
earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages. 
Investments in these areas could lead to job growth, as demand for 
these professionals now and in the future is assessed to be high.
    The report Emerging Workforce Trends in the Energy and Mining 
Industries: A Call to Action, found, ``In mining (nonfuel and coal) a 
personnel crisis for professionals and workers is pending and it 
already exists for faculty.'' Another recent study, Status of the 
Geoscience Workforce 2011, by the American Geosciences Institute found: 
``The supply of newly trained geoscientists falls short of geoscience 
workforce demand and replacement needs. . . . aggregate job projections 
are expected to increase by 35 percent between 2008 and 2018. . . . The 
majority of geoscientists in the workforce are within 15 years of 
retirement age. By 2030, the unmet demand for geoscientists in the 
petroleum industry will be approximately 13,000 workers for the 
conservative demand industry estimate.''
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. For additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, mineral and energy resources, natural hazards, and 
public investment in Earth science research.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)
1. Department of Interior, Bureau of Indian Affairs, Operation Of 
        Indian Programs
    a.  Trust-Natural Resources Management, Rights Protection 
Implementation (RPI)--At least the administration's proposed 
$40,138,000 and a proportionate share for Great Lakes Area Resource 
Management (the overall need for which is at least $10,688,000).
    b.  Trust-Natural Resources Management, Tribal Management/
Development Program (TM/DP): At least the administration's proposed 
$14,263,000 and the TM/DP requests of GLIFWC's member tribes.
    c.  Trust-Natural Resources Management, Tribal Climate Resilience: 
At least the administration's proposed $30,355,000.
    d.  Trust-Natural Resources Management, Invasive Species: At least 
the administration's proposed $6,769,000.
    e.  Tribal Government, Contract Support: At least the 
administration's proposed $272,000,000.

    Funding Authorizations.--Snyder Act, 25 U.S.C. Sec. 13; Indian 
Self-Determination and Education Assistance Act, (Public Law 93-638), 
25 U.S.C. Sec. Sec. 450f and 450h; and the treaties between the United 
States and GLIFWC's member Ojibwe Tribes.\1\
---------------------------------------------------------------------------
    \1\ Specifically, the Treaty of 1836, 7 Stat. 491, Treaty of 1837, 
7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 Stat. 
1109. The rights guaranteed by these treaties have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
2. Environmental Protection Agency
    a.  Environmental Programs and Management, Geographic Programs, 
Great Lakes Restoration: At least the administration's proposed 
$250,000,000 out of which there is an overall tribal need of at least 
$25,000,000. GLIFWC's Need: $1,200,000.
    b.  State and Tribal Assistance Grants, Categorical Grants, Tribal 
General Assistance Program: At least the administration's proposed 
$96,375,000.

    Funding Authorizations.--Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.
          glifwc's fiscal year 2016 funding request highlights
    1.  GLIFWC would be pleased to accept an allocation of appropriated 
RPI funding that is in the same proportion to overall RPI funding as 
has been regularly provided in previous years when funding for the RPI 
line item was increased. This amount for Great Lakes Area Resource 
Management would be approximately $7,153,000, based on the 
administration's fiscal year 2016 proposal for the RPI line item.
    2.  A total tribal set-aside of $25,000,000 and GLIFWC's request of 
$1,200,000 under the Great Lakes Restoration Initiative to be 
distributed through the Indian Self-Determination and Education 
Assistance (ISDEA) Act.
    3.  Full funding for Contract Support Costs, as required by the 
ISDEA Act.
    4.  Sufficient funding in the Tribal Management and Development 
line item for GLIFWC's member tribes to fulfill their needs for 
reservation-based natural resource programs.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    For more than 30 years, Congress has funded GLIFWC to implement 
comprehensive conservation, natural resource protection, and law 
enforcement programs that: (1) ensure member tribes are able to 
implement their treaty reserved rights to hunt, fish, and gather 
throughout the ceded territories; (2) ensure a healthy and sustainable 
natural resource base to support those rights; and (3) promote healthy, 
safe communities. These programs also provide a wide range of public 
benefits, and facilitate participation in management partnerships in 
Wisconsin, Michigan, and Minnesota.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 glifwc's programs--promoting healthy communities and educating tribal 
                 members through treaty rights exercise
    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area in Minnesota, Wisconsin, and 
Michigan.\2\ GLIFWC employs 75 full-time staff, including natural 
resource scientists, technicians, conservation enforcement officers, 
policy specialists, and public information specialists.
---------------------------------------------------------------------------
    \2\ GLIFWC's programs do not duplicate those of the Chippewa-Ottawa 
Resource Authority or the 1854 Treaty Authority. GLIFWC also 
coordinates with its member tribes with respect to tribal treaty 
fishing that extends beyond reservation boundaries by virtue of the 
Treaty of 1854 and the reservations' locations on Lake Superior.
---------------------------------------------------------------------------
    GLIFWC strives to implement its programs in a holistic, integrated 
manner that is consistent with the culture and values of its member 
tribes, especially in light of the tribal lifeway that the exercise of 
treaty rights supports. This means not only ensuring that tribal 
members can legally exercise their rights, but supporting community 
efforts to educate them about the benefits (physical, spiritual, and 
cultural) of harvesting and consuming a more traditional diet, as well 
as promoting intergenerational learning and the transmission of 
traditional cultural and management practices. These programs, in turn, 
promote healthy, strong communities.
    GLIFWC and its member tribes thank Congress, and particularly this 
subcommittee, for its continuing support of these treaty obligations 
and its recognition of the ongoing success of these programs. There are 
two main elements of this fiscal year 2016 funding request:

    1. BIA Great Lakes Area Management (Within the RPI Line Item).--A 
proportionate share of the $40,138,000 proposed by the administration 
for the RPI line item. The administration's proposed increase for RPI 
in fiscal year 2016 is greatly appreciated as well as greatly needed. 
The demand for GLIFWC's services continues to increase, as does the 
need to address the impacts of climate change on natural resources and 
the tribal communities those resources support.
    GLIFWC has testified about the fact that the need is consistently 
greater than RPI funding, and the impacts that underfunding has on 
treaty rights programs. Increased funding in fiscal year 2015 allowed 
GLIFWC to restore some cuts it made to its programs due to previous 
unmet needs. The increase proposed in fiscal year 2016 will continue 
that trend and allow GLIFWC to better understand the physical, chemical 
and biological changes occurring in ceded territory ecosystems, and 
develop and implement adaptive management strategies to address those 
changes.
    Tribes can only protect the resources that support their rights if 
they undertake relevant scientific and technical analyses that inform 
the design and implementation of adaptive natural resource management 
activities. To this end, maximum flexibility should be provided to 
GLIFWC and its tribes to define for themselves the science and research 
activities best suited to the needs of their member tribes and the 
particular issues within their region. GLIFWC would gladly accept funds 
in proportion to overall RPI funding, as provided in fiscal year 2015.

    2. EPA Environmental Programs and Management.--$250,000,000. 
GLIFWC: $1,200,000. GLIFWC supports continued funding for the Great 
Lakes Restoration Initiative (GLRI) as an important non-regulatory 
program that enhances and ensures coordinated governance in the Great 
Lakes, as well as substantive natural resource protection and 
restoration projects. GLIFWC supports funding of no less than $250 
million, but recognizes that this amount does not fulfill all of the 
protection and restoration needs that have been identified. GLIFWC also 
recommends that at least $25 million be provided to the BIA for tribes, 
to ensure that they: (i) are able to hire and support staff that 
provide the requisite capacity to participate in intergovernmental 
protection and restoration initiatives, and (ii) can undertake projects 
that contribute to the protection and restoration of the Great Lakes. 
At a minimum, current funding for tribal ``capacity'' must be 
maintained, and the amount of GLRI funding that has been provided to 
the BIA for projects must be restored to its historic proportion--over 
the past 5 years, that amount has been cut by 40 percent, while overall 
GLRI funding has remained steady.
    Sustained funding for GLIFWC at approximately $1.2 million will 
enable GLIFWC to augment its current natural resource protection and 
enhancement activities. It will also allow GLIFWC to maintain its 
participation in interjurisdictional governance structures, including 
the implementation of the revised Great Lakes Water Quality Agreement 
(GLWQA). With GLRI funding, GLIFWC has been able to help create a team 
to seek out and use Traditional Ecological Knowledge in the 
implementation of commitments made in the Science Annex of the GLWQA. 
Without GLIFWC's participation, this team would likely not have been 
created and the cultural perspectives retained by generations of 
Anishinaabe residing in the Great Lakes would not be shared with those 
working to protect Great Lakes ecosystems.
    Tribal GLRI funding should be provided through the BIA and 
distributed under the ISDEA Act. This funding mechanism delivers 
funding to the field faster and has resulted in the earlier achievement 
of on-the-ground results. It also fulfills the Federal Government's 
long-standing policy of fostering tribal self-determination in the 
implementation of tribal programs.
               results and benefits of glifwc's programs
    1. Maintain the Requisite Capability To Meet Legal Obligations, To 
Conserve Natural Resources and To Regulate Treaty Harvests.--While more 
funding would increase program comprehensiveness, sustained funding at 
the fiscal year 2016 level supports tribal compliance with various 
court decrees and intergovernmental agreements that govern the tribes' 
treaty-reserved hunting, fishing and gathering rights. Funding for 
science and research enhances GLIFWC's capability to undertake work and 
participate in relevant partnerships to address ecosystem threats that 
harm treaty natural resources.

    2. Remain a Trusted Management and Law Enforcement Partner, and 
Scientific Contributor in the Great Lakes Region.--GLIFWC has become a 
respected and integral part of management and law enforcement 
partnerships that conserve natural resources and protect public safety. 
It brings a tribal perspective to interjurisdictional Great Lakes 
management fora and would use its scientific expertise to study issues 
and geographic areas that are important to its member tribes but that 
others may not be examining.

    3. Maintain the Overall Public Benefits That Derive From Its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management. Because of its institutional 
experience and staff expertise, GLIFWC has built and maintained 
numerous partnerships that: (i) provide accurate information and data 
to counter social misconceptions about tribal treaty harvests and the 
status of ceded territory natural resources; (ii) maximize each 
partner's financial resources and avoid duplication of effort and 
costs; (iii) engender cooperation rather than competition; and (iv) 
undertake projects that achieve public benefits that no one partner 
could accomplish alone.

    4. Encourage and Contribute to Healthy Tribal Communities.--GLIFWC 
works with its member tribes' communities to promote the benefits of 
treaty rights exercise. These include the health benefits associated 
with a more traditional diet and the intergenerational learning that 
takes place when elders teach youth. In addition, GLIFWC sponsors a 
camp each summer where tribal youth build leadership skills, strengthen 
connections to the outdoors, and learn about treaty rights and careers 
in natural resource fields.
                                 ______
                                 
   Prepared Statement of the Healing Our Waters-Great Lakes Coalition
    Dear Chairman Murkowski and Ranking Member Udall:

    On behalf of the Healing Our Waters-Great Lakes Coalition, we write 
to ask that you to support funding for Great Lakes restoration 
priorities in fiscal year 2016. The Great Lakes region has received 
much-needed support, and we are seeing on-the-ground results in 
Illinois, Indiana, Michigan, Minnesota, New York, Ohio, Pennsylvania 
and Wisconsin.
    First, we ask you to support $300 million for the Great Lakes 
Restoration Initiative. Restoration efforts are improving the lives of 
millions of people and work is underway on over 2,000 restoration 
projects throughout the region that will restore the Great Lakes and 
address the most urgent problems facing them. These projects are 
cleaning up drinking water flowing to millions of homes and thousands 
of industries and improving infrastructure important for future 
economic growth in the eight-State region. These projects are 
delivering results, including:
  --Two Areas of Concern--Deer Lake, Michigan and White Lake, 
        Michigan--were delisted last year. The Presque Isle, 
        Pennsylvania Area of Concern was delisted in 2013. The 
        management actions necessary for delisting Waukegan Harbor, 
        Illinois, Sheboygan Harbor. Wisconsin, and the Ashtabula River, 
        Ohio, have also been completed. The GLRI has accelerated the 
        cleanup of toxic hotspots by delisting three formerly 
        contaminated sites--in the previous two decades before the 
        Great Lakes Restoration Initiative, only one site had been 
        delisted.
  --Between 2010 and 2014, 52 beneficial use impairments (BUIs) at 13 
        AOCs were removed in Illinois, Indiana, Michigan, New York, 
        Pennsylvania, and Wisconsin, more than tripling the total 
        number of BUIs removed in the preceding 22 years. More BUIs 
        have been removed since the GLRI began than between 1987 and 
        2009.
  --From 2004 to 2009, the Great Lakes region was the only area in the 
        country to show a gain in wetland acreage. Now the GLRI is 
        building on that foundation with a goal to restore one million 
        acres in the basin. So far, the FWS, NPS, NRCS, and NOAA (among 
        others) have restored, protected, or enhanced over 115,000 
        acres of wetlands and other habitat.
  --3,400 river-miles were cleared of over 250 barriers resulting in 
        fish swimming into stretches of river where they have been 
        absent for decades.
  --Based on U.S. Fish and Wildlife Service monitoring, GLRI-sponsored 
        actions are increasing self-sustaining populations of 13 non-
        endangered and non-threatened native species important to the 
        Great Lakes. For example, efforts in the Saginaw River 
        watershed have contributed to the now self-sustaining walleye 
        population in Saginaw Bay, Michigan.

    Second, the GLRI does not address aging sewers that discharge 
billions of gallons of sewage into the Great Lakes, closing beaches, 
threatening public health, and damaging local economies. Communities 
depend on the Clean Water State Revolving Fund (SRF) for low-interest 
loans to implement costly wastewater infrastructure projects that seek 
to stop overflows from happening. Based on a fixed formula, maintaining 
level funding for the Clean Water SRF will provide approximately $500 
million for the eight Great Lakes States in 2015. We request that you 
maintain current funding ($1.45 billion) for this important Great Lakes 
restoration program.
    Investments in Great Lakes restoration create short-term jobs and 
lead to long-term economic benefits for the Great Lakes States and the 
country. A Brookings Institution report shows that every $1 invested in 
Great Lakes restoration generates $2 in return, making Great Lakes 
restoration one of the best investments for the Federal dollar in the 
budget. More recent research from Grand Valley State University 
suggests that the return for certain projects may be closer to 6-to-1. 
The University of Michigan has also demonstrated that over 1.5 million 
jobs are dependent on clean and healthy Great Lakes, accounting for 
more than $60 billion in wages annually. We have also seen jobs being 
created by our Nation's efforts to clean up the Great Lakes and restore 
fish and wildlife habitat. These jobs include wetland scientists, 
electricians, engineers, landscape architects, plumbers, truck drivers 
and many others.
    However, there is still much work that needs to be done. Aging 
sewers, invasive species, and toxic pollutants are just a few of the 
pervasive threats that impact the region, endangering human and 
wildlife health, lowering property values, and hurting the region's 
economy. Cutting funding will slow restoration efforts, allowing 
problems to get worse and making them more expensive to solve. 
Ultimately, cutting spending on the Great Lakes won't save money--it 
will cost the Nation more. As the source of drinking water for 30 
million people, the Nation cannot afford to not protect and restore the 
Great Lakes.
    Progress is being made. Now is not the time to scale back our 
Nation's commitment to restore the Great Lakes environment and economy. 
If we wait and allow restoration efforts to slow, these serious 
problems will only get worse and the price we pay will be much higher. 
For the economy and the environment, please make sure that the fiscal 
year 2016 budget provides at least $300 million for the GLRI, SRF 
funding is maintained, and that all agency Great Lakes restoration base 
budgets are preserved.
    Sincerely,
                    Joel Brammeier, President & CEO, Alliance for the 
                            Great Lakes; Gary Belan, Senior Director, 
                            Clean Water Supply Program, American 
                            Rivers; Erin Crotty, Executive Director, 
                            Audubon New York; Loren H. Smith, Executive 
                            Director, Buffalo Aububon Society; Jill 
                            Jedlicka, Executive Director & Riverkeeper, 
                            Buffalo Niagara Riverkeeper; Mary Smith, 
                            Communications Coordinator, Church Women 
                            United in New York State; Brian Smith, 
                            Associate Executive Director, Citizens 
                            Campaign for the Environment; Deanna White, 
                            State Director, Clean Water Action of 
                            Minnesota; Mark Redsten, CEO, Clean 
                            Wisconsin; Anne M. Vaara, Executive 
                            Director, Clinton River Watershed Council; 
                            Deb Yandala, CEO, The Conservancy for 
                            Cuyahoga Valley National Park; and Jean 
                            Pogge, CEO, Delta Institute.
                    Suzanne Moynihan, Director, The EDGE; Ally Fields, 
                            Clean Water Advocate, Environment America; 
                            Chuck Godfrey, President, Erie County 
                            Federation of Sportsmen's Clubs; Jill Ryan, 
                            Executive Director, Freshwater Future; 
                            Kerry Kelly, Chairman of Board, Friends of 
                            Sleeping Bear Dunes National Lakeshore; 
                            Matt Meersman, President, Friends of the 
                            St. Joe River Association; Mike Strigel, 
                            Executive Director, Gathering Waters: 
                            Wisconsin's Alliance for Land Trusts; June 
                            Summers, President, Genesee Valley Audubon 
                            Society; Jonathan Jarosz, Executive 
                            Director, Heart of the Lakes Center for 
                            Land Conservation Policy; Sr. Rose Therese 
                            Nolta, SSpS, Justice and Peace Coordinator, 
                            Holy Spirit Missionary Sisters, USA, JPIC; 
                            Laura Rubin, Executive Director, Huron 
                            River Watershed Council; and Darwin Adams, 
                            Chairman, Illinois Council of Trout 
                            Unlimited.
                    Mike Leahy, Conservation Director, Izaak Walton 
                            League of America; John Stegmeier, 
                            Conservation Chair, Dwight Lydell Chapter 
                            of the Izaak Walton, League of America; 
                            Ivan J. Hack, Jr., President, Headwaters 
                            Chapter IWLA; Tim Russell, Division 
                            President, Indiana Division Izaak Walton 
                            League; Robert Stegmier, National Director, 
                            Michigan, Izaak Walton League of America; 
                            Les Monostory, President, New York State 
                            Division, Izaak Walton League of America; 
                            Jim Sweeney, President, Porter County 
                            Chapter of the Izaak Walton, League of 
                            America; Michelle Parker, Vice President, 
                            Great Lakes and Sustainability, Daniel P. 
                            Haerther Center for Conservation and 
                            Research, John G. Shedd Aquarium; Alan J. 
                            Weener, President, Kalamazoo River Sturgeon 
                            for Tomorrow; Tom Fuhrman, President, Lake 
                            Erie Region Convervancy; and Sandy Bihn, 
                            Executive Director, Lake Erie Waterkeeper 
                            Inc.
                    Gordon Morlan, Environmental Chairman, League of 
                            Women Voters Grosse Pointe; Betsy Lawson, 
                            Senior Lobbyest, League of Women Voters of 
                            the United States; Nic Clark, Director, 
                            Michigan Clean Water Action; Daniel 
                            Eichinger, Executive Director, Michigan 
                            United Conservation Clubs; John J. Ropp, 
                            President/CEO, Michigan Wildlife 
                            Conservancy; Cheryl Nenn, Riverkeeper, 
                            Milwaukee Riverkeeper; Scott Strand, 
                            Executive Director, Minnesota Center for 
                            Environmental Advocacy; Gary Botzek, 
                            Executive Director, Minnesota Conservation 
                            Federation; Steve Morse, Executive 
                            Director, Minnesota Environmental 
                            Partnership; Lynn McClure, Senior Midwest 
                            Director, National Parks Conservation 
                            Association; Karen Hobbs, Senior Policy 
                            Analyst, Natural Resources Defense Council; 
                            Mike Shriberg, Regional Executive Director, 
                            Great Lakes, National Wildlife Federation; 
                            and Melinda Hughes-Wert, President, Nature 
                            Abounds.
                    Marc Hudon, Chair, Water Commission, Nature Quebec; 
                            Vincent Agnello, Executive Secretary, 
                            Niagara Watershed Alliance; Dennis West, 
                            President, Northern Initiatives; Dan Plath, 
                            President, Northwest Indiana Paddling 
                            Association; Michael Ryan, President, 
                            Northwest Indiana Steelheaders; Ron Urban, 
                            Chairman, NYS Council Trout Unlimited; 
                            Kristy Meyer, Managing Director, 
                            Agricultural, Health & Clean Water 
                            Programs, Ohio Environmental Council; Ray 
                            Stewart, President, Ohio Wetlands 
                            Association; Kris Patterson, Executive 
                            Director, Partners for Clean Streams; David 
                            Masur, Director, PennEnvironment; Irene 
                            Senn, Coordinator, Religious Coalition for 
                            the Great Lakes; and Denny Caneff, 
                            Executive Director, River Alliance of 
                            Wisconsin.
                    Nicole Silk, President, River Network; Nicole 
                            Barker, Executive Director, Save the Dunes; 
                            Lee Willbanks, Upper St. Lawrence 
                            Riverkeeper, Executive Director, Save The 
                            River; Robin Schachat, President, Shaker 
                            Lakes Garden Club; Melissa Damaschke, Great 
                            Lakes Program Director, Sierra Club; Karen 
                            Donahue, Sisters of Mercy West Midwest 
                            Community, Justice Team; Sister Phyllis 
                            Tierney, Coordinator, SSJ Justice & Peace 
                            Ministry, Sisters of St. Joseph of 
                            Rochester; Rafael Rosa, Regional Vice 
                            President, Student Conservation 
                            Association; Jennifer McKay, Policy 
                            Specialist, Tip of the Mitt Watershed 
                            Council; Carol A. Stepien, Director of the 
                            Lake Erie Center, University of Toledo; 
                            Christine Crissman, Executive Director, The 
                            Watershed Center Grand Traverse Bay; 
                            Antoinette Grote, President, Western NY 
                            Trout Unlimited, Chapter #068; Ellen 
                            Satterlee, President and Executive 
                            Director, The Wege Foundation; Rich 
                            Cochran, President and CEO, Western Reserve 
                            Land Conservancy; Kerry Schumann, Executive 
                            Director, Wisconsin League of Conservation 
                            Voters; and Tracy Hames, Executive 
                            Director, Wisconsin Wetlands Association.
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States (HSUS), 
  Humane Society Legislative Fund (HSLF), and Doris Day Animal League
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations. We urge the subcommittee to address these 
priority issues in the fiscal year 2016 Department of Interior 
appropriation.
                          rock creek park deer
    We request that funds made available in this Act give preference to 
non-lethal deer management programs over lethal techniques at Rock 
Creek Park. The National Park Service (NPS) has been using lethal 
methods for controlling the deer population in Rock Creek Park despite 
the availability of non-lethal methods that in the long run will use 
significantly less taxpayer money and result in a more effective long-
term solution to human-wildlife conflicts in the park and its environs. 
In the future, we ask that priority be given to humane, non-lethal 
methods with respect to decisions regarding funding deer management 
programs.
                    environmental protection agency
    Thousands of chemicals are currently used and hundreds of new ones 
are introduced each year for which toxicity assessments need to be 
conducted. To answer this need, EPA established the National Center for 
Computational Toxicity to predict hazard and prioritize chemicals for 
further screening and testing, developing and using high-throughput 
assays and predictive tools which are less expensive and time consuming 
and more predictive of relevant biological pathways.
    Through EPA's CompTox program, EPA has screened more than 2,000 
chemicals (industrial, food additives, and consumer products) and 
evaluated them in more than 700 high-throughput assays. Additionally, 
EPA is using ToxCast data to prioritize chemicals for evaluation in the 
Endocrine Disruptor Screening Program. Tox21, a collaboration between 
EPA, NIEHS, NCATS and the FDA is currently screening 10,000 chemicals 
to improve the effectiveness of drug development.
    However, even as the need increases for this data, the program's 
budget has stagnated. An increase of $12,366 million to the NCCT budget 
is essential to achieving the goals presented in the CompTox program 
and assure a more predictable and relevant chemicals safety assessment.
                multinational species conservation fund
    The administration's fiscal year 2016 budget requests $11.1 million 
for the Multinational Species Conservation Fund (MSCF) program which 
funds African and Asian elephants, rhinos, tigers, great apes like 
chimps and gorillas, and sea turtles. The HSUS joins a broad coalition 
of organizations in support of the administration's request while 
ensuring that the sales from the semi-postal stamps benefiting this 
program remain supplementary to annually appropriated levels. We also 
support the fiscal year 2016 budget justification request from the 
USFWS Office of International Affairs of approximately $14.7 million 
but request that at least $13 million of these funds be allocated to 
the Wildlife Without Borders and International Wildlife Trade programs.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and oppose any future use of funds 
from these conservation programs to promote trophy hunting, trade in 
animal parts, and other consumptive uses--including live capture for 
trade, captive breeding, and entertainment for public display 
industry--under the guise of conservation for these animals. Grants 
made to projects under the MSCF must be consistent with the spirit of 
the law.
        bureau of land management--wild horse and burro program
    The Humane Society of the United States (The HSUS) is one of the 
leading advocates for the protection and welfare of wild horses and 
burros in the U.S. with a long history of working collaboratively with 
the Bureau of Land Management (BLM)--the agency mandated to protect 
America's wild horses and burros--on the development of effective and 
humane management techniques.
    The HSUS strongly supports a significant reduction in the number of 
wild horses and burros gathered and removed from our rangelands 
annually. We believe removing horses from the range without 
implementing any active program for suppressing the population growth 
rate has proven itself to be an unsustainable method of management of 
our Nation's wild horses, and simply leads to a continual cycle of 
roundups and removals when more long-term, cost-efficient and humane 
management strategies, such as fertility control, are readily 
available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. The annual costs associated with 
caring for one wild horse in a long term holding facility is 
approximately $500, and the average lifespan of a wild horse in 
captivity is 30 years. Today, there are more than 50,000 wild horses 
and burros in these pens, and the agency spends more than 50 percent of 
its annual Wild Horse and Burro budget on holding costs. The BLM must 
balance the number of animals removed from the range annually with the 
number of animals it can expect to adopt in a given year if it hopes to 
effectively reduce off-the-range management costs.
    Further, the BLM's current program of management of wild horses has 
negative effects that go beyond a simple cost-benefit analysis. For 
instance, the recommendations in the National Academy of Sciences 2013 
report ``Using Science to Improve the BLM Wild Horse and Burro Program: 
A Way Forward,'' commissioned by the BLM itself, stated that it is 
BLM's own practices of managing wild horses ``below food-limited 
carrying capacity'' by rounding up and removing a significant 
proportion of the herd's population every 3 to 4 years that is 
facilitating high horse population growth rates on the range.
    As such, it is incumbent that the BLM move away from current 
management practices to create a long-term, humane and financially 
sustainable path. It is our belief that the most cost-effective and 
humane approach is for the BLM to move aggressively forward with a 
contraceptive program which prioritizes on-the-range management of wild 
horses and burros. This path forward is supported by the National 
Academy of Sciences report, which called for an increased usage of on-
the-range management tools, including the usage of the fertility 
control vaccine PZP. Further, a 2008 paper determined that 
contraception on-the-range could reduce total wild horse and burro 
management costs by 14 percent, saving $6.1 million per year. Finally, 
the results of a paper describing an economic model commissioned by The 
HSUS indicates that by treating wild horses on one hypothetical Herd 
Management Area (HMA) with the fertility control vaccine Porcine Zona 
Pellucida (PZP), the BLM could save approximately $5 million dollars 
over 12 years while achieving and maintaining Appropriate Management 
Levels (AML) of 874 horses. Since the BLM estimates that more than 
40,000 wild horses roam on 179 HMAs in the U.S., the use of PZP could 
result in a cost-savings of tens of millions of dollars if applied 
broadly across all HMAs.
    For these reasons, while we support the BLM's request for a 2.8 
million dollar budget increase to fund additional research on 
contraception and population growth suppression methods, we request 
that the agency be required to immediately begin usage of the NAS-
recommended fertility control methods that are currently available.
                                 ______
                                 
           Prepared Statement of the Independent Review Team
    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian Country. I am the Lead 
Judge representing the Independent Tribal Court Review Team. The Indian 
Tribal Justice Act was enacted in 1993 which authorized $58.4 million 
per year for 7 years for tribal courts base funding. For more than two 
decades Congress has reauthorized the Act but funds have never been 
appropriated. In 2015 nothing has changed because the lack of funds to 
implement both the Tribal Law and Order Act (TLOA) and the Violence 
Against Women Act (VAWA) have not been appropriated. Without funding to 
support these measures the intent and goals of Congress will never be 
achieved and tribal communities, tribal citizens and tribal women will 
never be safe. Tribal courts remain underfunded and the result is 
negatively impacting law enforcement operations which also was not the 
intent or goal when these bills were enacted. It is the strong 
recommendation of the Independent Tribal Courts Review Team that the 
Federal tribal courts budget be substantially increased in fiscal year 
2016 to support the needs of tribal judicial systems.
            budget priorities, requests and recommendations
1.  +$82 million/year (fiscal year 2015 equivalent to $58.4 million 
authorized under the Indian Tribal Justice Act of 1993, Public Law 103-
176, 25 U.S.C. 3601 and re-authorized in year 2000 Public Law 106-559 
no funds have been appropriated to date).
2.  +$15 million increase for tribal courts above the fiscal year 2010 
enacted level.
3.  Support the requests and recommendations of the National Congress 
of American.

The increase will support:

1.  Hiring and training of court personnel.
2.  Compliance with the Tribal Law and Order Act of 2010.
3.  Compliance/implementation of the VAWA Act of 2013.
4.  Salary increases for existing judges and court personnel.
5.  State-of-the-art technology for tribal courts.
6.  Security and security systems to protect court records and privacy 
of case information.
7.  Tribal court code development.
8.  Financial code development.

    The Independent Court Review Team supports the proposed $5.0 
million increase in the fiscal year 2016 President's budget for tribal 
courts. The fight against crime and drugs has led to more arrests which 
is increasing the caseload in the tribal court system. Provisions in 
both the Tribal Law and Order Act (TLOA) and the Violence Against Women 
Act (VAWA) will have a significant impact on tribal courts. Both 
requires that attorneys be provided to represent non-Indian defendants 
to further strain the capacity of the tribal judicial systems which is 
underfunded, understaffed and ill-equipped to function effectively and 
in a manner comparable to non-Indian government judicial systems. 
Tribal courts are at a critical stage in terms of need.
                               background
    The Bureau of Indian Affairs (BIA) within the Department of the 
Interior provides funding to tribal governments to supplement their 
justice systems including courts. Tribal courts play a ``vital role'' 
in tribal Self-Determination and Self-Governance as cited in long-
standing Federal policy and Acts of Congress. Funding levels from BIA 
to support tribal justice systems have not met the Federal obligations 
and needs.
    There is a great deal of variation in the types of tribal courts 
and how they apply laws. Some tribal courts resemble Western-style 
courts in that written laws and court procedures are applied. Others 
use traditional Native means of resolving disputes, such as 
peacemaking, elders' councils, and sentencing circles. Some tribes have 
both types of courts. The Bureau of Indian Affairs (BIA) also manages 
seven Code of Federal Regulations (CFR) courts.
    Since 1999, the Bureau of Justice Assistance in the Department of 
Justice has administered the Tribal Courts Assistance Program, designed 
to provide funds for tribes to plan, operate, and enhance tribal 
judicial systems. They have made attempts to evaluate tribal courts but 
discovered their means of doing so was insensitive to American Indian 
and Alaska Native (AI/AN) people and unrealistic in the absence of 
elements that were key to Indian Country, such as: (1) the importance 
of tribal culture and traditions; (2) the inability to apply State and 
local criminal justice initiatives to tribal settings; (3) the lack of 
cooperation from non-tribal entities; and, (4) the lack of available 
data on tribal justice.
    The Independent Court Review Team has had more hands on success in 
reviewing tribal court systems. For approximately 7 years, we have 
travelled throughout Indian Country assessing how tribal courts are 
operating. During this time, we completed 84 court reviews. We also 
completed 28 Corrective Actions. There is no one with more hands-on 
experience and knowledge regarding the current status of tribal courts 
than our review team.
                       justification for request
    1. Hiring and Training of Court Personnel.--Tribal courts make do 
with underpaid staff, under-experienced staff and minimal training. (We 
have determined that hiring tribal members limits the inclination of 
staff to move away; a poor excuse to underpay staff.)
    2. Compliance with the Tribal Law & Order Act of 2010.--To provide 
judges, prosecutors, public defenders, who are attorneys and who are 
bared to do ``enhanced sentencing'' in tribal courts.
    3. Compliance/implementation of the 2013 VAWA Act.--To provide 
tribal courts with the ability to provide non-Indians with all the 
rights under the U.S. Constitution in domestic violence actions in 
tribal courts (12 person juries, provide attorneys for non-Indians, 
provide attorneys in court personnel in domestic violence cases as in 
TLOA, etc.)
    4. Salary Increases for Existing Judges and Court Personnel.--
Salaries should be comparable to local and State court personnel to 
keep pace with the non-tribal judicial systems and be competitive to 
maintain existing personnel.
    5. Tribal Courts Need State-of-the-Art Technology.--(Software, 
computers, phone systems, tape recording machines). Many Tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends.
    6. Security and Security Systems to Protect Court Records and 
Privacy of Case Information.--Most tribal courts do not even have a 
full time bailiff, much less a state-of-the-art security system that 
uses locked doors and camera surveillance. This is a tragedy waiting to 
happen.
    7. Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with under-
developed codes. The Adam Walsh Act created a hardship for tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
tribal jurisdiction.)
    8. Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
                          about tribal courts
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, Tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.
    Nationwide, there are 185 tribes with courts that received $23.28 
million in Federal funding in 2015. The Review Team's Assessments have 
indicated that the Bureau of Indian Affairs only funds tribal courts at 
26 percent of the funding needed to operate. Now BIA faces the 
challenges in the new provisions of TLOA and VAWA with no 
appropriations. On the flip side, tribes who cannot afford to assist in 
the financial operations of the court are tasked with doing the best 
they can with what they have even at the expense of decreasing or 
eliminating services elsewhere. This while operating at a disadvantage 
with already overstrained resources and underserved needs of the tribal 
citizens. The assessment suggests that the smaller courts are both the 
busiest and most underfunded.
    The grant funding in the DOJ is intended to be temporary, but 
instead it is used for permanent needs; such as funding a Drug Court 
Clerk who then is used as a Court Clerk with Drug Court duties. When 
the funding runs out, so does the permanent position. We have witnessed 
many failed Drug Courts, failed court management software projects (due 
to training costs) and incomplete code development projects. When the 
justice funding runs out, so does the project.
    As a directive from the Office of Management and Budget in fiscal 
year 2005, our reviews specifically examined how tribes were using 
Federal funding. In the seven fiscal years through September of fiscal 
year 2011 there were only two isolated incidents of a questionable 
expenditure of Federal funds. It has been speculated that because of 
our limited resources, we compromise a person's due process and invoke 
``speedy trials'' violations to save tribal courts money. Everyone who 
is processed through the tribal judicial system is afforded their 
Constitutional civil liberties and civil rights.
    We do not wish to leave an entirely negative impression about 
tribal courts. Tribal courts need an immediate, sustained and increased 
level of funding. True. However, there are strong indications that the 
courts will put such funding to good use.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts do offer jury trials. In many courts, one sustained jury trial 
will deplete the available budget. The only place to minimize expenses 
is to fire staff. Many tribal courts have defense advocates. These 
advocates are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets and if 
the defense advocate, or prosecutor, should leave, the replacement 
process is slow.
    This Congress and this administration can do something great. Put 
your money where your promises have been and support the Acts you have 
passed. Thank You.
                                 ______
                                 
   Prepared Statement of the Institute of Makers of Explosives (IME)
                            interest of ime
    IME is a nonprofit association founded in 1913 to provide accurate 
information and comprehensive recommendations concerning the safety and 
security of commercial explosive materials. Our mission is to promote 
safety and the protection of employees, users, the public and the 
environment, and to encourage the adoption of uniform rules and 
regulations in the manufacture, transportation, storage, handling, use 
and disposal of explosive materials used in blasting and other 
essential operations.
    IME represents U.S. manufacturers and distributors of commercial 
explosive materials and oxidizers as well as other companies that 
provide related services. Millions of metric tons of high explosives, 
blasting agents, and oxidizers are consumed annually in the United 
States. Of this, IME member companies produce over 98 percent of the 
high explosives and a great majority of the blasting agents and 
oxidizers.
    Commercial explosives are pervasively regulated by a myriad of 
Federal and State agencies. Explosives manufacturing, storage and 
transportation facilities comply with Environmental Protection Agency 
(``EPA'') regulations implementing various Federal environmental 
statutes such as the Clean Air Act (``CAA''), including the Risk 
Management Program (``RMP''), and the Emergency Planning and Community 
Right To Know Act (``EPCRA''). EPA participates in the Chemical 
Facility Safety and Security Working Group, or Interagency Working 
Group (``IWG''), which is engaged in satisfying the requirements of 
Executive Order (``EO'') 13650, Improving Chemical Facility Safety and 
Security. The IWG's June 6, 2014 status report, Actions to Improve 
Chemical Facility Safety and Security--A Shared Commitment, includes 
actions that have the potential to significantly impact the commercial 
explosives industry.
    We offer the following comments on the need to provide EPA 
sufficient funds to address and improve chemical facility safety, and 
the concurrent need to ensure that the agency's actions complement the 
regulatory requirements of other Federal agencies while avoiding 
unnecessary regulation and/or redundancy within and between agency 
programs.
    fiscal year 2016 activities and performance plan--rmp and epcra
    The administration's fiscal year 2016 budget request includes funds 
that would allow EPA to identify and focus its enforcement efforts on 
significant vulnerabilities at the Nation's chemical facilities. The 
request would also be aimed at enhancing oversight, inspections and 
enforcement at high-risk facilities subject to the RMP. Activities 
would include, among other things, RMP and EPCRA compliance 
inspections; national coordination for chemical accident prevention and 
emergency response planning program policy, inspections, compliance and 
enforcement; program oversight, monitoring, and support for the 
Computer-Aided Management of Emergency Operations (``CAMEO'') system; 
training for inspectors; and communication/cooperation with State and 
local governments to provide outreach and training on RMP and EPCRA.
    IME supports the agency's efforts to expand and enhance its current 
training, inspection and enforcement programs. In particular, EPA 
should be provided with sufficient resources to ensure that it has an 
adequately trained cadre of inspectors and is capable, at least, of 
inspecting all facilities designated by the agency as ``high risk.'' 
According to EPA, the number of facilities is currently 1,900. We 
expect, however, that this number may grow as the agency identifies and 
scrutinizes additional facilities through its improved coordination 
with the Department of Homeland Security and its other IWG partners. 
The subcommittee should take this into consideration as it examines the 
budget request.
    Enhanced communication and coordination with State and local 
governments and organizations is critical if EPA is to identify high 
risk and other ``outlier'' facilities that are operating in violation 
of current regulatory requirements. As part of this effort, the IWG 
envisions improvements in the Local Emergency Planning Committee 
(``LEPC'') program established under EPCRA. Although EPA administers 
the program, it does not control the distribution of funds to LEPCs. 
Rather, incongruously, the LEPC program is funded through the issuance 
of Hazardous Materials Emergency Program (``HMEP'') grants administered 
by the Department of Transportation's Pipeline and Hazardous Materials 
Safety Administration (``PHMSA''), as authorized by the Hazardous 
Materials Transportation Act.
    This bifurcated administrative and funding arrangement is awkward 
at best. In addition, PHMSA's management of the HMEP grant program is 
ineffective and is, in large part, responsible for the failure of the 
LEPC program in many areas of the country.\1\ If the LEPC program is to 
be improved, a necessary first step would be to place the funding of 
the program under the control of the agency that is actually 
responsible for overseeing and administering it. The need to support 
LEPCs is highlighted in the IWG status report as essential to community 
engagement in properly planning for public safety and the safeguarding 
of property and the environment in the event of a chemical emergency. 
The LEPC system, if it is to be made workable, must be administered 
wholly by EPA in both its financial and programmatic elements. We ask 
the subcommittee to support EPA's request for funds to support this 
program.\2\
---------------------------------------------------------------------------
    \1\ PHMSA's Inadequate Management and Oversight of Hazardous 
Materials Emergency Preparedness Grants Limited the Program's 
Effectiveness, DOT-OIG, AV-2012-040, January 12, 2012.
    \2\ Fiscal Year 2016 USEPA Budget Justification, EPA-190-R-15-001 
(Feb. 2015), at p. 360.
---------------------------------------------------------------------------
       fiscal year 2016 activities and performance plan--eo 13650
    The administration's fiscal year 2016 budget request also includes 
funding for EPA's activities in support of EO 13650. As part of its 
effort to implement the requirements of the EO, EPA published a Request 
for Information (``RFI'') on the RMP in 2014. Among other things, EPA 
inquired whether explosives and/or ammonium nitrate (``AN'') should be 
included on an expanded RMP list of substances. We do not believe that 
any resources appropriated to support the RMP program should be used to 
fund an expansion of the program to include explosives or AN.
Explosives
    As we stated in our comments on the RFI, an expansion of the RMP to 
include explosives would unnecessarily duplicate extant Federal 
regulatory programs including EPA's EPCRA program, the Occupational 
Safety and Health Administration (``OSHA'') Process Safety Management 
Standard (``PSM'') and Explosives and Blasting Agents Standard, and 
quantity/distance requirements administered by the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (``ATF''). This existing suite of 
controls already delivers the three key protections provided by the 
RMP, i.e.; (i) emergency response planning and communication (EPCRA), 
(ii) accident prevention (PSM), and (iii) protection against offsite 
consequences (ATF).
    In short, there is no need for EPA to expend valuable resources 
reexamining the exclusion of explosives from the RMP. As noted, 
existing regulations administered by a variety of agencies, including 
EPA, already sufficiently cover the ground that RMP is intended to 
safeguard. Coverage under OSHA's PSM and Explosives and Blasting Agents 
Standards provide accident prevention at the same level that would be 
provided by the RMP. Compliance with PSM, EPCRA, and ATF rules furnish 
local responders with the information necessary to respond to an 
emergency. ATF and OSHA regulations incorporating the American Table of 
Distances (i.e., quantity/distance requirements) ensure that the 
effects of an accidental explosion would be confined to facility 
property, thus obviating the need for RMP rules aimed at estimating and 
responding to offsite consequences. Moreover, independent industry 
efforts to guarantee safety through the use of IMESAFR, a widely 
accepted quantitative risk assessment program developed by IME, and 
industry best practices and standards published in IME's Safety Library 
Publications and guidance documents operate as additional safeguards of 
worker and public safety. No further regulation is necessary.
Ammonium Nitrate
    EPA's RFI also inquires whether there are safety gaps in current 
regulations covering AN that could be addressed under the RMP. We 
believe that no gaps exist and that the agency's resources would be 
better spent in addressing problematic but improvable areas such as the 
LEPC program and coordination between Federal agency programs.
    As we also noted in our response to the RFI, we believe that 
existing regulatory requirements, with recommended enhancements, are 
adequate to safely regulate the management of AN. AN can present a 
hazard if managed or stored improperly, but it does not warrant 
inclusion in a complex regulatory program like the RMP. The proper 
management of AN is not only straightforward, but, done correctly, 
effectively eliminates any potential hazard. AN is not a volatile or 
self-reactive chemical requiring constant diligence in its handling. 
The proper management of AN is simple, well understood, and easily 
accomplished. IME's Safety and Security Guidelines for Ammonium Nitrate 
\3\ describe appropriate management parameters: AN must be stored in 
non-combustible bins or storage buildings, isolated from potential 
contaminants, and protected from substantial and sustained heat sources 
(e.g., fire) and shock. Where these uncomplicated tenets are followed, 
the reactive hazard associated with AN is negligible if not 
nonexistent.\4\
---------------------------------------------------------------------------
    \3\ IME Safety and Security Guidelines for Ammonium Nitrate (2013).
    \4\ This can be substantiated through quantitative risk assessment.
---------------------------------------------------------------------------
    IME would oppose any appropriation that could be used to expand the 
RMP to include AN (whether on its own or as a ``reactive chemical''). 
Existing OSHA rules at 29 CFR 1910.109(i) are adequate to ensure the 
safe storage and handling of this material and the inclusion of AN in 
the RMP would do nothing to enhance the safety of workers or the 
public.\5\ IME recommends that specific language be included in 
appropriations legislation prohibiting the expansion of the RMP to 
include AN.
---------------------------------------------------------------------------
    \5\ IME has recommended, however, that 29 CFR 1910.109(i) be 
updated consistent with our Guidelines. IME is also a member of the 
National Fire Protection Association (``NFPA'') 400 Committee and has 
made similar recommendations as part of the ongoing review of NFPA 400, 
Chapter 11, Ammonium Nitrate.
---------------------------------------------------------------------------
                toxic substances control act (``tsca'')
    In EPA's Congressional Justification the agency has indicated that 
it plans to submit legislative language that would allow it to assess 
fees to manage chemical manufacturers' requests that the agency protect 
designated information as confidential business information 
(``CBI'').\6\ The legislative language would establish a revolving fund 
in the U.S. Treasury known as the TSCA CBI Management Fund that would 
be used by the agency to manage CBI claims, support its specialized CBI 
communications and database, and fund physical security and CBI 
reviews.
---------------------------------------------------------------------------
    \6\ Fiscal Year 2016 USEPA Budget Justification, EPA-190-R-15-001 
(Feb. 2015), at p. 1014-15.
---------------------------------------------------------------------------
    IME does not support this request. Chemical manufacturers, 
including the commercial explosives industry, expend hundreds of 
millions of dollars in researching and developing unique and innovative 
products that help fuel the U.S. economy. Manufacturers should not, in 
addition, have to pay fees to the Federal Government in order to 
safeguard the confidentiality of their own work product.
                               conclusion
    IME supports EPA's request for funding to support improvements in 
chemical facility safety and local and regional emergency preparedness 
planning. We oppose, however, any effort to expand the RMP to include 
explosives or AN, and we oppose the imposition of fees to safeguard CBI 
under TSCA.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is John Stefanko and I serve as Deputy Secretary of the 
Office of Active and Abandoned Mine Operations within the Pennsylvania 
Department of Environmental Protection. I appreciate the opportunity to 
present this statement to the subcommittee regarding the views of the 
Interstate Mining Compact Commission's 26 member States on the fiscal 
year 2016 budget request for the Office of Surface Mining Reclamation 
and Enforcement (OSM) within the U.S. Department of the Interior. In 
its proposed budget, OSM is requesting $63.5 million to fund title V 
grants to States for the implementation of their regulatory programs, a 
reduction of $5.1 million or 7.4 percent below the fiscal year 2015 
enacted level. OSM also proposes to reduce mandatory spending for the 
abandoned mine lands (AML) program by $24.4 million pursuant to a 
legislative proposal to eliminate all AML funding for certified States 
and tribes.
    The Compact is comprised of 26 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $63.5 million for title V grants to 
States in fiscal year 2016, an amount which is matched by the States. 
These grants support the implementation of State regulatory programs 
under the Surface Mining Control and Reclamation Act (SMCRA) and as 
such are essential to the full and effective operation of those 
programs. Pursuant to these primacy programs, the States have the most 
direct and critical responsibilities for conducting regulatory 
operations to minimize the impact of coal extraction operations on 
people and the environment. The States accomplish this through a 
combination of permitting, inspection and enforcement duties, 
designating lands as unsuitable for mining operations, and ensuring 
that timely reclamation occurs after mining.
    In fiscal year 2015, Congress approved $68.6 million for State and 
tribal title V grants pursuant to the Omnibus Appropriations bill.\1\ 
This continued a much-needed trend whereby the amount appropriated for 
these regulatory grants aligned with the demonstrated needs of the 
States. The States are greatly encouraged by the amount approved by 
Congress for title V grant funding over the past several fiscal years. 
These grants had been stagnant for over 12 years and the gap between 
the States' requests and what they received was widening. This 
debilitating trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
minimize the potential adverse impacts of coal extraction operations on 
people and the environment.
---------------------------------------------------------------------------
    \1\ In approving this amount for State grant funding in fiscal year 
2015, Congress noted that: ``The Committees find the budget proposal to 
reduce regulatory grants would undermine the State-based regulatory 
system. It is imperative that States continue to operate protective 
regulatory programs as delegation of authority to the States is the 
cornerstone of the surface mining regulatory program.''
---------------------------------------------------------------------------
    In recent budget requests, OSM displayed a pattern of proposing 
woefully inadequate funding for State title V regulatory programs. 
Congress consistently rejected the proposed reductions and funded the 
programs at amounts that more closely aligned with the States' 
projected needs. OSM's fiscal year 2016 budget proposal reflects a 
better understanding of the importance of adequately funding State 
regulatory programs and thus represents a welcome departure from 
previous years.
    While the States are appreciative of OSM's apparent change of 
direction, the amounts proposed will still inhibit the States' ability 
to operate at the optimal level. The title V grant amount proposed by 
OSM is $5.1 million less than the 2015 enacted level. As a rationale 
for the reductions, OSM asserts that any shortfalls in fiscal year 2016 
can be covered by the carryover from previous fiscal years. While the 
States understand OSM's position, we believe this plan to be 
shortsighted in that it fails to consider the improving fiscal 
conditions in many States and the damaging precedent set by 
appropriating suboptimal grant amounts. Furthermore, there is no 
guarantee that these carryover funds will be available into the future 
or that they would not be reprogrammed for other purposes.
    It should be kept in mind that, given fiscal constraints on State 
budgets from the downturn in the economy, some States have only 
recently been able to move beyond hiring and salary freezes and 
restrictions on equipment and vehicle purchases, all of which have 
inhibited the States' ability to spend all of their Federal grant money 
in years past. With many States now recovering enough to utilize their 
full grant amount, it is imperative that funding be maintained at the 
current level of $68.6 million. Any supplemental increases for tribal 
primacy programs would need to be in addition to that amount.
    Clear indications from Congress that reliable, consistent funding 
will continue into the future has done much to stimulate support for 
these programs by State legislatures and budget officers who, in the 
face of difficult fiscal climates and constraints, have had to deal 
with the challenge of matching Federal grant dollars with State funds. 
Recall that any cut in Federal funding generally translates to an 
additional cut of an equal amount for overall program funding for many 
States, especially those without Federal lands, since these States can 
generally only match what they receive in Federal money.
    At the same time that OSM is proposing cuts for State programs, the 
agency is proposing sizeable increases for its own program operations 
(almost $4 million), including an increase of 12 full time employees. 
In making the case for its funding increase, OSM's budget justification 
document contains vague references to the need ``to improve the 
implementation of existing laws.'' More specifically, OSM states in its 
budget justification document that ``with greater technical skills, OSM 
anticipates improved evaluation of permit-related actions and 
resolution of issues to prevent unanticipated situations that otherwise 
may occur as operations progress, thereby improving implementation of 
existing laws'' (pg. 58). In our view, this is code language for 
enhanced and expanded Federal oversight of State programs and reflects 
a move by OSM to exert a more direct role in State programs, especially 
regarding permitting decisions, thereby weakening State primacy. 
Without more to justify the need for additional oversight and the 
concomitant increase in funding for Federal operations related thereto, 
Congress should reject this request.
    The overall performance of the States as detailed in OSM's annual 
State program evaluation reports demonstrates that the States are 
implementing their programs effectively and in accordance with the 
purposes and objectives of SMCRA.\2\ In our view, this suggests that 
OSM is adequately accomplishing its statutory oversight obligations 
with current Federal program funding and that any increased workloads 
are likely to fall upon the States, which have primary responsibility 
for implementing appropriate adjustments to their programs identified 
during Federal oversight.
---------------------------------------------------------------------------
    \2\ The Congress agreed with this assessment when it commented as 
follows on OSM's proposed increase in fiscal year 2015: ``The [Omnibus 
Appropriations] agreement does not provide funds to expand and enhance 
Federal oversight activities of State programs.''
---------------------------------------------------------------------------
    To the extent that OSM seeks to enhance State primacy, we would 
support a renewed focus on processing State program amendments. 
Additionally, if OSM is looking for ways to improve and enhance the 
overall implementation of SMCRA at both the State and Federal level, we 
would urge the agency to move forward with the findings and 
recommendations of the Government Efficiency Work Groups that spent 
considerable time and effort throughout 2014 to, among other things, 
address the continuing fiscal impacts on program implementation and 
develop workable solutions. While OSM mentions the work of this State/
Federal initiative in its Budget Justification document (pg. 10), there 
has been little movement to follow up on this excellent work since the 
submission of the Work Group reports last July.
    For all the above reasons, we urge Congress to approve not less 
than $68.6 million for State and tribal title V regulatory grants, the 
same amount enacted by Congress over the past few fiscal years. In 
doing so, Congress will continue its commitment to ensuring the States 
have the resources they need to continue their work on the forefront of 
environmental protection and preservation of public health and safety.
    With regard to funding for State title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. These grants are still based on receipts from a fee 
on coal production, but beginning in fiscal year 2008, the grants are 
funded primarily by mandatory appropriations. As a result, the States 
and tribes should receive $209 million in fiscal year 2016. In its 
fiscal year 2016 proposed budget, the Office of Surface Mining (OSM) is 
requesting $385 million for State and tribal AML grants, an increase of 
$176 million. OSM's budget also includes five legislative proposals, 
the first of which would eliminate funding to States and tribes that 
have ``certified'' completion of their highest priority abandoned coal 
reclamation sites (a reduction of $24.4 million in fiscal year 2016); 
the second of which would return the AML reclamation fee paid by coal 
operators to pre-2006 levels; the third of which would establish a 
hardrock AML fee and accompanying program; the fourth of which would 
provide enhanced payouts to the United Mine Workers Retirement Funds, 
and the fifth of which would accelerate the distribution of grant funds 
for a portion of the remaining unappropriated balance in the AML Trust 
Fund to ``facilitate sustainable revitalization'' in addition to 
cleanup and redevelopment of eligible lands and waters (an additional 
$200 million in fiscal year 2016).
    With regard to this latter proposal, while the States are 
supportive of the spirit of the proposal and have in fact designed many 
projects around these types of purposes using local contractors 
whenever the opportunities and partnerships exist, we cannot support a 
programmatic change of this magnitude without a better understanding of 
the specifics of how it will be implemented. The success of such an 
endeavor, as well as the States' support for it, is highly dependent on 
robust consultation between OSM and State AML Program Managers. At this 
juncture, the States are concerned that the proposal could have 
negative ramifications for the overall remediation of AML hazards and 
thus public health and safety. Depending on how the proposal is 
implemented, the addition of ``economic eligibility factors'' to 
existing site selection criteria could potentially divert some amount 
of funding away from the highest priority AML sites. Please keep in 
mind that the $1 billion of AML Fund money which would be repurposed by 
the proposal is already slated for dispersal to the States under the 
allocation system and site prioritization method ordained by Congress 
in the 2006 amendments to SMCRA.
    With regard to the proposal contained in OSM's budget to establish 
a hardrock AML program, the States are well aware of the need to 
address historic hardrock AML problem areas, beginning with the 
inclusion of section 409 of SMCRA in 1977. There is clearly a need to 
establish both the funding mechanism and the administrative program to 
address these legacy sites, be it through a fee or through a meaningful 
Good Samaritan program that provides liability protection for those 
undertaking this type of work. We believe that OSM is in the best 
position to administer a hardrock AML program, given its 35 years of 
experience in operating the title IV program under SMCRA. Our only 
concern is that, while on the one hand OSM is advocating for the 
establishment of a hardrock AML program, it is also pushing for the 
elimination of funding for certified States and tribes to accomplish 
this very work.
    OSM's budget proposal also includes a legislative proposal which 
would require a massive transfer of $363.4 million from the Treasury to 
various components of the UMWA Health and Retirement Funds. The States 
recognize the importance of this issue and are supportive of efforts to 
ensure the long-term solvency of the UMWA Pension Funds. However, the 
States believe that this issue should be pursued as part of a more 
comprehensive reauthorization package given the overall implications 
for the AML program. Furthermore, the States are concerned that this 
significant dispersal of Treasury funds could impact the application of 
the $490 million cap on transfers from the Treasury vis-a-vis mandatory 
Treasury payments to the States for AML work.
    We appreciate the opportunity to submit this statement on the 
Office of Surface Mining's proposed budget for fiscal year 2016. We 
also endorse the statement of the National Association of Abandoned 
Mine Land Programs (NAAMLP), which goes into greater detail regarding 
the implications of OSM's funding and legislative proposals for the 
States and tribes. We would be happy to answer any questions.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
                                summary
    Mr. Chairman, members of the subcommittee, I am Phil Rigdon, 
President of the Intertribal Timber Council (ITC) and Deputy Director 
of Natural Resources for the Yakama Nation. The ITC submits the 
following recommendations for fiscal year 2016 Indian forestry-related 
activities in the Bureau of Indian Affairs (BIA), the Department of 
Interior (DOI) Office of Wildland Fire Management (OWF), and the 
U.S.D.A. Forest Service (USFS):
Bureau of Indian Affairs
     (1)  Increase BIA Forestry by $25 million, to $76.9 million, as a 
first step to providing the $100 million needed for funding parity with 
other Federal forestry programs, as recommended by the IFMAT III 
report. Require tribal participation in allocation of this increase.
     (2)  Separately, increase BIA Forestry Projects by $12.7 million 
to initiate a BIA Forestry Workforce Development program, as 
recommended by IFMAT III.
     (3)  Support BIA's Tribal Climate Resilience program request of 
$30.355 million.
     (4)  Increase the BIA Endangered Species funding to $10 million.
Interior Office of Wildland Fire Management
     (5)  Support the Preparedness request of $323.7 million, with 
transparency for tribal Contract Support Costs (CSCs).
     (6)  Increase Fuels Management funding to $206 million; allow RTRL 
funds on tribal lands.
     (7)  Support the Disaster Fire Funding legislative proposal.
     (8)  Support the $30 million Resilient Landscapes initiative.
U.S.D.A. Forest Service
     (9)  Encourage expanded support for the ITC Anchor Forest 
initiative.
    (10)  Encourage the USFS to improve implementation of the Tribal 
Forest Protection Act.
                               ifmat iii
    Many of our comments and recommendations reflect the third IFMAT 
report, the statutorily required (Public Law 101-630, Sec. 312) decadal 
review and report on tribal forests and forestry conducted by an 
independent Indian Forest Management Assessment Team (IFMAT). The IFMAT 
III report (in two volumes plus an executive summary) was completed in 
and dated 2013, and was printed and distributed the spring of 2014, 
including a copy to the subcommittee.
    The IFMAT III report examines tribal forests using a ``FIT'' 
framework: Fire, Investment and Transformation: ``Fire'' for the large 
role wildland fire and other threats present to tribal forest health 
and productivity; ``Investment'' for the Federal funding and trust 
support needed for meeting the Federal trust and ensuring a sustainable 
future for Indian forests; and ``Transformation'' for the role of 
Indian forestry as a model for sustainable land management.
    IFMAT III examines eight specific review areas required by the 
statute, including staffing and funding, and looks at additional issues 
including Indian forest benefits, climate change, and the Anchor 
Forests initiative and implementation of the Tribal Forest Protection 
Act.
    IFMAT III found that chronically insufficient funding and worsening 
staff shortages are threatening tribal forests and communities from 
foregone economic opportunities, inadequate management, and resource 
losses due to wildland fire, insects, disease, and climate change. 
Federal trust management funding of Indian forests is still only one 
third of that for National Forests; an additional $100 million in base 
funding is needed to bring Indian forestry and wildfire management to 
parity. Staffing shortfalls are jeopardizing the capacity to care for 
forest resources: 800 additional positions are needed for adequate 
staffing and $12.7 million is needed annually for staff recruitment, 
training and retention.
    Against this background, the ITC makes the following comments and 
requests for fiscal year 2016.
Bureau of Indian Affairs
(1)  Increase BIA Forestry by $25 million, to $76.9 million, as a first 
        step to providing the $100 million needed for funding parity 
        with other Federal forestry programs, as recommended by IFMAT 
        III. Require tribal participation in allocation of this 
        increase.

    Within the total 56 million Indian acres in Federal trust, 18.6 
million acres are forested, of which 7.3 million acres are designated 
as commercial forest capable of supporting an annual allowable cut 
(AAC) of 723 million board feet per year. We request that the fiscal 
year 2016 BIA Forestry budget be increased by $25 million, to $76.9 
million, to begin to reduce the glaring $100 million funding disparity 
with other Federal forestry programs as discussed in the IFMAT III 
report. The ITC also asks the subcommittee to require tribal 
participation in the allocation of these additional funds to help 
assure appropriate allocation among various BIA Forestry and Wildland 
Fire programs.
    BIA Forestry's chronic underfunding contributes to the failure to 
harvest the full AAC, with serious repercussions for tribal economies 
and the health of the trust corpus. The AAC reflects tribal policy 
decisions on balancing multiple use considerations involving economy, 
ecology, and cultural values. The difference between the AAC and the 
actual harvest level funded and overseen by the BIA is a key metric 
that can be used to help measure the degree to which the U.S. is 
fulfilling its fiduciary duties for managing the Indian trust forests. 
In fiscal year 2014, the 437 million board feet of timber harvested 
from Indian forests generated $62 million in stumpage income and 
supported over 22,000 jobs (tribal and non-tribal communities 
combined), but these benefits were 40 percent below the levels that 
would have been received had the full AAC been harvested. The failure 
to harvest the full AAC in fiscal year 2014 reduced stumpage revenue by 
over $41 million and represented a loss of over 15,000 jobs (tribal and 
non-tribal combined). Since IFMAT I was issued in1991, the failure to 
harvest the full AAC has resulted in the loss of $727 million in 
stumpage income and 272,000 jobs in Indian Country.
    The chronic underfunding of Indian trust forests also impacts and 
potentially jeopardizes non-timber forest products, with an estimated 
national annual value of $10 million, and places these forests and all 
their benefits at risk of catastrophic loss from wildfire, climate 
change, insects, disease, trespass, and invasive species. A $25 million 
funding increase is an essential first step toward providing Indian 
trust forests with funding equal to that provided other Federal 
forests, improving tribal economies, sustaining the health and 
productivity of the trust forests, and avoiding the prospects of future 
trust mismanagement lawsuits.

(2)  Separately, increase BIA Forestry Projects by $12.7 million to 
        initiate a BIA Forestry Workforce Development program, as 
        recommended by IFMAT III.

    BIA and tribal Forestry are facing a staffing crisis. The IFMAT III 
report states 800 additional BIA Forestry positions are needed, and an 
increasing number of existing positions are unfilled due to retirements 
and funding shortfalls. Trained personnel are essential for the 
sustainable trust management of our forests, including timber for 
tribal economies and healthy forests for tribal communities. As an 
example, on my reservation--the Yakama Nation--33 of the 55 BIA 
Forestry positions have not been filled for a long time, despite 
repeated tribal pleas. Harvest targets sought by the tribe are not 
being met, forest health is suffering, and economic opportunities are 
being lost. Nationally, to begin to address this large and growing 
personnel shortage and its negative consequences on the Federal trust 
and tribal economies, $12.7 million is needed to start a program to 
attract, train and retain forestry staff.

(3)  Support BIA's Tribal Climate Resilience program request of $30.355 
        million.

    ITC supports the BIA $30.355 million request for the Tribal Climate 
Resilience program. This provides a useful amount needed for evaluating 
climate change on our homelands, and to plan and conduct actual on-the-
ground projects to begin addressing its consequences. America's 566 
Indian tribes are a segment of the population most closely tied to and 
reliant upon our lands, which are our history, our culture, our 
livelihoods, and our future. We appreciate and support this request to 
help protect our homes from the impacts of climate change.

(4)  Increase BIA Endangered Species funding to $10 million.

    ITC requests BIA ESA be funded at $10 million so the myriad listed 
species throughout Indian Country nationwide can be better addressed. 
BIA's $3.7 million request for ESA is an improvement over past years, 
but the proposal is less than the ESA per-acre funding for BLM and 
still only slightly above the $3 million appropriated for BIA ESA in 
fiscal year 2002. A further significant increase in BIA ESA to $10 
million is fully warranted.
Department of the Interior Wildland Fire Management
(5)  Support the Preparedness request of $323.7 million, with 
        transparency for tribal CSCs.

    Within this requested amount, ITC supports designations for tribal 
contract support costs (CSCs) and for BIA and tribal fire workforce 
development. However, we ask that the Department be directed to 
dialogue transparently with tribes on the allocation of these 
designated funds, particularly CSCs, which are being siphoned off by 
the administering agency, leaving only a fraction of the designated 
amount to help tribes cover the costs of contracting preparedness 
functions on the ground.

(6)  Increase Fuels Management funding to $206 million; allow RTRL 
        funds on tribal lands.

    For fiscal year 2016, ITC again urges Fuels Management funding at 
its fiscal year 2010 $206 million level. The Department's fuels 
reduction backlog remains huge, funding has never come close to need, 
and prevention is more cost effective than suppression. Within the 
fiscal year 2016 Fuels Management appropriation, ITC strongly supports 
the designation of $10 million for Reserved Treaty Rights Lands (RTRL) 
landscape restoration, to allow tribes to engage in proactive fuels and 
forest health projects to protect tribal trust assets on treaty lands. 
However, we ask that these funds be allowed on tribal lands, and not 
just off-reservation. The ITC also wishes to note again our 
appreciation of OWF for its efforts to engage tribes in its policy and 
funding considerations.

(7)  Support the Disaster Fire Funding legislative proposal.

    ITC supports the legislative proposal to address extreme fire 
suppression costs (above 70 percent of the 10 year average) as the 
natural disasters that they are, reducing the adverse impacts of these 
large costs on both DOI's operations and budgets.

(8)  Support the $30 million Resilient Landscape initiative.

    With this initiative, fuels and health projects can be more broadly 
and cooperatively applied across landscapes and beyond the wildland-
urban interface (WUI).
U.S.D.A. Forest Service
(9)  Encourage expanded support for the ITC Anchor Forest initiative.

    We ask that you support, and encourage continued Forest Service 
support of, the ITC's Anchor Forest initiative. The initiative, in 
which tribes play a key role, works across forest landscape boundaries 
and diverse stakeholders to foster long-term collaboration to maintain 
ecological functions and sustain economically viable infrastructure for 
management, harvesting, transportation, and processing of forest 
products. Currently, the ITC is engaged in a pilot project involving 
three Anchor Forest study areas in Washington and Idaho (involving 
Yakama, Colville, and the Spokane and Coeur d'Alene Tribes), with 
participation and support from USFS, BIA, Washington State, the 
conservation community, and local forestland owners and businesses that 
are affected by forest health and productivity. Tribes in the Lakes 
States, the Plains States, Alaska, and the Southwest are beginning to 
express interest in the Anchor Forest concept, so we ask the 
subcommittee to encourage continued and expanded USFS support of the 
initiative.

(10)  Encourage the USFS to improve implementation of the Tribal Forest 
        Protection Act.

    Finally, we ask the subcommittee to encourage DoAg and DOI to make 
wider use of Tribal Forest Protection Act (TFPA, Public Law 108-278) 
agreements, in which tribes are authorized to conduct address fuels and 
health projects on adjacent Federal forests to help address threats 
like fire, disease and insect infestations. The USFS has been very slow 
in implementing the TFPA, but some progress is being made: this spring, 
the USFS and ITC are conducting regional workshops for USFS and other 
Federal personnel, tribes, and other interested parties to learn about 
TFPA and to actually start forging TFPA agreements. But there is still 
a dearth of active or new TFPA projects, and we urge the subcommittee 
to actively support and urge increased TFPA projects.
                 intertribal timber council background
    The ITC is a 39 year old association of forest owning tribes and 
Alaska Native organizations that collectively manage more than 90 
percent of the 18.6 million acres of BIA trust timberland and woodland 
that provide thousands of jobs and significant economic activity in and 
around Indian Country. In addition, our forests store and filter the 
water and air, sustain habitats, and produce foods, medicines, fuel, 
and materials for shelter, transportation, and artistic expression. We 
invite you to come visit.
    That concludes my statement. Thank you.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2016 Bureau of Indian Affairs (BIA) and Indian Health 
Service (IHS) budgets. Funding for Indian country is appropriated in 
the non-defense discretionary portion of the Federal budget. We, 
therefore, renew our request that Congress work together to achieve a 
balanced approach to the budget deficit that includes raising new 
revenue sources and that doesn't rely solely on cuts to discretionary 
spending.
    We strongly support the administration's fiscal year 2016 budget 
proposal as it reflects an improved commitment on behalf of the Federal 
Government to uphold treaty and trust obligations with an investment in 
Indian programs that includes a 12 percent increase for the BIA over 
the fiscal year 2015 enacted level, a 9 percent increase for the IHS, 
and mandatory funding for contract support costs. These proposed 
increases are extremely important to tribes because we rely on this 
funding to support our core governmental programs and critical services 
that promote the safety and well-being of our tribal citizens and 
Indian community. We also advocate for the expansion of Self-Governance 
so that tribes can continue to have the flexibility to redesign 
programs and services throughout the Federal Government to better 
address their community needs.
    In addition to the items detailed below, our tribe would like to 
reiterate that we are a direct beneficiary of the collective and 
continuing efforts of the National Congress of American Indians, the 
Affiliated Tribes of Northwest Indians, the Northwest Portland Area 
Indian Health Board, and the Northwest Indian Fisheries Commission.
TRIBAL SPECIFIC BUDGET PRIORITIES--Indian Health Service and Bureau of 
        Indian Affairs:
     1.  $737,000--Five Quarter Funding to Move the Jamestown Self-
Governance Funding Agreements from Fiscal Year to Calendar Year
REGIONAL BUDGET PRIORITY--Bureau of Indian Affairs:
     2.  Increase Rights Protection Implementation to $52 million
NATIONAL BUDGET PRIORITIES:
     3.  Exempt Tribes from Sequestration and Rescissions and Restore 
2013 Sequestration Cuts
     4.  Full Funding/Mandatory Funding for CSC which is included in 
President's Fiscal Year 2016 Budget Request
INDIAN HEALTH SERVICE:
     5.  Increased Funding for Purchased and Referred Care to $198.2 
million
     6.  Maintain Current Services $166.1 million
     7.  Special Diabetes Program for Indians $200 million a year for 5 
years
BUREAU OF INDIAN AFFAIRS:
     8.  Economic Development: $15 million Loan Guarantee/$9 million 
Surety Bonds
     9.  Support for Tribal Governments Fixed Costs/Paycosts
    10.  Roads Maintenance $40 million
TRIBAL SPECIFIC BUDGET REQUEST JUSTIFICATION--$737,000 to extend our 
        fiscal year 2015 Jamestown Self-Governance Funding Agreements 
        in the Indian Health Service (IHS) and the Bureau of Indian 
        Affairs (BIA) from fiscal year to calendar year funding:

Estimate of funds needed to extend our fiscal year 2015 Funding 
Agreement to December 31, 2015: Indian Health Service (based on fiscal 
year 2015 total funds and AFA) $352,560.14 (92 days of funding) 
Department of Interior (based on fiscal year 2015 AFA and fiscal year 
2014 Contract Support Costs actual) Direct Funding $435,467.26/CSC 
Funding $301,120.79/Total = $736,588.05

    We are requesting this change in the funding cycle of our Annual 
Funding Agreements to minimize the impact the tribe has incurred 
because of Continuing Resolutions (CR) have on our programs and 
services for the nearly two decades. Since fiscal year 1998, there has 
only been 1 year (2006) in which the Interior, Environment and Related 
Agencies Appropriations Bill has been enacted before the beginning of 
the new fiscal year. Delayed appropriations undermines Tribal Self-
Governance because it creates budgetary uncertainty, disrupts programs 
and service delivery which impedes the tribes' ability to efficiently 
and effectively utilize our Federal funds. We currently operate our 
programs and services under a fiscal year annual funding agreement that 
is consistently not available to us until half-way or later in the 
fiscal year due to CRs. This year, we received our final allocation for 
IHS facilities money on February 11, 2015, or, 4\1/2\ months into the 
fiscal year. On the BIA side, we are still waiting for almost $1 
million dollars of contract support costs (CSC). When we do not receive 
our funding in a timely manner it interrupts our government operations 
in the following ways: we are forced to borrow money from our tribal 
businesses to supplement our programs and services; we have to work out 
deals with our vendors to extend payments which costs us additional 
money in finance costs; projects are postponed; our ability to invest 
in economic development and job creation is limited; and the amount of 
money we can leverage to enhance programs and services is not realized. 
Program performance is a significant factor that influences budgetary 
decision-makers. Yet, we cannot demonstrate program success or the 
effective and efficient use of Federal funds when we do not receive our 
funding at the beginning of the fiscal year. Self-Governance was 
designed to allow tribes flexibility to redesign programs, services, 
functions and actions to meet the needs of our tribal citizens. We 
therefore respectfully request five quarter funding to allow us to 
transition from fiscal year to calendar year funding.
REGIONAL BUDGET REQUEST--Rights Protection Implementation: Increase to 
        $52 Million (BIA):
    Rights Protection Implementation funds important court ordered 
management activities which support off reservation treaty rights of 49 
tribes and other intertribal management efforts. This funding is 
essential for the protection of tribal economic, subsistence, cultural 
and medicinal practices as well as the sustenance of healthy productive 
tribal nations and their surrounding States, local governments and 
neighboring communities.
NATIONAL BUDGET REQUESTS
3.  Exempt Tribes from Sequestration and Further Rescissions and 
        Restore 2013 Sequestration Cuts (BIA and IHS):
    Budgetary reductions undermine Indian Treaty Rights and Federal 
obligations. The Federal trust obligation must be honored and vital 
programs and services for tribes must be sustained despite the budget 
deficit. In fiscal year 2013, the Budget Control Act imposed a $228 
million reduction for the Indian Health Service which translated into a 
reduction of 3,000 inpatient admissions and 804,000 outpatient visits 
for American Indian/Alaska Natives to IHS and tribal hospitals and 
clinics. In addition, the BIA endured a $119 million reduction which 
directly impacted public safety, education, housing, roads, Indian 
child welfare and social services for Tribal citizens and Indian 
communities. Sequestration and rescissions further exasperate an 
already precarious budgetary situation undermining the tribes abilities 
to maximize their unfunded operations and provide basic services to our 
tribal citizens. We urge Congress to exempt tribes from any further 
reductions imposed by the Budget Control Act and to restore funding 
cuts due to the 2013 sequestration and rescissions.
4.  Full Funding/Mandatory Funding for Contract Support Costs (BIA and 
        IHS):
  --BIA $277 million, an increase of $26 million above the fiscal year 
        2015 enacted level
  --IHS $718 million, an increase of $55 million above the fiscal year 
        2015 enacted level

    Although we are pleased that the Federal Government has provided 
full funding for contract support costs under the Indian Self-
Determination and Education Assistance Act (ISDEAA) in fiscal year 2014 
and 2015, tribal programs should not be subjected to programmatic 
decreases in order to fulfill the Federal Government's contractual 
obligations. CSC should be appropriated as a mandatory entitlement. 
Under the ISDEAA, the full payment of CSC is not discretionary, but is 
a legal obligation of the United States to pay tribes for services. We 
strongly urge Congress to fund CSC on a mandatory basis as included in 
the fiscal year 2016 President's budget proposal.
5.  Increase Funding for Purchased/Referred Care (formally called 
        Contract Health Services)--$198.2 million:
    Purchased and Referred Care (PR/C) is important to tribes in the 
Northwest because we do not have any hospitals to address emergency and 
specialty care services. Much of the secondary care, and nearly all of 
the tertiary care needed must be purchased from the private sector. PR/
C funds are used to purchase essential healthcare services, including 
inpatient and outpatient care, routine emergency ambulatory care, and 
transportation and medical support services. These funds are critical 
to securing the care needed to address many of the diseases which are 
among the leading causes of death for American Indian and Alaska 
Natives (AI/AN). Tribes have been forced to rely on 3rd party revenue 
(Medicare, Medicaid and Private Insurance) when PR/C funds have been 
depleted. The IHS has established medical priorities because PR/C 
funding is inadequate to fund all needed medical services. Most tribal 
facilities are only able to address Priority 1 life and limb and 
catastrophic healthcare emergency cases. We request an increase of 
$198.2 million for Purchased/Referred Care in the fiscal year 2016 
budget to meet this critical need.
6.  IHS Mandatory Funding (maintaining current services--+$368.9 
        million over the fiscal year 2015 President's proposed budget:
    Current Services include mandatory costs that are required to 
maintain health services to include population growth, medical and non-
medical inflation, paycosts and CSC. When these mandatory costs are not 
funded, Tribes are faced with having to cut programs and services for 
our tribal citizens. Tribes cannot continue to absorb these costs and 
maintain the level of quality care our tribal communities deserve.
7.  Special Diabetes Program for Indians--$200 million a year for 5 
        years (Special Appropriations administered by IHS)):
    American Indian/Alaska Natives (AI/AN) are two to four times as 
likely to develop diabetes compared to other races. The SDPI program 
has proven effective in combatting diabetes and enhancing care and 
education in AI/AN communities. As a result, the program has 
successfully reduced costly health complications and the incidence of 
the disease itself.
8.  Economic Development/Loan Guarantee/Surety Bonds--$15 million Loan 
        Guarantee/$9 million Surety Bonds (BIA):
    Tribal governmental revenues depend entirely on effective economic 
development to support nearly every aspect of reservation life and 
government operations. Chronic underfunding of Indian programs and the 
severe lack of private investment has left the economic potential of 
Indian country unrealized. The Loan Guarantee Program provides eligible 
tribal and individual Native borrowers a mechanism to obtain 
conventional lender financing for businesses and economic development 
projects. Funding the Surety Bonding component of the Loan Guarantee 
Program would create an avenue for tribes to compete for Federal 
contracts. In order for tribes to attain economic self-sufficiency, 
they need access to capital, investment in infrastructure, parity in 
funding and tax incentives and resources for technical assistance and 
training to develop tribal capacity.
9. Support for Tribal Government TPA/Fixed Costs Paycosts--+$139 
        Million Increase (BIA):
    The BIA tribal base funding allows tribes to exercise their 
inherent right to Self-Governance and is used to support core 
governmental programs. These funds pay the wages of our cops, 
firefighters, social workers, child welfare workers, and resource 
managers. Since 1996, tribal government core services are operating 
with over a 30 percent reduction in base funds. While base funding has 
decreased, there has been an increase of grant funding. Allocating new 
funding for BIA via grant opportunities marginalizes and impedes the 
exercise of tribal self-determination because grants limit the 
flexibility and local control available to tribes under the ISDEAA. 
Tribes advocate for an increase to base funding instead of funding 
tribes with grants. Tribal paycosts represent the only TPA base 
increase most tribal service programs receive. Most Federal agencies 
receive annual increases to their fixed costs rates each year to 
address inflationary costs associated with fringe benefits and pay 
costs. Partially funding or failing to fund paycosts devastates tribal 
communities by causing critical job losses.
10.  Road Maintenance $40 million:
    The Road Maintenance Program is frequently identified as one of the 
tribes top budget priorities, and yet, it is frequently targeted for 
funding reductions and remains one the BIA's most underfunded programs. 
Tribes often have to use their maintenance dollars for day to day 
activities to maintain public safety such as snow and ice removal on 
tribal roads. Currently the deferred maintenance backlog is about $75 
million but road maintenance is currently funded at less than $25 
million.
    Thank you on behalf of the Jamestown S'Klallam Tribe. I 
respectfully request that these recommendations be included in the 
fiscal year 2016 budget in order to honor the trust responsibility and 
support tribal prosperity and well-being.
                                 ______
                                 
             Prepared Statement of the JMS Naval Architects
    Dear Senators:

    The Great Lakes is a vast international natural resource which 
represents a massive economic engine generating nearly $35 billion/year 
and is responsible for 75,000 jobs in fishing, tourism and related 
industries. Several independent sources estimate $7.0 billion/year is 
attributable to Great Lakes fisheries alone. To make wise management 
decisions regarding conservation, water management and fisheries 
resources throughout the Great Lakes basin, the highest quality science 
possible is required. The U.S. Geological Survey's Great Lakes Science 
Center (USGS GLSC) relies on a fleet of state-of-the-art fisheries 
research vessels to perform its critical science mission requirements. 
For over 20 years, JMS Naval Architects has supported GLSC by providing 
engineering and design services to assist in the management of their 
fleet. We are proud to play a role in maintaining the fleet with an 
outstanding record for safety, mission readiness and cost effective 
operations.
    Due to the mobile nature of research vessels, the fleet of vessels 
and the science performed on them contribute to local economies 
throughout the Great Lakes and beyond. Small towns across the Great 
Lakes provide the necessary logistics and provisioning support for 
science missions. Shipyards provide critical maintenance and 
construction services. Just in the past few years, shipyards in 
Manitowoc and Cleveland have benefitted from new vessel construction 
projects valued at $5.6 million and $9.4 million respectively. The need 
for routine shipyard maintenance also provides recurring work and 
stable jobs for many private sector interests. JMS Naval Architects has 
provided the engineering and design support to help manage the fleet's 
operations, maintenance and new construction. Our longstanding 
partnership with USGS has enabled us to recruit employees to Mystic, 
Connecticut and expand our business. Although our engineers are based 
in Connecticut, the work is often performed at USGS home port locations 
and private shipyards throughout the Great Lakes region casting a wide 
net of economic impact.
    JMS Naval Architects strongly supports USGS GLSC fisheries science 
as the products they develop are foundational to management 
decisionmaking on Great Lakes fisheries. The USGS GLSC conducts 
impartial, high quality science essential to Federal, State, Tribal, 
and Provincial management programs throughout all five Great Lakes and 
in all eight Great Lakes States. Great Lakes management jurisdictions 
depend on USGS GLSC Deepwater and Invasive Species Programs to provide 
data critical to understanding the long-term condition of the fish 
communities and to develop tools and technologies needed to combat 
invasive species like the sea lamprey that threaten the valuable sport 
and commercial fisheries.
    USGS GLSC scientific research capabilities have been hard hit by 
back-to-back years of budget erosion and worsened by a 6 percent cut 
from sequestration in 2013. Their 2014 budget was back to the level it 
was in 2009. The ongoing budget impacts have led to an accumulation of 
more than 15 unfilled scientific/technical positions distributed 
throughout the Great Lakes Region. The USGS has been improvising for 
several years to address the unfilled positions, but their capacity to 
deliver the critical and high quality scientific information in a 
timely manner is in jeopardy. This high quality, impartial scientific 
information is absolutely essential for wise management of the 
fisheries and protection from invasive species.
    For the first time since the President was elected, his 2016 budget 
highlights two areas where the USGS GLSC programs would experience 
relatively small budget increases. The President proposes: (1) $250,000 
increase for the Great Lakes Deepwater Assessments; and (2) bureau-wide 
$2.0 million increase for Invasive Species, which would likely result 
in a portion of those funds being directed to USGS GLSC. The language 
for the proposed funds for Great Lakes Fisheries Assessments (pg. C-52) 
and for New and Emerging Invasive Species (pg. C-26) can be found in 
the fiscal year 2016 USGS Budget Justification at: http://www.doi.gov/
budget/appropriations/2016/upload/FY2016_USGS_Greenbook.pdf.
    JMS Naval Architects greatly appreciates the subcommittees' ongoing 
support for programs that sustain and restore the Great Lakes. We join 
with the Great Lakes Fishery Commission Council of Lake Committees in 
supporting $17.5 million in fiscal year 2016 appropriations for the 
U.S. Geological Survey's Great Lakes Science Center. Currently the USGS 
GLSC receives approximately $8.5 million in appropriated funding to 
support science programs critical to the management of these incredibly 
valuable resources. Compared to economic returns generated from the 
Great Lakes, this funding level only represents about 1.2 percent of 
the annual fisheries related revenue and less than 0.03 percent of the 
revenue attributable to closely related industries.
    These needs were previously detailed in a March 2010 bi-partisan 
letter, authored by nine U.S. Senators and 21 U.S. House members, 
written to their congressional appropriation leadership to request a 
total science budget of $15.0 million; and again 2 years later in April 
2012, by the Association of Fish and Wildlife Agencies describing the 
importance of the USGS programs to regional management decisions and 
recommending an appropriated science budget of $15.0 million. The 
current requested increase to $17.5 million will address uncontrollable 
costs over the past 5 years and boost investments in advanced 
technology. Investments in technologies to assess the fishery have 
fallen well behind marine programs. GLSC scientists need to have access 
to 21st Century innovations like autonomous samplers that can provide 
critical resource information with greater spatial and seasonal 
coverage and less overall cost than traditional hands-on measurements.
    The importance of the USGS information and the risks posed by 
budget cuts to their science has been well documented. We urge you to 
embrace these requests in the President's budget and respectfully ask 
you to increase these additions by $8.75 million for a total increase 
of $9.0 million for the USGS GLSC Deepwater Assessments.

    [This statement was submitted by T. Blake Powell, President.]
                                 ______
                                 
    Prepared Statement of the Lac Du Flambeau Band of Lake Superior 
                            Chippewa Indians
    My name is Eric Chapman, I am a councilman for the Lac du Flambeau 
Band of Lake Superior Chippewa Indians, located in Wisconsin. I am 
pleased to submit this testimony, which reflects the needs and concerns 
of our tribal members for fiscal year 2016. My testimony addresses the 
Bureau of Indian Affairs (BIA), Environmental Protection Agency (EPA) 
and Indian Health Service (IHS) programs that are vital to my people.
    The President's fiscal year 2016 budget has some important and 
positive initiatives for tribes. For example, fully funding contract 
support costs and requesting that Congress reclassify this funding as 
mandatory. Doing so would implement what two Supreme Court cases have 
already stated is the law. This funding must be paid, it is time that 
Congress make the necessary changes in the statute to implement the 
Court's decisions.
                  i. generation indigenous initiative
    I call on you to fully support the administration's emphasis on our 
youth. The Generation Indigenous Initiative is the first time this 
Nation has taken a comprehensive approach to improving the lives of 
Indian children. The administration called on all agencies including 
those outside of the Department of the Interior and the Indian Health 
Service to do their part to fulfill the trust responsibility to Indian 
children. Based the Federal trust responsibility, the Federal 
Government should be committed to providing fundamental fairness to 
tribes, not just in selected areas but across the board--and 
appropriations for all programs affecting Indians should provide 
funding levels based on this fundamental principle.
    BIA Tiwahe (Family) Initiative.--The tribe strongly supports the 
continuation of the administration's Tiwahe initiative, a broad-based, 
interdisciplinary, and culturally appropriate program for addressing 
the needs of Indian families and communities--including child welfare 
and family services, housing and job training. This program fills an 
immediate and critical need.
    At Lac du Flambeau, over the last few years we have faced a crisis 
in our community arising from a growing epidemic of drug abuse. The 
problem has been far-reaching--as we find widespread abuse of 
prescription drugs, synthetic marijuana, and heroin on our reservation. 
The impact on our community has been devastating in terms of the health 
and well-being of our families. This is why the tribe supports the 
administration's request for $22 million to increase the number of 
behavioral health providers focused on Indian youth through the Indian 
Health Care System. We also support the complementing request within 
the Substance Abuse and Mental Health Services Administration, 
including the $15 million for Tribal Behavioral Health Grants, which is 
targeted at reducing substance use and the incidence of suicide 
attempts among Native youth.
    The rise in drug abuse often leaves our children caught in unsafe 
situations at home. This has led to an increase in the need for foster 
care and other temporary placements for our children. The 
administration's $47 million requested for tribal social service 
programs and the $15.6 million requested for Indian Child Welfare 
programs will help meet this need. In addition the $28 million 
requested for tribal courts ($5 million for tribal family courts) will 
also ensure that our children are safer as these institutions will have 
additional resources to supervise and monitor the children in their 
care.
                     ii. department of the interior
A. Natural Resource Programs
    As we address our communities' social services needs, we are 
mindful that one of the cornerstones of a healthy community is a 
healthy environment. Clean air, water and land are vital for the 
physical and emotional health of our people, and provide both a 
foundation for our tribal culture and the basis for economic 
opportunity on our reservation. That is our obligation to future 
generations--to ensure that our lands, air and waters are adequately 
protected.
B. Bureau of Indian Affairs Climate Resiliency
    The tribe endorses the requested $20 million increase to address 
the impact of the changing climate on our natural resources. Our 
community is reliant on our natural resources to survive. If people 
cannot fish the lakes we have been fishing since the beginning of time 
or hunt wild game because these resources are not there, who we are as 
a people will be forever changed.
C. Tribal Natural Resource Management and Development; Tribal Fish 
        Hatchery Operations and Maintenance
    Tribes are leaders in natural resource protection and BIA natural 
resource funding is essential to maintain our programs. Lac du Flambeau 
has a comprehensive Natural Resources Department and dedicated staff 
with considerable expertise in natural resource and land management. 
Among our many programs, the tribe operates a fish hatchery that stocks 
many of our lakes. Along with our other natural resource programs, our 
fish production activities are essential to protect our natural 
resources and to foster economic activity on our reservation. We 
support full funding for these programs. According the Bureau of Indian 
Affairs, this year's request for fish hatchery maintenance should 
support 40 new projects to address climate change impact on hatcheries. 
This is important work, but we ask the subcommittee to be mindful that 
the operations funding has not received an increase in a number of 
years. If we do not have the resources to operate these facilities, 
there is no point in maintaining them.
D. Circle of Flight: Wetlands Waterfowl Program
    We urge the subcommittee to continue to provide support for the BIA 
Circle of Flight Program. This program supports tribal efforts 
throughout the Great Lakes Region to restore and preserve wetlands and 
waterfowl habitat within tribal territories.
E. Great Lakes Indian Fish and Wildlife Commission
    The tribe strongly supports the work of the Great Lakes Indian Fish 
and Wildlife Commission (``GLIFWC''). GLIFWC assists in protecting and 
implementing its treaty-guaranteed hunting, fishing and gathering 
rights. We urge the subcommittee to fully support the programmatic 
funding for GLIFWC from both BIA and EPA. GLIFWC has played an 
invaluable role in providing science and sound management practices for 
our off-reservation resources. This role could not be filled by any 
other agency.
F. Conservation Law Enforcement Officers
    Related to our responsibilities to maintaining our environmental is 
the need for funding for Conservation Law Enforcement Officers. 
Conservation Law Enforcement Officers are responsible for enforcing 
hunting and fishing regulations related to the exercise of treaty 
rights, but they also are often the first to respond to emergency 
situations. These officers play an integral part in protecting our 
cultural and economic resources, as well as assisting with protecting 
public safety. We urge the subcommittee to provide funding for 
Conservation Law Enforcement as an acknowledgement of the importance of 
tribal conservation law enforcement officers to the Federal law 
enforcement family.
G. Transportation
    Proper road maintenance on the reservation is essential for the 
safety and health of our community, and for promoting economic 
opportunities. We urge the subcommittee to increase funding for the BIA 
road maintenance program. Please augment the $2 million increase you 
saw was justified last year for this important safety programs.
H. Tribal Historic Preservation Offices
    The Tribe supports the $15 million requested by the National Tribal 
Historic Officers Association to fund tribal Historic Preservation Act 
compliance. While more tribes have assumed the responsibility under the 
Historic Preservation Act Federal appropriations have not kept pace.
                  iii. environmental protection agency
A. EPA Tribal General Assistance Program
    The tribe strongly supports the proposed $31 million increase in 
the EPA Tribal General Assistance Program, known as ``Tribal GAP.'' 
This program provides base environmental funding to assist tribes in 
building their environmental capacity to assess environmental 
conditions, utilize available data and build their environmental 
programs to meet their local needs. This is a foundational program for 
tribes to address the broad range of challenging circumstances we face 
regarding our reservation environment.
B. Clean Water Programs
    The tribe also supports the proposed funding for the pollution 
control program under section 106, and for non-point source pollution 
under section 319 of the Clean Water Act. At Lac du Flambeau, the tribe 
has obtained Treatment as a State status under the Clean Water Act for 
establishing water quality standards, and we have an active program to 
monitor, maintain and improve water quality, as well as a program to 
address non-point source pollution. Water is basically everywhere on 
our reservation, as we have 260 lakes covering over 17,000 acres, as 
well as 71 miles of streams and 24,000 acres of wetlands. The section 
106 and section 319 programs should be funded at the recommended levels 
to enable tribes to protect their water resources.
C. Great Lakes Restoration Initiative
    The tribe strongly supports funding for the Great Lakes Restoration 
Initiative. For the indigenous people of Wisconsin, the Great Lakes 
represent the lifeblood of our culture and the foundation of our 
economies. The protection and preservation of the Great Lakes are 
necessary to preserve the tribal communities that have made the Great 
Lakes area their home since time immemorial. The funding needs for 
tribal initiatives under this program is $5.2 million; notwithstanding 
this need tribal initiatives were only awarded $3.8 million. The tribe 
asks the subcommittee to consider a tribal set-aside of this funding to 
ensure there is parity funding for all tribal needs.
D. Brownfields
    The Brownfields program provides funding for tribes and others to 
assess and clean up lands that have been contaminated. Brownfields 
funding is divided among those seeking funding--so the more tribes that 
participate in efforts to clean up their contaminated lands, the less 
money is available for each tribe. While the number of tribes needing 
these funds has been increasing in recent years, the funding has not. 
We urge the subcommittee to provide greater funding so tribes can 
properly protect their homelands and clean up Brownfields.
                         iv. education programs
    Education remains a critical investment in the future of the 
tribes. The Johnson-O'Malley Program provides vital support for Indian 
students in public schools. We support the $17.3 million requested for 
this program, and the subcommittee's continuing oversight to obtain an 
accurate JOM student count. We must do more for our students in public 
schools. Likewise, we are proud to see an increasing number of our 
students attending and graduating from colleges and other post-
secondary institutions. But the cost of such education is staggering 
and funds must be available for our students to succeed in higher 
education. More scholarship funding is needed. The tribe also supports 
the administration's proposed increase in BIA funding for fellowship 
and training opportunities for post graduate study.
    We also support the $52.9 million requested for the Department of 
Education Native Youth Community Projects to support community driven 
strategies to improve college and career readiness of Native youth in 
public schools. Empowering tribal communities to meet the needs of 
their children is at the heart of the Self-Determination policy and is 
what will lead to a brighter future for our children.
                   v. indian health service programs
    The administration's $5.1 billion request for the Indian Health 
Service is a 10 percent increase in funding above the fiscal year 2015 
level. Importantly, some of this increase is dedicated to population 
growth and medical inflation so that our healthcare programs can keep 
pace with the growing need and costs. This increase will allow for a 
significant investment in Purchased and Referred Care with a $70 
million increase. This increased level of funding should provide for 
980 additional hospital admissions, 19,800 additional outpatient 
visits, and finally, an additional 1,210 patient transports.
    Research has clearly demonstrated that our overall health is tied 
to our oral health. The Lac du Flambeau Tribe recognized this and that 
is why in 2013 we opened a state-of-the-art dental clinic to serve the 
needs of our people. No longer are dental visits done by an occasional 
dental visit at our schools. We are now seeing our members in our 
facility early and often and are preventing dental disease before it 
can happen. We fully support the requested $7 million increase for the 
dental health services program. This increase will address the not only 
medical inflation, but also the population increase our community has 
experienced.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
support fiscal year 2016 funding for the National Endowment for the 
Arts (NEA) at a level of $155 million. We ask Congress to continue 
recognizing the important work of this agency to increase public access 
to and engagement with the arts, promote the creation of new artistic 
works, and cultivate a sense of cultural, community, and historic 
pride, all while supporting millions of jobs in communities nationwide.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of approximately 800 orchestras runs the gamut from 
world-renowned symphonies to community groups, from summer festivals to 
student and youth ensembles. Orchestras unite people through creativity 
and artistry, fuel local economies and civic vitality, and educate 
young people and adults. The League is committed to helping orchestras 
engage with their communities, and the NEA plays an invaluable role 
through its direct grants, Federal/State partnerships, and research on 
trends in public participation and workforce development.
    The award of a competitive NEA grant is widely considered an 
affirmation of national artistic significance. The ability to present 
nationally recognized programs is highly valued by communities large 
and small, and being an NEA grant recipient is critical in securing 
additional funding for a variety of programming and operations. In 
fiscal year 2014, the NEA's Grants to Organizations included 116 direct 
grants to orchestras in the Art Works and Challenge America categories. 
The following ten highlighted awards from fiscal year 2015 total 
$220,000 in NEA support.
NEA Funding Enables Orchestras to Innovate and Collaborate Across 
        Disciplines
    Grant support from the NEA helps make it possible for orchestras to 
collaborate with partners in other artistic disciplines to offer 
innovative programming. An Art Works grant supported a concert opera 
production by the Lexington Philharmonic of composer Osvaldo Golijov's 
``Ainadamar (Fountain of Tears).'' This Spanish work combines singing, 
visual arts, flamenco dance, and orchestral music in its exploration of 
the life of playwright Federico Garcia Lorca. In addition to the main 
performance, the grant supports lecture-demonstrations and school 
performances. The orchestra's 100 full- and part-time employees work 
with area public schools, colleges and universities, providing music 
education and cross-curricular learning. Moreover, the orchestra 
partners with more than 60 area nonprofit, educational, and arts 
organizations per year. This particular NEA-supported project is 
especially meaningful because it fully exercises each of the 
orchestra's core values of artistic excellence, innovation, 
collaboration, and accessibility.
    The St. Louis Symphony Orchestra also received Art Works support 
for a cross-disciplinary opera program, presenting Giuseppe Verdi's 
opera ``Aida,'' incorporating multi-sensory video and lighting 
installations designed by visual artist S. Katy Tucker to supplement 
the music and story line of the opera and give concertgoers an enhanced 
environment in which to hear and see the music at historic Powell Hall. 
Each concert will be preceded by engaging, interactive conversations 
led by acclaimed music director David Robertson. The Nation's second-
oldest orchestra founded in 1880, the St. Louis Symphony Orchestra 
employs 93 musicians and 61 full-time staff and serves upward of 
300,000 individuals each season through an average of 120 orchestral 
concerts, 250 free education/community activities in a 125-mile radius 
of the City of St. Louis, and weekly radio broadcasts and tours and 
recordings--their latest winning the 2015 GRAMMY Award for ``Best 
Orchestral Performance.''
NEA Funding Supports Orchestral Commemoration of Key Historical Moments
    The Kansas City Symphony, with 80 full-time musicians and 35 full-
time staff members, is presenting Upheaval and Transformation, a 
season-long exploration of the music leading up to World War I. 
Featuring works by Debussy, Mahler, Nielsen, Ravel, Schoenberg, Richard 
Strauss, and Stravinsky, the Art Works-supported project commemorates 
the start of World War I, combining with several other community arts 
events including exhibits, concerts, and performances in Kansas City by 
the Nelson-Atkins Museum, Lyric Opera of Kansas City, Harriman-Jewell 
Series, Kansas City Repertory Theatre, and Friends of Chamber Music. 
This community-wide artistic exploration is especially important to the 
city due to the presence of the National World War I Museum in Kansas 
City. Music Director Michael Stern, who holds a degree in American 
history from Harvard University, has written special program notes and 
discusses the project at pre-concert talks with audience members. In 
June, a Symphony ensemble will perform Stravinsky's L'Histoire du 
soldat (The Soldier's Tale) at the National World War I Museum followed 
by a panel discussion about the cataclysmic impact of the Great War on 
the arts and our society.
    Reflecting upon more recent events, the Detroit Symphony Orchestra 
(DSO) will utilize its NEA grant for a performance of New Orleans-born 
jazz trumpeter and composer Terence Blanchard's ``A Tale of God's Will 
(A Requiem for Katrina),'' along with related educational activities. 
In commemoration of the tenth anniversary of Hurricane Katrina, the 
suite of 13 original pieces will be performed by Blanchard and members 
of his band along with symphony musicians as the centerpiece of three-
day festival A Musical Tale of Two Cities: Motown Meets the Big Easy. 
Additional activities include: pre- and post-concert performances by 
student groups from the DSO's Civic program and the New Orleans Center 
for Creative Arts, a concert by a funk jazz group from New Orleans, a 
pre-concert talk by Blanchard and other special guests, a jazz 
community forum, a masterclass with Blanchard, and a screening of the 
documentary ``When the Levees Broke'' along with a Q&A session. The 
orchestra, which employs 76 musicians, 201 part- and full-time staff, 
received NEA support for this project, along with a substantial grant 
from the Knight Foundation's Knight Arts Challenge, which is a powerful 
illustration of the public/private partnership that makes projects such 
as this possible.
NEA Funding Broadens Access for Underserved Communities and Young 
        Students
    Together with the organizations it supports, the NEA is dedicated 
to improving public access to the arts. An Art Works grant enabled the 
Spartanburg Philharmonic Orchestra to present a new concerto written 
for percussionist Dame Evelyn Glennie, a master class, and a lecture-
demonstration exploring the importance of listening skills with 
Glennie, who is profoundly deaf. The orchestra sent its co-principal 
percussionists to the South Carolina School for the Deaf and Blind to 
work with music students for 2 days preceding Glennie's visit, teaching 
the students about rhythm and creating sounds. When Glennie arrived in 
Spartanburg, the students performed on stage for her alongside the co-
principal percussionists, and then learned directly from Glennie 
afterward. With just two full-time staff and 60 musicians, the 
Spartanburg Philharmonic Orchestra was thrilled and excited to bring 
such a meaningful project to its community and to students who could 
learn from such a uniquely accomplished artist.
    The Central Ohio Symphony received a Challenge America grant to 
bring The Great Animal Orchestra project to residents of the rural 
Buckeye Valley East community, including elementary students of Title I 
schools. This presentation, involving more than 10 partnerships, will 
provide students of Buckeye Valley East Elementary an opportunity to 
learn to create and write music with a guest artist composer, and their 
compositions will be played by Symphony musicians. The NEA grant is a 
first for the orchestra and it has been matched by a corporate grant 
and has prompted the city government to support the orchestra's yearly 
operations for the first time. Thanks to these partnerships and 
support, the orchestra will fund a week long residency with composer 
Richard Blackford, who will work with high school students, senior 
citizens, and the community at large to share his expertise and skills. 
With an administrative staff of two, the Central Ohio Symphony employs 
more than 100 musicians during the year and plays a significant role in 
economic development in the downtown area of Delaware, Ohio.
    Another Challenge America recipient is the Burlington Chamber 
Orchestra (BCO), whose Music for Minors program brings professional 
musicians into Vermont classrooms. The Music for Minors program helps 
realize the orchestra's vision of reaching students who have not had an 
opportunity to extensively study music--whether due to geography, 
cultural differences, or economic limitations. Students first learn 
about music in the classroom from BCO musicians and then are invited to 
attend, free of charge, a May concert to solidify the classroom 
learning. This year's ``Annual Celebration of Youth'' concert will 
feature a young student composer from North Country High School in 
Newport and this year's winner of the BCO's Young Artist Solo 
Competition--a saxophonist from Bellows Free Academy in St. Albans.
    An Art Works grant to the Eugene Symphony, which employs six full-
time staff, four part-time staff, and 83 part-time musicians, made 
possible a concert and weeklong residency by NEA Jazz Master and Grammy 
Award-winning saxophonist Branford Marsalis. In addition to drawing a 
near-capacity audience to his Eugene Symphony debut, 300 of whom were 
first-time attendees at a Eugene Symphony event--Mr. Marsalis took part 
in related community programs which included free lectures for the 
general public and artistic development programs for young musicians at 
the middle-school, high-school, and collegiate levels. One example of 
Mr. Marsalis' numerous activities included master classes for two high-
school jazz bands and one middle-school jazz band, during which he 
provided critical feedback on how to improve their performance. In all, 
Mr. Marsalis' concert and residency activities engaged over 4,000 
students and adults throughout the greater Eugene community.
    Focusing its NEA grant entirely on young musicians, the Tucson 
Symphony Orchestra's (TSO) Young Composers Project teaches elementary 
through high school students to compose original works for orchestra. 
Saturday sessions begin with basic theory, ear training, and score 
reading as students learn about clefs, keys, modes, notation, chords, 
rhythm, form, ranges, and transposition. Each session includes a 
listening component with score study focused on orchestral repertoire, 
and students learn to use Finale music notation software in the project 
lab, working closely with TSO musicians to create their own works. The 
project culminates in public reading sessions and recording of their 
work by the Tucson Symphony Orchestra and TSO String Quartet.
    The New York Youth Symphony also focuses its NEA grant in support 
of its Youth Symphony Composition Program. Student composers 
participate in a series of interactive seminars, workshops, and guest 
lectures on composition and participants hear performances of their 
work by guest musicians. Drawing from the classical repertoire and 
range of musical traditions throughout the world, students explore a 
variety of composers, study scores, instrumentation, recordings, and 
orchestration books. Through class discussion, written exercises, and 
composition, students will cultivate their own musical voices in this 
tuition-free program led by professional composers and musicians. The 
New York Youth Symphony has four full-time and 12 part-time staff and 
engages numerous professional chamber coaches and professional 
orchestral musicians to provide compositional and orchestral coaching.
    Thank you for this opportunity to convey the tremendous value of 
NEA support for the communities served by orchestras across the Nation. 
These are but a small sampling of the innovative collaborations, 
thoughtful programming for underserved communities, and lifelong 
learning opportunities orchestras provide in service to adults and 
children from all walks of life. The Endowment's unique ability to 
provide a national forum to promote excellence and engagement through 
high standards for artistic products and the highest expectation of 
accessibility remains one of the strongest arguments for a Federal role 
in support of the arts. We urge you to support creativity and access to 
the arts by approving $155 million in funding for the National 
Endowment for the Arts.
                                 ______
                                 
     Prepared Statement of the Little River Band of Ottawa Indians
    Chairwoman Murkowski, respected members of the subcommittee:

    I am Jessica Burger, Tribal Manager of the Little River Band of 
Ottawa Indians (LRBOI). I am honored to present this testimony on 
behalf of the Little River Band of Ottawa Indians, regarding our views 
and priorities for the fiscal year 2016 President's annual budget 
request. Our Ogema (Chief), Mr. Larry Romanelli, regrets that he was 
unable to travel here from Manistee, Michigan, our homelands, to 
deliver this testimony himself.
    LRBOI is pleased with the ongoing commitment of the administration, 
to ``do right by (our) nations,'' through appropriations requests for 
the Bureau of Indian Affairs (BIA) at $2.9 billion, and the Indian 
Health Services (IHS) of $5.1 billion; fully $323 million and $461 
million above the fiscal year 2015 enacted levels. The increases are 
positive steps in the United States' efforts to live up to its promises 
to honor treaty and trust responsibilities, support nation building, 
and restore our unique governance and self-determination. LRBOI 
believes that tribal consultation works. This subcommittees' 
willingness to hear the concerns of tribal leadership and our views 
regarding the impact of the administration's budget requests derives 
informed appropriations language that facilitates the outcomes we are 
all wishing to achieve--successful, safer and prospering Native 
Nations.
    Since Reaffirmation in 1994, LRBOI has prioritized its economic 
development efforts, programs, and service delivery to enhance the 
standard of living of its members. Assisting LRBOI members to achieve a 
middle class economic standard has been an overarching goal since 
reaffirmation, and while gains are being made, persistent issues 
remain:
  --over half (56 percent) of tribal member households earn less than 
        $30,000 annually, compared to a mean household income of just 
        over $64,500 for Michigan residents;
  --less than 40 percent of LRBOI tribal members adults have achieved 
        education beyond a high school diploma, compared to nearly 60 
        percent of Michigan adults reporting some degree of higher 
        education;
  --\1/3\ of tribal members access one or more tribal assistance 
        programs annually--current enrollment stands at just over 4200 
        persons.

    Our Tribe is a ``young tribe''--the majority are working age adults 
(2,652) with a large female overall population (2,228). As the overall 
demographic suggests, the focus of planning for our future needs will 
require addressing the issues facing a majority-female population, 
significantly less than retirement age, lacking higher education, and 
with annual incomes below Federal poverty level. These factors make 
achieving ``middle class'' living standards less likely for many of our 
people. As the population ages into ``elder status'' (age 55 and 
older)--affordable housing, medical and long term healthcare services 
for a population that has less opportunity in the workforce and less 
earning potential due to gender--adds to the potential of instability 
for our community.
    Unfortunately, this is happening now, not someday in the future. 
Increased need resulting in greater requests and access of our 
assistance programs, along with diminished revenue sources in fiscal 
year 2014 (both tribal generated supports and Federal program 
reductions), left unmet obligations in all service categories, 
adversely impacting our families. Initiatives that were rolled out to 
Indian Country, specifically the Tiwahe Initiative, did little to 
assist our efforts. LRBOI implemented our community-specific model 
targeting the dire impact of poverty on LRBOI families in 2014. We call 
it ``Zoongaadiziwin,'' and it includes many of the same service 
targets, with an end goal to strengthen the family unit. Zoongaadiziwin 
engages general welfare, counseling supports, education, and employment 
training opportunities under a case-managed, client-centered process, 
including client-identified milestones that promote and enhance family 
stability, ultimately strengthening our community. As our overall 
numbers are smaller than other tribes, it is difficult to write an 
effective competitive proposal for this program. LRBOI recommends this 
initiative be funded as a formula-based tribal priority allocation to 
put all tribes within reach of this needed assistance.
    LRBOI is encouraged by the potential described in the ``All of 
Government'' approach to addressing unmet obligations in Indian 
Country. As suggested, DOI and BIA have historically been the point of 
contact for tribes to access resources necessary to address the needs 
of tribal communities. We are intrigued by the Generation Indigenous 
Initiative. Creating government-wide collaboration placing priority on 
``all of the Federal Government'' to assist in the preservation of our 
most precious resource, Native American Youth, seems very achievable. 
LRBOI suggests taking this one step further: allow the program dollars 
to be accessed under a new cross-cutting self-governance line item 
called ``Gen-I Native Youth'' in non-BIA agreements, as well as BIA and 
IHS self-governance agreements.
    All tribes are facing record numbers of youth committing suicide, 
facing homelessness and not achieving high school diplomas, let alone 
seeking higher education degrees. To illustrate the need for the 
subcommittee, I provide two examples:
    First, we have a youth in our community that served as Tribal 
Princess; her story is not typical in Indian Country. She comes from a 
stable family unit that is affluent by most standards. She has achieved 
exceptional SAT and ACT scores and is in her junior year in the public 
school system. Yet, she is failing classes, contributed in part to the 
medical challenge of being a type 1 diabetic, which takes her out of 
class with missed school days, and a diagnosis of acute depression and 
anxiety disorder. This perfect storm has culminated in 3 suicide 
attempts in the past 18 months of her life. In addition, her family is 
faced with inadequate mental and medical specialty practice 
availability. Juvenile psychiatric services are non-existent, and the 
closest medical specialty services are over an hour and a half drive 
away. Both have limited openings. I know her well; she is my daughter. 
She has so many gifts, and simply cannot climb out of the mire that is 
her world--depression, self-image issues, and chronic illness. In my 
role as the administrator for our tribe, I am unable to secure the 
professionals my community needs to address her issues. She is not the 
only one. I am sad to report, we also had a ``successful suicide 
attempt'' on March 15th of this year and lost a promising young woman. 
We will never realize her potential. Her family is devastated.
    These are just two examples. We have many for our small population. 
In 2014, our Behavioral Health Department addressed 12 suicide 
attempts. Our local referral system is overloaded. We simply cannot 
recruit and retain mental health service providers or specialty medical 
practice needs with short-term granting initiatives. LRBOI asks the 
committee to place the funds in the hands of the tribes under self-
governing authorities to allow the flexibility to address community-
specific priorities. Create a true ``all of government'' approach and 
dedicate funds to a ``Gen-I Native Youth'' tribal share and priority 
allocation. Allow the tribes to align the funds to the priority areas 
the tribes determine, on a recurring funding basis, to ensure that the 
issues facing youth and their families are addressed with sustainable, 
successful interventions and services.
    Sustainable programs require stable base funding inclusive of 
adjustments for inflation, population and in an ideal scenario, 
utilization. All of those factors should converge to create realistic 
support that enhances the potential of addressing the challenges faced 
in Indian Country: health status, employment and training, child 
welfare, and education. LRBOI appreciates the administration's proposal 
to create a three-year mandatory appropriation for contract support 
costs. This proposal presents an opportunity for the Federal Government 
to comply at long last with the decisions in the Cherokee, Arctic Slope 
and Ramah Supreme Court cases. LRBOI would like the subcommittee to 
consider a permanent mandatory appropriation for contact support costs, 
removing them from the discretionary budget scenario to permanent 
appropriation. To enact this would eliminate the risk of untoward 
program reductions in discretionary budgets and protect the 
congressional intent of those funds--to provide needed services to 
American Indian/Alaska Native peoples.
    A permanent mandatory appropriation for contact support costs would 
have an immediate impact on the following ongoing challenges:
  --Services are vulnerable during times when short-term mandatory 
        spending measures enacted by Congress expire and require 
        reauthorization. The uncertainty of renewal results in roll-
        back of program delivery at the local level, and redirection of 
        funds that support services to meet the costs of service 
        provision. Or, in some cases, the uncertainty of renewal 
        results in elimination of services altogether.
  --The amounts necessary for contract support costs are often in 
        dispute. Establishment of ``such amounts as may be necessary'' 
        to pay full contract support costs places the onus on the 
        agencies and tribes to work together to determine the actual 
        costs to ensure accurate appropriations of only the total 
        dollars needed. LRBOI urges the subcommittee to consider adding 
        the establishment of a permanent contract support cost 
        workgroup that will provide ongoing technical assistance and 
        convene quarterly to assist with the determination of those 
        ``necessary amounts'' from year to year.
  --Contract support cost shortfalls are not determined in a timely 
        fashion. A mandatory appropriations scheme that carries funding 
        forward in each fiscal year could require the IHS and BIA to 
        consult with and share shortfall information with tribes though 
        the establishment of deadlines in the appropriations language, 
        with the goal of appropriations year-to-year being only those 
        funds ``necessary'' to achieve full payment. LRBOI asks the 
        subcommittee to compel the agencies to produce the shortfall 
        reports for fiscal years 2013 and 2014 and to engage now to 
        finalize information for fiscal year 2015.

    As the President's proposal suggests, mandatory full funding of 
contract support costs will enhance healthcare delivery by stabilizing 
the cost base year-to-year. Tribes will be able to plan on a long-term 
basis the types of services that can be delivered. LRBOI encourages the 
subcommittee to support permanent mandatory appropriations. It is a 
clean deal. LRBOI does not support the transition to mandatory 
appropriations with a ``special appropriations'' creating a 
demonstration project that is aimed at establishing the funding 
formulas. The shortfall reports are already in the hands of Congress. 
Build from those documents the permanent appropriations mechanisms, 
with immediate implementation in fiscal year 2016. It is doable and 
necessary.
    LRBOI appreciates many of the proposed increases in the President's 
fiscal year 2016 budget. The increases are necessary and promising. We 
see the positive impact of ongoing meaningful consultation that is 
occurring through the Tribal Interior Budget Council and National 
Budget Formulation Workgroup as it relates to the recommendations of 
those groups in the translation of budget priorities. We urge the 
subcommittee to continue to support the efforts of these tribally 
driven bodies to inform the work of the administration and, ultimately, 
Congress. We also believe in the partnership that continues to evolve 
out of the Federal Indian trust relationship. The United States and 
Native Nations truly do share a ``sacred bond'' borne from treaties--a 
mutual exchange for the benefit of both ``nations.'' LRBOI urges the 
subcommittee to do right by our Nations; help us ensure the future of 
our children, our families, and the seven generations to come.
    Little River Band appreciates the opportunity to present this 
testimony to the subcommittee on these important matters. I am happy to 
answer any questions the members of the subcommittee may have.

    KchiMiigwech (Many Thanks)
    Gdagaanaagaanik (All Our Relations)
                                 ______
                                 
             Prepared Statement of the Maniilaq Association
    Summary.--The Maniilaq Association is an Alaska Native tribal 
organization representing twelve tribes in northwest Alaska. We provide 
health services through a self-governance agreement with the Indian 
Health Service (IHS) and social services through a self-governance 
agreement with the Bureau of Indian Affairs (BIA). We make the 
following recommendations regarding fiscal year 2016 IHS and BIA 
funding.
  --Increase funding for the Village Built Clinic leases in Alaska by 
        at least $12.5 million and make it a line item in the IHS 
        budget;
  --Make Contract Support Costs funding for the IHS and BIA mandatory;
  --Fund the IHS budget on an advanced appropriations basis;
  --Support the proposed increase in behavioral health spending in the 
        IHS and BIA budgets.
Village Built Clinics
    Our Village Built Clinic (VBC) facilities continue to face a 
significant funding crisis. The VBCs are essential for maintaining our 
Community Health Aide/Practitioner (CHAP) programs in our villages. The 
CHAP program provides the only local source of healthcare for our 
Alaska Native people.
    Because the CHAPs could not operate in most of rural Alaska without 
clinic facilities in the Alaska Native villages, the IHS established 
the VBC leasing program in the 1970s, but the leases have been 
chronically underfunded. Moreover, IHS has taken the position that 
VBCs--unlike comparable facilities in the lower 48--are not eligible 
for maintenance and improvement funding, for which Congress 
appropriated over $53.6 million in fiscal year 2015 and for which the 
administration has requested a $35 million increase. Current funding 
for the VBCs is not sufficient to cover the cost of repair and 
renovation as necessary to maintain the facilities in a safe condition. 
Many have been closed due to the hazards to the health service 
employees and patients, leaving villages without a clinic or access to 
CHAP services. Lease rental amounts for VBCs have failed to keep pace 
with costs; the majority of leases have not increased since 1989.
    A very recent estimate is that $12.5 million more per year, in 
addition to the current VBC allocation from IHS of about $4 million, 
would be needed to maintain and operate Alaska VBCs on a par with 
similar tribal health facilities elsewhere. Congress typically has not 
appropriated VBC funding as a separate line item. Instead, IHS 
allocates VBC lease funds from the Hospitals and Clinics line in its 
multi-billion-dollar lump-sum appropriation. This leaves IHS the 
discretion, in its view, to allocate however much--or little--it wishes 
to VBCs. Congress, of course, can override this discretion. We 
respectfully request that you direct IHS to (1) identify the amount 
needed to fully fund all Alaska VBCs, (2) request that amount in a 
separate line in the IHS budget, and (3) allocate that amount to the 
VBC lease program.
    An alternative way to secure full funding for VBC facilities that 
they own is through mandatory leases under Section 105(l) of the Indian 
Self-Determination and Education Assistance Act (ISDEAA). Maniilaq 
Association has submitted two such lease proposals, which has resulted 
in litigation with the IHS that is still ongoing. IHS has refused to 
provide full payment under the Section 105(l) leasing regulations or to 
incorporate the leases into Maniilaq Association's ISDEAA Funding 
Agreement. The IHS's rejection of Maniilaq's first lease proposal, for 
its VBC facility in Ambler, Alaska, was overturned by a Federal 
district court in August, 2014, on the grounds that the IHS failed to 
respond to the proposal within the statutorily-mandated timeframe. 
Maniilaq Association v. Burwell, Civ. No. 13-380 (D.D.C. Aug. 22, 
2014). The district court ruled that Section 105(l) leases may be 
incorporated into an ISDEAA funding agreement, but did not reach the 
question of whether or not full funding under the Section 105(l) 
regulations is mandatory or discretionary. That question will likely be 
litigated in Maniilaq's appeal of its second lease proposal, for its 
VBC facility in Kivalina, Alaska, which was filed in the same district 
court on January 30, 2015.
IHS Advance Appropriations
    The Maniilaq Association has been working for several years on the 
issue of transitioning the IHS budget to an advance appropriations 
basis. We know you are sympathetic to our frustrations caused by the 
funding of IHS and other Federal agencies via a series of start and 
stop Continuing Resolutions. We are grateful to Representative Don 
Young for introducing legislation (H.R. 395) to authorize IHS advance 
appropriations and for our entire Alaska delegation in the 113th 
Congress for introducing the same legislation.
    The current (fiscal year 2015) fiscal year funding was enacted 2\1/
2\ months after the beginning of the fiscal year; in fiscal years 2013 
and 2014 it was 6 months and 3\1/2\ months, respectively, after the 
beginning of the fiscal year. Following enactment, there is a couple 
month process of clearance through the agency and the OMB and then 
allotment to the Area Offices and finally to the tribes. Both the 
tribal and IHS programs suffer under this situation. We want to do the 
best job possible in planning, decisionmaking and administering 
programs but are limited by not knowing how much funding will be 
available or when it will be available. It also requires constant re-
working of our budget, time we would much rather devote to providing 
healthcare services. Especially affected are recruiting and hiring 
decisions and our ability to buy things in bulk and thus at a cheaper 
cost, notably for us, heating fuel.
    Congress has provided the authority for the Veterans Administration 
(VA) medical accounts funding to be appropriated on an advance basis 
and the Budget and Appropriations Committees have provided the 
necessary support for that authority. We are struck by the 
justification in the proposed fiscal year 2016 budget (fiscal year 2017 
advance appropriations) for the VA. The term ``Indian and Alaska 
Natives'' could be appropriately be used each time it says 
``veterans''. We ask for parity.

        For 2017, the Budget requests $63.3 billion in advance 
        appropriations for the three medical care appropriations: 
        Medical Services, Medical Support and Compliance, and Medical 
        Facilities. This request for advance appropriations fulfills 
        the Administration's commitment to provide reliable and timely 
        resources to support the delivery of accessible and high-
        quality medical services for veterans. This funding enables 
        timely and predictable funding for VA's medical care to prevent 
        our Nation's veterans from being adversely affected by budget 
        delays, and provides opportunities to more effectively use 
        resources in a constrained fiscal environment. (Appendix, 
        Budget of the U.S. Government, 2016, p.1058)

Contract Support Costs Mandatory Funding
    We and all of Indian Country appreciate the bipartisan support of 
the Interior Appropriations Subcommittees for full funding of Contract 
Support Costs (CSC). We support the administration's proposal to move 
CSC funding to a mandatory funding basis although we and others in 
Indian Country would like it to begin in fiscal year 2016 rather than 
waiting until fiscal year 2017. It differs from our and others proposal 
that CSC be funded indefinitely and not capped, but we gratefully 
acknowledge this proposal as a huge step for the IHS, BIA and OMB. We 
are hopeful that the $718 million proposed for CSC funds for IHS and 
$277 million for the BIA will be sufficient for full funding for fiscal 
year 2016--a lot of work has gone into the estimated calculations and 
that should bode well for future estimates as well.
    We ask for this subcommittee's help in working with the Budget 
Committee and any others that may want to weigh in on this proposal for 
mandatory CSC funding. You have had a great deal of experience in 
talking with Indian and Alaska Native leaders about the frustrations 
and the inequity of tribes and tribal organizations who contract to 
assume administration of Federal programs not being paid for the costs 
to administer them. It was helpful that the Joint Explanatory Statement 
for fiscal year 2014 Appropriations included the statement that the 
Committees on Appropriations were in the ``untenable position of 
appropriating discretionary funds for the payment of any legally 
obligated contract support costs.'' You have much to offer others in 
Congress who will weigh in on this issue. Indian Country will continue 
to do its part as well.
Behavioral Health, Suicide Prevention, and Alcohol & Substance Abuse 
        Treatment
    Alaska faces particular hardships in providing for our communities' 
behavioral and mental health. There is a dire need for more prevention 
funding for suicide intervention as well as alcohol and substance abuse 
prevention, particularly for our youth. Alaska has twice the national 
rate of suicide, and ranks second in the Nation in suicide attempts 
requiring hospitalization. Alaska Native teens commit suicide at a rate 
nearly six times that of non-Native teenagers. Compounding and 
complicating the suicide epidemic is alcohol and substance abuse, a 
mental health disorder. The overwhelming majority of the people we lose 
to suicide suffer from diagnosable, treatable mental health or 
substance abuse problems. However, the waiting list for treatment 
averages nearly 9 months, and due to lack of funding there is often no 
place to refer people, particularly young people.
    Thus we urge you to support the administration's Generations 
Indigeneous (or ``Gen-I'') proposal for increased resources for tribes 
to address youth behavioral, mental health and substance abuse and 
auxiliary issues. For the IHS, the Gen-I proposal would include a $25 
million increase ($10 million increase in Mental Health and $15 million 
increase in Substance Abuse Prevention accounts), plus the $5 million 
from last year for a total of $30 million for tribal behavioral health 
grants. For the BIA the proposal is an increase of $15 million to 
expand the Tiwahe Initiative designed to address the inter-related 
problems of poverty, violence and substance abuse faced by Native 
communities. Of note, but not under this subcommittee's jurisdiction, 
is the request for a $25 million increase of SAMHSA as part of Gen-I--
$10 million from the Mental Health account and $15 million from the 
Substance Abuse Prevention account.
    Oftentimes, tribes in Alaska have a difficult time working through 
the State of Alaska to provide social services, which adds layers of 
guidelines, regulations, and reduced funding. We have found that tribes 
and tribal organizations can provide better services if they receive 
the funding directly, utilizing their local knowledge and cultural 
values.
Other
    We cannot in four pages comment on everything of interest to us but 
want you to know that we join others in support of extending the 
Special Diabetes Program for Indians, for establishment of Medicare-
like Rates for non-hospital services thus stretching our Purchased/
Referred Care dollars, and stopping the drain on tribal and IHS 
healthcare programs caused by the lack of sufficient funding for annual 
built-in costs for medical and non-medical inflation, pay increases, 
and population growth.
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    Summary.--The requests of the Metlakatla Indian Community for 
fiscal year 2016 are:
  --Support the administration's request to make Contract Support Costs 
        funding mandatory, with a preference that such a change occur 
        beginning in fiscal year 2016.
  --Exempt the IHS from any future sequestration, as Congress has done 
        for the Veterans Health Administration programs.
  --Extend the Special Diabetes Program for Indians.
  --Substantially increase funding for BIA Natural Resources; the 
        administration requested a $48 million increase but given the 
        wide array of programs for which the Metlakatla Indian 
        Community has historically received far less funding than 
        necessary, the need is much more than that.
    The Metlakatla Indian Community (Community) is located on the 
Annette Island Reserve in southeast Alaska, a land base of 87,000 
acres. Through our Annette Island Service Unit we provide primary 
health services at our outpatient facility through funding from the IHS 
as a co-signer to the Alaska Tribal Health Compact under the Indian 
Self-Determination and Education Assistance Act. We have significant 
fish and forestry resources but as noted elsewhere in this testimony, 
we require more resources to fully manage them.
    Contract Support Costs (CSC) Mandatory Funding.--We are encouraged 
by the administration's policy proposal changes with regard to contract 
support costs and the widespread recognition that these costs are 
mandatory in nature. In our testimony of just 2 years ago we were 
fighting against the administration's proposals to not only underfund 
CSC but to cap each BIA and IHS individual contract. Now we are 
testifying in support of an administration proposal to move IHS and BIA 
contract support costs to a mandatory funding basis and in amounts that 
appear to be sufficient for full funding.
    We support the administration's proposal to make IHS and BIA 
contract support costs funding mandatory although we and other tribes 
and tribal organizations would like this designation to begin with 
fiscal year 2016. It differs from our and others in Indian Country 
proposal that CSC be funded indefinitely and not capped, but we 
acknowledge the administration's proposal as a huge step for the 
Federal agencies directly involved and the Office of Management and 
Budget. We are hopeful that the $718 million proposed for CSC funds for 
IHS and $277 million for the BIA will be sufficient for full funding 
for fiscal year 2016--a lot of work has gone into the estimated 
calculations and that should bode well for future estimates as well.
    Under the Indian Self-Determination and Education Assistance Act, 
the full payment of CSC is not discretionary; it is a legal obligation, 
affirmed by the U.S Supreme Court. Funding of CSC on a discretionary 
basis has placed the House and Senate Committees on Appropriations, in 
their own words, of being in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.''
    We ask for this subcommittee's intervention with the Budget 
Committee and any others that may influence this proposal for mandatory 
CSC funding. You have had a great deal of experience in talking with 
Alaska Native and Indian leaders over the years about the frustrations 
and the inequity of tribes and tribal organizations who contract to 
assume administration of Federal programs not being paid for the true 
costs to administer them. You have much to offer others in Congress who 
will weigh in on this issue.
    Sequestration.--We ask that IHS funding be exempt from 
sequestration, as is the Veterans Health Administration programs. We 
understand that a number of Members of Congress, including some on this 
subcommittee, have indicated that it was an oversight that IHS was not 
exempted from sequestration and that it should be corrected. We are 
grateful for this and trust it will be done this year. That oversight 
that resulted in a $220 million cut in funding IHS for fiscal year 
2013, made worse by the fact that it had to be absorbed in a matter of 
a few months. Those sequestered levels then become the base for future 
funding.
    The Veterans Health Administration (VA) was made fully exempt from 
the sequestration for all programs administered by the VA. See Sec. 255 
of the Balanced Budget and Emergency Deficit Control Act (BBEDCA), as 
amended by Public Law 111-139 (2010). Also exempt are State Medicaid 
grants, and Medicare payments are held harmless except for a 2 percent 
reduction for administration of the program. We thus strongly urge the 
subcommittee to support an amendment to the BBEDCA to fully exempt the 
IHS from any future sequestration, just as the VA's health programs are 
exempt.
    Special Diabetes Program for Indians.--The authorization and 
funding for the Special Diabetes Program for Indians (SDPI) expires at 
the end of fiscal year 2015. The SDPI provides crucial funding for 
diabetes treatment and prevention programs for Alaska Natives and 
American Indians, among whom diabetes is an epidemic. The SDPI is 
showing significant outcomes--both in terms of dramatically increased 
access to treatment and prevention services and for improved blood 
sugar control and blood lipid levels. The President's fiscal year 2016 
budget proposal recommends extending SDPI for 3 years at its current 
level of $150 million per year, and we appreciate their advocacy. 
However, we join with others in Indian Country in recommending a 5-year 
extension at $200 million per year. We ask for your support of the 
efforts to pass such a multi-year extension of the SDPI and that the 
extension be accomplished as quickly as possible--well in advance of 
its expiration in September, 2015--so that these indispensable programs 
can continue to provide uninterrupted care and contracts can be renewed 
without disruption and loss of expertise.
    BIA Natural Resources Funding.--The Metlakatla Indian Community has 
the only reservation (Annette Island Reserve) within the State of 
Alaska--87,000 acres, plus the marine waters 3,000 feet out from the 
shorelines of Annette Islands. We did not participate in the Alaska 
Native Claims Settlement Act (ANCSA), though were given the opportunity 
to do so. Instead we communicated to the congressional drafters of 
ANCSA the need for the reservation to stay intact. As a result, section 
19 of ANCSA excludes the Metlakatla Indian Community, thus preserving 
the Community's trust land and reservation intact.
    Today I want to bring to your attention a terrible injustice: the 
BIA has, for decades, underfunded our natural resource programs. We 
recently conducted a detailed analysis of not only the funding we 
currently receive to carry out BIA natural resource programs 
($957,205), but an analysis of the funding necessary to adequately 
protect the trust assets (our lands, waters, habitat, minerals, and 
fish and wildlife), and also to steward those trust assets to meeting 
tribal needs on an ongoing basis. We determined that our BIA natural 
resource programs require a total funding of $4,274,731 on an annual 
basis, which means additional appropriations in the amount of 
$3,317,526.
    This breaks down as additional funds needed for the Community in 
the following budgetary accounts: BIA Hatchery Operations (+$500,000); 
Fisheries Management and Development & Wildlife Management and 
Development (+$1,006,068); Forestry (+$464,545); Natural Resources 
General/Administration (+$533,369); Other Rights Protection (including 
water) (+$191,709); Mineral Development (+$304,372); and Invasive 
Species Management (+$317,463).
    We urge the subcommittee to fully fund these needs to that the 
Community can adequately carry out responsibilities that are critical 
to ensure that the Community's natural resources programs are 
adequately funded. I discuss below two of these program areas--
Fisheries and Forestry--to greater illustrate all that is involved in 
carrying out these natural resource programs, the existing inequitable 
share of these funds that the Community receives in comparison with 
other tribes in the Northwest, and why this funding is so critical to 
the Community.
    Fisheries.--Because State-managed waters surround the reservation's 
waters, and because there is no court-ordered co-management 
relationship between the Community and the State, Tribal fisheries must 
be managed in a way that accounts for the Community's fishing effort, 
as well as the State's. This must be done without having any influence 
over the State's management strategies, which, at times, have been 
preemptive of our subsistence and harvest rights. In order to properly 
manage our fishery resources, we need to bring our own scientists and 
resource managers to the table, but have insufficient funding to do so.
    We manage the following commercial fisheries (subject to 
Secretarial approval): Salmon--The Community's fishery is the largest 
tribally managed salmon fishery in the Nation. In fact, the Community 
annually harvests more salmon than the five top fishing tribes in 
western Washington combined; Herring--we manage the second largest 
herring stock in southeast Alaska (second only to the Sitka fishery), 
the largest (almost certainly the only) tribally managed herring 
fishery in the Nation; Halibut--our halibut fishery is comparable to 
the tribal halibut fisheries in western Washington; and Dive Fisheries 
for Sea Cucumber and Geoduck--Comparable to tribal fisheries in western 
Washington.
    The tribes of western Washington, which conduct fisheries that are 
most similar to the Community's, also have complex managerial, 
technical and scientific needs. Yet, their funding, although 
substantially greater than the Community's, is still inadequate to 
cover the costs of retaining staff in each of the individual 
disciplines that, in combination, make up a legitimate fishery 
management program. However, Congress, through the BIA, makes millions 
of dollars available to the Northwest Indian Fisheries Commission 
(NWIFC) for that very purpose. The NWIFC, like the Columbia River 
Inter-Tribal Fish Commission, is able to draw on economies of scale and 
consortia staff, so that when tribes meet with the State, or other 
management authorities, they are supported by expertise that the State 
cannot ignore. By contrast, the Community not only does not have the 
funds necessary to hire its own experts, we are also not able to draw 
upon the expertise of an inter-tribal consortium. Our Tamgas Creek 
Hatchery is possibly the largest tribally operated hatchery in the 
Nation, but it inexplicably receives $0 in the Hatchery Operations line 
item in the BIA budget, while Oregon and Washington tribes receive 
substantial funding. Our Community is very much on its own. When 
considered in this light, the disparity between the fishery management 
support available to western Washington tribes and the support 
available to the Metlakatla Indian Community is enormous. As a result, 
we are severely handicapped in efforts to protect our fishing rights 
and conserve our fishery resources.
    Forestry.--A second example of critically needed funding to meet 
tribal natural resource program needs is in the forestry program. We 
receive $62,000 for our forestry program. This is insufficient funding 
to hire even one position in the program, let alone plan, design, and 
implement silvicultural prescriptions, forest harvest, conservation, 
and wildfire prevention and control strategies on the 21,172 acres of 
commercial forestland, and 54,197 acres of non-commercial forestland 
and associated muskeg habitat. Using the formula developed by the IFMAT 
III team in 2011, the Community's forestry program should receive a 
minimum of $646,223.32 in Federal funding in order to ensure forest 
health and Federal trust obligations are met. We have requested less 
than this full amount, or only an additional $464,545.
    We are glad to provide any additional information you may request. 
Thank you for your consideration of our concerns and needs.

    [This statement was submitted by Audrey Hudson, Mayor and Tribal 
Chair.]
                                 ______
                                 
 Prepared Statement of the the Metropolitan Water District of Southern 
                               California
    Chairperson Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for the U.S. 
Bureau of Land Management's (BLM) Subactivity: Soil, Water, and Air 
Management. This Subactivity includes Colorado River Salinity Control 
as a primary focus area. For fiscal year 2016, a funding level of $1.5 
million for salinity specific projects is needed in this primary focus 
area to prevent further degradation of Colorado River water quality and 
increased downstream economic damages.
    The concentrations of salts in the Colorado River cause about $382 
million in damages to water users each year. While this figure is 
significant, had it not been for the efforts of the Colorado River 
Basin Salinity Control Program (Salinity Control Program), salinity 
concentrations of Colorado River water today would have been about 90 
milligrams per liter (mg/L) higher, which has avoided additional 
damages of approximately $200 million per year.
    Metropolitan is the regional water supplier for most of urban 
southern California, providing supplemental water to retail agencies 
that serve over 18 million people. Water imported via the Colorado 
River Aqueduct has the highest level of salinity of all of 
Metropolitan's sources of supply, averaging around 630 mg/L since 1976, 
which leads to economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased cost of desalination and brine disposal for recycled 
        water in the municipal sector.

    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system, and enter the 
River through both natural and anthropogenic sources.
    The Salinity Control Program reduces salinity by preventing salts 
from dissolving and mixing with the River's flow. Irrigation 
improvements (sprinklers, gated pipe, lined ditches) and vegetation 
management reduce the amount of salt transported to the Colorado River. 
Point sources such as saline springs are also controlled.
    The Salinity Control Program, as set forth in the Act, benefits the 
Upper Colorado River Basin water users through more efficient water 
management, increased crop production, benefits to local economies 
through construction contracts, and through environmental enhancements. 
The Salinity Control Program benefits Lower Basin water users, hundreds 
of miles downstream from salt sources in the Upper Basin, through 
reduced salinity concentration of Colorado River water. California's 
Colorado River water users are presently suffering economic damages in 
the hundreds of millions of dollars per year due to the River's 
salinity.
    The Act provides that the Secretary of the Interior shall ``develop 
a comprehensive program for minimizing salt contributions to the 
Colorado River from lands administered by the Bureau of Land 
Management.'' BLM is the largest landowner in the Colorado River Basin. 
Due to geological conditions, much of the lands that are controlled and 
managed by the BLM are heavily laden with salt. Past management 
practices have led to human-induced and accelerated erosion processes 
from which soil and rocks, heavily laden with salt have been deposited 
in various stream beds or flood plains. As a result, salts are 
dissolved into the Colorado River system causing water quality problems 
downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the U.S. Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its on-farm 
Environmental Quality Incentives Program.
    Over the past years, the Salinity Control Program has proven to be 
a very cost effective approach to help mitigate the impacts of 
increased salinity in the Colorado River. Continued Federal funding of 
this important Basin-wide program is essential.
    Metropolitan encourages the subcommittee's support for sufficient 
funding in the Subactivity: Soil, Water, and Air Management to allow 
for general water quality improvement efforts in the Colorado River 
Basin and $1.5 million for salinity specific projects in 2016. This 
amount is needed to prevent further degradation of the quality of the 
Colorado River and increased downstream economic damages.
                                 ______
                                 
  Prepared Statement of the Minerals Science and Information Coalition
    Thank you for the opportunity to submit written testimony on the 
importance of minerals science and statistical information to the 
economy and national security. The Minerals Science and Information 
Coalition (MSIC), an ad hoc group representing both upstream and 
downstream minerals interests, respectfully submits this testimony in 
favor of increased funding for the Mineral Resources Program in the 
U.S. Geological Survey (USGS).
    MSIC and its members are united in support of minerals science and 
information functions in the Federal Government. Minerals and their 
materials form the basis of critical infrastructure and advanced 
technologies upon which we rely. The United States is the world's 
largest user of mineral commodities. Aggregates for bridges and roads, 
metals for pipelines and transportation, and elements for computers and 
defense systems contribute to our national security, economy, and 
overall global competitiveness. Despite our dependence on these 
materials, the U.S. has not invested the necessary funds in programs to 
identify and characterize our mineral wealth and quantify the domestic 
and global supply of, demand for, and flow of minerals and mineral 
materials. The Nation lacks the infrastructure necessary to support 
advanced mineral forecasting, leaving important supply chains 
susceptible to disruptions. Increased Federal investments in minerals 
science and research are necessary to overcome this liability. MSIC 
supports the President's request of $47.7 million for the USGS Mineral 
Resources Program, but suggests that new investments be made in the 
USMIN Project to continue development of a comprehensive minerals 
database and the National Minerals Information Center (NMIC) to create 
minerals forecasting capabilities.
    NMIC is the world's premier source of statistical information on 
current production and consumption of mineral commodities for more than 
180 countries. U.S. manufacturers and financial firms, as well as 
Federal, State, and local agencies, such as the Department of Defense, 
the Department of State, and the Department of Transportation use this 
information as a guide to economic and strategic decisionmaking. The 
ability to accurately forecast minerals' availability ahead of supply 
disruptions for these vital organizations is currently nonexistent. By 
comparison, in fiscal year 2015, the Energy Information Administration 
(EIA) received $117 million for energy information and forecasting, 
whereas the budget for minerals information at USGS was $15 million 
with no provision for minerals forecasting. NMIC's information 
gathering and analysis functions must be strengthened in fiscal year 
2016, and it is essential that new money be provided to fund minerals 
forecasting.
    MSIC notes the success of the Critical Materials Institute (CMI) at 
the Ames National Laboratory and suggests equal investments be made in 
upstream minerals information and research. The CMI is tasked with 
creating alternatives to and streamlining the efficiency of materials 
that are vulnerable to supply disruptions, including rare earth 
elements. This one-sided approach to supply chain management ignores 
the critical upstream research and analysis necessary to identify these 
high-risk resources in the first place. Additionally, there is little 
point in developing new materials if we cannot supply the raw materials 
to manufacture them. The USGS is uniquely positioned to provide the up-
to-date forecasts on potential mineral disruptions and to provide the 
essential geological research and information to help locate and 
characterize sources of critical minerals. MSIC suggests the creation 
of a Critical Minerals initiative within the USGS to complement DOE's 
Critical Materials Institute.
    We support $25 million per year to fund a Critical Minerals 
initiative at USGS. Federal investment in critical mineral resources 
should, at a minimum, match Federal investment in critical materials.
    Thank you for the opportunity to present this testimony to the 
subcommittee.

            Sincerely,

                    Aluminum Association; American Exploration & Mining 
                            Association; American Geosciences 
                            Institute; American Physical Society; 
                            Associated Equipment Distributors; 
                            Industrial Minerals Association--North 
                            America; Materials Research Society; Mining 
                            & Metallurgical Society of America; 
                            National Electrical Manufacturers 
                            Association; National Mining Association; 
                            National Stone, Sand and Gravel 
                            Association; The Pennsylvania Bureau of 
                            Topographic and Geologic Survey; Society of 
                            Economic Geologists; and Society for 
                            Mining, Metallurgy, and Exploration.
                                 ______
                                 
               Prepared Statement of Senator Patty Murray
                                      United States Senate,
                                    Washington, DC, April 27, 2015.
Hon. Lisa Murkowski, Chairman,
Subcommittee on Interior, Environment and Related Agencies, Senate 
        Appropriations Committee, Senate Dirksen Office Building, Room 
        131, Washington, DC, 20150
Hon. Tom Udall, Ranking Member,
Subcommittee on the Interior, Environment and Related Agencies, Senate 
        Appropriations Committee, Senate Hart Office Building, Room 
        125, Washington, DC, 20510

    Dear Chairman Murkowski and Ranking Member Udall:

    I thank you for your support of important projects that have made a 
real difference in the lives of millions of people in Washington State, 
the Pacific Northwest, and the United States. As the subcommittee 
prepares to write the fiscal year 2016 Interior, Environment and 
Related Agencies Appropriations bill, I ask for your support of 
projects important to Washington State and the Nation. I have outlined 
my requests for fiscal year 2016 in priority order, and provide brief 
descriptions below.

 
 
 
Agency:                                Environmental Protection Agency
Account:                               Environmental Programs and
                                        Management
Program:                               Geographic Programs
Activity:                              Puget Sound
FY2016 Request:                        $30 million with an increase
                                        above the President's Budget as
                                        possible
FY2016 PB:                             $30 million
Rationale:                             This funding is requested to
                                        provide continued Federal
                                        leadership while supplementing
                                        State and local efforts to
                                        implement Washington State's
                                        Puget Sound Action Agenda. The
                                        President's Budget Request
                                        provides a slight increase from
                                        funding provided by the fiscal
                                        year 2015 Consolidated and
                                        Further Continuing
                                        Appropriations Act; however,
                                        additional investment is still
                                        required to return Puget Sound
                                        funding to historical levels,
                                        and I respectfully request
                                        additional funding as may be
                                        available. Puget Sound recovery
                                        and restoration is critical to
                                        my State, to the Pacific
                                        Northwest region, and to the
                                        country as a whole. A healthy
                                        Puget Sound plays an essential
                                        role in the region's economy and
                                        is important to the
                                        environmental and economic
                                        future of my State. Healthy
                                        waters and tributaries are
                                        essential to the recovery of
                                        several Endangered Species Act-
                                        listed salmon populations and
                                        the protection of tribal treaty
                                        rights. This request is my
                                        highest priority in the
                                        Interior, Environment, and
                                        Related Agencies Appropriations
                                        bill.
 


 
 
 
Agency:                                USDA U.S. Forest Service
Account:                               Capital Improvement and
                                        Maintenance
Program/Activity:                      Legacy Roads and Trails
FY2016 Request:                        $40 million
FY2016 PB:                             $0 (Consolidated into Integrated
                                        Resource Restoration)
Rationale:                             The Legacy Roads and Trails
                                        program provides funding for
                                        maintenance and decommissioning
                                        work on Forest Service roads in
                                        the Pacific Northwest and across
                                        the Nation. This program funds
                                        projects to combat water quality
                                        issues. It is critical to my
                                        home State of Washington, where
                                        it plays an important role
                                        enhancing and improving habitat
                                        for salmon, steelhead, and bull
                                        trout species while supporting
                                        good paying jobs in rural areas.
                                        The Forest Service's road system
                                        vastly outstrips the available
                                        funding for maintenance and
                                        repair, and Legacy Roads and
                                        Trails has successfully
                                        decommissioned no longer needed
                                        roads that otherwise result in
                                        habitat blockages and water
                                        quality issues.
 


 
 
 
Agency:                                USDA U.S. Forest Service
Account:                               State and Private Forestry
Program/Activity:                      Forest Legacy
FY2016 Request:                        Highest level possible
FY2016 PB:                             $61 million
Rationale:                             The Forest Legacy program is an
                                        important, voluntary tool
                                        helping individuals protect some
                                        of America's unique landscapes.
                                        Forest Legacy provides Federal
                                        support to preserve private
                                        forests as working timber lands,
                                        thereby supporting jobs in rural
                                        communities, wildlife habitat,
                                        recreation opportunities, and
                                        water quality. Funding the
                                        Forest Legacy program at the
                                        highest level possible will
                                        allow adequate funds to be made
                                        available for important projects
                                        in my home State, including the
                                        Mount St. Helens Forest Project
                                        Phase 2. Without the support of
                                        the Forest Legacy program, these
                                        lands could be at risk of
                                        development, resulting in long-
                                        term impacts to future
                                        generations.
 


 
 
 
Agency:                                Bureau of Indian Affairs
Account:                               Operation of Indian Programs
Program:                               Trust--Natural Resources
                                        Management
Activity:                              Rights Protection Implementation
FY2016 Request:                        Highest level possible
FY2016 PB:                             $40.1 million
Rationale:                             Rights Protection Implementation
                                        funding supports the off-
                                        reservation hunting, fishing,
                                        and gathering rights of 49
                                        federally-recognized tribes,
                                        including several in Washington
                                        State. This funding also
                                        supports the implementation of
                                        court orders and the co-
                                        management of treaty-protected
                                        fishing rights by intertribal
                                        organizations, which is
                                        especially important to
                                        Washington State tribes who have
                                        taken on increasing
                                        responsibilities in fisheries
                                        management without a
                                        corresponding increase in
                                        funding. Within this activity, I
                                        especially support the
                                        President's request for Western
                                        Washington Fisheries Management,
                                        the Washington State Timber Fish
                                        and Wildlife Project, Columbia
                                        River Fisheries Management, the
                                        U.S.-Canada Pacific Salmon
                                        Treaty Implementation, Salmon
                                        Marking, and Youth Initiatives.
 


 
 
 
Agency:                                National Park Service
Account:                               Land Acquisition and State
                                        Assistance
FY2016 Request:                        Highest level possible
FY2016 PB:                             $153.7 million
Rationale:                             The Land and Water Conservation
                                        Fund's (LWCF) land acquisition
                                        funding is an important tool to
                                        protect some of America's most
                                        treasured landscapes. LWCF
                                        projects preserve land and
                                        enhance recreational activities
                                        including hiking, hunting, and
                                        angling, which stimulate rural
                                        economies and support thriving
                                        outdoor recreation industries in
                                        Washington, Alaska, New Mexico,
                                        and other States. This account
                                        has previously supported
                                        important projects in Washington
                                        State and robust funding this
                                        year would support the purchase
                                        of land within Ebey's Landing
                                        National Historical Reserve. I
                                        am a cosponsor of legislation to
                                        permanently reauthorize LWCF and
                                        expect Congress will address
                                        this reauthorization effort. I
                                        commend the President for
                                        advocating a switch to mandatory
                                        funding of LWCF, and as
                                        authorizing committees consider
                                        reauthorization, I support any
                                        additional funding the
                                        subcommittee can provide to all
                                        LWCF streams in this constrained
                                        fiscal environment.
 


 
 
 
Agency:                                USDA U.S. Forest Service
Account:                               Land Acquisition
Program/Activity:                      Land and Water Conservation Fund
FY2016 Request:                        Highest level possible
FY2016 PB:                             $63 million
Rationale:                             The Land and Water Conservation
                                        Fund's (LWCF) land acquisition
                                        funding is an important tool to
                                        protect some of America's most
                                        treasured landscapes. LWCF
                                        projects preserve land and
                                        enhance recreational activities
                                        including hiking, hunting, and
                                        angling, which stimulate rural
                                        economies and support thriving
                                        outdoor recreation industries in
                                        Washington, Alaska, New Mexico,
                                        and other States. This account
                                        previously supported critical
                                        projects in Washington State and
                                        the President's request this
                                        year includes efforts in my
                                        State to consolidate ownership
                                        of the Okanogan-Wenatchee
                                        National Forest checkerboard
                                        lands. I am a cosponsor of
                                        legislation to permanently
                                        reauthorize LWCF and expect
                                        Congress will address this
                                        reauthorization effort. I
                                        commend the President for
                                        advocating a switch to mandatory
                                        funding of LWCF, and as
                                        authorizing committees consider
                                        reauthorization, I support any
                                        additional funding the
                                        subcommittee can provide to all
                                        LWCF streams in this constrained
                                        fiscal environment.
 


 
 
 
Agency:                                Environmental Protection Agency
Account:                               Environmental Programs Management
Program/Activity:                      National Estuary Program
FY2016 Request:                        Highest level possible, with
                                        language specifying $600,000 per
                                        NEP
FY2016 PB:                             $27.3 million
Rationale:                             The Clean Water Act of 1987
                                        authorized 28 local National
                                        Estuary Programs (NEPs), two of
                                        which are in Washington State--
                                        Puget Sound and the Lower
                                        Columbia River Estuary
                                        Partnership. These NEPs protect
                                        nationally significant estuaries
                                        by bringing together diverse
                                        parties to identify problems,
                                        define actionable steps, and
                                        implement actions. NEP funds are
                                        critical to my home State and
                                        enhance opportunities to secure
                                        additional project-specific
                                        grants in areas including
                                        habitat restoration, toxics
                                        reduction, and environmental
                                        education. I am particularly
                                        supportive of language to
                                        specify the direction of
                                        $600,000 per NEP.
 


 
 
 
Agency:                                USDA U.S. Forest Service
Account:                               National Forest System
Program/Activity:                      Collaborative Forest Landscape
                                        Restoration Program
FY2016 Request:                        $60 million
FY2016 PB:                             $60 million
Rationale:                             The Collaborative Forest
                                        Landscape Restoration Program
                                        supports forest and watershed
                                        restoration projects that
                                        ultimately reduce wildfire
                                        suppression costs, create jobs,
                                        improve forest and watershed
                                        health, and leverage non-Federal
                                        investments. In my home State of
                                        Washington, Collaborative
                                        efforts have been successful in
                                        bringing together diverse
                                        parties to support, restore, and
                                        enhance habitat, reduce risk to
                                        communities, and support the
                                        local economy. Robust funding
                                        will enable the Forest Service
                                        to select and implement
                                        additional high-priority
                                        projects across the country,
                                        thereby making communities and
                                        forests safer, healthier, and
                                        more resistant to climate
                                        change.
 


 
 
 
Agency:                                United States Geological Survey
Activity:                              Natural Hazards
Subactivity:                           Earthquake Hazards
FY2016 Request:                        $70 million
FY2016 PB:                             $57.5 million
Rationale:                             Millions of Americans live within
                                        fault zones and are therefore
                                        subject to the potentially
                                        devastating impacts of an
                                        earthquake, from loss of life to
                                        economic losses and building
                                        damage. Unfortunately,
                                        earthquakes come with little
                                        advance notice and therefore put
                                        millions of dollars of economic
                                        activity, as well as millions of
                                        lives, at risk. An increase in
                                        this account would help fund
                                        earthquake early warning
                                        research and development, which
                                        is important for natural
                                        disasters such as these with
                                        mere minutes for response.
                                        Robust funding is essential to
                                        support the construction,
                                        operation, and maintenance costs
                                        of an early warning system to
                                        benefit millions of Americans,
                                        particularly along the entire
                                        West Coast where many major
                                        fault lines exist, without
                                        leaving one region of the
                                        coastline at greater risk than
                                        other parts.
 

Bill Language Request--Earthquake Hazards
    ``[overall USGS funding for fiscal year 2016], of which $70,000,000 
shall be available for the Earthquake Hazards Program: Provided, 
$16,100,000 shall be available for initiating implementation of an 
earthquake early warning system in regions at greatest risk.''
Report Language Request--Earthquake Hazards
    ``Earthquake Hazards.--The Committee supports efforts to continue 
developing an earthquake early warning prototype system on the West 
Coast. The Committee is concerned about the lack of knowledge and real-
time instrumentation available for the Cascadia subduction zone. Our 
scientific understanding of earthquakes and the ocean environment will 
benefit from the wealth of offshore data collected and the continued 
development of an early earthquake warning system for the Cascadia 
system to help prepare for and mitigate the negative human and economic 
impacts to the Pacific Northwest like those felt by Japan in 2011.''
    Problem.--Earthquakes have enormous potential to cause catastrophic 
casualties, damage, economic loss, and disruption. Many urbanized areas 
across the country, including in the Pacific Northwest, Alaska, and 
California, are at particular risk of significant damage to human 
health and property should a significant earthquake hit. Research is 
ongoing to develop earthquake early warning systems in order to provide 
seconds to minutes of advance notice before an earthquake or 
earthquake-triggered tsunami hits, which could play an important role 
in human health and property protection, resulting in significant 
benefits to hospitals, transportation systems, manufacturing 
activities, and potentially limiting loss of life or damage. Increased 
funding is necessary to improve the Advanced National Seismic System 
and implement earthquake early warning systems for regions at greatest 
risk. The bill and report language provided above would address these 
issues and support this activity.

 
 
 
Agency:                                Bureau of Indian Affairs
Account:                               Operation of Indian Programs
Program:                               Tribal Management Development
                                        Program
FY 2016 Request:                       Highest funding possible
FY2016 PB:                             $14.3 million
Rationale:                             Funding through the Tribal
                                        Management Development Program
                                        helps tribes fulfill Federal
                                        mandates in natural resource
                                        management on trust land and
                                        supports tribal self-
                                        determination in deciding which
                                        priority projects to fund. With
                                        this funding, tribes employ law
                                        enforcement officers on
                                        Washington State's Lake
                                        Roosevelt and its shoreline to
                                        enforce Federal laws and tribal
                                        health and safety laws. This
                                        funding also supports the
                                        protection, restoration, and
                                        management of fish and wildlife
                                        and their habitats. Without this
                                        funding, tribal participation in
                                        processes and activities
                                        including permitting, hydropower
                                        operations, and fish and
                                        wildlife program implementation
                                        would be hamstrung. I am
                                        particularly supportive of
                                        robust funding for Tribal
                                        Management Development Program
                                        funding for Lake Roosevelt,
                                        Yakama, and the Upper Columbia
                                        United Tribes.
 

USGS Natural Hazards Report Language
    ``Natural Hazards.--The Committee is concerned that the lahar 
warning system on Mount Rainier, Washington, monitors only two of the 
six river valleys off the mountain and that the technology has reached 
its `end of life.' A population of nearly 3 million and associated 
property lives within the drainages of Mount Rainier's six river 
valleys and the Committee applauds the joint efforts to protect life 
and property that begun in 1998 by the United States Geological 
Survey's Cascades Volcanic Observatory and the Pierce County Management 
Department. These efforts should continue until all six impacted river 
valleys achieve the same level of coverage. Recognizing Mount Rainier 
as the most dangerous active volcano in North America, and the real 
possibility of a lahar event, the Committee urges the Survey to replace 
and expand the lahar warning system. This update must cover all six 
river valleys off Mount Rainier and employ the necessary up-to-date 
technology and systems to adequately monitor, detect, alert, and warn 
of a lahar event. Such a project will greatly complement the near and 
long term plans of the Survey for providing natural hazard detection 
and warning systems on the West Coast.''
    Problem.--In 1998, the Pierce County Department of Emergency 
Management and United States Geological Survey Cascades Volcanic 
Observatory began a pilot project for a Mount Rainier lahar warning 
system. The existing system currently monitors only two of the six 
river valleys potentially impacted by a Mount Rainier lahar event. 
According to USGS, Mount Rainier is the most dangerous active volcano 
in North America. Approximately 3 million people, as well as 
approximately $13 billion in buildings and land value, could be 
impacted by a catastrophic lahar flow in Mount Rainier's six river 
valleys. Pierce County, in partnership with USGS, other Federal 
agencies, the State of Washington, and impacted counties King, Lewis, 
and Thurston, seek to replace the outdated and limited lahar warning 
system with the installation of technology to monitor, detect, alert, 
and warn of lahar events in any of the six river valleys.

 
 
 
Agency:                                Department of Health and Human
                                        Services
Account:                               Indian Health Service
Program:                               Urban Indian Health
FY2016 Request:                        Highest level possible, with
                                        dedicated facility needs funding
FY2016 PB:                             $44 million
Rationale:                             The Indian Health Service (IHS)
                                        was created in 1979, and funding
                                        for urban Indian health has
                                        consistently represented
                                        approximately 1 percent of the
                                        overall IHS appropriation. Since
                                        that time, however, the
                                        population of Indians moving to
                                        cities has steadily increased,
                                        with the 2010 census finding
                                        that approximately 70 percent of
                                        the 5.2 million Americans self-
                                        identifying as American Indian
                                        or Alaska Native (either alone
                                        or in combination with another
                                        race) living in cities. There
                                        are 34 Urban Indian Health
                                        Centers across the country,
                                        including one in my home State
                                        of Washington. These centers
                                        provide culturally appropriate
                                        health services such as primary
                                        care, outreach, and referral
                                        services to many Native
                                        Americans. Many of these
                                        facilities are in need of
                                        repairs and renovations but have
                                        been hamstrung by limited
                                        resources. I support additional
                                        funding as available for
                                        facility needs.
 

Legacy Roads and Trails Report Language
    ``Legacy Roads and Trails.--The Committee retains the Legacy Roads 
and Trails Remediation program as a separate budget line item for 
fiscal year 2016 in order to ensure these funds are targeted to support 
Forest Service road improvements and decommissioning in locations with 
the greatest need. This program has improved the Forest Service's 
ability to address problems associated with its extensive and aging 
road system, but the Committee is concerned that the funds are not 
being allocated in a manner proportionate to the distribution of roads 
in need of attention across the system and directs the Forest Service 
to direct funds to regions most in need of road remediation.''
    Problem.--The U.S. Forest Service (USFS) road system was built 
decades ago to support large-scale timber harvest, and the USFS is now 
burdened with a road system larger than can effectively be managed. 
This expansive system negatively impacts water quality and wildlife 
habitat across the country. The Legacy Roads and Trails Remediation 
(LRT) program was created in fiscal year 2008 to help the USFS make 
targeted progress in addressing problems associated with this aging 
infrastructure. In addition to improved habitat and better water 
quality for downstream communities, LRT supports good-paying jobs in 
rural areas that have been impacted by decreased timber harvests. LRT 
funds have successfully been used to maintain and improve roads still 
needed for resource extraction or recreation, while decommissioning 
those that are no longer needed. Right-sizing the USFS road system 
helps reduce the fiscal and environmental burden of roads while 
allowing better, more reliable access to the Forest system for 
recreators. USFS Region 6 (Oregon and Washington) contain approximately 
a quarter of the Nation's USFS road miles, but the Region received only 
16 percent of appropriated LRT dollars in fiscal year 2014. The 
inclusion of this language in the fiscal year 2015 Appropriations bill 
helped direct proportional funds to Region 6, and retaining this 
language will ensure continued targeting of funds to regions of 
greatest need.

 
 
 
Agency:                                U.S. Fish and Wildlife Service
Account:                               Land Acquisition
FY2016 Request:                        Highest level possible
FY2016 PB:                             $58.5 million
Rationale:                             The Land and Water Conservation
                                        Fund's (LWCF) land acquisition
                                        funding is an important tool to
                                        protect some of America's most
                                        treasured landscapes. LWCF
                                        projects preserve land and
                                        enhance recreational activities
                                        including hiking, hunting, and
                                        angling, which stimulate rural
                                        economies and support thriving
                                        outdoor recreation industries in
                                        Washington, Alaska, New Mexico,
                                        and other States. This account
                                        has previously supported
                                        important projects in Washington
                                        State. I am a cosponsor of
                                        legislation to permanently
                                        reauthorize LWCF and expect
                                        Congress will address this
                                        reauthorization effort. I
                                        commend the President for
                                        advocating a switch to mandatory
                                        funding of LWCF, and as
                                        authorizing committees consider
                                        reauthorization, I support any
                                        additional funding the
                                        subcommittee can provide to all
                                        LWCF streams in this constrained
                                        fiscal environment.
 


 
 
 
Agency:                                U.S. Fish and Wildlife Service
Account:                               Resource Management
Activity:                              Habitat Conservation
Subactivity:                           Partners for Fish and Wildlife
FY2016 Request:                        $52.4 million
FY2016 PB:                             $52.4 million
Rationale:                             Partners for Fish and Wildlife
                                        supports voluntary and community-
                                        based efforts to improve fish
                                        and wildlife conservation on
                                        private land. In Washington
                                        State, these funds support
                                        collaborative partnerships with
                                        Federal, State, and local
                                        agencies, tribes, businesses,
                                        citizen groups, and landowners
                                        to enhance, restore, assess,
                                        educate, and conduct monitoring
                                        projects on many important
                                        efforts, including salmon
                                        recovery. With a relatively
                                        small Federal investment,
                                        Partners for Fish and Wildlife
                                        recipients are able to leverage
                                        impressive sums to make
                                        significant habitat improvements
                                        and support good-paying jobs. I
                                        support the President's funding
                                        request, with particular focus
                                        on existing programs proven to
                                        be effective.
 


 
 
 
Agency:                                USDA U.S. Forest Service
Account:                               Wildland Fire Management
FY2016 Request:                        $2.354 billion
FY2016 PB:                             $2.354 billion
Rationale:                             In 2014, the Carlton Complex Fire
                                        burned over 256,000 acres,
                                        making it the largest fire by
                                        acres burned in Washington State
                                        history. Washington State,
                                        particularly east of the Cascade
                                        mountain range, is consistently
                                        under threat of devastating
                                        wildland fires, and given the
                                        increasing risk, regularity, and
                                        severity of wildland fires, I am
                                        supportive of the President's
                                        Request for Wildland Fire
                                        Management. Within this account,
                                        I am particularly supportive of
                                        the request of $78 million for
                                        State Fire Assistance, which is
                                        an important tool to help State,
                                        local, and private landowners
                                        prepare for and respond to
                                        wildfires. I am especially
                                        concerned with the President's
                                        request to reduce the Hazardous
                                        Fuels account, and encourage the
                                        Committee to retain funding at
                                        the fiscal year 2015 enacted
                                        level of $361.749 million.
                                        Reduction of hazardous fuel
                                        loads, paid for by this funding,
                                        plays an important role in
                                        reducing the risk of wildland
                                        fires, and therefore warrants
                                        sustained funding as we grapple
                                        with massive fires across the
                                        West.
 


 
 
 
Agency:                                USDA U.S. Forest Service
Account:                               State and Private Forestry
Program/Activity:                      International Forestry
FY2016 Request:                        Highest level possible
FY2016 PB:                             $4.004 million
Rationale:                             Illegal logging activities result
                                        in an annual loss of
                                        approximately $1 billion to U.S.
                                        forestry industries as American
                                        businesses are undersold by
                                        cheaper illegal supply. The U.S.
                                        Forest Service Office of
                                        International Programs (FSIP)
                                        represents the U.S. forest
                                        products industry in
                                        international trade agreements,
                                        while also providing expertise
                                        to the U.S. Department of State
                                        and the Office of the U.S. Trade
                                        Representative. FSIP plays an
                                        important role working to level
                                        the international playing field
                                        for U.S. timber producers,
                                        advancing U.S. forestry
                                        interests, protecting the U.S.
                                        from invasive species that could
                                        damage our forests, and
                                        providing unique perspective
                                        pertaining to our national
                                        security. I appreciate the
                                        subcommittee's commitment to
                                        FSIP and was pleased the
                                        President returned this
                                        important program to his budget
                                        request this year, and I support
                                        continued funding for
                                        International Forestry at the
                                        highest level possible.
 


 
 
 
Agency:                                Department of the Interior
Account:                               Operation of the National Park
                                        System
Program/Activity:                      Manhattan Project National
                                        Historical Park
FY2016 Request:                        $180,000
FY2016 PB:                             $180,000
Rationale:                             The Manhattan Project National
                                        Historical Park tells an
                                        important story in our Nation's
                                        history: the development and
                                        production of the technology and
                                        materials necessary to create
                                        the world's first atomic bomb.
                                        The facilities and stories of
                                        the Manhattan Project will keep
                                        the history alive of millions of
                                        Americans whose work was
                                        essential to the World War II
                                        effort. Creation of the
                                        Manhattan Project National
                                        Historical Park was a bipartisan
                                        effort over several Congresses,
                                        with final passage secured as
                                        part of the fiscal year 2015
                                        National Defense Authorization
                                        Act. The new Park will have
                                        locations in Hanford,
                                        Washington, Los Alamos, New
                                        Mexico, and Oak Ridge,
                                        Tennessee. It will be
                                        administered and operated in
                                        conjunction with the Department
                                        of Energy, which has primary
                                        Federal responsibility for the
                                        cleanup of these sites. As we
                                        prepare for the National Park
                                        Service centenary year and this
                                        new Park Unit becomes
                                        operational, I support funding
                                        at the highest level possible
                                        for this and other Park units.
 

    Additionally, I support funding at the highest possible level for 
the following programs:
  --National Park Service
  --EPA--State and Tribal Assistance Grants--Drinking Water State 
        Revolving Fund
  --EPA--State and Tribal Assistance Grants--Clean Water State 
        Revolving Fund
  --BIA--Public Safety and Justice--Law Enforcement
  --BIA--Trust--Natural Resources Management--Cooperative Landscape 
        Conservation
  --FWS--Ecological Services Habitat Conservation--Coastal Programs
  --USFS--State and Private Forestry--Economic Action Program: Economic 
        Development Grant Program
  --Capital Improvements and Maintenance (U.S. Forest Service and 
        Bureau of Land Management)
  --FWS--Fish and Aquatic Conservation--Aquatic Invasive Species
  --National Park Service--Historic Preservation Fund
  --BIA--Contract Support
  --EPA--General Assistance Program
  --EPA--Diesel Emissions Reduction Grants Program
  --EPA--Environmental Programs and Management--Technical Assistance 
        Competitive Grant Program
  --FWS--Resource Management--Fish and Aquatic Conservation--National 
        Fish Hatchery Operations
  --USFS--Research and Development--USDA Forest Products Laboratory--
        Forest Products Advanced Utilization
  --BIE--Tribally Controlled Colleges and Universities
  --USGS--Natural Hazards--Global Seismographic Network
  --Multinational Species Conservation Fund
  --North American Wetlands Conservation Act
  --EPA--Environmental Education Grants
  --National Endowment for the Arts
  --National Endowment for the Humanities
  --FWS--National Wildlife Refuge System
  --USGS--Surveys, Investigations and Research, Water Resources--Water 
        Resources Research Act Program

    I encourage you to oppose the inclusion of policy riders related to 
activities by the agencies under your jurisdiction in the Interior, 
Environment, and Related Agencies Appropriations bill. I thank you and 
the subcommittee in advance for your assistance and look forward to 
working with you as we begin the fiscal year 2016 appropriations 
process.
    I understand and appreciate the subcommittee's previous efforts to 
use the Appropriations process as a vehicle to provide a long-term 
solution to wildfire disaster funding and I support continued efforts, 
through the Appropriations process or other vehicles, to complete this 
goal. The long-term practice of fire-borrowing is unsustainable and I 
support the equitable treatment of wildland fire disasters with other 
forms of natural disaster funding.

            Sincerely,
                                   Patty Murray,
                                           United States Senator.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Eric Cavazza and I serve as the Director of the Bureau 
of Abandoned Mine Reclamation within the Pennsylvania Department of 
Environmental Protection. I am providing this statement on behalf of 
the National Association of Abandoned Mine Land Programs (NAAMLP), for 
which I currently serve as President. The NAAMLP represents 31 States 
and tribes, of which 28 implement federally approved abandoned mine 
land reclamation (AML) programs authorized under Title IV of the 
Surface Mining Control and Reclamation Act (SMCRA). As you know, Title 
IV of SMCRA was amended in 2006 and significantly changed how State and 
tribal AML grants are funded. These grants are still based on receipts 
from a fee on coal production, but beginning in fiscal year 2008, the 
grants are funded primarily by mandatory appropriations. As a result, 
the States and tribes should receive $209 million in fiscal year 2016. 
In its fiscal year 2016 proposed budget, the Office of Surface Mining 
(OSM) is requesting $385 million for State and tribal AML grants (which 
includes $200 million of new funding for the President's Power Plus 
Plan), an increase of $176 million. OSM's budget also includes five 
legislative proposals, the first of which would eliminate funding to 
States and tribes that have ``certified'' completion of their highest 
priority abandoned coal reclamation sites (a reduction of $24.4 million 
in fiscal year 2016); the second of which would return the AML 
reclamation fee paid by coal operators to pre-2006 levels; the third of 
which would establish a hardrock AML fee and accompanying program; the 
fourth of which would provide enhanced payouts to the United Mine 
Workers pension funds; and the fifth of which would accelerate the 
distribution of grant funds for a portion of the remaining 
unappropriated balance in the AML Trust Fund to target the cleanup and 
redevelopment of eligible lands and waters (an additional $200 million 
in fiscal year 2016).
    Over the past 35 years, the accomplishments of the States and 
tribes under the AML program have resulted in tens of thousands of 
acres of abandoned mine lands having been reclaimed, thousands of mine 
openings having been closed, many streams having been restored from the 
adverse impacts of acid mine drainage, hundreds of mine fires having 
been extinguished, thousands of homes, schools and businesses having 
been stabilized from the adverse impacts of mine subsidence and 
landslides, and safeguards for people, property and the environment 
having been put in place. Additionally, potable drinking water supplies 
have been re-established for tens of thousands of citizens in areas 
where groundwater and water wells have been contaminated or diminished 
by mining. Be assured that States and tribes continue to be committed 
to address the unabated hazards at both coal and non-coal abandoned 
mines. We are united in achieving the goals and objectives as set forth 
by Congress when SMCRA was first enacted--including protecting public 
health and safety, enhancing the environment, providing employment, and 
adding to the economies of communities impacted by past coal and 
noncoal mining. In this regard, a recently updated ``Safeguarding, 
Reclaiming, Restoring'' accomplishments report prepared by State and 
tribal administrators of AML programs under SMCRA is available on the 
NAAMLP Web site (http://naamlp.net/documents/), which provides several 
on-the-ground examples of the type of work that is being done around 
the country.
    When passed in 1977, SMCRA set national regulatory and reclamation 
standards for coal mining. The Act also established a Reclamation Trust 
Fund to work towards eliminating the innumerable health, safety and 
environmental problems that existed throughout the Nation from mines 
that were abandoned prior to the Act. The Fund generates revenue 
through a fee on current coal production. This fee is collected by OSM 
and distributed to States and tribes that have federally approved 
regulatory and AML programs. The promise Congress made in 1977, and 
with every subsequent amendment to the Act, was that, at a minimum, 
half the money generated from fees collected by OSM on coal mined 
within the boundaries of a State or tribe, referred to as the ``State 
Share'', would be returned for the uses described in Title IV of the 
Act if the State or tribe assumed responsibility for regulating active 
coal mining operations pursuant to Title V of SMCRA. The 2006 
Amendments clarified the scope of what the State Share funds could be 
used for and reaffirmed the promise made by Congress in 1977.
    If a State or tribe was successful in completing reclamation of 
abandoned coal mines and was able to ``certify'' under Section 411 of 
SMCRA,\1\ then the State Share funds could be used to address a myriad 
of other abandoned mine issues as authorized by SMCRA and as further 
defined under each State's or tribe's Abandoned Mine Reclamation Plan, 
each of which is approved by OSM. Like all abandoned mine reclamation, 
the work of certified States and tribes eliminates health and safety 
problems, cleans up the environment, and creates jobs in rural areas 
impacted by mining. In this regard, the certified States and tribes 
have been good stewards of the AML funds they receive, especially with 
regard to addressing dangerous non-coal mines.
---------------------------------------------------------------------------
    \1\ While a certified State or tribe confirms at the time of 
certification that it has completed all of the coal sites on its 
current inventory, the certification contemplates that new, formerly 
unidentified high priority coal AML sites may occur in the future and 
the State/tribe commits to addressing these sites immediately. All AML 
States and tribes, including those that are certified, have identified 
additional previously unknown high priority coal sites as a result of 
on-going field investigations, new information and features that have 
been expressed to the surface. The State of Montana alone spent $8.5 
million on coal projects (80 percent of the annual grant) in fiscal 
year 2014.
---------------------------------------------------------------------------
    The legislative proposal to eliminate funding for certified State 
and tribal AML grants not only breaks the promise of State and Tribal 
Share funding, but upsets the balance and compromise that was achieved 
in the comprehensive restructuring of SMCRA accomplished by the 2006 
Amendments following more than 10 years of discussion and negotiation 
by all affected parties. The funding reduction is inconsistent with the 
administration's stated goals regarding jobs and environmental 
protection. We therefore respectfully ask the subcommittee to support 
continued funding for certified States and tribes at the statutorily 
authorized levels, and turn back any efforts by OSM to amend SMCRA in 
this regard.\2\
---------------------------------------------------------------------------
    \2\ In this regard, we should note that funding to certified States 
and tribes was already capped at $15 million annually pursuant to an 
amendment to SMCRA as part of the Moving Ahead for Progress in the 21st 
Century Act (Public Law 112-14) in 2012.
---------------------------------------------------------------------------
    OSM's budget includes several new discretionary funding requests 
related to the AML program under Title IV of SMCRA. The first would 
provide funding and additional FTE's to evaluate AML program 
implementation, including ``identifying more effective and efficient 
tools for AML site identification, contract management and program 
oversight''. Part of this funding will be used to review the current 
projects in the Abandoned Mine Land Inventory System (AMLIS) given the 
date when they were originally entered into AMLIS. While we see this as 
a potentially useful exercise, especially as we look toward 
reauthorization of the program prior the expiration of fee collection 
authority in 2021, we believe it is critical that OSM coordinate any 
such efforts with State AML program managers given that much of the 
inventory data and information resides with the States (and can often 
be updated more effectively by syncing AMLIS with State AML inventories 
which are generally more up to date and accurate). A portion of this 
increased funding is also targeted at program oversight. Frankly, we 
are unaware of any significant problems with the States' and tribes' 
administration of their respective AML programs and therefore believe 
OSM should spend this funding on more useful and productive initiatives 
related to overall program improvements. For instance, we believe the 
proposed increase in funding for applied science projects related to 
AML work is justified.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. In fiscal year 2014, language was 
included in OSM's appropriation that encouraged the use of these types 
of matching funds, particularly for the purpose of environmental 
restoration related to treatment or abatement of acid mine drainage 
(AMD) from abandoned mines. This is an ongoing, and often expensive, 
problem, especially in Appalachia. NAAMLP therefore requests that the 
subcommittee once again include language in the fiscal year 2016 
appropriations bill that would allow the use of AML funds for any non-
Federal cost-share required by the Federal Government for AMD 
abatement.
    We also urge the subcommittee to support increased funding for 
OSM's training program and TIPS, including moneys for State/tribal 
travel. These programs are central to the effective implementation of 
State and tribal AML programs as they provide necessary training and 
continuing education for State/tribal agency personnel, as well as 
critical technical assistance. We also strongly support funding for the 
Watershed Cooperative Agreements in the amount of $1.5 million because 
it facilitates and enhances State and local partnerships by providing 
direct financial assistance to watershed organizations for acid mine 
drainage remediation.
    Among the legislative proposals contained in OSM's proposed budget, 
two deserve special attention. The first is a proposal to ``Revitalize 
Communities Impacted by Abandoned Mine Lands,'' which would be 
accomplished by dispersing $1 billion from the AML Fund over 5 years 
for the purpose of reclamation that ``facilitates sustainable 
revitalization.'' While the States are supportive of the spirit of this 
proposal and have in fact designed many projects around these types of 
purposes using local contractors whenever the opportunities and 
partnerships exist, we cannot support a programmatic change of this 
magnitude without a better understanding of the specifics of how it 
will be implemented. The success of such an endeavor, as well as the 
States' support for it, is highly dependent on robust consultation 
between OSM and State AML program managers. At this juncture, the 
States are concerned that the proposal could have negative 
ramifications for the overall remediation of AML hazards and thus 
public health and safety. Additionally, such projects rely on a 
combination of partnerships, infrastructure and other factors to 
sustain them into the future once the AML reclamation is completed. 
Depending on how the proposal is implemented, the addition of 
``economic eligibility factors'' to existing site selection criteria 
could potentially divert some amount of funding away from the highest 
priority AML sites. In this regard, it should be kept in mind that the 
$1 billion of AML Fund money which would be repurposed by the proposal 
is already slated for dispersal to the States under the allocation 
system and site prioritization method ordained by Congress in the 2006 
amendments to SMCRA--and primarily for remaining high priority AML 
projects.
    With respect to this legislative proposal and as a further 
expansion of it, OSM has proposed a new discretionary funding amount of 
$2 million to support ``OSM technical assistance to States and 
communities to plan coordinated reclamation projects of abandoned coal 
mines and mine drainage, as well as area-wide planning to help target 
reclamation projects that facilitate beneficial post-reclamation land 
use and sustainable revitalization in economically depressed coalfield 
communities''. While this funding justification gives us a bit more of 
the picture about the $1 billion Power Plus proposal, it still leaves 
many of our questions unanswered and as such we are uncertain of 
exactly how OSM intends to actually spend this money. To the extent 
that it can used to accelerate the completion of priority projects on 
AMLIS and create jobs, we believe we can work cooperatively with OSM to 
make that happen given the current structure of the AML program under 
Title IV. To the extent it expands into untested waters that require 
adjustments to the current statutory mandates, we must be more 
circumspect in our support, as noted above. Until we learn more about 
how AML moneys can appropriately be spent to ``help diversify the 
economy of coal country'' without impinging on mandated high priority 
reclamation, the jury is still out on the proposal's feasibility and 
legality.
    OSM's budget proposal also includes a legislative proposal that 
would require a massive transfer of $363.4 million from the Treasury to 
various components of the UMWA Health and Retirement Funds. The States 
recognize the importance of this issue and are supportive of efforts to 
ensure the long-term solvency of the UMWA Pension Funds. However, the 
States believe that this issue should be pursued as part of a more 
comprehensive AML reauthorization package given the overall 
implications for the AML program. In this regard, the States are 
concerned that this significant dispersal of Treasury funds would 
trigger the application of the $490 million cap on transfers from the 
Treasury vis-a-vis mandatory Treasury payments to the States for AML 
work. An analysis of OSM's proposed budget demonstrates that the 
combination of this transfer to the UMWA Funds along with the mandatory 
AML program transfers to States, including funding for certified States 
and tribes that we request be continued, would exceed the $490 million 
cap.
    With regard to the proposal contained in OSM's budget to establish 
a hardrock AML program, the States and tribes are well aware of the 
need to address historic hardrock AML problem areas, which initially 
began with the inclusion of Section 409 of SMCRA in 1977. There is 
clearly a need to establish both the funding mechanism and the 
administrative program to address these legacy sites. We believe that 
OSM is in the best position to administer this program, given its 35 
years of experience in operating the Title IV program under SMCRA. Our 
only concern is that, while on the one hand OSM is advocating for the 
establishment of a hardrock AML program, it is also pushing for the 
elimination of funding for certified States and tribes to accomplish 
this very same type of work. Granted, OSM's position is based on its 
belief that SMCRA funding should be restricted to high priority coal 
problems only. However, Congress clearly felt differently from the 
outset of SMCRA's formation and, while there have been many recent 
opportunities to adjust its views and amend SMCRA accordingly, Congress 
has chosen not to do so. To the contrary, Congress has adopted 
legislation that would clarify the use of SMCRA AML funds to address 
noncoal problems. Nonetheless, we would welcome an opportunity to work 
closely with OSM if such a program is developed in examining the 
potential for a hardrock AML program, wherever it may reside and 
however it may be constituted.
    Thank you for the opportunity to submit this statement regarding 
OSM's proposed budget for fiscal year 2016.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to testify on the fiscal year 
2016 proposed budget for the United States Environmental Protection 
Agency (EPA), particularly grants to State and local air pollution 
control agencies under sections 103 and 105 of the Clean Air Act, which 
are part of the State and Tribal Assistance Grant (STAG) program. 
Specifically, NACAA supports the President's request for an increase of 
$40 million over fiscal year 2015 levels, for a total of $268.2 million 
for State and local air quality grants; recommends that State and local 
air pollution control agencies be provided with the flexibility to 
determine how best to use any additional resources, including the $40 
million; and requests that grant funds for fine particulate matter 
monitoring remain under section 103 authority, rather than being 
shifted to section 105 authority, as EPA is proposing.
    NACAA is a national, non-partisan, non-profit association of air 
pollution control agencies in 41 States, the District of Columbia, four 
territories and 116 metropolitan areas. The members of NACAA have the 
primary responsibility under the Clean Air Act for implementing our 
Nation's clean air program. The air quality professionals in our member 
agencies have vast experience dedicated to improving air quality in the 
United States. These observations and recommendations are based upon 
that experience. The views expressed in this testimony do not 
necessarily represent the positions of every State and local air 
pollution control agency in the country.
       air pollution remains a significant threat to human health
    While great strides have been made in addressing air pollution, and 
the Clean Air Act's programs have been extremely successful in 
providing significant health and welfare benefits throughout our 
country, there is still a lot of work to be done. According to EPA, 
``[e]ven with this progress, in 2012 approximately 45 percent of the 
U.S. population lived in counties with air that did not meet health-
based standards for at least one pollutant.'' \1\ Additionally, EPA's 
latest National Air Toxics Assessment (NATA) data showed that everyone 
living in the United States had an increased cancer risk of over 10 in 
one million (one in one million is generally considered ``acceptable'') 
in 2005, due to exposure to the hazardous air pollutants included in 
EPA's analysis.\2\ Finally, global warming and climate change are 
expected to cause a host of problems, including rising sea levels, 
changing weather patterns and increases in diseases and other problems 
that threaten human health and the environment.\3\
---------------------------------------------------------------------------
    \1\ Fiscal Year 2016 EPA Budget in Brief (February 2015), page 14.
    \2\ National Air Toxics Assessment for 2005--Fact Sheet (February 
17, 2011), http://www.epa.gov/ttn/atw/nata2005/05pdf/sum_results.pdf.
    \3\ Fiscal Year 2016 EPA Budget in Brief (February 2015), page 13.
---------------------------------------------------------------------------
    While this subcommittee addresses many critically important 
problems, it is unlikely that any pose more of a threat to public 
health than air pollution. In fact, tens of thousands of people die 
prematurely each year \4\ and many others suffer serious health 
problems as a result of exposure to air pollution. These include, among 
other things, premature mortality; cancer; and cardiovascular, 
respiratory, neurological and reproductive damage.\5\ This subcommittee 
has the opportunity to help address these serious public health and 
welfare problems by providing additional Federal funding to assist 
State and local air agencies in their efforts.
---------------------------------------------------------------------------
    \4\ http://epa.gov/ncer/science/pm/.
    \5\ Fiscal Year 2014-2018 EPA Strategic Plan (April 10, 2014), page 
8.
---------------------------------------------------------------------------
state and local programs need significant increases for continuing and 
                              new programs
    For many years, State and local air pollution control agencies have 
struggled with insufficient resources. A NACAA study revealed an annual 
shortfall of $550 million in Federal grants for State and local air 
programs,\6\ which has caused our agencies to make difficult choices to 
cut air pollution programs that are important for public health and/or 
eliminate staff. Due to these economic hardships, States and localities 
increasingly rely on Federal grants provided by the Clean Air Act.
---------------------------------------------------------------------------
    \6\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies, (April 2009), NACAA, 
www.4cleanair.org/Documents/reportneedssurvey042709.pdf.
---------------------------------------------------------------------------
    While section 105 of the Clean Air Act authorizes the Federal 
Government to provide grants for up to 60 percent of the cost of State 
and local air programs and calls for States and localities to provide a 
40-percent match, in reality, State and local air agencies provide over 
three-fourths of their budgets (not including permit fees under the 
Federal title V program). To make matters worse, the purchasing power 
of Federal grants has decreased by nearly 16 percent over the past 14 
years due to inflation, during which time State and local 
responsibilities have expanded almost exponentially.
    We recognize that Congress must support many programs and that 
providing full funding for any one effort is probably impossible. 
Therefore, although it is not enough to fund all of our 
responsibilities, NACAA appreciates and supports the administration's 
proposed $40-million increase and hopes that Congress will provide that 
level of funding. Federal funding for State and local air programs--
both continuing grants and the requested increase--would provide 
resources for a host of essential activities, such as our ongoing core 
programs and new efforts, including obligations under the Clean Power 
Plan.
Core Program Funding
    State and local air quality agencies are continuously required to 
implement many essential programmatic responsibilities to obtain and 
maintain healthful air quality. These include not only new efforts, but 
also ongoing activities that constitute the ``core'' of our clean air 
activities and the day-to-day responsibilities that are the foundation 
of our programs. Just to list a few examples, in fiscal year 2016, 
States must: develop and/or make revisions to their State 
Implementation Plans (SIPs) for each of the health-based national 
ambient air quality standards (NAAQS)--especially the ozone and 
PM<INF>2.5</INF> (fine particles) standards; continue implementing new 
and updated Maximum Achievable Control Technology (MACT) air toxics 
standards; address regional haze problems; implement motor vehicle and 
related fuels programs; etc. All of these tasks call for a variety of 
activities that are resource- and labor-intensive. These include, among 
other things, planning; compiling comprehensive emission inventories; 
carrying out complex modeling; analyzing extensive data; expanding and 
operating monitoring networks; adopting regulations; inspecting 
facilities and enforcing regulations, as necessary; addressing 
complicated transport issues; issuing minor source permits; and 
informing and involving the public in air quality decisions and issues.
Clean Power Plan Funding
    In June 2014, EPA proposed the Clean Power Plan, which is a 
regulation under section 111(d) of the Clean Air Act designed to reduce 
emissions of greenhouse gas emissions from existing electric utility 
power plants. It is expected to be issued as a final regulation this 
summer. Regardless of one's opinions about the need for climate change 
measures, the fact is that State and local air quality agencies are now 
expected to begin developing State plans and carrying out other 
activities to comply with the requirements that will shortly be in 
place. Likewise, even though these regulations will be litigated, in 
the meantime the requirements for State and local air agencies to move 
ahead with the program will remain in force and require significant 
resources.
    Among the many activities State and local air agencies must 
undertake to comply with these regulations are the development and 
submission of State plans to meet the section 111(d) requirements. 
According to EPA, these tasks include: ``compile and assess information 
about energy and emissions; establish approaches to evaluating, 
measuring, and verifying plans for energy savings across environmental 
agencies and energy regulators, hold public meetings and conduct 
outreach with interested parties, and prepare and submit State plans.'' 
\7\ Additionally, agencies will need to conduct modeling, technical 
analysis and training. The activities will be in addition to the tasks 
State and local air agencies are already performing to comply with 
other requirements of the Clean Air Act and will call for additional 
resources.
---------------------------------------------------------------------------
    \7\ Draft OAR National Program Manager Guidance, fiscal years 2016-
2017 (February 23, 2015).
---------------------------------------------------------------------------
       nacaa recommends flexibility in the use of grant increases
    As stated above, the proposed budget calls for an increase of $40 
million in State and local air pollution control grants. The proposed 
budget would divide the increase into $25 million to implement the 
Clean Power Plan under section 111(d) and $15 million for other 
continuing State and local air quality activities. While State and 
local air agencies do need additional funds to implement the Clean 
Power Plan, we are also in need of significant increases to operate our 
essential core programs. In fact, State and local air pollution control 
agencies would need amounts far greater than the $40-million proposed 
increase whether or not the Clean Power Plan were in effect in fiscal 
year 2016. Accordingly, we request that Congress provide the $40-
million increase but also allow full flexibility for State and local 
air agencies to use the additional funds for the highest priority 
activities in their areas. This could include the Clean Power Plan and/
or other essential elements of State and local air quality programs, 
such as the core program activities noted above.
  nacaa recommends that authority for monitoring grants remain under 
                              section 103
    EPA has proposed again this year to begin shifting funds for 
PM<INF>2.5</INF> monitoring from section 103 authority, where no State 
or local matching funds are needed, to section 105, which would require 
additional matching funds. We recommend that the funds remain under 
section 103 authority. For individual agencies that have concerns about 
the matching requirements, this will ensure that they do not have to 
refuse essential monitoring funds because they do not have the 
resources to provide the required match. In past years, Congress has 
been very responsive to our requests on this issue, for which we are 
very grateful, and we recommend that Congress again call for these 
grants to be provided under section 103 authority.
       nacaa supports diesel emission reduction act (dera) funds
    NACAA is pleased that the proposed budget includes funding for the 
Diesel Emission Reduction Act (DERA) program ($10 million). This is an 
important program to address emissions from the large legacy fleet of 
diesel engines. We appreciate that the budget request did not fund DERA 
at the expense of the section 103/105 grants and we strongly urge that 
any future funding for DERA not be in lieu of increases to State and 
local air grants. Additionally, since many of the DERA funds are not 
provided to State and local governments, we recommend that future DERA 
activities not be funded through the STAG account. Instead, we suggest 
that the grants be provided through one of EPA's other accounts.
  nacaa supports resources for additional state and local clean power 
                               activities
    NACAA supports the recommended $4-billion Clean Power State 
Incentive Fund contained in the request because it will provide 
significant support for States and localities to achieve reductions in 
greenhouse gas emissions related to the Clean Power Plan.
                               conclusion
    NACAA supports the administration's proposed increase of $40 
million for grants to State and local air pollution control agencies 
under sections 103 and 105 of the Clean Air Act for fiscal year 2016, 
for a total of $268.2 million. We recommend that these increases be 
provided to State and local air agencies with full flexibility to be 
used for the programs that are the highest clean air priorities in each 
area, rather than being earmarked for specific programs, such as EPA's 
Clean Power Plan. We further request that grants for PM<INF>2.5</INF> 
monitoring remain under section 103 authority, rather than being 
shifted to section 105 authority.
    Thank you for this opportunity to testify on this important issue 
and for your consideration of the funding needs of State and local air 
quality programs.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO), which represents the 56 
State and Territory Energy Offices. NASEO is submitting this testimony 
in support of funding for the ENERGY STAR program (within the Climate 
Protection Partnership Division of the Office of Air and Radiation) at 
the U.S. Environmental Protection Agency (EPA). NASEO supports funding 
of at least $55 million, including specific report language directing 
that the funds be utilized only for the ENERGY STAR program. The ENERGY 
STAR program is successful, voluntary, and cost-effective. With 
increasing electricity prices and volatile natural gas markets, ENERGY 
STAR helps consumers and businesses control expenditures over the long 
term. The program is strongly supported by product manufacturers, and 
ENERGY STAR leverages the States' efficiency actions. Voluntary ENERGY 
STAR activities are occurring, in conjunction with many States 
including Alabama, Alaska, Arizona, Arkansas, California, Colorado, 
Connecticut, Delaware, Florida, Georgia, Hawaii, Illinois, Indiana, 
Kansas, Kentucky, Louisiana, Maine, Michigan, Minnesota, Mississippi, 
Missouri, Montana, Nebraska, Nevada, New Hampshire, New Jersey, New 
Mexico, New York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon, 
Pennsylvania, Rhode Island, South Carolina, Tennessee, Texas, Utah, 
Vermont, Virginia, Washington, West Virginia, and Wisconsin.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, and business to achieve these 
goals in a cooperative, public-private manner. NASEO has worked very 
closely with EPA and approximately 40 States are ENERGY STAR Partners. 
With very limited funding, EPA's ENERGY STAR program works closely with 
the State Energy Offices to give consumers and businesses the 
opportunity to make better energy decisions and catalyzes product 
efficiency improvements by manufacturers without regulation or 
mandates.
    ENERGY STAR focuses on energy efficient products as well as 
buildings (e.g., residential, commercial, and industrial). In 2013, 
nearly 300 million ENERGY STAR products were purchased across more than 
70 product categories. The ENERGY STAR label is recognized across the 
United States. It makes the work of the State Energy Offices much 
easier, by working with the public on easily recognized products, 
services, and targets. In order to obtain the ENERGY STAR label a 
product has to meet established guidelines. ENERGY STAR's voluntary 
partnership programs include ENERGY STAR Buildings, ENERGY STAR Homes, 
ENERGY STAR Small Business, and ENERGY STAR Labeled Products. The 
program operates by encouraging consumers and working closely with 
State and local governments to purchase these products and services. 
Marketplace barriers are also eradicated through education. State 
Energy Offices are working with EPA to promote ENERGY STAR products, 
ENERGY STAR for new construction, ENERGY STAR for public housing, etc. 
A successful example of how State Energy Offices are leveraging this 
key national program is the Nebraska Energy Office, which since 2005, 
has utilized ENERGY STAR as the standard for certifying home and office 
electronics that are eligible under the State's successful and long-
running Dollar and Energy Savings Loan program.
    In addition to the State partners, the program has over 16,000 
voluntary partners including over 2,000 manufacturers using the label, 
more than 1,000 retail partners, more than 5,000 builder partners, 
4,500 businesses, 550 utilities and thousands of energy service 
providers. The Home Performance with ENERGY STAR activity allows us to 
focus on whole-house improvements, not simply a single product or 
service. This is extremely beneficial to homeowners. Over 30 States, 
including Alabama, California, Kentucky, Minnesota, Nevada, and New 
Jersey, operate or support the Home Performance with ENERGY STAR 
programs. The New York and Illinois energy offices were recently 
honored with Partner of the Year awards by the program. We are also 
working closely with EPA to support the ENERGY STAR Challenge, which 
encourages commercial and industrial building owners to voluntarily 
reduce energy use by 10 percent or more within 5 years or less, usually 
through very simple actions.
    The State Energy Offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR Business Partners 
program. In Kentucky, the State has partnered with school districts and 
engineering firms to advance ENERGY STAR rated schools, resulting in 
more than 250 ENERGY STAR rated schools in the State, a 400 percent 
increase since 2010. Over the past few years, Kentucky has moved 
aggressively to promote zero-net energy schools. Other States that have 
over 100 ENERGY STAR rated schools include Alabama, Arizona, 
California, Colorado, Florida, Georgia, Illinois, Indiana, Kansas, 
Michigan, Minnesota, New Mexico, New York, North Carolina, Ohio, 
Pennsylvania, Texas, Utah, Virginia, Washington and Wisconsin.
    EPA has been increasing the technical assistance work with the 
State Energy Offices in such areas as ENERGY STAR Portfolio Manager 
(how to rate the performance of buildings), setting an energy target, 
and financing options for building improvements and building upgrade 
strategies. ENERGY STAR Portfolio Manager is used extensively by State 
Energy Offices to benchmark performance of State and municipal 
buildings, saving taxpayer dollars. Nearly 40 percent of the country's 
commercial building space uses Portfolio Manager to measure, track, 
assess, and report energy and water consumption.
    The State Energy Offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
We encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding in 
fiscal year 2016. Funding for the ENERGY STAR program is justified. 
NASEO endorses these activities and the State Energy Offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the Senate Committee 
on Appropriations, Subcommittee on Interior, Environment, and Related 
Agencies regarding our fiscal year 2016 appropriations recommendations. 
Our priorities focus primarily on appropriations for the USDA Forest 
Service (Forest Service) State and Private Forestry (S&PF) programs.
    State foresters deliver technical and financial assistance, along 
with forest health, water and wildfire protection for more than two-
thirds of the Nation's 751 million acres of forests. The Forest Service 
S&PF mission area provides vital support to deliver these services, 
which contribute to the socioeconomic and environmental health of rural 
and urban areas. The comprehensive process for delivering these 
services is articulated in each State's Forest Resource Assessment and 
Strategy (Forest Action Plan), authorized in the 2008 Farm Bill and 
continued in the Agriculture Act of 2014. S&PF programs provide a 
significant return on the Federal investment by leveraging the boots-
on-the-ground and financial resources of State agencies to deliver 
assistance to forest landowners, tribes, and communities. As Federal 
and State governments continue to face financial challenges, State 
foresters, in partnership with the S&PF mission area of the Forest 
Service, are best positioned to maximize effectiveness of available 
resources by focusing work on priority forest issues where resources 
are needed most.
    Your support of the following programs is critical to helping 
States address the many and varied challenges outlined in Forest Action 
Plans.
                     wildland fire and forest fuels
    Wildland Fire Funding.--A relatively light fire season in several 
geographic areas meant that no transfers from non-fire programs to fire 
suppression were required in fiscal year 2014 at the Forest Service or 
the Department of the Interior. Nonetheless, the Forest Service was 
still forced to prepare for transfers, which meant stopping ongoing 
work in the field and halting new contracts. These actions frustrate 
and delay on-the-ground management that is critical to the prevention 
and mitigation of future wildfire. We ask for your continued support of 
the long-term solution to stop future transfers through the bi-partisan 
Wildfire Disaster Funding Act.
    State Fire Assistance.--More people living in fire-prone 
landscapes, high fuel loads, drought, and unhealthy landscapes are 
among the factors that led most State foresters to identify wildland 
fire as a priority issue in their Forest Action Plans. We now grapple 
with increasingly expensive and complex wildland fires--fires that 
frequently threaten human life and property. In 2014, more than 63,600 
wildland fires burned nearly 3.6 million acres.\1\ State and local 
agencies respond to the majority of wildfires across the country; in 
2014 State and local agencies were responsible for responding to 50,799 
(80 percent) of 63,612 reported wildfires across all jurisdictions.\2\
---------------------------------------------------------------------------
    \1\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, pg. 9. Last accessed Feb. 24, 2015 at http://
www.predictiveservices.nifc.gov/intelligence/2014_Statssumm/
2014Stats&Summ.html.
    \2\ Id.
---------------------------------------------------------------------------
    State Fire Assistance (SFA) is the fundamental Federal mechanism 
for assisting States and local fire departments in responding to 
wildland fires and in conducting management activities that mitigate 
fire risk on non-Federal lands. SFA also helps train and equip local 
first responders who are often first to arrive at a wildland fire 
incident and who play a crucial role in keeping fires and their costs 
as small as possible. A small investment of SFA funds supports State 
forestry agencies in accessing and repurposing equipment from the 
Federal Excess Personal Property and the Firefighter Property programs. 
Between 2008 and 2012 these two programs have delivered more than $150 
million annually in equipment for use by State and local first 
responders.
    The Fiscal Year 2016 Forest Service Budget Justification highlights 
a successful wildfire mitigation project in Colorado where a $300,000 
investment before the Waldo Canyon fire helped protect the community 
and avoid more than $77 million in additional losses from that 
destructive wildfire. By directing resources to actions that help 
reduce the number of large wildland fires--including prevention 
education, preparedness activities, and fuels mitigation--the SFA 
program directly addresses concerns over rising wildland fire 
suppression costs while also reducing wildland fire risk to 
communities.
    In fiscal year 2014, SFA directly funded hazardous fuel treatments 
on 111,002 acres (with another 120,241 acres treated with leveraged 
funding) and provided assistance to communities around the country, 
supporting 3,117 risk assessment and fire management planning projects 
and 9,972 prevention and education programs.\3\ NASF supports funding 
the State Fire Assistance program at $86 million in fiscal year 2016.
---------------------------------------------------------------------------
    \3\ USDA Forest Service Fiscal Year 2016 Budget Justification at 
pg. 270.
---------------------------------------------------------------------------
                    forest pests and invasive plants
    Also among the greatest threats identified in the Forest Action 
Plans are native and non-native pests and diseases. These pests and 
diseases have the potential to displace native trees, shrubs and other 
vegetation types in forests; the Forest Service estimates that hundreds 
of native and nonnative insects and diseases damage the Nation's 
forests each year. The growing number of damaging pests and diseases 
are often introduced and spread by way of wooden shipping materials, 
movement of firewood, and through various types of recreation. In 2010, 
approximately 6.4 million acres suffered mortality from insects and 
diseases \4\ and there is an estimated 81.3 million acres at risk of 
attack by insects and disease over the next 15 years.\5\ These losses 
threaten clean and abundant water availability, wildlife habitat, clean 
air, and other environmental services. Further, extensive areas of high 
insect or disease mortality can set the stage for large-scale, 
catastrophic wildfire.
---------------------------------------------------------------------------
    \4\ Man, Gary. 2011. Major Forest Insect and Disease Conditions in 
the United States: 2010 Update. Last accessed on March, 5, 2015 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2011.pdf.
    \5\ Tkacz, Bory, et al. 2014. NIDRM 2012 Report Files: Executive 
Summary. Last accessed on March, 5, 2015 at: http://www.fs.fed.us/
foresthealth/technology/pdfs/2012_RiskMap_
Exec_summary.pdf.
---------------------------------------------------------------------------
    The Cooperative Forest Health Management program supports 
activities related to prevention, monitoring, suppression, and 
eradication of insects, diseases, and plants through provision of 
technical and financial assistance to States and territories to 
maintain healthy, productive forest ecosystems on non-Federal forest 
lands. The Cooperative Forest Health Management program plays a 
critical part in protecting communities already facing outbreaks and in 
preventing exposure of more forests and trees to the devastating and 
costly effects of exotic and invasive pests and pathogens. NASF 
supports funding the Forest Health--Cooperative Lands Program at $48 
million in fiscal year 2016.
assisting landowners and maintaining working forest landscapes--forest 
                          stewardship program
    Working forest landscapes are a key part of the rural landscape, 
providing an estimated 900,000 jobs, clean water, wood products, and 
other essential services to millions of Americans. Private forests make 
up two-thirds of all the forestland in the United States and support an 
average of eight jobs per 1,000 acres.\6\ However, The Forest Service 
estimates that 57 million acres of private forests in the U.S. are at 
risk of conversion to urban development over the next two decades. 
Programs like the Forest Stewardship Program and Forest Legacy Program 
are key tools identified in the Forest Action Plans for keeping working 
forests intact and for providing a full suite of benefits to society.
---------------------------------------------------------------------------
    \6\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    The Forest Stewardship Program (FSP) is the most extensive family 
forest-owner assistance program in the country. Management assistance 
is delivered in cooperation with State forestry agencies through 
technical assistance services and the development and implementation of 
Forest Stewardship Plans. The program works to ensure that private 
landowners have the best information to help them manage their land for 
wildlife, recreation, aesthetics, timber production, and many other 
goals. In fiscal year 2014, nearly 26 million acres of private forest 
lands across the Nation were managed under Forest Stewardship Plans, 
and FSP supported direct outreach to roughly 424,000 landowners.\7\ The 
technical assistance provided through FSP is a gateway to other 
effective USDA, State, and private sector programs designed to help 
keep working forests intact. For instance, the FSP enables landowners 
to participate in USDA programs including the Forest Legacy Program and 
Environmental Quality Incentives Program. NASF supports funding the 
Forest Stewardship Program at $29 million in fiscal year 2016.
---------------------------------------------------------------------------
    \7\ USDA Forest Service Fiscal Year 2016 Budget Justification at 
pg. 103.
---------------------------------------------------------------------------
            urban and community forest management challenges
    Urban forests are important to achieving energy savings, improved 
air quality, neighborhood stability, aesthetic value, reduced noise, 
and improved quality of life in municipalities and communities around 
the country. Urban trees and forests provide a wide array of social, 
economic, and environmental benefits to people living in urban areas; 
today, more than 83 percent of the Nation's population lives in urban 
areas.\8\ Yet, urban and community forests face serious threats, such 
as development and urbanization, invasive pests and diseases, and fire 
in the wildland urban interface (WUI).
---------------------------------------------------------------------------
    \8\ Id. At 119.
---------------------------------------------------------------------------
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the Forest Service's Urban and Community Forestry 
(U&CF) program has provided technical and financial assistance to 
promote stewardship of urban forests in communities of all sizes across 
the country. The program is delivered in close partnership with State 
foresters and leverages existing local efforts that have helped 
thousands of communities and towns manage, maintain, and improve their 
tree cover and green spaces. In fiscal year 2014, the U&CF program 
delivered technical, financial, educational, and research assistance to 
7,100 communities across all 50 States, the District of Columbia, U.S. 
territories and affiliated Pacific Island nations. NASF supports 
funding the Urban and Community Forestry program at $31 million in 
fiscal year 2016.
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis (FIA) program, managed by Forest 
Service, Forest and Rangeland Research, is the only comprehensive 
inventory system in the United States for assessing the health and 
sustainability of the Nation's forests across all ownerships. FIA 
provides essential data related to forest species composition, forest 
growth rates, and forest health data, and it delivers baseline 
inventory estimates used in Forest Action Plans. Further, this data is 
used by academics, researchers, industry, and others to understand 
forest trends and support investments in forest products facilities 
that provide jobs and products to society. The program provides 
unbiased information used in monitoring of wildlife habitat, wildfire 
risk, insect and disease threats, invasive species spread, and response 
to priorities identified in the Forest Action Plans.
    As the key partner in FIA program delivery via State contribution 
of matching funds, State foresters look forward to carefully reviewing 
the FIA Strategic Plan--called for in the 2014 Farm Bill--and to 
working with the Forest Service to improve efficiency in delivery of 
the program to meet the needs of the diverse user groups for FIA data. 
NASF supports funding the Forest Inventory and Analysis program at $83 
million in fiscal year 2016 and $220 million for other Research and 
Development programs. NASF supports an increased investment in FIA with 
the understanding that it will, at minimum, return to pre-fiscal year 
2014 re-measurement cycles.
                      landscape scale restoration
    State foresters look forward to working with members of the 
subcommittee and the Forest Service to make sure that, through the 
Landscape Scale Restoration (LSR) program, we prioritize funds and 
resources to maximize return on investments to conserve, protect, and 
enhance our Nation's forests. The LSR line item codifies the 
competitive allocation of Cooperative Forestry Assistance Act (CFAA) 
funds which began under direction from the 2008 Farm Bill--but State 
foresters believe that LSR can and should do more.
    In the Fiscal Year 2012 Consolidated Appropriations Act Conference 
Report, the subcommittee directed the Forest Service to develop a 
process allowing State foresters flexibility, with appropriate 
accountability, to reallocate a percentage of authorizations for CFAA 
programs to address State priorities consistent with Forest Action 
Plans. NASF has worked closely with the Forest Service to explore how 
States could utilize funding flexibility to meet their own unique and 
changing needs; however issues around the need to request reprogramming 
of funds has been a barrier to implementing funding flexibility. State 
foresters believe that LSR provides an opportunity to demonstrate the 
value of providing States flexibility to meet unique needs through the 
allocation of their CFAA funds. Such a model would include continued 
funding for the competitive allocation of CFAA funds with the addition 
of an allocation to States to enhance implementation of each Forest 
Action Plan.
    NASF supports funding the Landscape Scale Restoration program at 
$23.5 million in fiscal year 2016. NASF would also like to work with 
the subcommittee to direct that a portion of LSR funds be made 
available to State forestry agencies, based on overall percentage of 
CFAA funds received, to further implement State Forest Action Plans.
    NASF appreciates the opportunity to share our fiscal year 2016 
appropriations recommendations for the USDA Forest Service with the 
subcommittee.
                                 ______
                                 
    Prepared Statement of the National Association of State Outdoor 
                      Recreation Liaison Officers
    Dear Chairman Murkowski and Ranking Member Udall:

    The National Association of State Outdoor Recreation Liaison 
Officers (NASORLO) members are gubernatorial appointed officials and 
the primary administrators of the State Assistance Program of the LWCF 
in each of the 56 States and Territories that receive LWCF 
appropriations. We are writing to you to ask your support for the 
fiscal year 2016 funding of LWCF and for restoration of fair and 
equitable funding between the State and Federal uses of this program.
    In the 50 year history of this program, the portion of LWCF funds 
dedicated for State and local grants, when matched as required by the 
LWCF Act, have resulted in parks and outdoor recreation facilities in 
every State and nearly every city or town in America. We are concerned 
that the intent of LWCF to provide close to home outdoor recreation 
opportunities for our citizens has been hampered in recent years. The 
original act dedicated 60 percent of the program for State Assistance 
grants. Over the years various changes have been made to the Act and in 
the appropriations process which have reduced the percentage for State 
grants. In this year's Executive Budget only 13.1 percent is proposed 
for State Assistance grants. We request that in this year's 
appropriation process you seek to return the State share of the program 
back to a more equitable split between State and Federal uses.
    Even though State agencies and communities have been trying to 
address infrastructure upgrades, meet new health and safety 
requirements and address changing population trends, we still have 
significant needs for a restoration of LWCF grants to previous levels. 
In addition to addressing these issues and providing outdoor recreation 
benefits to our residents, the economic impact of the construction, 
development, attendance and sales of equipment generated by these local 
projects is a significant incentive for local jobs creation. These 
impacts are especially significant, when you double the value of the 
project due to the matching requirement of LWCF.
    NASORLO respectfully requests your support for adequate and 
equitable funding for the State Assistance Program of the LWCF in 
fiscal year 2016. Any action you can take in this regard would 
certainly be appreciated.
    NASORLO is an organization of appointed State and Territorial 
officials working to provide outdoor recreation by investing proceeds 
from the LWCF State assistance program in State and local projects.

    [This statement was submitted by Tim Hogsett, President.]
                                 ______
                                 
    Prepared Statement of the National Cattlemen's Beef Association
    Dear Chairman Murkowski:

    The Public Lands Council (PLC) represents an industry consisting of 
more than 22,000 public lands ranchers across the West, many of whom 
are members of PLC affiliates at both the State and national level. Our 
national affiliates include the National Cattlemen's Beef Association 
(NCBA), the American Sheep Industry Association and the Association of 
National Grasslands.
    Initiated in 1898, NCBA is the marketing organization and trade 
association for America's cattle farmers and ranchers. NCBA is a 
consumer-focused, producer-directed organization representing the 
largest segment of the Nation's food and fiber industry. NCBA 
represents 170,000 of America's farmers, ranchers and cattlemen who 
provide much of the Nation's supply of food and are proud of their 
tradition as stewards and conservators of America's land.
    On behalf of our affiliates and members, we request that the Senate 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies make funds available for the accounts indicated below and 
provide regulatory relief and efficiencies through the fiscal year 2016 
appropriations bill. There are many important provisions that have been 
included in past Interior and Environment appropriations bills which 
our industry strongly supports and request the following provisions be 
continued and/or included in the fiscal year 2016 bill. Please find, 
listed in the appendix, a comprehensive summary of our requests.
    We would like to start off by thanking the subcommittee for your 
recognition, through level funding of the range management programs in 
the Fiscal Year 2015 Omnibus Appropriations Act, of the importance of 
livestock grazing both to the management of our Nation's Federal lands 
and to rural economies in the West. Additionally, thank you for 
recognizing the importance of reducing the regulatory burdens stemming 
from Federal agencies that continue to hamper the productivity and 
stability of our Nation's ranchers. Moving in to the final years of a 
two-term administration is proving to show the negative impacts of 
unchecked regulation and continued abuse of the legal system for 
driving anti-multiple use agendas through the courts via outdated 
environmental laws--we urge Congress to provide relief to the livestock 
industry through the following requests.
Land Management BLM and USFS
    PLC and NCBA support a stable business climate in which our members 
can run economically viable and sustainable livestock businesses, 
operating on a combination of private and public lands across the west. 
Central to this goal is ensuring the land management agencies have 
sufficient funding to administer their range programs, so that public 
land ranchers may continue assisting them in managing the land and its 
resources. The Bureau of Land Management (BLM) and U.S. Forest Service 
(USFS) continue to suffer significant setbacks in court because they 
lack the personnel to collect the data needed to support the 
conclusions of their environmental documentation. Without adequate 
funding, the agencies are unable to keep up with their workload, and 
producers face the severe disruption of having their permitted stocking 
rates reduced due to lack of monitoring data. The funding is imperative 
to enable the agencies to carry out a systematic program of range 
monitoring, land health assessments, development and implementation of 
allotment management plans, and adaptive management--including range 
improvements, upon all of which sound stewardship of the public lands 
depends.
    We sincerely appreciate the support Congress has provided to the 
BLM and USFS range programs in the past 3 fiscal years. In the fiscal 
year 2016 discussions we ask that you consider increasing these funding 
levels while also reviewing the line-items to decide whether changes 
can be made to enhance the management of Federal grazing programs. The 
additional resources would continue helping to stem the growing costs 
of administering the grazing programs by preventing the process-based 
lawsuits constantly being brought by special interest groups to achieve 
their goal of ending grazing on public lands.
Bureau of Land Management
    In recent history, BLM has eliminated hundreds of rangeland 
management specialist positions, contributing to backlogs of 
environmental documentation and monitoring--and the resulting 
environmental litigation. We request that you appropriate funding to 
the BLM Rangeland Management Program above the fiscal year 2015 levels 
and reject the administration's proposal to cut the program by $2.55 
million so that the agency can continue to make longer-term decisions 
regarding staffing in order to break the cycle of backlogged 
documentation and litigation.
Forest Service
    The agency strives to fully implement National Environmental Policy 
Act (NEPA) decisions on all allotments, which is required by regulation 
and to an extent court precedent. To meet this objective, we 
respectfully request that the grazing program (NFRG) be allocated funds 
similar to the fiscal year 2015 amount and reject the administration's 
proposal to cut the program by $5.65 million. Administering these acres 
for grazing requires both permit administration and land management 
through short and long-term monitoring, as well as compliance with a 
variety of regulatory documents issued under the Endangered Species 
Act, the National Forest Management Act, and other authorities. We 
welcome a discussion on how to better arrange the line-items provided 
in the appropriations bill with regard to forest system land 
management. We remain concerned with the continued proposal by the 
Forest Service to combine many line-items into an ``Integrated Resource 
Restoration'' line-item --to date our industry has not seen results 
from the initial pilot project authorized by Congress. Further, 
including many programs in one vast spending account removes necessary 
congressional oversight of how the USFS is expending tax dollars. There 
continues to be increased costs for NEPA analysis for all uses taking 
place on forest system lands, spread across many accounts--we support 
the creation of a line-item that speaks directly to costs associated 
with NEPA compliance.
    Additionally, we support creation of a range management account and 
an added line-item representing management costs for wild horses and 
burros. Finally it remains imperative that the USFS continues the 
statutory requirements to monitor range and forest conditions in order 
to justify management decisions based on real and current data.
Grazing Permits and NEPA
    The backlog in processing permits is projected to remain on the 
books for both the BLM and the USFS; we request Congress continue to 
support and make policies available that will help the agencies work 
through this process so that family ranchers are not negatively 
impacted.
    We thank you for extending the statutory language on timing of 
completion of NEPA through fiscal year 2016 to ensure that grazing 
permits remain intact, without disruption, while the agencies work 
through the backlog of grazing permits requiring renewal. Last session 
Congress passed permanent language to require that permits are renewed 
in spite of regulatory backlogs--we commend the appropriators that 
supported this language throughout the years leading up to its 
codification. This language is vital to the agencies in that it allows 
them the flexibility they need to continue managing the resource and 
processing permits.
    We support efforts by Congress to ensure that the agencies are 
making adequate progress on working through the permit processing 
backlog, and that the agencies are using existing statutory authorities 
to complete NEPA on expired grazing permits in both a timely and 
legally appropriate manner.
Federal Grazing Fee
    Our industry supports the Federal grazing fee put in place by the 
1986 Executive Order requiring adherence to the Public Rangelands 
Improvement Act (PRIA) formula. The formula is based on market criteria 
and accurately reflects the cost of operating on public lands. The fee 
is calculated according to three factors: current private grazing land 
lease rates, beef cattle prices, and the cost of livestock production. 
In effect, the fee rises, falls, or stays the same based on market 
conditions, with livestock operators paying more when conditions are 
better and less when conditions have declined. In order to provide 
stability to the industry, increases and decreases are limited to 25 
percent in a given year. Further the Federal fee is in addition to 
costs associated with operating under extensive Federal regulation and 
red-tape, not something found on State and private land. The fee was 
put in place by Congress to stabilize and benefit the western livestock 
industry through reinvestment in the land and management and was never 
intended to cover administration of the programs which continue to 
divert increasing amounts toward administrative and legal challenges 
brought by radical special interest groups. We strongly urge that you 
reject and block any attempts, including the President's fiscal year 
2016 proposed 148 percent increase, to arbitrarily change the Federal 
grazing fee formula or do so effectively via taxes.
Sage-Grouse
    Due to a closed-door settlement agreement between the U.S. Fish and 
Wildlife Service (USFWS) and radical environmental groups, arbitrary 
deadlines have been set for making hundreds of decisions on species to 
be listed under the Endangered Species Act (ESA). One of those species 
is the Greater Sage-Grouse, whose habitat covers 11 western States, an 
area where ranchers are currently providing open space and improving 
the bird's habitat. However, rather than embracing the research-backed 
benefits of grazing, the agencies are continuing to make arbitrary 
decisions to cut and reduce livestock grazing on public lands. We 
applaud action by the appropriations committee to include language 
blocking a final decision by the USFWS in fiscal year 2015 and request 
that this language be continued through fiscal year 2016:
                              sage-grouse
          Sec. 122. None of the funds made available by this or any 
        other Act may be used by the Secretary of the Interior to write 
        or issue pursuant to section 4 of the Endangered Species Act of 
        1973 (16 U.S.C. 1533)--
                  (1) a proposed rule for Greater Sage-Grouse 
                (Centrocerrus urophasianus);
                  (2) a proposed rule for the Columbia basin distinct 
                population segment of Greater Sage-Grouse;
                  (3) a final rule for the bi-State distinct population 
                segment of Greater Sage-Grouse; or
                  (4) a final rule for Gunnison Sage-Grouse 
                (Centrocercia minimus).

    Further, we encourage Congress to provide direction to the agencies 
to defer to State sage-grouse management plans, so that land management 
agencies cannot continue to make decisions negatively impacting 
livestock grazing for an unlisted species. Through regulation the BLM 
and USFS consider sage-grouse a ``sensitive species'' or a species of 
``conservation concern'' respectively, effectively allowing them to 
manage for a species that is not federally protected as if it were. The 
livestock industry remains very concerned these agencies will 
drastically reduce livestock grazing based on faulty science when 
reputable research shows livestock grazing is one of the only tools 
available to effectively manage for the benefit of sage-grouse.
Antiquities Act
    Monument designations continue to have deleterious impacts on 
ranchers where grazing is preserved on the areas designated but only if 
other protections are first met. Monument designations overtime reduce 
and remove livestock grazing from the landscape, when often times, the 
very reason a landscape is in a condition that merits consideration for 
designation is due to the management by ranchers. We request inclusion 
of the following in the fiscal year 2016 bill:
                    protecting ranchers on monuments
          The following shall be included in the purpose and as part of 
        the protections in any proclamation and/or designation of a 
        National Monument made under the Antiquities Act of 1906, 
        chapter 3203 of title 54, United States Code, on lands where 
        livestock grazing exists--``livestock grazing is compatible 
        with the purposes of the designation under this proclamation 
        and shall continue, Provided further, That livestock grazing 
        shall not be considered secondary to any other listed 
        protections.''
Water Rights
    Our members remain concerned over actions by both the BLM and USFS 
in the recent past regarding attempts to take control of private water 
rights. The agency's, while publically distancing themselves recently, 
in the past have attempted to require the forfeiture of water rights in 
exchange for land use permits on Federal lands something we strongly 
oppose. We request the following language be included in the fiscal 
year 2016 bill:
                       protection of water rights
          None of the funds made available in this or any other Act may 
        be used to require or request, as a condition of the issuance, 
        renewal, or extension of any Forest Service or Bureau of Land 
        Management permit, lease, allotment, easement, or other land 
        use and occupancy arrangement, the transfer or relinquishment 
        of any water right, in whole or in part, granted under State 
        law.
Department of the Interior Wildlands Order
    We ask that you continue to block funding for implementation of 
Secretarial Order No. 3310, the ``wild lands'' order, which creates de 
facto wilderness and poses a threat to the continued multiple use of 
BLM lands. Language blocking this Order has been in place since it was 
signed by the Secretary and while we support the rider, we request it 
be expanded to block inventory and planning for wilderness character 
under sections 201 and 202 of FLPMA. The administration is using these 
provisions to implement the ``wildiands'' idea in direct conflict with 
the congressional rider. We request the following language be included:
                     wild lands funding prohibition
          None of the funds made available in this Act or any other Act 
        may be used to implement, administer, or enforce Secretarial 
        Order No. 3310 issued by the Secretary of the Interior on 
        December 22, 2010, nor for inventory or planning for wilderness 
        character or wilderness characteristics under sections 201 and 
        202 of the Federal Lands Policy and Management Act.

Department of the Interior Landscape Conservation Cooperatives 
        Secretarial Order
    On September 14, 2009, Department of the Interior Secretary Ken 
Salazar issued Secretarial Order 3289 establishing a system of 21 
``Landscape Conservation Cooperatives'' or LCCs. While creation of the 
LCCs under the guise of creating ``applied science and management 
partnerships between the Department of the Interior (DOI) bureaus and 
other involved in natural resource management and conservation'' sounds 
laudable, the livestock industry has become concerned with the 
potential for extra-governmental entities driving climate change 
agendas. It appears more and more likely that these LCCs will develop 
position papers and ``science'' to fit pre-determined conclusions that 
humans are causing climate change--ultimately heaping this ``science'' 
onto all land management decisions made by land management agencies.
    While it is difficult to ascertain the cost to taxpayers for these 
LCCs, some estimates suggest the Federal Government across many bureaus 
within DOI is spending a minimum of tens if not a hundred million 
dollars annually or more on this operation with little to show for it 
(the President's budget request is for $18 million however we don't 
believe this accounts for agency personnel time and travel across many 
bureaus). We encourage Congress to consider blocking funds from being 
expended on Secretarial Order 3289 and provide the following language 
as a suggestion:
        landscape conservation cooperatives funding prohibition
          None of the funds made available in this Act or any other Act 
        may be used to implement, administer, or enforce Secretarial 
        Order No. 3289 issued by the Secretary of the Interior on 
        September 14, 2009.
Land Acquisition
    We are strongly opposed to the use and funding of the Land and 
Water Conservation Fund (LWCF) for the acquisition of land. During a 
time of strained budgets and already-inadequate Federal land 
management, we find imprudent any proposal to expand the Federal 
estate. Should the committee elect to appropriate funds for LWCF we 
request those funds not be available for land acquisition. As LWCF is 
due for reauthorization during fiscal year 2015, we encourage the 
appropriations committee to work with the authorizing committee to 
amend the structure to prohibit the use of funds for purchase of land.
Forest Service Annual Operating Instruction Appeals
    In June 2014 the Forest Service issued new regulation concerning 
livestock grazing, specifically dealing with the administrative appeal 
process for Annual Operating Instructions (AOIs). The new regulation 36 
C.F.R 214 replaced 36 C.F.R. 251 barring the appeal of AOIs for grazing 
on forest system lands. While we understand and agree that AOIs cannot 
include decisions which impact or change the terms of grazing permits, 
in practice AOls have done just that and with the new regulations there 
are no options for ranchers to appeal. We urge Congress to exempt 
directly affected parties to AOls from this new regulation in order to 
provide essential due process for ranchers that operate on forest 
system lands.
                  grazing permittees ability to appeal
          Ranchers holding permits or leases to graze livestock on 
        national forest system lands and national grasslands and those 
        organizations directly representing them shall be exempt from 
        36 C.F.R 214, provided further ranchers and organizations 
        directly representing them shall have the ability to appeal 
        Annual Operating Instructions.
Wild Horse and Burro Program
    The Department of Interior's Wild Horse and Burro Program is broken 
and unsustainable on its current path. There are more than 50,000 
``excess'' horses in long-term holding pastures in the mid-west along 
with more than 10,000 excess horses roaming across public, private and 
State lands in the west. At a cost of nearly $80 million annually, 
Congress cannot afford to stand by and do nothing. We encourage the 
committee to introduce a draft fiscal year 2016 bill without language 
limiting the title on the conveyance of excess horses from the BLM to 
private entities. Without direction and solutions from Congress we will 
soon see irreversible rangeland damage and potentially mass die offs 
from starvation and dehydration take place. We request the fiscal year 
2016 bill not contain the following provision as has been included for 
multiple years nor anything similar:

          Appropriations herein made shall not be available for the 
        destruction of healthy, unadopted, wild horses and burros in 
        the care of the Bureau or its contractors or for the sale of 
        wild horses and burros that results in their destruction for 
        processing into commercial products.
Alternative Grazing Allotments--Wildfire, Drought, Wildlife Conflicts
    Over the past few years we have seen larger and more intense 
wildfires and drought across the West, impacting communities and 
livestock operations that rely on access to forage on public lands. 
Additionally, we have seen drastic cuts to sheep permits due to 
misguided management decisions by the USFS and potentially the BLM with 
respect to wildlife conflicts. Due to extreme and redundant 
environmental analysis requirements for offering alternative allotments 
to ranchers when wildfire or drought impacts their operations, it is 
necessary to provide flexibility in statute to allow access to 
alternative forage. We thank you for inclusion of report language in 
the fiscal year 2014 and fiscal year 2015 bill and request that the 
committee include the language in the fiscal year 2016 bill as follows:
               availability of vacant grazing allotments
          The Secretary of the Interior, with respect to public lands 
        administered by the Bureau of Land Management, and the 
        Secretary of Agriculture, with respect to National Forest 
        System lands, shall make vacant grazing allotments available to 
        a holder of a grazing permit or lease issued by either 
        Secretary if the lands covered by the permit or lease or other 
        grazing lands used by the holder of the permit or lease are 
        deemed unusable, in full or in part, by the Secretary concerned 
        because of drought, wildfire, or any reduction or elimination 
        of a domestic livestock permit or lease as a result of 
        determination of a potential conflict with bighorn sheep. 
        Provided, That the terms and conditions contained in a permit 
        or lease made available pursuant to this section shall be under 
        terms and conditions no less favorable to the permittee than 
        those applicable to the permittee on the allotment being 
        vacated. Provided further, That Section 102 of the National 
        Environmental Policy Act of 1969 (42 U.S.C. 4332) shall not 
        apply with respect to any Federal agency action under this 
        section. Provided further, That the Secretaries of Agriculture 
        and Interior shall engage the respective States' wildlife 
        agencies, departments of agriculture, animal health 
        professionals, and the Agricultural Research Service prior to 
        any decision, based partially or in its entirety on the 
        determination of a potential conflict with bighorn sheep, 
        resulting in the reduction or elimination of a domestic 
        livestock permit or lease.
Bighorn Sheep Report Language
    The U.S. Forest Service and Bureau of Land Management are basing 
domestic sheep management decisions on flawed science and risk models 
that do not accurately reflect reality, leading to drastic cuts in 
sheep grazing in the west. We urge the committee to consider including 
the following report language in the fiscal year 2016 funding bill to 
provide direction to the agencies, specifically the USFS to work with 
USDA's research entity ARS when studying domestic/bighorn sheep 
interactions:

          Bighorn Sheep Conservation.--The Committee directs the Forest 
        Service to take prompt action to seek and enact multiple use 
        solutions to ensure our Nation does not continue to lose 
        substantial portions of either our domestic sheep industry or 
        our bighorn sheep conservation legacy. The Service is further 
        directed to promptly complete Risk of Contact analyses using 
        the Western Association of Fish and Wildlife Agencies' occupied 
        bighorn habitat maps, telemetry data, and recent bighorn 
        observations. The Service is further directed to transparently 
        and promptly share findings with other Federal land management 
        agencies, State and local governments, State wildlife agencies, 
        the and State and Federal animal health professionals, 
        including the Agricultural Research Service, permittees, and 
        stakeholders. The Committee directs the Forest Service to 
        specifically engage the Agricultural Research Service and the 
        aforementioned cooperating agencies and participants to ensure 
        the best professional scientific understanding of where risk of 
        disease transmission occurs, and the degree of that risk. The 
        Forest Service is further directed to use this base of 
        information to swiftly identify and implement actions to 
        resolve high-risk of disease transmission allotments, including 
        if agreeable to the permittee, the relocation of domestic sheep 
        to lower-risk allotments, with minimal disruption and 
        displacement of permittees. The Committee believes such 
        solutions will not be possible without genuine collaboration 
        among the most directly-affected stakeholders, all of whom are 
        committed to multiple-use solutions. The Forest Service is 
        directed to provide quarterly briefings to the House and Senate 
        Committees on Appropriations, both in writing and in person, on 
        its progress and adherence to the directives contained herein.
Block Use of ``Viability'' by Agencies
    In 2010, the USFS prohibited 13,000 sheep from grazing on their 
historic grazing allotments within the Payette National Forest in 
Idaho, driving one ranch out of business entirely and drastically 
reducing the operations of three others. The supposed reason for this 
reduction was an obscure regulation written in excess of the text found 
in the National Forest Management Act allegedly requiring each national 
forest to maintain ``minimum viable'' populations of all vertebrate 
species found there. In 2012 the USFS doubled down, expanding the 
viability of species regulation to all species (vertebrate and 
invertebrate) through their new planning rule, effectively federalizing 
all wildlife management on national forest system lands. The livestock 
industry is extremely concerned that given the application of extra-
statutory regulation in the example provided above, it is only a matter 
of time before all multiple uses are litigated off forest system lands 
in deference to ``viable'' populations of wildlife. We urge Congress to 
block the use of ``viability'' in managing national forest system lands 
and restate that States have the sole authority over management of non-
federally listed wildlife under the ESA.
Range Improvement/Betterment Funds
    We appreciate your continued support for BLM range improvement 
funds and USFS Range Betterment funds (RBRB), which are critical to our 
members' ability to implement practices that improve forage condition 
and wildlife habitat. These funds represent the kind of investment the 
public must make in order for multiple-use management of the public 
lands to work. Without these improvements and their maintenance, 
ranchers face challenges that threaten their ability to continue 
operating, and livestock and wildlife alike suffer from lack of access 
to water sources. We are concerned that the buying power of these funds 
coupled with sequestration have diminished these important resources 
and encourage the committee to look for ways to increase the amount of 
funds for on-the-ground projects.
NEPA Climate Change Proposed Guidance
    We adamantly oppose inclusion of climate change considerations in 
NEPA analysis; we encourage you to block the abuse of this taw to push 
an economically damaging agenda not supported by the general public. 
The administration is continuing to advance an agenda not supported by 
facts and science. Inclusion of climate change in NEPA analysis will 
only further expand a process that is nearly impossible for agencies to 
accomplish currently.
Economic Analysis of Grazing on Public Lands
    There continues to be a gap in the analysis regarding the true 
economic contributions, both direct and indirect, of livestock grazing 
on public lands. We believe the figures currently being used by the BLM 
and USFS greatly underestimate the actual jobs supported by and 
economic impacts generated from public lands grazing. We request that 
Congress provide the funding and resources necessary to adequately 
analyze the full economic benefits provided by public land ranching.
Cheatgrass Research
    As many as 60 million acres are either infested or susceptible to 
take-over by highly-invasive Cheatgrass, which increases wildfire 
frequency and intensity, adding millions to Federal emergency spending 
in firefighting costs every year. Encouraging and promising research is 
underway to study the use of livestock grazing to remove this invasive 
species through fall grazing, an often useful forage source. We support 
an increase in funding in the fiscal year 2016 appropriations bill to 
continue this important research.
EPA Overreach
    Our industry supports language that prevents the Environmental 
Protection Agency (EPA) from endangering our Nation's food supply and 
over-burdening our Nation's farmers and ranchers.
    We appreciate your continued support of provisions that prevent the 
EPA from requiring reporting of greenhouse gas emissions from manure 
management systems, and we request that the committee continue to 
support the language in the fiscal year 2015 bill, which follows below:
                 greenhouse gas reporting restrictions
          Sec. 420. Notwithstanding any other provision of law, none of 
        the funds made available in this or any other Act may be used 
        to implement any provision in a rule, if that provision 
        requires mandatory reporting of greenhouse gas emissions from 
        manure management systems.

    We support efforts to prevent EPA from requiring permits from 
livestock operations for greenhouse gas emissions. We request that the 
subcommittee continue to support the language in the fiscal year 2015 
bill, which follows below:
                      prohibition on use of funds
          Sec. 419. Notwithstanding any other provision of law, none of 
        the funds made available in this Act or any other Act may be 
        used to promulgate or implement any regulation requiring the 
        issuance of permits under title V of the Clean Air Act (42 
        U.S.C. 7661 et seq.) for carbon dioxide, nitrous oxide, water 
        vapor, or methane emissions resulting from biological processes 
        associated with livestock production.

    We also support preventing the EPA from unilaterally expanding its 
authority under the Clean Water Act through regulatory fiat, and we 
support maintaining the Federal/State partnership in the regulatory 
process of the Clean Water Act. To that end, we request inclusion of 
the following language from the draft fiscal year 2014 bill:
                      waters of the united states
          Sec. 435. None of the funds made available in this Act or any 
        other Act making appropriations for the Environmental 
        Protection Agency may be used by the Environmental Protection 
        Agency to develop, adopt, implement, administer, or enforce any 
        change to the regulations and guidance in effect on October 1, 
        2012, pertaining to the definition of waters under the 
        jurisdiction of the Federal Water Pollution Control Act (33 
        U.S.C. Sec. 1251, et seq.), including the provisions of the 
        rules dated November 13, 1986 and August 25, 1993, relating to 
        said jurisdiction, and the guidance documents dated January 15, 
        2003 and December 2, 2008, relating to said jurisdiction.

    We support providing privacy protections for personal information 
of our Nation's farmers and ranchers that is collected by the Federal 
agencies. We recommend the subcommittee include language in the bill 
that prevents use of funding by the EPA, and other Federal agencies, to 
develop a clearinghouse of farm information including individual names, 
phone numbers, email addresses. and GPS coordinates which could then be 
released by the EPA, and other Federal agencies, in response to Freedom 
of Information Act (FOIA) requests.
    We hope that you will consider these priorities for the stability 
of public land management and the livestock industry for fiscal year 
2016 appropriations. An attached appendix lists these priorities for 
convenience.

            Sincerely,

 
 
 
Dustin Van Liew                             Scott Yager
Executive Director,                         Environmental Counsel
Public Lands Council &                      National Cattlemen's Beef
National Cattlemen's Beef Association        Association
 

                     APPENDIX--PLC/NCBA PRIORITIES

INTERIOR
     (1)  Range Program Funding.--We request the committee provide 
funding similar to the fiscal year 2015 levels for the BLM and USFS 
grazing programs.
     (2)  Support Current Market Based Grazing Fee.--We request the 
committee oppose any attempt to change and/or assess an arbitrary tax 
on top of the grazing fee.
     (3)  Sage-Grouse.--We request the subcommittee provide direction 
to the agencies to defer to State management plans and further request 
the subcommittee extend through September 2016 the ESA listing decision 
timeline for USFWS's decision on the Greater Sage-Grouse.
     (4)  Antiquities Act.--We request that livestock ranchers are 
protected from negative impacts brought about by monument designations.
     (5)  Protection of Water Rights.--Block the BLM and USFS from 
taking water rights from ranchers.
     (6)  Block Wildlands Order.--We request the subcommittee continue 
blocking funds to implement Secretarial Order No. 3310, the ``wild 
lands'' order issued by Secretary of Interior Ken Salazar on December 
23, 2010. The order creates de facto wilderness and poses a threat to 
the continued multiple use of BLM lands.
     (7)  Block LCC Order.--The Landscape Conservation Cooperatives 
created through Secretarial Order 3289 will not serve the West well and 
will likely negatively impact ranching and other multiple uses on 
public lands.
     (8)  Defund LWCF.--With the exception of an amount necessary to 
complete current transactions, we request the subcommittee defund the 
LWCF--at a minimum block its use for land acquisition.
     (9)  AOI Appeals.--We request the subcommittee exempt ranchers 
from the ban on appealing Annual Operating Instructions for Forest 
Service grazing administration.
    (10)  Remove Limits on Title of Excess Wild Horse Sales.--We 
request that damaging language be removed from future appropriations 
bills which blocks excess horses from being sold or adopted without 
full title.
    (11)  Alternative Grazing Allotments.--We request the subcommittee 
direct BLM and the Forest Service to provide alternative grazing 
allotments to ranchers that are impacted by wildfire and drought.
    (12)  Direction on Bighorn Sheep Management.--We request Congress 
to direct the USFS to work with ARS on development of accurate science 
on the issue of potential disease transfer.
    (13)  Block the Use of Viability.--We urge Congress to block the 
extra-legal use of viability to effectively make all wildlife Federal 
species by the USFS.
    (14)  Funding Range Improvements.--We appreciate your continued 
support for range improvement and betterment funds, which have been 
critical to our members' ability to implement practices that improve 
forage condition and wildlife habitat.
    (15)  Block Climate Change in NEPA.--We request that Congress block 
all attempts to insert climate change into an already burdensome NEPA 
process.
    (16)  Support Economic Research.--We encourage Congress to support 
funding for economic impacts research for grazing on public lands.
    (17)  Support Cheatgrass Research.--We encourage Congress to 
support funds for continuing promising research on using livestock 
grazing as tool against invasive species.
ENVIRONMENTAL PROTECTION AGENCY
    (1)  Mandatory Greenhouse Gas Reporting for Manure Management 
Systems.--We request the committee continue to include language 
preventing EPA from requiring livestock operations to report their 
emissions of greenhouse gases.
    (2)  Greenhouse Gas Regulations (Title V) for Livestock 
Operations.--We request the subcommittee continue to include language 
preventing EPA from requiring Clean Air Act permits from livestock 
operations based on greenhouse gas emissions.
    (3)  Joint Rulemaking Identifying ``Waters of the U.S.''.--We 
request the committee include language preventing EPA and the Army 
Corps of Engineers from expanding their authority under the Clean Water 
Act.
    (4)  Protection of Farm Information.--We recommend the subcommittee 
include language in the bill to prevent use of funding by the EPA, and 
other Federal agencies, to develop a clearinghouse of farm information 
including individual names, phone numbers, email addresses, and GPS 
coordinates of farms.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Fiscal Year 2016 Historic Preservation Fund (HPF) Total Request:
  --$60 million for State Historic Preservation Offices (SHPOs), 
        including $10 million for a competitive grant program for 
        finding and documenting America's historic places.
  --$15 million for Tribal Historic Preservation Offices (THPOs).
  --$32.5 million for competitive grant programs related to Civil 
        Rights.
  --$10 million for a bricks & mortar competitive rehabilitation grant 
        program.

    Funded through withdrawals from the Historic Preservation Fund (16 
U.S.C. 470h) U. S. Department of the Interior's National Park Service.
            unique and successful federal-state partnership
    Congress, recognizing the importance of our heritage, enacted the 
National Historic Preservation Act (NHPA 16 U.S.C. 470) in 1966 which 
established historic preservation as a priority of the Federal 
Government. Recognizing that States are the experts of their own 
history, the Act's authors directed the Federal entities charged with 
its implementation--the Department of the Interior and the Advisory 
Council on Historic Preservation--to partner with the States. Duties 
delegated to the SHPOs include: (1) locating and recording historic 
resources; (2) nominating significant historic resources to the 
National Register of Historic Places; (3) cultivating historic 
preservation programs at the local government level; (4) providing 
funds for preservation activities; (5) commenting on Federal 
rehabilitation tax credit projects; (6) review of all Federal projects 
for their impact on historic properties; and (7) providing technical 
assistance to Federal agencies, State and local governments and the 
private sector. HPF grant awards help States carry out these duties and 
require a 40 percent minimum match to the Federal appropriation.
        jobs, economic development and community revitalization
    Nationwide, communities have experienced how historic preservation 
stimulates economic growth, promotes community education and pride, and 
rescues and rehabilitates significant historic resources. In many 
cases, historic preservation combats the effects of blight and vacancy 
by using the historic built environment as a catalyst for community 
change. These changes result in historic downtown districts and 
neighborhoods that are dynamic destinations for visitors and residents 
alike.
    The Federal Rehabilitation Tax Credit (HTC) program, administered 
by the State Historic Preservation Offices in cooperation with the 
National Park Service, is an important driver for economic development. 
Since inception, the HTC has rehabilitated over 40,000 buildings, 
created nearly 2.5 million jobs and leveraged $117 billion in private 
investment nationwide. On average, the HTC leverages $5 dollars in 
private investment for every $1 dollar in Federal funding creating 
highly effective public-private partnerships.
    One of the beneficiaries of the HTC in New Mexico was the town of 
Las Vegas and the Charles Ilfeld Building. The Ilfeld Building, 
completed in 1890, is a three-story sandstone faced building considered 
one of the finest Italianate styled buildings in the southwest. The 
building served as the headquarters and flagship store for the Charles 
Ilfeld Company, which was one of the largest mercantile companies in 
the southwest. After undergoing a nearly $7 million renovation using 
the HTC, the building is now incorporated into the adjacent Plaza Hotel 
where it provides much needed ballroom and conference space.
    Historic preservation also stimulates economic development through 
heritage tourism. Cultural and heritage travelers spend an average of 
$994 per trip and contribute more than $192 billion annually to the 
U.S. economy.\1\ SHPOs are essential, ground level partners in 
identifying and interpreting the historic places that attracts these 
visitors. A minimal $3 million increase in SHPO funding would allow 
SHPOs to expand their public outreach and assistance efforts, enabling 
communities to take greater advantage of heritage tourism opportunities 
which lead to job creation, new business development and enhanced 
community pride.
---------------------------------------------------------------------------
    \1\ U.S. Cultural and Heritage Tourism Study (October 2009) 
conducted by Mandala Research, LLC for U.S. Cultural & Heritage Tourism 
Marketing Council, U.S. Department of Commerce, and Gozaic/Heritage 
Travel Inc., a subsidiary of the National Trust for Historic 
Preservation.
---------------------------------------------------------------------------
    The City of Nome, Alaska benefits from heritage tourism as annually 
a thousand travelers flock to Nome to watch the finish of the Iditarod 
Trail Sled Dog Race and take in the area's Gold Rush history, culture, 
and heritage. The Discovery Saloon in Nome, the oldest surviving 
building from the Alaska Gold Rush received help from the HPF. The 
building owners had invested time, talent and money into rehabilitating 
the property and the Alaska SHPO rewarded their efforts by assisting 
with each phase of the rehabilitation. The SHPO awarded small HPF 
grants to repair the walls, porch, windows, doors, and roof, bringing 
the oldest continuously occupied building in Nome back to its original 
glory.
                 finding and saving america's heritage
    Historic preservation not only generates economic development and 
community revitalization, it also saves historic buildings and 
significant places. These sites represent the many people, places, and 
events that have shaped our national identity. The first step in 
preserving and protecting America's heritage is identifying it--which 
requires survey, documentation and stewardship and sharing of digital 
historic site data. Historic site survey data is the fundamental 
building block of our Nation's historic preservation program; yet this 
key program area is sorely lacking at the current level of 
appropriation. The NCSHPO recently surveyed its membership and found 
the following results to be very alarming:
  --Only 55 percent of surveyed historic resources have been digitized.
  --29.4 percent--Average percentage of each State surveyed for 
        historic buildings.
  --5.8 percent--Average percentage of each State surveyed for historic 
        landscapes.
  --9.9 percent--Average percentage of each State surveyed for 
        archaeological resources.
  --71 percent of States have more than 10,000 legacy resources in need 
        of re-survey.
  --66 percent of States report it would take 3+ years to complete 
        survey and digitization.
  --76 percent of States report that their survey and digitization 
        programs are piecemealed.
  --95 percent of States report lack of digital records hampers their 
        ability to conduct project reviews.

    The NCSHPO requests a minimum of $10 million a year for the next 10 
years for a competitive grant program for SHPOs to conduct historic 
resource identification, documentation and digitization activities. 
Having accurate, up-to-date, digitally accessible information on our 
Nation's historic resources would dramatically increase the efficiency 
and effectiveness of all local, State, and Federal projects. From 
deciding on the design of local in-fill development, to State 
transportation planning projects, to Federal large-scale energy 
projects and disaster recovery efforts--every single project, and the 
American people would benefit.
    Once identified and documented, America's historic resources are 
primarily recognized at the local, State, and national levels by 
listing on National and State Historic Registers. State Historic 
Preservation Officers, through the authority of the National Historic 
Preservation Act assist, support and encourage communities with their 
efforts. National Register recognition by the Secretary confirms 
citizens' belief in the significance of their community.
    The National Historic Preservation program is primarily one of 
assistance, not acquisition. The Federal Government does not own, 
manage, or maintain responsibility for most of the historic assets in 
the National Historic Preservation program. Instead, the program, 
through the SHPOs, provides individuals, communities, and local, State, 
and Federal Government with the tools they need to identify, preserve, 
and utilize the historic assets of importance to them.
    In addition to the SHPO funding, the NCSHPO supports the Tribal 
Historic Preservation Offices (THPO) request of $15 million. THPOs 
assume the Federal compliance role of the SHPO on their respective 
Tribal lands. In fiscal year 2013, 136 tribes received an average of 
$60,000--more than $20,000 less than when the program first started. 
With no funding increase and the continued growth of the program, the 
average THPO grant will continue to decrease.
    The NCSHPO also requests $3 million for grants to State and Tribal 
Historic Preservation Offices for the survey and nomination of 
properties associated with communities currently underrepresented in 
the National Register and as National Historic Landmarks, as well as 
$10 million for a nationally competitive rehabilitation grant program. 
The NCSHPO also supports the administration's request of $30 million 
for competitive grants to preserve the sites and stories related to the 
Civil Rights movement and $2.5 million for a similar program for 
Historically Black Colleges and Universities.
            historic preservation fund (hpf) reauthorization
    The current authorization of the HPF expires on September 30, 2015. 
This testimony only touches on the invaluable economic and social value 
that historic preservation stimulates throughout our Nation, all of 
which would not be accomplished but for the HPF. The NCSHPO requests 
that the subcommittee support a reauthorization of the HPF that 
includes full and permanent funding, as intended at $150 million per 
year.
       2014 state historic preservation offices' accomplishments
    SHPOs used their HPF allocations well in 2014. While virtually 
every State continues to experience staffing and operational 
reductions, SHPOs are still charged with implementing the requirements 
of the NHPA to the fullest extent. Highlights of 2014 historic 
preservation accomplishments include:
  --Reviewing nearly 103,000 Federal undertakings within a 30-day 
        review period.
  --Leveraging over $4.32 billion of private investment in the 
        rehabilitation of commercial historic properties under the HTC 
        program.
  --An estimated 77,750 jobs created by the HTC program in 2014.
  --Creating over 6,600 low and moderate income housing units through 
        the HTC.
  --Surveying approximately 16.5 million acres for the presence or 
        absence of cultural resources.
  --Adding 1,030 new listings to the National Register of Historic 
        Places.
  --Issuing 82,200 National Register eligibility opinions.
  --Assisting 39 new communities to become Certified Local Governments 
        (CLGs).
                               conclusion
    On behalf of all 59 SHPOs, I'd like to thank you Chairman 
Murkowski, Ranking Member Udall, and members of the Senate and House 
Appropriations Subcommittee on Interior, Environment and Related 
Agencies for the opportunity to submit testimony.
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary--50, 100 or 500 years from now. I 
would like to thank the subcommittee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and our collective sense of place. 
Through our partnership, SHPOs remain committed to working together to 
identify, protect, and maintain our Nation's heritage. Thank you.

    [This statement was submitted by Elizabeth Hughes, President.]
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), we 
thank you for considering NCAI's testimony on Native American programs 
in this subcommittee's jurisdiction. As the most representative 
organization of American Indian and Alaska Native tribes, NCAI serves 
the broad interests of tribal governments across the Nation. This 
testimony addresses tribal funding in the Department of the Interior, 
Indian Health Service, and Environmental Protection Agency.
    Effective tribal government, with all the necessary tools and 
resources to address the public service needs of their people, 
represents a key component for any balanced tribal nation. The leaders 
and citizens in Indian Country carry the potential and insights to 
address the reverberations of historical trauma, the lingering effects 
of relocation, forced assimilation, broken treaties, and economic and 
political injustices generally. The trust relationship in the 21st 
Century must maintain the nation-to-nation treaty obligations, such as 
the provision of education, public safety, healthcare and more, while 
promoting tribal capacity and governance.
    NCAI includes recommendations for Interior and Indian Health 
Service, but the fiscal year 2016 Indian Country Budget Request 
includes many more details of these recommendations.\1\ NCAI also 
supports the testimony of the National Indian Health Board, National 
Indian Child Welfare Association, National Indian Education 
Association, and American Indian Higher Education Consortium.
---------------------------------------------------------------------------
    \1\ National Congress of American Indians. (January 2015). Fiscal 
year 2016 Indian Country Budget Requests: Promoting Self-Determination, 
Modernizing the Trust Relationship. Washington, DC: Author.
---------------------------------------------------------------------------
                       department of the interior
    In preparation for the President's budget, the Interior Department 
consulted with tribes about programs in the budget, and some 
recommendations from Indian Country are included in the fiscal year 
2016 proposal. The budget proposes an overall increase of 12 percent 
for BIA over the fiscal year 2015 enacted level, the largest increase 
in more than a decade (excluding Recovery Act funding). The fiscal year 
2016 budget for the Operation of Indian Programs (OIP) account is $2.7 
billion, an increase of $231.4 million above the fiscal year 2015 
level, an increase of about 9 percent. The fiscal year 2016 budget 
request for Construction is $189.0 million, an increase of $60.1 
million (or about 46.6 percent) above the fiscal year 2015 level. These 
increases are desperately needed throughout Indian Country and NCAI 
urges Congress to keep them in the fiscal year 2016 appropriations 
bill.
    Tribes at NCAI conferences continue to call the Federal funding of 
treaty and trust obligations a Quiet Crisis.\2\ The increase of 12 
percent in BIA overall is higher than the overall percentage increase 
for the entire Interior budget, which would be nearly 8 percent over 
the fiscal year 2015 enacted level.
---------------------------------------------------------------------------
    \2\ U.S. Commission on Civil Rights. (2003). A quiet crisis: 
Federal funding and unmet needs in Indian Country.
---------------------------------------------------------------------------
    This request is very encouraging to tribal leaders who have been 
struggling to meet urgent demands in their communities but with 
inadequate resources to do so.
    Mandatory Contract Support Costs.--The fiscal year 2016 budget 
includes a proposal to reclassify contract support costs as permanent 
funding beginning in fiscal year 2017. NCAI and tribes have called for 
moving contract support costs to mandatory funding in resolutions 
across Indian Country and in NCAI's tribal budget requests. The fiscal 
year 2016 request also will fully fund contract support costs, based on 
the most recent BIA and IHS analysis. If enacted, permanent funding for 
Contract Support Costs (CSC) will help stabilize this vital funding as 
called for in tribal consultation over many years. Consultation will be 
held on the proposal, but tribes are looking forward to the 
reclassification, if possible even in fiscal year 2016. Although NCAI 
would prefer that all treaty obligations in the Federal budget were 
classified as mandatory, the CSC proposal is a very strong expression 
of support for Indian Self-Determination and we hope Congress will 
support it.
    One-Stop Tribal Support Center.--The budget request acknowledges 
BIA's important role as a central Federal services provider and 
coordinator in proposing $4 million to establish a One-Stop Tribal 
Support Center. The proposal would support tribes in accessing services 
across the Federal Government. NCAI considers this an important 
proposal that could provide much needed technical support for tribal 
governments. The Office of Management and Budget (OMB) has released a 
Native American cross cut, which shows a large range of Federal funds 
that are available to tribes. Tribal leaders have requested details on 
the type of Federal resources, such as whether the funds are baseline 
recurring funding streams, competitive grants, tribal set-asides, or 
State pass through funds. While anticipating the outcome of the 
Department of the Interior's (DOI) tribal consultation and work through 
the White House Council on Native American Affairs to develop the 
center, NCAI considers the concept overall beneficial for Indian 
Country. While the goal of the center is to facilitate streamlined 
communication and information exchange to help tribes easily access 
Federal programs and opportunities, emphasis should be made on stable 
base funding for tribal governments.
    BIA Data Initiative.--The President's budget includes $12 million 
to improve Evidence and Evaluation to Support Indian Affairs 
Activities. The proposed funding will be used to improve Federal data 
quality and availability, to work with the U.S. Census Bureau to 
address data gaps for Indian Country, and create a capability within 
DOI's Office of Policy Analysis to support effective, data-driven, 
tribal policy making and program implementation. The goals include 
improving program performance, delivering more effective services, and 
helping deliver results to Indian Country. NCAI agrees that tribal 
leaders and communities need access to quality data and information as 
they make decisions, and has supported tribally driven efforts in the 
past, such as the Tribal Data Exchange. The proposal includes $2 
million for internal capacity building to study Indian Affairs policy, 
evaluate programs, and develop tribal datasets to support tribal 
decisionmaking. The proposal would offer staff to address statistical, 
economic, and evaluation issues. A second element of the proposal is $9 
million for agreements with the Census Bureau to improve tribal data 
and address data gaps. The work would be to develop, test, and 
implement additional tribal data collection, increase the sample sizes 
for data collections on Indian lands, and develop protocols and 
datasets to allow Federal agencies to present a more accurate 
socioeconomic statistics for Indian Country. The third element is $1 
million for outreach and consultation on data collection to address 
data and evidence gaps. Tribal leaders and decision-makers need the 
tools to define the contours of the modern Indian Country economy and 
whether the Federal Government is meeting its trust responsibility.
    The data initiative could help BIA address NCAI's resolution ATL-
14-084, ``Recommendations for Addressing the State of Emergency in 
Federal Underfunding of the Trust Responsibility.'' Recommendations 
include: (1) all agencies must be required to regularly assess unmet 
obligations to tribes, comparing needs with available resources and 
identifying gaps in service delivery; (2) an assessment similar to the 
Indian Health Service's Federal Disparity Index should be replicated by 
other agencies, with the results used to prioritize spending and assess 
the status of programs; (3) a full-scale evaluation must analyze the 
spending patterns of every Federal agency's funding of trust 
responsibilities; (4) OMB must develop government-wide standards for 
tracking spending on tribal programs.
    Tiwahe.--The fiscal year 2016 budget would provide $15 million to 
expand the Tiwahe Initiative, $6 million more for Social Services 
(under BIA Human Services), $4 million more for law enforcement for 
alternatives to incarceration and $5 million more for aid to tribal 
family courts. NCAI strongly supported this initiative last year and 
urges Congress to continue funding for this initiative.
    The Social Services Program provides a wide array of family support 
services filling many funding gaps for tribal programs and ensuring 
Federal support for these programs. Importantly, the Social Services 
Program provides the only BIA and tribal-specific funding available for 
child protective services in Indian Country. It also funds BIA social 
workers at regional and agency offices and technical assistance to 
tribal social service programs. These funds are desperately needed. A 
recent assessment of BIA social services found that, in large part due 
to inadequate funding, tribes report frequent vacancies and staff 
turnover.\3\ Tribes commend the $5 million fiscal year 2015 increase 
and urge that the momentum be continued. Another $6 million must be 
appropriated for this program.
---------------------------------------------------------------------------
    \3\ Department of the Interior, Office of Inspector General. 
(2012). Management of social services in BIA: Opportunity for action 
(Report No. WR-EV-BIA-0001-2012). (pp. 5-6).
---------------------------------------------------------------------------
    NCAI also supports funding under the Indian Child Protection and 
Family Violence Prevention Act: $10 million for the Indian Child Abuse 
Treatment Grant Program, $30 million for the Indian Child Protection 
and Family Violence Prevention Grant Program, and $3 million for the 
Indian Child Resource and Family Service Centers Program. Increased 
investments in ICWA funds and Welfare Assistance should also be 
included.
    The $5 million increase for tribal courts is also critical, which 
will complement the additional resources in Law Enforcement Special 
Initiatives, ensuring that the judicial branch of tribal public safety 
systems can effectively meet family and community needs under the 
Tiwahe initiative.
    Education would see an increase of $138.4 million for BIE 
activities and construction. Increases include: $45.5 million for 
Elementary and Secondary Education; $12.9 million to fully fund Tribal 
Grant Support Costs; $10 million for the Education Program Enhancement 
program for incentive funding; $20 million for BIE maintenance and 
operations; $34.2 million for education information technology to 
enhance broadband and digital access; $4.6 million for scholarship and 
adult education and an increase of $250,000 for Special Higher 
Education Scholarships; $2.6 million for Johnson O'Malley. Education 
Construction would receive a $58.7 million increase, for a total of 
$133.2 million. The increase includes $25.3 million for replacement 
school construction to complete construction on the final two schools 
on the 2004 replacement school priority list. Tribal leaders have 
strongly supported education in Indian Country, specifically 
scholarships and adult education as well as Johnson O'Malley.
    BIA Natural Resources would receive an important increase of $48 
million over fiscal year 2015 for sustainable resource management and 
preparing and responding to the impacts of climate change, such as 
drought, wildfires, changes to plants and animals important to 
subsistence and culture, rights protection, coastal erosion and rising 
sea levels.
                         indian health service
    The Indian Health Service budget (IHS) request for fiscal year 2016 
of $5.1 billion in budget authority is an increase of $460.6 million 
(9.9 percent) above the fiscal year 2015 enacted level. Tribes have 
requested $5.4 billion for the agency in budget formulation. While the 
IHS budget has made gains in the last several years, many of the 
increases funded contract support costs obligations, inflation and 
population growth.
                 environmental protection agency (epa)
    NCAI supports EPA's requested an increase of $31 million for the 
Tribal General Assistance Program. This increase in base funding will 
increase the average size of grants made to eligible tribes and further 
EPA's partnership with tribes to address a wider set of program 
responsibilities. EPA acknowledges that tribal communities need 
assistance to address sanitation and drinking water infrastructure. To 
help address this situation, EPA is requesting a tribal funding floor 
of 2 percent, or $30 million for the Clean Water State Revolving Fund 
(SRF) or $20 million for the Drinking Water SRF, whichever is greater, 
of the funds appropriated in fiscal year 2016. NCAI supports the 
efforts to address sanitation and drinking water infrastructure in 
Indian Country.
                               conclusion
    Many factors contribute to restoring wellness to Indian Country: 
developing sanitation systems,\4\ increasing tribal self-determination 
and accountability, easing housing overcrowding,\5\ addressing 
transportation needs, lowering poverty rates, eliminating food 
insecurity,\6\ and strengthened tribal child welfare programs,\7\ for 
instance, all support health and wellness. Tribal nations and leaders 
often apply a holistic approach to healing, drawing on a sense of 
connectedness with culture, place and land. The Federal Government, in 
meeting its treaty and trust obligations, plays a key role in Indian 
Country. Thank you for the opportunity to share these views with the 
subcommittee. The needs in Indian Country are great and we thank this 
subcommittee for working in a bipartisan manner to honor the treaties 
and agreements made between our ancestors.
---------------------------------------------------------------------------
    \4\ Indian Health Service. (2000). The Sanitation Facilities 
Construction Program of the Indian Health Service, Public Law 86-121 
Report for 2000.
    \5\ U.S. Centers for Disease Control. (2008) National Hospital 
Ambulatory Medical Care Survey: 2006 Emergency Department Summary. 
Retrieved from http://www.cdc.gov/nchs/data/nhsr/nhsr007.pdf.
    \6\ Cook, J. T., Frank, D. A., Levenson, S. M., Neault, N. B., 
Heeren, T. C., Black, M. M., Berkowitz, C. Casey, P. H., Meyers, A. F., 
Cutts, D. B., & Chilton, M. (2006). Child Food Insecurity Increases 
Risks Posed by Household Food Insecurity to Young Children's Health. 
American Society for Nutrition.
    \7\ U. S. Department of Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention. (2014). Attorney 
General's Advisory Committee on American Indian/Alaska Native Children 
Exposed to Violence: Ending violence so children can thrive (p. 51).
---------------------------------------------------------------------------
                                 ______
                                 
    Prepared Statement of the National Environmental Services Center
    Chairperson Murkowski, Ranking Member Udall, and members of the 
subcommittee:

    Thank you for the opportunity to offer testimony to the 
Subcommittee on Interior Environment and Related Agencies. We recommend 
that within existing funding levels, the USEPA Office of Wastewater 
Management (OWM) be directed to provide at least 20 percent of the 
Clean Water State Revolving Fund annually to support the use of onsite 
and decentralized wastewater treatment systems. We further recommend 
that 20 percent of the EPA's OWM budget be dedicated to providing 
staffing and resources for the Office of Decentralized Wastewater. 
Implementing this recommendation will help address the lack of Federal 
support for the 85 million people in the U.S. dependent on 
decentralized wastewater treatment, many in small, rural and 
disadvantaged communities.
Introduction
    I am Gerald Iwan and I am the executive director of the National 
Environmental Services Center (NESC), at West Virginia University. 
Since 1976, NESC has been home to the National Small Flows 
Clearinghouse (NSFC), National Drinking Water Clearinghouse (NDWC) and 
National Environmental Training Center for Small Communities (NETCSC). 
These centers have distributed comprehensive drinking water and 
wastewater information and services nationally to small rural and 
disadvantaged communities. Since their inception, they assisted 
communities with developing and maintaining onsite septic or 
decentralized wastewater treatment systems. In 1999, NESC began 
administering the State Onsite Regulators Alliance (SORA), the only 
national association of State onsite wastewater regulators in the 
United States. SORA provides the resources and venues for State 
regulators to share information among each other and the wastewater 
industry on decentralized wastewater regulatory and technology issues. 
SORA was instrumental in collaborating with the USEPA in developing 
guidance for the management of decentralized wastewater systems 
following EPA's 1997 report to Congress on the use of decentralized 
wastewater treatment systems. It is currently, along with NESC, an 
original member of the EPA Decentralized MOU Partnership, which advises 
EPA on decentralized wastewater management.
    NSFC, NETC and SORA were products of the 1977 Clean Water Act (CWA) 
and its subsequent reauthorizations. CWA mandated the NSFC to collect, 
distribute information, and provide training about wastewater treatment 
to small and rural communities. Thousands benefited from our water and 
wastewater technical assistance. EPA programs and management account 
funding for these activities ceased in 2005 along with much of the 
services previously provided.
Need
    State regulators, technical assistance providers and the 
decentralized wastewater industry have long recognized a number of 
positive benefits provided by decentralized wastewater systems, 
including: job creation, water quality protection, aquifer recharge, 
affordability, low maintenance and the ability for people to live where 
municipal wastewater treatment is not feasible or available. For 
smaller communities, decentralized and onsite systems can usually be 
built and maintained more economically then municipal wastewater 
treatment plants and sewers. Larger utilities often consider 
decentralized systems as an option to help offset the costly 
replacement of aging wastewater infrastructure. Properly designed, 
sited, constructed and maintained decentralized systems supported by 
well-trained professionals and knowledgeable State regulators, is a 
fiscally responsible approach to public health and environmental 
protection.
    A recent survey of SORA regulators, conservatively estimated that 
approximately 27 percent of the U.S. population or 85 million people 
are served by onsite systems. Onsite or decentralized systems are a 
permanent and necessary part of the U.S. wastewater infrastructure for 
over a quarter of our population. However, EPA provides relatively 
little funding or support for decentralized wastewater compared to that 
directed to municipal wastewater treatment. As examples, less than 1 
percent of Clean Water State Revolving Loan funds is distributed to 
decentralized projects annually, there is no direct Federal funding 
available to States for decentralized wastewater regulatory programs, 
and EPA's own decentralized wastewater program has only one full time 
staff person.
Request
    Having 35 years of expertise in decentralized wastewater treatment 
and management, and from our daily interactions in providing water and 
wastewater services to small, rural and often-disadvantaged 
communities, we are recommending that:
    1.  At least 20 percent of EPA's annual contribution to the Clean 
Water State Revolving Fund be designated to supporting the construction 
and use of onsite and decentralized wastewater treatment systems. Those 
funds should be distributed by the regulatory authority in each State 
that directly oversees and enforces onsite wastewater treatment,
    2.  At least 20 percent of the Office of Wastewater's funding be 
dedicated to increasing staffing and programmatic resources for the 
Office of Decentralized Wastewater.

    NESC believes that by redirecting OWM funding as recommended above, 
positive results can be realized for the Nation's wastewater 
infrastructure, economy and the population dependent on onsite systems 
by:

  --Significantly expanding EPA's training of industry professionals 
        through grants to entities, which exclusively specialize in 
        decentralized training.
  --Providing the resources that assure homeowners, business owners and 
        industry professionals have an up-to-date source of information 
        on decentralized technology.
  --Providing direct financial and staff support to State onsite 
        wastewater programs to increase training and support better 
        development and enforcement of State regulations.
  --Expanding research grants and onsite wastewater training centers 
        and demonstration projects to help local decision-makers and 
        design engineers better understand the benefits of onsite and 
        decentralized wastewater treatment systems and technologies.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $3.6 
million be allocated to the Department of Interior, United States 
Geological Survey (USGS) Water Resources Program account to continue 
implementation and maintenance of a national groundwater monitoring 
network (NGWMN). NGWA is the world's largest association of groundwater 
professionals, representing public and private sector engineers, 
scientists, water well professionals, manufacturers, and suppliers of 
groundwater related products and services.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. Nationally, more than 41 percent of 
the drinking water supply comes from groundwater and in some locations 
it is relied on by 80 percent of Americans. Groundwater also serves as 
a key source of agricultural irrigation water, as well as for other 
critical economic purposes.
    While the Nation's people, food supply, economy and ecosystems 
depend on groundwater, no systematic nationwide monitoring network is 
in place to measure what is currently available and how groundwater 
levels and quality may be changing over time.
    As with any valuable natural resource, our groundwater reserves 
must be monitored to assist in planning and minimizing potential 
impacts from shortages or supply disruptions. Just as one cannot 
effectively oversee the Nation's economy without key data, one cannot 
adequately address the Nation's food, energy, economic, and drinking 
water security without understanding the extent, availability and 
sustainability of a critical input--groundwater.
    Congress acknowledged the need for enhanced groundwater monitoring 
by authorizing a national groundwater monitoring network with passage 
of Public Law 111-11 (Omnibus Public Land Management Act) in 2009 and 
viability of the network was proven through the completion of pilot 
projects in six States--Illinois, Indiana, Minnesota, Montana, New 
Jersey, and Texas. These States voluntarily pilot tested concepts for a 
national groundwater monitoring network as developed by the Federal 
Advisory Committee on Water Information's (ACWI) Subcommittee on Ground 
Water (SOGW).
    $2.6 million in funding was provided in fiscal year 2015 through 
Public Law 113-235 the Consolidated and Continuing Appropriations Act, 
which will help to begin implementation of the national network. 
However, fiscal year 2015 funding will only allow implementation to 
begin across a handful of States. Additional funding for fiscal year 
2016 is requested to allow for implementation across more States.
    Once implemented nationwide, the NGWMN would provide consistent, 
comparable nationwide data accessible through a public web portal for 
Federal, State, local government and private sector users. In these 
tight fiscal times, the proposed network would build on existing State 
and Federal investments, maximizing their usefulness and leveraging 
current dollars to build toward systematic nationwide monitoring of the 
groundwater resource.

    Funding from the NGWMN will be used for two purposes:

    1.  Provide grants to regional, State, and tribal governments to 
cost share increased expenses to upgrade monitoring networks for the 50 
States to meet the standards necessary to understand the Nation's 
groundwater resources.
    2.  Support the additional work necessary for USGS to manage a 
national groundwater monitoring network and provide national data 
access through an Internet web portal.

    Though the amount requested is small in the context of the 
Department of Interior's annual budget request, funding is vital when 
we understand that for a small investment we can begin finally to put 
in place adequate monitoring of the hidden resource that provides more 
than 40 percent of the Nation's drinking water supply and serves as a 
key driver for our agricultural economy. Thank you for your 
consideration of this request.
    The National Ground Water Association is a not-for-profit 
professional society and trade association for the groundwater 
industry. NGWA is the largest organization of groundwater professionals 
in the world. Our more than 11,000 members from all 50 States and 72 
countries include some of the leading public and private sector 
groundwater scientists, engineers, water well contractors, 
manufacturers, and suppliers of groundwater related products and 
services. The Association's vision is to be the leading community of 
groundwater professionals that promotes the responsible development, 
use and management of water resources.
                                 ______
                                 
 Prepared Statement of the National Horse & Burro Rangeland Management 
                               Coalition
    The National Horse & Burro Rangeland Management Coalition 
appreciates the opportunity to submit testimony regarding the fiscal 
year 2016 appropriations for the Bureau of Land Management Wild Horse & 
Burro Program. The National Horse & Burro Rangeland Management 
Coalition includes a wide range of sportsmen's, livestock, wildlife, 
and land conservation organizations and professional societies. 
Collectively, we represent millions of Americans and focus on 
commonsense, ecologically sound approaches to managing horses and 
burros to promote healthy wildlife and rangelands for future 
generations.
    Our coalition is concerned about the exponentially growing 
population of wild horses and burros on our Nation's rangelands and the 
lack of effort proposed in the President's fiscal year 2016 budget to 
reduce the threat this poses to our Nation's rangelands.
    As of March 1, 2014, wild horse and burro populations surpassed 
49,000 animals on BLM-rangelands. This threshold exceeds the BLM 
estimated ecologically sustainable level of 26,684 horses and burros by 
more than 22,500. With the documented potential for 20 percent annual 
population increase, there are likely more than 58,000 animals 
currently on the range--that means horses and burros already exceed 215 
percent of capacity for appropriate range management.
    This extreme level of overpopulation by an invasive species 
negatively impacts the country's rangelands, risking the future of the 
ecosystem. By continuing to allow horses and burros to exceed 
sustainable levels, the BLM is placing the future of wildlife, 
rangelands, livestock operations, and the horses and burros themselves, 
in jeopardy.
    The focus of the BLM Wild Horse & Burro program should revert to 
its original purpose and stated goal of achieving appropriate 
management levels (AML). Direct removal of horses and burros from 
impacted regions will aid in AMLs being achieved while simultaneously 
reducing their impact on the supporting ecosystem.
    The President's fiscal year 2016 budget proposal plans for the 
removal of only 2,000 horses and burros from the country's rangelands. 
Unfortunately, this limited number does very little to protect our 
Nation's rangelands from the growing negative impacts of overpopulated 
horses and burros.
    Wild horse populations typically grow by 20 percent per year and 
double in size every 4-5 years. At the current rate, the wild horse 
population will likely grow by 9,000 animals in 2015, even with the 
planned removal of 2,000 horses. As a result, we could see as many as 
67,000 wild horses and burros degrading the country's rangelands by 
2016--exceeding 250 percent of capacity for appropriate rangeland 
management. This is an unacceptable rate of increase for a population 
that already greatly exceeds AMLs. Such population numbers will 
continue to cause an unacceptable level of damage to a valuable asset 
for our country.
    We appreciate the BLM's increased attention to fertility control 
methods, as we believe that scientifically based use of fertility 
control (e.g., proven to be effective and safe) can be an important 
component to the solution to this problem. However, fertility control 
alone does not solve the problem and should not be the primary 
approach. There are currently Herd Management Areas (HMA) more than 500 
percent over AML. Fertility control methods, if they are effective in 
reducing pregnancies, will only help maintain population levels in the 
short term, not reduce them. Direct removal of wild horses and burros 
from the range is the only way to achieve AMLs in a reasonable amount 
of time.
    Without an increase in the rate of removal of horses and burros, 
populations will continue to expand and our Nation will witness not 
only growing degradation to its rangeland ecosystem, but also growing 
costs to its taxpayers.
    We urge this committee and other members of Congress to address 
this increasing problem for our Nation's valuable rangelands by 
directing the BLM to remove horses and burros at a rate substantial 
enough to produce impactful results and protect our resources.
    Thank you for considering the input of our coalition.
                    American Farm Bureau Federation, American Sheep 
                            Industry Association, Masters of Foxhounds 
                            Association, Mule Deer Foundation, National 
                            Association of Conservation Districts, 
                            National Cattlemen's Beef Association, 
                            National Rifle Association, National 
                            Wildlife Refuge Association, Public Lands 
                            Council, Public Lands Foundation, Rocky 
                            Mountain Elk Foundation, Safari Club 
                            International, Society for Range 
                            Management, and The Wildlife Society.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
    Mr. Chairman and members of the subcommittee:

    My name is Tamara Mann and I am the John Strassburger Fellow at 
Columbia University. I am writing to testify on behalf of the National 
Humanities Alliance in support of the National Endowment for the 
Humanities.
    My first class as a college professor started at 9 a.m. It was only 
7:30 and I was pacing the small seminar room, fretting about a course I 
had long admired but never imagined I would actually teach. Every 
summer for the past 6 years, 30, low-income, minority public high 
school students, arrive on Columbia University's campus to take an 
intensive Great Books course as part of the Freedom and Citizenship 
Program. For a veteran teacher, the syllabus is challenging: one day 
Plato, the next Aristotle, and then on to Locke, Jefferson, Lincoln, 
and King. For a novice, it is completely terrifying.
    My students arrived on time. They ambled into the seminar room, 
some laughing, others stoic, all clutching their copies of The Trial 
and Death of Socrates. As they sat down, I knew that they desperately, 
achingly, wanted to be in this room. Their parents hadn't gone to 
College and there they were, in high school, sitting around a Columbia 
University seminar table. I recalled what Professor Roosevelt Montas 
said to me when I agreed to take on the course, ``be quiet and be 
curious.''
    That first day of class I sat quietly for a minute or two and then 
opened our time together with a question: what fills you with a sense 
of wonder? Their answers were tender and earnest; they ranged from 
observations about primary colors to the miracle of small acts of 
kindness. And then came Quanisha. ``I'll tell you,'' she offered, ``but 
don't laugh. I wonder what this guy Socrates is saying. I just don't 
understand him. I have been up all night. I read this three times and I 
don't know what he is saying and I wonder about it.'' So our class 
really began.
    It was Socrates' description of wisdom that caused the most 
confusion. ``I don't get it,'' Lanique piped, ``he is wise and not 
wise, but wiser than other people and still ignorant. That doesn't seem 
very wise to me.'' ``Look closely at the passage in front of you,'' I 
said, ``what do you think Socrates is trying to say?''
    Gabriel spoke up, ``I think he is saying that you're not wise if 
you think you know something that you don't know. It's like a person 
who knows a lot about one subject and just because of that he thinks he 
knows about everything.'' ``So, how would you describe this definition 
of wisdom?'' I followed. ``Maybe wisdom is just knowing what you don't 
know,'' he replied. Laura and Genesys smiled. Now we could all remain 
in the classroom and claim to be wise, just by admitting what we did 
not know. Fabulous!
    ``But wait,'' questioned a soft voice to my left. ``Is that 
enough?'' Fatoumata leaned into our seminar table. ``How can it be 
enough to just say you don't know? Don't we have to do more? Don't we 
have to figure out how we could learn about a subject?'' The class 
found its rhythm and my students, drawing deeply from their reading of 
Socrates, debated the contours of wisdom, knowledge, and learning for 
the greater part of an hour. The morning ended with our own working 
definition of wisdom that we would try to apply to our future classes, 
``Wisdom is being upfront about what you don't know and then carefully, 
ploddingly, figuring out how you would learn more about it.''
    As the summer progressed, the questions and the wonder continued. 
``Man is born free and everywhere he is in chains,'' read Mystery but 
``Why does Rousseau think we are born free? Is anyone really born 
free?'' My students pounced; everyone had a contribution. That day 
their comments didn't just come from the text, they came from them. 
They talked about the challenges of living with a parent suffering from 
drug addiction, the insecurity they felt in foster care, and the daily 
hardships of poverty.
    That summer we didn't just discuss freedom as an abstract concept; 
we discussed what that word meant to us as individuals, as members of 
families, and as citizens of our shared country.
    At the end of class, after a particularly harrowing conversation 
about all of the challenges my students faced, Heebong sighed and 
voiced our collective sense of defeat, ``but what can we do about these 
issues. They are so . . . big.''
    We could have ended there. If I were alone, I probably would have. 
But we were in a classroom and we had started with Socrates. ``We need 
to get wise,'' said Fatoumata, at first quietly and then emboldened by 
a chorus of her peers, ``We need to get wise.'' These extraordinary 
students then started designing a plan of study, a course of 
intellectual action to learn how to tackle the problems they had faced. 
Their plan of action required knowledge produced by biologists, 
physicians, psychologists, philosophers, politicians, and sociologists, 
to name only a few. These students understood that the great human 
problems of their generation were at once structural and personal. To 
solve them, they needed an education in the sciences and the 
humanities.
    When Professor Montas reflects on the purpose of a humanities 
education he explains, ``In most disciplines, the subject to be learned 
is at the center. . . . In this field of study, the student, the 
individual as a living growing entity, is at the center.'' Today, I ask 
you to support programs like this one. Programs that don't only give 
students content but actually help them understand the purpose and 
meaning of that content.
    My students came to this course because it was a means to an end--
college. They left the course almost embarrassed by the 
shortsightedness of that goal. As one student put it ``Now I want to go 
to college not just to get there but to really learn something, so that 
I can give back; it's not just about me and my success but about what I 
can do with it.'' This is exactly why we have to support the 
humanities. It is courses like these that turn us from students of a 
topic into citizens of our great country.
    This is just one of the many programs that provide rich humanities 
content to underserved populations across the country, paving the way 
for personal achievement and civic engagement. The National Endowment 
for the Humanities has been a leader in supporting many of these 
programs. By way of the State humanities councils, the Endowment has 
long supported Clemente Courses in the Humanities, which provides a 
rigorous education in literature, philosophy, American history, art 
history, and critical thinking and writing for adults facing economic 
hardship. Students receive credit from Bard College, and the course 
strives to create a bridge to higher education by developing the 
skills, confidence, and motivation necessary to succeed in that 
context. Other programs include literacy initiatives for low-income 
families; research and teaching grants to community colleges, tribal 
colleges, historically black colleges and universities, and Hispanic 
serving institutions; and with fiscal year 2016 funding, grants to 
museums, libraries and cultural organizations that reach at-risk 
audiences.
    In the past few years, the Endowment has focused particularly on 
supporting veterans in their transition to civilian life. Since 2013, 
NEH has awarded grants to the Warrior-Scholar Project, which offers a 
two-week ``humanities boot camp'' to aid in veterans transition from 
the military to college. Currently hosted at three universities and--
thanks to support from NEH--will be offered to an additional eight 
campuses in the summer of 2015. Through small grants to all of the 
State councils, the Endowment has also enabled reading and discussion 
programs for veterans in VA hospitals, community centers, and public 
libraries using great works of literature and public performances for 
and involving veterans that draw on timeless themes from classical 
Greek dramas of soldiers returning home from war. As noted in the 
agency's appropriation's request, expanding these programs is one of 
the Endowment's key goals for fiscal year 2016.
    To ensure that programs such as these continue to reach underserved 
communities--and that the humanities research, K-16 teaching, and 
historical preservation that underpins them continues as well--I ask 
you to support full funding for the National Endowment for the 
Humanities. Thank you very much for the opportunity to submit this 
testimony.
    Founded in 1981, the National Humanities Alliance advances national 
humanities policy in the areas of research, preservation, public 
programming, and teaching. More than one hundred organizations are 
members of NHA, including scholarly associations, humanities research 
centers, colleges, universities, and organizations of museums, 
libraries, historical societies, humanities councils, and higher 
education institutions.
    The Freedom and Citizenship Program at Columbia University enrolls 
low-income rising high school seniors from New York City schools in a 
rigorous college-level summer seminar. They read major works of 
political and moral philosophy from the ancient world to the present 
and explore the rights and responsibilities of citizenship. In the 
ensuing academic year, the students collaborate on a project that 
allows them to apply themes and ideas they explored in the summer to an 
issue in contemporary public life. Since it was founding in 2009, 100 
percent of its participants have attended college.
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a national 
American Indian/Alaska Native (AI/AN) nonprofit organization. NICWA has 
provided leadership in the development of public policy that supports 
tribal self-determination in child welfare and children's mental health 
systems for over 30 years. This testimony will provide recommendations 
for programs administered by the Bureau of Indian Affairs (BIA) in the 
Department of the Interior.

----------------------------------------------------------------------------------------------------------------
                                                                                 Current Fiscal    Recommended
                Program Title                        Authorizing Statute           Year 2015       Fiscal Year
                                                                                   (million)      2016 (million)
----------------------------------------------------------------------------------------------------------------
Indian Child Protection & Family Violence
 Prevention Act:
    Indian Child Abuse Treatment Grant         25 USC Sec.  3208 ($10m).......             $0              $10
     Program.
    Indian Child Protection and Family         25 USC Sec.  3210 ($30m).......              0               30
     Violence Prevention Grant Program.
    Indian Child Resource and Family Service   25 USC Sec.  3209 ($3m)........              0                3
     Center Program.
 
Indian Child Welfare Act:
    ICWA on-reservation program..............  25 USC Sec.  1931..............             15.6             18.1
    ICWA off-reservation program.............  25 USC Sec.  1932..............              0                5
    ICWA self-governance funds...............  25 USC Sec.  1931/25 USC Sec.                8.5             11
                                                458cc.
General Welfare..............................  25 USC Sec.  13................             74.8             80
Social Services..............................  25 USC Sec.  13................             40.8             46.8
----------------------------------------------------------------------------------------------------------------

    Congress has unequivocally recognized that there is nothing ``more 
vital to the continued existence and integrity of Indian tribes than 
their children.'' (25 U.S.C. Sec. 1901[3] [2006]). Congress must 
promulgate a budget that empowers tribes to provide the programs and 
services necessary to safeguard their children and strengthen their 
families. A recent report from the Attorney General's Advisory 
Committee on American Indian/Alaska Native Children Exposed to Violence 
emphasized this very point:

        Congress and the executive branch shall direct sufficient funds 
        to AI/AN tribes to bring funding for tribal criminal and civil 
        justice systems and tribal protection systems into parity with 
        the rest of the United States and shall remove barriers that 
        currently impede the ability of AI/AN nations to effectively 
        address violence in their communities. The Advisory Committee 
        believes that treaties, existing law, and trust 
        responsibilities are not discretionary and demand this 
        action.\1\
---------------------------------------------------------------------------
    \1\ U. S. Department of Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention. (2014). Attorney 
General's Advisory Committee on American Indian/Alaska Native Children 
Exposed to Violence: Ending violence so children can thrive (p. 51). 
Retrieved from http://www.justice.gov/sites/default/files/
defendingchildhood/pages/attachments/2014/11/18/finalaianreport.pdf.

    As this recommendation suggests, Congress must prioritize the 
safety and well-being of all children. According to the advisory 
committee, ``AI/AN children are generally served best when tribes have 
the opportunity to take ownership of the programs and resources they 
provide.'' \2\ The recommendations below suggest funding increases that 
will provide tribes with sufficient child welfare funding and avoid 
unnecessary restraint on tribal decisionmaking. We urge Congress, as 
they make budgetary decisions for fiscal year 2016, to not forget AI/AN 
children and families.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
                    priority program recommendation
    Indian Child Protection and Family Violence Prevention Act 
Recommendation.--Appropriate for the first time $43 million for the 
three grant programs under this law--$10 million for the Indian Child 
Abuse Treatment Grant Program, $30 million for the Indian Child 
Protection and Family Violence Prevention Grant Program, and $3 million 
for the Indian Child Resource and Family Service Centers Program to 
protect AI/AN children from child abuse and neglect.
    The Indian Child Protection and Family Violence Prevention Act 
(ICPFVPA), Public Law No. 101-630 (1991), was enacted to fill gaps in 
tribal child welfare services--specifically child protection and child 
abuse treatment--and to ensure better coordination between child 
welfare and domestic violence programs. The act authorizes funding for 
two tribal programs: (1) the Indian Child Protection and Family 
Violence Prevention Program, which funds prevention programming and 
supports investigations of family violence and emergency shelter 
services; and (2) the Treatment of Victims of Child Abuse and Neglect 
program, which funds treatment programs for victims of child abuse. It 
also authorizes funding to create Indian Child Resource and Family 
Service Centers at each of the BIA regional offices.
    Child abuse prevention funding is vital to the well-being and 
financial stability of AI/AN communities. Beyond the emotional trauma 
that maltreatment inflicts, victims of child maltreatment are more 
likely to require special education services, more likely to be 
involved in the juvenile and criminal justice systems, more likely to 
have long-term mental health needs, and have lower earning potential 
than their peers.\3\ Financially, child maltreatment costs tribal 
communities and the United States $210,012 per victim.\4\ Child abuse 
prevention funding is essential, therefore, to the well-being of 
families and the social and economic development of tribal communities.
---------------------------------------------------------------------------
    \3\ Fang, X., Brown, D. S., Florence, C. S., & Mercy, J. A. (2012). 
The economic burden of child maltreatment in the United States and 
implications for prevention. Child Abuse & Neglect, 36, 156-65. doi: 
10.1016/j.chiabu.2011.10.006.
    \4\ Ibid.
---------------------------------------------------------------------------
    Therefore, tribes, like States, need adequate resources to 
effectively prevent and respond to family violence in their 
communities. However, unlike States, tribes do not have access to the 
key Department of Health and Human Services (DHHS) child protection 
programs, the Child Abuse Prevention and Treatment Act (CAPTA) Basic 
Funding Program and the Social Services Block Grant (Title XX). The 
programs authorized under ICPFVPA were created to fill this gap but, 
without appropriation, tribes are left without funding for child 
protection and child abuse prevention services.
                     other program recommendations
    ICWA Funding Recommendation.--Increase the ICWA On or Near 
Reservation Program appropriations by $2.5 million and the Self-
Governance and Consolidated Tribal Government ICWA On or Near 
Reservation appropriations by $2.5 million, for a total increase of $5 
million to help tribes meet the needs of their communities. Appropriate 
an additional $5 million for the authorized, but unfunded, Off-
Reservation ICWA Program to ensure ICWA protects all children.
    As the Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence recently stated ``If AI/AN 
children today are to be provided with a reliable safety net, the 
letter and spirit of [the Indian Child Welfare Act] must be enforced.'' 
\5\ ICWA provides protections to AI/AN families in State child welfare 
and judicial systems. It also recognizes the sovereign authority of 
tribal nations to provide child welfare services and adjudicate child 
welfare matters. To effectuate these provisions, ICWA authorized grant 
programs to fund child welfare services on or near reservations and for 
ICWA support in off-reservation, urban Indian programs.
---------------------------------------------------------------------------
    \5\ U. S. Department of Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention. (2014). Attorney 
General's Advisory Committee on American Indian/Alaska Native Children 
Exposed to Violence: Ending violence so children can thrive (p. 75). 
Retrieved from http://www.justice.gov/sites/default/files/
defendingchildhood/pages/attachments/2014/11/18/finalaianreport.pdf.
---------------------------------------------------------------------------
    ICWA funding is the foundation of most tribal child welfare 
programs. Compliance with the letter and spirit of ICWA necessitates 
adequate funding so that tribal child welfare programs can monitor 
State court proceedings and provide community-based, culturally 
appropriate services to children and families. At the time that ICWA 
was passed in 1978, Congress estimated that between $26 million--$62 
million would be required to fully fund tribal child welfare programs 
on or near reservations (S. Rep. No. 95-597, p. 19 (1977)). Even after 
an important fiscal year 2015 increase, for which we thank Congress, 
current funding levels fall far short of this estimate--especially 
after adjusting for inflation. Funding must be increased by an 
additional $5 million dollars, $2.5 to the On-Reservation program and 
$2.5 million for the Tribal Priority Allocation.
    According to the 2010 Census, 67 percent of AI/AN people lived off-
reservation. These children and families are best served when State 
child welfare systems are not only working with the child's tribe, but 
also with urban Indian child welfare programs. These programs provide 
assistance to States and the child's tribe, and provide culturally 
appropriate child welfare services. For this reason, ICWA authorizes 
child welfare funding for urban Indian programs. When funded (until 
1996), off-reservation programs provided important services such as 
recruitment of Native foster care homes, child abuse prevention 
efforts, and culturally appropriate case management and wraparound 
services. When funding stopped, the majority of these programs 
disintegrated even as the population of AI/AN children off-reservation 
increased. This funding must be reinstated. We recommend a $5 million 
appropriation for this program.
    Welfare Assistance Recommendation.--Increase current funding levels 
to $80 million to provide a safety net for Native families and assist 
grandfamilies and other kinship caregivers in tribal communities.
    The Welfare Assistance line item provides five important forms of 
funding to AI/AN families: (1) general assistance, (2) child 
assistance, (3) non-medical institution or custodial care of adults, 
(4) burial assistance, and (5) emergency assistance. These programs 
often provide the assistance necessary to help a family make ends meet, 
prevent neglect, and keep their children safely in the home. Currently 
the need far exceeds the funding provided by this program.
    AI/AN adults on reservations--including parents and kinship 
caregivers--are unemployed at a rate more than two times the 
unemployment rate for the total population.\6\ Thirty-four percent of 
AI/AN children live in households with incomes below the poverty line 
as compared to 20.7 percent of children nationwide.\7\ AI/AN families 
live much closer to financial crisis than the average American family. 
AI/AN child welfare programs and social service agencies need to have 
the resources necessary to support families in times of crisis and 
uncertainty to promote stability and prevent abuse. In light of these 
identified needs and current underfunding, funds should be increased by 
$5 million to provide tribal governments the resources they need to 
support families and children in crisis.
---------------------------------------------------------------------------
    \6\ Stegman, E. & Ebarb, A. (2010). Sequestering opportunity for 
American Indians/Alaska Natives. Center for American Progress. (Para. 
1). Retrieved from https://www.americanprogress.org/issues/poverty/
news/2013/11/26/80056/sequestering-opportunity-for-american-indians-
and-alaska-natives/.
    \7\ U. S. Department of Health and Human Services, Health Resources 
and Services Administration, Maternal and Child Health Bureau. (2013). 
Child health USA 2012 (p. 9). Rockville, MD: Author.
---------------------------------------------------------------------------
    Social Services Recommendation.--Increase funding by $6 million as 
recommended by the President's proposed Tiwahe Initiative for a total 
appropriation of $47 million so that child social services programs and 
families in Indian Country can be strengthened.
    The BIA Social Services Grant Program provides a wide array of 
family support services filling many funding gaps for tribal programs, 
and ensuring Federal staff and technical assistance for these programs. 
These funds are desperately needed. A recent assessment of BIA social 
services found that, in large part due to inadequate funding:

        BIA and tribal social services staff prepare, authorize, and 
        document various social services activities as part of their 
        daily activities. Some tribes reported frequent vacancies and 
        staff turnover in social services programs and mentioned a need 
        for BIA to provide basic guidance and supporting materials to 
        ensure continuity of services throughout tribal communities . . 
        . Technical support is one area where roles and 
        responsibilities remain unclear, as demonstrated by BIA's 
        social services contracts with tribes. The contracts, or annual 
        funding agreements, State that BIA will provide technical 
        support with social services issues as needed. Contrary to 
        these agreements, we uncovered reports of insufficient or 
        nonexistent technical support. In some cases, tribes could wait 
        up to three weeks before receiving a response, or they might 
        receive no response at all.\8\
---------------------------------------------------------------------------
    \8\ Department of the Interior, Office of Inspector General. 
(2012). Management of social services in BIA: Opportunity for action 
(Report No. WR-EV-BIA-0001-2012). (pp. 5-6) Retrieved from http://
www.doi.gov/oig/reports/upload/WR-EV-BIA-0001-2012Public.pdf.

    As this assessment describes, the program is drastically 
underfunded, and tribal programs, families, and children suffer as a 
result. In fiscal year 2015 this program saw a $5 million increase. 
This is to be commended and the momentum must continue. Another $6 
million must be appropriated for this program, as suggested in the 
President's budget to support the Tiwahe (family) Initiative--children 
and families depend on it.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
    Chair Murkowski and Ranking Member Udall:

    I am Sharon Megdal, Director of the University of Arizona Water 
Resources Research Center. Thank you for this opportunity to submit 
this testimony on behalf of the National Institutes for Water Resources 
(NIWR) in support of the Water Resources Research Act program, a 
program funded as part of the U.S. Geological Survey's budget. I 
specifically want to thank you for this subcommittee's strong 
continuing support for the Water Resources Research Act.
    The Water Resources Research Act, enacted in 1964, is designed to 
expand and provide more effective coordination of the Nation's water 
research. The Act establishes water resources research institutes 
(Institutes) at lead institutions in each State, as well as for 
Washington D.C., Guam, Puerto Rico, the Virgin Islands, the Federated 
States of Micronesia, the Commonwealth of the Northern Mariana Islands 
and American Samoa.
    Congress created the Institutes to fulfill three main objectives:
  --Develop, through research, new technology and more efficient 
        methods for resolving local, State and national water resources 
        challenges;
  --Train water scientists and engineers through on-the-job 
        participation in research; and
  --Facilitate water research coordination and the application of 
        research results through the dissemination of information and 
        technology transfers.

    Since 1964, the Water Resources Research Institutes have fulfilled 
these three objectives in partnership with the U.S. Geological Survey. 
The Institutes, managed by a director in each State, promote water-
related research, education, and technology transfer at the national, 
State, and local level through grants and sponsored projects. The 
program is the only federally mandated research network that focuses on 
applied water resource research, education, training, and outreach.
    The Water Resources Research Institutes program is a State-based 
network dedicated to solving problems of water quantity (supply) and 
quality in partnership with universities, local governments, the water 
industry, and the general public. Each State contributes a minimum of a 
2:1 match, thus ensuring that local and regional priorities are 
addressed and the impact of Federal dollars is maximized. The 
Institutes are a direct, vital link between Federal water interests and 
needs and the expertise located within the States' research 
universities.
    The Water Resources Research Institutes program also provides a 
mechanism for ensuring State, regional, and national coordination of 
water resources research, future water professionals' education, and 
dissemination and utilization of results and outcomes. In fact, the 
Institutes collaborated with 150 State agencies, 180 Federal agencies, 
and more than 165 local and municipal offices.
    There are two grant components of the USGS Water Resources Research 
Institutes program. The first component is the base grant program, 
which is divided equally among the Institutes. Institutes use these 
funds to leverage research and/or student training through a statewide 
competitive grants process. NIWR requests the subcommittee provide 
continued funding for the base grant program, which supports research 
focused on water supply and quality, technology transfer, education, 
and outreach to the water-user community by the Institutes. The base 
program provides seed grants, which are used to develop future research 
proposals and secure additional external funds.
    The second grant component is a national competitive grants 
program, supporting research on water resources problems that are 
regional or national in nature. In 2014 this program received 68 
applications, which underwent rigorous peer review from a national 
panel. The national review panel selected a total of 4 grants. The 
agency awarded grants for research addressing water supply and quality 
issues facing our Nation to Purdue University, the University of Iowa, 
the University of Maryland, and the University of Nebraska.
    The Institutes specialize in identifying problems within their 
States, developing solutions to those problems, and engaging with the 
public to implement those solutions. One of the program's greatest 
strengths is that the research funded by each Institute is tailored to 
that State's needs, based on priorities set through consultation with 
an advisory panel. While these projects usually focus on State needs, 
they also address water issues relevant to our Nation. The following 
are five examples of research conducted by Institutes across the 
country.
    My Institute, the University of Arizona Water Resources Research 
Center (WRRC), is an Extension and research unit in the College of 
Agriculture and Life Sciences. Groundwater has been and continues to be 
a critical water resource for Arizona and the Nation. Over the years, 
Water Resources Research Act (WRRA) funding has supported considerable 
work on groundwater quantity and quality. Projects have looked at 
specific contaminants to determine their potential distribution and 
impacts, to then develop innovative and affordable methods of 
remediation.
  --A 2013 project continued development and testing of a novel 
        approach that uses multiple models to quantify uncertainty in 
        future hydrologic conditions, along with economic cost models 
        to quantify the risk associated with water resource scarcity.
  --A 2014-2015 project investigates groundwater governance practices 
        in order to examine how they contribute to improved groundwater 
        management. For this project, WRRA funding, which was highly 
        leveraged by considerable State funding, supported case study 
        research by a graduate student, who also helped prepare the 
        journal article, ``Groundwater Governance in the United States: 
        Common Priorities and Challenges''.
  --In addition, WRRA funding is critical to the University of Arizona 
        Water Resources Research Center's highly regarded information 
        transfer activities, which focus on making water resources 
        science and information accessible to stakeholders in Arizona, 
        nationally, and beyond.
    In 2015, the Alaska Water Center sponsored the first comprehensive 
effort to assess stream temperature regimes across Southeast Alaska. In 
a project funded through the University of Alaska--Fairbanks Water and 
Environmental Research Center, a team of researchers at the University 
of Alaska Southeast will install 50 monitoring sites to evaluate stream 
temperatures under varying land use, geologic, hydrologic and climatic 
conditions. As the reproductive success of Pacific salmon is highly 
sensitive to stream temperature in the spawning grounds, understanding 
the factors impacting Southeast Alaska stream temperatures will promote 
more effective fisheries planning and management in the future.
    For decades, the New Mexico Water Resources Research Institute has 
played an instrumental role in helping to design water policy and 
manage resources in the State. Recently, the Institute began developing 
New Mexico's first comprehensive integrated statewide water assessment 
that will be used to address the State's water scarcity problems, help 
with the State's planning and management efforts, and inform the 
State's water policy decisions. The Institute will also soon be 
providing information supporting the development of groundwater flow 
and hydrochemical models that assist in water-resource planning along 
the New Mexico/Texas/Mexico border region.
    The California Water Center is working with fruit and wine growers 
to help maximize crop yields with a minimum amount of irrigation. As 
this subcommittee knows, competition for water resources in California 
is increasing between urban and agricultural entities, necessitating 
the need for more accurate information on the water requirements of 
important crops. Knowledge of a crop's water footprint allows for 
informed irrigation management decisions. The research funded by WRRA 
investigates the drought responses, water footprint, and wine quality 
through the imposition of water deficits to increase understanding of 
water use and fruit quality for specific cultivars, therefore allowing 
growers to apply a minimum amount of irrigation water to sustain 
profitable production levels.
    Recently, the Tennessee Water Resources Research Center supported a 
project at the University of Tennessee aimed at developing planning 
tools to prioritize locations for stream restoration projects. The work 
will especially assist smaller municipalities to plan and implement 
stormwater controls and stream improvements. Stream restoration is a 
billion-dollar industry that results in healthier waterways within 
communities as evidenced by improved water quality and greater 
biodiversity.
    For five decades the Institutes, in partnership with USGS, have 
provided significant research results and services to our Nation and 
proven successful at bringing new water professionals into the work 
force. The National Institutes for Water Resources recommends the 
subcommittee provide $8,800,000 to the USGS for the Water Resources 
Research Institute program for fiscal year 2016. We respectfully submit 
that, even in times of fiscal challenges, investing in programs at USGS 
focused on data collection and the reliability and quality of water 
supplies is critically important to the health, safety, quality of 
life, and economic vitality of communities across the Nation.
    Thank you, on behalf of all the Institute directors, for the 
opportunity to submit testimony and for the subcommittee's strong 
support of the Water Resources Research Institutes program.
                                 ______
                                 
    Prepared Statement of the National Onsite Wastewater Recycling 
                              Association
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, thank you for the opportunity to submit testimony 
regarding the proposed Environmental Protection Agency fiscal year 2016 
budget. My name is Tom Fritts and I am the vice president of 
Residential Sewage Treatment Company of Grandview Missouri, near Kansas 
City. I am also the past president of the National Onsite Wastewater 
Recycling Association. The purpose of my testimony is to request 
increased funding for our industry from the Environmental Protection 
Agency, specifically from the Clean Water State Revolving Fund program 
and from the EPA Office of Wastewater.
    I would first like to describe what the onsite industry is. It is 
the segment of the wastewater industry which provides sewage treatment 
when there is no conventional sewer available to do so. The most widely 
known onsite systems within our industry are septic tanks; however, it 
encompasses a wide range of technologies which are designed to serve 
individual homes, a cluster of homes, a subdivision or small community, 
as well as commercial and industrial complexes. While there are slight 
differences in definition, onsite systems are also called decentralized 
or distributed wastewater treatment systems.
    Regardless of the type of system, they all share a common trait. 
They take advantage of the vast capacity of soil to remove or transform 
pollutants that are in the effluent as it percolates through the soil, 
thereby avoiding point discharges to surface waters and maintaining the 
quality and quantity of our groundwater.
    By definition, onsite wastewater management systems are a ``green 
technology'' because treated effluent recharges local aquifers. A new 
innovation in decentralized wastewater management is the reuse or 
recycling of treated effluent. With appropriate safeguards, local 
regulations or bylaws may allow the treated water to be used for 
irrigation, toilet and urinal flushing or make-up water for commercial 
boilers. These applications reduce the demand for potable water and aid 
in the protection and preservation of the available water sources.
    Ours is a growing and evolving industry supported by small 
businesses across the country. In fact, our organization estimates that 
the onsite wastewater industry employs as many as 150,000 people, 
virtually all of whom work for small businesses in the private sector. 
These include not only the companies which manufacture the components 
of the onsite system, but also the engineers who design the systems and 
the contractors who install, operate, and maintain them.
    More than 65 years ago, my father-in-law who started the family 
business (which is now in the 3rd generation) would talk about 
installers who would dig septic tank excavations with a shovel. Most 
anyone with a strong back could be in the business. Today it takes 
someone with a strong mind, an entrepreneurial spirit and a knack for 
running a small business.
    In my lifetime I have seen the humble back yard septic tank evolve 
into a range of sophisticated wastewater treatment solutions that lets 
families live wherever they want and lets businesses locate nearby to 
serve them, and even provides entire communities with options for 
treating wastewater so they don't have to automatically default to an 
expensive and disruptive sewer project. In fact, I have even begun to 
see utilities start to utilize decentralized treatment systems as 
distributed infrastructure within their utility service area.
    Onsite and decentralized wastewater treatment systems are an 
effective solution to protecting water quality. They are a valuable 
component of watershed management plans and sustainable development 
programs. Onsite and decentralized wastewater treatment systems can 
benefit both urban and rural areas by providing affordable solutions 
and reducing risk to the environment in unusual situations and 
difficult locations. These systems can provide optimal water management 
to homes, businesses and industrial centers. Their recycling capability 
can support water resource management goals in many arid areas of the 
country.
    Their use can support municipal wastewater treatment infrastructure 
by providing options for pretreatment and sewer mining, thus offering 
an alternative when centralized plants have reached or exceeded 
capacity. In addition, increasing numbers of utilities are viewing 
decentralized wastewater treatment as a critical component of their 
future growth strategies, because they add sustainability and 
resilience to their infrastructure while providing them with a modular, 
and cost-effective growth option that reduces their reliance on 
traditional centralized treatment facilities. As society demands more 
efficient use of financial resources and environmentally sustainable 
wastewater management, the use of managed decentralized wastewater 
treatment systems can be an effective solution which satisfies both 
imperatives.
    For smaller communities, decentralized and onsite systems can 
usually be built and maintained for less money than a centralized 
sewage treatment facility. Virtually any treatment technology employed 
in a centralized sewage treatment plan can be found in onsite 
wastewater treatment systems. In fact, onsite systems can be designed 
to provide equal or better levels of treatment as compared to 
conventional sewage treatment plants.
    There is one other very important benefit . . . they safely help 
replenish our dwindling underground aquifers through recharge of 
treated water onsite. While homeowners and many centralized sewage 
treatment systems draw their drinking water from underground aquifers, 
only onsite systems are designed to replenish aquifers. Most 
centralized sewage treatment systems discharge their treated water 
directly to rivers or streams where it ultimately ends up in an ocean. 
Using U.S. Census numbers from 2010 it can be estimated that onsite 
wastewater systems discharge an average of 9.9 billion gallons of water 
per day back to the soil. That is more than 3.5 trillion gallons per 
year.
    Nearly 85 million Americans--more than 25 percent of the country--
are being served by the onsite industry and that number is growing. 
Because of this, technology has exploded. It sometimes reminds me of 
the computer industry of 30 years ago. There are many new decentralized 
technologies which have come online which treat wastewater in ways 
which are cheaper and more efficient and effective.
    In fact, nearly two decades ago the Environmental Protection Agency 
endorsed onsite wastewater systems. Their 1997 Report to Congress on 
Use of Decentralized Wastewater Treatment Systems stated that this 
technology is a viable solution to treating and dispersing wastewater.
    Sadly, despite EPA's recognition that onsite wastewater treatment 
systems are a permanent part of our Nation's wastewater infrastructure, 
EPA has largely ignored the myriad challenges faced by our industry. 
Among these challenges are homeowner education, technical support, lack 
of support for research, replacement of failing systems and 
professional education.
    If I have convinced you that we are an important part of the 
solution to aquifer depletion, small business growth, infrastructure 
development and protection of public health and the environment, I'm 
sure you are curious to hear how much money we want . . . We don't want 
any. . . .  At least we don't want any new money.
    We have two requests. Currently more than 99.5 percent of the EPA 
Clean Water State Revolving Fund goes to municipal wastewater and 
stormwater projects. Less than \1/2\ of 1 percent goes to onsite 
wastewater activities--in spite of the fact that more than 25 percent 
of the country is served by these systems. This pattern of funding has 
been consistent all the way back to the start of SRF funding in the 
early 1990s. We believe it is fundamentally unfair that for more than 
two decades, the 85 million taxpayers who use onsite systems have been 
subsidizing the government-owned treatment plants that serve the rest 
of the country. The challenges faced by our industry are no less 
important or urgent than those faced by municipal utilities.
    The fact that they require a different set of solutions does not 
diminish the need to address them.
    For fiscal year 2016 and beyond we request that at least 20 percent 
of EPA's annual contribution to the Clean Water State Revolving Fund be 
specifically designated to fund projects related to the construction, 
management or remediation of onsite and decentralized wastewater 
treatment systems and the 85 million taxpayers who use them. We further 
request that those funds be designated for disbursement and 
distribution by the authority in each State which has direct regulatory 
oversight and enforcement authority over residential onsite wastewater 
treatment plants.
    Second, EPA has exactly one full-time employee (FTE) who focuses on 
Decentralized Wastewater. We would like to see at least 20 percent of 
the Office of Wastewater's funding be dedicated to increasing staffing 
and resources for the Office of Decentralized Wastewater. Among the 
specific requests:
  --Place at least one FTE in each EPA regional office to specifically 
        support State and regional initiatives involving decentralized 
        wastewater treatment.
  --Add at least one ``circuit rider'' with expertise in decentralized 
        wastewater to each region to support decentralized wastewater 
        project planning and implementation, regardless of the funding 
        source (i.e. USDA, HUD, etc.).
  --Designate a specialist in the EPA Clean Water State Revolving Fund 
        Branch to assist State funding authorities in revising policies 
        and project scoring systems to ensure fair inclusion of onsite/
        decentralized systems.
  --Designate a second specialist in the EPA Clean Water State 
        Revolving Fund Branch to proactively assist communities seeking 
        funding for decentralized projects in navigating the often 
        confusing maze of rules and regulations surrounding CWSRF and 
        other sources of Federal funds.
  --Significantly expand EPA's training of industry professionals 
        through grants to entities which exclusively specialize in 
        decentralized training.
  --Provide increased direct financial support to the National 
        Environmental Service Center and the Small Flows clearinghouse 
        so that homeowners, business owners and industry professionals 
        have an up-to-date source of information related to onsite and 
        decentralized technology.
  --Provide funding for EPA's Septic Smart program so that its 
        materials can be more easily distributed to homeowners.
  --Provide direct financial and staff support to State onsite 
        wastewater regulators to facilitate increased training of 
        industry regulators and mechanisms to support better 
        enforcement of State onsite regulations.
  --Expand research grants and onsite wastewater training centers and 
        demonstration projects to help local decision-makers and design 
        engineers better understand the benefits of onsite and 
        decentralized wastewater treatment systems and technologies.

    On behalf of the National Onsite Wastewater Recycling Association 
and the onsite industry we thank you for your time.
                                 ______
                                 
   Prepared Statement of the National Opera Center of America (OPERA 
                                America)
    Ms. Chairman and distinguished members of the subcommittee, OPERA 
America is grateful for the opportunity to submit testimony on behalf 
of OPERA America, its board of directors and its 2,000 organizational 
and individual members. We strongly urge the Subcommittee on Interior, 
Environment, and Related Agencies in the Committee on Appropriations to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2016. This testimony and the funding 
examples described below are intended to highlight the importance of 
Federal investment in the arts, so critical to sustaining a vibrant 
cultural community throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. OPERA America's membership includes 132 
professional company members representing 41 States. Sixty-six percent 
of these companies were established after 1970 and over 46 percent were 
established since 1980, indicating the growth of opera throughout 
America over the last 45 years.
    In the 2013-2014 season, OPERA America members were involved with 
37 world premieres. Since 1900, 950 new operatic works have been 
produced by professional opera companies in North America. Of that, 478 
new operatic works have been produced since 2000. The growth in number 
and quality of American opera corresponds directly to the investment of 
the NEA's earlier investment in the New American Works program of the 
former Opera-Music Theater Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools extend the civic reach of opera 
companies as they introduce children to a multi-media art form and 
discover promising young talent.
The NEA is a great investment in the economic growth of every community
    Despite diminished resources, including a budget that has decreased 
by over $20 million since 2010, the NEA awarded more than 2,100 grants 
in 2014, totaling more than $100 million in appropriated funds. These 
grants nurture the growth and artistic excellence of thousands of arts 
organizations and artists in every corner of the country. NEA grants 
also preserve and enhance our Nation's diverse cultural heritage. The 
modest public investment in the Nation's cultural life results in both 
new and classic works of art, reaching the residents of all 50 States 
and in every congressional district.
    The return of the Federal Government's small investment in the arts 
is striking. In 2013, the American creative sector was measured by the 
Federal Bureau of Economic Analysis (BEA). The BEA and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 4.3 percent (or $699 billion) of current-
dollar GDP in 2012. Additionally, the nonprofit performing arts 
industry generates $135.2 billion annually in economic activity, 
supports more than 4.13 million full-time equivalent jobs in the arts, 
and returns $9.59 billion in Federal taxes.
    On average each NEA grant leverages at least $9 from other State, 
local, and private sources. Few other Federal investments realize such 
economic benefits, not to mention the intangible benefits that only the 
arts make possible. Even in the face of cutbacks in the recent years, 
the NEA continues to be a beacon for arts organizations across the 
country.
    The return on investments is not only found in dollars. In 2012, 
2.2 million people volunteered 210 million hours with arts and cultural 
organizations, totaling an estimated value of $5.2 billion--a 
demonstration that citizens value the arts in their communities.
NEA Grants at Work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    The NEA awarded nearly 2,000 grants last year through its largest 
grant programs, to nonprofit arts organizations for projects that 
encourage artistic creativity and that bring the arts to millions of 
Americans. In a striking example of Federal/State partnership, 40 
percent of NEA's program dollars are granted to State arts agencies, 
conditional on each State devoting its own appropriated funds. These 
grants, combined with State legislative appropriations and other 
dollars, are distributed widely to strengthen arts infrastructures and 
ensure broad access to arts.

    The following are some examples of the impact of NEA funding on 
opera programs from the NEA's 2014 and 2015 Art Works Program:
Santa Fe Opera
$75,000
Santa Fe, New Mexico
    To support the world premiere of Cold Mountain by composer Jennifer 
Higdon and librettist Gene Scheer. Initially inspired by Homer's 
Ulysses, Charles Frazier's novel, Cold Mountain, tells the story of a 
Confederate soldier who is wounded, deserts the army, and returns home 
to reunite with the woman he left behind when he enlisted to fight in 
the Civil War. Performances will be presented at the John Crosby 
Theatre.
Opera Memphis
$30,000
Memphis, Tennessee
    To support ``30 Days of Opera.'' Launched in 2012 as an outreach 
initiative with the goal of breaking down barriers that prevent new 
audiences from attending opera, the festival has successfully reached 
more than 50,000 people with more than 100 performances in at least 80 
different locations. The project includes admission-free concerts, 
opera performances for schools, an original children's opera, pop-up or 
guerilla opera performances, and a family day at the opera.
Lyric Opera of Kansas City
$35,000
Kansas City, Missouri
    To support the regional premiere of Silent Night by composer Kevin 
Puts and librettist Mark Campbell. Adapted from Christian Carion's 
screenplay for the film, Joyeux Noel (2005), the Pulitzer Prize-winning 
opera is based on a true story that occurred during one of the 
bloodiest wars in human history. On Christmas Eve, 1914, along the 
western front, peace broke out when the Scottish, French, and German 
troops engaged in combat near the French border, defied their superior 
officers, and agreed amongst themselves to a cease-fire in order to 
celebrate the holiday and bury their dead. Performances took place at 
the Kauffman Center for the Performing Arts in February and March.
New Orleans Opera Association
$12,000
New Orleans, Louisiana
    To support Verdi's Falstaff. Outreach activities will include an 
artist roundtable, free ``Nuts and Bolts'' opera lectures prior to each 
performance, and multimedia study guides that will be distributed to 
public, private, and charter schools in the region. The production will 
make use of video projection technology for scenic design.
Long Beach Opera
$30,000
Long Beach, California
    To support the U.S. premier of Marilyn Forever by composer Gavin 
Bryars and librettist Marilyn Bowering. Based on Bowering's book of 
poetry, Anyone Can See That I Love You, the work explores the life and 
myth of Marilyn Monroe. The opera will go beyond the American icon's 
persona to reveal a portrait of an intelligent woman filled with 
conflicting emotions and ambitions. The semi-classical composition 
pairs orchestral music with a jazz trio.
    Over 50 million people experienced opera on stage, via radio and 
TV, in cinemas, and at stadiums, parks and alternative venues through 
one of OPERA America's Professional Company Members in the 2012-2013 
season. The collective expenses of member opera companies totaled over 
$1 billion. Total government support, including city, county, State, 
and Federal, amounted to $118 million, representing 10 percent of total 
operating income.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million since 2010, leaving its programs 
seriously underfunded. We urge you to continue toward restoration and 
increase the NEA funding allocation to $155 million for fiscal year 16.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Chairwoman Murkowski, Ranking Member Udall, and members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of National Parks Conservation Association (NPCA). Founded in 
1919, NPCA is the leading national, independent voice for protecting 
and enhancing America's National Park System for present and future 
generations. On behalf of our one million members and supporters from 
every State in the union, I greatly appreciate the opportunity to 
provide our views regarding the National Park Service budget for the 
System's centennial year.
    NPCA requests for fiscal year 2016 appropriated funding for the 
National Park Service of $3,047,707,000, which is equal to the 
President's appropriated request, but rejecting his request to reduce 
National Heritage Area funding by $9,737,000. This includes NPCA's 
priorities this year of meeting the President's request for:
  --$239 million in restored funding for park operations;
  --$113 million in restored funding for construction; and
  --a $40 million increase in appropriated funds for the Centennial 
        Challenge.

    This is a critical time for our National Park System and the 
National Park Service, which celebrate their 100th birthday next year. 
Our parks, though beloved by Americans from all walks of life and 
celebrated worldwide, are under significant financial strain. The 
centennial of this national treasure is a time to redouble our 
commitment to our national parks, local economies, and to the future 
generations for whom we hold them in trust.
    We are hopeful that Congress will be able to address this year's 
budget and appropriations cycle through a more orderly and reasonable 
process than has too frequently been the case in recent years, yet are 
fearful that the Interior bill could once again face challenges. We 
acknowledge the tremendous challenge the subcommittee faces in setting 
thoughtful spending priorities for the varied Federal agencies and 
programs under its jurisdiction, and are grateful for your consistent 
support for national parks given the constraints you face. NPCA 
believes the allocation provided to the subcommittee in recent years 
has been insufficient and emblematic of the unfortunate squeeze that is 
being forced on domestic discretionary funding in general. NPCA will 
continue to be a leader in calling for that to change. We are grateful 
to the full committee for helping to ensure the subcommittee had the 
resources to cover programs like Payments In Lieu of Taxes (PILT) in 
fiscal year 2015, which was essential to the modest increase you were 
able to provide our parks. That said, we believe:
  --the sequester must be repealed and, at a minimum, the original 
        Budget Control Act (BCA) caps restored;
  --the Wildfire Disaster Funding Act should be enacted; and
  --the Interior subcommittee allocation is unlikely to ever be 
        sufficient to meet the full needs of the Land and Water 
        Conservation Fund (LWCF), the National Park System backlog, or 
        the Payments In Lieu of Taxes (PILT) and Secure Rural Schools 
        (SRS) programs, which should receive mandatory support outside 
        of the Interior bill.

    Although the subcommittee clearly is facing challenges, we believe 
our request is modest. To mark the 50th anniversary of the National 
Park System in 1966, President Eisenhower initiated ``Mission 66,'' 
which invested over $1 billion in national park enhancements and 
improvements to visitor facilities throughout the system--$7.2 billion 
in today's dollars. By comparison, the Obama administration's proposed 
new 3-year investment for the centennial is worth \1/7\ of that amount, 
and the $433 million portion they request from this subcommittee for 
fiscal year 2016 is equivalent to 6 percent of what Mission 66 
provided. Adjusted for inflation, the proposed $239 million increase 
for park operations and $113 million increase for construction 
essentially restores park budgets to fiscal year 2010 levels.
    Visitation to our national parks can fluctuate, but rose 7 percent 
from 2013 to 2014, to 292 million people. Joshua Tree, Rocky Mountain, 
Grand Teton and Glacier National Parks saw record-breaking visitation 
in 2014. Visitation is expected to continue to grow with increased 
visibility of our parks for their Centennial, which has obvious 
implications for National Park Service funding needs.
    For many years now, NPCA has shared with the subcommittee the 
impacts of compounded budget cuts on the National Park Service and the 
impacts of those cuts to visitors and communities surrounding national 
parks. We applaud efforts of the subcommittee in fiscal year 2015 in 
securing a $39 million increase in park operations funding, as well as 
a $10 million reinvestment in the Centennial Challenge, first proposed 
by the President George W. Bush administration, and now by President 
Obama, to leverage private donations with Federal dollars.
    However, even with those modest increases, the budget to operate 
our national parks has been cut by nearly 7 percent in today's dollars 
compared to 5 years ago. The National Park Service has experienced 
operations shortfalls ranging from estimates of $500 million to as much 
as $800 million annually. The investment in operations in fiscal year 
2015 provided some relief by addressing fixed cost increases such as 
cost-of-living adjustments for staff, rent, fuel, utility, and 
healthcare benefits. Park managers continue to do the best they can 
with reduced levels of funding to operate and maintain our national 
treasures and saving from employee attrition. However, park managers 
will share with you that operating a park with insufficient staff has 
started to compromise their ability to protect resources from damages 
and provide adequate visitor services. The result of chronic funding 
deficiencies, particularly due to the sequester but not limited to it, 
have been:
  --fewer park rangers and other staff providing day-to-day maintenance 
        of parks;
  --parks and park facilities opening later and closing earlier or more 
        frequently;
  --visitor centers operating with fewer rangers or closing altogether 
        due to lack of staff;
  --compromised science and resource protection and decreased day-to-
        day maintenance;
  --fewer backcountry patrols to ensure visitor safety and prevent 
        poaching and looting; and
  --other impacts that compromise resources and public enjoyment and 
        safety.

    Additionally, over the past decade, the National Park Service 
construction budget has been cut by over $227 million, or 62 percent in 
today's dollars, contributing to the now $11.5 billion deferred 
maintenance backlog. Deficiencies in operations and transportation 
funding have also contributed to the maintenance backlog, with the 
parks receiving about $350 million less than necessary each year to 
keep the backlog from growing.
    Polling we have shared with this subcommittee several times 
conducted by Hart Research Associates and North Star Opinion Research 
indicated that 9 out of 10 likely voters agree that funding for our 
national parks should be held stable or increased. A strong bipartisan 
majority of Americans (73 percent) believe it is important that the 
parks are fully restored and ready for the national park centennial in 
2016. The broad support for our national parks is reflected in the 
membership of the National Park Second Century Action Coalition, which 
NPCA chairs and includes the active membership of a broad cross-section 
of the travel and outdoor industries, historic preservation and 
conservation interests, national park friends groups and other 
philanthropic organizations, park concessioners, and other national 
park supporters.
    NPCA and the coalition advocated, and the Obama administration has 
proposed a multi-year centennial initiative that builds on the one 
proposed by the George W. Bush administration. The administration 
proposes to reinvest in national parks and to begin addressing the 
maintenance backlog both through discretionary and mandatory funding 
approaches. The fact that Presidents Bush and Obama both have supported 
strong centennial efforts provides further evidence of broad, 
nonpartisan support for the parks, which I know this subcommittee 
shares. The question now is: what will Congress do? We sincerely hope 
this subcommittee and your colleagues outside this subcommittee will 
seize this moment to produce a legacy that will be looked upon fondly 
both now and 50-to-100 years from now.
    The proposed $239 million increase for park operations focuses 
predominantly on enhancing cyclic maintenance funding, while also 
enhancing the visitor experience, better connecting young people with 
their natural and cultural heritage, improving the NPS focus on the 
important impacts of the civil rights movement, and helping to ensure 
that park visitors can find a park ranger when they need one. The 
proposed increase of $113 million for the construction account will 
help address the deferred maintenance backlog by supporting the 
replacement and repair of water systems essential to public health and 
the visiting experience, the repair of visitor facilities and trails, 
and the removal of some excess, dilapidated structures.
    Under current allocations established by the BCA and sequester, it 
is difficult to see how this subcommittee will ever be able to address 
the $11.5 billion backlog. So, the administration again proposes, and 
we support, enacting legislation to begin reducing the backlog through 
a mandatory account. An initiative that attacks the backlog would 
produce needed construction jobs while restoring America's treasures. A 
flaw in the administration's proposal, however, is that their budget 
completely ignores the transportation-related half of the backlog. 
Ironically, Mission 66 occurred in the context of investments in the 
Interstate Highway System. Yet, so far, neither the administration nor 
congressional proposals attempt to improve the current $240 million 
allocation for national parks under the transportation bill and reduce 
the backlog.
    On the other hand, the administration was correct to propose 
enacting and funding the Bush administration-proposed Centennial 
Challenge. As we seek to enact legislation to authorize this innovative 
program, we hope the subcommittee is in the position again this year to 
invest discretionary resources to get the Challenge off the ground. By 
building on last year's $10 million investment with the additional $40 
million the administration proposes, the subcommittee can leverage 
scarce Federal dollars to produce even greater non-Federal investments 
for signature projects at parks throughout the country.
    We also support the administration's request of $178 million for 
the National Park Service's portion of the Land and Water Conservation 
Fund, a critical tool for protecting our national parks. Park Service 
LWCF funding has declined from $126 million in fiscal year 2010 to less 
than $100 million in fiscal year 2015, a decline of more than 20 
percent. The administration proposes partially funding LWCF with 
mandatory funds in fiscal year 2016 and providing full funding with 
mandatory funding starting in fiscal year 2017. The acquisition of 
inholdings is directly related to better managing the places in which 
our Nation already has made a significant investment. LWCF boosts 
access and the recreation economy; reduces administrative and 
management costs; reduces the threat of fire and invasive species 
introduction; and has many other benefits.
    We are grateful that this subcommittee has supported two extensions 
of the Federal Lands Recreation Enhancement Act (FLREA), which has 
currently been extended through the end of fiscal year 2016. If not 
reauthorized, public lands could lose over $300 million annually to 
support maintenance, education, and other priority projects, with 
national parks making up about \2/3\ of that amount. The administration 
proposes an extension to September 30, 2017 until a long term 
reauthorization can occur. As NPCA continue to advocate for a long-term 
reauthorization of FLREA with the respective authorizing committees, we 
hope the subcommittee will continue to support annual extensions, as 
necessary. Currently, without reauthorization by September 30, 2015, 
the agencies will lose their authority to issue the annual pass.
    Finally, we reject the administration's request to cut the National 
Heritage Area funding by 50 percent, or $9,737,000, as well as 
specifically realign $650,000 of program budget from the Blackstone 
River Valley National Heritage Corridor to the general National Park 
Service operations account.
    Overall, the budget for the National Park Service constitutes less 
than \1/15\ of 1 percent of the Federal budget, and our research shows 
that the average American household pays roughly as much in income 
taxes for their national parks as it would cost to buy a cup of coffee. 
Now is the time to reinvest in our national parks and prepare them for 
another hundred years of service. Every member of this subcommittee 
understands the deep affection the American people feel for our 
national parks. With the Centennial upon us, it is time to make taking 
care of the national parks a priority. We thank this subcommittee for 
your leadership and are eager to work with you to build on the 
investments made last year, and ensure that our national parks are 
protected for generations to come.
    Thank you again for the opportunity to submit written testimony. I 
am happy to respond to any questions you may have.
                                 ______
                                 
    Prepared Statement of the National Parks Second Century Action 
                               Coalition
    Dear Chairwoman Murkowski and Ranking Member Udall:

    Next year, Americans will celebrate the 100th anniversary of the 
creation of the modern National Park System. We, the members of the 
National Parks Second Century Action Coalition, write in support of 
increasing the Nation's commitment to our national parks for their 
centennial year in the Fiscal Year 2016 Interior, Environment, and 
Related Agencies Appropriations bill. Specifically, we support:
  --A $239 million increase in the operating budget for the National 
        Park Service over fiscal year 2015 levels to restore funds lost 
        over the last several years;
  --A $113 million increase in the construction budget for the National 
        Park Service over fiscal year 2015 levels to help address the 
        deferred maintenance backlog;
  --A $40 million increase for the Centennial Challenge program to 
        continue to leverage Federal funding with private donations to 
        help restore and modernize our parks;
  --The temporary extension of the Federal Lands Recreation Enhancement 
        Act until a longer term reauthorization can occur; and
  --The continued support for legislation to address the financial 
        impacts of wildfire suppression on the Department of the 
        Interior budget.

    The National Parks Second Century Action Coalition is made up of 
organizations supporting conservation, recreation, outdoor industry, 
travel and tourism and historic preservation that are dedicated to 
promoting the protection, restoration, and operation of the National 
Park System to benefit the health and well-being of current and future 
generations.
    We are grateful for the real, though modest, reinvestment in park 
operations funding in fiscal year 2015 and we support an additional 
investment of $239 million in fiscal year 2016 so parks can address 
fixed costs, ensure day-to-day maintenance, advance urban youth 
education initiatives, preserve the Civil Rights Movement, and restore 
lost park ranger positions that maintain, restore and interpret parks. 
In addition, an increased investment of $113 million in the 
construction account will help address the $11.5 billion deferred 
maintenance backlog. These requested amounts return the operations and 
construction budgets to fiscal year 2010 levels prior to the harmful 
sequester.
    An increased investment of the Centennial Challenge program by $40 
million will encourage friends groups, foundations, businesses and 
other non-Federal institutions to help restore our parks. An initial 
Federal investment of $40 million several years ago generated $50 
million in donations.
    We ask for continued support to extend the Federal Lands Recreation 
Enhancement Act until a longer term reauthorization can occur. This 
will allow the National Park Service and other Federal land management 
agencies to retain and use nearly $300 million in critically needed fee 
revenue annually.
    Additionally, we urge your support for the reintroduced Wildfire 
Disaster Funding Act. Passage would provide some necessary funding 
relief to the National Park Service and other Interior agency budgets 
while relieving the Department of the Interior and the U.S. Forest 
Service of the many challenges and inefficiencies with ``fire 
borrowing.''
    As a final note, we recognize that a more substantial investment is 
needed in our national parks as the System turns 100, and thus are 
urging Congress to support the President's request to provide mandatory 
funding to support the Centennial Challenge and address the deferred 
maintenance backlog.
    We recognize and thank you for your ongoing efforts to balance 
limited resources in a difficult fiscal climate. With the National Park 
System Centennial approaching, we ask you to restore funding to our 
national parks to ensure enjoyment for future generations. Our cultural 
and natural heritage, recreational resources, American families who 
love to visit our national parks, and the economies of park-reliant 
communities will all benefit from your commitment to our national parks 
and their gateway communities.
    Thank you for considering our views.

    Sincerely,

Association for Partners for Public Lands
American Forests
American Hiking Society
American Recreation Coalition
Appalachian Trail Conservancy
Coalition of National Park Service Retirees
Conservancy for Cuyahoga Valley National Park
The Corps Network
Destination Marketing Association International
Friends of Acadia
Friends of Big Bend National Park
Friends of Dyke Marsh
Friends of the Oregon Caves and Chateau
Friends of Saguaro National Park
Friends of Valle de Oro National Wildlife Refuge
GirlTrek
Golden Gate National Parks Conservancy
Grand Canyon Association
Hispanic Access Fund
Mount Rushmore Society
National Council on Public History
National Military Family Association
National Parks Conservation Association
National Park Hospitality Association
National Trust for Historic Preservation
National Tour Association
NatureBridge
Nature Fund for National Parks
Outdoor Industry Association
Public Lands Service Coalition
Receptive Services Association of America
The Shenandoah National Park Trust
Student & Youth Travel Association
Travel Professionals of Color
U.S. Travel Association
U.S. Tour Operators Association
Western National Parks Association
Western States Tourism Policy Council
Wolf Trap Foundation for the Performing Arts
      
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairwoman Murkowski, Senator Udall, and other honorable 
members of the subcommittee for the opportunity to submit written 
testimony pertaining to funding for the Land and Water Conservation 
Fund's (LWCF) State Assistance Program and the Urban Parks and 
Recreation Recovery Program (UPARR) in the fiscal year 2016 Interior 
Appropriations bill.
Overview of Funding Request
    As outlined below, we encourage you to renew the Federal investment 
in the LWCF. However, given that the purpose of the Act is to help 
preserve, develop, and assure access to outdoor recreation facilities 
to strengthen the health of U.S. citizens, we urge you to make a 
greater investment in States and local communities by:
  --Allocating a minimum of 40 percent of fiscal year 2016 LWCF 
        appropriations to the State Assistance Program;
  --Continuing the innovative, ``Outdoor Recreation Legacy 
        Partnership'' (ORLP) competitive grant program in the amount of 
        $5 million;
  --Allocating up to $25 million in funding for UPARR out of total 
        fiscal year 2016 LWCF appropriations; and
  --Ensuring that any amount allocated to either the ORLP or UPARR 
        program is not done at the expense of the existing core formula 
        grants distributed to the States for conservation and active 
        recreation.

About the National Recreation and Park Association
    The National Recreation and Park Association (NRPA), is a nonprofit 
organization working to advance parks, recreation and environmental 
conservation efforts nationwide. Our members touch the lives of every 
American in every community every day. Through our network of 
approximately 48,000 citizen and professional members we represent park 
and recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities. Everything we support and do 
is focused through our three pillars: Conservation; Health & Wellness 
and Social Equity.
40 Percent Allocation of Total LWCF Appropriations to the State 
        Assistance Program
    There is a common misconception that LWCF is merely a Federal land 
acquisition program. Nothing could be further from the truth, as the 
LWCF State Assistance Program provides dollar-for-dollar matching 
grants to States and local communities for the construction of outdoor 
recreation projects. The land purchased with LWCF State Assistance 
funding remains the property of the State or local government, and the 
resources developed through the LWCF remain publicly accessible in 
perpetuity.
    The LWCF provides numerous benefits to local communities across 
America, and it does so through a dedicated funding source--namely oil 
and gas leasing revenues from the Outer Continental Shelf (OCS). Over 
$9 billion was provided through these leases in 2013, with a small 
fraction provided to the LWCF. Unfortunately an even more miniscule 
amount is provided to the State Assistance Program. This is in large 
part due to the fact that current law mandates that a minimum of 40 
percent of the total LWCF annual appropriations must be provided to the 
Federal land acquisition program without specifying an amount for the 
State Assistance Program.
    As a result, States and local communities have historically 
received a very disproportionate share of the total LWCF 
appropriations, with little more than 12 percent of total LWCF funding 
going to the State Assistance Program since 1998. More recently, in 
fiscal year 2013, when final discretionary spending was subject to 
``sequestration,'' you provided $305 million overall to the LWCF and 
$39.9 million to the State Assistance Program--also 13 percent. We 
appreciate that you've recently recognized the importance of the State 
Assistance Program and allocated a larger percentage of total LWCF 
appropriations to it in fiscal year 2014 and fiscal year 2015--pre-
sequestration levels of $45 million, which includes the innovative $3 
million ``Outdoor Recreation Legacy Partnership'' competitive grant 
program. However, even with these increases, State Assistance continues 
to receive less than 15 percent of overall LWCF appropriations.
    What we find has gotten lost in the ongoing discussion over the 
reauthorization of the LWCF is, first and foremost, the issue of 
fairness in how LWCF dollars are being distributed. For nearly 50 years 
the bulk of the work to carry out the purpose of the Act has fallen on 
local communities to handle alone. While four-out-of-five Americans 
live in larger metropolitan areas, the LWCF is now only providing about 
13 percent of overall funding to the very program--State Assistance--
which impacts people where they live, and recreate, the most. Urban 
communities, in particular, suffer from the severe lack of resources 
currently provided through the State Assistance program.
    The State Assistance Program is consistently listed as a key tenant 
of the overall LWCF program. We value preserving and providing access 
to our national treasures for all to enjoy, but we want to remind you 
that many treasured areas are NOT located on Federal property.
    We'd like to specifically note that the administration's fiscal 
year 2016 budget request includes a total of $400 million in 
discretionary funding for the LWCF with the current $50 million (12.5 
percent) being allocated for the State Assistance Program continuing 
the pattern of falling well short of a fair and equitable percentage 
being made available for State and local outdoor recreation. We note 
that it would take $160 million of overall LWCF appropriations to State 
Assistance to achieve the 40 percent threshold.
    For the reasons outlined below, we are asking you to empower States 
and local communities to do more to preserve, develop, and assure 
access to outdoor recreation facilities to strengthen our Nation by 
allocating 40 percent of total LWCF appropriations to the State 
Assistance Program in fiscal year 2016.
LWCF State Assistance's Return on Investment and Return on Objective
    One of the key aspects of the LWCF State Assistance Program is the 
ability to create jobs. The outdoor recreation industry, as such is 
supported by LWCF State Assistance, is an economic powerhouse in the 
United States. According to the Outdoor Industry Association, the 
industry generates $646 billion in consumer spending and supports over 
6 million jobs annually.\1\ Considering there are 7,800 State and over 
100,000 locally managed parks throughout the country, it is obvious 
that outdoor recreation is most prevalent at the State and local level. 
In fact, the National Association of State Park Directors reports that 
America's State park system contributes $20 billion to local and State 
economies each year.\2\ There is no doubt, that it is the LWCF State 
Assistance Program that provides the vast majority of places, spaces, 
and opportunities for outdoor recreation which stimulates the outdoor 
industry.
---------------------------------------------------------------------------
    \1\ Outdoor Industry Association, ``The Outdoor Recreation Economy 
Report 2012''.
    \2\ NASPD Annual Report, March 2013.
---------------------------------------------------------------------------
    When viewed through the lens of the importance of the American 
outdoor recreation industry, the LWCF State Assistance Program has, for 
more than four decades, achieved a proven return on investment (ROI) 
demonstrated by the fact that nearly $4 billion in Federal support has 
leveraged over $4 billion additional dollars in matching funds. But the 
benefits of this program, don't stop there, as the State Assistance 
Program has not only provided a ROI, but has also done a tremendous job 
of providing an outstanding return on objective for the American 
taxpayer by ensuring access for all.
    It is well known that not everyone has the ability to visit one of 
our treasured national parks, and even those who do so are unable to on 
a regular basis as national parks are often vacation destinations or 
once-in-a-lifetime trips. To the average American, however, the 
neighborhood park--down the street, open and accessible to the public, 
and without an admission fee--is the most important public space in 
their lives. The majority of our country's public places, spaces, and 
opportunities for outdoor recreation are provided through the State 
Assistance program, with more than 42,000 grant projects covering 
nearly every county across America.
    The LWCF State Assistance Program is the only Federal investment 
tool dedicated to ensuring that Americans have access to close-to-home 
public recreation opportunities. Because the program develops and 
provides local outdoor recreation, millions of Americans, of all ages 
and abilities have places where they can regularly connect with nature, 
be physically active and simply enjoy the outdoors. It is a means by 
which this committee can provide investment to critically important 
local park infrastructure, including: a new soccer field at Sisterhood 
Park in Anchorage, Alaska; enhancements at Bluewater Lake State Park 
near Perwitt, New Mexico; and an accessible playground at Fall Creek 
Falls State Park in Spencer, Tennessee. Each of the aforementioned 
communities benefited from State Assistance grant funding since 2013.
LWCF State Assistance Provides Health and Environmental Benefits
    In addition to creating jobs and ensuring access for all, the LWCF 
State Assistance Program delivers tangible health benefits, 
contributing to the overall health and well-being of Americans. The 
National Park Service recognizes this through its Healthy Parks Healthy 
People U.S. initiative, which aims to increase public recognition of 
parks and public lands (including State, local, and regional park and 
trail systems) as places for the promotion of physical, mental, and 
social health. The CDC reports that childhood obesity has tripled in 
the last 30 years, less than 25 percent of adults engage in recommended 
levels of physical activity, and that obesity is a leading cause of 
chronic disease. As noted by the CDC, increased access to parks, green 
space, and recreation opportunities is essential to becoming a 
healthier Nation and reducing unsustainable healthcare costs.
    The LWCF State Assistance Program also significantly contributes to 
protecting the environment and promoting environmental stewardship. 
LWCF State Assistance projects have a historical record of contributing 
to reduced and delayed storm water runoff volumes, enhanced groundwater 
recharge, storm water pollutant reductions, reduced sewer overflow 
events, increased carbon sequestration, urban heat island mitigation 
and reduced energy demands, resulting in improved air quality, 
increased wildlife habitat, and increased land values on the local 
level.
Revitalizing Urban Parks and Recreation through Funding of UPARR
    While the LWCF has indeed benefited virtually every community in 
the country, many of our Nation's cities and urbanized counties face 
distinct challenges that require additional resources. Recognizing this 
fact as well as the importance of public parks and recreation to larger 
urban renewal and community development efforts, Congress established 
the Urban Parks and Recreation Recovery Program (UPARR) to provide 
matching grants directly to localities in metropolitan areas. Over the 
course of more than two decades UPARR provided $272 million for nearly 
1,500 projects in 380 communities. This enabled neighborhoods across 
the country to restore both outdoor and indoor recreation facilities; 
support innovative recreational programming and enhance delivery of 
services and programs that provided constructive alternatives to at-
risk youth.
    Despite its successes, UPARR has not been funded since fiscal year 
2002, yet many of the urban open space and recreation challenges still 
exist today. NRPA is very pleased to see UPARR in the President's 
fiscal year 2016 budget and calls on Congress to update and fund this 
needed program to enable metropolitan areas to address quality of life, 
health and wellness, and conservation issues as they work to make their 
communities more attractive for families and businesses alike. Both 
LWCF State Assistance and UPARR are critical to providing Americans 
close to home recreation opportunities. The programs complement each 
other and NRPA implores Congress to fund UPARR from total LWCF 
appropriations but not at the expense of the already underfunded State 
Assistance Program.
Maintaining The Outdoor Recreation Legacy Partnership Competitive Grant 
        Program
    The fiscal year 2014 Interior Appropriations package included an 
``additional'' $3 million of funding for a pilot ``Competitive Grant 
Program'' managed under the State Assistance Program. NRPA is pleased 
to have worked with NPS to help craft this pilot initiative and 
believes the first set of grantees will prove successful in 
highlighting the innovative projects and partnerships the State 
Assistance Program provides across America. We support the continuation 
of what is now called, the ``Outdoor Recreation Legacy Partnership'' 
(ORLP) program, provided the funds allocated are not done at the 
expense of the existing core formula grants distributed to the States 
for public recreation.
    Madam Chairman and members of the subcommittee, few programs can 
address so many national priorities as effectively as the LWCF State 
Assistance Program and UPARR, with so few dollars and without 
negatively impacting the Federal budget. This subcommittee and Congress 
have the rare opportunity to achieve national goals without increasing 
spending or adding to the deficit, and can do so by adopting three 
simple recommendations: Allocate a minimum of 40 percent of LWCF 
funding to the State Assistance Program; continue the innovative ORLP 
grant program, and address the need for improved infrastructure in 
urban areas by allocating a portion of the total LWCF funding to UPARR.
    Thank you again for the opportunity to share NRPA's recommendations 
and your consideration of our request.

    [This statement was submitted by Kevin O'Hara, Vice President for 
Urban and Government Affairs.]
                                 ______
                                 
     Prepared Statement of the National Tigers for Tigers Coalition
    Madam Chair and members of the subcommittee:

    On behalf of the National Tigers for Tigers Coalition (T4T), I am 
submitting testimony on behalf of critically important conservation 
programs of the U.S. Fish and Wildlife Service (FWS). Thank you for 
your continued support for USFWS-International Affairs Office and its 
role in protecting international wildlife. We sincerely appreciate the 
opportunity to respectfully request the following appropriations for 
fiscal year 2016:
  --$14.7 million to the FWS International Affairs Office (IA);
  --$11.1 million for the Multinational Species Conservation Funds 
        (MSCFs);
  --$75.4 million to support the FWS Office of Law Enforcement (OLE).

    Tigers for Tigers is a student-led national organization dedicated 
to engaging students and fans of universities with tiger mascots in the 
protection of our majestic and endangered team emblem. Currently active 
in 12 universities across the Nation, T4T is quickly expanding. Our 
goal is to eventually engage all 56 tiger mascot universities 
nationwide--reaching more than 450,000 enrolled college students who 
self identify with their tiger mascot. T4T amplifies this amazing 
school spirit and empowers students and fans to save tigers from the 
loss and fragmentation of habitat and from increasing levels of illegal 
poaching and trafficking.
    Compared to a century ago, tiger habitat has declined by 93 percent 
and tiger populations have plummeted by 97 percent. As a result of such 
crippling losses, it is estimated that only 3,200 tigers remain in the 
wild--mainly in India, Russia and Sumatra. Prized for their beauty and 
admired for their strength, tigers are poached for a variety of 
purposes, including, but not limited to: traditional medicine, 
clothing, food, wine and decoration. Protecting tigers from poachers 
and reducing the demand for tiger parts is critical for their survival.
    The wildlife trafficking and trade crisis is an immediate threat to 
global biodiversity and is an issue of U.S. national security that must 
be addressed without delay. Highly organized and sophisticated crime 
networks around the world are starting to take advantage of this 
lucrative business, which generates an estimated $10 billion annually. 
The resulting revenue is used to support the illegal trafficking of 
both humans and drugs and to fund terrorist activities. Reducing the 
demand for wildlife parts would not only benefit conservation efforts, 
but would also decrease the funds available to crime networks to 
support trafficking and terrorist activities.
    In July 2013, President Obama announced the National Strategy for 
Combating Wildlife Trafficking as part of Executive Order 13684. In 
February 2015, the Presidential Task Force announced the Implementation 
Plan for the National Strategy to focus on strengthening law 
enforcement, reducing demand for illegal wildlife products, and 
increasing cooperation through public and private partnerships. The 
Implementation Plan contains forward-thinking solutions to halt the 
loss of tiger habitat and populations, and we request robust funding to 
support the Executive Order.
FWS--Office of International Affairs (IA)--$14.7 million requested
    The FWS International Affairs Office is responsible for protecting 
and supporting our world's rich biodiversity, flora and fauna through 
landscape conservation programs and the implementation of roughly 40 
international treaties and conventions. The IA office administers an 
extensive grant program and works to conserve species at risk through 
regulation of international wildlife trade.
    Two programs administered under the IA, Wildlife Without Borders 
(WWB) Global and Wildlife Without Borders Regional Programs, support 
groundbreaking conservation programs and foster partnerships with 
governments, agencies, local organizations, and community stakeholders. 
The WWB Global Programs focus on international treaties, partnership 
and grant programs like the Critically Endangered Animals Conservation 
Fund and the Amphibians in Decline Fund. WWB Regional Programs foster 
collaborative efforts with multiple stakeholders to conduct shared 
conservation initiatives abroad in Africa, East Asia, Latin America, 
Russia and Mexico. T4T has been working directly with WWB Global 
Programs Office to promote the Save Vanishing Species postage stamp on 
our tiger mascot campuses. With support from the Global office and 
Clemson University, T4T produced a 25-second public service 
announcement video that was displayed on the jumbo-tron at all home 
football games in 2013 within a stadium of 80,000 cheering tiger fans.
    The U.S. is the second largest consumer of illegal wildlife 
products in the world behind China. In November 2013, FWS hosted an 
Ivory Crush and destroyed 6 tons of confiscated elephant ivory to show 
the international community that the U.S. does not support or condone 
illegal wildlife trade. Immediately after the event, other countries, 
including China, followed the U.S.'s lead and destroyed their 
stockpiles of elephant ivory. To continue taking a leading role on the 
international stage, the U.S. must continue improving our local 
enforcement policies and supporting international conservation 
programs.
    We respectively request the subcommittee to support the President's 
request of $14.7 million for fiscal year 2016 for the FWS's Office of 
International Affairs.
Multinational Species Conservation Funds--$11.1 million request
    The Multinational Species Conservation Funds (MSCFs) of the FWS 
provide crucial funding to support conversation projects for tigers, 
elephants, rhinos, great apes, and marine turtles. These funds finance 
anti-poaching efforts to combat illegal wildlife trafficking, educate 
and incentivize local communities, and finance projects to protect 
critical habitat.
    In fiscal year 2015 Congress allocated $9.1 million to support 
MSCFs. This year, we respectively ask the subcommittee to support an 
$11.1 million budget, an increase in $2 million allocated at the 
President's request to support the African Elephant Conservation Fund 
and the Rhino and Tiger Conservation Fund.
  --The African Elephant Conservation Fund promotes conservation, 
        research, and habitat management for African elephants. At the 
        current rate of 35,000 elephants poached annually for their 
        ivory, the population of 470,000 to 690,000 will face imminent 
        extinction within the next decade.
  --The Rhinoceros and Tiger Conservation Fund, established in 1994, 
        provides funding for education, research and management of 
        species with the objective of conserving rhinos and tigers and 
        decreasing demand for illegal trade of animal parts. In 2014, 
        the FWS funded over 40 projects for $3.2 million, which was 
        leveraged by $5.5 million in additional funds.
    --In Asia, rhino populations are dwindling with fewer than 50 Javan 
            rhinos and 400 Sumatran rhinos remaining in the wild. Every 
            poached one-horned rhino has a significant impact on the 
            remaining populations.
    --The Conservation Fund has improved recovery programs for the 
            3,200 remaining tigers in the wild by helping implement 
            consumer demand reduction strategies and expand wildlife 
            enforcement networks. T4T has worked directly on reducing 
            human-tiger conflicts by funding groups that train female 
            forest guards in Central India to educate their communities 
            about wildlife laws and how to mitigate human-wildlife 
            conflicts.

    In addition to funding landscape conservation projects, 
Multinational Species Conservation Funds also stimulate local 
economies, build long-lasting partnerships between stakeholders and 
provide a growing constituency for international wildlife. Between 2007 
and 2013, $77 million has been appropriated to support MSCFs and 
establish partnerships in more than 54 countries. The more than 2,000 
grants awarded have leveraged $115 million in private and in-kind 
donations.
    MSCFs have consistently received bi-partisan support in Congress 
and the administrations since the program began in the 1990s and we 
request allocation of the President's request of $11.1 million.
Office of Law Enforcement--$75.4 million request
    The FWS Office of Law Enforcement (OLE) is involved in all aspects 
of the agency's efforts to manage eco-systems and promote international 
conservation efforts. The 261 special agents and 140 wildlife 
inspectors are highly involved in combating illegal wildlife 
trafficking, training foreign law enforcement officers, and solving 
wildlife crimes through their forensic labs. Yet despite its proven 
track record of addressing international wildlife crimes, the OLE is 
extremely under-funded and under-staffed and lacks the capacity to stem 
the tide of illegal wildlife products imported into the U.S. through 
shipping ports such as Miami, Los Angles, or New York.
    We commend the international efforts and global operation of 
Operation Cobra 2 in late 2013 that resulted in over 400 arrests and 
350 wildlife seizures in Africa and Asia. We have seen similar success 
in the domestic operation--Operation Crash--conducted in conjunction 
with the Department of Justice. Last year, the FWS in coordination with 
the State Department placed FWS experts in U.S. embassies in Bangkok 
and Dar es Salaam to support wildlife enforcement capacity and to 
coordinate wildlife trafficking investigations with local authorities. 
The fiscal year 2016 Presidential budget proposes to add four more law 
enforcement experts in additional countries, including China.
    It is critical that we continue to fund and support the OLE's 
efforts to catch and disrupt the import, distribution and export of 
illegal wildlife products. The National Strategy to Combat Wildlife 
Trafficking seeks to strengthen legal authorities and enforcement 
capacity, strengthen investigative efforts abroad, increase 
collaboration across agencies, and reduce demand for illegal wildlife 
products. Therefore we respectfully request $75.4 million to support 
the OLE in fiscal year 2016.
    The President has also requested an additional $8 million within 
his fiscal year 2016 budget to be allocated to the FWS to address the 
wildlife trafficking crisis. Most of this funding would be part of the 
$75.4 million for the OLE to fund the expansion of the Fish & Wildlife 
Service's ability to process incoming forensic evidence and prosecute 
the criminal violations of wildlife protection laws.
    Members of the subcommittee, we sincerely appreciate the 
opportunity to provide our written testimony to advocate for the 
successful programs of FWS and our Nation's commitment to international 
conservation efforts. Only by investing now in international 
conservation efforts to establish a healthy wild tiger population can 
we ensure that future generations will be able to fully appreciate the 
magnificent power of wild tigers--whatever the mascot of their favorite 
team.
    And as a recent Clemson University Alumnus, I'd like to add--Go 
Tigers!
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition
    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Miller and Munson, LLP. I appear here today 
as counsel to the National Tribal Contract Support Cost Coalition. The 
Coalition is comprised of 21 tribes and tribal organizations situated 
in 11 States. Collectively, they operate contracts to administer almost 
$500 million in IHS and BIA programs and services on behalf of over 250 
Native American tribes.\1\ The NTCSC Coalition was created to assure 
that the Federal Government honors the United States' contractual 
obligation to add full contract support cost funding to every contract 
and compact awarded under the Indian Self-Determination Act. I also 
litigated the Supreme Court Cherokee and Arctic Slope cases, and co-
litigated the Ramah case, all of which held that IHS and BIA contracts 
with Indian tribes are true, binding contracts which must be paid in 
full no less than any other government contract.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (Alaska), Arctic Slope Native Association (Alaska), Central 
Council of Tlingit & Haida Indian Tribes (Alaska), Cherokee Nation 
(Oklahoma), Chickasaw Nation, Chippewa Cree Tribe of the Rocky Boy's 
Reservation (Montana), Choctaw Nation (Oklahoma), Confederated Salish 
and Kootenai Tribes (Montana), Copper River Native Association 
(Alaska), Forest County Potawatomi Community (Wisconsin), Kodiak Area 
Native Association (Alaska), Little River Band of Ottawa Indians 
(Michigan), Pueblo of Zuni (New Mexico), Riverside-San Bernardino 
County Indian Health (California), Shoshone Bannock Tribes (Idaho), 
Shoshone-Paiute Tribes (Idaho, Nevada), Southeast Alaska Regional 
Health Consortium (Alaska), Spirit Lake Tribe (North Dakota), Tanana 
Chiefs Conference (Alaska), Yukon-Kuskokwim Health Corporation 
(Alaska), and Northwest Portland Area Indian Health Board (43 Tribes in 
Idaho, Washington, Oregon).
---------------------------------------------------------------------------
    Every year I recall for this subcommittee that no single enactment 
has had a more profound impact on tribal communities than has the 
Indian Self-Determination Act. In just three decades tribes and inter-
tribal organizations have taken control of vast portions of the Bureau 
of Indian Affairs and the Indian Health Service, including services 
previously provided by the Federal Government in the areas of 
healthcare, education, law enforcement and land and natural resource 
protection. Today, not a single tribe in the United States is without 
at least one self-determination contract with the IHS or the BIA, and 
collectively the tribes administer nearly $3 billion in essential 
Federal Government functions employing an estimated 35,000 people. 
Under all of these contracts, the tribes must cover contract support 
costs--essentially overhead--to responsibly manage their programs. They 
have to make payroll. They have to manage their finances and their 
information technology systems. They have to buy insurance. They have 
to procure goods and services. All of the same things the government 
has to do, the tribes have to do--and even more: the tribes must 
complete costly annual audits, negotiate indirect cost rates, and 
comply with a raft of Federal mandates.
    These costs are fixed, and they must be paid. Otherwise, they are 
paid out of program funds or paid out of tribal trust funds. Thus, full 
payment of contract support costs is essential to keeping faith with 
the Government's contractual commitments, honoring the Government's 
trust responsibility, and permitting the tribes to prudently carry out 
the contracted programs, from law enforcement to range management to 
full-on hospital operations.
    Four years ago this committee explained its views on contract 
support costs:

          The Committee believes that both the Bureau [of Indian 
        Affairs] and the Indian Health Service should pay all contract 
        support costs for which it has contractually agreed and directs 
        the Service to include the full cost of the contract support 
        obligations in its fiscal year 2013 budget submission.

    H.R. Rep. No. 112-151, at 98 (2011). See also id. at 42 (addressing 
the BIA). The Committee was remarkably prescient in its assessment of 
the government's liability: the very next year the Supreme Court ruled 
that ``[c]onsistent with longstanding principles of Government 
contracting law, we hold that the Government must pay each tribe's 
contract support costs in full.'' Salazar v. Ramah Navajo Chapter, 132 
S. Ct. 2181, 2186 (2012). The Supreme Court emphasized that ``the 
Government's obligation to pay contract support costs should be treated 
as an ordinary contract promise.'' Id. at 2188. Two months later the 
U.S. Court of Appeals for the Federal Circuit applied the Ramah ruling 
to the Indian Health Service, concluding that ``[t]he Secretary [was] 
obligated to pay all of ASNA's contract support costs for fiscal years 
1999 and 2000.'' Arctic Slope Native Ass'n, Ltd. v. Sebelius, No. 2010-
1013, Order at 6, 2012 WL 3599217 (Fed. Cir. Aug. 22, 2012), on remand 
from 133 S. Ct. 22 (2012).
    Today it is beyond any debate that the payment of contract support 
costs is a binding contractual obligation owed to all tribes that 
operate BIA and IHS contracts. The only issue remaining has been how to 
meet that obligation.
    Thanks to this subcommittee's vision and decisive action, fiscal 
year 2014 was the first year in which contract support costs were paid 
in full through the ordinary appropriations process. For the agencies, 
particularly IHS, it was a rocky start, as early mistaken estimates 
gave way to the reality that the agency has missed the mark by millions 
of dollars. A major reprogramming action was necessary to make tribes 
whole, but the agency weathered the storm with a minimum of disruption 
to direct service operations, and all contracts were paid in full.
    Last year's appropriation followed a crooked path to final 
enactment. But an unintended benefit of the delayed fiscal year 2015 
appropriations cycle was that this subcommittee, the agencies and 
tribal advocates (including this Coalition) were able to compare notes 
last December and this subcommittee was able to adjust the fiscal year 
2015 final appropriation levels to assure that all tribes will be paid 
in full for carrying out their government contracts--and this time, 
without any disruption to ongoing program or agency operations. We are 
truly in a new era.
Fiscal Year 2016
    For fiscal year 2016 the administration has proposed contract 
support costs payment levels of $718 million for IHS and $272 million 
for the BIA. Based upon actual experiences in fiscal year 2014, there 
is every reason to believe these amounts will be sufficient to cover 
all contract requirements next year. The National Tribal Contract 
Support Cost Coalition fully supports the President's proposed fiscal 
year 2016 funding levels, reflecting a full administration commitment 
to tribal self-determination and self-governance.
Fiscal Year 2017 and Beyond
    Going forward, the administration has proposed a 3-year mandatory 
appropriation at stated dollar amounts for each agency, with up to 2 
percent of the sums so designated to be available for agency 
administration. The National Tribal Contract Support Cost Coalition 
deeply appreciates the President's effort to find a solution to the 
multi-decade underfunding of contract support costs, and agrees that 
the long-term solution lies in a mandatory appropriation. A mandatory 
appropriation is an effective answer to the dilemma posed by locating a 
legally binding obligation within an appropriation structured to 
address discretionary requirements. It protects the discretionary side 
of the ledger while assuring that tribal contractors and compactors 
will be paid in full for services duly rendered to the United States.
    But care in this area must be taken, and a half measure could be 
more disruptive than no measure at all. A time-limited mandatory 
appropriation is ill-suited to paying a permanent obligation, because 
each renewal is subject to the vagaries of the political process. The 
best example of those vagaries is reflected in the history of the time-
limited mandatory appropriation enacted for the Special Diabetes 
Program for Indians (SDPI).\2\ This instability is orders of magnitude 
more destabilizing when it comes to the payment of contract support 
costs for the delivery of core governmental functions, including the 
annual operation of police departments, schools and entire hospitals 
and clinics serving many of the Nation's most vulnerable populations. 
It is one thing for a discrete program to end; it is quite another 
thing for an entire hospital or police department to close or be cut 
back by a third because contract support cost payments suddenly cease. 
One can imagine the grave instability that would ensue if by March 
2019, Congress had not yet renewed the measure and yet the Budget 
Committee was developing its discretionary caps for the coming year and 
this subcommittee was holding these hearings.
---------------------------------------------------------------------------
    \2\ Public Law No. 105-33, Sec. 4922, 111 Stat. 251 (1997) (5 
years); Public Law No. 107-360, Sec. 1(b), 116 Stat. 3019 (2002) (6 
years); Public Law No. 110-173, Sec. 302(b), 121 Stat. 2492, 2515 
(2007) (one year); Public Law No. 110-275, Sec. 303(b), 122 Stat. 2494, 
2594 (2008) (2 years); Public Law No. 111-309, Sec. 112(2), 124 Stat. 
3285, 3289 (2010) (2 years); Public Law No. 112-240, Sec. 625(b), 126 
Stat. 2313, 2352-53(2014) (1 year); Public Law No. 113-93, Sec. 204(b), 
128 Stat. 1040, 1046 (2014) (1 year).
---------------------------------------------------------------------------
    Given these practical considerations, the Coalition respectfully 
urges all members of this subcommittee to build upon the President's 
proposal by supporting a permanent mandatory appropriation.
    The Coalition also respectfully urges this subcommittee's members 
to support a mandatory appropriation which only appropriates what is 
needed, and not a penny more.\3\ In recent listening sessions the 
agencies have explained that the specific sums requested are somewhat 
higher than the sums each agency projects it will actually need. This 
makes no sense to us, and will only drive up the cost of any measure.
---------------------------------------------------------------------------
    \3\ See 31 U.S.C. Sec. 1305 (appropriating ``such amounts as may be 
necessary'' for specified purposes).
---------------------------------------------------------------------------
    To the extent the higher amounts are designed to make available up 
to 2 percent of the designated sums for agency overhead, the Coalition 
strongly opposes those amounts. A flat 2 percent would authorize IHS to 
spend over $20 million on overhead costs to pay tribal contractors, 10 
to 20 times what the agency currently spends on this activity out of 
its discretionary appropriation. No explanation has been offered for 
such excessive sums, and IHS has readily acknowledged that far lesser 
sums would be sufficient.
    The Coalition appreciates that the agencies would each benefit from 
additional resources to administer their obligations under the law to 
pay full contract support costs. But before increasing existing sums, 
the subcommittee should direct the BIA and IHS to perform an assessment 
to determine their exact staffing needs and associated funding 
requirements. Whatever sum is necessary for agency overhead, those 
costs should be left within each agency's discretionary appropriation, 
where the appropriations committees can continue to monitor and respond 
on an annual basis to agency and tribal concerns. No reason has been 
offered by anyone for transferring such sums to a mandatory 
appropriation.
    On an issue closely related to agency overhead, the Coalition 
respectfully requests that the subcommittee caution the agencies 
against developing any new initiatives that would leave contract 
support cost accounts open for 5 years. IHS is already moving in this 
direction, which would be both unprecedented and directly at odds with 
standard grant practices, including IHS's own grant programs. Contracts 
should be closed out within 60 days of the close of the fiscal year, 
and both agencies should be directed to develop initiatives which make 
contract implementation and close-out more efficient and speedier, not 
more complex. Multi-year arrangements for fixed rates, or fixed lump-
sum amounts subject to inflationary adjustments, should be strongly 
encouraged as an efficient alternative to lengthy annual recalculations 
and reconciliations.
    Finally, the Coalition respectfully urges the subcommittee to amend 
the Appropriations Act's language to require that contract support 
costs be added to program funds covering the domestic violence 
prevention initiative (DVPI) and methamphetamine and suicide prevention 
initiative (MSPI). A recent Federal court confirmed that such funds are 
subject to the Indian Self-Determination Act, consistent with IHS's 
position since 2010. But this past year, just when full CSC funding 
finally became a reality, IHS unilaterally--and without any 
consultation whatsoever--changed position, announcing that hereinafter 
tribes must divert their domestic violence and methamphetamine and 
suicide prevention program dollars to cover all overhead costs. On 
average, this will reduce the program funding amounts nationwide by 25 
percent. Congress should not tolerate this irrational change to these 
programs.
    It is a privilege to appear before this subcommittee once again. On 
behalf of the over 250 federally recognized tribes represented by the 
National Tribal Contract Support Cost Coalition, I thank the 
subcommittee for this opportunity to testify on the fiscal year 2016 
budget.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Madame Chairman, Senator Udall, and members of the subcommittee, I 
appreciate this opportunity to present the National Trust for Historic 
Preservation's recommendations for fiscal year 2016 appropriations. My 
name is Thomas J. Cassidy, Jr. and I am the Vice President for 
Government Relations and Policy. The National Trust is a privately-
funded nonprofit organization chartered by Congress in 1949. We work to 
save America's historic places to enrich our future.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation, conservation and recreation programs should suffer from 
disproportionate funding reductions. We look forward to working with 
you, Madame Chairman, as you address the ongoing needs for investments 
to sustain our Nation's rich heritage of cultural and historic 
resources.
    Historic Preservation Fund.--The Historic Preservation Fund (HPF) 
is the principal source of funding to implement the Nation's historic 
preservation programs. Like the Land and Water Conservation Fund, its 
dedicated revenues are generated from oil and gas development on the 
Outer Continental Shelf.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, nomination of properties to the 
National Register of Historic Places, public education, project review 
required by the National Historic Preservation Act and for the Federal 
Historic Rehabilitation Tax Credit (HTC). The HTC is the largest 
Federal investment in historic preservation. It has leveraged nearly 
$117.6 billion in private investment, created 2.4 million jobs and 
adapted more than 40,300 buildings for new and productive uses.
    The National Trust applauds the administration's request of $89.9 
million for the HPF. Most of the $33.5 million increase is associated 
with the Civil Rights Initiative, including a new $30 million 
competitive grants program to document, interpret, and preserve the 
stories and sites associated with the Civil Rights Movement and the 
African-American experience, and $2.5 million in grants for 
Historically Black Colleges and Universities. The request would 
continue for a third year the $500,000 competitive grants program for 
the survey and nomination of properties associated with communities 
currently underrepresented in the National Register of Historic Places 
and National Historic Landmarks. Recent studies have documented that 
less than 8 percent of such listings identify culturally diverse 
properties.
    The request also includes a much needed increase of $1 million over 
fiscal year 2015 enacted for THPOs. This modest increase in funding 
would address an increase in participation among THPOs from 154 tribes 
in fiscal year 2015 to potentially 160 tribes in fiscal year 2016. We 
were disappointed that the administration did not request any funding 
increase to the SHPOs. We urge the subcommittee to provide the much 
needed increases for SHPOs and THPOs to provide their essential 
preservation services.
    National Park Service: Civil Rights Initiative.--The National Trust 
strongly supports President Obama's $50 million Civil Rights Initiative 
in this 50th anniversary year of the Voting Rights Act. In addition to 
the new competitive grant programs funded through the HPF, the request 
includes $17.5 million in funding for sites within the National Park 
System, including the Selma to Montgomery National Historic Trail, the 
Little Rock Central High School National Historic Site and the Martin 
Luther King Jr. National Historic Site.
    National Park Service: Operation of the National Park System and 
Cultural Resources Stewardship.--The National Park Service (NPS) is 
responsible for 407 units of the National Park System ranging from the 
battlefields where our ancestors fought and died to places that stir 
the soul like the Statue of Liberty and Ellis Island, the gateway for 
millions of new Americans. Three-quarters of our parks were created to 
protect our most important historic and cultural resources. Over the 
past 20 years, more than 40 new parks have been added to the park 
system, many of which preserve historic places and themes that have 
been underrepresented within the system.
    We support the President's budget proposal of $239 million above 
the fiscal year 2015 enacted level for National Park Service 
Operations. The increase includes several Centennial Initiative 
requests of great importance to the preservation community, including 
increases of $66.7 million for repair and rehabilitation projects, $64 
million for cyclic maintenance, $13.5 million for new responsibilities 
and critical needs, $5.5 million for the documentation and preservation 
of Civil Rights history in the National Park System and $3 million for 
the Cultural Resource Challenge.
    Repair and Rehabilitation.--The Repair and Rehabilitation Program 
is a part of the overall service wide deferred maintenance strategy 
that directs funds to high priority mission critical and mission 
dependent assets with deferred maintenance projects less than $1 
million. Approximately $4.5 billion of the overall deferred maintenance 
backlog is for the 27,000 properties listed on the National Register of 
Historic Places within National Park units.
    Cyclic Maintenance.--Investing in cyclic maintenance required to 
maintain historic structures is essential to abate the continued growth 
of the deferred maintenance backlog. The kind of projects addressed by 
cyclic maintenance funding includes roofing of buildings, re-pointing 
masonry walls, painting, sealing and stabilizing archaeological sites.
    Leasing Historic Structures in National Parks.--In recent years, 
the subcommittee has repeatedly included report language encouraging 
the NPS to utilize leases as a means to mitigate the maintenance 
backlog of historic structures. The Service is slow to implement the 
policy changes necessary to facilitate more leasing and catalyze even 
broader use of this important authority. We recommend that the 
subcommittee request the NPS to create a pilot project to catalyze such 
leases and report on any statutory or regulatory barriers that inhibit 
the expansion of this public-private approach to bring private 
investment into the parks.
    Visitor Services: New Responsibilities and Critical Needs.--We 
support the requested $13.5 million increase to support the operations 
of newly established units of the National Park System including the 
recently established Pullman National Monument in Illinois and 
Honouliuli National Monument in Hawaii. The requested increase would 
also support the critical operating needs of parks with Civil Rights 
stories, including the Selma to Montgomery National Historic Trail and 
the Carter G. Woodson Home National Historic Site.
    Visitor Services: Increase Volunteer Capacity and Engaging the Next 
Generation.--We support the administration's $2 million request to 
increase increased volunteer capacity through partner organizations. In 
conjunction with funding enacted in the fiscal year 2015, this would 
fund increased partnership opportunities with conservation corps to 
support an additional 70 volunteer coordinator positions, for a total 
of 140 positions.
    As part of our commitment to advancing the goals of the 21st 
Century Conservation Service Corps, and assist the NPS reduce the 
maintenance backlog of historic properties, the National Trust launched 
the HOPE (Hands-On Preservation Experience) Crew initiative in 2014 to 
train young adults in preservation skills while helping protect and 
restore historic sites. Youth and veterans are trained in the 
preservation skills necessary to perform preservation work in the parks 
and other Federal lands through a cooperative agreement between the 
NPS, other Federal land management agencies, and several NGOs including 
the Student Conservation Association and The Corps Network. In the 
first year, nearly 100 Corpsmembers spent 20,000 hours completing 15 
projects, including rehabilitation of properties at Shenandoah National 
Park, LBJ National Historical Park, FDR National Historical Site and 
Little Big Horn Battlefield National Monument. Projects like this can 
reduce the maintenance backlog while also providing job skills and 
education for the next generation of stewards of America's most 
important historic sites.
    National Park Service: Construction.--We support the requested 
increase of $91 million over fiscal year 2015 enacted for Line Item 
Construction. This account addresses the deferred maintenance for the 
NPS' highest priority non-transportation assets with projects larger 
than $1 million. We also support the President's request that this fund 
be used for the repair and stabilization of important historic 
structures as opposed to new construction. Of the 6,735 highest 
priority non-transportation assets approximately 4,000 have deferred 
maintenance needs. Examples of these needs include critical health and 
safety issues in the lobby of the Many Glacier Hotel in Glacier 
National Park; the rehabilitation of historic cottages, and reroofing 
Ebenezer Church and seven historic houses at Martin Luther King, Jr. 
National Historic Site; and the rehabilitation of the Lincoln Memorial 
to provide accessible spaces, restrooms and pathways.
    National Park Service: National Heritage Areas.--We recommend 
funding for National Heritage Areas (NHAs) at the fiscal year 2015 
enacted level or higher. The administration's repeated proposals to 
reduce NHA funding, justified as ``encouraging self-sufficiency,'' 
would severely impair the sustainability of the program and most likely 
have the exact opposite effect by rendering many NHAs not self-
sufficient, but rather unable to function. National Park Service 
Director Jon Jarvis has described National Heritage Areas as ``places 
where small investments pay huge dividends.'' We agree.
    National Park Service: Centennial Challenge.--We support the $10 
million Centennial Challenge to provide dedicated Federal funding to 
match donations for signature National Park Service projects and 
programs. This funding will allow the NPS to leverage private 
contributions to enhance visitor services and improve cultural and 
natural resources across the parks in the Service.
    Bureau of Land Management: Cultural Resources Management..--The BLM 
oversees the largest, most diverse and scientifically important 
collection of historic and cultural resources on our Nation's public 
lands as well as the museum collections and data associated with them, 
including 10 million artifacts and specimens, 366,232 documented 
cultural sites, 3,965 monitored archaeological sites, 431 maintained 
historic structures and 108 properties listed on the National Register 
of Historic Places. This program funds National Historic Preservation 
Act (NHPA) section 106 review of 13,000 land use proposals each year, 
compliance with the Native American Graves Protection and Repatriation 
Act and Government-to-Government consultation with Indian tribes and 
Alaska Native governments. Since fiscal year 2003 this program has lost 
19 FTEs while the demand for section 106 compliance has remained even 
or increased. The loss of personnel has diminished the BLM's ability to 
review land proposals like transmission lines, energy development and 
recreation permits.
    We support the administration's fiscal year 2016 request of $17.2 
million, a modest increase of $2.075 million above fiscal year 2015 
enacted. The increased support is necessary to fulfill BLM's statutory 
requirements for section 106 reviews of land use proposals, and NHPA's 
section 110 requirements for inventory and protection cultural 
resources. The increase would support 60 on-the-ground surveys of 
sensitive areas, site protection and stabilization projects for 
priority sites vulnerable to unauthorized activities and damage due to 
fire, erosion and changing water levels. Projects will also update 
predictive modeling and data analysis to enhance the BLM's ability to 
address large-scale, cross jurisdictional land-use projects.
    Bureau of Land Management: National Landscape Conservation 
System.--The Bureau of Land Management's (BLM) National Landscape 
Conservation System (National Conservation Lands) includes 30 million 
acres of congressionally and presidentially designated lands, including 
National Monuments, National Conservation Areas, Wilderness, Wilderness 
Study Areas, National Scenic and Historic Trails, and Wild and Scenic 
Rivers.
    As the Nation's newest system of protected lands, the National 
Conservation Lands encompass some of our country's most significant 
historic and cultural resources, yet the BLM's ability to steward these 
resources is undermined by insufficient funding. The National 
Conservation Lands are just one-tenth of BLM managed lands but they 
host one-third of all BLM's visitors. Without sufficient funding, the 
BLM struggles to complete essential resource protection, such as 
signing trails, inventorying and protecting cultural sites from looting 
and vandalism.
    We support the administration's fiscal year 2016 request of $81.079 
million, a $11.181 million increase over fiscal year 2015 enacted, in 
order to prevent critical damage to the resources found in these areas, 
ensure proper management and provide for a quality visitor experience. 
This funding level would enable BLM to hire essential management and 
law enforcement staff, monitor and protect natural and cultural 
resources, close unauthorized routes that damage fragile cultural sites 
and undertake needed ecosystem and species restoration projects.
    Land and Water Conservation Fund.--The National Trust supports 
robust funding for the Land and Water Conservation Fund. Many of the 
Nation's most significant historic and cultural landscapes have been 
permanently protected through LWCF investments, including Martin Luther 
King Jr. National Historic Site, Canyons of the Ancients National 
Monument and Harpers Ferry National Historic Park. Culturally 
significant projects in the fiscal year 2016 request include Cedar 
Creek and Belle Grove National Historical Park (Virginia), Pecos 
National Historical Park (New Mexico), Gettysburg National Military 
Park (Pennsylvania) and the Captain John Smith Chesapeake National 
Historic Trail (District of Columbia/Delaware/Maryland/Virginia). We 
strongly support the administration's request for the American 
Battlefield Protection Program Grants.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2016 Interior, Environment and 
Related Agencies Appropriations bill.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Madam Chair and members of the subcommittee:

    On behalf of the National Wildlife Refuge Association and its 
membership of current and former U.S. Fish and Wildlife Service 
(Service) professionals, Refuge Friends organizations and concerned 
citizens, thank you for your support for the National Wildlife Refuge 
System (NWRS), particularly for the funding increase for fiscal year 
2015. We appreciate the opportunity to offer comments on the fiscal 
year 2016 Interior Appropriations bill and respectfully request:
  --$508.2 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $5 million for the Pacific Marine 
        Monuments;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $173.8 million allocated for the FWS, including $10 million for 
        Everglades Headwaters NWR and Conservation Area (Florida); $3 
        million for Silvio O. Conte NFWR (Connecticut, New Hampshire, 
        Vermont, Massachusetts); $3 million for Cache River NWR 
        (Arizona); $3 million for Flint Hills Legacy Conservation Area 
        (Kansas); $2 million for Bear River Watershed Conservation Area 
        (Wyoming, Idaho, Utah); $3.4 million for Blackwater NWR 
        (Maryland); and $1 million for the Clarks River NWR (Kentucky);
  --$60 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$14 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$70 million for the State and Tribal Wildlife Grants Program;
  --$50 million for the North American Wetlands Conservation Fund;
  --$5 million for the Neotropical Migratory Bird Fund; and
  --$11 million for the Multinational Species Conservation Fund.

    We understand our Nation's challenging fiscal constraints but 
cutting funding to programs that are economic drivers and job creators 
in local communities only exacerbates an already difficult situation. 
For example, the NWRS averages almost $5 in economic return for every 
$1 appropriated and the Partners for Fish and Wildlife program returns 
nearly $16 for every $1 spent on projects. Unfortunately, just when 
these public lands and programs could return economic output to 
communities and help them through the recession, funding fell 
dramatically. Budgets have not kept pace with rising costs, and the gap 
between the funding needed to maintain these programs and the funding 
appropriated has widened dramatically. The Refuge System is 
approximately $72 million below what would be needed to keep pace with 
inflation relative to the fiscal year 2010 level ($545.8 million 
inflation-adjusted).
    To begin bridging that gap, NWRA urges Congress to fund these 
critical programs that leverage Federal dollars and serve as economic 
drivers.
National Wildlife Refuge System--Operations and Maintenance
    NWRA chairs the Cooperative Alliance for Refuge Enhancement (CARE), 
a diverse coalition of 23 sporting, conservation, and scientific 
organizations representing more than 16 million Americans that supports 
increased funding for the Refuge System. CARE estimates the NWRS needs 
at least $900 million annually to manage its 150 million acres and over 
400 million acres of national marine monuments, yet it is currently 
funded at roughly half that amount--at less than $1 per acre. The 
Refuge System cannot fulfill its obligation to the American public, our 
wildlife, and 47 million annual visitors without increases in 
maintenance and operation funds.
    Funding for the Refuge System has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current $474.2 
million--$72 million below what it needs to keep pace with inflation. 
This has forced the Service to cut back on programs and create 
efficiencies whenever possible. Because of these hard decisions, the 
Service has cut their maintenance backlog in half from $2.7 billion to 
$1.3 billion in less than 5 years. But budget cuts also led to the loss 
of 430 positions since fiscal year 2011 and thus an increase in the 
operations backlog, now at $735 million. Because most refuge lands and 
waters are highly managed, this deterioration in staffing has had a 
dramatic impact resulting in significant declines in habitat 
preservation and management, hunting, fishing, volunteerism and 
scientific research.
    For instance, visitor services staff has declined by 15 percent, 
forcing a reduction in public programs and hours of operation. Hunting 
visits are down by 5 percent since fiscal year 2011 and fishing visits 
are down 7 percent. Overall, there are fewer opportunities for the 
public to recreate, yet the desire for such programs is still high and 
visitation to all refuges since fiscal year 2011 has actually increased 
by 2.6 percent.
    Reductions in visitor services can be extremely troubling to 
constituencies who want to visit. Take the Midway Atoll NWR in the 
Hawaiian Islands. In November of 2013, due to sequestration cuts, the 
Service suspended the visitors services program at Midway. Although in 
the 5 years prior to this suspension, the refuge saw only about 300 
annual visitors, those visitors were passionate about their reasons for 
visiting. Some wanted to view more than 3.5 million birds and some 
wanted to visit the Battle of Midway National Memorial. Whatever their 
reason, they wanted to have one of the most unique refuge experiences 
in the entire System. Congress has asked for a GAO investigation on why 
the Service suspended its program; yet it's clear that when you cut the 
budget and loose several positions including a permanent Wildlife 
Biologist, Park Ranger, and Law Enforcement Officer, there will be 
ramifications.
    Equally troubling is a 15 percent drop in the number of volunteers 
since fiscal year 2011. At a time when record numbers of Americans are 
retiring and have the capability to give back, the Service's ability to 
oversee their efforts has been curtailed. Volunteers provide an 
additional 20 percent of work on our national wildlife refuges, yet 
they are being turned away when the System needs them the most.
    During these years of challenging budgets, the Refuge System's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the FWS in 2013, 
shows that even during the worst recession since the Great Depression, 
the Refuge System saw sales and economic output increase 20 percent to 
$2.4 billion, visitation increase 30 percent to 46.5 million, average 
return on investment increase 22 percent to $4.87 for every $1 
appropriated, and supported jobs increase 23 percent to 35,000.
Strategic Growth
    The Land and Water Conservation Fund (LWCF) is an essential tool 
for protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies. Some in Congress have argued that public lands 
like the Refuge System can't manage what they have and thus, all land 
acquisition should end. However, in the past 20 years, lands contained 
within the Refuge System have only grown by 5.6 percent, while at the 
same time, visitation has grown by 30 percent. The real cause of rising 
operations and maintenance costs is that the public is hungry for more 
opportunities to recreate.
    Increasingly, LWCF is being used to conserve working lands through 
the acquisition of easements that secure conservation protection while 
leaving the land in private ownership and on the tax rolls. Easements 
are powerful tools that foster public-private partnerships with 
ranchers, farmers and foresters to conserve wildlife, habitat and a 
uniquely American way of life. Innovative landscape-scale initiatives 
using easements have broad community and State support in New England's 
Connecticut River Watershed, the Flint Hills of Kansas, the Everglades 
Headwaters, Montana's Crown of the Continent, and the Dakota 
Grasslands. These iconic landscapes remain privately managed, 
generating tax income for local communities, securing our Nation's 
food, and balancing resource use and resource protection for wildlife.
    In many cases, however, land acquisition is required to conserve 
intact and functional natural habitat. The Refuge System is responsible 
for safeguarding population levels of a range of species, including 
many that require specific habitat conditions, such as beaches for sea 
turtles and isolated springs for endemic desert fish. Others require 
multiple habitat types during their life cycle. By acquiring critical 
habitat areas and linking conserved lands, the Refuge System enhances 
the integrity of the System and strengthens our network of habitat to 
give wildlife space and time to respond to changes, whether from 
climate or changing land use patterns.
    The Refuge Association calls on Congress to fund LWCF at $900 
million per year, with $173.8 million provided in fiscal year 2016 to 
the FWS for conservation easements and refuge in-holdings, including 
the following projects and those advocated by refuge Friends:
  --Everglades Headwaters NWR and Conservation Area (Florida)--$10 
        million;
  --Cache River NWR (Arizona)--$3 million;
  --Silvio O. Conte NFWR (New Hampshire, Vermont, Massachusetts, 
        Connecticut)--$3 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$3 million;
  --Bear River Watershed Conservation Area (Wyoming, Idaho, Utah)--$2 
        million;
  --Blackwater NWR (Maryland)--$3.4 million; and
  --Clarks River NWR (Kentucky)--$1 million.
Commitment to Refuge Communities--Refuge Fund
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally acquired lands are removed from local 
tax rolls, and relies on congressional appropriations to the Refuge 
Fund to compensate for the shortfall between revenues and tax 
replacement obligations. Unfortunately, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. The negative impact on local 
communities is felt even more starkly in difficult economic times and 
severely strains relations between the Federal units and their local 
community, threatening the goodwill and partnerships that are keystones 
of successful conservation. NWRA requests $60 million for the Refuge 
Fund and thanks Chairman Calvert for his leadership in fiscal year 2015 
to pursue a much-needed increase. NWRA also calls for a review of the 
Refuge Revenue Sharing Act of 1935 as amended, and consideration of 
conversion to a Payment-in-Lieu of Taxes (PILT) program to be 
consistent with other Federal land management agencies and to provide 
refuge communities with more equitable payments.
Partnerships
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners for Fish and Wildlife 
program (Partners Program) is one of the most powerful tools for 
protecting wildlife where it lives. By building effective partnerships 
between public agencies and private landowners to conserve America's 
expansive working landscapes, the Partners Program has implemented 
nearly 29,000 restoration projects in the past 25 years, restoring over 
one million acres of wetlands, three million acres of uplands, and 
11,000 miles of streams. The program has been instrumental in the 
success of such iconic landscape conservation projects as the Rocky 
Mountain Front and Blackfoot Challenge in Montana and the Flint Hills 
in Kansas, and is playing a key role in conserving greater sage-grouse 
habitat in the intermountain west.
    The Partners program consistently leverages Federal dollars for 
conservation, generating nearly $16 in economic return for every $1 
appropriated for projects. The Refuge Association and the landowner-led 
Partners for Conservation request $75 million for fiscal year 2016. 
Such a funding level would result in an additional $400 million worth 
of conservation across the Nation.
    The Partners Program provides a bridge between private and public 
conservation efforts that has been instrumental in the success of large 
landscape partnerships from Montana to Florida, and is playing a key 
role in conserving greater sage-grouse habitat in the intermountain 
west. To this end, we request an additional $78 million for the 
Interior agencies to implement sagebrush steppe habitat conservation 
and monitoring efforts that will leverage $300 million in Department of 
Agriculture investments across the west.
Sharing Lessons and Protecting Global Species
    Wildlife species know no international boundaries, therefore 
conservation must happen globally to ensure populations survive. Many 
international wildlife agencies look to the Refuge System as the world 
leader in wildlife and fish conservation. The Service's Wildlife 
Without Borders Program and Multinational Species Conservation Funds 
together support global partnerships to protect marine turtles, tigers 
and rhinos, great apes and elephants and other iconic species. These 
programs are particularly important as wildlife face a poaching crisis 
that is leading species such as rhinos to the brink of extinction. The 
Refuge Association and student-led Tigers 4 Tigers Coalition request 
$11 million for the Multinational Species Conservation Fund in fiscal 
year 2016.
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish.
    We look forward to working with Congress in 2015 to accomplish this 
goal.

    [This statement was submitted by Desiree Sorenson-Groves, Vice 
President, Government Affairs.]
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2016 
appropriations for the Department of the Interior (DOI). We encourage 
Congress to provide the DOI Working Capital Fund with at least $74.5 
million in fiscal year 2016. We also encourage Congress to provide 
adequate funding for the scientific collections maintained by the 
United States Geological Survey, National Park Service, Bureau of Land 
Management, and Fish and Wildlife Service. These collections are used 
to inform resource management and support law enforcement efforts.
    The Natural Science Collections Alliance is a non-profit 
association that supports natural science collections, their human 
resources, the institutions that house them, and their research 
activities for the benefit of science and society. Our membership 
consists of institutions which are part of an international community 
of museums, botanical gardens, herbaria, universities, and other 
institutions that contain natural science collections and use them in 
research, exhibitions, academic and informal science education, and 
outreach activities.
    Scientific collections are a vital component of our Nation's 
research infrastructure. Whether held at a museum, government managed 
laboratory or archive, or in a university science department, these 
scientific resources contain genetic, tissue, organismal, and 
environmental samples that constitute a unique and irreplaceable 
library of the Earth's history. The specimens and their associated data 
drive cutting edge research on significant challenges facing modern 
society, such as improving human health, enhancing food security, and 
understanding and responding to environmental change. Collections also 
inspire novel interdisciplinary research that drives innovation and 
addresses some of the most fundamental questions related to 
biodiversity.
    The institutions that care for scientific collections are important 
research centers that enable scientists to study the basic data of 
life, conduct modern biological, geological, and environmental 
research, and provide undergraduate and graduate students with hands-on 
training opportunities.
    According to the Federal Interagency Working Group on Scientific 
Collections, ``scientific collections are essential to supporting 
agency missions and are thus vital to supporting the global research 
enterprise.'' In recognition of the importance of collections, the 
Office of Science and Technology Policy issued a memo in 2010 that 
directed Federal agencies to budget for the proper care of collections. 
``Agencies should ensure that their collections' necessary costs are 
properly assessed and realistically projected in agency budgets, so 
that collections are not compromised.''
    Preservation of specimens is not only in the best interest of 
science, it is also in the best interest of taxpayers. Proper care of 
existing scientific collections is typically more cost effective than 
recollecting the information. Moreover, preservation of specimens and 
associated data allows for integration into new research. Specimens 
that were collected decades or centuries ago are often used in cutting 
edge research in the fields of genetics, biodiversity, and human 
health.
    We are pleased to see that DOI has included an increase of $1.0 
million in its budget request for the Cultural and Scientific 
Collections Management initiative. Interior is an important caretaker 
of museum collections; the Department has an estimated 146 million 
items, which is second in size to the Smithsonian Institution. Although 
many of the department's collections are located in bureau facilities, 
artifacts and specimens are also housed by non-governmental facilities, 
such as museums and universities.
    The United States Geological Survey (USGS) plans to maintain its 
efforts to preserve, inventory, and digitize geological scientific 
collections, such as rock and ice cores, fossils, and samples of oil, 
gas, and water. The National Geological and Geophysical Data 
Preservation program helps States with collections management, improves 
accessibility of collections data, and expands digitization of 
specimens. We are grateful to Congress for awarding additional funds 
for this program in fiscal year 2014. USGS plans to maintain the 
expanded program in fiscal year 2016.
    Another USGS program is supporting public access to biodiversity 
information. The Biodiversity Information Serving Our Nation system is 
the only Web-based Federal resource for finding species in the United 
States and contains 168 million records. It also serves as the U.S. 
connection to the Global Biodiversity Information Facility.
    The National Park Service is planning to continue its investments 
in scientific collections. The proposed budget would support plans to 
catalog an additional two million museum objects in fiscal year 2016. 
Additionally, several parks will address planning, environmental, 
storage, security, and fire protection deficiencies in museum 
collections.
                               conclusion
    Scientific collections are an important part of our Nation's 
research enterprise. Research specimens connect us to the past, are 
used to solve current societal problems, and are helping to predict 
future environmental changes. Sustained investments in scientific 
collections are critical for our Nation's continued scientific 
leadership. Please support the budget request for the Department of the 
Interior's Capital Working Fund, which will support Interior's efforts 
to preserve scientific collections--a truly irreplaceable resource.
    Thank you for your thoughtful consideration of this request.

    [This statement was submitted by Larry Page, Ph.D., President.]
                                 ______
                                 
            Prepared Statement of the The Nature Conservancy
    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2016 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2016 budget cycle and another year of a 
challenging fiscal environment, the Conservancy continues to recognize 
the need for fiscal austerity. The Conservancy also wishes to thank 
this subcommittee for the final fiscal year 2015 funding levels for 
Department of Interior and U.S. Forest Service conservation programs. 
Our budget recommendations this year reflect a balanced approach with 
funding levels consistent in most cases with fiscal year 2015 funding 
levels or, in rare instances, reflect specific program needs. Of 
particular note, we wish to work with this subcommittee and the 
authorizing committees on identifying permanent funding solutions for 
wildfire funding, the Land and Water Conservation Fund, the Payment in 
Lieu of Taxes Program and Secure Rural Schools. The Conservancy is 
concerned about the increasing impacts of wildfire suppression funding 
on Interior funding levels and urges the subcommittee to adopt the 
bipartisan and widely supported Wildfire Disaster Funding Act (H.R. 
167; S. 235). This process of funding suppression for the Department of 
the Interior and the USDA Forest Service will create budgetary 
stability and accountability while liberating critically needed 
appropriations funds within the Interior allocation. We also strongly 
support the emphasis on funding for sage-grouse conservation in the 
fiscal year 2016 budget request.
    Land and Water Conservation Fund (LWCF).--The fiscal year 2016 
President's budget again proposes the establishment of a dedicated 
source of long-term funding for the Land and Water Conservation Fund. 
In the proposal, the President's budget includes $400 million for LWCF 
activities through ``current authority'' or discretionary 
appropriations and then an additional $500 million in ``permanent 
authority'' or mandatory funding for LWCF. The budget then proposes to 
reach the $900 million funding level in fiscal year 2016 through this 
blend of current and permanent funding. The Conservancy supports this 
phased shift to mandatory funding for the LWCF Program. However, 
consistent with prior years and as noted above, we believe the 
administration must work closely with the relevant appropriations and 
authorizing committees to move this proposal forward. Additionally, the 
Conservancy supports the balanced approach in the budget on both 
``core'' and ``collaborative'' LWCF projects. Projects in the Upper Rio 
Grande landscape in Colorado and New Mexico, Rivers of the Chesapeake 
in Maryland and Virginia, and the Island Forests at Risk landscapes of 
Hawaii will benefit greatly from the collaborative emphasis. Our core 
priorities this year include the Silvio O. Conte NFWR (New Hampshire/
Vermont/Connecticut/Massachusetts) and the working ranches and 
agricultural production areas of Florida's Everglades Headwaters NWR & 
Conservation Area, North Dakota and South Dakota's Dakota Grasslands 
Conservation Area, Utah, Idaho and Wyoming's Bear River Watershed 
Conservation Area and Kansas' Flint Hills Legacy Conservation Area.
    Forest Legacy.--We support a minimum of $61 million for the Forest 
Legacy Program in current discretionary funding and the $39 million in 
permanent funding (with our aforementioned caveats).
    Endangered Species.--The Conservancy supports a funding level of at 
least $50 million for the Cooperative Endangered Species Conservation 
Fund (CESCF), and also requests the subcommittee give consideration to 
the additional fiscal year 2015 President's budget request for 
permanent funding per our earlier request for negotiations to occur 
between the administration and relevant congressional committees on a 
path forward for this funding.
    Colorado River Basin Recovery Programs.--The Conservancy supports 
the President's fiscal year 2015 budget request of $5.05 million for 
USBR and $1.46 million for FWS for the Colorado River Basin recovery 
programs, including endangered species funding for the Upper Colorado 
River Endangered Fish Recovery Program, recovery funds for the San Juan 
River Basin Recovery Implementation Program, and fish hatchery needs 
associated with the recovery plans.
    Wildlife Planning.--The Conservancy continues to support the 
Western Governors' Association's (WGA) and this subcommittee's efforts 
to recommend Federal land management agencies utilize State fish and 
wildlife data and analyses to inform the land use, land planning and 
related natural resource decisions of those agencies. As an example of 
strong State-led data systems, WGA has partnered in recent years with 
State wildlife agencies and the Federal Government to develop statewide 
GIS mapping tools to identify crucial wildlife habitat and migratory 
corridors. These geospatial mapping tools, which provide access to 
credible, broad-scale scientific data--compiled and analyzed by the 
States--are designed to reduce conflicts and surprises while ensuring 
wildlife values are better incorporated into land use planning, 
particularly for large-scale linear projects.
    State and Tribal Wildlife Grants.--The Conservancy supports the 
fiscal year 2016 funding level--$70 million--for this program. Strong 
Federal investments are essential to ensure strategic actions are 
undertaken by State, tribal and Federal agencies and the conservation 
community to conserve wildlife populations and their habitats.
    Wildlife Conservation Programs.--The variety of wildlife 
conservation programs conducted by FWS continue a long and successful 
tradition of supporting collaborative conservation in the U.S. and 
internationally. We urge the subcommittee to fund the President's 
request for such established and successful programs as the North 
American Wetlands Conservation Fund (NAWCA), Neotropical Migratory Bird 
Conservation Fund (NMBCA), and the FWS Coastal Program. We support the 
President's request for the Migratory Bird Joint Ventures and the FWS 
Migratory Bird Management Program. For the latter, we are particularly 
supportive of FWS' efforts at developing updated eagle permitting 
regulations which will both support the development of renewable energy 
in our country and contribute to sustainable and growing populations of 
these iconic North American species. We support the President's fiscal 
year 2016 request for the Partners for Fish and Wildlife Program and 
the requested funding for Cooperative Landscape Conservation and 
Adaptive Science ($17.87 million). The latter will help support DOI's 
overall commitment to Landscape Conservation Cooperatives and will 
contribute to collaborative problem solving for some of our Nation's 
most challenging issues. We also request strong funding this year for 
the National Fish Habitat Initiative.
    Resilience.--The Conservancy wishes to highlight three components 
of the President's budget focused on resilience: $50 million for a DOI 
competitive grant program modeled after the Hurricane Sandy Competitive 
Grant Program to expand the footprint of healthy ecosystems that 
deliver valuable ecosystem services, including flood attenuation and 
storm risk reduction, to nearby communities; $89 million for DOI's 
WaterSMART program, which promotes water conservation initiatives and 
technological breakthroughs; and $20 million to continue expanding and 
improving the recently-released online Climate Resilience Toolkit, 
which provides scientific tools and information to help tribes, 
communities, citizens, businesses, planners, and others understand and 
manage their climate-related risks and opportunities, and improve their 
resilience to extreme weather events. The Conservancy supports these 
requests.
    International Programs.--The international conservation programs 
appropriated annually within the Department of Interior are relatively 
small but are effective and widely respected. They encompass the U.S. 
Fish & Wildlife Service's (FWS) Multinational Species Conservation 
Funds, the FWS Wildlife Without Borders regional and global programs, 
the U.S. National Park Service International Program, and the U.S. 
Forest Service International Program (USFS-IP). We urge that fiscal 
year 2016 levels for these programs remain equivalent to fiscal year 
2015 levels at a minimum.
    National Wildlife Refuge System.--The Conservancy supports the 
President's budget request of $508.2 million for the Refuge System's 
Operations and Maintenance accounts. Found in every U.S. State and 
Territory, national wildlife refuges conserve a diversity of America's 
environmentally sensitive and economically vital ecosystems, including 
oceans, coasts, wetlands, deserts, tundra, prairie, and forests. This 
represents the funding necessary to maintain management capabilities 
for the Refuge System.
    USFS & DOI Wildland Fire Management.--The Wildfire Disaster Funding 
Act (WDFA) must be approved prior to an fiscal year 2016 appropriations 
package to adequately fund suppression and provide flexibility for 
activities that reduce fire risk and long-term suppression costs in 
fiscal year 2016. The Conservancy greatly appreciates the 
subcommittee's support of this much-needed fire funding fix.
    Hazardous Fuels and Restoration.--The Conservancy also appreciates 
Congress' emphasis on proactive hazardous fuels reduction and community 
preparedness along with a commitment to safe and cost-effective 
wildfire response strategies. In light of this approach and through the 
enactment of WDFA, the Conservancy recommends investing in Hazardous 
Fuels at levels of $479 million and $178 million for USFS and DOI, 
respectively, and repeating the subcommittee's fiscal year 2012 
instructions for allocating funds to priority landscapes in both WUI 
and wildland settings. The Conservancy appreciates the subcommittee's 
support of the Integrated Resource Restoration (IRR) pilot with the 
expectation of increased restoration. The Conservancy recommends 
continuing the IRR pilot for another year. We recommend $86 million for 
the State Fire Assistance program. The Conservancy recommends 
increasing funding for the Collaborative Forest Landscape Restoration 
Program to $60 million for the existing 23 and new projects. This 
important program works to restore large forest landscapes, provide 
jobs that sustain rural economies, reduce the risk of damaging 
wildfire, improve wildlife habitat and decommission unused, damaging 
roads. The Conservancy also recommends supporting the Landscape Scale 
Restoration proposal funded at $24 million.
    Roads and Trails.--The National Forests have a legacy of unneeded 
roads that erode into streams and fragment wildlife habitat. Road 
maintenance and decommissioning is an essential restoration action that 
improves the health of lands and waters, while providing jobs. The 
Conservancy recommends the Legacy Roads and Trails program be funded at 
$45 million. Additionally, the Conservancy recommends report language 
that directs the agency to prioritize road and trail (construction, 
reconstruction, maintenance, and decommissioning) projects that would 
improve stream crossings for aquatic organisms and other important 
multiple benefits, such as flood mitigation.
    USFS Forest Health & Research.--The Forest Health program is a 
critical resource supporting efforts to prevent, contain, and eradicate 
dangerous pests and pathogens affecting trees and forests. Further, 
this program leads Federal efforts to counter forest pests which have 
become widespread. The Conservancy recommends funding the Federal and 
cooperative Forest Health programs at a combined level of $111 million. 
The Forest and Rangeland Research program provides the scientific basis 
for policies that improve the health and quality of urban and rural 
communities, by providing protection from fire, detecting and managing 
forest pests and the pathways, improving water and air quality, among 
many other benefits. For Forest and Rangeland Research, the Conservancy 
requests the fiscal year 2012 level of $304 million, separate from a 
request of $83 million for Forest Inventory and Analysis.
    Sage-Grouse Conservation.--This budget includes a much-needed 
infusion of funding toward the ongoing efforts to restore and conserve 
sagebrush habitat and the greater sage-grouse through the inclusion of 
$78 million for Interior agencies ($68.3 million--BLM, $5 million--FWS, 
$4.8 million--USGS) to implement BLM plans and to support the 
partnership and science necessary for effective conservation. The 
budget also contains $62.6 million for LWCF sage-steppe related 
conservation projects and $30 million in funding for the a new 
Resilient Landscapes program within the Office of Wildland Fire that 
the Department anticipates will support resilience work in the 
sagebrush ecosystem. This funding, combined with support for agency 
core budgets and partnership programs such as the State and Tribal 
Wildlife Grant Program and section 6 Cooperative Endangered Species 
Grant Program, resembles a ramped up effort by this administration to 
work in a more coordinated fashion with States and non-Federal partners 
toward on-the-ground conservation.
    BLM Landscape Approaches to Land Management and Renewable Energy 
Development.--The Conservancy supports the administration's recommended 
fiscal year 2016 funding for BLM's initiatives to implement landscape 
approaches to land management which include Rapid Ecoregional 
Assessments, Resource Management Planning and the Planning 2.0 
initiative, Regional Mitigation Planning, coordination with LCCs, and 
the Assessment, Inventory, and Monitoring (AIM) Strategy. Many BLM 
programs contribute to these cross-cutting initiatives including: 
National Landscape Conservation System--($11.2 million); Resource 
Management Planning program ($59.34 million); Wildlife and Fisheries 
management ($89.38 million request); and Threatened and Endangered 
species management ($21.6 million request). Additionally, the 
Conservancy supports continued funding for BLM's renewable energy 
development program at $29.3 million which includes implementation of 
the Western Solar Energy Program. Collectively, these efforts will help 
BLM manage its lands efficiently and effectively for energy 
development, species and habitat conservation, recreation, and other 
uses to maximize the public benefit from these lands.
                                 ______
                                 
    Environmental Protection Agency.--EPA's ``geographic'' programs 
including the Chesapeake Bay, Great Lakes, Gulf of Mexico, Puget Sound 
and Mississippi River programs make a significant contribution to 
protecting habitat and water quality in the large landscapes where they 
work. The Conservancy urges the subcommittee to continue strong funding 
for these programs.
    Thank you for the opportunity to submit The Nature Conservancy's 
recommendations for the fiscal year 2016 Interior, Environment and 
Related Agencies Appropriations bill.
       Prepared Statement of the New England Forest Policy Group
    Madam Chairman, and distinguished members of the subcommittee, we 
are grateful for the opportunity to submit testimony today on behalf of 
the New England Forest Policy Group and the 102 conservation, forestry, 
and recreation interests listed at the end of my testimony.
    We respectfully request an increase in overall funding for the Land 
and Water Conservation Fund (LWCF) to the Authorized level of $900 
million, including $100 million for the Forest Legacy Program, $556.879 
million for the Federal LWCF, $100.121 million for the State Grants 
Program, and $25 million for the Urban Park and Recreation Fund in the 
fiscal year 2016 Interior and Environment Appropriations bill. We also 
respectfully request a minimum of $5 million for the Community Forest 
and Open Space Conservation Program, $34.145 million for the North 
American Wetlands Conservation Act, $70 million for the State and 
Tribal Wildlife Grants Program, $10 million for the Recreational Trails 
Conservation Assistance Program, $31 million for Urban and Community 
Forestry, $48 million for the Cooperative Forest Health Program, and 
$29 million for the Forest Stewardship Program.
    These levels are based upon the established needs of the New 
England States and in consideration of the demands these Programs face 
across the Nation. These conservation and forestry programs provide 
great benefit to communities that depend upon our region's forests and 
to the Nation as a whole. Anything less than the requested funding will 
further impact these Programs' effectiveness, especially in light of 
notable funding declines over the past decade. Inscrutably, America is 
under-investing in its natural resources despite the clear economic, 
ecologic, and cultural value to our health, well-being, and future.
    The New England Forest Policy Group is an informal coalition of 
forestry, recreation, and conservation organizations and businesses 
united by efforts to conserve and utilize the forested landscapes that 
characterize our region. New England's forests are the backbone of our 
forest products and recreation economies, and they provide other 
services of incalculable value including clean water and biodiversity 
protection, climate mitigation, and flood resilience. As the most 
forested region in the country, New England's economy is strongly 
dependent on the health and integrity of its forests. New England's 
forests are 80 percent privately owned, mostly in relatively small 
parcels, and landowners are facing profound challenges from rising land 
prices, escalating development pressures, climate change, and 
associated threats that will significantly diminish this irreplaceable 
landscape without the support of the programs we list here.
    As the subcommittee crafts its Interior and Related Agencies 
Appropriations bill, there are several key points we respectfully 
request you to consider:

    1. Overall Funding for the Land and Water Conservation Fund (LWCF) 
at $900 million.--Funding at the recommended $900 million is critical 
for the conservation of the natural legacy of New England and the 
country. For 50 years, LWCF has protected our Nation's natural and 
historic treasures and is a vital tool for conserving working forests, 
wildlife habitat, and supporting State and local parks. It is paid for 
by a portion of receipts from offshore oil and gas drilling; it is not 
funded from taxpayer dollars. All six New England States will receive 
funding for critically important LWCF and Forest Legacy projects if the 
requested level of $900 million is provided in fiscal year 2016. But 
more than half of New England's fiscal year 2016 Forest Legacy projects 
are not likely to succeed unless full funding is appropriated.
    2. New England Needs for Federal Land Acquisition under LWCF.--In 
fiscal year 2016, New England's proposed Federal LWCF projects are 
found in the ``Discretionary'' sections of the administration's 
proposed budget; however if the full $400 million ``Discretionary'' 
funding level is not funded, it is likely several of these important 
projects will not be completed.

          a. National Park Service LWCF Acquisitions--New England 
        National Scenic Trail in Massachusetts at $875,000, part of the 
        Collaborative Landscape Proposal for the National Trails 
        landscape (#17, Discretionary).--The proposed fiscal year 2016 
        LWCF funds are necessary for conserving and expanding the New 
        England National Scenic Trail. New England's outdoor recreation 
        economy is worth approximately $43 billion each year and 
        supports more than 330,000 jobs, according to the Outdoor 
        Industry Association.
          b. U.S. Fish and Wildlife Service LWCF Acquisitions--The 
        Silvio O. Conte National Fish and Wildlife Refuge at $2 million 
        (#11, Discretionary).--Securing protection of these 
        ecologically rich watersheds and habitat corridors is a top 
        regional priority. The Conte Refuge encompasses the spectacular 
        Connecticut River watershed--a critical four-State habitat 
        corridor and a treasure trove of ecological diversity, 
        recreation, and economic opportunity.
          c. National Park Service LWCF Acquisitions--Acadia National 
        Park at $2.476 million (#17, Discretionary).--Acadia National 
        Park contributed $221.8 million to Maine's economy in 2014 and 
        supported more than 3,485 jobs. This project will secure an 
        inholding that provides high priority access and protection to 
        the paddling gem, Round Pond.

    3. LWCF State Grants Program--$100.21 million (Programmatic, 
Discretionary and Mandatory).--The LWCF State assistance program 
provides matching grants to help States and local communities protect 
parks and recreation resources. This is the primary Federal investment 
tool to ensure that families have easy access to parks and open space, 
hiking and riding trails, and neighborhood recreation facilities.
    4. US Forest Service Programs of Special Importance to New 
England--USFS Forest Legacy and USFS Community Forest Programs.--These 
two programs in the Interior Appropriations bill are particularly 
important to New England given our region's high percentage of private 
forestland ownership and the intense development pressures on these 
lands.

          a. USFS Forest Legacy Program (FLP) needs full $100 million 
        Appropriation to meet New England's needs.--The FLP has 
        protected more than one million acres of forestland in New 
        England since its establishment in the 1990 Farm Bill. 
        Originally created to help address needs in New England and New 
        York, this program has expanded to 53 States and Territories 
        while funding levels remain static. New England has an 
        outstanding group of FLP projects in the proposed fiscal year 
        2016 budget, including 2 of the top 15 projects nationally. FLP 
        must receive the full $100 million requested to ensure that all 
        of New England's projects are funded. New England's full fiscal 
        year 2016 interests include:

      -- $3.8 million for Big Six Forest in Maine (#6, Discretionary); 
            $1.43 million for Whip-Poor-Will Woods in Connecticut (#12, 
            Discretionary).
      -- $4 million for the Worcester Woods in Vermont (#20, 
            Mandatory); $1.35 million for Groton Forest Legacy 
            Initiative projects in Vermont (#28, Mandatory), $510,000 
            for Oliverian Valley in New Hampshire (#32, Mandatory), and 
            $820,000 for Arcadia Woodlands in Rhode Island (#41, 
            Mandatory).

          b. USFS Community Forest Program needs a minimum of $5 
        million.--The Community Forest Program (CFP) is a 50-50 
        matching grant program to help local governments, tribes, and 
        non-profit organizations expand the region's proud tradition of 
        locally owned and managed lands, such as town forests. In the 
        fiscal year 2014 round of CFP grants, project partners 
        leveraged $2.3 million in Federal funds to secure $4.9 million 
        in non-Federal funding. In our region, CFP grants have been 
        awarded for economically important community forest projects in 
        Barre and Dorset, Vermont; and in Easton, New Hampshire. 
        Funding the Community Forest Program at the $5 million level 
        will much better match demand than the administration's 
        proposed level. This program is critical to New England's 
        community character and economic vitality.

    5. North American Wetland Conservation Act (NAWCA) at $34.145 
million.--The Nation's premier conservation program for wetland habitat 
protection and restoration is critical to New England. Our remarkable 
marshes and coastal and estuarine habitats support commercial and sport 
fisheries and myriad wildlife species. These lands are also important 
for protecting coastal communities--a high regional priority given 
recent devastating events like Hurricane Irene and Superstorm Sandy.
    6. State and Tribal Wildlife Grants Program (SWG) at $70 million.--
This important U.S. Fish and Wildlife Service program provides Federal 
grant funds for developing and implementing programs that benefit 
wildlife and their habitats and provides core funding for research, 
habitat restoration, and monitoring under the State Wildlife Action 
Plans. $70 million will reinvigorate the program and benefit landowners 
by keeping species off the Endangered Species list.
    7. Rivers and Trails Conservation Assistance Program (RTCA) at $10 
million.--RTCA partners with communities to protect 700 miles of 
rivers, create 1,300 miles of trails, and conserve over 60,500 acres of 
open space annually. RTCA allows the NPS to support private 
conservation organizations as well as local and State governments, 
usually in coalition, to foster important recreation, river protection, 
and land conservation efforts. This program is of high value to the 
populous New England States.
    8. Cooperative Forestry Program (including Urban & Community 
Forestry at $31 million, Cooperative Forest Health at $48 million, 
Forest Stewardship at $29 million).--These programs fund landowner 
services provided by State Foresters and Cooperative Extension 
Foresters. The proposed funding levels reflect the critical needs for 
private forestlands as endorsed by the National Association of State 
Foresters. The programs provide educational services to landowners and 
communities, and help ensure that our forested landscape remains 
healthy, resilient, and economically viable. Levels lower than those 
recommended will result in curtailing of vital services that help New 
England's family forest landowners sustainably manage their land.
    9. Urban Park and Recreation Fund (UPARR) at $25 million.--The 
President's budget proposes that UPARR, which provides matching grants 
and technical assistance to urban communities, be included within the 
LWCF umbrella and the proposal for full funding. It helps provide 
Federal assistance for rehabilitation of critically needed recreation 
facilities and for recreation planning in many New England communities.
    10. Wildfire Disaster Funding at $2.118 billion.--This funds 
wildfire suppression to protect the Nation's forest resources from 
wildfires. Our request reflects the modeled levels of suppression 
through the Interior bill and the wildfire budget cap adjustment to 
meet suppression needs in fiscal year 2016. Current spending levels for 
the suppression and FLAME accounts will not be sufficient for fiscal 
year 2016 and fighting fires will end up coming at the expense of other 
already constrained programs. We appreciate the subcommittee's support 
of the bipartisan Wildfire Disaster Funding Act (WDFA--H.R. 167; S. 
235) and respectfully request that the language be highlighted in the 
bill.
    In closing, we thank the subcommittee for your continuing 
leadership on Federal land conservation and forest viability matters 
and for the opportunity to provide this testimony. Signatory 
organizations represented by this testimony:

Androscoggin Land Trust (Maine)
Appalachian Mountain Club
Appalachian Trail Conservancy
Aspetuck Land Trust (Connecticut)
Audubon Connecticut
Audubon Society of New Hampshire
Audubon Society of Rhode Island
Audubon Vermont
Bear-Paw Regional Greenways (New Hampshire)
Boxford Trails Association/Boxford Open Land Trust (Massachusetts)
Cold Hollow to Canada (Vermont)
The Compact of Cape Cod Conservation Trusts (Massachusetts)
Connecticut Forest and Park Association
Connecticut Fund for the Environment/Save the Sound
Connecticut Land Conservation Council
Connecticut River Watershed Council (New Hampshire, Vermont, 
Massachusetts, Connecticut)
Conservation Collaboratives, LLC
Conservation Law Foundation
Cornwall Conservation Trust (Connecticut)
East Haddam Land Trust (Connecticut)
East Quabbin Land Trust (Massachusetts)
Environmental League of Massachusetts
Essex County Greenbelt Association (Massachusetts)
Fairfield County Regional Conservation Partnership (Connecticut)
Forest*Care (Vermont)
Forest Society of Maine
Franklin Land Trust (Massachusetts)
Friends of Acadia National Park (Maine)
Friends of Minuteman National Park (Massachusetts)
Friends of the Moshassuck (Rhode Island)
Friends of Pondicherry (New Hampshire)
Friends of the Rachel Carson NWR (Maine)
Friends of the Silvio O. Conte NWR (New Hampshire, Vermont, 
Massachusetts, Connecticut)
Greater Lovell Land Trust (Maine)
Green Mountain Club (Vermont)
Harris Center for Environmental Studies (New Hampshire)
High Peaks Alliance (Maine)
Highstead Foundation
Housatonic Valley Association (Massachusetts, Connecticut, New York)
Ipswich River Watershed Association
Kennebec Estuary Land Trust (Maine)
Kestrel Land Trust (Massachusetts)
Land Conservancy of Ridgefield (Connecticut)
Litchfield Hills Greenprint Collaborative (Connecticut)
Littleton Conservation Trust (Massachusetts)
Loon Echo Land Trust (Maine)
Lyme Timber Company
Maine Appalachian Trail Land Trust
Maine Coast Heritage Trust
Maine Wilderness Guides Organization
Massachusetts Association of Conservation Commissions
Mass Audubon
Massachusetts Land Trust Coalition
Massachusetts Rivers Alliance
MassConn Sustainable Forest Partnership (Massachusetts, Connecticut)
Massachusetts Woodlands Institute
Middlesex Land Trust (Connecticut)
Mill River Greenway Initiative (Massachusetts)
Monadnock Conservancy (New Hampshire)
Mount Grace Land Conservation Trust (Massachusetts)
Mt. Agamenticus to the Sea Conservation Initiative (Maine)
National Audubon Society
The Nature Conservancy
Natural Resources Council of Maine
New England Farmers Union
New England Forestry Foundation
New England Wild Flower Society
New Hampshire Recreation and Parks Association
Newtown Forest Association (Connecticut)
North Woods Resource Group, Inc.
Northeast Wilderness Trust
Northern Forest Canoe Trail
Northern Forest Center
Northland Forest Products, Inc.
Opacum Land Trust (Massachusetts)
Open Space Institute
Quabbin to Cardigan Partnership (New Hampshire, Massachusetts)
Randolph Community Forest (New Hampshire)
Rangeley Lakes Heritage Trust (Maine)
Redding Conservation Commission (Connecticut)
Rensselaer Plateau Alliance (New York)
Rhode Island Forest Conservators Organization
Rhode Island Woodland Partnership
Ridgefield, Connecticut Conservation Commission
Salisbury Association Land Trust (Connecticut)
Sandy River Land Trust (Maine)
Sharon Land Trust (Connecticut)
Shelburne Trails Club (New Hampshire)
Sierra Club, Massachusetts Chapter
Sierra Club, Vermont Chapter
Society of American Foresters, Green Mountain Division
Society for the Protection of New Hampshire Forests
Southeastern Massachusetts Pine Barrens Association
The Conservation Fund
The Trust for Public Land
The Wilderness Society
Upper Valley Land Trust (New Hampshire, Vermont)
Vermont Land Trust
Vermont Natural Resources Council
Vermont River Conservancy
Vermont Woodlands Association
Wildlands Trust (Massachusetts)
      
                                 ______
                                 
           Prepared Statement of the New York State Assembly
    Dear Senator Murkowski:

    The Great Lakes are a vast natural resource, larger in area than 
the U.S. States of New York, New Jersey, Connecticut, Rhode Island, 
Massachusetts. Vermont, and New Hampshire combined. This international 
resource represents a massive economic engine generating nearly $35 
billion/year and is responsible for 75,000 jobs in fishing, tourism and 
related industries. Several independent sources estimate $7.0 billion/
year is directly attributable to Great Lakes fisheries alone. The 
highest quality science possible is required to inform wise management 
decisions concerning conservation, water management, and fisheries 
resources throughout the Great Lakes Basin.
    Much of Lake Erie's coast is located in the 149th assembly 
district, the district I represent in the New York State Assembly. My 
district strongly supports the U.S. Geological Survey's Great Lakes 
Science Center (USGS GLSC) fisheries science because the products they 
develop are foundational to management decisionmaking on Great Lakes 
fisheries. The USGS GLSC conducts impartial, high-quality science 
essential to Federal, State, tribal, and provincial management programs 
throughout all five of the Great Lakes and in all eight Great Lakes 
States. Great Lakes management jurisdictions depend on the USGS GLSC 
Deepwater and Invasive Species Programs to provide data critical to 
understanding the long-term condition of the fish communities, and to 
development of tools and technologies needed to combat invasive species 
like the sea lamprey that threaten the valuable sport and commercial 
fisheries.
    USGS GLSC scientific research capabilities have been hit hard by 
back-to-back years of budget erosion, and worsened by a 6 percent cut 
from sequestration in 2013. Their budget in 2014 was at the same level 
it was 5 years ago in 2009. The ongoing budget impacts have led to an 
accumulation of more than 15 unfilled scientific/technical positions 
distributed throughout the Great Lakes Region. For several years now, 
USGS GLSC has been improvising to address the unfilled positions, but 
their capacity to deliver critical scientific information in a timely 
manner is in jeopardy. This high quality, impartial scientific 
information from USGS GLSC is absolutely essential for wise management 
of the fisheries and to protect them from invasive species. Now. for 
the first time since the President was elected, his 2016 budget 
highlights two areas where the USGS GLSC programs would experience 
relatively small budget increases. The President proposes: (1) a 
$250,000 increase for the Great Lakes Deepwater Assessments: and (2) a 
bureau-wide $2.0 million increase for Invasive Species which would 
likely result in a portion of those funds being directed to USGS GLSC. 
The language for the proposed funds for Great Lakes Fisheries 
Assessments (pg. C-52) and for New and Emerging Invasive Species (pg.C-
26) can be found in the fiscal year 2016 USGS Budget Justification at: 
http://www.doi.gov/budget/appropriations/2016/upload/
FY2016_USGS_Greenbook.pdf.
    Representing the 149th district, I greatly appreciate the 
subcommittees' ongoing support for programs that sustain and restore 
the Great Lakes. Herein, I join the Great Lakes Fishery Commission 
Council of Lake Committees in supporting $17.5 million in fiscal year 
2016 appropriations for the U.S. Geological Survey's Great Lakes 
Science Center. Currently, the USGS GLSC receives approximately $8.5 
million in appropriated funding to support science programs critical to 
the management of these incredibly valuable resources. Compared to 
economic returns generated from the Great Lakes, this funding level 
only represents about 1.2 percent of the annual fisheries related 
revenue and less than 0.03 percent of the revenue attributable to 
closely related industries. Our request for $17.5 million in fiscal 
2016 appropriations represents an $8.75 million increase above the 
President's fiscal year 2016 request. The President's fiscal year 2016 
request for $250,000, combined with our requested increase of $8.75 
million, and the $8.5 million annual appropriation allocated to the 
GLSC reaches the $17.5 million, and reflects long-standing, well 
recognized needs for this chronically underfunded science program. 
These needs were previously detailed in a March 2010 bi-partisan letter 
authored by nine U.S. Senators and 21 U.S. House members wrote to their 
congressional appropriation leadership to request a total science 
budget of $15.0 million; and again 2 years later in April 2012, by the 
Association of Fish and Wildlife Agencies describing the importance of 
the USGS programs to regional management decisions, and recommending an 
appropriated science budget of $15.0 million. The current requested 
increase to $17.5 million will address uncontrollable costs over the 
past 5 years and boost investments in advanced technology. Investments 
in technologies to assess the fishery have fallen well behind marine 
programs. GLSC scientists need to have access to 21st Century 
innovations like autonomous samplers that can provide critical resource 
information with greater spatial and seasonal coverage, and less 
overall cost than traditional hands-on measurements.
    The importance of the USGS information and the risks posed by 
budget cuts to their science has been well documented. The USGS 
scientific workforce has been particularly hard hit with unfilled 
permanent scientific/technical positions throughout the Great Lakes 
Region. The USGS has been improvising for several years to address the 
unfilled positions, but their capacity to deliver the critical and high 
quality scientific information in a timely manner is now in jeopardy.
    We urge you to embrace these requests in the President's budget; 
and respectfully ask you to increase these additions by $8.75 million 
for a total increase of $9.0 million for the USGS GLSC Deepwater 
Assessments.

    [This statement was submitted by Sean M. Ryan, Member of New York 
State Assembly.]
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    The Nez Perce Tribe would like to provide the following testimony 
to this subcommittee as it evaluates and prioritizes the appropriations 
for the Indian Health Service (IHS), Bureau of Indian Affairs (BIA), 
Environmental Protection Agency (EPA), the Forest Service and the Fish 
and Wildlife Service in relation to the needs of tribal nations for 
fiscal year 2016.
    As with any government, the Nez Perce Tribe does a wide array of 
work and provides a multitude of services to the tribal membership as 
well as the community at large. The Nez Perce Tribe has a health clinic 
with a satellite office, a tribal police force, a social services 
department, a comprehensive natural resource program that does work in 
forestry, wildlife management, land services and land management, 
habitat restoration, air quality and smoke management, water quality 
and sewer service, and one of the largest fisheries departments of any 
tribe in the nation working on recovery of listed species under the 
Endangered Species Act. The Nez Perce Tribe conducts its extensive 
governmental functions and obligations through a comprehensive 
administrative framework, which is necessary for a sovereign nation 
that preserves and protects the treaty rights of the Nez Perce People 
in addition to providing the day to day governmental services to its 
members and the surrounding communities. The Nez Perce Tribe has long 
been a proponent of self determination for tribes and believes its 
primary obligation is to protect the treaty-reserved rights of the Nez 
Perce Tribe and its members. All of the work of the tribe is guided by 
this principle. As a result, the tribe works extensively with many 
Federal agencies and proper funding for those agencies and their work 
with, for and through tribes is of vital importance. This work cannot 
be accomplished unless the United States continues to affirm and follow 
through on its trust responsibility and properly fund programs.
                         indian health services
    The Nez Perce Tribe currently operates a healthcare clinic on the 
Nez Perce Reservation, Nimiipuu Health. The main clinic facility is 
located in Lapwai, Idaho with a satellite facility located 65 miles 
away in Kamiah, Idaho. Nimiipuu Health provided service to 3,820 
patients last year. These 3,820 patients represented 47,673 visits 
which does not include pharmacy and laboratory visits but only medical 
provider visits. Our expenditure total for fiscal year 2014 was 
$13,942,622. Our Purchased/Referred Care costs for outpatient services 
for fiscal year 2014 was $4,125,475.
    Although the Nez Perce Tribe supports the proposed $460.6 million 
increase in funding over the fiscal year 2015 levels proposed by the 
President, it is important to note that this increase still lags far 
behind where funding should be to offset the growing needs of the 
programs and medical inflation which is estimated to be another $297.2 
million. Also, the tribe supports the recommendation of a $50 million 
dollar increase in funding proposed for purchased and referred care, 
but it too falls well short of the true need in Indian Country as is 
illustrated by the spending needs of just the Nez Perce clinic. The 
National Congress of American Indians actually recommends an increase 
of 198.2 million. Additionally, the tribe supports $718 million to be 
allocated for Contract Support Costs.
    Because full funding of these obligations is so important to Indian 
Country, the tribe supports the administration's innovative proposal to 
reclassify contract support costs for the Bureau of Indian Affairs and 
the Indian Health Service beginning in fiscal year 2017 but this 
reclassification should be permanent and not just for 3-year periods. 
Also, such a change in funding should not be accomplished or be off-set 
by reducing other funding for these agencies that would adversely 
affect services or programs. Nor should this funding be unnecessarily 
reduced by excessive set-asides for administration. The tribe also 
supports funding of the Special Diabetes Program at $150 million as 
that funding is set to expire at the end of the current fiscal year.
                        bureau of indian affairs
    The tribe supports the $277 million dollars for contract support 
costs proposed in the President's budget and the reclassification of 
these costs from discretionary to mandatory as well as the 12 percent 
increase in overall funding for the Bureau of Indian Affairs. The tribe 
also supports the Presidential budget request to include a Carcieri fix 
to address legal issues that have arisen related to the transfer of 
land into trust and created uncertainty over the status of lands. This 
uncertainty will only stifle and impede economic development in Indian 
Country. A legislative amendment to restore the sovereign status of 
these lands is needed now.
    In relation to the Bureau of Indian Affairs Public Safety and 
Justice budget, the tribe advocates for at least the $364.4 million 
dollars in funding proposed in the President's budget. The Nez Perce 
Reservation covers 1,200 square miles and covers five counties and has 
a mixture of tribal and non-tribal residents. The tribe provides a full 
service law and justice program, beginning with a fully trained and 
staffed police force, tribal court, prosecutor and related 
administrative functions. Currently, the Nez Perce Tribe contributes 
over $1,497,626 per year to cover the shortfall in BIA funding for the 
tribe's law enforcement, $408,821 for judicial services/probation, 
$319,649 for prosecutorial services, $87,072 for public defender 
services and $400,000 for prisoner boarding. This funding comes from 
tribal taxes and tribal gaming revenues. The funding for these programs 
needs to be increased to account for the shortfalls in funding the 
tribe has to absorb to continue the operation of these vital services 
on the reservation.
    In relation to education, the tribe requests $42 million for 
Johnson O'Malley Funding, $5 million for tribal education departments 
and $89.1 million for tribal colleges that would support institutions 
such as the Northwest Indian College that operates a satellite campus 
on the Nez Perce Reservation. It should also be noted that scholarship 
funding provided by the BIA has remained static for the past decade 
while the cost of attending college has risen faster than can be 
accounted for by simple inflation. The tribe recently set up an 
educational endowment to supplement the BIA education funds but the BIA 
funds need to be increased.
    The tribe also relies on the BIA for funding for its work related 
to endangered species and protection of the tribe's treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement the research efforts of the tribe relative to other 
sensitive species. The BIA Endangered Species Program should be funded 
at $3 million dollars as it provides tribes with the technical and 
financial assistance to protect endangered species on trust lands but 
funding of this program has declined significantly over the last 8 
years. Also, the BIA Natural Resource Tribal Priority Allocations 
should be increased to $10 million as this funding has remained flat 
for years at just under $5 million. This expenditure will help increase 
tribal land and management capabilities.
    In addition, the funding provided under the BIA Rights Protection 
implementation monies are critical to support the exercise of treaty 
reserved off-reservation hunting and fishing for tribes like the Nez 
Perce and it should be funded at $52 million dollars. The BIA single-
line dollars do provide the foundation for core program administration 
and treaty rights protection activities, such as harvest monitoring and 
conservation enforcement. And of course, these efforts are central to 
the tribe's fisheries management responsibilities as established in the 
treaties and further delineated in litigation regarding implementation 
of hunting and fishing treaty rights. It is important to understand 
that this funding is not for equipment but is used for job creation and 
this funding has stayed static.
    The tribe also supports funding for the BIA Wildlife and Parks 
Tribal Priority Allocations of $3.3 million dollars and $6.5 million 
dollars as these funds allow for important work to be done on fish 
recovery through hatchery operation and maintenance. As stated earlier, 
the tribe has invested a large amount of its personnel and resources in 
the restoration and recovery of this important resource through its 
fisheries programs. The States of Oregon, Washington and Idaho directly 
benefit from this work as well through sports fisheries. These programs 
have been successful but more work needs to be done. The Tribal 
Management and Development Program also needs increased funding. The 
tribe recommends $20 million for base and programmatic funding. This 
program is critical for fish and wildlife management of the tribe.
   fish and wildlife service, forest service and cultural protection
    The tribe relies heavily on funding sources within the Fish and 
Wildlife Service and the Forest Service. First, the Tribal Wildlife 
Grants program administered by the U.S. Fish and Wildlife Service is a 
cost effective expenditure for the Government. This small pot of money 
has resulted in huge returns from the tribe's perspective. Since 2005, 
we have received five such grants that have allowed us to work on such 
diverse issues as gray wolf monitoring, bighorn sheep research, and 
rare plant conservation. Continued funding for the Tribal Wildlife 
Grant program will allow recipient tribes to build capacity and 
maintain involvement in key conservation issues. It should be noted 
that this competitive grant does not simply dole out funds for projects 
but awards grants based on the quality of the proposal. As mentioned 
above, the tribe has received five grants under this program totaling 
$1 million based on the quality of our research work. Funding for these 
grants was reduced in previous fiscal years. The tribe strongly urges 
this subcommittee to increase this funding to $8 million as it provides 
a large return in work for a small investment. It is also one of the 
few sources of funds tribes can tap into for wildlife research.
    Related to forest management, the tribe supports wildfire disaster 
funding legislation that treats wildfires like other natural disasters 
and emergencies to help prevent funds from having to be diverted from 
forest management. The tribe also supports increasing BIA Forestry 
funding (TPA and Forestry Projects) by $25 million to an fiscal year 
2016 total of $76.9 million as a first step toward providing the $100 
million the BIA needs as minimum annual funding to achieve parity with 
other Federal forestry programs.
    The Nez Perce Reservation and its usual and accustomed areas are 
rich in natural resources and encompass eleven different national 
forests. The tribe works closely with each forest administration to 
properly manage its resources on behalf of the tribe. These range from 
protecting and properly managing the products of the forest to managing 
the vast wildlife in each one such as elk, deer, bighorn sheep and 
wolves. Increased funding is necessary so that the Forest Service can 
meet these trust obligations and continue to work with tribes such as 
the Nez Perce on a government to government basis.
    Finally, there should be $15 million dollars allocated for the 
Tribal Historic Preservation Office Program and $4 million dollars for 
repatriation to help ensure tribal remains and cultural properties are 
protected to the greatest extent possible.
                    environmental protection agency
    The Nez Perce Tribe currently implements, on behalf of the 
Environmental Protection Agency, the Federal Air Rules for Reservations 
program (FARR) and receives funding from the State and Tribal 
Assistance Grants Program and Tribal General Assistance Grants. The 
Tribe supports a budget of $75 million for these grants because of the 
importance of these funds for tribal governance. The FARR program 
monitors air quality and regulates field burning throughout the Nez 
Perce Reservation. The tribe is located in Region 10 of the EPA and 
this increase in funding is needed for tribes to meet their air quality 
needs and operate programs under the delegation of the EPA.
    In addition to the air quality program, the Nez Perce Tribe is 
working with other Idaho tribes on surveying fish consumption rates 
which is an important tool in efforts to protect the health of tribal 
members. Funding for this work is important. The tribe also relies 
heavily on contract support dollars for our water resource programs 
such as storage tank remediation and watershed restoration.
    As you can see, the Nez Perce Tribe does a tremendous amount of 
work in a variety of areas. It is important that the United States 
continue to fund this work and uphold and honor its trust obligations 
to tribes. Thank you.
                                 ______
                                 
Prepared Statement of the North American Association of Food Equipment 
                             Manufacturers
    The North American Association of Food Equipment Manufacturers 
(NAFEM) is a trade association comprised of more than 525 foodservice 
equipment and supplies manufacturers. The association's members 
constantly seek opportunities to improve equipment, both in response to 
market demands and as an innovative means of product improvement.\1\
---------------------------------------------------------------------------
    \1\ NAFEM members helped develop and actively participate in ENERGY 
STAR in recognition of the role of voluntary, market-driven incentives 
for improving the efficiency of commercial foodservice equipment and 
supplies. NAFEM and its members support measures to limit the impact of 
ozone depleting substances and efforts to increase the energy 
efficiency of commercial foodservice equipment while continuing to 
provide the products, performance and reliability expected in the 
marketplace.
---------------------------------------------------------------------------
EPA SNAP Rule: Negative Policy Consequences
    The Environmental Protection Agency released a proposed rule on 
August 6, 2014 under its Significant New Alternatives Policy Program 
(SNAP), under which various HFC's and HFC-containing blends that were 
previously listed as acceptable alternatives to ozone-depleting 
substances will have their status changed to ``unacceptable'' as 
refrigerants for commercial refrigeration and foam blowing agents used 
in commercial refrigeration applications. The EPA believes that a 
limited number of new substitutes pose a lower risk overall to human 
health and the environment.
    The proposal and the assumptions made by EPA reveal a rulemaking 
process that fails to consider the technological and economic 
challenges of introducing these refrigerants into the North American 
market. The agency does not address the changes in manufacturing 
processes that will be required, the time period in which such changes 
can be made, the ability of current technology to utilize the proposed 
alternatives, and the safety issues raised by their application.
    Furthermore, the proposed delisting of currently acceptable 
refrigerants of January 1, 2016 will threaten the energy efficiency and 
performance of refrigeration products, as well as compromise the health 
and safety of employees involved in the manufacturing, distribution, 
service and end-user markets of commercial refrigeration. These dangers 
also could extend to the public at large as flammable refrigerants are 
introduced for certain market applications. In all applications, EPA's 
proposal does not provide adequate time to research, design, test, 
train and certify these commercial refrigeration products reliant on 
new alternative refrigerants.
    EPA's proposal also directly conflicts with recently promulgated 
energy efficiency standards established by the Department of Energy 
(DOE), which rely on some of the very refrigerants that EPA now 
proposes to ban. Manufacturers are finding that it is neither 
technologically nor economically feasible for them to develop products 
that meet both the energy conservation standards and also utilize 
acceptable alternatives to existing refrigerants and blowing agents.\2\ 
In fact, the proposed alternative refrigerants are less energy 
efficient than the ones being banned. If less efficient refrigerants 
and insulation blowing agents are required by EPA, commercial 
refrigeration manufacturers face an impossible situation--manufacture 
more efficient products pursuant to DOE regulations using less 
efficient refrigerants pursuant to EPA regulations.
---------------------------------------------------------------------------
    \2\ See DOE dockets affecting automatic commercial ice makers 
(EERE-2010-BT-STD-0037), commercial refrigeration equipment (EERE-2010-
BT-STD-003), and walk-in coolers and walk-in freezers (EERE-2008-BT-
STD-0015).
---------------------------------------------------------------------------
EPA SNAP Rule: Flawed Rulemaking Making Policies
    EPA's SNAP proposal violates the principles set out in Executive 
Order 13563, Improving Regulation and Regulatory Review, Executive 
Order 13610, Identifying and Reducing Regulatory Burdens, and Executive 
Order 12866, Regulatory Planning and Review.\3\
---------------------------------------------------------------------------
    \3\ Executive Order 13563 of January 18, 2011, found at 76 F.R. 
3821 (January 21, 2011), Executive Order 13610 of May 10, 2012, found 
at 77 F.R. 28469 (May 14, 2012, and Executive Order 12866 of September 
30, 1993, found at 58 F.R. 51735 (October 4, 1993).
---------------------------------------------------------------------------
    The value and strength of established principles of rulemaking 
addressed in these executive orders are in their actual application in 
active rulemaking and their ability to influence final rules. We find, 
however, that they are often ignored and given only a pro forma 
acknowledgement, rather than revealing themselves as elements that 
contribute to the agency's dialogue with stakeholders, influence the 
development of regulatory proposals and yield actual outcomes by way of 
final rulemaking.
    The SNAP rule as proposed is a prime example.\4\ The current 
proposal limits commercial refrigeration equipment to four refrigerant 
options: Ammonia, CO<INF>2</INF>, Isobutene and Propane, 
notwithstanding the known toxicity, flammability, and costs of these 
alternatives and the greater energy efficiency potential of the HFCs in 
use today. Furthermore, EPA's proposed timeline fails to take into full 
consideration the time and investments needed to retrofit manufacturing 
plants and processes and market dislocation that will occur. When 
compared to the resulting global warming benefit that EPA itself 
calculates, we believe the proposal violates the very core principles 
of American policymaking.
---------------------------------------------------------------------------
    \4\ See NAFEM comments recently filed with EPA in the matter of 
``Improving EPA Regulations'' (EPA-HQ-OA-2011-0156).
---------------------------------------------------------------------------
    As an example, meaningful input prior to publication of a proposed 
rule was lacking. For example, regarding the listing of substitutes for 
refrigeration, NAFEM member Hoshizaki America has questioned the test 
method used in assessing flammability and fire safety and also points 
out the need to test and evaluate the venting of flammable 
refrigerants.\5\ NAFEM member Traulsen questioned EPA's assumption that 
a trained service network will exist for flammable refrigerants and 
believes EPA's reliance on fire extinguishers in settings where such 
equipment will be in use is inappropriate and unrealistic.\6\ If taken 
up in dialogue with stakeholders prior to developing the proposal, such 
information gathering could result in more realistic and potentially 
more achievable proposals.
---------------------------------------------------------------------------
    \5\ See Comment submitted by Stephen Schaefer, Administrator 
Engineering Group, Team Leader, Hoshizaki America, Inc. at http://
www.regulations.gov under docket number EPA-HQ-OAR-2013-0748 and 
identification number RIN 2060-AS04.
    \6\ See Comment submitted by Mary Dane-Greenhow, Agency Approval 
Engineer, Traulsen--ITW Food Group, LLC at http://www.regulations.gov 
under docket number EPA-HQ-OAR-2013-0748 and identification number RIN 
2060-AS04.
---------------------------------------------------------------------------
No Coordination between Agencies; No Consideration of Cumulative 
        Regulatory Burden
    Executive Order 13563 acknowledges that the regulated community is 
subject to rules from various agencies and establishes the principle 
that agencies should seek to harmonize their rules and otherwise 
coordinate with each other in their rulemaking.\7\ Executive Order 
13610 further calls on agencies to simplify and harmonize regulations 
that impact small businesses. This order also emphasizes a hallmark of 
Executive Order 12866, calling on agencies to consider the cumulative 
effects of their regulations.\8\
---------------------------------------------------------------------------
    \7\ See Section 3, Integration and Innovation, Executive Order 
13563 (January 18, 2011): Some sectors and industries face a 
significant number of regulatory requirements, some of which may be 
redundant, inconsistent, or overlapping. Greater coordination across 
agencies could reduce these requirements, thus reducing costs and 
simplifying and harmonizing rules. In developing regulatory actions and 
identifying appropriate approaches, each agency shall attempt to 
promote such coordination, simplification, and harmonization. Each 
agency shall also seek to identify, as appropriate, means to achieve 
regulatory goals that are designed to promote innovation.
    \8\ See Section 3, Setting Priorities, Executive Order 13610 (May 
10, 2012): Consistent with Executive Order 13563 and Executive Order 
12866 of September 30, 1993 (Regulatory Planning and Review), agencies 
shall give consideration to the cumulative effects of their own 
regulations, including cumulative burdens, and shall to the extent 
practicable and consistent with law give priority to reforms that would 
make significant progress in reducing those burdens while protecting 
public health, welfare, safety, and our environment.
---------------------------------------------------------------------------
    NAFEM believes this coordination includes intentional dialogue and 
communication among agencies. We believe this principle covers not only 
a review of existing regulations that may have over time become 
redundant, inconsistent, or overlapping, but also covers pending 
proposals, implementation timelines of rules already promulgated, and 
elements of an agency's regulatory agenda.
    EPA and DOE are simultaneously involved in imposing new 
requirements on manufacturers of certain types of refrigeration 
equipment that have significant cost, productivity and competitiveness 
consequences. Both agencies make assumptions about technology 
applications in the same equipment, independent of each other and 
towards different regulatory goals, despite the fact that manufacturers 
and their vendors have repeatedly told both agencies that the gains 
expected are not achievable.
    EPA should coordinate its current and planned regulatory agenda 
with DOE where the availability of HFC refrigerants plays a significant 
role in the regulatory propositions and conclusions made in multiple 
DOE proceedings. When raised by NAFEM within the public comment period 
for proposed energy conservation standards for walk-in coolers and 
freezers, consider DOE's response in June 2014:

        [NAFEM] requested that DOE incorporate the phase out of HFCs in 
        its analysis. NAFEM stated that alternative refrigerants could 
        add to overall engineering costs and reduce energy savings . . 
        . The use of alternative refrigerants is not a direct result of 
        this rule and is not included in this analysis. Furthermore, 
        there is no regulatory requirement to use alternative 
        refrigerants at this time. DOE does not include the impacts of 
        pending legislation or regulatory proposals in its analysis, as 
        any impact would be speculative. For this final rule, DOE does 
        not include the impact of alternative refrigerants in its 
        analysis.\9\
---------------------------------------------------------------------------
    \9\ See 79 F.R. 32050 at 32092 (June 3, 2014).
---------------------------------------------------------------------------
In Conclusion
    The unrealistic timeline proposed by EPA for the application of 
alternative refrigerants in commercial refrigeration reveals a failed 
rulemaking process that ignores the negative impacts on the very public 
policy goals intended. The principle of coordination among agencies 
overseeing various regulatory regimes and rulemaking efforts, and its 
corollary principle of harmonizing regulations among the various 
agencies, cry out for an active dialogue of review, planning, and 
rollout of proposals, promulgation and implementation between EPA and 
DOE relative to allowable refrigerants and energy efficiency standards. 
Where a rulemaking agency fails to follow accepted principles of 
policymaking, Congress has an important role to play in its oversight 
and funding responsibilities.

    [This statement was submitted by Charlie Souhrada, CFSP, Director, 
Member Services.]
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    The Northwest Indian Fisheries Commission (NWIFC) is comprised of 
the 20 tribes that are party to the United States v. Washington \1\ 
(U.S. v. Washington). To meet the many natural resources management 
responsibilities required of the tribes, I submit the following 
requests for the Bureau of Indian Affairs (BIA) and the Environmental 
Protection Agency (EPA).
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2016 appropriations requests
Bureau of Indian Affairs
  --Provide $17.146 million for Western Washington Fisheries 
        Management.
  --Provide $3.082 million for Washington State Timber-Fish-Wildlife.
  --Provide $4.844 million for U.S./Canada Pacific Salmon Treaty.
  --Provide $2.4 million for Salmon Marking.
  --Provide $4.5 million for Climate Change.
  --Provide $6.582 million for Fish Hatchery Maintenance.
  --Provide $3.796 million for Fish Hatchery Operations.
  --Provide $272.0 million for Contract Support.
  --Provide $30.355 million for Tribal Climate Resilience.
  --Provide $830,000 for Watershed Restoration.
Environmental Protection Agency
  --Provide $96.4 million for General Assistance Program.
  --Provide $50.0 million for Puget Sound.
  --Provide $5.0 million for Beyond GAP.

    We are generally pleased with the President's fiscal year 2016 
budget request, which includes and builds on many of the subcommittee's 
actions from the past few years. It contains funding to support the 
tribal treaty right, including research and analysis for sustainable 
management of our natural resources and climate adaptation. The treaty-
reserved rights are at grave risk today as the resources they are 
dependent on are disappearing and the reason the western Washington 
treaty tribes brought to the Federal Government our Treaty Rights at 
Risk Initiative. On behalf of our 20 member tribes, I am here today to 
speak specifically to our fiscal year 2016 natural resources management 
and environmental program funding requests for the BIA and the EPA.
                       justification of requests
Bureau of Indian Affairs
            Rights Protection Implementation Subactivity
    The 41 tribes in the Great Lakes and Pacific Northwest with similar 
treaty-reserved rights have collectively identified that no less than 
$52.0 million for Rights Protection Implementation (RPI) is necessary 
for essential tribal treaty rights management. The President's fiscal 
year 2016 budget includes $40.138 million for RPI, an increase of 
$4.718 million over the fiscal year 2015 enacted level of $35.420 
million. A summary of the accounts of interest to us within RPI are 
further identified below. However, a breakdown of these accounts in the 
BIA's Greenbook is not provided for fiscal year 2016.

    Provide $17.146 million for BIA Western Washington Fisheries 
Management.--We respectfully request $17.146 million, an increase of 
$8.614 million over the fiscal year 2015 enacted level of $8.532 
million. Funding for this program allows for continued treaty harvest 
management, population assessment, habitat protection and data 
gathering for finfish, shellfish, groundfish, wildlife and other 
natural resource management needs. Funds provide the necessary capacity 
for the treaty tribes to co-manage the resources with the State of 
Washington and to continue to meet court mandates and legal 
responsibilities.
    Provide $3.082 million for BIA Washington State Timber-Fish-
Wildlife.--We respectfully request $3.082 million, an increase of 
$346,000 over the fiscal year 2015 enacted level of $2.736 million. 
Funding for this program is provided to improve forest practices on 
State and private lands while providing protection for fish, wildlife 
and water quality. This will provide the necessary funding for tribal 
TFW programs to fully participate in the TFW process.
    Provide $4.844 million for BIA U.S./Canada Pacific Salmon Treaty.--
We respectfully request $4.844 million, an increase of $564,000 over 
the fiscal year 2015 enacted level of $4.28 million. The Pacific Salmon 
Treaty (PST) Act of 1985 charges the United States Section of the 
Pacific Salmon Commission (PSC) with the responsibility for 
implementation of the PST, a bilateral treaty with Canada. Tribes 
assist in meeting the Federal Government's obligations in implementing 
the treaty by participating in cooperative research and data gathering 
activities. This will provide sufficient funding to ensure that the 
tribes can continue to participate effectively in the bilateral PST 
process.
    Provide $2.4 million for BIA Salmon Marking.--We respectfully 
request $2.4 million, an increase of $1.328 million over the fiscal 
year 2015 enacted level of $1.072 million. Funding for this program was 
mandated in 2003 by Congress that required all salmon released from 
federally funded hatcheries be marked so they could be identified for 
conservation purposes. This allows tribes to mark salmon at tribal 
hatcheries and to use these marked fish to scientifically monitor 
salmon populations and watersheds in western Washington.
    Provide $4.5 million for BIA Climate Change.--We respectfully 
request $4.5 million for Climate Change for our member tribes, an 
increase of $3.109 million over our fiscal year 2015 allocation. The 
fiscal year 2015 appropriations provided a total of $3.224 million, of 
which our member tribes received $1.391 million. Funding for this 
program will provide tribes the capacity to identify, respond and adapt 
to the impacts of our changing climate. There is a glaring need to 
assess the potential impacts to resources in the face of climate 
change, which brings different challenges for every tribal community. 
It is important that tribes be provided the maximum flexibility to 
develop specific science-based activities to meet their particular 
needs.
            Fish, Wildlife and Parks Projects
    Provide $6.582 million for BIA Fish Hatchery Maintenance.--We 
respectfully request $6.582 million, an increase of $82,000 over the 
fiscal year 2015 enacted level of $6.5 million. Tribal fish hatcheries 
in western Washington are part of the largest fish hatchery system in 
the world. Funding for this program is provided to tribes nationwide 
based on the ranking of annual maintenance project proposals. 
Hatcheries also play a large role in recovering pacific salmon, many of 
which are listed under the Endangered Species Act. A comprehensive 
needs assessment study was conducted in fiscal year 2006 by the BIA at 
the request of Congress which identified a need of over $48.0 million 
in necessary hatchery maintenance and rehabilitation costs.
    Provide $3.796 million for BIA Fish Hatchery Operations.--We 
respectfully request $3.796 million, an increase of $1.939 million over 
the fiscal year 2015 enacted level of $1.857 million. This increase 
reflects the needs of the western Washington treaty tribes. Funding for 
this program is provided to tribal hatcheries to support the rearing 
and releasing of salmon and steelhead for harvest by Indian and non-
Indian fisheries in the U.S. and Canada. Hatcheries are a necessary 
part of fisheries management because of the lack of wild salmon 
production due to habitat degradation. They continue to play a vital 
role in supporting tribal fisheries and are now essential for 
maintaining the treaty right to harvest fish. Without hatcheries tribes 
would lose their most basic ceremonial and subsistence fisheries that 
are central to our tribal culture.
            Other Subactivities and Accounts
    Provide $272.0 million for BIA Contract Support.--We support the 
President's request of $272.0 million, an increase of $26.0 million 
over the fiscal year 2015 enacted level of $246.0 million. We also 
support the President's legislative proposal to reclassify CSC as 
mandatory funding beginning in fiscal year 2017. Funding for this 
function is provided to tribal organizations to ensure they have the 
capacity to manage Federal programs under self-determination contracts 
and self-governance compacts. These funds are critical as they directly 
support our governmental functions, which allow us to fully exercise 
our right to self-govern.
    Provide $30.355 million for BIA Tribal Climate Resilience.--We 
support the President's request of $30.355 million, an increase of 
$20.407 million over the fiscal year 2015 enacted level of $9.948 
million. Funding for this program will contribute to the tribal 
capacity needed to participate and provide input on climate change 
issues. It will assist tribes in being able to provide their 
perspective on climate change adaptation in the form of traditional 
ecological knowledge necessary to protect their treaty rights.
    Provide $830,000 for BIA Watershed Restoration.--We respectfully 
request $830,000, an increase of $455,000 over the fiscal year 2015 
operating plan. The fiscal year 2015 operating plan provided a total of 
$375,000 to western Washington treaty tribes. Funding is contained in 
the Forestry Subactivity--Forestry Projects--Watershed Restoration 
account and supports our Salmon and Steelhead Habitat Inventory and 
Assessment Program. This provides environmental data management, 
analysis, and reporting support and maintains on-going efforts to 
develop information sharing and exchange tools. It also supports our 
tribes' ability to adequately participate in watershed resource 
assessments and salmon recovery work.
Environmental Protection Agency
    Provide $96.4 million for EPA General Assistance Program.--We 
support the President's request of $96.4 million, an increase of 
$30.924 million over the fiscal year 2015 enacted level of $65.476 
million. This funding has built essential tribal capacities and remains 
critical to the tribes' ability to sustain their important 
environmental protection programs. Funding for this program continues 
to provide the base capacity for tribal environmental protection 
programs nationwide.
    Provide $50.0 million for EPA Puget Sound.--We respectfully request 
$50.0 million, an increase of $20.0 million over the President's 
request of $30.0 million. The fiscal year 2015 appropriations provided 
a total of $28.4 million. The Puget Sound Geographic Program provides 
essential funding that will help protect, restore and enhance Puget 
Sound, an estuary of national significance. Funding for this program 
will allow the tribes to participate in the necessary scientific work, 
implementation measures, and policy discussions on issues that affect 
our treaty rights. It allows the tribes to participate in implementing 
the Puget Sound Action Agenda.
    Provide $5.0 million for EPA Beyond GAP.--We respectfully request 
$5.0 million. The President's fiscal year 2016 budget did not include 
any proposed funding for this new initiative. We request an annual 
increase to the EPA CWA 104 budget for a water pollution implementation 
program. Increasing the tribal allocation will allow for an immediate 
expansion and response to specific implementation needs. This will 
provide targeted funds to our member tribes for implementation of 
Federal environmental programs and to initiate our ``Beyond GAP'' 
request. This initiative would move the EPA/tribal partnership from 
capacity building and limited programmatic support to a more 
comprehensive and consistent funding to achieve fully functional tribal 
environmental programs capable of implementing a broad range of 
necessary environmental activities.
                               conclusion
    We respectfully urge you to continue to support our efforts to 
protect and restore our great natural heritage that in turn will 
provide for thriving communities and economies. Thank you.

    [This statement was submitted by Lorraine Loomis, Chairwoman.]
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation
    The requests of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2016 Indian Health Service (IHS) budget are as follows:

  --Direct the IHS to fully fund the Village Built Clinic (VBC) leases 
        in accordance with section 804 of the Indian Health Care 
        Improvement Act and allocate an additional $12.5 million to VBC 
        leases.
  --Shield the IHS from sequestration in fiscal year 2016 and beyond.
  --Place contract support costs on a mandatory funding basis.
  --Funding for built-in costs.
  --Place IHS funding on an advance appropriations basis.
  --Construction of clinics at Gambell and Savoonga on St. Lawrence 
        Island, at a cost of $8.6 million, and clarify to IHS that 
        Village Built Clinics are eligible for IHS construction funds.

    The Norton Sound Health Corporation is the only regional health 
system serving Northwestern Alaska. It is on the edge of the Bering 
Sea, just miles from the Russian border. We are not connected by road 
with any part of the State and are 500 air miles from Anchorage--about 
the distance from Washington, DC to Portland, Maine. Our service area 
encompasses 44,000 square miles, approximately the size of Indiana. We 
are proud that our system includes a tribally owned regional hospital 
which is operated pursuant to an Indian Self-Determination and 
Education Assistance Act (ISDEAA) agreement, and 15 village-based 
clinics.\1\ The logistics and costs associated with travel and 
transportation are a daily challenge, to say the least.
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    End Chronic Underfunding Of Village Built Clinics.--The NSHC 
healthcare system includes 15 Village Built Clinics (VBCs). The VBCs 
are essential for maintaining the IHS Community Health Aide Program 
(CHAP) in Alaska, which provides the only local source of healthcare 
for many Alaska Native people in rural areas. The CHAP program is 
mandated by Congress as the instrument for providing basic health 
services in remote Alaska Native villages. The CHAP program cannot 
operate without the use of clinic facilities. This is a huge issue. 
Senator Murkowski noted in her hearing on the fiscal year 2016 IHS 
budget that when she is in rural Alaska she hears as much or more about 
this issue than any other.
    The IHS has for many years consistently under-funded the leases of 
VBCs even though the IHS has had available appropriations to fully fund 
the leases. Lease rental amounts for the VBCs have failed to keep pace 
with costs --the majority of the leases for VBCs have not increased 
since 1989. The IHS has instead shifted its statutory responsibilities 
onto the villages and NSHC, which does not have adequate financial 
resources to maintain and upgrade the VBCs for CHAP staff. As a result, 
many of the VBCs are unsafe or have had to be closed, leaving some 
villages in Alaska without a local healthcare facility.
    NSHC and many other tribal organizations in Alaska have discussed 
this issue with the IHS on several occasions, and have proposed 
solutions that the IHS continues to ignore. IHS continues to assert 
that it provides for VBC leases all of the funds that Congress has 
appropriated for the program. In our view, the amounts historically 
traceable to the VBC leases are not capped by statute and are not the 
only funds available for that program. The Indian Health Facilities 
appropriation is a lump-sum appropriation that can be used for 
construction, repair, maintenance, improvements and equipment, and 
includes a sub-activity for maintenance and improvement of IHS 
facilities. The VBCs are IHS facilities acquired by lease in lieu of 
construction and should thus be eligible for maintenance and 
improvement funding. The IHS can also access other IHS discretionary 
funds to fully fund its VBC obligations.
    For fiscal year 2016, we urge that an additional $12.5 million be 
appropriated to more fully fund VBC leases. We also ask that IHS in its 
budget recommendations: (1) identify the amount needed to fully fund 
VBCs; (2) request that amount in a separate line in the IHS budget; and 
(3) allocate that amount to the VBC lease program.
    Protect the IHS from Sequestration.--As you are well aware, the IHS 
was subject to a fiscal year 2013 sequestration of roughly 5 percent of 
the IHS's overall budget even though other health programs--notably the 
Veterans Administration, State Medicaid grants and most of Medicare--
were exempted. We are heartened by comments made in Interior 
Appropriations hearings this year and last that the sequestration of 
IHS funds should not have taken place and a number of members--
including our delegation--are committed to protecting the IHS from 
future sequestration. We are grateful that Congress took action to 
avert a sequestration in fiscal years 2014 and 2015, but, of course, we 
are faced with the prospects of it in fiscal year 2016 and beyond.
    We thus strongly urge the Congress to fully exempt the IHS from any 
future sequestration, just as the VA and other health programs are 
exempt.
    Contract Support Costs Mandatory Funding.--We support the 
administration's proposal to fund Contract Support Costs (CSC) on a 
mandatory basis, although we urge, along with many other tribes and 
tribal organizations, that Congress enable it to become effective with 
fiscal year 2016. The administration's proposal differs from our and 
others in Indian Country proposal that CSC be funded indefinitely and 
not capped, but we gratefully acknowledge this proposal as a huge step 
for the administration. We are hopeful that the $718 million proposed 
for CSC funds for IHS will be sufficient for full funding for fiscal 
year 2016--a lot of work has gone into the estimated calculation and 
that should bode well for future estimates as well.
    We so appreciate your support for full funding of CSC and your 
blunt statement accompanying the Fiscal Year 2014 Appropriations Act 
that the legal obligation to fully fund CSC had put the House and 
Senate Committees in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.''
    We ask for your active help in working with the Budget Committee on 
this proposal for mandatory CSC funding. You have had a great deal of 
experience in talking with Indian and Alaska Native leaders about the 
frustrations and the inequity of tribes and tribal organizations who 
contract to assume administration of Federal programs not being paid 
for the costs to administer them. We know that member-to-member 
communications are of the utmost importance and you have much to offer 
others in Congress who will weigh in on this issue.
    Funding for Built-in Costs.--We appreciate the administration's 
fiscal year 2016 request of $147.3 million for built-in costs 
consisting of $71.2 million for medical inflation at a 3.8 percent 
rate; $19.4 million for a 1.3 percent pay raise; and $56.7 million to 
partially fund population growth ($70.3 million needed for full funding 
according to IHS) and urge Congress to fund this request.
    Built-in costs are often sacrificed in the budget negotiation 
process, but lack of them impacts all programs. Inflation--medical and 
non-medical; required pay raises, and population growth are real facts 
of life and affect our ability to provide sufficient healthcare 
services.
    While for fiscal year 2015 the administration requested $63 million 
for medical inflation and $2.6 million to partially fund pay raises, 
the final bill provided only $2.6 million for pay raises (estimated 
cost is $20 million) but no other built-in costs. For fiscal year 2014 
the only IHS built-in costs provided was $35 million for medical 
inflation for the Purchased/Referred Care program. In fiscal years 
2011-2013, appropriations for built-in costs were minimal.
    IHS Advance Appropriations.--As with our testimony last year, we 
ask that the IHS budget be transitioned to an advance appropriations 
basis. We know you are sympathetic to our frustrations caused by the 
funding of IHS and other Federal agencies via a series of start and 
stop Continuing Resolutions. We are appreciative of Representative Don 
Young's introduction of H.R. 395 to authorize IHS advance 
appropriations and for our entire Alaska delegation in the 113th 
Congress for introducing the same legislation.
    The current (fiscal year 2015) fiscal year funding was enacted 2\1/
2\ months after the beginning of the fiscal year; in fiscal years 2013 
and 2014 it was 6 months and 3\1/2\ months, respectively, after the 
beginning of the fiscal year. Following enactment, there is a couple 
month process of clearance through the agency and the OMB and then 
allotment to the Area Offices and finally to the tribes. Both the 
tribal and IHS programs suffer under this situation. We want to do the 
best job possible in planning, decisionmaking and administering 
programs but are limited by not knowing how much funding will be 
available or when it will be available. It also requires constant re-
working of our budget, resources better devoted to providing healthcare 
services.
    Congress has provided the authority for the Veterans Administration 
(VA) medical accounts to receive funding on an advance basis and the 
Budget and Appropriations Committees have provided the necessary 
support for that authority. We are struck by the justification in the 
proposed fiscal year 2016 budget (fiscal year 2017 advance 
appropriations) for the VA and we ask for parity:

        For 2017, the budget requests $63.3 billion in advance 
        appropriations for the three medical care appropriations: 
        Medical Services, Medical Support and Compliance, and Medical 
        Facilities. This request for advance appropriations fulfills 
        the administration's commitment to provide reliable and timely 
        resources to support the delivery of accessible and high-
        quality medical services for veterans. This funding enables 
        timely and predictable funding for VA's medical care to prevent 
        our Nation's veterans from being adversely affected by budget 
        delays, and provides opportunities to more effectively use 
        resources in a constrained fiscal environment. (Appendix, 
        Budget of the U.S. Government, p. 1058).

    Clinic Construction.--The NSHC has completed the final designs for 
replacement of the Village Built Clinics at Gambell and Savoonga on St. 
Lawrence Island. We are requesting $8.6 million in IHS construction 
funds for this purpose. The IHS does not have a definitive response to 
the question of VBC eligibility for construction funds and we ask that 
Congress clarify that they are eligible for these funds. There is no 
prohibition on it, and the VBCs are serving IHS beneficiaries the same 
as though those clinics in rural areas in the lower 48.
    We would like you to know what we have done thus far on this 
project. Working with Bettisworth North Architects (BNA) and the 
communities, we modified a prototype village clinic design BNA 
developed for the Maniilaq Association several years ago which was 
successfully constructed throughout the NANA region. The clinics are 
5,200 square feet with the floor plan having been slightly modified 
from the prototypical starting point in order to provide specific 
health programs delivered by NSHC in Gambell and Savoonga. The 
adaptation of the existing Maniilaq prototype design was cost effective 
with respect to design fees--totaling $400,000. The Denali Commission 
is supportive of our effort and contributed $120,479 under Project 
Authorization 1174-J.
    The NSHC Board is investing in the development of this project and 
plans to make it ``shovel ready'' this summer, having approved $1.4 
million from its 2015 Capitol Budget to complete site and foundation 
work
    Thank you for the consideration of the concerns and requests of the 
Norton Sound Health Corporation.

    [This statement was submitted by Angie Gorn, President and CEO.]
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is concerned about 
continued reductions to the U.S. Environmental Protection Agency's 
(EPA) Clean Water State Revolving Fund Loan Program (CWSRF) and is 
requesting that appropriations for this program be increased to at 
least $2 billion in fiscal year 2016. The CWSRF is an effective loan 
program that addresses critical water infrastructure needs while 
benefitting the environment, local communities, and the economy. 
However, OWRC is also concerned about efforts by EPA to increase 
regulatory authority and we urge the subcommittee to direct funding 
towards the CWSRF program and not towards implementing the 
controversial ``Waters of the U.S.'' rule drafted by EPA and the Army 
Corps of Engineers (ACOE). EPA's actions to increase its regulatory 
authority over water resources planning are counterproductive to 
collaborative planning and detract from the positive solutions achieved 
through the CWSRF program.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly \1/3\ of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2016 appropriations
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. The 
CWSRF is a perfect example of the type of program that should have 
funding increased because it creates jobs while benefitting the 
environment, and is an efficient return on taxpayer investment. Oregon 
is facing record levels of unemployment and the CWSRF funded projects 
provide much needed construction and professional services jobs. 
Moreover, as a loan program, it is a wise investment that allows local 
communities to leverage their limited resources and address critical 
infrastructure needs that would otherwise be unmet.
    Nationally, there are large and growing critical water 
infrastructure needs. In EPA's most recent needs surveys, The Clean 
Watersheds Needs Survey 2008: Report to Congress and Drinking Water 
Infrastructure Needs Survey and Assessment: Fourth Report to Congress, 
the estimated funding need for drinking water infrastructure totaled 
$335 billion (in 2007 dollars) and wastewater infrastructure needs 
totaled $298 billion (in 2008 dollars). Appropriations for water 
infrastructure, specifically CWSRF, should not be declining but 
remaining strong in order to meet these critical needs. In 2014 
appropriations for the CWSRF program was approximately $2.021 billion 
and declined to $1.448 billion in fiscal year 2015. The President's 
fiscal year 2016 budget proposes only $1.116 billion for the CWRSF 
program; a $332 million reduction from fiscal year 2015 levels. We are 
concerned as we see this negative downward trend continuing while the 
infrastructure needs only become more critical.
    OWRC is supportive of the President's Climate Action Plan and 
related efforts to support actions that help address, mitigate, and 
adapt to severe weather events, like drought, that are related to 
climate change. It is important that climate issues are addressed 
through programs like the CWSRF, and to date, despite a direct 
connection to water infrastructure the CWSRF funding continues to 
diminish. In fact, there has not been an increase in funding for CWSRF 
since 2009; meanwhile, both infrastructure needs and the costs to 
address those needs continue to grow each year. Continued funding 
reductions has led to delaying repairs or upgrades which in turn 
increase the potential for catastrophic failure and is 
counterproductive to the administration's desire to encourage asset 
management and sustainable water infrastructure. To the extent 
practicable, funding for climate change should be incorporated into 
existing programs with proven successes like the CWSRF.
    We also continue to be highly supportive of the administration's 
desire to expand ``green infrastructure,'' in fact, irrigation 
districts and other water suppliers in Oregon are on the forefront of 
``green infrastructure'' through innovative piping projects that 
provide multiple environmental benefits, which is discussed in greater 
detail below. However, continually reducing the amount of funds 
available for these types of worthwhile projects is counterproductive 
to the administration's desire and has created increased uncertainty 
for potential borrowers about whether adequate funding will be 
available in future years. CWSRF is often an integral part of an 
overall package of State, Federal and local funding that necessitates a 
stronger level of assurance that loan funds will be available for 
planned water infrastructure projects. Reductions in the CWSRF could 
lead to loss of grant funding and delay or derail beneficial projects 
that irrigation districts have been developing for years.
    Additionally, OWRC is pleased to see that EPA will continue 
``strategic partnerships'' with the USDA's Natural Resources 
Conservation Services (NRCS) and other Federal agencies to improve 
water quality and address nonpoint source pollution. Oregon had two 
priority watersheds eligible for funding through the National Water 
Quality Initiative in 2014 and anticipates that additional watersheds 
will be included in the future. As Oregon is a delegated State, OWRC 
also feels strongly that the Oregon Department of Environmental Quality 
(DEQ) is best situated to develop and implement activities to improve 
these and other impaired waterways in the State. DEQ and its 
administration of the CWSRF has been an extremely valuable tool in 
Oregon for improving water quality and efficiently addressing 
infrastructure challenges that are otherwise cost-prohibitive.
                     cwsrf local success and needs
    Six OWRC member districts have successfully received loans from the 
CWSRF over the last several years and many more will apply if funds are 
available. Numerous irrigation districts and other water suppliers need 
to pipe currently open canals, thereby improving water quality by 
eliminating run-off into the canals and increasing water availability 
for fish and irrigators by reducing water loss from the delivery 
system. Four irrigation districts received over $11 million funding in 
Oregon from the 2009 American Recovery and Reinvestment Act (ARRA) 
funding through the CWSRF for projects which created valuable jobs 
while improving water quality. These four projects were essential to 
DEQ not only meeting but exceeding the minimum requirement that 20 
percent of the total ARRA funding for the CWSRF be used for ``green'' 
projects. Those districts' applications had been on DEQ's list of 
eligible projects for many years and would probably still be on that 
list had the ARRA funding not been made available. We provide that 
comment not to complain, but to emphasize the need for additional 
funding for this program.
    What is being proposed for fiscal year 2016 is far short of what is 
needed to address critical water infrastructure needs in Oregon and 
across the Nation. This will lead to fewer water infrastructure 
projects, and therefore a reduction in improvements to water quality. 
The DEQ's most recent ``Proposed Intended Use Plan Update #1--State 
fiscal year 2015,'' lists 14 projects in need of a total of 
$144,926,822 in Oregon alone. The Federal capitalization grant funding 
awarded fiscal year 2014 will total $15,839,000, which is wholly 
inadequate to address and complete these much needed projects.
    Unfortunately, due to recent cutbacks and lack of availability of 
funds, only one water improvement district submitted an application for 
funding in 2015, Rock Creek District Improvement Company. Rock Creek 
requested $270,786 for the design and construction of HDPE piping along 
1.76 miles of main canal, and qualifies for water efficiency green 
project reserve funding. OWRC is hopeful that with an increase in money 
available, more districts will apply for funding to complete projects 
that will not only benefit the environment and the patrons served by 
the water delivery system, but also benefit the economy.
         the importance and success of local watershed planning
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Oregon 
has recently revised their CWSRF rules; thus making conservation easier 
and its benefits to be better achieved in the State. That is why OWRC 
is very concerned about EPA's recent efforts to increase regulatory 
authority under the Clean Water Act without appropriate public process 
or legislative oversight. The proposed ``Waters of the U.S.'' rule 
would greatly broaden EPA authority and illustrates an apparent desire 
to dictate watershed planning methods for the Nation using a top-down 
regulatory approach from a desk in Washington DC. This regulatory 
overreach will lead to uncertainty for landowners and water users, 
increased litigation and destroy collaborative efforts (including CWSRF 
projects) already underway in Oregon and across the Nation. OWRC would 
like to reiterate our request made in formal comment that the ACOE 
Regulatory Guidance Letter (RGL 07-02 from July 4th, 2007) be codified 
in the final rule which would provide our members with better clarity 
about how and when the rule would be used in relation to district 
facilities.
    As the national model for watershed planning, Oregon does not need 
a new Federal agency or executive branch office to oversee conservation 
and restoration efforts. Planning activities are conducted through 
local watershed councils, volunteer-driven organizations that work with 
local, State and Federal agencies, economic and environmental 
interests, agricultural, industrial and municipal water users, local 
landowners, tribes, and other members of the community. There are over 
60 individual watershed councils in Oregon that are already deeply 
engaged in watershed planning and restoration activities. Watershed 
planning in Oregon formally began in 1995 with the development of the 
Oregon Plan for Salmon Recovery and Watershed Enhancement, a statewide 
strategy developed in response to the Federal listing of several fish 
species. This strategy led to the creation of the Oregon Watershed 
Enhancement Board (OWEB), a State agency and policy oversight board 
that funds and promotes voluntary and collaborative efforts that ``help 
create and maintain healthy watersheds and natural habitats that 
support thriving communities and strong economies'' in 1999.
                               conclusion
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ to make targeted loans that address Clean Water Act issues and 
improve water quality but also help incentivize innovative water 
management solutions that benefit local communities, agricultural 
economies, and the environment. This voluntary approach creates and 
promotes cooperation and collaborative solutions to complex water 
resources challenges. Conversely, regulatory overreach destroys 
cooperation, creates mistrust and has a very negative effect on jobs 
and local economies. We respectfully request the appropriation of at 
least $2 billion for the U.S. Environmental Protection Agency's Clean 
Water State Revolving Loan Fund for fiscal year 2016.

    [This statement was submitted by April Snell, Executive Director.]
                                 ______
                                 
            Prepared Statement of Partners for Conservation
    Chairman Murkowski, Ranking Member Udall and members of the 
Appropriations Subcommittee: On behalf of myself and Partners for 
Conservation (PFC), thank you for the opportunity to provide comments 
on the fiscal year 2016 Interior appropriations bill. I am a rancher 
and consulting wildlife biologist from eastern Washington. PFC is a 
landowner-led non-profit organization for which I serve as a board 
member. As ranchers and farmers working cooperatively with the U.S. 
Fish and Wildlife Service, we respectfully request that the 
subcommittee support the following funding allocations for fiscal year 
2016:

  --Funding of $75 million for the Partners for Fish and Wildlife 
        Program;
  --Funding of $50 million for the North American Wetlands Conservation 
        Fund;
  --Funding of $18.6 million for the Habitat Joint Ventures within the 
        North American Waterfowl Management Plan Program;
  --Full funding of $900 million authorized for the Land and Water 
        Conservation Fund; and
  --Funding of $70 million for the State and Tribal Wildlife Grants 
        Program.

    As a board member of PFC, I want to share with you some background 
on the organization. We operate under the following principles: 
Collaboration gets work done; Local lessons have national impact; 
Voluntary and incentive-based programs create trust and foster success; 
and Sustainability is achieved by balancing ecological and economic 
needs.
    PFC is growing with the goal of landowner representation in all 50 
States. We currently have board member representation in States 
extending from Montana and South Dakota to New Mexico and from 
California to Florida. In 2013, under a partnership agreement with the 
National Wildlife Refuge Association, PFC hired an executive director 
to coordinate our efforts. We are also working hard to develop 
effective working relationships with Federal and State agencies, non-
government conservation organizations and like-minded landowners 
nationwide. As an example, PFC annually hosts a Private Lands Partners 
Day event, this year set for late September in North Platte, Nebraska.
    As noted previously, I live and work in eastern Washington. My wife 
and I own and operate a ranch near Spokane, Washington where we raise 
cattle and sheep. Our goal is to sustain the livestock operation and 
enhance wildlife habitat on our property. In 2004, we voluntarily 
enrolled a portion of our ranch in a permanent conservation easement 
under the U.S. Department of Agriculture, Natural Resources 
Conservation Service (NRCS), Wetlands Reserve Program (WRP).
          partners for fish and wildlife program ($75 million)
    So what motivates me to be involved with PFC and why am I writing 
in support of the Partners for Fish and Wildlife and other Federal 
programs named above? The simple answer is public and private partners 
need to work cooperatively to focus our energy and available funding on 
cost-effective programs to sustain agriculture while conserving our 
natural resources on private lands. This concept also recognizes the 
need to balance conservation programs with economics at the local 
community level. It is my firm belief that there is a ``sweet spot'' in 
which we can focus our collective efforts and leverage financial 
resources to sustain working agricultural lands while conserving our 
valuable natural resources. These objectives naturally fit together and 
PFC is all about getting it done through voluntary landowner support 
and working collaboratively with partners, including Federal Government 
agencies. In my area of eastern Washington, over 75 percent of the land 
is privately owned, so the Federal agencies cannot do the job of 
conserving fish and wildlife without willing landowner support. I think 
this model for voluntary, cooperative conservation on working 
agricultural lands is the best example of how the U.S. Fish and 
Wildlife Service can leverage the funding you and your colleagues in 
Congress provide on behalf of your constituents.
    I want to share my story with you. Our ranch lies in what is known 
as the Channeled Scablands Wetland Focus Area. We are on the east side 
of the Columbia Basin, an area of continental significance for 
migratory birds and other wildlife. The ranch is adjacent to the 18,000 
acre National Wildlife Refuge. Partners for Fish and Wildlife Program 
staff assigned to the refuge helped me complete a wetlands restoration 
project by providing technical assistance and native plants to enhance 
the wildlife habitat values within our wetlands and adjacent upland 
habitats. We were successful in integrating and leveraging the basic 
WRP conservation easement through USDA-NRCS with engineering by Ducks 
Unlimited, habitat restoration expertise by the Partners for Fish and 
Wildlife Program and technical assistance by the Washington Department 
of Fish and Wildlife. It is that level of cooperative conservation 
which, I think, makes the Partners for Fish and Wildlife Program work 
extremely well for landowners. Success was the result of voluntary 
partnerships.
    Partners for Fish and Wildlife Program biologists have also helped 
several of my neighboring ranchers with wetlands restoration projects 
by cutting through the red tape involved in permitting processes, 
finding additional funding sources, including NRCS Farm Bill Programs, 
and developing restoration and management plans designed to achieve 
both ranching and natural resource conservation goals. In the last 25 
years, the Partners for Fish and Wildlife Program has helped more than 
45,000 landowners restore and enhance over 1 million acres of wetlands, 
3 million acres of uplands and 11,000 miles of streams nationwide. It 
has leveraged each dollar of appropriated funds to generate over $8 in 
total project spending and over $15 in overall economic returns. The 
Program is supported by landowners as highly cost-effective.
  north american wetlands conservation act ($50 million); and habitat 
                     joint ventures ($18.6 million)
    So why link the PFC and my request as a rancher increased funding 
of the Partners for Fish and Wildlife Program to a request for 
additional funding for the North American Wetlands Conservation Act 
(NAWCA) and Habitat Joint Ventures (JVs)? Simply stated, because they 
can be used as integrated tools to achieve voluntary conservation 
program goals on private lands in an efficient and cost-effective 
manner.
    I support funding for NAWCA at $50 million to help increase wetland 
restoration on private lands as an important tool in priority areas, 
including the Columbia Basin of eastern Washington. Wetlands are one of 
the most important habitats for fish and wildlife, but their abundance 
and quality has been greatly reduced by a number of factors. The highly 
competitive cost-share grant program provided under NAWCA is extremely 
valuable to government agencies, tribes, non-government conservation 
organizations and private landowners nationwide. It is just one of the 
tools the Partners for Fish and Wildlife Program biologists use to 
leverage resources to accomplish landscape level cooperative 
conservation on private lands.
    With respect to the Habitat Joint Ventures (JV's), I support full 
funding of $18.6 million. Although the base funding for the JVs is 
provided through the U.S. Fish and Wildlife Service's budget, these 
public-private partnerships are extremely effective in leveraging 
funding and staff resources specifically to conserve priority habitats 
for birds and other wildlife. I have experience working with the 
Intermountain West Joint Venture (IWJV) with a footprint of nearly 500 
million acres in all or parts of 11 Western States. In general, the JVs 
are self-directed and guided by management boards made up of diverse 
interests including representatives of government agencies, non-
government conservation organizations, industries and private 
landowners. The JVs are extremely effective in collaborating with 
government agencies and, in my experience, very efficient in delivering 
habitat conservation programs on private lands in cooperation with the 
Partners for Fish and Wildlife Program. Together, the IWJV and Partners 
for Fish and Wildlife Program staff focus their efforts on Strategic 
Habitat Conservation, which means they focus their time and energy in 
priority fish and wildlife habitats, including those on private lands. 
I serve as the IWJV Washington Conservation Partners Coordinator and 
have seen first-hand how the ``Joint Venture Model'' can leverage 
funding for habitat conservation at a ratio of 5:1 or greater. Coupled 
with the Partners Program, JVs are very beneficial to ranchers and 
farmers not only in Washington, but throughout the Country.
 land and water conservation fund ($900 million); and state and tribal 
                     wildlife grants ($70 million)
    On behalf of PFC and myself, I respectively request full funding of 
$900 million for the Land and Water Conservation Fund (LWCF). It can be 
used to match and leverage other conservation funding, and it is very 
valuable to cooperative conservation partners nationwide in conserving 
priority fish and wildlife habitats on a large landscape scale. 
Conservation easements take advantage of willing partners entering into 
mutually beneficial agreements to sustain natural resources and 
maintain existing agricultural land uses. A number of PFC Board members 
have first-hand experience from California to Florida and South Dakota 
to Kansas with extremely effective use of LWCF as a critical source of 
funding for voluntary large-scale conservation easement programs on 
private lands. With much of the most productive fish and wildlife 
habitat on private lands, flexible tools are needed to sustain these 
valuable resources while avoiding the need for the Federal Government 
to acquire fee title to land. By keeping these lands in private 
ownership, productive and contributing to local property tax bases, we 
can also support local economies and sustain both working agricultural 
operations and fish and wildlife populations in priority areas.
    Finally, I respectfully request funding of $70 million for the 
State and Tribal Wildlife Grants Program. Along with the LWCF, the 
State and Tribal Wildlife Grants Program provides cost-shared grants to 
implement the State Wildlife Action Plans designed to keep common 
species common and help avoid the need to list species under the 
Endangered Species Act. This proactive approach combined with voluntary 
and incentive based conservation programs leverage Federal, State and 
private landowner funds to conserve fish and wildlife on working 
ranches nationwide.
    I thank you for the opportunity to provide this testimony.. We 
recognize the challenges you and your colleagues face in your decisions 
regarding the fiscal year 2016 budget. We also realize the value of 
sharing with you on-the-ground experiences using the proven and cost-
effective programs in the Fish and Wildlife Service which work best for 
landowners willing to help conserve our natural resources while 
sustaining working agricultural lands nationwide.
    Board members of PFC welcome you to visit any of our ranches to see 
first-hand how voluntary and incentives based conservation programs can 
work to benefit ranchers and farmers as well local economies 
nationwide. In light of the significant fiscal challenges you and your 
colleagues in Congress face, we need to set priorities and support 
programs which return the greatest benefits to the American people. We 
need your leadership and support by investing in community based 
landscape conservation through partnerships with private landowners. 
Government agencies cannot do it alone, and PFC stands ready to help.
    Chairman Murkowski and subcommittee members, thank you for your 
consideration of this request.

    [This statement was submitted by Terry Mansfield, Landowner and 
Board Member of Partners for Conservation.]
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Madam Chairwoman and members of the subcommittee:

    The Partnership for the National Trails System appreciates your 
support over the past 20 years, through operations funding and 
dedicated Challenge Cost Share funds, for the national scenic and 
historic trails administered by the National Park Service. We also 
appreciate your increased allocation of funds to support the trails 
administered and managed by the Forest Service and for the trails in 
the Bureau of Land Management's National Landscape Conservation System. 
To continue the progress that you have fostered, the Partnership 
requests that you provide annual operations funding for each of the 30 
national scenic and historic trails for fiscal year 2016 through these 
appropriations:

  --National Park Service: $16.073 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction: $673,000 for the Ice 
        Age Trail and $200,000 for the Pacific Crest Trail.
  --USDA Forest Service: $7.996 million to administer 6 trails and $1.3 
        million to manage parts of 16 trails administered by the NPS or 
        BLM. $700,000 for Iditarod Trail construction.
  --Bureau of Land Management: $1.83 million to administer three trails 
        and for coordination of the National Trails program and $7.14 
        million to manage portions of 13 trails administered by the 
        Park Service or the Forest Service and for operating five 
        National Historic Trail interpretive centers. Construction: 
        $300,000 for the Pacific Crest Trail, $300,000 for the Iditarod 
        Trail, and $50,000 for the Nez Perce Trail.
  --We ask that you appropriate $4.5 million for the National Park 
        Service Challenge Cost Share Program and continue to direct 
        one-third ($1,500,000) for national scenic and historic trails 
        or create a separate $1.5 million National Trails System 
        Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and allocate it for the national 
        scenic and historic trails it administers or manages.

    We ask that you appropriate $66,038,500 from the Land and Water 
Conservation Fund for the acquisition of 48 tracts along six national 
scenic and eight national historic trails described in the National 
Trails System Collaborative Landscape Planning proposal and allocate 
this funding to the:

  --Bureau of Land Management: $13,916,500 million.
  --U.S. Fish and Wildlife Service: $12,060,000 million.
  --U.S. Forest Service: $8,382,000 million
  --National Park Service: $31,680,000 million.
                         national park service
    The $16.073 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
several years ago. Increases of $172,000 for the Park Service to 
implement the New England Trail's Trail Management Blueprint and 
$369,000 for the Washington-Rochambeau Trail are included.
    We request an increase of $660,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop GIS mapping, and to fund public educational 
outreach programs of the Santa Fe Trail Association. An increase of 
$780,000 for the Trail of Tears will enable the Park Service to work 
with the Trail of Tears Association to develop a GIS to map the Trail's 
historical and cultural heritage sites to protect them and to develop 
interpretation of them for visitors. We request an increase of $346,000 
to $879,000 for the Ala Kahakai Trail to enable the Park Service to 
work with E Mau Na Ala Hele, the Ala Kahakai Trail Association, and 
other community organizations to care for resources on the land and 
with the University of Hawaii to conduct archaeological and cultural 
landscape studies along this trail.
    We request an increase of $193,000 to $1,708,000 for the 
Appalachian Trail to expand the highly successful ``Trail to Every 
Classroom'' program of the Appalachian Trail Conservancy. The 
$1,020,000 we request for the 4,200 mile North Country Trail will 
enable the Park Service to provide greater support for the regional GIS 
mapping, trail building, trail management, and training of volunteers 
led by the North Country Trail Association. The $1,389,000 we request 
for the Ice Age Trail includes a $554,000 increase to build partner and 
citizen capacity for protecting the natural and cultural resources on 
the Trail and Ice Age Trail lands and to provide NPS with a property 
manager for NPS-owned lands.
    Construction: We request that you appropriate $673,000 for the Ice 
Age Trail and $200,000 for the Pacific Crest Trail for trail 
construction projects.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. We 
request that you robustly fund the Park Service, Bureau of Land 
Management, and Fish and Wildlife Service Challenge Cost Share programs 
and appropriate $4.5 million in Challenge Cost Share funding to the 
Park Service for fiscal year 2016 as a wise investment of public money 
that will generate public benefits many times greater than its sum. We 
ask you to continue to direct one-third of the $4.5 million for the 
national scenic and historic trails to continue the steady progress 
toward making these trails fully available for public enjoyment. We 
suggest, as an alternative to this approach, that you create a separate 
National Trails System Challenge Cost Share program with $1.5 million 
funding.
                          usda--forest service
    We ask you to appropriate $7.996 million as a separate budgetary 
item specifically for the Arizona, Continental Divide, Florida, Pacific 
Crest, and Pacific Northwest National Scenic Trails and the Nez Perce 
National Historic Trail within the over-all appropriation for Capital 
Improvements and Maintenance for Trails. Recognizing the on-the-ground 
management responsibility the Forest Service has for 1024 miles of the 
Appalachian Trail, more than 650 miles of the North Country Trail, and 
sections of the Ice Age, Anza, Caminos Real de Tierra Adentro and de 
Tejas, Lewis and Clark, California, Iditarod, Mormon Pioneer, Old 
Spanish, Oregon, Overmountain Victory, Pony Express, Trail of Tears and 
Santa Fe Trails, we ask you to appropriate $1.3 million specifically 
for these trails.
    The Partnership's request of $7.996 million includes $1.5 million 
to enable the Forest Service and Florida Trail Association to continue 
trail maintenance, to control invasive species, do ecosystem 
restoration, and otherwise manage 4,625 acres of new Florida Trail 
land. The $7.996 million request also includes $2.1 million for the 
Pacific Crest Trail, $2 million for the Continental Divide Trail, $1 
million for the Pacific Northwest Trail, $826,000 for the Nez Perce 
Trail, and $570,000 for the Arizona Trail. Some of the additional funds 
requested will enable the Forest Service to develop Comprehensive 
Management Plans for the latter three trails. We also request $700,000 
of additional funding for construction and $100,000 for maintenance of 
sections of the Iditarod Trail.
                       bureau of land management
    Although considerably more money is needed to fully administer the 
National Conservation Lands System and protect its resources, we 
request that you appropriate $69.809 million in base funding for the 
System. We ask that you appropriate as new permanent base funding 
$250,000 for National Trails System Program Coordination, $1,000,000 
for the Iditarod Trail, $230,000 for El Camino Real de Tierra Adentro 
Trail, $350,000 for the Old Spanish Trail, and $4,000,000 for the 
Bureau of Land Management to manage 4,645 miles of thirteen other 
national scenic and historic trails. To maintain these trails we 
request: Pacific Crest Trail--$300,000, Iditarod Trail--$300,000, Nez 
Perce Trail--$50,000. We also request $3,140,000 to operate five 
historic trails interpretive centers.
    We ask you to provide $5 million for the Bureau's Challenge Cost 
Share program and to direct $500,000 for National Trails System 
projects as you have done with the Park Service's CCS program.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2015 and to direct the 
Bureau to include unit-level allocations within major sub-activities 
for each of the scenic and historic trails, and wild and scenic 
rivers--as the Bureau has done for the national monuments, wilderness, 
and conservation areas--within a new activity account for the National 
Landscape Conservation System in fiscal year 2016. The Bureau's lack of 
a unified budget account for National Trails prevents the agency from 
efficiently planning, implementing, reporting, and taking advantage of 
cost-saving and leveraging partnerships and volunteer contributions for 
every activity related to these national resources.
                    land and water conservation fund
    The Partnership strongly supports the President's budget proposal 
to fully fund the Land and Water Conservation Fund at the authorized 
$900 million, with $400 million from discretionary sources and $500 
million in mandatory funds for the component programs funded under 
LWCF. Within this amount we request that you appropriate $66,038,500 
for the National Trails System Collaborative Landscape Planning 
proposal to acquire 48 parcels along 14 national scenic and historic 
trails detailed here:

Bureau of Land Management
$13,916,500 million
17 parcels
16,779 acres
    Continental Divide National Scenic Trail (New Mexico): $2,300,000 
to close the largest critical trail gap in New Mexico.
    Lewis and Clark National Historic Trail (Montana): $6,000,000 for 
trail, landscape, habitat and recreation protection along the Upper 
Missouri National Wild and Scenic River.
    Nez Perce National Historic Trail (Idaho): $3,100,000 for trail and 
resource conservation at one of the last remaining working ranches at 
Henry's Lake.
    Oregon National Historic Trail (Idaho): $144,000 to acquire land 
for trail development along historic trail route.
    Pacific Crest National Scenic Trail (Oregon, California): 
$1,872,500 for trail and resource protection within the Cascade 
Siskiyou National Monument in Southern Oregon and in the Mojave Desert 
in Southern California.
U.S. Fish and Wildlife Service
$12,060,000 million
3 parcels
3,763 acres
    Appalachian National Scenic Trail (Pennsylvania): $4,000,000 to 
connect conservation habitats along the Kittatinny Ridge.
    California National Historic Trail (Idaho): $2,500,000 to protect 
the largest breeding concentration of Sandhill Cranes, as well as, a 
haven for other waterfowl from a current farming threat.
    Captain John Smith Chesapeake National Historic Trail (Virginia): 
$5,560,000 to protect the Bower's Parcel that includes migratory 
wildlife habitat, priority wetlands, forest and uplands and a 
historical site.
U.S. Forest Service
$8,382,000 million
8 parcels
3,024 acres
    Appalachian National Scenic Trail (North Carolina): $1,100,000 to 
complete the acquisition of the Grassy Ridge ecosystem.
    Continental Divide National Scenic Trail (Montana): $255,000 to 
achieve uninterrupted trail corridor enabling wildlife migration and 
human recreation.
    Pacific Crest National Scenic Trail (California, Washington): 
$7,027,000 to provide critical scenic protection to the hiker 
experience, improve trail location and protect wildlife habitats, 
including Donner Summit in California.
National Park Service
$31,680,000 million
20 parcels
7,565 acres
    Ala Kahakai National Historic Trail (Hawaii): $4,750,000 to protect 
endangered species, preserve 26 cultural sites and ensure undisturbed 
view sheds, soundscapes, and wilderness for users of the trail in an 
area with prehistoric lava flows.
    Appalachian National Scenic Trail (New York, Massachusetts): 
$2,940,000 to extinguish the threat of imminent development, ensure 
connectivity of forested habitats and improve route away from 
threatened species.
    Captain John Smith Chesapeake National Historic Trail (Virginia): 
$6,000,000 to permanently protect and open for public education a 
nationally significant American Indian site, and to continue public 
archaeological research.
    Continental Divide National Scenic Trail (Colorado, New Mexico): 
$5,608,000 to remove motorized use of the trail and restore habitat, to 
acquire the last unprotected portion of the trail in New Mexico and to 
protect significant cultural sites.
    Ice Age National Scenic Trail (Wisconsin): $3,930,000 to provide 
urban access to the trail in the city of St. Croix, protect critical 
view sheds, provide interpretative opportunities of unique geological-
cultural features and close gaps in the trail.
    New England National Scenic Trail (Connecticut, Massachusetts): 
$1,875,000 to protect ecosystem, historic and cultural resources, in 
addition to, enhancing users recreational experience.
    Nez Perce National Historic Trail (Oregon): $355,000 to provide a 
better interpretative site and visitor proximity to Clearwater 
Battlefield.
    North Country National Scenic Trail (Michigan, Pennsylvania): 
$2,892,000 to connect Moraine and McConnell's Mill State Parks in 
Pennsylvania and protect riparian habitats in Southern Michigan.
    Overmountain Victory National Historic Trail (Tennessee): $330,000 
to protect the historically significant Shelving Rock Encampment site.
    Washington Rochambeau Revolutionary Route National Historic Trail 
(New York): $3,000,000 to protect the Revolutionary War's single 
largest cemetery from destruction.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2014 the trail organizations fostered 1,053,896 
hours of documented volunteer labor valued at $23,765,355 to help 
sustain the national scenic and historic trails. The organizations also 
raised private sector contributions of $11,228,029 for the trails.

    [This statement was submitted by Gary Werner, Executive Director.]
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Madam Chairwoman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the fiscal year 2016 appropriations 
for American Indian and Alaskan Native programs. My name is David Z. 
Bean, Tribal Council Member for the Puyallup Tribe of Indians. The 
Puyallup Tribe is an independent sovereign nation having historically 
negotiated with several foreign nations including the United States in 
the Medicine Creek Treaty of 1854. This relationship is rooted in 
Article I, Section 8, of the United States Constitution, Federal laws 
and numerous Executive orders. The governing body of the Puyallup Tribe 
of Indians is the Puyallup Tribal Council which upholds the tribe's 
sovereign responsibility of self-determination and self-governance for 
the benefit of the 4,875 Puyallup tribal members and the 25,000 plus 
members from approximately 355 federally recognized tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061 acre 
reservation is a ``checkerboard'' of tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
    The following written testimony documents the Puyallup Tribe's 
views concerning the President's fiscal year 2016 Federal budget. My 
written testimony will focus on the proposed budget for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). Within the 
BIA budget, $2.7 billion is proposed for fiscal year 2016, an increase 
of $231.4 million above the fiscal year 2015 levels. For the IHS, $5.1 
billion is proposed, an increase of $460.6 million over the fiscal year 
2015 enacted level. Included in both budgets the President proposes to 
fully fund Contract Support Costs (CSC) in fiscal year 2016. The budget 
provides $277 million for BIA CSC and $718 million for IHS CSCs. We 
appreciate the increased funding being proposed for the BIA and IHS, 
and funding CSCs at 100 percent. However, the years of inadequate 
funding and the effects of inflation have impacted the tribe's ability 
to fully exercise self-determination and self-governance. As 
negotiations proceed on the fiscal year 2016 budget and future 
appropriations, efforts to insure adequate funding is provided for 
Indian programs will be paramount. To preserve the increased funding 
levels realized in recent years and contained in the proposed fiscal 
year 2016 budget for the BIA and IHS, the increases should be viewed by 
Congress and the administration as new ``base funding'' amounts with 
annual increases to meet actual need. Specific issues and needs are:
          department of the interior--bureau of indian affairs
    Public Safety and Justice: The fiscal year 2016 budget request 
includes $364.4 million for BIA Public Safety and Justice. This 
represents a $11.5 million increase over the fiscal year 2015 enacted 
level which is fully supported by the Puyallup Tribe. The $93.3 million 
for tribal and BIA detention and corrections funding is of great 
importance to the Puyallup Tribe. While this increase is supported by 
the Puyallup Tribe, it is of concern that there is no requested 
increase for the operation of tribal detention facilities that came 
online last year and that were not fully funded by fiscal year 2015 
appropriations. In fiscal year 2009, the Puyallup Tribe received a 
Department of Justice ARRA grant, in the amount of $7.9 million to 
construct a 28 bed adult corrections facility. Construction on the 
facility was completed in February 2014 and came online in May 2014. 
Over the past 3 years the Puyallup Tribe has worked closely with the 
BIA Office of Justice Services National and Regional staff on 
identifying the operating and staffing costs associated with the 
Puyallup Tribe's new adult corrections facility. The Puyallup Tribe 
submitted a Public Law 93-638 contract request to the BIA for 
Operations and Maintenance funding for the new facility, including Pre-
Award, Start-up, Transitional funding, Staffing and O&M funding. The 
agreed upon estimated cost of operating the facility was set at $2.6 
million annually. The BIA base funding offered to the tribe in fiscal 
year 2015 was $704,198 or 27 percent of actual need. Due to current 
budget realities, we support the President's proposed fiscal year 2016 
funding of $95.3 million, for Detention and Corrections. However, we 
are requesting support from the subcommittee to fund the tribe's Adult 
Corrections facility at the established true cost of operations, 
estimated at $2.6 million annually. Further, the Puyallup Tribe 
requests the subcommittee's support to increase funding for BIA 
Detention/Corrections by $32.2 million to reflect actual funding need.
    In addition, we operate a Tribal Court program through a Public Law 
93-638 contract with the BIA. In fiscal year 2015, our base funding was 
increased from $45,000 to $194,996 and remains at this amount for 
fiscal year 2016. While this increase to our Tribal Court Base funding 
is appreciated, it does not equal the amount of tribal funds necessary 
to fully operate the Tribal Court program. In fiscal year 2015, the 
tribe has allocated $1.172 million of tribal funds for the Tribal Court 
budget. Since its enactment in 1993, the Indian Tribal Justice Act has 
remained unfunded. Originally authorized to provide $50 million for 
base funding increases to assist with expanding judicial systems, 
tribes are left with no option than to utilize tribal revenues to fully 
implement legislative acts, such as the Tribal Law and Order Act and 
the Violence Against Women Act. We are requesting support from the 
subcommittee to fund the Indian Tribal Justice Act at $82 million.
    Natural Resources Management: The Puyallup Tribe, as stewards for 
land and marine waters in the Usual and Accustomed fish, shellfish, and 
wildlife areas, has treaty and governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
tribal membership and the regional communities. Despite our diligent 
program efforts, the fisheries resource is degrading and economic 
losses are incurred by Native and non-native fishermen and surrounding 
communities. Our resource management responsibilities cover thousands 
of square miles in the Puget Sound region of the State of Washington 
with an obligation to manage production of anadromous and non-
anadromous fish, shellfish and wildlife resources. Existing levels of 
support are inadequate to reverse the trend of resource/habitat 
degradation. For fiscal year 2016, a minimum funding level of $8.562 
million is necessary for BIA Western Washington (Bolt Decision) 
Fisheries Management program, and we agree with the Northwest Indian 
Fisheries Commission (NWIFC) that increased funding is needed. The 
increase in funding would provide new monies for shellfish, groundfish, 
enforcement, habitat, wildlife and other natural resource management 
needs. As the aboriginal owners and guardians of our lands and waters, 
it is essential that adequate funding is provided to allow tribes to 
carry-out our inherent stewardship duties.
    The Puyallup Tribe continues to operate a number of salmon 
hatcheries that benefit Indian and non-Indian commercial and sport 
fisheries in the Pacific Northwest/Puget Sound. We work cooperatively 
with the Northwest Indian Fisheries Commission, neighboring tribes, 
Federal agencies, and State fishery managers to insure the success and 
sustainability of our hatchery programs. The Puyallup Tribe will 
continue to advocate and secure increased funding for Fish Hatchery 
Operations and Maintenance funding. We are in agreement with the NWIFC 
recommendation that additional funding is necessary for the Fish 
Hatchery Operations and Maintenance programs, and request the 
subcommittee's support to fund fiscal year 2016 Fish Hatcheries 
Operations and Fish Hatchery Maintenance at $3.35 million and $6.582 
million, respectively.
    The Timber, Fish and Wildlife (TFW) Supplemental and U.S./Canada 
Pacific Salmon Treaty programs have allowed for the expansion of tribal 
participation in the State forest practice rules and regulations and 
participation in inter-tribal organizations to address specific 
treaties and legal cases which relate to multi-national fishing rights, 
harvest allocations and resource management practices. We request 
subcommittee support for the funding recommendations of the NWIFC for 
the fiscal year 2016 TFW Supplemental program and the U.S./Canada 
Pacific Salmon Treaty program.
    The Puyallup Wildlife Management program has been the lead agency 
in management activities to benefit the South Rainier elk herd since 
2004. The South Rainier elk herd is the primary stock of elk harvested 
by the Puyallup Tribe. The tribe has not only established more reliable 
methods for population monitoring, but has also been proactive in 
initiating habitat enhancement projects, research and land acquisition 
to ensure sustainable populations of elk for future generations. Funds 
that are available to the tribe have been on a very competitive basis 
with a limited amount per program via USFWS Tribal Wildlife grants and 
the BIA Unresolved Hunting and Fishing Rights grant program. We request 
subcommittee support to provide base funding to the Tribe's Wildlife 
Management Program in the amount of $150,000 through the BIA Unresolved 
Hunting and Fishing Rights program in fiscal year 2016.
    Education: The Puyallup Tribe operates the pre-K to 12 Chief Leschi 
Schools which included a verified 2014-2015 school student enrollment 
of 910 + students, including ECEAP and FACE programs. With an 
increasing number of pre-kindergarten enrollment, Chief Leschi Schools 
will soon exceed design capacity. Additional education facility space 
will be necessary to provide quality educational services to the 
students and tribal community. In addition, the cost of operation and 
maintenance of the Chief Leschi Schools' facilities continues to 
increase in the areas of supplies, energy and student transportation 
costs. The fiscal year 2016 budget request for the Bureau of Indian 
Education (BIE) is $904 million, an increase of $93.9 million over the 
fiscal year 2015 enacted level. While this increase is appreciated, 
once again the funding level does not meet the actual operational needs 
of tribal education programs. The tribe will continue to work with 
Congress, BIE and the National Congress of American Indians to increase 
funding in fiscal year 2016, including; Tribal Grant Support Cost for 
Tribally Operated Schools--$73 million; Student Transportation--$73 
million; School Facilities Accounts--$109 million in facilities 
operations and $76 million in facilities maintenance; and Indian School 
Equalization Formula (ISEF)--$431 million.
    Operations of Indian Programs and Tribal Priority Allocations: The 
BIA Operations of Indian Programs budget is in drastic need for 
increased funding. Within the Operations of Indian Programs is the 
Tribal Priority Allocations (TPA). The TPA budget functions include the 
majority of funding used to support on-going services at the ``local 
tribal'' level, including; natural resources management, child welfare, 
other education, housing and other tribal government services. These 
functions have not received adequate and consistent funding to allow 
tribes the resources to fully exercise self-determination and self-
governance. Further, the small increases ``TPA'' has received over the 
past few years have not been adequate to keep pace with inflation. The 
Puyallup Tribe is requesting support from the subcommittee to fund the 
Operation of Indian Programs at the fiscal year 2016 request of $2.7 
billion, an increase of $231.4 million over the fiscal year 2015 
enacted level, and TPA at $982.6 million for fiscal year 2016, an 
increase of $56.2 million over the fiscal year 2015 level. We further 
request support from the Subcommittee to increase funding for Indian 
Child Welfare (TPA) by $45 million; Increase Urban Indian Child Welfare 
programs by $15 million; and increase BIA Child Welfare Assistance by 
$55 million.
     department of health and human services--indian health service
    The inadequate funding of the Indian Health Service is the most 
substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to the Native American population in Pierce 
County, Washington. The current patient load exceeds 9,000, of which 
approximately 1,700 are tribal members. There are no IHS hospitals in 
the Portland Area, so all specialties and hospital care have been paid 
for out of our contract care allocation. The Purchased/Referred Care 
(PRC) allocation to PTHA remains inadequate to meet the actual need. In 
fiscal year 2004, the Puyallup Tribe subsidized PRC with a $2.8 million 
dollar contribution. In fiscal year 2015, the tribal subsidy has grown 
to $6.2 million. Given that the PTHA service population is only 
comprised of 17 percent Puyallup tribal members, tribal budget 
priorities in fiscal years 2011-2015 have made continued subsidies to 
the PTHA financially difficult for the Puyallup Tribe. The fiscal year 
2016 budget requests $5.1 billion in discretionary budget authority for 
the IHS. This represents a $460.6 million increase over the fiscal year 
2015 enacted level. For Health Services programs, the fiscal year 2016 
budget requests funding for Clinical Services ($4.4 billion), 
Purchased/Referred Care ($984.4 million), Medicaid/Medicare ($1 
billion) and Contract Support ($718 million). The Puyallup Tribe fully 
supports funding increases for existing IHS programs and will work 
Congress to continue efforts to increase funding for IHS and the 
critical programs administered by this Agency.
    Thank you for affording the Puyallup Tribe the opportunity to 
testify.
                                 ______
                                 
             Prepared Statement of the PVC Pipe Association
    The Uni-Bell PVC Pipe Association is a not-for-profit organization 
representing 95 percent of the manufacturing capacity of the North 
American PVC pipe industry. Our pipe producing members operate over 90 
facilities in the U.S. and our associate members (suppliers) hundreds 
more. PVC pipe extrusion facilities are found in 32 States across the 
United States: California has the most plants (9), followed by Texas 
(6), Arizona (5) and Pennsylvania (5).
    The PVC pipe industry serves a vast and complex market including 
54,000 drinking water systems, 10,000 wastewater facilities and 15,000 
sewer and wastewater contracting firms. PVC water and sewer pipe 
producers contribute in excess of $14 billion annually to the U.S. 
economy and support over 25,000 jobs.
    The Environmental Protection Agency (EPA) manages taxpayer dollars 
under the State Revolving Fund's (SRF's) for water and wastewater 
projects in every State. It is important for all States and 
municipalities receiving Federal money to use open and free bidding 
processes and to consider all approved piping materials so that the 
most cost effective, longest lasting and best performing piping is 
used.
    According to the U.S. Conference of Mayors, underground pipes 
represent 60 percent ($2.28 trillion) of the $3.8 trillion needed in 
investments for water and wastewater infrastructure over the next 20 
years. As a result, it is here that open procurement policies and 
practices should be focused.
    Since the 1970s the U.S. Department of Agriculture's (USDA) Rural 
Development Program has required that the funding it provides rural 
municipalities for water and sewer projects be spent in an open and 
competitive manner. It is time for the EPA to have similar 
requirements.
    Richard Anderson, Ph.D., Senior Advisor to U.S. Conference of 
Mayors Water Council, who is also a proponent of procurement reform for 
underground infrastructure, reports that water and sewer pipelines are 
deteriorating faster than the rate at which they can be replaced 
because of corrosion, which is the leading cause of the water main 
break epidemic in North America (estimated at some 300,000 breaks 
annually). According to a 2002 congressional study, corrosion is also a 
drag on the economy, costing U.S. drinking water and wastewater systems 
over $50.7 billion annually. As a result, any comprehensive and truly 
sustainable underground infrastructure strategy must address corrosion.
    Today's corrosion crisis is due to the materials used in America's 
piping networks over the last 100 years. At first, cast iron was used, 
with ductile iron gradually replacing it as the material of choice. 
Both now suffer from corrosion. In fact, studies have shown that newer 
iron pipes do not last as long as older versions because of their 
thinner walls.
    The burden of old technology materials is not limited to the cost 
of repairing and replacing failed pipelines. It includes the cost of 
losing treated water from leaking systems. Leaking pipes made from old 
technology materials lose an estimated 2.6 trillion gallons of drinking 
water annually, or 17 percent of all treated water pumped in the United 
States.
    The solution to these problems begins with sustainability, 
durability and corrosion resistance, and this is why more utilities 
must actively consider all approved piping materials like PVC in their 
bidding processes. Increased durability means fewer leaks, better water 
conservation and lower costs. As a result, any comprehensive action 
plan for water and wastewater infrastructure renewal must also include 
reform of municipal procurement practices that limit competition, 
shackle innovation and increase costs.
    We believe that to get the most efficient and sustainable use of 
Federal money for water and wastewater projects, free and open 
competition must be the operating standard. Federal grants provided to 
municipalities should have open competition stipulations similar to 
those required by the USDA Rural Development Program for water and 
sewer projects. In this way Federal dollars obtain maximum value for 
taxpayers. When products are excluded from bidding, taxpayers suffer as 
does the efficiency of our infrastructure.
    With over 2 million miles in service, PVC pipe has been celebrated 
by Engineering News Record as one of the top 20 engineering 
advancements of the last 125 years. A study by the American Water Works 
Research Foundation recently quantified the life expectancy of PVC pipe 
at more than 110 years--making it excellent for long-term asset 
management and sustainability. Furthermore, PVC pipe is more efficient 
to manufacture, taking four times less energy to make than concrete 
pressure pipe, and half that used for iron pipe.
    As well, PVC pipe is cost effective, has watertight joints and its 
lightweight reduces transportation and installation costs, yielding 
additional greenhouse gas reductions. It is also totally recyclable, 
though most of it has yet to enter the recycling stream given its great 
durability.
    Numerous organizations have published studies on the need to update 
procurement practices to more cost effectively finance our underground 
infrastructure. Below are links to some of these reports:

  --Procurement Process Improvements Yield Cost-Effective Public 
        Benefits
  --Reforming Our Nation's Approach to the Infrastructure Crisis: How 
        Competition, Oversight, and Innovation Can Lower Water and 
        Sewer Rates in the U.S.
  --Lowering Costs in Water Infrastructure through Procurement Reform: 
        A Strategy for State Governments
  --Fixing America's Crumbling Underground Water Infrastructure: 
        Competitive Bidding Offers a Way Out

    Also please find links to water main break rate and pipe longevity 
studies by Utah State University's Buried Structures Laboratory, which 
determined that PVC has the lowest break rate of all water piping 
materials and the longest lifespan:

  --Water Main Break Rates in the USA and Canada: A Comprehensive Study
  --PVC Pipe Longevity Report: A Comprehensive Study on PVC Pipe 
        Excavations, Testing, and Life Cycle Analysis

    The PVC pipe industry thanks you for letting us submit a statement 
for this important hearing and we will be pleased to answer any 
questions you may have.

    [This statement was submitted by Bruce Hollands, Executive 
Director.]
                                 ______
                                 
    Prepared Statement of Emily Renzel of the Baylands Conservation 
                    Committee, Palo Alto, California
    Our refuge system is vital to wildlife throughout the United 
States--especially as urban development continues to crowd wildlife out 
of their habitat in many areas. Recent extreme weather events make the 
need for refuges even more important. Please support the refuge 
system's full budget appropriation in a bill that is rider-free.
                                 ______
                                 
         Prepared Statement of the Resource Development Council
    Dear Chairmen Rogers and Cochran and Ranking Member Lowey and Vice 
Chairwoman Mikulski:

    I am writing on behalf of the Resource Development Council for 
Alaska (RDC), to encourage appropriation language to limit the adverse 
impacts of the administration's National Ocean Policy (Executive Order 
13547) on the Alaskan and U.S. economy.
    RDC is an Alaskan non-profit, membership-funded organization 
founded in 1975. The RDC membership is comprised of individuals and 
companies from Alaska's oil and gas, mining, timber, tourism, and 
fisheries industries, as well as Alaska Native corporations, local 
communities, organized labor, and industry support firms. RDC's purpose 
is to link these diverse interests together to encourage a strong, 
diversified private sector in Alaska and expand the State's economic 
base through the responsible development of our natural resources.
    Alaskans, with 34,000 miles of coastline, 3,000 rivers, and over 3 
million lakes, have a significant stake in National Ocean Policy, and 
will be impacted more than other States by the Policy. Coastal and 
rural Alaskan communities may become financially devastated by National 
Ocean Policy implementation.
    With efforts soon to commence to draft legislation funding the 
Federal Government for fiscal year 2016, I write to urge the inclusion 
of language in all appropriations bills to help ensure that continued 
implementation of the July 2010 National Ocean Policy Executive Order 
does not create any additional uncertainty or result in new regulatory 
hurdles.
    The National Ocean Policy directs dozens of Federal entities to 
participate in ``Coastal and Marine Spatial Planning'' (CMSP) across 
the United States. CMSP is described as a process ``to better determine 
how the ocean, coasts, and Great Lakes are sustainably used and 
protected,'' and the Interior Department has likened CMSP to a 
``national zoning plan'' that ``will serve as an overlay'' in Federal 
decisions.
    Concerns are further heightened given that the geographic coverage 
of CMSP includes inland bays and estuaries, and upland areas as new 
``Regional Planning Bodies'' established to create these plans deem 
appropriate, and since Federal entities will ``address priority . . . 
ocean management issues associated with marine planning as described in 
the Executive Order'' even in regions like Alaska that choose not to 
participate.
    In addition to CMSP, the National Ocean Policy requires the Federal 
Government to implement ``Ecosystem-Based Management'' (EBM), which is 
described as a ``fundamental shift'' in how the U.S. manages ocean, 
coastal, and Great Lakes resources. Among other things, the National 
Ocean Policy requires dozens of Federal entities to ``[i]ncorporate EBM 
into Federal agency environmental planning and review processes'' by 
2016.
    Language adopted by the Executive order states that ``effective'' 
National Ocean Policy implementation would ``require clear and easily 
understood requirements and regulations, where appropriate, that 
include enforcement as a critical component,'' and acknowledges that 
the policy ``may create a level of uncertainty and anxiety among those 
who rely on these resources and may generate questions about how they 
align with existing processes, authorities, and budget challenges.''
    In order to ensure that further implementation of the most 
concerning aspects of an initiative that has not been authorized by 
Congress does not create additional regulatory uncertainty, result in 
new regulatory hurdles, or siphon away scarce Federal dollars from 
critical and authorized activities, I respectfully request that all 
appropriations bills include language stating that ``None of the funds 
made available by this Act may be used to further implementation of the 
coastal and marine spatial planning and ecosystem-based management 
components of the National Ocean Policy developed under Executive Order 
13547.''
    RDC's broad and diverse membership is aligned in its concern over 
the negative consequences of unchecked implementation of Executive 
Order 13547. Alaska and our Federal partners have successfully managed 
the diverse and important uses of marine waters without the need of the 
additional layer of planning and regulatory oversight envisioned in 
this Executive order. Diverse activities including: logistics and 
shipping; well managed renewable fisheries which are the envy of the 
world; off shore oil and gas development and mining; and remarkable 
tourism and sport fishing opportunities all contribute greatly to the 
economy of Alaska and our Nation.
    Including this language will importantly provide Congress with an 
opportunity to more closely examine the National Ocean Policy and the 
full range of its potential impacts before it is fully implemented. In 
closing, I appreciate your attention to this important matter and 
respectfully request inclusion of the proposed language in all fiscal 
year 2016 appropriations bills.

    [This statement was submitted by Rick Rogers, Executive Director.]
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for our Nation. Restore America's Estuaries is an 
alliance of community-based coastal conservation organizations across 
the Nation that protect and restore coastal and estuarine habitat. Our 
member organizations include: American Littoral Society, Chesapeake Bay 
Foundation, Coalition to Restore Coastal Louisiana, Save the Sound--a 
program of the Connecticut Fund for the Environment, Conservation Law 
Foundation, Galveston Bay Foundation, North Carolina Coastal 
Federation, EarthCorps, Save The Bay--San Francisco, Save the Bay--
Narragansett Bay, and Tampa Bay Watch. Collectively, we have over 
250,000 members nationwide.
    As you craft your fiscal year 2016 Interior, Environment and 
Related Agencies appropriations bill, Restore America's Estuaries and 
our members encourage you to provide the funding levels below within 
the Department of Interior, U.S. Fish and Wildlife Service (USFWS) and 
the U.S. Environmental Protection Agency (USEPA) for core programs 
which greatly support coastal community economies:

  --$15 million for USFWS Coastal Program.--(Interior: USFWS: Resource 
        Management: Habitat Conservation: Coastal Program)
  --$50 million for Department of Interior, Coastal Resilience Fund.--
        (Interior: Office of the Secretary: Departmental Operations: 
        Coastal Resilience Fund)
  --$27.2 million for USEPA National Estuary Program.--(USEPA: Water: 
        Ecosystems: National Estuary Program/Coastal Waterways)

    These non-regulatory investments strengthen and revitalize 
America's coastal communities by improving habitat and local water 
quality. Healthy coastlines protect communities from flood damage and 
extreme weather, improve commercial fisheries, protect vital 
infrastructure, and support tourism and recreational opportunities.
                         usfws coastal program
    The Coastal Program (CP) is a voluntary, incentive-based program 
that provides technical and financial assistance to coastal communities 
and landowners to protect and restore fish and wildlife habitat on 
public and private lands in 24 priority coastal ecosystems, including 
the Great Lakes. The Coastal Program works collaboratively within the 
USFWS to coordinate strategic priorities and make landscape-scale 
progress with other Federal, State, local, and non-governmental 
partners and private landowners. Since 1985, the Coastal Program has:

  --Partnered with more than 5,000 Federal, tribal, State, and local 
        agencies, non-governmental organizations, corporations, and 
        private landowners.
  --Restored 334,796 acres of wetland habitat; 148,160 acres of upland 
        habitat; and 2,176 miles of stream habitat.
  --Protected more than 2 million acres of coastal habitat.
  --Provided technical assistance to a diverse range of conservation 
        partners.

    Our coastal communities and ecosystems are on the front lines of 
changing and more extreme weather, and support for the USFWS Coastal 
Program helps interested communities and partners address the new set 
of challenges facing coastal communities. The Coastal Program has been 
a key conservation delivery tool within the USFWS aimed at on-the-
ground habitat restoration and technical assistance. Despite the 
program's relatively small cost, it is having a huge impact on the 
ground. A recent estimate by USFWS Coastal Program staff shows that the 
program leverages $8 non-Federal dollars for every Federal dollar 
spent. This makes the Coastal Program one of the most cost-effective 
habitat restoration programs within the U.S. Fish and Wildlife Service.
    The Coastal Program stimulates local economies by supporting jobs 
necessary to deliver habitat conservation projects; positions supported 
include environmental consultants, engineers, construction workers, 
surveyors, assessors, and nursery and landscape workers. These jobs 
also generate indirect economic activities that benefit local hotels, 
restaurants, stores, and gas stations. The Coastal Program estimates 
that the average project supports 60 jobs and stimulates 40 
businesses--this represents major local economic returns on the Federal 
investment.
    In Puget Sound, Washington, the Coastal Program invested $20,000 to 
support a project to clean up and remove old and abandoned fishing gear 
from the waters, resulting in a direct economic impact to the local 
economy of $51,000 from just $20,000 in Federal funds. Around Puget 
Sound abandoned gear like nets, lines, crab and shrimp traps pose many 
problems for people, fish and marine animals. Just one lost net is 
estimated to result in 4,400 crabs trapped which results in a lost 
value to the crab fishery of $20,000. This project removed over 84 
gillnets--returning an estimated value well over $1.5 million in value 
to just the crab fishery.
    Restore America's Estuaries urges your continued support and 
funding for USFWS Coastal Program and asks that you provide $15 million 
for fiscal year 2016.
            department of interior, coastal resilience fund
    The Department of Interior's newly proposed Coastal Resilience Fund 
will provide much-needed support for the restoration and conservation 
of key coastal natural systems, such as beaches, dunes, and wetlands 
that protect communities and infrastructure from the impacts of coastal 
storms. In collaboration with State, local, and tribal governments, 
non-government organizations, universities or other stakeholders, the 
program's goals are to mitigate the impacts of climate change on 
coastal and inland communities from storm wave velocity, erosion, 
flooding, sea-level rise and associated natural threats; to strengthen 
the ecological integrity and functionality of coastal and inland 
ecosystems to protect communities; and to enhance the ability of 
Federal lands to support important recreational, wildlife and cultural 
values.
    Restore America's Estuaries urges Congress to fund the Coastal 
Resilience Fund and recommends that USFWS' Coastal Program administer 
the program with the Office of the Secretary to ensure the funding 
leverages existing staff biologists, science capacity, and expertise 
within the USFWS and further advances the mission of the agency. The 
USFWS Coastal Program has experience working to strategically direct 
resources for greatest impact on the landscape scale and is the best 
program aligned to meet the Department's Coastal Resiliency objectives.
    This proposed funding is modeled after the Department of Interior's 
Hurricane Sandy Coastal Resiliency Competitive Grants Program that 
Congress established after Hurricane Sandy. The previous funding 
successfully provided funds to the Hurricane Sandy affected region with 
great success, and should be continued and expanded before more costly 
efforts are needed down the road.
    In New Jersey, American Littoral Society received funding to 
restore 50 acres of Delaware Bay's wetlands and 6 miles of beach in 
Cape May and Cumberland Counties, New Jersey. Still in implementation, 
the project will improve horseshoe crab spawning, provide shorebird 
stopover area, and improve ecological and economic community 
resilience. The project will also enhance the understanding of the 
impacts of extreme weather events and the benefits of nature-based 
infrastructure and ecosystem services, and will identify cost-
effective, resilience tools that help mitigate for future events.
    We are encouraged by Congress' past support for resiliency project 
funding within the Department of Interior and urge that you provide $50 
million for fiscal year 2016. This will help advance resiliency efforts 
in areas that still have time to prepare their coastal communities for 
future extreme weather.
                     usepa national estuary program
    The National Estuary Program (NEP) is a non-regulatory network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country. The program utilizes a 
consensus-building process to identify goals, objectives, and actions 
that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each NEP focuses its work within a 
particular place or boundary, called a study area, which includes the 
estuary and surrounding watershed.
    Each National Estuary Program demonstrates real environmental 
results through on-the-ground habitat restoration and protection. Their 
efforts reflect local environmental and economic priorities and involve 
the community as equal partners throughout the decisionmaking process. 
Collectively, NEPs have restored and protected more than 1.5 million 
acres of land since 2000.
    Restore America's Estuaries urges your continued support of the 
National Estuary Program and asks that you provide $27.2 million for 
USEPA National Estuary Program/Coastal Waterways. Within this amount 
for fiscal year 2016, no less than $600,000 should be directed to each 
of the 28 NEPs in the field.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:

    1.  Economic Growth and Jobs.--Coastal habitat restoration creates 
between 17 and 33 direct jobs for each million dollars invested, 
depending on the type of restoration. That is more than twice as many 
jobs as the oil and gas sector and road construction industries 
combined. The restored area supports increased tourism and valuable 
ecosystem services.
    2.  Leveraging Private Funding.--From 2005 to 2012, Federal 
investment in the USFWS Coastal Program leveraged non-Federal dollars 
at a ratio of 8 to 1. The NEPs leveraged non-Federal dollars at a ratio 
of 15 to 1. In a time of shrinking resources, these are rates of return 
we cannot afford to ignore.
    3.  Resiliency.--Restoring coastal wetlands can help knock down 
storm waves and reduce devastating storm surges before they reach the 
people and property along the shore.

    We greatly appreciate you taking our requests into consideration as 
you move forward in the fiscal year 2016 appropriations process, and 
thank you for doing so. We stand ready to work with you and your staff 
to ensure the health of our Nation's estuaries and coasts.

    [This statement was submitted by Jeffrey R. Benoit, President and 
CEO.]
                                 ______
                                 
   Prepared Statement of the Riverside-San Bernardino County Indian 
                              Health, Inc.
    I am Brandie Miranda Greany and I am a member of the Pechanga Band 
of Luiseno Indians and the Treasurer of Riverside-San Bernardino County 
Indian Health, Inc. Thank you for the opportunity to testify about the 
2016 appropriations for the Indian Health Service.
    Riverside-San Bernardino County Indian Health is a consortium of 
nine tribes located in Riverside and San Bernardino counties. Our 
member tribes are the Pechanga Band of Luiseno Indians, the Cahuilla 
Band of Indians, the Santa Rosa Band of Cahuilla Indians, the Ramona 
Band of Cahuilla Indians, the Soboba Band of Luiseno Indians, the 
Torres-Martinez Desert Cahuilla Indians, the Agua-Caliente Band of 
Cahuilla Indians, the Morongo Band of Mission Indians, and the San 
Manuel Band of Mission Indians. We operate several health centers under 
a self-governance compact with the Indian Health Service and we are 
very proud of the vast array of services offered at our clinics, 
including medical, dental, optical, behavioral health, pharmacy, 
laboratory, environmental health, community health representative, and 
nutrition services.
    We serve over 15,000 Native Americans and 3,000 related family 
members, and experience over 100,000 patient visits each year. Our 
service area includes two of the largest counties in the contiguous 
United States, so our member tribes have joined together to develop a 
way to economically and efficiently provide healthcare services for our 
people. We also provide healthcare for three other local tribes: the 
Twenty-Nine Palms Band of Mission Indians, the Cabazon Band of Mission 
Indians, and the Augustine Band of Cahuilla Indians. Almost two-thirds 
of our patients come either from these three local tribes or from 
members of other non-consortium tribes who reside in our two-county 
service area.
    Given the number of patients we treat, our IHS dollars can only go 
so far. But we are thankful for the support of Congress and the funding 
provided to ensure our people are healthy. We also cannot thank you 
enough for listening to the tribal representatives that appear at these 
hearings to share their experiences. We were pleased that last year's 
appropriations signaled that Congress heard our voice and we hope you 
will continue to pressure IHS to honor the Government's trust 
responsibility to provide culturally-competent and high-quality 
healthcare for Native Americans.
    Mandatory Contract Support Costs (CSC) Appropriations.--Last year, 
I thanked the subcommittee for its hard work in achieving full funding 
for our compact with IHS. This year we have a lot more to be thankful 
for due to the support of this subcommittee. Not only did Congress's 
instructions to IHS ensure that our contract support costs were paid in 
full, but Congress encouraged the agency to reverse the hostile 
position it had taken with tribes in the past. And perhaps more 
importantly, the agency has committed to working with tribal leaders to 
develop long-term solutions to ensure our contracts are never 
underfunded again. We are extremely appreciative of your support and 
your efforts to bring about this long-overdue change.
    I had hoped to report that despite extremely contentious 
negotiations, we were finally able to reach a settlement of our prior 
year claims against the agency. And while we did reach a tentative 
settlement with the agency back in September following several rounds 
of in-person negotiations, our settlement agreement has yet to be 
signed by the Government. We are ready to put these claims behind us, 
so we cannot understand the cause for this seemingly endless delay in 
just signing our agreement.
    All that said, 2014 was a truly historic year. But, our gains came 
at a price, because when the agency realized it had not accurately 
estimated the total contract support cost need for 2014, it was forced 
to reprogram service funds to cover its obligations. This meant that 
while self-governance tribes received full contract funding for the 
first time ever, our brothers and sisters that receive direct services 
at IHS facilities faced program reductions due to IHS's faulty 
predictions. Tribes made clear that we wanted our contracts paid in 
full, but not at the expense of reducing services for other tribes. And 
throughout the year of consultation on long-term solutions, tribes made 
clear the way to prevent this situation was with a permanent mandatory 
appropriation for CSC. Only that vehicle would separate CSC payments 
from the IHS services budget, protecting vital program funds, while 
also ensuring our contracts are always paid in full. There really could 
be no better solution to this predicament than a mandatory 
appropriation.
    The agency listened to tribal requests and included a proposal to 
move CSC to a mandatory appropriation beginning in 2017. We believe the 
details of the proposal could use some improvement, but the message is 
right on--CSC must be moved to a mandatory appropriation. The Supreme 
Court has already ruled that the Government must fulfill its statutory 
and contractual obligation to pay CSC in full, so these amounts must be 
paid regardless of the type of appropriation. A mandatory appropriation 
will meet this goal and also ensure service funds are not reduced to 
cover this obligation.
    The agency proposed a 3-year appropriation, but we believe the 
measure should actually be permanent. A permanent appropriation would 
obligate the Government to fund only the amounts necessary to pay the 
full requirement each year, and no more; however, if the appropriation 
has a limited duration, IHS would have to estimate the total cost to 
fully fund CSC each year, and like any estimates these totals will 
necessarily be imprecise. Erring on the high side uses more money than 
is necessary in a tight budget climate.
    Lastly, the administration's proposal sets aside up to 2 percent of 
the appropriation for program administration. This provision should be 
eliminated. The appropriation is meant to cover CSC and provide funds 
for tribes, not the agency. Additionally, if the agency adopts the 
instruction from Congress to simplify CSC calculations, these changes 
will reduce bureaucracy, eliminating the need for this set aside. Our 
goal is to simplify this process, not build up a large monitoring 
bureaucracy that requires us to devote even more administrative 
resources to CSC calculations, negotiations and reconciliations.
    In any event, the proposal is a historic first step. And we ask 
this subcommittee to ensure this proposal becomes law--a law that will 
complete the fight for CSC that tribes have been waging for decades.
    Medicare-like Rates For Outpatient Services.--Our IHS dollars can 
only go so far. However, they would go much farther if we were able to 
pay Medicare-like rates through the Purchased and Referred Care program 
(contract care) for the non-hospital outpatient and specialty services 
our patients need and that we are unable to provide in our clinics. The 
regulation at 42 C.F.R. 136 part D limits the amounts tribes pay for 
hospital services to the amount Medicare would pay for these same 
services (the Medicare-like rate provision). For years, tribes have 
been fighting for the implementation of a similar provision that covers 
outpatient services--the other half of the services we must send 
patients out to access, such as cardiology, pain management, 
nephrology, endocrinology and dialysis. Without such a provision, our 
contract care dollars are drained to pay the full billed charges, which 
are often several times higher than the Medicare rates.
    Congress can fix this issue. Congress has already done so for the 
health programs administered by the Department of Defense, and the 
Department of Veterans Affairs issued a final rule to limit the amount 
its health programs pay for comparable services. Similarly, this past 
year IHS proposed a regulation to try and fix this issue and extend 
Medicare-like rates for outpatient services. However, IHS's proposal--
while better than nothing--had some issues. First, the proposed 
regulation was mandatory, meaning it may interfere with contracts that 
tribes have already negotiated. Second, the proposal did not have any 
flexibility, so tribes could never negotiate a higher rate in case of 
emergency or the absence of providers willing to provide services at 
these lower rates. While we truly appreciate the agency's willingness 
to tackle this issue in response to tribal concerns, we believe a 
legislative fix is necessary because only legislation can address the 
enforcement mechanisms that will be needed to implement this reform.
    In summary, a provision to extend Medicare-like rates for all 
contracted services could increase tribal buying power between an 
estimated $100 million to $340 million nationwide. For our program 
alone, access to Medicare-like rates for our outpatient referrals would 
save us on average 33 percent of the charges we are currently billed--
an amount which would translate into approximately $500,000 in savings 
each year that could be used for additional healthcare. This 
legislation would expand and enhance tribal access to care and improve 
the health status of all served. It is therefore no surprise that 
support for this legislation has been affirmed by a variety of 
organizations that are familiar with our programs, including the IHS 
California Area Office; National Congress of American Indians; National 
Indian Health Board and the IHS Office of Tribal Self Governance. We 
also note this change would be ``budget neutral'' to the Federal 
Government, so we ask you to take action on this measure as swiftly as 
possible.
    YRTC Funding.--The IHS 2016 budget includes $17.8 million for 
staffing and operating costs for newly-constructed facilities and Youth 
Regional Treatment Centers (YRTC). In 2014, the California Area Office 
finally started construction on the Southern California YRTC. That 
construction is scheduled to be completed in December 2015, so full 
funding for fiscal year 2016 staffing needs are essential to ensure the 
facility opens on time and can serve a maximum number of patients. 
Additionally, the agency plans to start construction of the Northern 
California YRTC and this facility, too, will need funds for staffing 
and operation. Together, these facilities will provide much-needed care 
for our Native youth.
    For example, when our Native children need this care we currently 
have to send them out-of-State for intensive care services. These 
programs are costly and we pay up to $10,000 per month for these 
intensive care services. Even worse, our families are forced to travel 
long distances to places like St. George, Utah for family visits. Large 
distances also impact the continuity of care because there are few 
opportunities for medical providers and families to interact on an 
ongoing basis. The California YRTCs will provide these crucial services 
locally in an environment where families and children can work 
together. These opportunities will allow the whole family to heal 
together.
    For instance, the California YRTCs will provide residential 
chemical dependency treatment for Native youth from 12 to 17. Each 
facility offers comprehensive 3 to 4 month treatment programs, which 
incorporate mental health services, medical care, education, aftercare 
planning, and family therapy. They are also designed to respond to the 
unique cultural needs of our youth. These facilities will be critical 
for treating youth that are struggling, ensuring they can get back on 
track and lead healthy productive lives as adults. But, our new 
facilities will be meaningless without the talented professionals that 
will be needed to staff them. Therefore, we ask that Congress fully 
fund this line item and ensure our YRTCs live up to their potential.
    Thank you once again for the opportunity to appear in front of this 
distinguished subcommittee and share our concerns.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    On behalf of the Sac and Fox Nation thank you for the opportunity 
to present our requests for the fiscal year 2016 budgets for the Bureau 
of Indian Affairs (BIA) and the Indian Health Service (IHS). The Sac 
and Fox Nation is home of Jim Thorpe, one of the most versatile 
athletes of modern sports who earned Olympic gold medals for the 1912 
pentathlon and decathlon.
    The Sac and Fox Nation supports and appreciates the President's 
fiscal year 2016 budget proposal for an overall increase of 12 percent 
for BIA over the fiscal year 2015 enacted level, the largest increase 
in more than a decade (excluding Recovery Act funding). The IHS would 
receive a 9 percent increase.
    In general, all tribal programs including BIA and IHS line items 
should be exempt from any budget recessions and discretionary funding 
budget reductions. Further, the Sac and Fox Nation is extremely 
concerned about the consequences of the 2013 sequestration and similar 
future reductions to tribal program funding. We strongly urge Congress 
to fully restore sequestration cuts from fiscal year 2013 since it 
threatens the trust responsibility and reduces portions of the budget 
that are not major contributors to the deficit.
                        tribal specific requests
I. TRIBAL SPECIFIC REQUEST
    $4.95 Million to Fully Fund Operations and Maintenance of the Sac 
and Fox Nation Juvenile Detention Center (SFNJDC)--Bureau of Indian 
Affairs--Public Safety and Justice--Office of Justice Services--
Detention/Corrections Facility Operations and Maintenance Account.--The 
Tribal Law and Order Act (TLOA) requires Department of the Interior 
(DOI) Indian Affairs to develop guidelines for approving correction 
centers for long term incarceration, as well as work with the 
Department of Justice on a long-term plan for tribal detention centers. 
In the absence of appropriations to fully fund and fully implement 
TLOA, the intent of Congress and the effectiveness and benefits of TLOA 
to tribal courts, law enforcement and detention programs in Indian 
Country are less of a reality and more of what tribes have experienced 
in the past--an unfulfilled trust obligation.
II. NATIONAL REQUESTS--BUREAU OF INDIAN AFFAIRS
    1.  Authorize mandatory funding and fully fund Contract Support 
Costs (CSC).--The President's budget request for contract support costs 
is $277.0 million, an increase of $26.0 million above the fiscal year 
2015 enacted level. Based on the most recent analysis, the requested 
amount will fully fund 2016 tribal contract support costs. The budget 
also includes--for the first time ever--a new proposal to fully fund 
BIA and Indian Health Service contract support costs as mandatory 
funding, beginning in fiscal year 2017.
    2.  Public Safety and Justice--Law and Order--Detention/
Corrections.--Fully fund all provisions of the Tribal Law and Order Act 
of 2010 and the Tribal Provisions in the Violence Against Women Act 
Reauthorization.
    3.  Restore 2013 Sequestered Cuts ($119 million) to Tribal Program 
Funding.
    4.  + $319 million over fiscal year 2015 for Tribal Priority 
Allocations Account.--We support an increase of $139 million in fiscal 
year 2016 and that these increases be provided via tribal base funding 
agreements.
    5.  Office of Self-Governance (OSG).--Provide increased funding to 
the OSG to fully staff the office for the increase in the number of 
tribes entering self-governance.
 III. NATIONAL REQUESTS--INDIAN HEALTH SERVICE
    1.  Authorize mandatory funding and fully fund Contract Support 
Costs (CSC).--The President's fiscal year 2016 budget proposal fully 
funds the estimated need for CSC at $718 million, an increase of $55 
million above fiscal year 2015. The estimated increase includes funding 
for new and expanded contracts and compacts. The budget also requests 
that CSC be reclassified to a mandatory appropriation beginning in 
fiscal year 2017;
    2.  Restore 2013 Sequestered Cuts ($220 Million) to Tribal Health 
Services;
    3.  +$368.9 million over the fiscal year 2015 President's proposal 
budget for IHS Mandatory Funding (maintain current services).--
Mandatories are unavoidable and include medical and general inflation, 
pay costs, contract support costs, phasing in staff for recently 
constructed facilities, and population growth;
    4.  +$70.3 million for Purchased and Referred Care.--The 
President's fiscal year 2016 budget includes $25.5 million increase, in 
addition to $43.6 million in Purchased and Referred Care (PRC) medical 
inflation and $1.2 million for staffing/operating costs (total PRC 
increase of $70.3 million). The PRC program pays for urgent and 
emergency and other critical services that are not directly available 
through IHS and tribally operated health programs; and
    5.  Restore $6 million to the Office of Tribal Self-Governance 
(OTSG) to fulfill legal requirements under Title V of Public Law 106-
260 which increased the responsibilities of OTSG.
TRIBAL SPECIFIC REQUEST--$4.95 Million to Fully Fund Operations of the 
        Sac and Fox Nation Juvenile Detention Center (SFNJDC)--Bureau 
        of Indian Affairs--Public Safety and Justice--Office of Justice 
        Services--Detention/Corrections Account
    In 1996, the Sac and Fox Nation Juvenile Detention Center (SFNJDC) 
opened its doors as the first regional juvenile facility specifically 
designed for American Indians/Alaska Natives, as well as the first 
juvenile facility developed under Public Law 100-472, the Self-
Governance Demonstration Project Act.
    At that time, the Bureau of Indian Affairs made a commitment to 
fully fund the SFNJDC operations; however this commitment was never 
fulfilled. Even though the Sac and Fox Nation continues to receive and 
use Federal dollars to address the issue of juvenile delinquency and 
detention for tribes in the Southern Plains Region and Eastern Oklahoma 
Region, it has never received sufficient funds to operate the facility 
at its fullest potential.
    Full funding would allow the Sac and Fox Nation to provide full 
operations including (but not limited to):

  --Juvenile detention services to the 46 tribes in Oklahoma, Kansas 
        and Texas;
  --Rescue more of our at-risk youth and unserved youth in need of a 
        facility like the SFNJDC;
  --Re-establish programs we have lost due to inadequate funding such 
        as: On-site Mental Health Counseling; Transitional Living, 
        Vocational Training, Horticulture, Life Skills, Arts and 
        Crafts, Cultural Education and Activities, Spiritual Growth and 
        Learning;
  --Offer job opportunities in an area that is economically depressed; 
        and
  --Fully staff and expand staff training to address high volume of 
        staff turnover which will allow for continuity in operations 
        and service delivery.

    At the fiscal year 2016 Regional Budget Formulation Session, these 
tribes continue to support and endorse full funding for operation of 
the SFNJDC and included it as a priority in their ``Top 10 Budget 
Increases'' for the fiscal year 2016 BIA budget.
    The current funding level represents only approximately 10 percent 
of what is needed to fully fund the Juvenile Detention Center 
Operations and Maintenance. Additional funding in the amount of $4.95 
million, over what Sac and Fox already receives in base funding 
($508,000), would fully fund the facility at a level to address the 
need of juvenile delinquency in the tri-State area and create 
opportunities for employment for more tribal members.
    The SFNJDC is a 50,000+ square foot, full service, 24 hour, 60 bed 
(expandable to 120 beds) juvenile detention facility that provides 
basic detention services to all residents utilizing a classification 
system based on behavioral needs to include special management, medium 
and minimal security. Our facility was designed to provide programs 
including behavioral management, alcohol and substance abuse, spiritual 
and cultural growth and learning, self-esteem, arts and crafts, health 
and fitness, horticulture, nutrition, life skills, vocational technical 
training, counseling, educational programs and a Transitional Living 
Center.
    Through a partnership with the local High School, students are 
afforded an education at the public school level, including a 
graduation ceremony and issuance of a certificate upon successfully 
achieving the State requirements. Additionally, the Sac and Fox Nation 
has an on-site Justice Center providing Law Enforcement and Tribal 
Court services and the Sac and Fox Nation also operates an on-site 
health clinic which provides outstanding medical services that include 
contract service capabilities for optometry, dental and other health-
related services.
    The lack of adequate funding from the BIA and decreases in base 
funding have mushroomed into underutilization and erosion of the 
programs our facility was built to offer. Our current funding levels 
only allow us to provide an alcohol and substance abuse program, some 
health and fitness activities and a basic education program. We have 
lost our programs for vocational training, horticulture, life skills, 
arts and crafts, on-site counseling and transitional living. The 
passage of the 2010 Tribal Law and Order Act was applauded by the Sac 
and Fox Nation because we saw this as an opportunity for the Federal 
government to finally step up to its pledge to fully-fund the SFNJDC 
and honor its treaty and trust obligations to our people. However, the 
lack of funding is also impeding the implementation of TLOA!
    In 1996, the SFNJDC was built as a model facility in Indian 
Country. And nearly 20 years later there is still a need for such a 
facility to help our youth return to their traditional healing and 
spiritual ways. As a self-governance tribe we operate our tribal 
government on the premise that we are the best provider of the services 
and know which services are most needed in our communities. We saw the 
increasing need in the 1990's for a facility like the SFNJDC and we 
acted on our instincts to help our youth by giving them a place to turn 
their lives around and the access to programs, services and holistic 
care they needed to recover and heal. Sadly, the number of Native 
American youth, and juveniles overall requiring detention has not 
decreased. The Sac and Fox Nation Juvenile Detention Center was built 
with the same intentions as the Tribal Law and Order Act Long-Term Plan 
to Build and Enhance Tribal Justice Systems today. The SFNJDC has the 
facility, staffing, ability, commitment and capacity to provide 
superior detention and rehabilitation services to Native American 
youth, as well as any youth in the tri-State area in need of our 
services. We do not understand the Federal Government's desire to fund 
the construction of more detention facilities while our beds remain 
empty.
    Thank you for allowing me to submit these requests on these fiscal 
year 2016 budgets.

    [This statement was submitted by Hon. George L. Thurman, Principal 
Chief.]
                                 ______
                                 
         Prepared Statement of the Seattle Indian Health Board
    Chairman Cole, Ranking Member DeLauro and Representatives of the 
Subcommittee on Labor, Health and Human Services (HHS), Education, and 
Related Agencies, my name is Aren Sparck. I am the Government Affairs 
Officer for the Seattle Indian Health Board (SIHB), which is a 
contractor and grantee with the Indian Health Service (IHS), and one of 
the largest of the 33 Subchapter IV of the Indian Health Care 
Improvement Act (IHCIA) funded Urban Indian Health Programs (UIHP). We 
provide primary care services as a Health Resources Services 
Administration 330 program, offer outpatient services on-site, and 
operate the Thunderbird Treatment Facility, a 65-bed inpatient chemical 
dependency treatment center. We also create, analyze, and report on 
urban Indian health data through our Urban Indian Health Institute 
(UIHI), the only IHS Tribal Epidemiology Center (TEC) in the country 
with a national purview. We are asking for $5 million for urban 
American Indian/Alaska Native (Al/AN) health research funds over 5 
years.
    I am requesting that the subcommittee increase their investment in 
monitoring the health status of the urban Al/AN population. Since 1970, 
the urban Al/AN population has grown from 45 percent \1\ of all Al/ANs 
to 71 percent \2\ in 2010. The urban Al/AN health line item was less 
than 1 percent \3\ of the overall IHS budget in fiscal year 2015, with 
a flat increase in the President's fiscal year 2016 budget. There were 
negligible allocations from other Federal trust obligation areas of 
housing and education to address the needs of the urban population. 
Considering this, it is easy to see that the urban Al/AN population 
suffers alarmingly high rates of disparities, notably in poverty, 
unemployment, a lack of health insurance, etc.\4\ Despite UIHPs and 
urban Al/AN serving institutions receiving legislative authority in 
Subchapter IV \5\ (formerly Title V) of the IHCIA, as amended in 2010 
in the Patient Protection and Affordable Care Act (PPACA), a lack of 
inclusion in program and resource planning committees at the HHS level 
has resulted in the majority of funds going to tribes where 
approximately two out of every 10 Al/ANs live in tribal lands.\2\ The 
fiscal year 2015 IHS budget urban line item was $46.3 million 
dollars,\3\ again less than 1 percent of the total IHS budget, despite 
7 out of every 10 Al/ANs living in urban areas.\2\ We feel that the 
almost discriminatory lack of resource and administrative attention the 
urban ALAN population receives can be attributed to a lack of inclusion 
in program-planning at the Federal level, and a lack of quality data 
for reference. This is the reason we are asking the subcommittee to 
invest not just in funds, but administration-wide, so a more complete 
picture of Al/AN community health can be achieved. We feel that with 
increased investment from HHS, the IHS budget shortfall for the urban 
population will be better addressed with sound science and data.
    We recently had a conversation with the Director of the Office of 
Minority Health (OMH) about the importance of increasing their 
monitoring investment for urban AVANs. What we heard from the director 
was, unfortunately, what we have heard from every department head in 
HHS. They absolutely do understand the overrepresentation in population 
and underrepresentation in research dollars allocated to the urbans, 
but the resources are just not there to address the disparities.
    Because the urbans receive so little attention from HHS and the 
OMH, we have very little baseline data concerning where the 71 percent 
of urban Al/ANs are accessing healthcare and what types of services 
they are utilizing. We know that our urban Al/AN population suffers 
from high rates of health disparities in multiple chronic conditions,\4 
6\ but the UIHPs that are tasked with delivering healthcare to the 3.7 
million Al/ANs living in urban areas are only in 19 States and 100 
counties.\7\ In the UIHP catchment areas, there are one million Al/ANs 
we can have potential access to,\8\ but the reality is, we see a small 
fraction of that. In SIHB's catchment area of King County, the most 
urban and populated county in the State of Washington, there are 
approximately 40,000 Al/ANs,\9\ and we see only 3,889.
    Knowing where our population is going for healthcare, and what 
types of services they are utilizing pre- and post-healthcare reform 
implementation will help us understand whether: (1) the quality of 
national data sets, such as the Epi Data Mart, UDS and CMS data are 
creating a comprehensive picture of urban Al/AN health; (2) chronic 
conditions are being treated; (3) primary and preventative care are 
being accessed; (4) access to the IHS, Tribal Health and UIHP (I/T/U) 
system of culturally relevant care make a difference in health status; 
and (5) the policy intervention the PPACA implemented is truly making a 
difference in the Al/AN population.
    To do this, we are asking that the subcommittee allocate $5 million 
in research funds over 5 years to the OMH specifically for the analysis 
of where urban Al/ANs are accessing care throughout the country and 
what types of services they are utilizing. This is the baseline data 
that will allow us to make better policy decisions about where research 
and program funds go in Indian Country to end the high health 
disparities our urban population experiences. We also ask that the 
funds go to an Al/AN research organization such as the TECs that have 
experience collecting and analyzing national data. This will help build 
the scientific and infrastructure capacity within our Al/AN community 
necessary to create a trusting partnership between HHS and Indian 
Country by legitimizing quality research and data analysis for AVANs by 
Al/ANs. This is preferable to seeing research dollars build the 
capacity of academic institutions whose primary focus is not in Indian 
Country.
    Aside from the $5 million for urban Al/AN healthcare access and 
service utilization analysis, we ask that funding priorities reflect 
less understood and emergent issues our urban population is facing. 
Because our urban population is by and large highly mobile and low-
income, social and health pressures are exerting themselves in our 
urban Al/AN youth that are vulnerable to conditions of mental health 
and chemical dependency problems, violence and an alarming incidence of 
prostitution and human trafficking. Our youth are very susceptible to 
gang violence, as the family and cultural dynamic is often disparate 
and inconsistent due to a lack of any dominant Al/AN culture in the 
city. A special funding emphasis needs to be made addressing dental 
health and access to specialty care for our population. With these 
funds, we can create coalitions between the UIHPs and Marketplace and 
Medicare/Medicaid purchasers, both private and public. These coalitions 
can create a system that understands that our population is in 
immediate need of specialty care to stabilize chronic conditions, which 
will lead to primary care use for preventative medicine purposes. With 
a push towards capitation for public health purchasing, this type of 
dialog is essential to eliminate health disparities in our urban Al/AN 
population instead of sustaining a chronic state of health.
    It is unfortunate that the urban AI/AN population finds itself 
suffering from almost constant disparity. Many factors have led us 
here: lack of representation (no urban voice in HHS Secretary's Tribal 
Advisory Committee or the OMH's Al/AN Health Research Advisory Council; 
lack of a single Federal definition of Al/AN (five different 
definitions of Al/AN used in IHCIA); \10\ a general acceptance of the 
Federal Government that conferring with and allocating almost entirely 
to tribes is addressing the health and human service needs of the 
entire Al/AN population, etc. We know that the Al/AN population is 
overrepresented in urban areas, yet severely lacks access to the 
Federal trust. An Al/AN does not cease to be Al/AN just because they 
have left tribal lands. By geographically limiting the reach of the 
Federal trust only to those Al/ANs who reside on tribal lands, we are 
forcing AVANs to think they cannot keep their identity by leaving the 
geographical boundaries of their tribe. Congress has acknowledged that 
the Federal trust obligation does not end at the reservation 
boundary.\11\ We need to follow the lead of the 1921 Snyder Act, which 
gives Congress broad discretion in allocating funds for the ``care, 
benefit, and assistance of Indians throughout the United States.'' \12\ 
That there is no tribal or geographical caveat in this legislation 
proves that the Government does indeed have an obligation to all Al/AN 
people, regardless of where they choose to live.
    By dedicating funds to address our data needs, understanding our 
healthcare access and utilization patterns, stabilizing our chronic 
conditions to lead to preventative care utilization, and addressing the 
emergent health and social threats, HHS can demonstrate that they are 
dedicated to ending the health disparities our Al/AN population faces. 
I want to be very explicit that in no way am I advocating for taking 
money from the tribes to fund these urban initiatives, as they are 
woefully underfunded as it is. I am asking that the subcommittee 
increase their investment in Indian Country to a level that reflects 
actual need, thereby fulfilling the Federal trust obligation the 
Federal Government has to our Al/AN population.
----------

                                Endnotes
---------------------------------------------------------------------------

    \1\ U.S. Department of Commerce, Bureau of the Census. 1970 Census 
of Population: Subject Report--American Indians.
    \2\ U.S. Census Bureau. 2010. ``Census 2010 American Indian and 
Alaska Native Summary File; Table: PCT2; Urban and rural; Universe 
Total Population; Population group name: American Indian and Alaska 
Native alone or in combination with one or more other races.''
    \3\ U.S. Department of Health and Human Services. 2016. 
Justification of Estimates for Appropriations Committees, Indian Health 
Service Fiscal Year 2016. pgs. CJ-23, CJ-27.
    \4\ Urban Indian Health Institute, Seattle Indian Health Board. 
(2011) Community Health Profile: National Aggregate of Urban Indian 
Health Organization Service Areas. Seattle, Washington: Urban Indian 
Health Institute.
    \5\ Subchapter IV of Chapter 18 of Title 25 of the United States 
Code (25 U.S.C. Sec. Sec. 1651 et seq.).
    \6\ Castor ML, Smyser MS, Taualii M, Park A, Lawson SA, Forquera R. 
(2006). A nationwide population-based study identifying health 
disparities between American Indians/Alaska Natives and the general 
populations living in select urban counties. American Journal of Public 
Health, 96(8), 1478-84.
    \7\ The Urban Indian Health Institute. About Urban Indian Health 
Organizations. 2015. http://www.uihi.org/about-urban-indian-health-
organizations/.
    \8\ Testimony of Donna Keeler, President of the National Council of 
Urban Indian Health to the U.S. House of Representatives Appropriations 
Subcommittee on Interior, Environment, and Related Agencies Native 
American Witness Day Hearing, March 25, 2015. http://docs.house.gov/
meetings/AP/AP06/20150325/102900/HHRG-114-AP06-Wstate-KeelerD-
20150325.pdf.
    \9\ United States Census, 2010. 2010 Demographic Profile Data, King 
County, Washington. http://factfinder.census.gov/faces/tableservices/
jsf/pages/productview.xhtml?src=bkmk.
    \10\ National Indian Health Board. The Definition of ``Indian'' 
Under the Affordable Care Act Approved by the Tribal Technical Advisory 
Workgroup. 2010.
    \11\ Senate Report 100-508, Indian Health Care Improvement Act 
Amendments of 1987, September 14, 1988, page 25.
    \12\ 25 U.S.C. Sec. 13,1921.
---------------------------------------------------------------------------
                                 ______
                                 
  Prepared Statement of the Shoshone-Paiute Tribes of the Duck Valley 
                              Reservation
    Chairwoman Murkowski, Ranking Member Udall, and members of the 
subcommittee, my name is Lindsey Manning. I am Chairman of the 
Shoshone-Paiute Tribes of the Duck Valley Indian Reservation. I am 
pleased to submit testimony concerning the fiscal year 2016 budget for 
the Bureau of Indian Affairs (BIA), Bureau of Land Management (BLM) and 
Indian Health Service (IHS). The Shoshone-Paiute Tribes are grateful 
for this subcommittee's long standing support of Indian tribes and for 
sharing its understanding of Indian Country with your colleagues so 
that this Congress can continue to empower tribal governments and 
promote the bipartisan national goals of local control and Indian self-
determination.
    The Duck Valley Reservation is a large, rural reservation that 
straddles the Idaho-Nevada border along the east fork of the Owyhee 
River. It encompasses 450 square miles in Elko County, Nevada and 
Owyhee County, Idaho. The reservation is 140 miles from Boise, Idaho, 
and 100 miles from Elko, Nevada. Many of our 2000 tribal members make 
their living as farmers and ranchers, though a number of them are 
employed by the tribes. We assume most duties of the BIA and IHS under 
self-governance compacts, although the BIA continues to provide law 
enforcement and detention services on the reservation.
    Building and maintaining tribal infrastructure is our greatest 
challenge:

  --We are replacing our administration buildings contaminated by mold;
  --We have renovated a detention center to create a modern facility 
        that can house treatment programs and implement ``alternatives 
        to incarceration'' programs to reduce recidivism;
  --We are undertaking road safety improvements and reconstruction of 
        existing roads to make our community safer;
  --We are building our Cultural Resources Protection and Greenhouse/
        Native Plant Programs to employ and train the next generation 
        of tribal members to protect cultural resources sites and, in 
        partnership with BLM, restore native plants indigenous to the 
        region following damaging wildfires;
  --We are working to restore salmon to the reservation for the first 
        time in over 80 years; and
  --We continue to look for economic development opportunities.

    In too many instances, however, our success in these areas is 
largely dependent on Federal appropriations which, in turn, determine 
whether economic and social conditions on the Duck Valley Indian 
Reservation improve or worsen. While we contribute tribal resources to 
these endeavors as best we can, we look to our Federal partner for 
support. As a remote reservation, we cannot turn to a nearby 
jurisdiction for help in providing essential services. The tribal 
government is the only local government available. If we fall short, 
our members suffer. For this reason, we support the President's fiscal 
year 2016 budget request for the Bureau of Indian Affairs, Bureau of 
Land Management and Indian Health Service. Without sustained growth in 
these Federal programs, we cannot meet the needs of our reservation. We 
encourage this subcommittee to build on the proposed increases in the 
President's budget for these essential tribal programs. Our priorities 
for fiscal year 2016 include:
    1. Increase funding for the BIA Public Safety and Special 
Initiatives Program.--To provide alternatives to incarceration for 
adult and juvenile offenders from Duck Valley and alter the ``detention 
first, treatment second,'' mentality, we urge the subcommittee to build 
on the President's modest $11.5 million increase (3.2 percent) for 
BIA's Public Safety and Justice Programs. We receive $250,000 in 
additional recurring funding to participate in a pilot program with the 
BIA's Office of Justice Services (OJS) to reduce recidivism on the Duck 
Valley Reservation by creating an ``alternative to incarceration'' 
model program. Housing shortages limit our ability to hire and place 
substance abuse counselors, mental health professionals and detention 
personnel on the reservation to kick start our pilot program.
    For that reason, we also urge the subcommittee to expand the 
greatly reduced Housing Improvement Program (HIP) above its $8 million 
budget. If we can access HIP funds, it would free up other resources to 
address the need for housing health and law enforcement/detention 
professionals on the reservation where housing is simply not available.
    I also urge the subcommittee to support the President's $4 million 
increase for the BIA's ``Special Initiatives'' subaccount for fiscal 
year 2016 and include statutory language to make clear that such funds 
may be used for the purchase or lease of temporary trailers or modular 
units to house personnel associated with law enforcement, corrections, 
probation, tribal courts and other professionals serving adult and 
youth offenders. For rural communities, housing is often the linchpin 
that enables key personnel to locate to the reservation and make a 
difference.
    2. Fund the Owyhee Initiative within the Bureau of Land Management 
(BLM).--The Owyhee Initiative is a joint effort by ranchers, 
recreationalists, County and State officials, and the Shoshone-Paiute 
Tribes to protect, manage and appropriately use public lands in Owyhee 
County, Idaho. In 2009, Congress passed the Omnibus Public Land 
Management Act, Public Law 111-1. In 2010, we entered into a 5-year 
agreement with BLM to protect cultural resources and increase public 
understanding and appreciation of these resources. Increased 
recreational use and encroachment within the Owyhee River Wilderness 
Area and other Federal lands place these resources under stress. This 
year we seek to enter into another 5-year agreement with BLM. As the 
Department has noted, urban growth and off-highway vehicle (OHV) use on 
public lands continues to increase and place increased demand on public 
health and safety and natural and cultural resource protection 
programs. We have been a good partner with BLM.
    BLM funding several years ago allowed us to purchase two Cessna 
planes and ATV equipment and hire one Chief Ranger and a Cultural 
Resources Director to patrol public lands and report violations of 
cultural and religious sites to BLM officials. We work closely with BLM 
and Owyhee County officials to coordinate compatible recreation use 
within BLM lands in Owyhee County, especially within the wilderness 
areas where we seek to protect cultural resource sites important to our 
tribes. The Ranger and Director also spot and report wildfires to BLM 
officials before the fires can do great damage to sensitive, remote 
areas.
    We seek recurring BLM funds to continue this important work to 
protect cultural sites and establish a Reserve Ranger Program to engage 
tribal youth in cultural and related activities during the summer. The 
Chief Ranger and Cultural Resources Director are near retirement and it 
is essential that we hire and train replacement staff, including a 
pilot, to continue their important work for our tribes. We seek BLM 
funds to hire an Assistant Director, one adult Tribal Ranger and two 
part-time Youth Rangers, train a qualified applicant as an additional 
pilot, purchase two more ATVs and two camp trailers to permit tribal 
personnel to remain in the field and overhaul the two Cessna planes per 
FAA regulations and construct a hanger at the Owyhee Airport to 
centralize our operation and increase surveillance flights over Owyhee 
County. We contribute nearly 50 percent of the required budget but 
cannot sustain this important program without Federal support. Our plan 
requires $600,000 to fully fund the above activities.
    We also support the administration's $2.0 increase for BLM Cultural 
Resources Management and other BLM accounts used to manage and protect 
archaeological and historic properties on public lands. Scattered 
across millions of acres of high desert in southwest Idaho and northern 
Nevada are the remnants of campsites, villages, hunting blinds and rock 
inscriptions that tell the story of the Shoshone-Paiute and other 
tribes. After speaking with Shoshone-Bannock tribal officials, together 
with northern tier Nevada tribes (including the Te-Moak, Battle 
Mountain, South Fork and Goshute tribes), we seek BLM funds to form a 
tribal cultural resources work group to spread best practices for 
cultural resources management and protection that we have learned over 
the last 20 years. We would be a good candidate for a BLM grant. We 
request a special appropriation to create a multi-tribal task force to 
propose and design strategies for on the ground protection of Native 
American cultural resources for the Upper Great Basin and High Plateau 
of the tri-State area of Nevada, Oregon and Idaho.
    3. Telecommunications (fiber optics).--The tribes continue to need 
fiber infrastructure over 5 miles for connectivity among Fish, Wildlife 
and Parks, Tribal Headquarters, Juvenile Services Center, Fire Station 
and the Owyhee Community Health Facility. The health center serves as 
the Wide Area Network (WAN) hub for the tribes' and health center's 
computer network. Connectivity among these facilities and programs 
would alleviate the long-term monthly recurring cost we pay to an 
Ethernet Circuit provider ($96,000 annually). We require $500,000 to 
construct new fiber networks and cover construction inspection fees. We 
urge the subcommittee to increase appropriations so that remote, rural 
communities like Duck Valley can improve telecommunications networks 
and break down communication barriers to promote education and job 
opportunities for our members.
    4. East Fork Owyhee Salmon Steelhead Recovery and Reintroduction 
Project.--We seek to return Chinook salmon and steelhead trout to Duck 
Valley and the State of Nevada through an innovative ``trap-and-haul'' 
program. Dam construction along the Columbia and Snake Rivers 
eliminated salmon from the State of Nevada. Duck Valley is unique in 
that it supports two major tributaries to the Snake River. Last year, 
we financed a pilot study that found that habitat in the East Fork of 
the Owyhee River may support a summer rearing capacity of between 3,300 
and 43,000 juvenile steelhead trout and from 3,600 to 41,000 Chinook 
salmon. With additional funding of approximately $210,000 for the next 
3 years, we can complete our habitat surveys of the East Fork Owyhee 
River, including obtaining data on non-summer river conditions, as well 
as an assessment of the Bruneau River habitat.
    We propose to transport adult fish from Lower Granite Dam or Hells 
Canyon Dam and release the fish above China Dam into the East Fort 
Owyhee River to spawn. Emigrating juvenile fish would later be captured 
and released downstream from passage carriers on the Snake River to 
complete their migration to the Pacific Ocean. Adult salmon originating 
from the East Fork Owyhee River would later be captured in the lower 
Snake River and transported back upstream.
    We urge the subcommittee to support the President's $48 million 
increase to the BIA's Trust-Natural Resources Management program 
budget, including the Fish, Wildlife and Parks program. Tribes contract 
a significant part of the Natural Resources program funds. An increase 
to the BIA's Trust-Natural Resources budget can help us with this 
innovative project to restock the reservation with salmon and steelhead 
trout.
    5. Quagga Mussel Issue (invasive species).--The fiscal year 2016 
budget proposes to maintain funding at essentially the fiscal year 2014 
funding levels for invasive species ($6.7 million). This is penny wise 
and pound foolish. We seek funds to add an additional boat-washing 
station at the Wildhorse Reservoir near the reservation for the boat 
launch we lease. This will ensure that boaters who then transport their 
boats to tributaries of the Columbia and Snake Rivers do not transfer 
invasive species into those rivers. We are also working with Nevada 
State officials to improve existing State laws concerning this issue. 
Ignoring invasive species is only asking for trouble. Please augment 
the fiscal year 2016 budget for invasive species above the President's 
request.
    6. Native Plant Program/Greenhouse.--In cooperation with the Idaho 
Bureau of Land Management, the tribes gather, propagate and make 
available seed and other native plant materials that are indigenous to 
the region. Through a series of assistance agreements with BLM, we 
built a greenhouse and are growing seedlings (including sagebrush and 
bitterbrush seedlings) for planting on adjacent public lands. This 
assists BLM and other agencies in their efforts to restore lands 
damaged by wildfires and helps employ tribal members. This year, we are 
completing construction of three greenhouses, plus installation of 
equipment, walk-in-cooler and workshop. We plan to hire a greenhouse 
manger and have tribal members collect seeds. For fiscal year 2016, we 
seek funding to build a facility to house equipment to dry, clean and 
store seed and hire part-time greenhouse staff to focus on marketing 
and finances. We plan to have 40,000 containerized grasses and shrub 
seedlings available for sale, together with willow and other riparian 
plant cuttings and local vegetables for sale and distribution through 
our ``Honor Our Elders'' program. We seek Interior Department 
appropriations of $205,000 over the next 5 years to expand our program 
and be a reliable supplier of native plants and seedlings for BLM.
    7. IHS.--We fully support the President's fiscal year 2016 budget 
increases to the Indian Health Service (IHS) budget, especially in the 
area of clinical services, including Purchased/Referred Care and 
Contract Support Costs (CSC). We also support the administration's 
request to shift CSCs to a ``mandatory'' appropriation beginning in 
fiscal year 2017, but would want to ensure that the shift is permanent 
in nature. This funding must be paid. We are pleased to report that 
after years of litigation, the tribes recently settled unpaid CSC 
claims with the IHS. The settlement will allow us to augment our 
available health services for the benefit of our members.
    Please build on the President's budget request to meet tribal 
health and safety needs that strengthen our community. Thank you for 
affording me the opportunity to testify.
                                 ______
                                 
      Prepared Statement of the Society for Historical Archaeology
    Our Request.--$89.91 million for the Historic Preservation Fund

  --$46.925 million for State Historic Preservation Offices (SHPOs)
  --$9.985 million for the Tribal Historic Preservation Offices (THPOs)
  --$500,000 in grants for underrepresented populations
  --$30 million for the Civil Rights competitive grants initiative
  --$2.5 million for competitive grants for Historically Black Colleges 
        and Universities (HBCUs)

    These programs are funded through withdrawals from the U.S. 
Department of the Interior's National Park Service Historic 
Preservation Fund (16 U.S.C. Sec. 470h) (HPF).
        society for historical archaeology (sha) and its members
    With more than 2,300 members, SHA is the largest organization in 
the world dedicated to the archaeological study of the modern world and 
the third largest anthropological organization in the United States. 
Most members are professional archaeologists who teach, work in museums 
or consulting firms, or have government posts. Through SHA's close 
relationship with the Advisory Council for Underwater Archaeology, our 
members also include many of the world's underwater archaeologists.
   funding shpos and thpos is critical to protecting u.s. archaeology
    In 1966, Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (16 U.S.C. Sec. 470, et 
seq.) (NHPA), which established historic preservation as a Federal 
Government priority. Historic preservation recognizes that what was 
common and ordinary in the past is often rare and precious today, and 
what is common and ordinary today may be extraordinary in the future.
    Instead of using Federal employees to carry out the Act, the 
Department of Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs and THPOs 
to, among other tasks, review all Federal projects for their impact on 
historic properties. In order for the review process to work smoothly 
and for historical archaeological sites to be protected, SHPOs and 
THPOs must have adequate funding. Proper financial support for their 
work allows SHPOs and THPOs to review and approve projects in a timely 
basis, moving projects forward in an efficient manner and protecting 
irreplaceable cultural and historical resources and sites. SHA 
appreciates the administration's efforts to support preservation and 
the HPF, and applauds the addition of funding for the Civil Rights 
initiative; however, we ask that the subcommittee also consider 
increasing funding to SHPOs and THPOs given chronic underfunding of 
their activities.
    The budget request does include a $1 million increase for THPOs. 
THPOs are chronically underfunded; the additional $1 million is a start 
to solving that challenge for tribes working to preserve and protect 
their culture and history. The request also includes $30 million for 
Civil Rights initiatives and $2.5 for HBCUs in recognition of the 
anniversary of the Civil Rights movement. SHA supports these funding 
pieces, as well, and hopes that such funds will help diversify the 
sites preserved under the HPF.
                               conclusion
    On behalf of its 2,300 members, SHA would like to thank the 
subcommittee for the opportunity to submit testimony. SHA also thanks 
the subcommittee for its commitment to historic preservation and 
heritage management.

    [This statement was submitted by Dr. Charles Ewen, President.]
                                 ______
                                 
 Prepared Statement of the SouthEast Alaska Regional Health Consortium
    My name is Michael Douglas and I serve as the Vice-President and 
Chief Legal Officer to the SouthEast Alaska Regional Health Consortium 
(SEARHC). I am honored to be here to testify before this subcommittee 
about SEARHC's priorities and I thank Chairwoman Murkowski, Ranking 
Member Udall, and all members of the subcommittee for the opportunity 
to do so.
    SEARHC is an inter-tribal consortium of 15 federally recognized 
tribes situated along the southeast panhandle of Alaska. Our service 
area stretches over 35,000 square miles, and with no roads connecting 
many of the rural communities we serve, we work hard to provide quality 
health services to our communities. These services include medical, 
dental, mental health, physical therapy, radiology, pharmacy, 
laboratory, nutritional, audiology, optometry and respiratory therapy 
services. We also provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing. We 
provide these services through a network of community clinics and the 
Mt. Edgecumbe Hospital located in Sitka, Alaska.
    The urgent healthcare needs across Indian Country are well known 
and the challenges in meeting those needs are heightened in areas like 
Southeast Alaska where communities are isolated and transportation and 
facilities costs are high. SEARHC applauds the administration for 
recognizing these needs by increasing the Indian Health Service (IHS) 
budget. It is vital that these increases be preserved. But even these 
increases will not be enough to allow SEARHC and other tribal 
organizations to meet the healthcare needs of the people we serve. We 
will meet these challenges, but to do so we will need your help.
Facilities Funding
    Our greatest need is for increased facilities funding. We reported 
to this subcommittee last year on this topic and another year of use 
has only increased those needs. At 67 years old, the Mt. Edgecumbe 
Hospital is the oldest facility in Alaska and one of the oldest in the 
Nation. According to IHS's Facilities Engineering Deficiency System, 
the cost to update SEARHC's facilities is $29,600,000. This results in 
potential health telecommunications and electric outages, which 
translates into potential interruptions in critical care services 
including emergency services. Further, the funding deficiency delays 
many necessary improvements, impacts physician staffing, and hurts 
SEARHC's ability to expand and enhance services, such as tele-health. 
And we are not unique. Estimates place IHS facilities funding needs at 
$8.13 billion, a number that keeps on rising because IHS lacks 
sufficient funding to maintain these facilities. We do our best to 
patch the problem, but the bottom line is that without adequate 
facilities, SEARHC cannot provide adequate services.

    We request the subcommittee do four things.

    Replace aging IHS facilities. We need a commitment from Congress to 
start replacing aging IHS facilities. This will require reordering the 
current facilities priority list, which was created on a first come, 
first served basis. All rankings should be based on true need.

    Increase facilities funding in the current budget proposal. The 
President's budget contains modest funding increases for facilities 
needs, totaling $179 million. While we applaud the administration for 
taking this first step, it is only a first step, addressing only 2 
percent of the $8.13 billion needed. Similarly, the President's budget 
proposes for the first time in years, an increase in Maintenance and 
Improvement funds of $35 million, for a total of $89 million in M&I 
funding. That said, there is a critical maintenance backlog of $467 
million. This means that $378 million of critical maintenance is not 
going to be addressed. We strongly encourage the subcommittee to 
increase the facilities funding in the IHS budget.

    Joint Venture Projects. The JV project provides IHS funds to staff 
facilities built with tribal funds. SEARHC submitted a proposal in the 
most recent Joint Venture project funding round. Despite receiving a 
very high score, our proposal to build a facility on Prince of Wales 
Island was not selected. And in fact, of the 37 applications submitted, 
only 13 were put on a list to eventually receive funding. The fact that 
qualified projects were not selected is evidence of the fact that the 
need for such facilities far outstrips IHS's willingness to enter into 
these agreements.
    Our situation is a good example. Currently, our hospital in Sitka 
serves people living as far away as Klawock. Travel to Sitka requires a 
lengthy combination of automobile, ferry, and airplanes and takes at 
least a day and often is an overnight trip. If weather is bad, as it 
often is in Southeast Alaska, it can take even longer. The only 
alternative are costly air ambulance flights. We proposed to construct 
a Critical Access Hospital in Klawock. This would have strengthened the 
primary care service in the area, while first the first time also 
offering complex diagnostic services and acute and emergency care to 
one of the remotest, most rural area of the Nation. Despite the 
overwhelming need for these services, our project was rejected.
    In order to provide funding for this project, as well as the other 
JV projects that were not selected this year, we urge this subcommittee 
to direct IHS to enter into more Joint Venture Agreements.

    The Indian Health Care Improvement Act (IHCIA) renovation program. 
Finally, we recommend the subcommittee provide funding for tribally 
renovated IHS buildings, pursuant to section 1634 of the IHCIA. The 
IHCIA allows tribes to renovate IHS facilities and authorizes IHS to 
provide staffing and equipment for the newly renovated structure, 
mirroring the JV program. But Congress has never funded this program. 
We strongly urge the subcommittee to realize the promise of this 
program by providing $10 million to fund it. We would be delighted to 
do an Alaska demonstration project for this new initiative.
Contract Support Costs
    In recent years, much progress has been made on the issue of 
contract support costs, thanks in large part to this subcommittee. 
First, Congress's decision to fully fund contract support costs in 2014 
recast the issue from one of contention to one of cooperation. And 
Congress's continued support for full CSC funding has continued to 
strengthen the relationships between tribal organizations and the 
Federal Government.
    Now we see a new opportunity for your leadership on this issue. The 
President has requested that, starting in 2017, CSC be funded as a 
mandatory 3-year appropriation. While SEARHC supports the idea of 
mandatory CSC appropriations, we strongly believe that it should not be 
limited to 3 years. As the President's budget request reflects, CSCs 
are amenable to a mandatory appropriations scheme because they are 
recurring every year and are required to be added to all new programs 
that tribal organizations contract from the Indian Health Service (IHS) 
or the Bureau of Indian Affairs (BIA). Plus, mandatory appropriations 
would ensure that neither IHS nor the BIA ever has to redirect funding 
from direct programs to CSC funding, as the IHS did this year. All 
these reasons will apply equally 5 years from now as they do today, and 
there is no reason to only implement mandatory appropriations for 3 
years. We therefore urge the subcommittee to work with other relevant 
committees to support a permanent mandatory appropriation for CSC.
    We also hope the subcommittee will address the administration's 
apparent plan to now keep each tribal organization's contract open for 
5 years after the end of the contract year for reconciliation purposes. 
This approach is simply unworkable. Even now, IHS struggles to get 
funding out on time, when it is only facing reconciling 1 year back 
while also working on the current year funding issues. Trying to 
reconcile 5 years of contracts plus the current year will frankly be an 
unnecessary and avoidable disaster. Plus, neither IHS nor our tribal 
organizations can afford the considerable time such a reconciliation 
process would demand. It is in al the parties' interest to quickly 
finalize the amounts needed under the last year's contract so that we 
can focus on the current year. We therefore request this subcommittee 
direct IHS to finalize contract support cost payments to all tribes 
within 60 days of the end of each contract period.
    We also urge the subcommittee to include language in the 
appropriations act making clear that IHS must pay contract support 
costs on the Methamphetamine and Suicide Prevention Initiative (MSPI) 
and Domestic Violence Prevention Initiative (DVPI) program funds. 
Despite years of acknowledging that CSC are due on these program funds, 
IHS recently reversed course and required tribes to cover CSC costs 
with program funds. This is contrary to Congress's clear directive in 
the Indian Self-Determination Act and should be addressed immediately.
Rural Communities Hospital Demonstration Program
    SEARHC renews our request from last year that the subcommittee 
members support the extension of the Rural Community Hospital 
Demonstration Program (RCHD). This program supports hospitals like Mt. 
Edgecumbe that are located in rural areas but do not qualify as 
critical access hospitals. Because these hospitals do not qualify as 
critical access hospitals, they would generally be required to bill at 
the standard Medicare and Medicaid rates. But in rural areas, the costs 
of providing services are much higher than in other areas of the 
country and thus the standard rates undercompensate rural providers. 
The RCHD remedies this problem by allowing qualifying hospitals to use 
cost-based reimbursement rates for billing Medicare and Medicaid.
    Over the past 3 years, 2012 through 2014, SEARHC recovered $8 
million more for inpatient services provided to Medicare-eligible 
individuals. Without this program, SEARHC would lose money on inpatient 
Medicare services. As a rural hospital, SEARHC is the least able to 
absorb such negative margins. We already pay more in every step of the 
healthcare delivery chain, from increased cost for providers, to 
increased transportation costs, to increased food and shipping costs. 
We simply cannot afford to subsidize treatments to Medicare-eligible 
individuals.
    As important as the RCHD program is, it is due to sunset at the end 
of this fiscal year. It is vitally important to SEARHC, as well as many 
other tribal organizations that run rural hospitals, that this program 
be extended. We hope you will become advocates for this program so that 
hospitals like Mt. Edgecumbe can continue to provide services in remote 
areas.
Communities Health Center Funding
    SEARHC also urges the subcommittee members to support adding 
additional monies to the Community Health Center (CHC) Fund in 42 
U.S.C. Sec. 254b-2. This Fund, which provided critical dollars to fund 
CHCs, is due to run out at the end of this fiscal year.
    Eleven of SEARHC's clinics are Communities Health Centers. This 
program allows us to provide vital services to remote and underserved 
communities. Without the CHC Fund, we will have to reduce our services 
and perhaps even close some of our health centers, leaving individuals 
without access to primary care in their home communities. A trip to the 
doctor would mean traveling hundreds of miles by boat or plane. 
Important care will be foregone, routine care will be deferred, and 
health outcomes will worsen.
    We therefore encourage all subcommittee members to support 
appropriating more funds to the CHC Fund.
    Thank you for the opportunity to present to the subcommittee on 
SEARHC's priorities.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    Good morning distinguished members of this subcommittee and special 
congratulations to Congressman Derek Kilmer, a new member from the 
State of Washington. On behalf of the tribal leadership and citizens of 
the Squaxin Island Tribe, it is an honor to provide our funding 
priorities and recommendations for the fiscal year 2016 budgets for the 
Bureau of Indian Affairs (BIA) and Indian Health Service (IHS). Squaxin 
Island Tribe requests that tribal program funding throughout the 
Federal Government be exempt from future sequestrations, rescissions 
and disproportionate cuts.
    We support the President's fiscal year 2016 proposal to fully fund 
the BIA and IHS contract support costs (CSC) as a mandatory funding 
line item beginning in 2017. And, for the first time ever a new 
proposal in the fiscal year 2016 budget to request $277 million, which 
based on the most recent analysis, will again fully fund tribal 
contract support costs in 2016 which is consistent with the full 
funding for CSC in both fiscal year 2014 and 2015.
THE FISCAL YEAR 2016 SQUAXIN ISLAND TRIBAL SPECIFIC REQUESTS:
    1.  $500,000 Shellfish Management Program--BIA.
    2.  $2 Million to build and operate an oyster and clam nursery for 
Southern Puget Sound--BIA.
    3.  $1.5 Million increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS.
THE FISCAL YEAR 2016 SQUAXIN ISLAND REGIONAL REQUESTS:
    1.  +$4.7 Million increase for Rights Protection.
    2.  Fully support the budget requests from the Affiliated Tribes of 
Northwest Washington (ATNI) and the Northwest Portland Area Indian 
Health Board (NPAIHB) and the Northwest Indian Fisheries Commission.
NATIONAL REQUESTS AND RECOMMENDATIONS--BUREAU OF INDIAN AFFAIRS:
    1.  Restore 2013 sequestered cuts ($119 million) to Tribal Program 
Funding.
    2.  +26 percent increase for Natural Resources; $48 million over 
fiscal year 2015.
    3.  +$139 million increase for Tribal Priority Allocations to be 
provided via tribal base funding agreements.
    4.  Fully fund all the provisions of the Tribal Law and Order Act 
of 2010.
NATIONAL REQUESTS AND RECOMMENDATIONS--INDIAN HEALTH SERVICE:
    1.  Restore 2013 sequestered cuts ($220 Million) to Tribal Health 
Services.
    2.  +$368.9 million increase for IHS Mandatory Funding (maintain 
current services).
    3.  +$70.3 million support proposed increase for Purchased and 
Referred Care (PRC).
OTHER:
    Provide Funding Increases.--Office of Tribal Self-Governance (IHS) 
and the Office Self-Governance (DOI) to fully staff and support the 
number of tribes entering Self-Governance.
SQUAXIN ISLAND TRIBE BACKGROUND:
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally recognized tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of Southern Puget Sound. Because the Island lacks fresh 
water, the tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the tribe manages roughly 500 acres of Puget Sound tidelands.
    The tribal government and our economic enterprises constitute the 
largest employer in Mason County with over 1,250 employees. The tribe 
has a current enrollment of 1,040 and an on-reservation population of 
426 living in 141 homes. Squaxin has an estimated service area 
population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).
TRIBAL SPECIFIC REQUESTS JUSTIFICATIONS:
    1. $500,000--SHELLFISH MANAGEMENT.--The Squaxin Island Tribe faces 
a budget deficit to maintain and operate the shellfish program at the 
current level. To effectively grow and develop the program, an annual 
minimum increase of $500,000 to address the shortfall and ensure the 
continuance of this program is requested.
    Shellfish have been a mainstay for the Squaxin Island people for 
thousands of years and are important today for subsistence, economic 
and ceremonial purposes. The tribe's right to harvest shellfish is 
guaranteed by the 1854 Medicine Creek Treaty. It is important to 
remember that these rights were not granted by the Federal Government. 
They were retained by the tribe in exchange for thousands of acres of 
tribal lands. On December 20, 1994 U.S. District Court Judge Edward 
Rafeedie reaffirmed the tribe's treaty right to naturally occurring 
shellfish. Rafeedie ruled that the tribe(s) has the right to take up to 
50 percent of the harvestable shellfish on Washington beaches.
    The Squaxin Island Natural Resources Department (SINRD) is charged 
with protecting, managing and enhancing the land and water resources of 
the tribe, including fish and shellfish habitat and species. In so 
doing, the Department works cooperatively with State and Federal 
environmental, natural resources and health agencies. The shellfish 
management work of the SINRD includes working with private tideland 
owners and commercial growers; surveying beaches; monitoring harvests; 
enhancing supply (prepping, seeding, monitoring beds) and licensing and 
certifying harvesters and geoduck divers. We estimate that 20 percent 
of treaty-designated State lands and 80-90 percent of private tidelands 
are inaccessible to us due to insufficient funding.
    In fiscal year 2011, the shellfish program represented only 
$250,000 of the $3.3 million budget. The result is we are unable to 
fully exercise our treaty rights due to lack of Federal support for 
shellfish.

    2. $2 Million--Build and Operate an Oyster and Clam Nursery for 
Southern Puget Sound.--In the past few years, problems with seed 
production have developed in the shellfish industry. These problems 
have been primarily caused by weather and or other environmental 
factors, and their effects on the industry have resulted in the lack of 
viable and large enough seed for growers. The Squaxin Island Tribe 
recognizes that it is uniquely positioned to develop a new nursery to 
serve the shellfish growers of the South Puget Sound region. A 
shellfish nursery is a capital project that is both proven and a cost 
effective technology that takes small oyster and clam seeds and 
provides a safe and controlled environment for the seeds to grow to a 
size that can survive integration onto a regular beach placement. We 
have an ideal location for a nursery because it will not be disturbed 
by residents or recreational boaters.
    Our efforts will be an extension of another project that was 
created through a U.S. Department of Agriculture appropriation nearly 
two decades ago for the Lummi Tribe, which created an oyster and clam 
hatchery in Northern Puget Sound. The Lummi project over years has been 
very successful and they have supplied not only their own beaches but 
other tribes' in their region as well. The project would benefit not 
just Squaxin Island Tribe. It would further improve the quality and 
quantity of seed and make the seed process more effective for tribal 
and non-tribal growers. The users of the facility would be the Squaxin 
Island Tribe, other tribes, and non-tribal clam and oyster businesses 
that have been largely unable to find sites for this type of operation.
    The tribe's project will be a joint venture with the Lummi Nation, 
in that Lummi would be a primary larvae supplier. The project, with the 
expected grow-out and expansion of the industry attributable to the 
improved supply of seed, would offer jobs in a depressed employment 
area. Once established, the venture would be fully self-sustaining 
through sales of the product grown and at the nursery.
    This project would be a capital cost of approximately $2 million. 
The tribal in-kind contribution to the efforts would include land and 
shoreline and operating costs. Comparable land and shoreline, if 
privately owned, would be easily valued in the millions.

    3. $1.5 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS ``D3WXbi Palil'' meaning ``Returning 
from the Dark, Deep Waters to the Light''--NWITC has not received an 
adequate increase in its base Indian Health Service budget since the 
original congressional set-aside in 1993.--The Squaxin Island Tribe has 
been operating the Northwest Indian Treatment Center (NWITC) since 
1994. Ingenious in creativity, the center offers a wide variety of 
cultural activities and traditional/religious ceremonies, making it a 
natural place to heal--body, mind and soul. Fittingly, the center was 
given the spiritual name ``D3WXbi Palil'' meaning ``Returning from the 
Dark, Deep Waters to the Light.'' Since the original congressional set-
aside in 1993, NWITC has not received an adequate increase in the base 
Indian Health Service budget. It is critical to increase the NWITC's 
annual base in order to sustain the current services to the tribes of 
the Northwest. An increase of $1.5 million would restore lost 
purchasing power and meet the need to add mental health and psychiatric 
components to the treatment program through other funding agents. This 
increase would allow NWITC to continue its effective treatment of 
Native Americans.
    NWITC is a residential chemical dependency treatment facility 
designed to serve American Indians from tribes located in Oregon, 
Washington and Idaho who have chronic relapse patterns related to 
unresolved grief and trauma. NWITC is unique in its integration of 
tribal cultural values into a therapeutic environment for co-occurring 
substance abuse and mental health disorders. It is a 28 bed, 30-60 day 
residential facility.
    Welcomed and hailed by tribal leaders who felt the urgent need for 
such a facility, NWITC is centrally located in Grays Harbor County 
between Olympia and Aberdeen, on 2.5 acres in the small rural town of 
Elma, Washington. NWITC accepts patients that are referred through 
outpatient treatment programs, parole and probation services, 
hospitals, assessment centers and child and family service centers. 
Medical care is provided through local Indian Health Service clinics 
and other medical service providers. NWITC has responded with an 
overwhelming success rate of nearly 65 percent.
    In 2011, the NWITC served 225 patients from 28 tribes and added 
intensive case management and crisis support to alumni in order to 
continue to promote positive outcomes for clients. Despite funding 
challenges, NWITC has continued to develop and deliver innovative, 
culturally appropriate services to meet increasingly complex demands.
    The Treatment Center's traditional foods and medicines program is 
supported through a partnership with the Northwest Indian College and 
is funded through grants from the Washington Health Foundation, the 
National Institute of Food and Agriculture, The Potlatch Fund and 
several tribes. Weekly hands-on classes focus on traditional foods and 
medicines, including methods for growing, harvesting, processing, and 
preparation. Twice a month, tribal elders, storytellers, and cultural 
specialists speak as part of the program. A monthly family class allows 
patients to share what they are learning with their loved ones. 
Patients gain hands-on experience by working in three on-site teaching 
gardens. This program serves as a model for other tribal communities.
    It is ironic that we were forced into a lifestyle and to give up 
our land, and that which we retained or have since regained is 
threatened by the promises you made and have since recanted!
    Thank you.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I am here to discuss 
appropriations for fiscal year 2016. The tribe greatly appreciates the 
work of this subcommittee and your efforts to address the needs of 
Indian Country. Progress is being made, and your support makes a 
difference in the lives of our people. At the same time, we continue to 
face great challenges which cannot be met in a single appropriations 
cycle. We look forward to continuing to work with the subcommittee in 
seeking a better future for Indian Country.
    This past year has in many ways been a remarkable year for the 
Standing Rock Sioux Tribe, and especially for our youth. In June, 
several of our outstanding youth had an opportunity to meet with 
President Obama and the First Lady on our reservation--as the President 
and First Lady honored us with their historic trip to Standing Rock. 
For these young tribal members, this was no ordinary ``meet and greet'' 
with a public official. Instead, it was a chance for these youth to sit 
down in a private setting for a meaningful discussion with the 
President and First Lady, regarding the many challenges they face 
growing up on the reservation, and their hopes and dreams for the 
future. Our youth told the President and First Lady about the wide 
range of economic and social problems that are so prevalent in their 
communities--as poverty, violence, drug use, and suicide are all too 
common. Every one of these kids has faced circumstances in their 
families or their neighborhoods that no child should have to endure. 
And yet, each of these courageous youth had confidence and high 
aspirations for the future.
    The President was clearly moved by the stories of our young tribal 
members--and he said he would not forget our youth. As a first step, he 
invited an even larger group of Standing Rock youth to come to visit 
him in the White House. This group of 18 youth came to DC this past 
fall. They met with a broad range of high level Federal officials, 
including spending a couple of hours with Interior Secretary Jewell. 
And everywhere they went, our youth told their stories about the 
realities of reservation life, the challenges they face and the vast 
unmet needs on the reservation. Of course, it was not all business, as 
the President and First Lady also took our youth to a pizza place for 
lunch.
    I was extremely proud of the courage, maturity and wisdom of these 
tribal youth--and I think we all can learn from them. I mention these 
events today because I believe the most important question the 
subcommittee can address is this--what can we do to address the needs 
of Indian youth? This is not a partisan issue--we all owe it to our 
children to do all we can to see that they have positive opportunities 
for the future. After meeting with our youth, the President included in 
his budget proposal several key initiatives specifically regarding 
Native Youth. We ask for the subcommittee's support of these 
initiatives. In addition, we hope that the subcommittee will support 
the full range of programs and initiatives--including education, law 
enforcement and healthcare--that will enable our youth to thrive.

    Native Youth.--The President's budget proposes a youth initiative 
that he calls ``Generation Indigenous,''--a comprehensive approach to 
addressing the barriers to success faced by Indian youth. This includes 
supporting Native Youth in community development projects and 
leadership training, convening a White House conference on Native Youth 
and more. The Generation Indigenous initiative will raise the profile 
of Native Youth issues nationwide, and will provide a framework for 
supporting the good work of Native Youth in their communities. We need 
to encourage a new generation of Native leaders, and Gen-I provides a 
positive and thoughtful approach to doing just that.
    One part of Gen-I is the President's Tiwahe initiative--which is a 
program to strengthen Indian families and promote family stability--
focusing in large measure on the delivery of services to children in a 
coordinated and comprehensive way. The concept is to bring together the 
expertise of different agencies to provide a working partnership that 
leads to more effective services.
    One of the greatest needs in this regard is for more child 
protection workers and child welfare workers to assist children whose 
families are in crisis. Many of the children on our reservation--
including some who met with the President--face unstable situations at 
home and need the support of professional social workers to ensure 
their safety and well-being. Providing more funding for the Tiwahe 
initiative and for social service programs affecting Native Youth will 
have a lasting impact in Indian Country. We urge the subcommittee to 
support these initiatives and programs, including the requested $122 
million for Tiwahe, to help our Native Youth.

    Education.--As the subcommittee is well aware, high quality 
education is a fundamental requirement for success in today's world. To 
provide our youth with the education they deserve, we must do two 
things. First, we must provide the resources necessary to make quality 
education possible. Indian students should no longer be housed in 
crumbling and unsafe school buildings, with limited programs, outmoded 
equipment and last century's technology. Let's level the playing field 
and provide excellent teachers and modern programs in effective spaces 
for our children. And second, we must empower tribes to decide the best 
way to educate their own children. Federal dictates are not the answer. 
Each tribe must be enabled to bring the richness of its culture and 
local knowledge to the education of its children. Both components--
adequate resources and true tribal self-determination--are vitally 
important to providing effective education in Indian Country.
    Historical patterns of Indian education have not been successful. 
We know that the conventional models of education have simply not 
worked. The data indicates that only about 15 percent of Indian 
children in the United States are reading at grade level, and the 
dropout rate for Indian students is over 50 percent. These facts are 
unacceptable, and they signal a need for a new direction. We all might 
do well to look for an example to the Cut Wood School in Browning, 
Montana, where only the Blackfoot language is spoken up to 8th Grade. 
Cohort studies show that these students have a 95 percent graduation 
rate from high school. The Cut Wood School shows that we can do better 
for our students in Indian Country.
    As far as resources needed for education in Indian Country, the 
President's budget provides some much-needed increases, totaling $94 
million. A portion of these funds would help tribes enhance their 
educational programs, including for language immersion schools. We are 
very proud of our own language immersion program at Standing Rock--and 
young students from our program sang traditional songs for the 
President on his visit to our reservation. The budget also includes an 
increase of $4.5 million for higher education scholarships and adult 
education, and an increase of $34.2 million for modern technology for 
remote BIE schools--like those at Standing Rock. We urge the 
subcommittee to fully fund all of these programs, which will help 
provide vitally needed resources.
    I believe in the fundamental principle of self-determination. But 
in the area of Indian education, there remain some major impediments. 
The testing associated with ``Adequate Yearly Progress'' from the 
Federal No Child Left Behind statute has been imposed on tribes and we 
have seen how much this adversely impacts our students. Tribes need the 
flexibility to develop and implement their own learning systems, with 
appropriate tribally designed measurements of progress. We know that 
amendments to the Elementary and Secondary Education Act are needed--
and we will be seeking action by Congress in this regard. But other 
impediments to our goals in Indian education are found in the Interior 
Appropriations Act--particularly the language that generally prohibits 
tribal charter schools. We urge you to delete that language, so that 
tribes can move forward to establish their own tribally run charter 
schools, as a vehicle to implement true self-determination regarding 
Indian education.
    In seeking the best education for our children, we are asking for 
your help. According to Albert White Hat, one of our esteemed elders 
who recently passed away, we use the Lakota word ``Unsica'' which means 
to ask someone for assistance. Each of us needs assistance in some way, 
and it is an honorable thing to request assistance from one another. In 
this spirit, we request your assistance regarding Indian education.

    Public Safety and Justice.-- Many of the challenges faced by our 
youth stem from violence and crime in our communities. We need the 
resources to address these challenges--including increased law 
enforcement staff and court staff, and more modern and efficient 
detention facilities. We urge the subcommittee to support the 
President's proposed increase of $11.5 million for public safety and 
justice.
    Standing Rock is a large, rural reservation in North and South 
Dakota, covering 2.3 million acres. The reservation's population--about 
8,500 tribal members and 2,000 non-members--resides in eight widely 
scattered communities. Law enforcement staffing is simply inadequate to 
address the situation. And even among the law enforcement positions 
that are authorized on our reservation, more than half of the positions 
are vacant--a result of our isolated location and the lack of adequate 
housing. As matters stand, there are typically only 4 officers on duty 
per shift--and at times, this number is reduced to 2. These officers 
must cover the entire reservation. Drive times are extensive--as it 
takes an hour or more to drive from one community to the next, even 
when the weather is good. The result is that response times can be 
lengthy, and it is all too often the case that by the time police 
arrive on the scene of an incident, the suspects have fled. And, given 
the lack of staff and the great distances involved, there is certainly 
no opportunity for law enforcement to work with local communities on 
crime prevention or community outreach. The kinds of community policing 
that are the foundation of safe communities and positive police-
community relations are simply out of reach with the resources 
available.
    While law enforcement officers and staff do their best, we still 
have rising crime patterns on the reservation. Uniform Crime Reporting 
data from the BIA shows an alarming trend regarding crime--aggravated 
assault, burglary, motor vehicle theft and forcible or attempted rape 
have all shown significant increases over the three most recent years 
for which data is available. There are significant drug and alcohol 
problems on the reservation, and the vast majority of crime we face is 
associated with substance abuse. We need to address these problems with 
more effective law enforcement, but also with substance abuse treatment 
programs, community healing resources, and a tribal judicial process 
that emphasizes the cultural importance of addressing these issues. All 
of this requires more robust funding.
    Tribal courts also need additional resources. At Standing Rock, our 
tribal court cannot carry out all the required criminal proceedings, 
let alone civil cases, with the small allocation of funds we receive 
from the BIA. The result is that the tribe has been forced to heavily 
subsidize our tribal court with tribal funds that are so desperately 
needed to address social programs and the ill effects of poverty 
suffered by our people. This is not a choice we should be forced to 
make. The President's budget includes additional funding under the 
Tiwahi Initiative to address alternatives to incarceration and tribal 
family courts. We urge the subcommittee's support.

    Healthcare.--In addition to public safety, our youth need proper 
healthcare to thrive. Many of our youth suffer from behavioral problems 
that result from the poverty and other adverse conditions they find in 
their communities. In the most extreme cases, this can lead to the 
ultimate tragedy of youth suicide--something that is all too prevalent 
in our communities and that must be addressed in a more comprehensive 
and culturally appropriate way. The President's budget calls for the 
IHS and SAMSHA to work together on a Tribal Behavioral Health 
Initiative for Native Youth. This important initiative would expand a 
Methamphetamine and Suicide Prevention Initiative, which has proven 
effect where it has been implemented. We urge the subcommittee to 
support full funding (a $25 million increase) for this initiative. 
Providing these services more broadly throughout Indian Country would 
be a compassionate and wise investment in the future of our youth.
    We also urge the subcommittee to support the proposed increase of 
$70 million in Purchased/Referred Care. At Standing Rock, the types of 
healthcare that can be provided on the reservation in our clinics are 
limited--and most healthcare must be secured off the reservation. Each 
year, many of our tribal members are forced to go without needed 
healthcare services because Purchased/Referred Care funds are depleted 
before the fiscal year ends. Whether our tribal members receive the 
health services they so desperately need should not depend upon the 
time of year when those services are needed.

    Contract Support Costs.--We strongly support the President's 
proposal to establish a mandatory appropriation for the payment of 
contract support costs. These are funds that are promised to tribes in 
exercising self-determination, and they should no longer be the subject 
of annual shortfalls, appropriations struggles or litigation. 
Establishing a mandatory appropriation would alleviate a longstanding 
problem and assure fair treatment of the tribes.
    Thank you to the subcommittee for your work in addressing the needs 
of Indian Country.
                                 ______
                                 
Prepared Statement of the Supporters of St. Vincent, National Wildlife 
                                 Refuge
    Madam Chair and members of the subcommittee:

    On behalf of the Supporters of St. Vincent National Wildlife Refuge 
and its membership of current and former U.S. Fish and Wildlife Service 
(Service) professionals, Refuge Friends organizations and concerned 
citizens, thank you for your support for the National Wildlife Refuge 
System (NWRS), particularly for the funding increase for fiscal year 
2015. We appreciate the opportunity to offer comments on the fiscal 
year 2016 Interior Appropriations bill and respectfully request:

  --$508.2 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $5 million for the Pacific Marine 
        Monuments;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $173.8 million allocated for the FWS, including $10 million for 
        Everglades Headwaters NWR and Conservation Area (Florida); $3 
        million for Silvio O. Conte NFWR (Connecticut, New Hampshire, 
        Vermont, Massachusetts); $3 million for Cache River NWR 
        (Arizona); $3 million for Flint Hills Legacy Conservation Area 
        (Kansas); $2 million for Bear River Watershed Conservation Area 
        (Wyoming, Idaho, Utah); $3.4 million for Blackwater NWR 
        (Maryland); and $1 million for the Clarks River NWR (Kentucky);
  --$60 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$14 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$70 million for the State and Tribal Wildlife Grants Program;
  --$50 million for the North American Wetlands Conservation Fund;
  --$5 million for the Neotropical Migratory Bird Fund;
  --$11 million for the Multinational Species Conservation Fund.

    We understand our Nation's challenging fiscal constraints but 
cutting funding to programs that are economic drivers and job creators 
in local communities only exacerbates an already difficult situation. 
For example, the NWRS averages almost $5 in economic return for every 
$1 appropriated and the Partners for Fish and Wildlife program returns 
nearly $16 for every $1 spent on projects. Unfortunately, just when 
these public lands and programs could return economic output to 
communities and help them through the recession, funding fell 
dramatically. Budgets have not kept pace with rising costs, and the gap 
between the funding needed to maintain these programs and the funding 
appropriated has widened dramatically. The Refuge System is 
approximately $72 million below what would be needed to keep pace with 
inflation relative to the fiscal year 2010 level ($545.8 million 
inflation-adjusted).
    To begin bridging that gap, the Supporters of St. Vincent, NWR 
urges Congress to fund these critical programs that leverage Federal 
dollars and serve as economic drivers.
National Wildlife Refuge System--Operations & Maintenance
    NWRA chairs the Cooperative Alliance for Refuge Enhancement (CARE), 
a diverse coalition of 23 sporting, conservation, and scientific 
organizations representing more than 16 million Americans that supports 
increased funding for the Refuge System. CARE estimates the NWRS needs 
at least $900 million annually to manage its 150 million acres and over 
400 million acres of national marine monuments, yet it is currently 
funded at roughly half that amount--at less than $1 per acre. The 
Refuge System cannot fulfill its obligation to the American public, our 
wildlife, and 47 million annual visitors without increases in 
maintenance and operation funds.
    Funding for the Refuge System has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current $474.2 
million--$72 million below what it needs to keep pace with inflation. 
This has forced the Service to cut back on programs and create 
efficiencies whenever possible. Because of these hard decisions, the 
Service has cut their maintenance backlog in half from $2.7 billion to 
$1.3 billion. But budget cuts also led to the loss of 430 positions 
since fiscal year 2011 and thus an increase in the operations backlog, 
now at $735 million. Because most refuge lands and waters are highly 
managed, this deterioration in staffing has had a dramatic impact 
resulting in significant declines in habitat preservation and 
management, hunting, fishing, volunteerism and scientific research.
    For instance, visitor services staff has declined by 15 percent, 
forcing a reduction in public programs and hours of operation. Hunting 
visits are down by 5 percent since fiscal year 2011 and fishing visits 
are down 7 percent. Overall, there are fewer opportunities for the 
public to recreate, yet the desire for such programs is still high and 
visitation to all refuges since fiscal year 2011 has actually increased 
by 2.6 percent.
    Reductions in visitor services can be extremely troubling to 
constituencies who want to visit. Take the Midway Atoll NWR in the 
Hawaiian Islands. In November of 2013, due to sequestration cuts, the 
Service suspended the visitors services program at Midway. Although in 
the 5 years prior to this suspension, the refuge saw only about 300 
annual visitors, those visitors were passionate about their reasons for 
visiting. Perhaps they wanted to view the more than 3.5 million birds 
that call the refuge home, or perhaps they wanted to visit the Battle 
of Midway National Memorial to pay tribute to fallen U.S. soldiers from 
World War II. Whatever their reason, they wanted to have one of the 
most unique refuge experiences in the entire System. Congress has asked 
for a GAO investigation on why the Service suspended its program; yet 
it's clear that when you cut the budget and loose several positions 
including a permanent Wildlife Biologist, Park Ranger, and Law 
Enforcement Officer, there will be ramifications.
    Equally troubling is the 15 percent drop in the number of 
volunteers since fiscal year 2011. At a time when record numbers of 
Americans are retiring and have the capability to give back, the 
Service's ability to oversee their efforts has been curtailed. 
Volunteers provide an additional 20 percent of work on our national 
wildlife refuges, yet they are being turned away when the System needs 
them the most.
    During these years of challenging budgets, the Refuge System's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the FWS in 2013, 
shows that even during the worst recession since the Great Depression, 
the Refuge System saw sales and economic output increase 20 percent to 
$2.4 billion, visitation increase 30 percent to 46.5 million, average 
return on investment increase 22 percent to $4.87 for every $1 
appropriated, and supported jobs increase 23 percent to 35,000.
Strategic Growth
    The Land and Water Conservation Fund (LWCF) is an essential tool 
for protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies.
    Increasingly, LWCF is being used to conserve working lands through 
the acquisition of easements that secure conservation protection while 
leaving the land in private ownership and on the tax rolls. 
Conservation easements are powerful tools that foster public-private 
partnerships with ranchers, farmers and foresters to conserve wildlife, 
habitat and a uniquely American way of life. Innovative landscape-scale 
initiatives using easements as a primary conservation tool have broad 
community and State support in New England's Connecticut River 
Watershed, the Flint Hills of Kansas, the Everglades Headwaters, 
Montana's Crown of the Continent, and the Dakota Grasslands. These 
iconic landscapes remain privately managed, generating tax income for 
local communities, securing our Nation's food, and balancing resource 
use and resource protection for wildlife.
    In many cases, however, land acquisition is required to conserve 
intact and functional natural habitat. The Refuge System is responsible 
for safeguarding population levels of a range of species, including 
many species that require very specific habitat conditions, such as 
nesting grounds for sea turtle and isolated springs for endemic desert 
fish. Others require multiple habitat types during their life cycle. By 
acquiring critical habitat areas and linking conserved lands, the 
Refuge System enhances the overall integrity of the system and 
strengthens our network of habitat to give wildlife space and time to 
respond to changes, whether from climate or changing land use patterns.
    The Supporters of St. Vincent, NWR calls on Congress to fund LWCF 
at $900 million per year, with $173.8 million provided in fiscal year 
2016 to the FWS for conservation easements and refuge in-holdings, 
including the following projects and those advocated by refuge Friends:

  --Everglades Headwaters NWR & Conservation Area (Florida)--$10 
        million;
  --Cache River NWR (Arizona)--$3 million;
  --Silvio O. Conte NFWR (New Hampshire, Vermont, Massachusetts, 
        Connecticut)--$3 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$3 million;
  --Bear River Watershed Conservation Area (Wyoming, Idaho, Utah)--$2 
        million;
  --Blackwater NWR (Maryland)--$3.4 million;
  --Clarks River NWR (Kentucky)--$1 million.
Commitment to Refuge Communities--Refuge Fund
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally acquired lands are removed from local 
tax rolls, and relies on congressional appropriations to the Refuge 
Fund to compensate for the shortfall between revenues and tax 
replacement obligations. Unfortunately, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. The negative impact on local 
communities is felt even more starkly in difficult economic times and 
severely strains relations between the Federal units and their local 
community, threatening the goodwill and partnerships that are keystones 
of successful conservation. Supporters of St. Vincent NWR request $60 
million for the Refuge Fund and thanks Chairman Calvert for his 
leadership in fiscal year 2015 to pursue a much-needed increase. We 
also call for a review of the Refuge Revenue Sharing Act of 1935 as 
amended, and consideration of conversion to a Payment-in-Lieu of Taxes 
(PILT) program to be consistent with other Federal land management 
agencies and to provide Refuge communities with more equitable 
payments.
Partnerships
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners for Fish and Wildlife 
program (Partners Program) is one of the most powerful tools for 
protecting wildlife where it lives. By building effective partnerships 
between public agencies and private landowners to conserve America's 
expansive working landscapes, the Partners Program has implemented 
nearly 29,000 restoration projects in the past 25 years, restoring over 
1 million acres of wetlands, 3 million acres of uplands, and 11,000 
miles of streams. The program has been instrumental in the success of 
such iconic landscape conservation projects as the Rocky Mountain Front 
and Blackfoot Challenge in Montana and the Flint Hills in Kansas, and 
is playing a key role in conserving greater sage-grouse habitat in the 
intermountain west.
    The Partners program consistently leverages Federal dollars for 
conservation, generating nearly $16 in economic return for every $1 
appropriated for projects. The Refuge Association and the landowner-led 
Partners for Conservation request $75 million for fiscal year 2016. 
Such a funding level would result in an additional $400 million worth 
of conservation across the Nation.
    The Partners Program provides a bridge between private and public 
conservation efforts that has been instrumental in the success of large 
landscape partnerships from Montana to Florida, and is playing a key 
role in conserving greater sage-grouse habitat in the intermountain 
west. To this end, we request an additional $78 million for the 
Interior agencies to implement sagebrush steppe habitat conservation 
and monitoring efforts that will leverage $300 million in Department of 
Agriculture investments across the West.
Sharing Lessons and Protecting Global Species
    Wildlife species know no international boundaries; therefore 
conservation must happen globally to ensure populations survive. Many 
international wildlife agencies look to the Refuge System as the world 
leader in wildlife and fish conservation. The Service's Wildlife 
Without Borders Program and Multinational Species Conservation Funds 
together support global partnerships to protect marine turtles, tigers 
and rhinos, great apes and elephants and other iconic species. These 
programs are particularly important as wildlife face a poaching crisis 
that is leading species such as rhinos to the brink of extinction. The 
Refuge Association and student-led Tigers 4 Tigers Coalition request 
$11 million for the Multinational Species Conservation Fund in fiscal 
year 2016.
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish. We look forward to working with 
Congress in 2015 to accomplish this goal.

    [This statement was submitted by Nancy Stuart, President.]
                                 ______
                                 
 Prepared Statement of the Supporters of St. Vincent National Wildlife 
                                 Refuge
    Madam Chair and members of the subcommittee:

    On behalf of the Supporters of St. Vincent National Wildlife Refuge 
and its membership of current and former U.S. Fish and Wildlife Service 
(Service) professionals, Refuge Friends organizations and concerned 
citizens, thank you for your support for the National Wildlife Refuge 
System (NWRS). We appreciate the opportunity to offer comments on the 
fiscal year 2016 Interior Appropriations bill and respectfully request:

  --$508.2 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $5 million for the Pacific Marine 
        Monuments;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $173.8 million allocated for the FWS, including $10 million for 
        Everglades Headwaters NWR and Conservation Area (Florida); $3 
        million for Silvio O. Conte NFWR (Connecticut, New Hampshire, 
        Vermont, Massachusetts); $3 million for Cache River NWR 
        (Arizona); $3 million for Flint Hills Legacy Conservation Area 
        (Kansas); $2 million for Bear River Watershed Conservation Area 
        (Wyoming, Idaho, Utah); $3.4 million for Blackwater NWR 
        (Maryland); and $1 million for the Clarks River NWR (Kentucky);
  --$60 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$14 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$70 million for the State and Tribal Wildlife Grants Program;
  --$50 million for the North American Wetlands Conservation Fund;
  --$5 million for the Neotropical Migratory Bird Fund;
  --$11 million for the Multinational Species Conservation Fund.

    We understand our Nation's challenging fiscal constraints but 
cutting funding to programs that are economic drivers and job creators 
in local communities only exacerbates an already difficult situation. 
For example, the NWRS averages almost $5 in economic return for every 
$1 appropriated and the Partners for Fish and Wildlife program returns 
nearly $16 for every $1 spent on projects. Unfortunately, just when 
these public lands and programs could return economic output to 
communities and help them through the recession, funding fell 
dramatically. Budgets have not kept pace with rising costs, and the gap 
between the funding needed to maintain these programs and the funding 
appropriated has widened dramatically. The Refuge System is 
approximately $72 million below what would be needed to keep pace with 
inflation relative to the fiscal year 2010 level ($545.8 million 
inflation-adjusted).
    To begin bridging that gap, the Supporters of St. Vincent NWR urges 
Congress to fund these critical programs that leverage Federal dollars 
and serve as economic drivers.
National Wildlife Refuge System--Operations & Maintenance
    NWRA chairs the Cooperative Alliance for Refuge Enhancement (CARE), 
a diverse coalition of 23 sporting, conservation, and scientific 
organizations representing more than 16 million Americans that supports 
increased funding for the Refuge System. CARE estimates the NWRS needs 
at least $900 million annually to manage its 150 million acres and over 
400 million acres of national marine monuments, yet it is currently 
funded at roughly half that amount--at less than $1 per acre. The 
Refuge System cannot fulfill its obligation to the American public, our 
wildlife, and 47 million annual visitors without increases in 
maintenance and operation funds.
    Funding for the Refuge System has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current $474.2 
million--$72 million below what it needs to keep pace with inflation. 
This has forced the Service to cut back on programs and create 
efficiencies whenever possible. Because of these hard decisions, the 
Service has cut their maintenance backlog in half from $2.7 billion to 
$1.3 billion. But budget cuts also led to the loss of 430 positions 
since fiscal year 2011 and thus an increase in the operations backlog, 
now at $735 million. Because most refuge lands and waters are highly 
managed, this deterioration in staffing has had a dramatic impact 
resulting in significant declines in habitat preservation and 
management, hunting, fishing, volunteerism and scientific research.
    For instance, visitor services staff has declined by 15 percent, 
forcing a reduction in public programs and hours of operation. Hunting 
visits are down by 5 percent since fiscal year 2011 and fishing visits 
are down 7 percent. Overall, there are fewer opportunities for the 
public to recreate, yet the desire for such programs is still high and 
visitation to all refuges since fiscal year 2011 has actually increased 
by 2.6 percent.
    Reductions in visitor services can be extremely troubling to 
constituencies who want to visit. Take the Midway Atoll NWR in the 
Hawaiian Islands. In November of 2013, due to sequestration cuts, the 
Service suspended the visitors services program at Midway. Although in 
the 5 years prior to this suspension, the refuge saw only about 300 
annual visitors, those visitors were passionate about their reasons for 
visiting. Perhaps they wanted to view the more than 3.5 million birds 
that call the refuge home, or perhaps they wanted to visit the Battle 
of Midway National Memorial to pay tribute to fallen U.S. soldiers from 
World War II. Whatever their reason, they wanted to have one of the 
most unique refuge experiences in the entire System. Congress has asked 
for a GAO investigation on why the Service suspended its program; yet 
it's clear that when you cut the budget and loose several positions 
including a permanent Wildlife Biologist, Park Ranger, and Law 
Enforcement Officer, there will be ramifications.
    Equally troubling is the 15 percent drop in the number of 
volunteers since fiscal year 2011. At a time when record numbers of 
Americans are retiring and have the capability to give back, the 
Service's ability to oversee their efforts has been curtailed. 
Volunteers provide an additional 20 percent of work on our national 
wildlife refuges, yet they are being turned away when the System needs 
them the most.
    During these years of challenging budgets, the Refuge System's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the FWS in 2013, 
shows that even during the worst recession since the Great Depression, 
the Refuge System saw sales and economic output increase 20 percent to 
$2.4 billion, visitation increase 30 percent to 46.5 million, average 
return on investment increase 22 percent to $4.87 for every $1 
appropriated, and supported jobs increase 23 percent to 35,000.
Strategic Growth
    The Land and Water Conservation Fund (LWCF) is an essential tool 
for protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies.
    Increasingly, LWCF is being used to conserve working lands through 
the acquisition of easements that secure conservation protection while 
leaving the land in private ownership and on the tax rolls. 
Conservation easements are powerful tools that foster public-private 
partnerships with ranchers, farmers and foresters to conserve wildlife, 
habitat and a uniquely American way of life. Innovative landscape-scale 
initiatives using easements as a primary conservation tool have broad 
community and State support in New England's Connecticut River 
Watershed, the Flint Hills of Kansas, the Everglades Headwaters, 
Montana's Crown of the Continent, and the Dakota Grasslands. These 
iconic landscapes remain privately managed, generating tax income for 
local communities, securing our Nation's food, and balancing resource 
use and resource protection for wildlife.
    In many cases, however, land acquisition is required to conserve 
intact and functional natural habitat. The Refuge System is responsible 
for safeguarding population levels of a range of species, including 
many species that require very specific habitat conditions, such as 
nesting grounds for sea turtle and isolated springs for endemic desert 
fish. Others require multiple habitat types during their life cycle. By 
acquiring critical habitat areas and linking conserved lands, the 
Refuge System enhances the overall integrity of the system and 
strengthens our network of habitat to give wildlife space and time to 
respond to changes, whether from climate or changing land use patterns.
    The Supporters of St. Vincent, NWR calls on Congress to fund LWCF 
at $900 million per year, with $173.8 million provided in fiscal year 
2016 to the FWS for conservation easements and refuge in-holdings, 
including the following projects and those advocated by refuge Friends:

  --Everglades Headwaters NWR & Conservation Area (Florida)--$10 
        million;
  --Cache River NWR (Arizona)--$3 million;
  --Silvio O. Conte NFWR (New Hampshire, Vermont, Massachusetts, 
        Connecticut)--$3 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$3 million;
  --Bear River Watershed Conservation Area (Wyoming, Idaho, Utah)--$2 
        million;
  --Blackwater NWR (Maryland)--$3.4 million;
  --Clarks River NWR (Kentucky)--$1 million.

Commitment to Refuge Communities--Refuge Fund
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally acquired lands are removed from local 
tax rolls, and relies on congressional appropriations to the Refuge 
Fund to compensate for the shortfall between revenues and tax 
replacement obligations. Unfortunately, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. The negative impact on local 
communities is felt even more starkly in difficult economic times and 
severely strains relations between the Federal units and their local 
community, threatening the goodwill and partnerships that are keystones 
of successful conservation. Supporters of St. Vincent NWR request $60 
million for the Refuge Fund and thanks Chairman Calvert for his 
leadership in fiscal year 2015 to pursue a much-needed increase. We 
also call for a review of the Refuge Revenue Sharing Act of 1935 as 
amended, and consideration of conversion to a Payment-in-Lieu of Taxes 
(PILT) program to be consistent with other Federal land management 
agencies and to provide Refuge communities with more equitable 
payments.
Partnerships
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners for Fish and Wildlife 
program (Partners Program) is one of the most powerful tools for 
protecting wildlife where it lives. By building effective partnerships 
between public agencies and private landowners to conserve America's 
expansive working landscapes, the Partners Program has implemented 
nearly 29,000 restoration projects in the past 25 years, restoring over 
1 million acres of wetlands, 3 million acres of uplands, and 11,000 
miles of streams. The program has been instrumental in the success of 
such iconic landscape conservation projects as the Rocky Mountain Front 
and Blackfoot Challenge in Montana and the Flint Hills in Kansas, and 
is playing a key role in conserving greater sage-grouse habitat in the 
intermountain west.
    The Partners program consistently leverages Federal dollars for 
conservation, generating nearly $16 in economic return for every $1 
appropriated for projects. The Refuge Association and the landowner-led 
Partners for Conservation request $75 million for fiscal year 2016. 
Such a funding level would result in an additional $400 million worth 
of conservation across the Nation.
    The Partners Program provides a bridge between private and public 
conservation efforts that has been instrumental in the success of large 
landscape partnerships from Montana to Florida, and is playing a key 
role in conserving greater sage-grouse habitat in the intermountain 
west. To this end, we request an additional $78 million for the 
Interior agencies to implement sagebrush steppe habitat conservation 
and monitoring efforts that will leverage $300 million in Department of 
Agriculture investments across the West.
Sharing Lessons and Protecting Global Species
    Wildlife species know no international boundaries; therefore 
conservation must happen globally to ensure populations survive. Many 
international wildlife agencies look to the Refuge System as the world 
leader in wildlife and fish conservation. The Service's Wildlife 
Without Borders Program and Multinational Species Conservation Funds 
together support global partnerships to protect marine turtles, tigers 
and rhinos, great apes and elephants and other iconic species. These 
programs are particularly important as wildlife face a poaching crisis 
that is leading species such as rhinos to the brink of extinction. The 
Refuge Association and student-led Tigers 4 Tigers Coalition request 
$11 million for the Multinational Species Conservation Fund in fiscal 
year 2016.
    We believe that with sound conservation policy, adequate funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish.

    [This statement was submitted by Lisa Johnston, Port St. Joe, 
Florida.]
                                 ______
                                 
 Prepared Statement of the Supporters of St. Vincent National Wildlife 
                             Reserve (NWR)
    Dear subcommittee members,

    I am writing to you as a board member of the Supporters and as a 
concerned citizen. I strongly urge you to not take steps to reduce the 
funding to the U.S. Fish & Wildlife Service. This agency has seen 
severe budget cuts in the years past and their future is not looking so 
bright at this moment. This agency works very hard to promote and 
maintain our Nation's natural treasures. If it were not for a dedicated 
group of volunteers, USFWS would not even come close to accomplishing 
their mission. Staff reductions, budget cuts, etc. have had a profound 
negative effect on the activities and opportunities that this agency 
provides to our citizens.
    The following is an example of what budget cuts have meant to us on 
a local level. St. Vincent NWR consists mainly of a pristine, 
uninhabited barrier island on the Gulf coast of the Florida panhandle. 
The island is approximately 13,000 acres in size. In essence, budget 
cuts have resulted in only two USFWS employees attempting to maintain 
and manage this large piece of real estate. There is one other USFWS 
employee affiliated with the refuge, but this person mainly attends to 
administrative duties on the mainland. St. Vincent NWR is just one 
example of the results of reduced funding.
    For the sake of maintaining our national treasures and giving our 
citizens the opportunities they deserve, please do not reduce funding 
to the U.S. Fish & Wildlife Service! Thank you for your consideration 
of my request.

    [This statement was submitted by Landy Luther, Board Member.]
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    It is a pleasure to be back to share the Tanana Chiefs Conference's 
(TCC) priorities with this subcommittee. Thank you for the opportunity 
to be here.
    TCC is a non-profit intertribal consortium of 39 federally 
recognized tribes located across Alaska's vast interior. TCC serves 
approximately 13,000 Native American people in Fairbanks and the 
surrounding rural villages. Our traditional territory and current 
service area occupy a mostly roadless region that is nearly the size of 
Texas. It stretches from Fairbanks clear up to the Brooks Range and 
over to the Canadian border.
    Remoteness poses many challenges, but I can assure you TCC meets 
those challenges every day. When I testified last year, I had just 
recently been elected president of TCC. The more I understand every 
aspect of TCC's work, the more I am impressed with what TCC 
accomplishes every day. Recently, our full board of directors met to 
develop a new 5-year strategic plan. In the coming years, our highest 
priorities will include substantially expanding medical care and public 
safety services, a new emphasis on wellness and prevention, oversight 
of fish and game management, ensuring responsible economic development, 
and increasing employment in the villages. We welcome Congress's 
partnership to help us achieve these goals.
                         contract support costs
    It has long been known that TCC provides far better services to our 
communities than the Bureau of Indian Affairs (BIA) or Indian Health 
Service (IHS) ever could. Consequently, TCC contracts programs from 
both the BIA and IHS. Our ability to maximize the results of our self-
governance and run robust programs depends on our receiving full 
contract support costs (CSC) to support these programs.
    In the past couple of years, significant strides have been made in 
this area, and thanks in large part to this subcommittee we are now in 
an era of full funding. We were delighted that the President's budget 
estimate for CSC is a very good one. An accurate projection will help 
ensure that neither the BIA nor IHS feel compelled to redirect program 
funding to pay for CSC. An accurate CSC estimate is the best way to 
avoid the unfortunate reprogramming actions which occurred last year.
    We are very encouraged by the President's proposal to make CSC 
mandatory, though we are disappointed that the request is only for 3 
years. CSC funding should be a permanent mandatory appropriation. These 
funds must be added to any contracted program dollars, and making it a 
permanent mandatory appropriation will end all future efforts by either 
Agency to avoid funding these required costs. Litigation will be over 
and certainty will be the order of the day. Such a scheme will allow 
TCC and the BIA and IHS to focus on the important work of providing 
healthcare services, public safety services, and the myriad of other 
services we provide in our communities. We therefore hope that the 
subcommittee members will support a permanent mandatory appropriation 
for CSC.
    Finally, we ask that the subcommittee direct IHS to finalize CSC 
payments within 60 days of the close of the contract year. IHS recently 
developed a scheme to continue reconciling CSC payments for up to 5 
years. This ridiculous plan is not only unnecessary; it will also 
divert scarce resources away from service delivery. This will benefit 
neither IHS nor the tribal organizations, and we therefore ask that the 
subcommittee intervene to stop IHS from pursuing its current plan. All 
our other grants are closed out monthly; why should IHS and BIA compact 
funds be any different?
                               ihs budget
    TCC was very pleased to see that the President's budget contains a 
9 percent increase over 2015 enacted levels. These additional funds are 
vital to addressing the critical need for medical services for Native 
Alaskans and we hope the subcommittee is able to find the funds to meet 
these targets.
    Similarly, TCC is happy to report that $70 million of those 
increases are targeted to Purchased and Referred Care (PRC). These 
funds are used to buy healthcare when a tribal organization or IHS 
cannot provide the services. As we reported to you last year, the 
demand on PRC dollars has increased as healthcare costs, especially 
provider fees, have increased. The increase this year will provide $44 
million for inflation and $25 million for program increases. These 
dollars will provide much needed relief to PRC programs across the 
country and especially for TCC.
    But TCC was disappointed to see that the President's budget 
contains no increase for the Domestic Violence and Prevention 
Initiative (DVPI). These funds support efforts to reduce the incidence 
of domestic violence, which affects Native Alaskan women at a much 
higher rate than other populations. The statistics are not new. The 
Indian Law and Order Commission's report made clear just how bad the 
situation was: Women in tribal villages and Native communities in 
Alaska report rates of domestic violence up to 10 times higher than in 
the rest of the United States. Physical assault victimizations rates 
are 12 times higher.
    TCC is encouraged that the President requested additional funding 
to combat domestic violence in the Department of Justice's budget, but 
in order to adequately address domestic violence in Native communities, 
the DVPI program funds also need to be increased. We must do more to 
help victims of domestic violence, and we need Congress's help to do 
so. We request that you add funds to this very successfully and 
urgently needed program.
                               bia budget
    TCC was also pleased to see that the President's BIA budget is also 
higher than the enacted 2015 levels--12 percent higher in fact. This 
increase is desperately needed to address the effect of years of flat 
budgets. Again, we hope this subcommittee will be able to fund these 
increases.
    Two of these increases came in programs that TCC highlighted last 
year as requiring additional funding: Probate in Trust and Rights 
Protection. Probate in Trust would receive a 7.3 percent increase, and 
this will help TCC keep the process of estate distribution flowing 
smoothly. This, in turn, is important for ensuring residents of our 
communities are able to use their land--whether for a home or other 
endeavors. This promotes self sufficiency in our communities. The 
Rights Protection program would receive a 13.3 percent increase. This 
program provides support to tribes in defending their trust land (such 
as allotments) and other trust resources through legal actions. Like 
the Probate in Trust program, this program is integral to protecting 
our ability to use our land. Both of these programs are acutely in need 
of additional funds and we therefore urge the subcommittee to fund the 
requested increases.
    TCC was disappointed to see that funding for the Environmental 
Quality line remains essentially flat. In fact, the .9 percent increase 
is not even enough to cover inflation and thus represents a decrease in 
the effectiveness of the current appropriation. As we reported to this 
subcommittee last year, these funds support archaeological 
investigation and approval that is required before any development is 
done on our lands. As such, these funds both help us develop our land 
resources responsibly while also making sure that our cultural 
resources are protected. The funding provided, however, is simply not 
enough to meet the demand for these services. We encourage the 
subcommittee to add funds to this program to help TCC responsibility 
develop our lands.
    TCC has recently embarked on a coordinated campaign to protect its 
subsistence resources. These resources provide not only critical 
nutritional value to our communities but also are important elements of 
our culture and traditions. We were pleased to see that the President's 
budget includes $40 million for Supporting Tribal Resilience in Indian 
Country. This program will allow tribes and tribal organizations to 
prepare for climate changes, which will impact our fish and wildlife 
services. Many of these impacts will hit Alaska especially hard, and we 
appreciate the additional funding to prepare for the challenges ahead. 
In particular, we appreciate the increase for the Tribal Management and 
Development Program, which allows tribes and tribal organizations to 
manage their own fish and wildlife resources.
    Finally, TCC remains committed to ensuring public safety in our 
communities. As the Indian Law and Order Commission's report made 
clear, there is a lot of work to be done to ensure public safety in 
Alaska's rural communities. Alaska is one of six States, called Public 
Law 280 States, in which jurisdiction over crimes in Native communities 
rests mainly with the States. The BIA doesn't have enough funding to go 
around and so it prioritizes funding public safety efforts in non 
Public Law 280 States on the assumption that Public Law 280 States are 
investing sufficiently in public safety and law enforcement in Native 
and rural communities. But this is simply not so. The Alaska Department 
of Public Safety, which has primary responsibility for providing law 
enforcement in rural Alaska, provides only 1.0 to 1.4 field officers 
for every one million acres. This means that at least 75 communities in 
Alaska lack any law enforcement presence at all. In most Alaska 
villages, the tribal courts are the only meaningful judicial voice for 
anything other than the most serious and violent of crimes.
    The President's budget moves in the right direction by providing 
$15 million in its Supporting Indian Families and Protecting Indian 
Country program. As part of this program, the President's budget 
requests $4 million for Law Enforcement Special Initiatives and $5 
million for tribal courts. While this is a good first step, TCC 
encourages this subcommittee to substantially increase these amounts 
for tribes in Public Law 280 States. In order to truly address the 
issue of public safety in Native communities, we must have additional 
resources.
       substance abuse and mental health services administration
    We also invite all members to support the Tribal Behavioral Health 
Grant Program. This program is administered by the Substance Abuse and 
Mental Health Services Administration (SAMSHA) and would provide funds 
to tribal organizations to reduce the shocking rates of substance abuse 
and suicide in their communities. According to the Indian Law and Order 
Commission's report, Alaska Natives experience suicide at four times 
the national average, and suffer the highest rates of alcohol abuse. 
The Tribal Behavioral Health Grant Program will provide desperately 
needed funds to combat these problems.
    Thank you again for the opportunity to testify on behalf of TCC.

    [This statement was submitted by Victor Joseph, President and 
Chairman.]
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Ms. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 493 not-for-profit member theatres across the country 
and the nearly 35 million audience members that the theatre community 
serves. We urge you to support funding at $155 million for the National 
Endowment for the Arts for fiscal year 2016.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs and attracts tourism dollars. The not-for-profit 
arts generate $135.2 billion annually in economic activity, support 
4.13 million jobs and return $9.59 billion in Federal income taxes. Art 
museums, exhibits and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an uncertain economy where corporate 
donations and foundation grants to the arts are diminished, and 
increased ticket prices would undermine efforts to broaden and 
diversify audiences, these Federal funds simply cannot be replaced. 
Maintaining the strength of the not-for-profit sector, along with the 
commercial sector, will be vital to supporting the economic health of 
our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.

    Here are some recent examples of NEA grants and their impact:

    Thanks to a $20,000 grant from the NEA, Perseverance Theatre (PT) 
in Douglas, Alaska, was able to present the world premiere production 
of ``Rush at Everlasting'' by Alaskan playwright Arlitia Jones. The 
play follows an unlikely pair of women as they plot a bank heist 
against the backdrop of the Great Depression. Presented first as part 
of the theater's mainstage season in Juneau, the production also 
transferred to Anchorage as part of the third full season of 
programming at the Alaska Center for the Performing Arts. Perseverance 
Theatre has grown into Alaska's largest professional theatre, serving 
over 17,000 artists, students and audiences annually. The theatre is 
also enhancing its education and training programs for youth and 
adults, providing learning opportunities on the Douglas stage and as 
the resident theatre at the University of Alaska Southeast. 
Perseverance is committed to engaging artistic work which speaks 
directly to the Alaskan experience. Perseverance was born as a 
grassroots organization, firmly planted in the community and State. PT 
occupies a unique place in the heart of Juneau's artistic, cultural and 
social life. The theatre is committed to developing artists, 
volunteers, audiences, and plays reflective of the Alaskan community, 
as part of living its mission. As programming continues in Anchorage, 
Perseverance is becoming a truly Alaskan regional theatre.
    With a $10,000 Arts Works grant from the NEA, Southern Rep will 
produce Boudin: The New Orleans Music Project. This project asks music 
lovers from all over the world ``How has New Orleans Music Saved Your 
Soul?'' The play's dedicated Web site, boudinmusicproject.com, features 
the answers to the prompt via photos, narratives, film and audio 
recordings. These first-hand stories will culminate in a funny, 
poignant and powerful theatre production that celebrates the music, 
art, magic and history of the city. Presented in partnership with 
esteemed WWOZ 90.7 FM Radio, Boudin is a mash-up of local visual art, 
storytelling, live New Orleans music and real stories. The NEA funding 
helps support the creation of this new work with 21 performances taking 
place during the city's historic Jazz Fest and it will be seen by up to 
3,000 audience members.
    Oregon Children's Theatre Company received a $10,000 grant from the 
NEA which enabled the theatre to present ``Timmy Failure: Mistakes Were 
Made,'' an adaptation by playwright Finegan Kruckemeyer of an 
illustrated comic novel by Stephan Pastis. The book tells the story of 
Timmy Failure, a bumbling hero, his lazy polar bear partner, and his 
detective agency--Total Failure, Inc. The stage adaptation includes 
multimedia technology. The set was designed for remounting in 
nontraditional spaces, to accommodate potential touring beyond the 
premiere. Oregon Children's Theatre's mission is to advance growth, 
development and creativity through exceptional theater experiences. The 
theatre does this by presenting professional live theater for youth at 
a price affordable to schools and families. By introducing young people 
to the wonders of live theater, OCT enriches lives today while helping 
children develop a lifetime appreciation for the arts. Oregon 
Children's Theatre's audience is comprised primarily of school groups 
from 17 Oregon and four Washington counties. School attendance averages 
more than 75,000 annually, with ticket prices ranging from $6-$8.
    Weston Playhouse Theatre in Weston, Vermont, was awarded a $20,000 
NEA grant to support a production of Annie Baker's adaptation of 
``Uncle Vanya.'' The theatre also offered a series of engagement and 
learning opportunities, including a Teachers Workshop, performance and 
curriculum guides, director's talks and audience talkbacks. The 
production was a fresh take on a modern classic by Anton Chekhov and 
adapted by Annie Baker. For seven decades, in the heart of Vermont's 
Green Mountains, the Weston Playhouse Theatre Company has done the 
improbable--created and sustained an acclaimed professional theatre in 
a village of 550 people. Now, strengthened by its deep roots in Vermont 
and in the American theatre landscape, the Company is taking the most 
important step in its history: to create a nationally recognized center 
for the development of the theatre arts. The Campaign for the Weston 
Theatre will create an Incubator for the Theatre Arts in Weston--a 
place where playwrights, directors, composers and librettists will come 
to work on their new works in the quiet rural environment away from the 
distractions of the city. The Weston Playhouse is now an award-winning 
regional theatre nationally known for its multi-stage summer festival 
and its year-round Education and New Works Programs.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 50 percent of the 
applications it receives, so 50 percent of the theatres are turned away 
because there aren't sufficient funds. Theatre Communications Group 
urges you to support a funding level of $155 million for fiscal year 
2016 for the NEA, to maintain citizen access to the cultural, 
educational and economic benefits of the arts, and to advance 
creativity and innovation in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and its economic vitality. It is supported by a 
remarkable combination of government, business, foundation and 
individual donors. It is a striking example of Federal/State/private 
partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $146 million in the fiscal year 2015 budget; however, it has 
never recovered from a 40 percent budget cut in fiscal year 1996 and 
its programs are still under-funded. We urge the subcommittee to fund 
the NEA at a level of $155 million to preserve the important cultural 
programs reaching Americans across the country.
    Thank you for considering this request.

    [This statement was submitted by Laurie Baskin, Director of 
Research, Policy & Collective Action.]
                                 ______
                                 
        Prepared Statement of the Thurgood Marshall College Fund
    Thank you Chairwoman Murkowski and Ranking Member Udall and the 
entire subcommittee for the opportunity to submit testimony in support 
of fiscal year 2016 funding for the Department of Interior Historic 
Preservation Fund (HPF). My name is Johnny C. Taylor, Jr., president 
and CEO of the Thurgood Marshall College Fund (TMCF). The Thurgood 
Marshall College Fund supports and represents more than 300,000 
students attending the country's 47 publically supported Historically 
Black Colleges and Universities (HBCUs), medical schools and law 
schools. More than 80 percent of all students enrolled at HBCUs attend 
TMCF schools. TMCF was established in 1987 under the leadership of Dr. 
N. Joyce Payne.
    As you deliberate the Department of Interior fiscal year 2016 
budget, TMCF requests that the subcommittee preserve the original HBCU 
designated Historic Preservation Fund and restore this account to the 
fiscal year 2009 funding level. The HBCU Historic Preservation Fund 
account has not received funding under the regular appropriations 
process in several years. It was last funded in 2009 as part of the 
American Recovery and Reinvestment Act at a level of $15 million.
    The administration's fiscal year 2016 budget proposal includes $90 
million for the National Park Service Historic Preservation Fund. Under 
this fund, $50 million is proposed for a Civil Rights initiative to 
preserve historic projects nationwide that are connected to the Civil 
Rights era and the African American experience. Unfortunately, a mere 
$2.5 million of the $50 million is designated for the HBCU Historic 
Preservation Fund.
    There are more than 100 HBCUs located primarily in the southeastern 
United States, the District of Columbia and the U.S. Virgin Islands. 
Many HBCUs are economically fragile and have less funding and fewer 
resources to address the critical rehabilitation needs of buildings on 
their campuses. The HBCU Historic Preservation Fund provides assistance 
to restore and rehabilitate structures on HBCU campuses considered to 
be the most historically significant and physically threatened. TMCF 
supports the effort to commemorate and preserve sites related to the 
Civil Rights era and African American heritage, and we request that the 
subcommittee simultaneously appropriate adequate funding for the HBCU 
Historic Preservation Fund to stabilize and revitalize our most 
precious assets on HBCU campuses.
    In the event that all funding is grouped together, TMCF strongly 
urges the subcommittee to allocate a minimum of $15 million as opposed 
to $2.5 million for HBCUs under this newly proposed focus on restoring 
sites connected to the Civil Rights era and the African American 
experience.
    Thank you.
                                 ______
                                 
            Prepared Statement of The Trust for Public Land
    Chairman Murkowski, Ranking Member Udall, and distinguished members 
of the Interior Subcommittee:

    Thank you very much for the opportunity to submit testimony on 
behalf of The Trust for Public Land in support of programs under your 
jurisdiction for the fiscal year 2016 appropriations process. The Trust 
for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the support members of this 
subcommittee and other conservation leaders in Congress have shown for 
Federal conservation programs during these challenging fiscal times. We 
recognize that the subcommittee will again face enormous challenges in 
meeting the broad range of priority needs in the Interior and 
Environment bill this year. Our work in many of your States and 
elsewhere around the country shows that there is tremendous support for 
conservation and access to recreation at the local, State and Federal 
level, and the programs under your jurisdiction play a critical role in 
bringing those community visions to reality. Thank you for your 
support.
    Federal funding is an absolutely critical part of the conservation 
toolbox and provides manifold benefits to the American people. Given 
the limited public conservation funding at all levels of government, 
TPL works to leverage Federal conservation dollars, bringing to bear 
private philanthropic support as well as State and local funding to 
forge solutions to sometimes complex conservation funding challenges. 
The major programs under your jurisdiction that we count on year in and 
year out are the entire suite of Land and Water Conservation Fund 
(LWCF) programs--including the Bureau of Land Management (BLM), U.S. 
Fish and Wildlife Service (FWS), National Park Service (NPS) and U.S. 
Forest Service (USFS) acquisitions, NPS State and local grants, the 
Forest Legacy Program, the Cooperative Endangered Species Conservation 
Fund and the American Battlefield Protection Program--as well as the 
USFWS North American Wetlands Conservation Act and the USFS Community 
Forest Program.
Land and Water Conservation Fund
    The Land and Water Conservation Fund (LWCF) celebrated its 50th 
anniversary last year and is up for reauthorization this year. Over 
those 50 years, LWCF has been the cornerstone that sustains our Federal 
public lands heritage. Today, it remains a compelling and urgently 
needed program that we urge the subcommittee to strongly support. LWCF 
does not rely at all on taxpayer dollars. Instead, revenues generated 
from energy development and natural resource depletion are used for the 
protection of other natural resources such as parks, open space, and 
wildlife habitat for the benefit of current and future generations. We 
(and, polls show, most of America) believe it is both logical and 
necessary that this principle--using a small percentage of annual Outer 
Continental Shelf (OCS) receipts (which average over $6 billion) as a 
conservation offset--be fully honored.
    Investments in conservation and outdoor recreation make sound 
economic sense, too. The Outdoor Industry Association estimates that 
active outdoor recreation contributes $646 billion annually to the U.S. 
economy, supports nearly 6.1 million jobs across the country, and 
generates $39.9 billion in annual national tax revenue.
    For these and many other reasons we strongly support the fiscal 
year 2016 President's budget proposal to fully fund the Land and Water 
Conservation Fund at $900 million, with $400 million from discretionary 
sources and $500 million in mandatory funds, for the various component 
programs funded under LWCF. In the fiscal year 2016 bill, we 
respectfully request that you allocate at least $400 million in 
discretionary funding as the budget proposes to support essential 
community-based conservation and outdoor recreation needs. We recognize 
that the mandatory funding request requires additional legislative 
action, and we appreciate the support of the subcommittee as that 
process moves forward. Continued annual investment in the entire suite 
of LWCF programs as proposed in the budget is essential and we are 
ready to work with the subcommittee to ensure that dollars invested are 
well spent on our Nation's most urgent needs. We greatly appreciate the 
key role your subcommittee plays in ensuring that program dollars are 
used for high-priority strategic investments and appreciate that in 
challenging budgetary times you have maintained a commitment to this 
bipartisan program.
    We also support efforts to improve budgeting for forest fire 
management that will provide Federal agencies the means to fight fires 
without raiding other important Federal programs, like LWCF. We look 
forward to working with you to that end.

    LWCF's programs bring specific and complementary conservation 
benefits to the American public. These key programs are:

    BLM/FWS/NPS/USFS Land Acquisitions.--Every year tens of millions of 
Americans, as well as visitors to our country, enjoy our Federal public 
lands--national parks, forests, wildlife refuges and BLM conservation 
lands. Recent data shows that National Park Service units were visited 
by larger numbers than in the past 20 years. Strategic inholding and 
other acquisitions in these Federal areas through LWCF ensure 
recreation access and nature education; foster vital economic growth; 
protect clean water and other community resources; enhance the 
incomparable natural and scenic treasures that belong to all Americans; 
and frequently resolve complex land-use conflicts and produce 
management savings. Without adequate funding, the unfortunate 
alternative often is an irretrievable loss of public use and enjoyment 
of these areas and irreversible damage to the resources we all care 
about.
    This is precisely the choice for numerous outdoor recreation and 
natural resource protection projects budgeted in fiscal year 2016, 
including important recreation lands along the Rio Grande in New Mexico 
as part of the Rio Grande del Norte National Monument, and checkerboard 
properties in the Tahoe and Eldorado national forests in California. 
The Trust for Public Land is working in these and other areas 
identified in the President's budget and looks forward to working with 
the subcommittee as you consider these critical needs.
    U.S. Forest Service/Forest Legacy Program.--For 25 years, the 
Forest Legacy Program has been an extraordinarily effective program, 
providing assistance to States and localities seeking to preserve 
important working forests. It has protected nearly 2.5 million acres of 
forestland and has leveraged more than the required 25 percent match. 
For fiscal year 2016, the President's budget recommends projects that 
provide multiple public benefits through forest protection--clean 
water, wildlife protection, climate change adaptation and mitigation, 
public access to recreation, economic development and sustainable 
forestry. We urge your continued support for sustained investment in 
this strategic and successful program. Included in the fiscal year 2016 
budget proposal are numerous projects where TPL is working with States, 
landowners and other partners to protect recreation access for 
snowmobilers and hikers, ensure jobs in the woods, buffer important 
Federal and State conservation areas and provide strategic land 
conservation that fits a larger goal. Among these are the program's top 
priority project in Montana, which will protect the recreational 
access, a municipal water supply and critical wildlife habitat near 
Whitefish and Columbia Falls; a 1,533 acre property along East Moraine 
Wallowa Lake in Oregon; a 6,700 acre working forest project on the 
Olympic Peninsula along Puget Sound in Washington, and a 23,600 acre 
working forest project in Maine that represents 24 percent of the 
State's entire maple syrup production and about 4 percent of the entire 
national output.
    U.S. Fish and Wildlife Service/Cooperative Endangered Species 
Conservation Fund.--We are grateful for the subcommittee's historic 
support for U.S. Fish and Wildlife Service grant programs, including 
the Cooperative Endangered Species Conservation Fund (CESCF), which 
leverages State and private funds and has protected threatened and 
endangered species habitat across the Nation. The Habitat Conservation 
Plan (HCP) land acquisition program within CESCF has been critical to 
communities like Riverside County, California and Whitefish, Montana 
where landowners and public wildlife managers are working together 
through integrated HCP's to foster species recover and appropriate 
economic development. In TPL's work with these and other communities, 
we have seen how essential CESCF Federal cost-share dollars are to 
species conservation and local economies. The Recovery Land Acquisition 
(RLA) program under CESCF aids species where there is no HCP and where 
USFWS recovery plans lay out goals for Federal, State, local, and 
private, partners.
    National Park Service/State and Local Assistance grants.--Since 
1965, the State and local assistance grant program has provided over $4 
billion in Federal funds for more than 42,000 projects in States and 
local communities for park protection and development of recreation 
facilities. This program reaches deep into communities across our 
Nation, supporting citizen-led efforts to conserve places of local 
importance and opportunities for close-to-home recreation. As TPL 
continues our work with many of these communities to meet these needs, 
we hope the subcommittee will fully fund the administration's 
discretionary request for stateside grants and that a mandatory full-
funding LWCF solution will provide much-needed additional funding for 
this important program. We also strongly support the allocation of a 
portion of LWCF State and local assistance funds to the nationwide 
competitive grants program--the Outdoor Recreation Legacy Partnership 
Program--which was included in the fiscal year 2014 and fiscal year 
2015 omnibus appropriations bills at $3 million and is proposed in the 
President's fiscal year 2016 budget at $5 million. Through our Parks 
for People Program, The Trust for Public Land works with local 
communities to create, build, design, fund and care for parks, trails 
and playgrounds. At present, there is no other dedicated source of 
funding to support the desire by cities large and small, all across the 
country, to improve quality of life for their residents and support 
economic development. While $3 million is just a drop in the bucket 
compared to overall city park needs, we are deeply appreciative of the 
subcommittee's leadership in setting aside these funds and hope you 
will increase that level in fiscal year 2016. The first grant round 
generated substantial interest in communities across the Nation--we are 
a partner with Atlanta, Georgia; Bridgeport, Connecticut; and Denver, 
Colorado in using first-round grant funds--and we believe that this 
funding will leverage substantial non-Federal match and make a 
difference in communities across the Nation.
    National Park Service/American Battlefield Protection Program.--We 
applaud the subcommittee for its longstanding commitment to this 
important program, which complements acquisitions of threatened Civil 
War battlefield properties in national park units with non-Federal land 
protection of key sites from this critical moment in our Nation's 
history. Congress recently expanded the program to include protection 
of non-Federal Revolutionary War and War of 1812 battlefield sites, so 
the allocation of LWCF funds for the ABPP is needed more than ever. We 
are using ABPP funds at present to protect threatened properties on 
Missionary Ridge in Chattanooga, site of a critical Civil War battle.
    National Park Service/Urban Park and Recreation Fund.--The 
President's budget for fiscal year 2016 proposes $25 million in 
mandatory funding for the Urban Park and Recreation Recovery Program 
(UPARR). Funding UPARR in fiscal year 2016 would enable the National 
Park Service to issue competitive grants for improvements to parks and 
playgrounds in the neediest cities throughout the country. From 1978 to 
2002, UPARR grants assisted cities to make those improvements in 380 
communities in 43 States as well as the District of Columbia and Puerto 
Rico. Grants have gone to places as diverse as Providence, Rhode 
Island; San Francisco, California; Riverside County, California; 
Knoxville, Tennessee; Springfield, Missouri; Meridian, Mississippi; and 
Portland, Maine. The restoration of UPARR funding in the fiscal year 
2016 Interior and Environment Appropriations bill would be a sound 
investment in the health and well-being of our Nation's children.

    Beyond LWCF, we urge the subcommittee to provide adequate funding 
to other conservation programs including:

    U.S. Fish and Wildlife Service/North American Wetlands Conservation 
Act.--We respectfully request your support for program funding at the 
enacted and proposed level of $34.1 million in fiscal year 2016. The 
North American Wetlands Conservation Act (NAWCA) provides much-needed 
matching grants to carry out wetlands conservation, restoration and 
enhancement projects. Our most recent grant through the NAWCA program 
will help ensure protection of a 215-acre property in the growing 
suburbs of Portland, Maine, including a 46 acre pond that provides 
habitat for waterfowl and migratory birds. NAWCA is a highly-leveraged 
program with a substantial record of success and is another important 
Federal conservation tool to support critical wetland habitat.
    U.S. Forest Service/Community Forest Program.--We urge your 
continued support for the Community Forest Program (CFP), which 
complements existing conservation programs by helping communities and 
tribes identify, purchase, and manage locally important forestlands 
that are threatened with development. These community forests can be 
tailored to local needs, from timber revenue for municipal or county 
budgets to recreation access and outdoor education. Every Federal 
dollar from CFP is evenly matched by funding from State, local, and 
private sources. The Forest Service has now approved 21 grants to 
innovative local and tribal projects that support local community 
needs--including in California, Kentucky, Montana, Oregon, and 
Vermont--and the program has generated significant interest from local 
entities concerned about the future of their close-to-home forests. 
Given the strong interest in community forests from coast to coast, we 
urge you to include $5 million in the fiscal year 2016 bill for this 
innovative local conservation tool.
    The programs highlighted here are critical to the future of 
conservation at the local, State and Federal levels; reflect the 
continued demand on the part of the American people for access to 
outdoor recreation; and help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2016 Interior, Environment and Related 
Agencies bill. Thank you for your help and support, and for your 
consideration of our requests.

    [This statement was submitted by Kathy DeCoster, Vice President and 
Director of Federal Affairs.]
                                 ______
                                 
                Prepared Statement of the USGS Coalition
                                summary
    The USGS Coalition appreciates the opportunity to provide testimony 
about the fiscal year 2016 budget for the United States Geological 
Survey (USGS). The USGS Coalition supports the administration's budget 
request of $1.2 billion for the USGS. The requested funding would allow 
the agency to sustain current efforts and make strategic investments 
that will produce the knowledge and decision-support tools needed by 
decision-makers across the country.
    The USGS is uniquely positioned to provide information and inform 
responses to many of the Nation's greatest challenges. Few modern 
problems can be addressed by a single scientific discipline. The USGS 
is an agency that has a unique capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.
    The USGS Coalition is an alliance of over 70 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. The Coalition 
supports increased Federal investment in USGS programs that underpin 
responsible natural resource stewardship, improve resilience to natural 
and human-induced hazards, and contribute to the long-term health, 
security, and prosperity of the Nation.
                   essential services for the nation
    Established by Congress as a branch of the Department of the 
Interior in 1879, the United States Geological Survey has a national 
mission that extends beyond the boundaries of the Nation's public lands 
to positively impact the lives of all Americans. The agency plays a 
crucial role in protecting the public from natural hazards, assessing 
water quality and quantity, providing geospatial data, and conducting 
the science necessary to manage our Nation's biological, mineral, and 
energy resources. Through its offices across the country, the USGS 
works with partners to provide high-quality research and data to 
policymakers, emergency responders, natural resource managers, civil 
and environmental engineers, educators, and the public. A few examples 
of the USGS' valuable work are provided below.
    The Survey collects scientific information on water availability 
and quality to inform the public and decision makers about the status 
of freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected streamflow data at over 21,000 
sites, water-level data at over 1,000,000 wells, and chemical data at 
over 338,000 surface-water and groundwater sites. This information is 
needed to effectively manage freshwaters--both above and below the land 
surface--for domestic, public, agricultural, commercial, industrial, 
recreational, and ecological purposes.
    The USGS plays an important role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year. Seismic networks and hazard analysis are 
used to formulate earthquake probabilities and to establish building 
codes. USGS monitors volcanoes and provides warnings about impending 
eruptions that are used by aviation officials to prevent planes from 
flying into volcanic ash clouds. Data from the USGS network of stream 
gages enable the National Weather Service to issue flood and drought 
warnings. The bureau and its Federal partners monitor seasonal 
wildfires and provide maps of current fire locations and the potential 
spread of fires. USGS research on ecosystem structure informs fire risk 
forecasts.
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the Nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil. The 
USGS is the sole Federal source of information on mineral potential, 
production, and consumption.
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. Ecosystems science is also used to 
control invasive species and wildlife diseases that can cause billions 
of dollars in economic losses. The Survey provides information for 
resource managers as they develop adaptive management strategies for 
restoration and long-term use of the Nation's natural resources in the 
face of environmental change.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.
                                funding
    Over the years, Congress has worked in a bipartisan fashion to 
provide essential funding to the USGS. These efforts have paid 
dividends and helped the USGS provide answers to the challenging 
questions facing decision-makers across the country.
    Through careful management and deferring staff travel and training, 
the USGS has survived the recent budget cuts resulting from 
sequestration. Staff training and participation in scientific meetings, 
however, are necessary investments that help USGS maintain its 
technical capacity. It is through exchanges at scientific meetings and 
workshops that new ideas emerge and scientific analyses are shared, 
challenged by colleagues, and honed prior to submitting research for 
publication in peer-reviewed journals. We encourage Congress to work 
with the USGS to ensure that scientists are able to fully participate 
in scientific meetings.
    As a science agency, much of the USGS budget is dedicated to 
salaries and equipment that must be maintained and updated to ensure 
the continuity of data acquisition and that the data gathered are 
reliable and available for future scientific investigations. We believe 
that the leadership of the USGS is doing all it can, and has been for a 
number of years, to contain costs while continuing to deliver high 
quality science.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis. The USGS Coalition requests that Congress 
work to provide $1.2 billion for fiscal year 2016.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of this request.

    [This statement was submitted by Dr. Robert Gropp, Chairman.]
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission
    Mr. Chairman, and honorable members of the subcommittee, I am Ron 
Allen, the tribal commissioner and chair for the U.S. Section of the 
Pacific Salmon Commission (PSC). The U.S. Section prepares an annual 
budget for implementation of the Pacific Salmon Treaty. The integrated 
budget details program needs and costs for tribal, Federal, and State 
agencies involved in the treaty. Tribal participation in the treaty 
process is funded in the Bureau of Indian Affairs budget.

        In order meet the increased obligations under the 2009-2018 
        Pacific Salmon Treaty Agreement the 25 affected tribes 
        identified costs at $4,800,000 for tribal research projects and 
        participation in the U.S.-Canada Pacific Salmon Treaty process, 
        an increase of $520,000 over fiscal year 2015 enacted level. 
        The funding for tribal participation in the Pacific Salmon 
        Treaty is a line item in the BIA's budget under Rights 
        Protection Implementation.

    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
identified needs as follows:

        USFWS participation in the treaty process is funded at $379,919 
        for fiscal year 2015. The Pacific States Marine Fisheries 
        Commission's Regional Mark Center (PSMFC) receives support from 
        the USFWS to provide data services to the PSC process at a 
        level of $225,435 for fiscal year 2015. The total for the two 
        programs is $605,354. This represents a decrease from fiscal 
        year 2010 levels, which were $417,673 for USFWS and $315,000 
        for PSMFC, resulting in total of $732,673. The U.S. Section 
        recommends restoring both programs to previous funding levels, 
        which is an increase of $127,319. This funding level allows the 
        Mark Center to maintain the same level of service to the U.S. 
        Section.

    This base funding for the U.S. Fish and Wildlife Service supports 
critically important on-going work. The funding for Pacific States 
Marine Fisheries Commission's Regional Mark Center is utilized to meet 
treaty requirements concerning data exchange with Canada. These program 
recommendations are integrated with those of the State and Federal 
agencies to avoid duplication of effort and provide for the most 
efficient expenditure of scarce funds.
    Funding to support activities under the Pacific Salmon Commission 
comes from the Departments of Interior, State, and Commerce. The U.S. 
Section will provide a cross-cut budget summary to the subcommittee. 
Adequate funding from all three Departments is necessary for the U.S. 
to meet its treaty obligations. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation and are used in cooperative programs involving 
Federal, State, and tribal fishery agencies and the Department of 
Fisheries in Canada. The commitment of the United States is matched by 
the commitment of the Government of Canada.
    The U.S. Section of the PSC is recommending an adjustment to 
support the work carried out by the 24 treaty tribes' that participate 
in the implementation of the treaty. Programs carried out by the tribes 
are closely coordinated with those of the States and Federal agencies. 
Tribal programs are essential for the United States to meet its 
international obligations. Tribal programs have taken on additional 
management responsibilities due to funding issues with State agencies. 
All participating agencies need to be adequately supported to achieve a 
comprehensive U.S. effort to implement the treaty.
    The U.S. Fish and Wildlife Service activities are necessary so the 
U.S. can maintain the critical database to implement the treaty. The 
work of the Regional Mark Processing Center includes maintaining and 
updating a coastwide computerized information management system for 
salmon harvest and catch effort data as required by the treaty. This 
work has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The U.S. database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than 20 years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Commission provides a forum to ensure cooperative management of salmon 
populations. In 2008, the U.S. and Canada successfully concluded 
lengthy negotiations to improve this management, including the 
adjustments to the coastwide abundance-based management regime for 
Chinook salmon and a framework for abundance based management for 
southern Coho populations. The agreement is intended to last through 
2018. The U.S. and Canada completed a revised Fraser River sockeye and 
pink chapter in 2013. The U.S. and Canada are preparing to negotiate 
revisions to the current agreements. Based on past experience, the 
negotiation process will require additional meetings to reach a 
successful conclusion. It is important to have adequate resources for 
U.S. participants to negotiate the best outcome.
    Before the treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the treaty, managed at 
productive levels under the treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work towards the true intent of the 
treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the subcommittee 
for the support that it has given the U.S. Section in the past. Please 
feel free to contact me or other members of the U.S. Section to answer 
any questions you or subcommittee members may have regarding the U.S. 
Section of the Pacific Salmon Commission budget.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    United Tribes Technical College (UTTC) has for 46 years, and with 
the most basic of funding, provided postsecondary career and technical 
education and family services to some of the most impoverished high 
risk Indian students from throughout the Nation. Despite such 
challenges we have consistently had excellent retention and placement 
rates and are a fully accredited institution. We are proud to be 
preparing our students to participate in the new energy economy in 
North Dakota and to be part of building a strong middle class in Indian 
Country by training the next generation of law enforcement officers, 
educators, medical providers, and administrators. We are governed by 
the five tribes located wholly or in part in North Dakota. We are not 
part of the North Dakota State college system and do not have a tax 
base or State-appropriated funds on which to rely. The requests of the 
UTTC Board for the fiscal year 2016 Bureau of Indian Education (BIE)/
Bureau of Indian Affairs (BIA) are:

  --$6.8 million in BIE funding for our Indian Self-Determination Act 
        contract which is in the Tribal Technical Colleges BIE line 
        item and is $2.2 million over the administration's request for 
        UTTC.
  --One-time BIE funding to forward fund United Tribes Technical 
        College and the few other tribal colleges who are not forward 
        funded, estimated at $22 million for five institutions.
  --Place contract supports costs on a mandatory funded basis and 
        provide full funding for administrative costs grants for 
        tribally operated elementary/secondary schools.
  --Congressional support for a tribally administered law enforcement 
        training center at UTTC and/or more involvement in law 
        enforcement training initiatives.

    Base Funding.--UTTC administers our BIE funding under an Indian 
Self-Determination and Education Assistance Act agreement, and has done 
so for 38 years. We appreciate that the administration is requesting a 
$65,000 increase for built-in costs for UTTC for a total of $4,630,000 
but our need far exceeds that amount. We request that the UTTC portion 
of the Tribal Technical Colleges line item be $6.8 million and that the 
total line item of Tribal Technical Colleges be at least $11 million.
    Acquisition of additional base funding is critical. We struggle to 
maintain course offerings and services to adequately provide 
educational services at the same level as our State counterparts. Our 
BIE funding provides a base level of support while allowing us to 
compete for desperately needed discretionary contracts and grants. Very 
little of the other funds we receive may be used for core career and 
technical educational programs; they are competitive, often one-time 
supplemental funds that help us provide support services but cannot 
replace core operational funding.
    We highlight several relatively recent updates of our curricula to 
meet job market needs: Indeed, the ramifications of the North Dakota 
Bakken oil boom are apparent as we have seen faculty and students leave 
education in pursuit of jobs in the Bakken region. We saw the need for 
more certified welders in relation to the oil boom and have expanded 
our certified welding program in response to the workforce need. We are 
now able to train students for good paying in-demand welding employment 
with a focus on career rather just a job. Other courses reflect new 
innovative approaches on energy auditing and Geographic Information 
System Technology. UTTC is seeing increased interest in our online 
programs of study and short term skill building training at the UTTC 
Black Hills Learning Center, a distance learning site located at Rapid 
City, South Dakota. We are also working toward the establishment of an 
American Indian Specialized Health Care Training Clinic on our 
established Bismarck, North Dakota campus.
    Forward Funding.--We have wanted BIE forward funding for some time 
and our experience with funding via Continuing Resolutions (CR) has 
made this request more urgent. Even before the days of what now seems 
like routine CRs, Congress placed many education programs on a forward 
funded basis. We ask you to do that for us and the four other higher 
education institutions that receive BIE funds to be afforded the same 
consideration. Forward funding would allow us to know 9 months in 
advance (assuming the appropriations bill is enacted in a timely 
manner), and thus enable reasonable planning time, for these instances. 
As you know, only once since 1998 has the BIA budget been enacted by 
the beginning of the fiscal year.
    There was an oversight in the fiscal year 2010 appropriations 
process that resulted in UTTC (and Navajo Technical University (NTU)) 
not receiving BIE forward funding while the other tribally controlled 
colleges had their funds transitioned to a forward funded basis. There 
is authority for forward funding for tribal colleges under the Tribally 
Controlled Colleges and Universities Act, 25 U.S.C. 1810(b)(1) and (2). 
This authority applies to all colleges funded under that Act, including 
UTTC and NTU. The oversight was that the administration requested the 
forward funding under the line item in the budget include all of the 
tribally controlled colleges except UTTC and NTU. The administration 
neglected to update the budget request to include the line item 
``tribal technical colleges'' that had recently been established for 
UTTC and NTC. Also left out were the BIE-administered institutions of 
Haskell, Southwestern Indian Polytechnic Institute, and the Institute 
of American Indian Art which are funded under other authorities. The 
American Indian Higher Education Consortium has estimated $22 million 
is needed to forward fund these schools. This does not increase the 
Federal budget over the long-run. This simply allows us to know 9 
months in advance our funding, which is critically important when 
appropriations are delayed and the Government is funded under 
Continuing Resolutions.
    Contract Support Costs and Administrative Cost Grants.--As 
mentioned above, we administer our BIE funding through an Indian Self-
Determination and Education Assistance Act contract, and thus contract 
support costs (CSC) are vital to us. We thank this subcommittee and the 
administration for the recognition of the legal obligation the Federal 
Government has to pay tribal contractors their full CSC. Placing CSC 
funding on a mandatory basis is the logical resolution to a long-term 
solution for CSC that will eventually protect the programs funded on a 
discretionary basis in the BIA and Indian Health Service budgets.
    We have a BIE-funded elementary school on our campus, the Theodore 
Jamerson Elementary School (TJES), and thus many of our adult students 
and their children are able to attend school on the same campus. The 
administration proposed a budget that would fully fund estimated 
administrative costs grants ($75 million, a $12.9 million increase), 
which is the schools' equivalent to contract support costs. We ask for 
your support for this budget request as this would greatly assist the 
TJES students in completing elementary school.

    Funding for United Tribes Technical College is a good investment. 
We have:

  --Renewed unrestricted accreditation from the North Central 
        Association of Colleges and Schools, for July 2011 through 
        2021, with authority to offer all of our full programs on-line. 
        We have 23 Associate degree programs, 19 certificate and three 
        bachelor degree programs (criminal justice; elementary 
        education; business administration). Six courses are offered 
        online.
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-8 elementary 
        school, tutoring, counseling, family and single student 
        housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --A semester retention rate of 68 percent and a graduate placement 
        rate of 79 percent. Over 45 percent of our graduates move on to 
        4-year or advanced degree institutions.
  --Students from 49 tribes; 73 percent of our undergraduate students 
        receive Pell Grants.
  --An unduplicated count of 605 undergraduate degree-seeking students: 
        258 continuing education students; and 42 dual credit 
        enrollment students for a total of 905 for 2014-2015.
  --A dual-enrollment program targeting junior and senior high school 
        students, providing them an introduction to college life and 
        offering high school and college credits.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region. A North Dakota State University study reports that the 
        five tribal colleges in North Dakota made a direct and 
        secondary economic contribution to the State of $181,933,000 in 
        2012.

    A Northern Plains Indian Law Enforcement Academy.--We again ask 
Congress to seriously look at the problem of addressing crime in Indian 
Country with an eye toward the establishment of a campus-based academy 
for training of law enforcement officers in the Northern Plains area. 
There are cultural and legal reasons why such training should be 
tribally directed in order to be appropriate for the realities of 
tribal communities. With the expanded tribal authorities under the 
Tribal Law and Order Act and the Violence Against Women Act, the need 
has grown. State and national training resources would have an 
important role in this new endeavor.
    Our Criminal Justice program offers 2- and 4-year degrees, and 
prepares graduates for employment as Federal, State or tribal law 
enforcement, correction, parole and probation, and transportation 
safety officers; victim advocates; U.S. Customs, Homeland Security, and 
Military Investigative services; and private security agents. We point 
out that the Indian Child Protection and Family Violence Prevention Act 
contains requirements regarding background checks and character 
investigations. We want to expand our endeavors to help meet law 
enforcement needs in Indian Country. Given our Criminal Justice 
program, our location and our campus resources, we propose the 
establishment of a Northern Plains Indian Law Enforcement Academy.
    Basic law enforcement training is currently provided through the 
BIA's Indian Police Academy in Artesia, New Mexico. The BIA is 
depending on the basic training provided by State academies to 
supplement what is provided at Artesia. UTTC is well positioned with 
regard to providing both basic and supplemental law enforcement 
training. An academy at UTTC would allow tribal people in the Great 
Plains and other nearby regions a more affordable choice of training 
locations, minimizing the distance and long separation of trainees from 
their families.
    The fiscal year 2016 Indian Affairs budget (p. IA-PSJ-12) notes 
that training initiatives for the Indian Police Academy include 
developing a pre-Academy training program for candidates; developing a 
mid-level manager training program; and establishing an on-line 
distance learning program for recertification, among other things. 
These are things that we could do as part of an academy at UTTC or in 
partnership with the Indian Police Academy.
    In short, the BIA should be utilizing and enhancing the resources 
of UTTC to make a real difference in the law enforcement capability in 
Indian Country. We can offer college credit to trainees, and our 
facilities include the use of a state-of-the-art crime scene simulator. 
Maintaining safe communities is a critical component of economic 
development for our tribal nations, and local control of law 
enforcement training resources is a key part of that effort.
    The Duplication or Overlapping Issue.--As you know, in March 2011 
the Government Accountability Office issued two reports regarding 
Federal programs which may have similar or overlapping services or 
objectives (GAO-11-474R and GAO-11-318SP). Funding from the BIE and the 
DOEd's Carl Perkins Act for Tribally Controlled Postsecondary Career 
and Technical Education were among the programs listed in the reports. 
The full GAO report did not recommend defunding these programs; rather, 
it posed the possibility of consolidation of these programs to save 
administrative costs. We are not in disagreement about possible 
consolidation of our funding sources, as long as program funds are not 
cut.
    BIE funds represent over half of our core operating budget. The 
Perkins funds supplement, but do not duplicate, the BIE funds. It takes 
both sources of funding to frugally maintain our institution. We 
actively seek alternative funding to assist with academic programming, 
deferred maintenance, and scholarship assistance, among other things. 
The need for career and technical education in Indian Country is so 
great and the funding so small, that there is little chance for 
duplicative funding. There are only two institutions targeting American 
Indian/Alaska Native career and technical education and training at the 
postsecondary level--UTTC and NTU. Combined, these institutions 
received less than $14.7 million in fiscal year 2015 Federal 
operational funds ($7.7 million from Perkins; $6.9 million from the 
BIE). That is not an excessive amount for two campus-based institutions 
who offer a broad array of programs geared toward the educational and 
cultural needs of their students and who teach job-producing skills.
    We know members of this subcommittee have made a point to visit 
places in Indian Country and we would love to be able to arrange for 
you to visit United Tribes Technical College. Thank you for your 
consideration of our requests.

    [This statement was submitted by Leander ``Russ'' McDonald, Ph.D., 
President.]
                                 ______
                                 
           Prepared Statement of the University of Notre Dame
    Dear Senator Murkowski,

    I am writing to indicate my strong support of the U.S. Geological 
Survey's Great Lakes Science Center (USGS GLSC). I have pursued a 
number of research collaborations with scientists at the USGS Lake 
Michigan Ecological Research Station (LMERS) in Porter, Indiana. As a 
result, I have the privilege of helping advance scientifically sound 
natural resource management, and my graduate and undergraduate students 
at the University of Notre Dame have gained invaluable training to help 
build their careers. I have seen the GLSC and LMERS function with 
limited resources that have steadily degraded in the last several 
years. I also understand how much our Great Lakes region would benefit 
from increases in the GLSC budget.
    The GLSC is doing important work to preserve a critical natural 
resource, the Great Lakes and its associated ecosystems that the people 
of the Great Lakes region depend upon. The Great Lakes are a vast 
natural resource, critical to the economy and ecology of the entire 
United States. This international resource is an economic engine 
generating nearly tens of billions of dollars yearly in economic 
activity and is responsible for tens of thousands of jobs in fishing, 
tourism and related industries alone and supports the wellbeing of 
millions of U.S. citizens. The highest quality science possible is 
required to inform wise management decisions concerning conservation, 
water management, and fisheries resources throughout the Great Lakes 
basin. The practical research produced by GLSC scientists contributes 
greatly to maintaining sustainability of these resources.
    The USGS GLSC conducts impartial, high-quality science essential to 
Federal, State, local, tribal, and provincial management of Great Lakes 
basin natural resources throughout all five of the Great Lakes 
watersheds and in all eight Great Lakes States. GLSC has made 
significant contributions to improving the scientific basis for 
managing Great Lakes ecosystems. GLSC and LMERS scientists also publish 
high-quality research in scholarly journals so that the international 
research community benefits from their findings.
    I have had the privilege of seeing the work at the LMERS in action. 
Our collaborative research on an endangered species at the Indiana 
Dunes National Lakeshore, for example, is aiding a recovery team that 
implements restoration and management plans on Federal, State, and 
private land. My USGS colleagues and I also are working with the 
National Park Service to plan for species reintroductions. This work is 
serving as model of 21st century endangered species management across 
the United States.
    The need for USGS GLSC research is rapidly increasing because of 
new climatic extremes, increased urbanization, a globalized economy 
that links the Great Lakes with ecosystems around the world, and 
humanity's on-going dependence on essential ecosystem services for 
recreation, economic value, and quality of life. We need a robust USGS 
to confront these challenges.
    I understand from my USGS colleagues that research by the GLSC and 
LMERS has been eroded by failures to maintain their budget, and 
worsened by a 6 percent cut from sequestration in 2013. Their budget in 
2014 was at the same level it was 5 years ago in 2009. The ongoing 
budget impacts have led to an accumulation of more than 15 unfilled 
scientific/technical positions distributed throughout the Great Lakes 
Region.
    High quality, impartial scientific information from USGS GLSC is 
absolutely essential for wise management of the Great Lakes Region, 
including the preservation of endangered species, recreation resources, 
and economically valuable fisheries.
    For the first time during the Obama administration, the 2016 budget 
highlights two areas where the USGS GLSC programs would experience 
relatively small budget increases. The President proposes: (1) a 
$250,000 increase for the Great Lakes Deepwater Assessments; and (2) a 
bureau-wide $2.0 million increase for Invasive Species which would 
likely result in a portion of those funds being directed to USGS GLSC. 
Additionally, Presidential Memorandum of June 20, 2014--Creating a 
Federal Strategy to Promote the Health of Honey Bees and Other 
Pollinators represents recognition of the need for the Federal 
Government to support research in this field that LMERS has been a 
leader on within the USGS.
    As an academic researcher with a stake in the success of the USGS, 
I support--and will directly benefit from--$17.5 million in fiscal year 
2016 appropriations for the GLSC. Currently, the USGS GLSC receives 
approximately $8.5 million in appropriated funding to support science 
programs critical to the management of these incredibly valuable 
resources. Compared to economic returns generated from the Great Lakes, 
this funding level only represents about 1.2 percent of the annual 
fisheries related revenue and less than 0.03 percent of the revenue 
attributable to closely related industries. Our request for $17.5 
million in fiscal year 2016 appropriations represents an $8.75 million 
increase above the President's fiscal year 2016 request. The 
President's fiscal year 2016 request for $250,000, combined with our 
requested increase of $8.75 million, and the $8.5 million annual 
appropriation allocated to the GLSC reaches the $17.5 million, and 
reflects long-standing, well recognized needs for this chronically 
under-funded science program. These needs were previously detailed in a 
March 2010 bi-partisan letter authored by nine U.S. Senators and 21 
U.S. House Members wrote to their congressional appropriation 
leadership to request a total science budget of $15.0 million; and 
again 2 years later in April 2012, by the Association of Fish and 
Wildlife Agencies describing the importance of the USGS programs to 
regional management decisions, and recommending an appropriated science 
budget of $15.0 million.
    I urge you to embrace these requests in the President's budget; and 
respectfully ask you to increase these additions by $8.75 million for a 
total increase of $9.0 million for the USGS Great Lakes Science Center.

    [This statement was submitted by Jessica J. Hellmann, Associate 
Professor, Department of Biological Sciences.]
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Mr. Chairman and members of the subcommittee, the Western 
Governors' Association (WGA) appreciates the opportunity to provide 
written testimony on the appropriations and activities of the Bureau of 
Land Management (BLM), U.S. Fish and Wildlife Service (FWS), National 
Park Service (NPS), U.S. Forest Service (USFS) and Environmental 
Protection Agency (EPA). My name is James D. Ogsbury and I am the 
Association's Executive Director. WGA is an independent, non-partisan 
organization representing the Governors of 19 Western States and 3 
U.S.-flag islands.
    Together, the agencies within your jurisdiction wield significant 
authority over vast areas of the American West. How these agencies 
conduct their work has an enormous impact on individual States. The 
West is the epicenter of exceptional drought conditions, pervasive 
invasive species incursion and destructive wildfire. That is why the 
work of this subcommittee is of such vital importance to Western 
Governors: it is your efforts, as you consider appropriations levels 
and policy directives, that set the stage for how these agencies will 
interact with other layers of government and the public.
    I recognize that there is a certain tension between State and 
Federal Governments, one that is embedded in the fabric of our 
Constitution. It is equally clear that these different layers of 
government must have a close and productive working relationship if our 
citizens are to prosper and thrive. Western Governors believe that such 
cooperation is only possible when States are regarded as full and equal 
partners of the Federal Government in the development and execution of 
programs for which both have responsibility.
    This can be easily demonstrated by examining the work being done by 
WGA's Drought Forum under the leadership of our Chairman, Governor 
Brian Sandoval of Nevada. Many areas of the West are experiencing 
severe and sustained drought conditions. State and Federal 
cooperation--from data sharing to land management responsibilities--is 
critical to our understanding and response to these devastating drought 
conditions.
    With respect to funding levels of appropriated programs, WGA 
recommends the enactment and full funding of a permanent and stable 
funding mechanism for the Payment in Lieu of Taxes (PILT) program 
administered by the Department of Interior. These appropriations do not 
represent a gift to local jurisdictions; rather they represent 
important compensation for the disproportionate acreage of non-taxable 
Federal lands in the West.
    Similarly, payments under the Secure Rural Schools and Community 
Self-Determination Act (SRS) are critical to compensating communities 
whose timber industries have been negatively impacted by actions and 
acquisitions of the Federal Government. I am encouraged by the 2-year 
reauthorization of SRS that was included in H.R. 2, the Medicare Access 
and CHIP Reauthorization Act of 2015, and hope that you will consider 
full funding for SRS payments in fiscal year 2016.
    Western Governors understand and support the need for a permanent 
solution to the issues addressed by PILT and SRS. The current situation 
leads to uncertainty and frustration for local governments and funding 
complications each and every funding cycle. Western Governors are ready 
to assist in the development and execution of solutions to these 
complicated matters.
    Another important responsibility of the subcommittee is species 
conservation. Western States routinely invest enormous amounts of time, 
money and manpower in the management of wildlife protection and habitat 
conservation. It is also appropriate for Federal agencies to provide 
sufficient resources for species protection, particularly on Federal 
lands. When Federal lands are inadequately managed, State and local 
efforts to protect habitat and species will not be sufficient to assure 
the success of these efforts. Federal agencies must demonstrate their 
commitment to species preservation and recovery by committing adequate 
funding for conservation efforts on Federal lands.
    The subcommittee knows all too well the pressing problem of ``fire 
borrowing,'' by which the funding for routine Forest Service management 
activities is transferred to emergency firefighting activities. This 
short-sighted practice creates a dangerous cycle that must be 
eliminated. By diverting funding from management activities that reduce 
wildfire threats, this practice increases the fire risk on Federal 
lands and all but ensures that future wildfires will be more damaging 
(and costly), especially in the current drought conditions the West is 
experiencing. WGA strongly supports efforts to solve the budgetary 
issue of fire borrowing, and would prefer that the Federal Government 
use a funding structure similar to that used by the Federal Emergency 
Management Agency (FEMA) in its response to natural disasters.
    Section 8204 of the 2014 Farm Bill allowed Governors the 
opportunity to request that National Forest System lands within their 
States be considered for insect and disease designation. The Farm Bill 
authorized the appropriation of $200 million to accomplish the work 
required under the statute. Treatment on these designations does not 
automatically occur. Many States, however, are already working with 
their regional foresters to start projects as soon as possible. This 
work will help reduce the threat of wildfires in areas of high risk. I 
am encouraged by the eagerness of the USFS to begin this effort and 
request that funding be appropriated at a reasonable and sustainable 
level.
    Data for water management and drought response planning is critical 
to Western States. I also request adequate funding levels for the 
Cooperative Water Program and National Streamflow Information Program 
(NSIP), both administered by the Department of Interior's U.S. 
Geological Survey (USGS). The data collected by these programs is 
integral to water supply management decisions for States, utilities, 
reservoir operators and farmers. This information is particularly 
useful as drought persists in California, Nevada, the southern Great 
Plains, and other parts of the West. The data sources are also used for 
flood forecasts, making them essential to risk assessment as well as 
water management. These two USGS programs are important elements of a 
robust water data management program in the Western States, and provide 
needed support for drought mitigation efforts throughout the West.
    Infrastructure management is another crucial element of drought 
response. EPA's Clean Water and Drinking Water State Revolving Funds 
(SRFs) provide the necessary support for communities to maintain and 
enhance their water infrastructure. The Western Governors' 2014 policy 
resolution, Water Resource Management in the West, supports adequate 
funding for SRFs.
    The following recommendations are intended to help ensure that the 
taxpayer realizes a better return on the investment of limited 
discretionary resources. This goal will be more readily achieved to the 
extent that Federal agencies better leverage State authority, resources 
and expertise.
    Western Governors appreciate your assistance in encouraging a 
positive relationship between the States and the Federal Government on 
the use of wildlife data. For the past 2 years, this subcommittee has 
included language in its report directing Federal land managers to use 
State fish and wildlife data and analyses as principal sources to 
inform land use, land planning and related natural resource decisions. 
Both levels of government need data-driven science, mapping and 
analyses to effectively manage wildlife species and their habitat. 
States possess constitutional responsibilities for wildlife management, 
as well as intimate knowledge of wildlife habitat and resources. In 
many cases, States generate the best available wildlife science. I 
encourage you to maintain this position and reiterate it in your fiscal 
year 2016 report to strengthen this important operating principle.
    Western Governors believe that States should be full and equal 
partners in the implementation of the Endangered Species Act (ESA) and 
should have the opportunity to participate in pre-listing and post-
listing ESA decisions. The Act is premised on a strong State-Federal 
partnership. Section 6(a) of the ESA states that, ``In carrying out the 
program authorized by the Act, the Secretary shall cooperate to the 
maximum extent practicable with the States.'' WGA submits that such 
cooperation should include partnership with States in the establishment 
of quantifiable species recovery goals, as well as in the design and 
implementation of recovery plans.
    ESA listing decisions can have dramatic impacts on vital State 
interests, influencing a State's ability to conduct almost any 
activity--from road siting to new home construction to environmental 
projects. Consequently, States should have the right to intervene in 
proceedings regarding the ESA. The subcommittee is urged to support the 
legal standing of States to participate in administrative and judicial 
actions involving ESA that, by their nature, implicate State authority 
and resources. Several Federal statutes--including the Clean Water Act 
(CWA), Clean Air Act and Resource Conservation and Recovery Act--vest 
the States with the role of co-regulator with the EPA.
    The number of wild horses and burros on BLM lands is estimated by 
the agency to be almost double the current Appropriate Management Level 
(AML). Wild horse and burro populations in excess of AMLs can degrade 
rangeland, causing harmful effects on wildlife and domestic livestock. 
This degradation also has implications for the protection of threatened 
and endangered species and other species protection efforts. WGA would 
support a process to establish, monitor and adjust AMLs for wild horses 
and burros that is transparent to stakeholders, supported by scientific 
information (including State data), and amenable to adaptation with new 
information and environmental and social change. Such a process would 
address both the long-term viability of wild horse and burro 
populations, and near-term concerns about the rangeland impacts of 
overpopulation.
    Last year, the administration unveiled a proposed rule of the EPA 
and the U.S. Army Corps of Engineers intended to clarify the 
jurisdictional reach of the CWA. Many States have indicated concern 
that the proposed rule significantly expands the definition of ``waters 
of the United States'' and could impinge on State authority over the 
regulation of waters within their borders. WGA continues to be 
concerned that States were insufficiently consulted during the 
development of this proposal and played no role in the creation of the 
rule.
    Congress intended for the States and EPA to implement the CWA in 
partnership and delegated authority to the States to administer the law 
as co-regulators with EPA. Accordingly, WGA encourages congressional 
direction to EPA to engage the States in the creation of rulemaking, 
guidance or studies that threaten to redefine the roles and 
jurisdiction of the States. State water managers should have a robust 
and meaningful voice in the development of any rule regarding the 
jurisdiction of the CWA or similar statutes.
    States have exclusive authority over the allocation and 
administration of rights to groundwater located within their borders 
and are primarily responsible for protecting, managing, and otherwise 
controlling the resource. The regulatory reach of the Federal 
Government was not intended to, and should not, be applied to the 
management and protection of groundwater resources. I encourage you not 
to permit the use of appropriated funds for any activity that would 
implement a directive on groundwater management. Federal agencies 
should work with the States to identify ways to address their 
groundwater-related needs and concerns through existing State 
authorities. Such collaborative efforts will help ensure that Federal 
efforts involving groundwater recognize and respect State primacy and 
comply with Federal and State statutory authorities.
    Western Governors and Federal land management agencies deal with a 
complex web of interrelated natural resource issues. It is an enormous 
challenge to judiciously balance competing needs in this environment, 
and Western Governors appreciate the difficulty of the decisions this 
subcommittee must make. The foregoing recommendations are offered in a 
spirit of cooperation and respect, and WGA is prepared to assist you as 
appropriate as you discharge your critical and challenging 
responsibilities.
    Again, thank you for the opportunity to provide written testimony. 
Please feel free to contact me if you have any questions about the 
content of these remarks.
                                 ______
                                 
            Prepared Statement of the Wilderness Land Trust
    Chairman Murkowski, Ranking Member Udall and members of the 
subcommittee, my name is Reid Haughey and I am the president of the 
Wilderness Land Trust. Thank you for the opportunity to submit 
testimony. My testimony focuses on a very small portion of the Land and 
Water Conservation Fund (LWCF)--funding for the Inholding Acquisition 
Accounts for the four land management agencies. Continued modest 
funding of the Inholding Accounts is vital to the success of securing 
and preserving wilderness already designated by Congress, while 
treating private landowners within these areas fairly.
    The Trust is a small not-for-profit organization focused on 
protecting designated wilderness. To do this, we work in partnership 
with landowners who own private property within designated and proposed 
wilderness areas and the agencies that manage these areas. We acquire 
properties from willing sellers with the intent to transfer ownership 
to the United States.
    Last year marked the 50th Anniversary of the Wilderness Act of 1964 
that established our National Wilderness Preservation System. As part 
of our celebration of the 50th anniversary, the Trust commissioned a 
national inventory of private lands within wilderness. The results are 
startling. The report determined that within the lower 48 States, 
175,863 acres of private lands still remain in 2,883 parcels. There are 
also 440,000 acres of State owned lands. Alaska is home to 47 percent 
of the total nonFederal lands--predominantly Native corporation lands 
stemming from ANCSA--comprising 693,641 acres in 686 parcels.
    When the Trust started work 23 years ago, we estimated there were 
400,000 acres of private land within designated wilderness in the lower 
48 States. It has taken steady work to reduce that by more than half. 
Large appropriations for the Inholding Accounts did not accomplish this 
success--just reliable, modest funding so that lands can be purchased 
when landowners want to sell. This is the level of funding we are 
hoping to continue.
    I am before you today to thank you for funding the Inholdings 
Accounts in fiscal year 2015 and to ask for that support once again. An 
appropriation of between $3 and 5 million to each of the land 
management agencies, the Forest Service, the Bureau of Land Management, 
the Fish and Wildlife Service and the National Park Service, is 
sufficient to enable the agencies to acquire high priority inholdings 
from willing sellers.
    Our work, along with that of many other organizations and 
facilitated by funding of the Inholding Accounts, aims to give the 
Federal Government less work. Eliminating private inholdings within 
designated wilderness:

  --Saves Federal dollars,
  --Solves management and resource problems,
  --Helps private landowners, and
  --Increases recreational access and economic development.
Saving Federal Dollars
    The management of human development activities in wilderness is 
expensive for the agencies. The potential resource damage to the 
protected lands and waters is enormous. While steady progress has been 
made reducing private inholdings in wilderness areas in the lower 48 
States, our wilderness areas remain riddled with private inholdings 
that greatly threaten the wilderness that surrounds them and creates a 
``Swiss cheese'' effect. While The Wilderness Act defines Wilderness as 
places where ``where man himself is a visitor who does not remain,'' 
private landowners retain their rights to build roads, homes and other 
buildings, extend utilities, extract minerals and timber, and block 
public access. There are numerous cases where such inholdings have been 
developed in ways that seriously degrade wilderness values on the 
adjacent public lands. All of theses activities pose challenges for 
Federal managers of the lands surrounding private inholdings and create 
significant and costly management inefficiencies. By contrast, the cost 
of acquiring these properties when they are offered for sale is 
relatively small. That is why it is so important to continue the modest 
appropriations needed for the inholding acquisition program.
    For example, the Trust acquired a property in the Hells Canyon 
Wilderness in Arizona several years ago that ended 38 years of on and 
off litigation over access. This saved the agency a lot of ongoing 
costs. It made the landowner happy and completed the wilderness that 
surrounded it.
    Further, as you are well aware, the costs associated with 
firefighting on public lands are enormous. The Wilderness Land Trust 
may be the only landowner within designated wilderness that can say it 
has experienced both sides of reducing firefighting costs. A property 
we owned in the heart of California's Yolla Bolly Wilderness burned 
while we owned it. Significant resources were spent to protect the 
structures on it, risking life and limb, as well as money.
    On the other hand, the Trust's Hells Canyon Wilderness property in 
Idaho burned one week after it was transferred to Federal ownership. No 
one cared; no one came out to protect it. It burned as part of the 
natural process of wilderness and firefighting efforts rightly 
concentrated at the edges of the wildland-urban interface.
    Specific data on firefighting expenses are difficult to get. The 
Western Forestry Leadership Coalition, a State and Federal Government 
partnership whose members include 23 State and Pacific Island 
Foresters, 7 Western Regional Foresters, 3 Western Research Station 
Directors, The Forest Products Lab Director of the USDA Forest Service, 
published a report: The True Cost of Wildfire in the Western U.S. in 
April 2009. Among the case studies reviewed, the lowest total cost per 
acre firefighting expense was the Canyon Fire Complex in Montana 
(2000). The total cost was $411 per acre. There were only six 
structures involved. The highest cost per acre was the 2000 Cerro 
Grande fire in New Mexico. It cost $22,634 per acre. There were 260 
residences involved. This is strong evidence that the presence of 
private lands and structures within public landscapes exponentially 
increases the cost of firefighting.
    Not all the costs of managing these isolated parcels fall on the 
Federal Government. As the manager of Pitkin County, Colorado I learned 
firsthand that the expenses of providing services to these isolated and 
far-flung properties far exceed the tax revenues received and do not 
come close to offsetting the cost of providing fire protection, 
emergency services, road, school buses and general government services. 
It costs more to serve these isolated single properties than the tax 
revenue they generate.
Solves Management and Resource Problems
    The Inholding Accounts have been used to acquire mines from private 
owners, private retreats, and various properties that include the 
spectrum of non--wilderness uses. We are currently readying for 
transfer to Federal ownership a former mine in the Frank Church River 
of No Return Wilderness. We've closed the former un-reclaimed mine on 
the banks of the Wild and Scenic Salmon River. The transfer will remove 
a private home and no trespassing signs on one of the few flat spots on 
that stretch of river. It will be returned to the public, who can enjoy 
being able to stop there and learn about past mining days, camp or fish 
from land on which the abandoned and open mine is now reclaimed and 
closed--no longer a threat to the public, or to the Wild and Scenic 
River from its open shafts deep into the alluvium of the river.
    Recent purchases funded from the Inholding Accounts have secured 
access to the east side of the Ventana Wilderness in California, 
secured trails through the Wabayuma Peak Wilderness in Arizona and the 
Glacier Peak Wilderness in Washington and created access to a recently 
designated wilderness in Idaho. More are on the way.
Helps Private Landowners
    Landowners who are ready to sell deserve to have their properties 
purchased. Their isolated properties are primarily the result of 19th 
century congressional policy when homesteads, mining operations and 
timber production were encouraged without the balance of conservation. 
As a result, wilderness areas now dedicated by Congress are pockmarked 
with islands of private ownership that compromise the wilderness 
resource, become expensive management issues for the agencies and often 
befuddle landowners who wish to sell these properties for the benefit 
of their companies or families.
    This is why consistent funding for the Inholding Accounts is vital. 
We have learned that these lands become available about once a 
generation. It has been our experience that these critical inholdings 
come on the market at a steady rate as owners make decisions based on 
their family or business needs. About 3 to 5 percent come on the market 
every year--once a generation. If the opportunity to meet the seller's 
need is missed, it averages another 20 years before the opportunity 
comes again.
    If the opportunity to acquire these when offered is lost, the 
management issues and inefficiencies that result from private lands 
remaining within designated wilderness continue. Without consistent 
funding, numerous opportunities to acquire these private parcels will 
be lost. Not for a year, but often for at least another generation.
Increases Recreational Access and Economic Development
    On the east side of the Castle Crags Wilderness in California is a 
wall of private land that blocks access from Interstate 5. The nearby 
community of Dunsmuir is wholly supportive of transferring these lands 
to Federal ownership and opening up the Crags to visitation. Dunsmuir 
anticipates visitors that will come to the community and its climbing, 
biking and skiing shops it is hoped will grow to replace the loss of 
logging jobs. Dunsmuir has been suffering under an unemployment rate of 
18 percent and looks forward to having the recreational asset of the 
Crags' world class climbing only one mile off Interstate 5 and just 
outside their community--rather than a 7-mile hike around the private 
lands that now block access.
    Finally, it is also important to recognize that wilderness 
inholdings come in many shapes, sizes and prices depending on the real 
estate market in a particular area. A number of projects that fall in 
the agency project lists are inholdings. Thus, we ask that you give the 
highest level of support possible for Federal LWCF acquisitions.
    In summary, continued consistent funding of the Inholding Accounts 
is vital. Without such funding, significant opportunities to acquire 
private parcels within our designated wilderness areas will be lost for 
at least another generation. We urge your support of continued funding 
for these accounts and as much support for Federal LWCF acquisitions as 
possible. Support for these accounts:

  --Saves money by eliminating management inefficiencies that 
        frequently exceed the cost of acquisition;
  --Helps private landowners within federally designated wilderness and 
        other conservation areas;
  --Allows the agencies to act when opportunities occur to acquire 
        inholdings, often only once a generation; and
  --Completes designated wilderness areas, removing threats from 
        incompatible and harmful development within their boundaries.

    Thank you for the opportunity to testify. We greatly appreciate 
your time and consideration and the support of the subcommittee in 
securing these appropriations.
                                 ______
                                 
              Prepared Statement of The Wilderness Society
    The Wilderness Society (TWS) represents more than 500,000 members 
and supporters who share our mission to protect wilderness and inspire 
Americans to care for our wild places. We thank the subcommittee for 
the opportunity to submit comments on the fiscal year 2016 Interior, 
Environment and Related Agencies Appropriations bill.
    When deciding on funding that affects hundreds of millions of 
Americans, we urge you to take into account the full economic, social, 
environmental and cultural value of the many programs managed by this 
subcommittee. Our public lands and waters contribute significantly to 
the U.S. outdoor recreation economy. Modest, prudent investments in 
these critical programs will provide jobs and protect the health and 
economic wellbeing of local communities. We urge bold, immediate action 
in support of conservation funding for fiscal year 2016. Specifically, 
TWS recommends:
Wilderness Management
    America's National Wilderness Preservation System, now 50 years 
old, is suffering from a serious lack of funding. Trail maintenance, 
law enforcement, monitoring, and user education are all significantly 
underfunded, leading to an erosion of wilderness values and a 
diminution of the experience for visitors. We recommend that each of 
the agency wilderness management accounts be increased to support much 
needed trails maintenance, update signage, fight invasive species, 
restore watersheds, and monitor effects of climate change, among other 
critical needs.

  --Bureau of Land Management (BLM) Wilderness.--TWS supports restoring 
        BLM Wilderness funding to the fiscal year 2011 level of $19.663 
        million. The budget proposal of $18.559 million for BLM 
        wilderness management is strong, but still 6 percent lower than 
        the fiscal year 2011 enacted level. To just keep pace with 
        inflation the fiscal year 2016 request would need to be $20.430 
        million.
  --Forest Service Recreation, Wilderness and Heritage.--We urge 
        Congress to support wilderness and recreation by restoring 
        funding to the fiscal year 2010 level of $285.1 million for the 
        Recreation, Heritage and Wilderness Program. Recreation is the 
        most ubiquitous use of our forest lands, and accounts for more 
        than half of all job and income affects attributable to Forest 
        Service programs (over 190,000 jobs and $11 billion in spending 
        effects by visitors).
  --National Park Service Wilderness.--We support the proposed fiscal 
        year 2016 funding increase for the base wilderness program to 
        $462,000. As the Park Service prepares for their Centennial 
        next year this modest increase would help address the backlog 
        of Wilderness Stewardship Plans, support training for 
        wilderness park superintendents, improve coordination with 
        interagency Landscape Conservation Cooperatives, and reduce the 
        likelihood of litigation.
Land and Water Conservation Fund
    Having just celebrated its 50th anniversary year, LWCF remains the 
premier Federal program to conserve our Nation's land, water, historic, 
and recreation heritage. It is a critical tool to protect national 
parks, national wildlife refuges, national forests, BLM lands, and 
other Federal areas. The companion LWCF State grants program provides 
crucial support for State and local parks, recreational facilities, and 
trail corridors. LWCF also funds two other important State grant 
programs--the Forest Legacy Program and Cooperative Endangered Species 
programs--that ensure permanent conservation of important forest lands 
and threatened and endangered species' habitat, as well as important 
wildlife and recreational habitat and ensures that public lands stay 
public for hunters, anglers, and other outdoor recreationists for 
generations to come.

  --TWS strongly supports fully funding LWCF at the proposed $900 
        million, with a discretionary funding level of $400 million. 
        Full funding for LWCF will allow land management agencies to 
        manage our public lands more efficiently and cost-effectively. 
        This is in part achieved through strategic inholdings 
        acquisition which reduces internal boundary line surveying, 
        right-of-way conflicts and special use permits.
Emergency Wildfire Funding
    For years the U.S. Forest Service (USFS) and the Department of the 
Interior (DOI) have had to divert funds from vital conservation and 
wildfire prevention programs to cover wildfire suppression costs. This 
is having long-term negative effects on conservation and land 
management, especially where these funds are diverted from programs 
aimed at reducing fire risks and costs, which creates a vicious cycle. 
With longer and more severe fire seasons the Forest Service has seen 
wildfire management rise from 13 percent of the agency's budget in 
fiscal year 1991 to almost 50 percent today.

  --TWS strongly supports the bipartisan funding request at 70 percent 
        of the 10 year average, and the $841 million to be made 
        available under the disaster funding cap adjustment. This will 
        eliminate the need to pillage other accounts to pay for the 
        worst 1 percent of wildfires, and will treat them as the 
        natural disasters they truly are.
BLM Onshore Oil and Gas Policy
    The BLM is implementing important management reforms of its oil and 
gas program that is leading toward a better balance between oil and gas 
development on public lands and the protection of the numerous natural 
resource values that were put at risk by previous policies. It will 
also lead to Federal lands that are fully and fairly valued for the 
American people. TWS support the following administration proposed 
reforms of the BLM's oil and gas program:

  --A fee on onshore Federal operators to provide for a $48 million per 
        year inspection and enforcement program to implement 
        recommendations made by the GAO.
  --An increase of $5.8 million in BLM to accelerate development and 
        completion of Master Leasing Plans to ensure proper planning 
        and conservation during siting and development of oil and gas 
        wells.
  --Funds to enact royalty reforms and improve revenue collection 
        process to ensure that resources on Federal lands are fully and 
        fairly valued and delivering fair taxpayer returns.
  --Funds to implement regulations to reduce methane waste from wells 
        on Federal lands.
Sage-Grouse Initiative
    The Wilderness Society supports the administration's $45 million 
increased request for the BLM's Greater Sage-Grouse Conservation 
Strategy. If successful, implementation of this strategy will lead to 
recovery of this important western game species without the necessity 
of a listing under the Endangered Species Act.
BLM's National Landscape Conservation System
    The National Landscape Conservation System (Conservation Lands) 
comprises some 27 million acres of congressionally and presidentially 
designated lands and waters, including National Monuments, National 
Conservation Areas, Wilderness Areas and other designations. 
Stewardship of the Conservation Lands provides jobs for thousands of 
Americans while supporting vibrant and sustainable economies in 
surrounding communities. The Conservation Lands provide immeasurable 
public values from modest investments: outstanding recreational 
opportunities, wildlife habitat, clean water, wilderness, and open 
space near cities.

  --TWS strongly supports the administration's fiscal year 2016 
        recommendation of $81.079 million to ensure the natural, 
        cultural, and historical resource protection provided by the 
        Conservation Lands for the American public.
  --TWS also supports the proposed BLM Challenge Cost Share Program 
        funding of $12.416 million. This is a cross-cutting program 
        within DOI, which provides a 1:1 match for volunteer 
        activities.
Renewable Energy
    TWS is a strong proponent of transitioning our country to a clean 
energy economy by developing our renewable energy resources 
responsibly. We believe renewable energy is an appropriate and 
necessary use of public lands when sited in areas screened for habitat, 
resource, and cultural conflicts. Identifying and avoiding conflicts 
early is essential to avoid costly fights and create allies with local 
communities and the renewable energy industry. TWS hopes the Department 
will continue to support a program that ensures our public lands play 
an important role in supporting renewable energy infrastructure through 
environmental review, suitability screening, and energy zone 
identification to find suitable places for renewable energy projects. 
TWS is also a supporter of Secretarial Order 3330 on Mitigation that 
would ensure that any impacts are avoided or offset. TWS urges Congress 
to:

  --Support increased funding for renewable energy programs across 
        Interior from fiscal year 2015 enacted, up to $110.4 million 
        total.
  --Support an increase of $5 million in Cadastral, Lands, and Realty 
        Management program to enhance BLM's ability to designate energy 
        corridors to site high-voltage transmission lines, substations, 
        and related infrastructure in an environmentally sensitive 
        manner.
Implementation of Landscape Level Management
    The Wilderness Society supports the Department of Interior's 
philosophy of looking at development on a landscape level with proper 
mitigation policies. The recently released draft of the Desert 
Renewable Energy Conservation Plan in the California Desert is a prime 
example. It is crucial that the Department is fully funded to put in 
place processes that designates areas for energy development, both 
traditional and renewable, at the same time setting aside important 
areas for wildlife, cultural, and recreational values.
National Wildlife Refuge System Funding
    The National Wildlife Refuge System is the world's finest network 
of protected lands and waters. Designed to conserve our fish and 
wildlife resources, refuges are located in every State and Territory 
and provide enormous economic benefit for their local communities. 
Every year, the System attracts 45 million tourists, hunters, 
fishermen, and other recreationists, generating $1.7 billion in sales, 
sustaining nearly 27,000 jobs annually, and contributing over $185 
million in tax revenue. The Refuge System has been under increasing 
fiscal strain, however, with a maintenance backlog of over $3 billion.

  --We urge Congress to support funding for the National Wildlife 
        Refuge System at the President's recommendation of $508.2 
        million.
National Forest Restoration
    The Legacy Roads and Trails (LRT) and Collaborative Forest 
Landscape Restoration (CFLR) programs provide essential funding to 
restore watersheds, improve recreational access, protect aquatic 
species and advance collaborative restoration projects. LRT funding was 
slashed 50 percent in fiscal year 2011 and 22 percent in fiscal year 
2014. Given the recent evaluation of the Integrated Resource 
Restoration (IRR) program we recommend that LRT be removed from IRR, to 
enable it to operate as a complementary program to IRR, similar to 
CFLR. We also do not recommend that the IRR pilot program be expanded 
until the test regions have proven that IRR can improve restoration 
without a loss of transparency and accountability. Specifically, TWS 
recommends that Congress:

  --Restore Legacy Roads and Trails funding to $45 million and fully 
        fund the Collaborative Forest Landscape Restoration Program at 
        $60 million
Forest Service Inventory and Monitoring and Planning
    The Inventory and Monitoring Program is integral to forest 
planning. The Planning Program funds amendments and revisions to Land 
Management Plans, the overarching documents that guide the management 
of individual forests and grasslands. By providing adequate and 
consistent funding to both these programs, we advance plans and 
projects and avoid bad decisionmaking, unnecessary costs, and reduce 
risks to water quality and quantity, wildlife, and recreation. TWS 
recommends that Congress:

  --Support Inventory and Monitoring and Planning by restoring funding 
        to the running 10-year average of $162,060,500 and $45,712,600, 
        respectively.
National Forest Roads
    Forest Service roads funding has been cut by 41 percent since 2010, 
adding even more strain to a severely under-maintained road system. The 
road system enables management, recreation and restoration on our 
national forests and grasslands. It is also one of the most significant 
stressors on watersheds and ecosystems, contributing to water pollution 
and declining fish populations. Adequate funding is needed to create a 
sustainable, safe road system that minimizes negative impacts of roads, 
provides high quality recreational access, and to stormproof roads 
against anticipated severe flood flows resulting from climate change.

  --We urge Congress to fund Capital Improvement and Maintenance Roads 
        at the running 10-year average of $201,702,200 in fiscal year 
        2016.
National Forest Trails
    There are 158,000 miles of trails in the National Forest System. 
These trails provide 50 million visitor days of outdoor recreational 
use each year. Annual visitor days have grown 376 percent since 1977, 
and the total mileage of trails has grown 56.9 percent to accommodate 
this. Unfortunately, the trails maintenance and reconstruction line 
item has remained essentially flat since 1980, after adjusting for 
inflation. In fiscal year 2015 the trails budget was cut 9 percent 
compared to fiscal year 2010, despite the fact that GAO has reported a 
$500 million trail maintenance backlog. Currently, the Forest Service 
is only able to maintain a quarter of its trail miles to a minimum 
standard condition.

  --We urge Congress to fund Capital Improvement and Maintenance Trails 
        at its fiscal year 2010 level of $85,381,000 in fiscal year 
        2016.

    [This statement was submitted by Alan Rowsome, Senior Director of 
Government Relations for Lands.]
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    Chairwoman Murkowski, Ranking Member Udall, members of the 
subcommittee: Thank you for the opportunity to offer testimony on 
fiscal year 2016 Interior, Environment and Related Agencies 
Appropriations Act. WCS was founded with the help of Theodore Roosevelt 
in 1895 with the mission of saving wildlife and wild places worldwide. 
Today, WCS manages the largest network of urban wildlife parks in the 
United States led by our flagship, the Bronx Zoo. Globally, WCS works 
to protect 25 percent of the world's biodiversity and manages more than 
200 million acres of protected lands around the world, employing more 
than 4,000 staff including 200 Ph.D. scientists and 100 veterinarians.
    The American conservation tradition is based on promoting 
sustainable use of our natural resources in order to preserve the 
world's species and environment for future generations. In recognition 
of the current fiscal constraints, it is important to note that 
effective natural resources management and conservation has indirect 
economic benefits, including contributing to local economies through 
tourism and other means.
    Internationally, by supporting conservation, the US is increasing 
capacity and governance in developing nations and improving our own 
national security as a result. And these efforts are absolutely 
critical, as we have reached a crisis with regard to the trafficking of 
wildlife. The illegal trade in elephant ivory, rhino horns, tiger skins 
and other illegal wildlife products is worth at least an estimated $8 
to $10 billion annually. Because of the lucrative nature of this 
industry, evidence is showing increasingly that transnational criminal 
organizations and terrorist groups that are involved in other major 
trafficking operations--drugs, humans and weapons--are engaged in 
wildlife trafficking as well.
                             u.s. ivory ban
    The Federal Government recently presented a plan to implement its 
National Strategy for Combating Wildlife Trafficking (National 
Strategy), which is designed to provide a framework for a whole-of-
government approach to addressing the crisis. Several programs within 
this bill form the base upon which that strategy is built, but a key 
piece of the overall National Strategy that has been of some concern to 
some members of the subcommittee--the U.S. Fish and Wildlife Service's 
(FWS) announcement to change its current Federal rule to further 
restrict the commercial sale of ivory--should be addressed first.
    On the ground in Africa and elsewhere, WCS scientists are seeing, 
first-hand, the devastating impact poaching is having on elephants, 
rhinos, tigers, and other iconic species. A study published by WCS 
found that in 2012 alone, 35,000 African elephants were killed for 
their ivory--that is an average of 96 elephants per day or one killed 
every 15 minutes. This finding is supported by a subsequent study that 
found that 100,000 elephants were poached between 2011 and 2013. Both 
studies show that conditions are dire for the subspecies of African 
forest elephants, which has declined by about two-thirds in a little 
more than a decade. Continued poaching at this rate may mean the 
extinction of forest elephants in the wild within the next 10 years and 
the potential loss of all African elephant species in the wild in our 
lifetimes. Action must be taken now to prevent this catastrophe from 
occurring.
    There is little question that China is the largest market for 
illegal ivory. However, the United States is also one of the larger 
destinations, both for domestic consumption and as a transshipment hub 
for Asia. As part of Operation Crash, the U.S. Fish and Wildlife 
Service and Department of Justice have successfully arrested criminals 
and prosecuted cases in several States over the last 18 months--
including Texas, New York, Florida and New Jersey--involving millions 
of dollars illegal ivory and rhino horn. These busts are strong 
evidence that there is a domestic problem with illegal ivory, all of 
which is smuggled in from overseas and which frequently crosses State 
lines, placing it firmly under Federal jurisdiction.
    The problem with ivory is that you cannot differentiate legal ivory 
antiques from illegal ivory without lab tests, which are costly and can 
damage the piece. Once raw or worked ivory from recently poached 
elephants is smuggled into the United States, it can easily be placed 
in the marketplace right alongside genuine antiques. A survey conducted 
in 2008 of 24,000 pieces of ivory being sold in antique stores in 16 
cities in the United States and Canada concluded exactly this point, 
finding that more than 7,000 of these items were potentially illegal. 
The system, as it was, was fundamentally flawed.
    Recognizing it does not have the resources to test and verify this 
many pieces of ivory, FWS is in the process of revising its rules 
regarding African elephant ivory to bring them more in line with the 
underlying statutes. FWS had initially indicated its intent to publish 
a proposed rule last summer, but after consulting with stakeholders 
from all sides, the agency appears to have taken the time to craft a 
rule that seeks to accommodate as many of these stakeholders as it can 
while still making meaningful changes that stop the domestic sale of 
illegal ivory.
    Last year's Interior bill in the House contained a provision that 
would have blocked FWS from proceeding on any rule related to ivory, 
forcing the continuation of a system that we know does not work and has 
been a contributing factor in the poaching of 100,000 elephants over 
the past 3 years. WCS understands that a preliminary rule is very close 
to being released. We would encourage the subcommittee to allow this 
process to continue so that the public can see the proposal and have a 
substantive debate on the actual content of the rule rather than the 
current arguments from both sides, which are based entirely on 
speculation about what the rule might contain.
                     u.s. fish and wildlife service
    Multinational Species Conservation Fund (MSCF): There is much more 
to the Federal effort to combat wildlife trafficking than the ivory 
ban, much of which is under this subcommittee's jurisdiction. Global 
priority species--such as tigers, rhinos, African and Asian elephants, 
great apes, and marine turtles--face constant danger from poaching, 
habitat loss and other serious concerns. MSCF programs have helped to 
sustain wildlife populations by controlling poaching, reducing human-
wildlife conflict and protecting essential habitat--all while promoting 
U.S. economic and security interests in far reaching parts of the 
world. These programs are highly efficient, granting them an outsized 
impact because they consistently leverage two to four times as much in 
matching funds. This program has been level-funded for the last 3 
fiscal years, and WCS requests that $11 million--equal to the 
President's request--be appropriated for the MSCF for fiscal year 2016.
    WCS has had great success on projects using funds from the MSCF. 
One grant we receive through the African Elephant Conservation Fund 
supports the longest running study of African forest elephants at 
Dzanga Bai in the Central African Republic. Despite political turmoil 
and instability in the country, the area remains an important habitat 
and gathering site for large numbers of elephants. Funds support 
ongoing surveillance and monitoring of the site, collection of baseline 
data, and collaboration with local anti-poaching efforts.
    FWS International Affairs: The FWS International Affairs (IA) 
program supports efforts to conserve our planet's rich wildlife 
diversity by protecting habitat and species, combating illegal wildlife 
trade, and building capacity for landscape-level wildlife conservation. 
The program provides oversight of domestic laws and international 
treaties that promote the long-term conservation of plant and animal 
species by ensuring that international trade and other activities do 
not threaten their survival in the wild. Within IA, the Wildlife 
Without Borders program seeks to address grassroots wildlife 
conservation problems from a broad, landscape perspective--building 
regional expertise and capacity while strengthening local institutions. 
WCS encourages supporting the President's request for $14.7 million.
    Office of Law Enforcement: The United States remains one of the 
world's largest markets for wildlife and wildlife products, both legal 
and illegal. A small group of dedicated officers at the FWS Office of 
Law Enforcement (OLE) are tasked with protecting fish, wildlife, and 
plant resources by investigating wildlife crimes--including commercial 
exploitation, habitat destruction, and industrial hazards--and 
monitoring the Nation's wildlife trade to intercept smuggling and 
facilitate legal commerce. Many of the new responsibilities placed on 
the FWS by the National Strategy will be enforced by the OLE, and WCS 
supports the President's request for $75.4 million. The additional 
funding requested for this year would allow OLE to expand its approach 
to target and stop illicit trade; ensure sustainable legal trade 
through the CITIES; place enforcement officers in transit hubs 
overseas; reduce demand for illegal products in consumer countries; 
and, provide technical assistance and grants to other nations to build 
local enforcement capabilities.
    Cooperative Landscape Conservation: Many of the domestic 
conservation programs in this bill provide funding to States to 
implement their conservation goals. But wildlife does not recognize 
political boundaries, and scarce conservation dollars can best be spent 
when effective planning and coordination takes place across entire 
ecosystems. The Cooperative Landscape Conservation Program funds a 
network of 22 Landscape Conservation Cooperatives (LCC) in the United 
States and Canada, which use a collaborative approach between Federal, 
State, tribal and local partners to identify landscape scale 
conservation solutions and work collaboratively to meet unfilled 
conservation needs, develop decision support tools, share data and 
knowledge, and facilitate and foster conservation partnerships. Funding 
will support landscape planning and design that will improve the 
condition of wildlife habitat and improve resilience of U.S. 
communities. WCS encourages the subcommittee to meet the President's 
request for $17.9 million for this program.
    State and Tribal Wildlife Grants Program: The State and Tribal 
Wildlife Grants program gives States and tribes funding to develop and 
implement comprehensive conservation plans to protect declining 
wildlife and habitats before protection under the Endangered Species 
Act is necessary. This important program is supported by more than 
6,200 organizations that have formed a national bipartisan coalition 
called Teaming with Wildlife, of which WCS is a steering committee 
member. WCS recommends Congress provide strong and continued support 
for fiscal year 2016 at levels at or above fiscal year 2015 
appropriations for the program.
                          u.s. forest service
    International Programs: The U.S. economy has lost approximately $1 
billion per year and over 200,000 jobs due to illegal logging, which is 
responsible for 15-30 percent of all timber by volume. The Forest 
Service International Program (FSIP) works to level the playing field 
by reducing illegal logging and improving the sustainability and 
legality of timber management overseas, translating to less underpriced 
timber undercutting U.S. producers. Through partnerships with USAID and 
the Department of State, FSIP helps to improve the resource management 
in countries of strategic importance to U.S. security.
    With technical and financial support from FSIP, WCS has been 
working to conserve a biologically rich temperate forest zone called 
the Primorye in the Russian Far East. The region hosts over a hundred 
endangered species as well as numerous threatened species, including 
the Far Eastern leopard and Amur tiger. FSIP works with us to exchange 
information and methodologies with Russian scientists, managers, and 
students on a variety of wildlife-related topics to support 
conservation and capacity building efforts and ensure the sustainable 
management of forests and wildlife habitat.
    FSIP has been level-funded for several years. Given the economic 
benefits to U.S. timber producers and the program's excellent history 
of leveraging four additional dollars in matching funds for each 
Federal dollar invested, WCS encourages the subcommittee to appropriate 
$9 million for the program, an increase of $1 million from fiscal year 
2015. With additional appropriated funding, FSIP would expand a number 
of activities, including developing new technologies, protecting 
habitat for migratory species and endangered wildlife, promoting 
community forestry, supporting policy formulation, and strengthening 
law enforcement.
                       u.s. national park service
    Office of International Affairs: Since the establishment of the 
Office of International Affairs (OIA) in 1961, the U.S. Government has 
been facilitating technical assistance and exchange projects with 
counterpart agencies globally building on the legacy of American 
leadership in national parks management. OIA is also the managing 
agency for World Heritage Sites located in the United States. Thanks to 
this program, NPS is working on collaborative areas of trans-frontier 
concern, including at the Beringia Shared Heritage Initiative (U.S.-
Russia), which WCS has been involved with as part of our ongoing 
conservation efforts in Arctic Alaska. The international work conducted 
by NPS is not only about helping other countries protect their parks 
and heritage. It is about bringing home best practices and learning 
from international engagement that could benefit the American parks. 
WCS recommends including the President's request of $897,000 for the 
OIA in fiscal year 2016.
    In conclusion, WCS appreciates the opportunity to share its 
perspectives and make a case for increased investment in conservation 
in the fiscal year 2016 Interior, the Environment and Related Agencies 
Appropriations Act. Conservation of public lands is an American 
tradition and, as far back as 1909, Theodore Roosevelt recognized that 
the management of our natural resources requires coordination between 
all nations. Continued investment in conservation will reaffirm our 
global position as a conservation leader, while improving our national 
security and building capacity and good governance in developing 
countries.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society appreciates the opportunity to provide 
testimony on the fiscal year 2016 budget for the Department of 
Interior, Environment, and Related Agencies. The Wildlife Society was 
founded in 1937 and is a non-profit scientific and educational 
association representing nearly 9,000 professional wildlife biologists 
and managers. Our mission is to inspire, empower, and enable wildlife 
professionals to sustain wildlife populations and habitats through 
science-based management and conservation.
                     u.s. fish and wildlife service
    The State and Tribal Wildlife Grants Program is the only Federal 
program that supports States in preventing wildlife from becoming 
endangered. It is also the primary program supporting implementation of 
State Wildlife Action Plans, which detail on the ground conservation 
actions in each State to keep common species common. Funding assistance 
for State wildlife agencies is one of the highest priority needs to 
prevent further declines in at-risk species in every State. Previous 
budget reductions and sequestration have had a serious and 
disproportionate impact on State and Tribal Wildlife Grants. We are 
appreciative of the increase in funding recommended in the President's 
budget, to $70 million in fiscal year 2016. We recommend Congress 
appropriate at least $70 million for State and Tribal Wildlife Grants 
in fiscal year 2016. We also ask that Congress not shift additional 
funds directed to States through formula grants to a competitive 
allocation. This funding is critical for maintaining wildlife diversity 
programs at the State level and a further reduction in the formula 
grants may have dramatic negative consequences.
    As a member of the Cooperative Alliance for Refuge Enhancement, or 
CARE, The Wildlife Society supports the President's request for the 
National Wildlife Refuge System's operations and maintenance accounts 
at $508.2 million for fiscal year 2016. CARE estimates that the Refuge 
System needs at least $900 million in annual Operations and Maintenance 
funding to properly administer its 562 refuges and 38 wetland 
management districts spanning over 150 million acres. Given current 
fiscal realities, we understand that funding at $900 million is not 
currently possible. However, at its highest funding level in fiscal 
year 2010, the Refuge System received only $503 million--little more 
than half the needed amount. Since that time, congressional 
appropriations have not only failed to account for rising costs, but 
have been steadily backsliding resulting in the loss of 324 employees 
since 2011, or 9 percent of all staff. Yet the Refuge System actually 
pays for itself several times over by generating $4.87 in economic 
activity for every $1 appropriated by Congress to run the Refuge 
System.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded despite 
its demonstrated effectiveness. We support the President's request of 
$34.1 million and encourage Congress to match this request for fiscal 
year 2016.
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the U.S., Latin 
America and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. This program should be funded 
at or above $6.5 million to achieve maximum success. However, 
recognizing the current fiscal climate, The Wildlife Society recommends 
Congress increase funding for the Neotropical Migratory Bird 
Conservation Act to $4.16 million in fiscal year 2016.
    For fiscal year 2016, the FWS proposes to restructure the budget 
for all endangered species work within the Ecological Services Program. 
Endangered species recovery efforts can ultimately lead to delisting, 
resulting in significant benefits to species through State management 
efforts. FWS, with the help of Federal and State agency partners, has 
been working to implement new strategies to increase the efficiency and 
effectiveness of this program and to reduce the regulatory burden on 
private landowners and industry partners. To support these actions and 
the increased emphasis on consultation and recovery, we recommend 
Congress match the President's request and provide $38 million for 
Listing, $108.9 million for Planning and Consultation, and $126.3 
million for Conservation and Restoration in fiscal year 2016.
    The voluntary Partners for Fish and Wildlife Program (PFW) provides 
financial and technical assistance to private landowners across the 
country to restore degraded habitat and to safeguard against potential 
regulatory burdens associated with endangered species listings. With 
over two-thirds of our Nation's lands held as private property, and up 
to 90 percent of some habitats lost, private lands play a key role in 
preserving our ecosystem. For example, working under a new MOU with the 
Natural Resource Conservation Service, PFW has been critical in 
engaging private landowners to restore and maintain habitat for the 
Greater Sage-Grouse in States like Idaho and Nevada; potentially 
removing the need for a future listing. We urge Congress to provide $60 
million in support of the PFW Program in fiscal year 2016 in order to 
allow landowners to help contribute to land and wildlife preservation.
    Through its International Affairs office, FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. International trade, import, and transportation of 
wildlife species can have a huge impact on America's security, economy, 
and environment. Careful regulation of imports and implementation of 
international policies is an important task. We ask Congress to match 
the President's request of $14.7 million in support of FWS 
International Affairs in fiscal year 2016.
                       bureau of land management
    BLM lands support over 3,000 species of wildlife, more than 300 
federally proposed or listed species, and more than 1,300 sensitive 
plant species. Historically, the Wildlife and Fisheries Management 
(WFM) and the Threatened and Endangered Species Management (TESM) 
programs have been forced to pay for the compliance activities of BLM's 
energy, grazing, and other non-wildlife related programs, eroding both 
their ability to conduct proactive conservation activities and their 
efforts to recover listed species. Given the significant underfunding 
of the BLM's wildlife programs, combined with the tremendous expansion 
of energy development across the BLM landscape, we recommend Congress 
appropriate $89.4 million for BLM Wildlife Management in fiscal year 
2016. This will allow BLM to maintain and restore wildlife and habitat 
by monitoring habitat conditions, conducting inventories of wildlife 
resources, and developing cooperative management plans. We support the 
proposed increase of $37 million for sage-grouse conservation efforts; 
this kind of broad-scale, landscape based conservation is exactly what 
is needed to manage and conserve sage-grouse across their range.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program, to allow BLM to meet its responsibilities 
in endangered species recovery plans. BLM's March 2001 Report to 
Congress called for a doubling of the Threatened and Endangered Species 
budget to $48 million and an additional 70 staff positions over 5 
years. This goal has yet to be met. In light of this, we strongly 
encourage Congress to increase overall funding for BLM's endangered 
species program to $48 million in fiscal year 2016.
    The Wildlife Society, part of the National Horse and Burro 
Rangeland Management Coalition, appreciates the commitment of BLM to 
addressing the problems associated with Wild Horse and Burro 
Management. We support the requested increase of $3 million for 
implementation of the National Academy of Sciences recommendations and 
findings and continued research and development on contraception and 
population control. However, with more than 22,500 horses above BLM's 
stated Appropriate Management Levels on the range and nearly 50,000 
horses in off-site long- and short-term holding facilities The Wildlife 
Society is concerned about BLM's emphasis on fertility control alone. 
The current language limiting the use of humane euthanasia for unwanted 
or unadoptable horses should be removed to allow BLM to use all 
necessary management tools to bring populations of on- and off-range 
wild horses and burros within manageable range and additional funding 
should be requested to correct the habitat damage that has occurred due 
to overpopulation of these animals. The requested $80.6 million should 
be provided to BLM if they continue removing excess horses from the 
range at a reasonable rate and focus additional resources on habitat 
restoration.
                         u.s. geological survey
    The basic, objective, and interdisciplinary scientific research 
that is supported by the USGS is necessary for understanding the 
complex environmental issues facing our Nation today. This science will 
play an essential role in the decisionmaking processes of natural 
resource managers, and it will help protect our water supply and 
conserve endangered species. More investment is needed to strengthen 
USGS partnerships, improve monitoring, produce high-quality geospatial 
data, and deliver the best science to address critical environmental 
and societal challenges. The Wildlife Society supports funding of at 
least $1.2 billion for USGS in fiscal year 2016.
    The Ecosystems Program of USGS contains programmatic resources for 
fisheries, wildlife, environments, invasive species and the Cooperative 
Fish and Wildlife Research Unit. The Ecosystems program strives to 
maximize research and support for comprehensive biological and 
ecosystem based needs. The Wildlife Society supports the President's 
request of $176 million for USGS's Ecosystems Department in fiscal year 
2016. Within Ecosystems, we support the request of $46.7 million for 
the Wildlife Program.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) are 
managed under the Ecosystems Department and conduct research on 
renewable natural resource questions, participate in the education of 
graduate students, provide technical assistance and consultation on 
natural resource issues, and provide continuing education for natural 
resource professionals. In fiscal year 2001, Congress fully funded the 
CFWRUs, allowing unit productivity to rise to record levels. Since 
then, budgetary shortfalls have continued to cause an erosion of 
available funds, resulting in a current staffing vacancy of nearly one 
quarter of the professional workforce. In order to fill current 
vacancies, restore seriously eroded operational funds for each CFWRU, 
and enhance national program coordination, the fiscal year 2016 budget 
for the CFWRUs should be increased to $20 million, the level requested 
by the President. This would restore necessary capacity in the CFWRU 
program and allow it to meet the Nation's research and training needs.
    The National Climate Change and Wildlife Science Center plays a 
pivotal role in addressing the impacts of climate change on fish and 
wildlife by providing essential scientific support. In order for this 
role to be fully realized, we recommend that Congress fund the National 
Climate Change and Wildlife Science Center at the requested $37.4 
million in fiscal year 2016.
                          u.s. forest service
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered species, and another 3,250 at-risk 
species. In fiscal year 2011, the Forest Service combined several 
programs and budgets, including Vegetation and Watershed Management, 
Wildlife and Fisheries Habitat Management, and Forest Products into a 
single Integrated Resource Restoration activity budget. Although we 
have some reservations about this merger, because it makes 
accountability to stakeholders and Congress more difficult, we urge 
Congress to support the request of $822.1 million for the Integrated 
Resource Restoration program in fiscal year 2016.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. Furthermore, it will 
play a key role in developing strategies for mitigating the effects of 
climate change. We urge Congress to match the President's request of 
$292 million in fiscal year 2016 for Forest and Rangelands to support 
this high-quality research.
                     wildfire disaster funding act
    We appreciate the subcommittee's support of the Wildfire Disaster 
Funding Act (H.R. 167) and request it be included in this bill. It 
would provide the structure to fund a portion of the USDA Forest 
Service (USFS) and Department of the Interior (DOI) wildfire 
suppression costs through a budget cap adjustment under the Balanced 
Budget and Emergency Deficit Control Act of 1985, as amended, and 
provide the USFS and DOI with a funding structure similar to that used 
by other agencies who respond to natural disaster emergencies.
    Thank you for considering the recommendations of wildlife 
professionals.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
